<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA


                             ANNUAL REPORT

                                  2016

=======================================================================

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 6, 2016

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 	           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             Available via the World Wide Web: http://www.cecc.gov

                                    _________
                  
                        U.S. GOVERNMENT PUBLISHING OFFICE
                
   21-471 PDF                    WASHINGTON: 2016
  _____________________________________________________________________________
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; DC area (202) 512-1800
            Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001






              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    MARCO RUBIO, Florida, Cochairman
Chairman                             JAMES LANKFORD, Oklahoma
ROBERT PITTENGER, North Carolina     TOM COTTON, Arkansas
TRENT FRANKS, Arizona                STEVE DAINES, Montana
RANDY HULTGREN, Illinois             BEN SASSE, Nebraska
DIANE BLACK, Tennessee               DIANNE FEINSTEIN, California
TIMOTHY J. WALZ, Minnesota           JEFF MERKLEY, Oregon
MARCY KAPTUR, Ohio                   GARY PETERS, Michigan
MICHAEL M. HONDA, California
TED LIEU, California

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                Elyse B. Anderson, Deputy Staff Director

                                  (ii)
                                  
                                  
                            C O N T E N T S

                              ----------                              
                                                                   Page
I. Executive Summary.............................................     1

    Introduction.................................................     1
    Overview.....................................................     5
    Recommendations to Congress and the Administration...........    10
    Specific Findings and Recommendations........................    16
    Political Prisoner Database..................................    57

II. Human Rights.................................................    61

    Freedom of Expression........................................    61
    Worker Rights................................................    79
    Criminal Justice.............................................    99
    Freedom of Religion..........................................   121
    Ethnic Minority Rights.......................................   142
    Population Control...........................................   147
    Freedom of Residence and Movement............................   169
    Status of Women..............................................   178
    Human Trafficking............................................   186
    North Korean Refugees in China...............................   197
    Public Health................................................   203
    The Environment..............................................   211

III. Development of the Rule of Law..............................   223

    Civil Society................................................   223
    Institutions of Democratic Governance........................   235
    Commercial Rule of Law.......................................   252
    Access to Justice............................................   268

IV. Xinjiang.....................................................   282

V. Tibet.........................................................   298

VI. Developments in Hong Kong and Macau..........................   328

                                               

                          I. Executive Summary


                              Introduction

    December 2016 will mark 15 years since China's accession to 
the World Trade Organization (WTO). At that time, the Chinese 
government made commitments that were important not only for 
China's commercial development in the international 
marketplace, but also for its development of the rule of law 
domestically. China--now ranking as the world's second largest 
economy--has benefited greatly from the international rules-
based system in driving its economic transformation and growth, 
but the Chinese Communist Party has continued to reject the 
notion that the rule of law should supersede the Party's role 
in guiding the functions of the state, impeding China's ability 
to honor its WTO obligations. As such, China has largely failed 
to implement the substantive legal reforms anticipated 15 years 
ago and has persisted in violating international human rights 
standards and its own domestic laws with lasting harm to both 
U.S. interests and the Chinese people.
    The Congressional-Executive Commission on China 
(Commission), established by the U.S.-China Relations Act of 
2000, which also extended Permanent Normal Trade Relations 
(PNTR) to China, is mandated to monitor human rights and rule 
of law developments in China. Since October 2002, the 
Commission has issued an Annual Report each year, providing a 
summary of key developments over a range of issues, identifying 
new trends, and highlighting cases of political prisoners and 
rights advocates. As the Commission's 15th Annual Report 
demonstrates, it serves the need to monitor the Chinese 
government's repression of the Chinese people and continues to 
be a vital source of accurate information.
    During the Commission's 2016 reporting year, the Chinese 
Communist Party and government further restricted the limited 
space for peaceful expression, religious activity, and assembly 
with harsh consequences for rights advocates, lawyers, and 
civil society, and continued to implement the world's most 
sophisticated system of Internet control and press censorship, 
affecting both domestic and foreign journalists. For the first 
time since 2012, the Chinese government expelled a foreign 
journalist, in this case, for criticizing the government's 
ethnic policies in the Xinjiang Uyghur Autonomous Region 
(XUAR). The government routinely denied medical treatment to 
imprisoned activists, targeted family members and associates of 
rights advocates, including those overseas, with harassment and 
retribution, and became more brazen in exerting its 
extraterritorial reach. The government also continued harsh 
security measures that disregarded the protection of human 
rights in ethnic minority regions including Tibetan autonomous 
areas and the XUAR. Underscoring the severity of conditions in 
China, 12 countries, led by the United States, expressed 
serious concerns about human rights abuses in China at the 
March 2016 gathering of the UN Human Rights Council, the first 
such collective statement on China in the history of the 
Council. The group specifically noted ``arrests and ongoing 
detention of rights activists, civil society leaders, and 
lawyers'' as well as ``unexplained recent disappearances and 
apparent coerced returns of Chinese and foreign citizens from 
outside mainland China.''
    Legislative and policy developments during this past year 
included further reforms to the household registration (hukou) 
system and passage, after years of advocacy, of the PRC Anti-
Domestic Violence Law and the PRC Charity Law. Yet these 
efforts were overshadowed by the apparent distrust and 
sometimes hostility with which the Chinese government continues 
to view its citizens and by the lackluster implementation and 
enforcement of laws and regulations meant to protect China's 
most vulnerable citizens and stem the degradation of its 
polluted physical environment.
    Faced with a rapidly aging population, a shrinking labor 
pool, and high levels of public dissatisfaction, central Party 
authorities announced in October 2015 a decision to adopt a 
universal two-child policy. Nevertheless, authorities 
maintained that population control policies will continue to be 
the long-term ``basic national policy,'' without any noticeable 
reduction to the vast infrastructure of government officials 
who implement coercive population control policies in violation 
of international standards. The revision of birth limits may 
never fully address China's sex ratio imbalance. As of 2015, 
there were reportedly approximately 34 million more men than 
women in China. Furthermore, according to a 2010 estimate, 
there were 62 million ``missing women and girls,'' due in part 
to a cultural preference for sons exacerbated by decades of 
coercive population control policies. The sex ratio imbalance 
has led to a demand for marriageable women, which is a factor 
that may contribute to human trafficking for forced marriage 
and commercial sexual exploitation.
    While official statements in 2012 at the start of Xi 
Jinping's tenure as Chinese Communist Party General Secretary 
and in 2013 as President of China seemed to indicate that he 
was open to political reforms and limits on the power of public 
officials; in fact, Xi has overseen a deterioration in human 
rights and rule of law conditions in China marked by greater 
consolidation of his own power--leading some analysts to draw 
comparisons to Mao Zedong--through forced ideological 
conformity and the systematic persecution of human rights 
lawyers and defenders. Xi, referred to this year by several 
provincial and local Party leaders as the ``core'' (hexin) 
leader, continued to head at least six Party ``leading small 
groups'' (lingdao xiaozu) that guide policy in vital areas 
including the economy, domestic reform, and national defense. 
Xi's leadership style has led some experts to question whether 
he will adhere to Party precedent whereby promotions to the 
most senior positions are based on inner Party negotiations and 
consensus, when the appointment of cadres to the Standing 
Committee of the Communist Party Central Committee Political 
Bureau (Politburo) occurs at the 19th Party Congress in 2017, 
at which time five of its seven members are expected to retire. 
The anticorruption campaign against Party officials, an ongoing 
feature of Xi's domestic policy, has led to accusations of 
torture and coerced confessions and even a spate of suicides by 
those who reportedly were to undergo Party disciplinary 
investigations. A former energy administration official 
asserted during his trial in February 2016 that authorities had 
employed torture to force him to sign a confession. Moreover, 
some have argued that Xi has used the anticorruption campaign 
to eliminate political rivals, as demonstrated by life 
sentences imposed on former Chongqing municipality Party 
Secretary Bo Xilai in 2014, former Politburo Standing Committee 
member and Minister of Public Security Zhou Yongkang in 2015, 
and in 2016, to Ling Jihua, senior aide to former President and 
Party General Secretary Hu Jintao.
    Under Xi's leadership, both the Party and government 
continued to invoke nationalist rhetoric featuring a ``Chinese 
dream'' to spur ``the great rejuvenation of the Chinese 
nation.'' Central to that vision is the rejection of so-called 
Western or universal values that the current Party leadership 
has labeled as ``foreign'' or ``hostile'' forces. Such rhetoric 
is used to delegitimize calls for political reform and various 
forms of social organization viewed as threats to the Party. In 
April 2016, Xi addressed senior Communist Party and government 
leaders at a rare national conference on religious work, the 
highest level meeting on religious work since 2001, and warned 
that China must be vigilant in guarding ``against overseas 
infiltration via religious means,'' while underscoring the 
importance of the ``sinicization'' of religion. The Party 
increasingly promoted the notion that civil society, including 
religious groups, was especially susceptible to ``foreign 
influence'' and ``infiltration'' and promulgated legislation, 
such as the PRC Law on the Management of Overseas Non-
Governmental Organizations' Activities in Mainland China, to 
counter this perceived threat. Chinese authorities continued to 
impose controls on religion and civil society in ethnic 
minority areas. In March 2016, a senior Tibet Autonomous Region 
Party official highlighted deeply entrenched hostility toward 
the Dalai Lama, Tibetan Buddhism's best known teacher, by 
declaring that he is ``no longer a religious leader after he 
defected [from] his country and betrayed its people.'' In a 
June 2016 white paper regarding religion in the Xinjiang Uyghur 
Autonomous Region, where millions of Muslims live, Chinese 
authorities warned that they would ``never allow any foreign 
organization or individual to interfere with China's religious 
affairs.''
    In the face of increasing repression, well-known advocates 
like lawyer Gao Zhisheng, Mongol rights advocate Hada, and 
rights defender Guo Feixiong continued to speak out about the 
abuses they have suffered at the hands of their government. 
Although Gao and Hada are no longer physically imprisoned, 
authorities persist in monitoring their activities; in November 
2015, authorities in Guangdong province sentenced Guo to a six-
year prison term in connection with his advocacy of press 
freedom. As of August 2016, Guo reportedly had been on a hunger 
strike for three months to protest his treatment in prison. 
These cases and more than 1,300 other current political 
prisoner cases are documented in the Commission's Political 
Prisoner Database. Family members of those unjustly imprisoned 
engaged in bold advocacy on behalf of their loved ones, 
including the wives of some of the lawyers and rights defenders 
detained during the crackdown that began in and around July 
2015 (July 2015 crackdown) and later charged with crimes of 
``endangering state security.''
    Also noteworthy during this reporting year were the anger 
and discontent expressed by Chinese citizens calling for 
government accountability, transparency, and justice with 
respect to issues including food and drug safety, access to 
medical care, pollution, and official misconduct. Public dismay 
was apparent in the uproar over tainted vaccines and in the 
public response to the suspicious death of Lei Yang, a 29-year-
old environmentalist and new father, while in police custody in 
May 2016. An open letter by Lei's fellow alumni of Renmin 
University described his death as ``the random, willful killing 
of an ordinary, urban, middle-class person.'' The letter 
concluded with a remarkable statement:

        The death of Lei Yang is not an accident, but a 
        structural tragedy . . .. We must have the most basic, 
        dependable safety, civil rights, and urban order. Short 
        of this, we, who are not too old to give up on the 
        future, will not let the issue go. We won't tolerate 
        evil indefinitely.

                                Overview

    Over the Commission's 2016 reporting year, the following 
general themes and key developments emerged:

        1. Ideological conformity and claiming the primacy of 
        the Communist Party remain of paramount importance as 
        does reining in independent thought.
        2. Civil society increasingly is viewed by the Party 
        and government as a security threat and is subject to 
        expanding control.
        3. Rule by law has taken deeper root as the Party and 
        government use the law to repress and control China's 
        citizenry, yet disregard the law when it does not serve 
        their priorities.
        4. The economic slowdown and labor unrest are sources 
        of insecurity for the Party and government.
        5. ``One Country, Two Systems'' has been compromised 
        while basic freedoms erode in Hong Kong.

          Ideological Conformity and the Primacy of the Party

    The Communist Party's determination to rein in independent 
thought, ensure ideological conformity within its own ranks and 
beyond, and guarantee its primacy remained evident across 
Chinese society during this reporting year. Party disciplinary 
and surveillance measures and demands for ``loyalty'' were 
aimed at bolstering Xi's political power. In October 2015, the 
Party issued a rule against the ``improper discussion'' of 
central Party policies. In February 2016, Xi reiterated the 
Party's dominance over the media in China during widely 
publicized visits to Xinhua, People's Daily, and China Central 
Television (CCTV)--the three flagship state and Party media 
outlets. In a speech on media policy at a Party forum the same 
day, Xi reportedly declared that the media ``must be surnamed 
Party'' (bixu xing dang) and called for ``absolute loyalty'' to 
the Party from official media outlets and personnel.
    Government and Party authorities placed greater pressure on 
national propaganda makers to promote the Party's ideology. In 
June 2016, for example, the Party's discipline arm published a 
critical report on the work of the Central Propaganda 
Department. The report criticized ``ineffective'' news 
propaganda and weak management of social media, and called for 
stronger coordination of ideological work in higher education.
    The intensification of ideological conformity met with 
criticism even within Party ranks. In early February 2016, the 
chief editor of the Party-run Global Times, Hu Xijin, received 
media attention for a post on his microblog account urging that 
``China should open up more channels for criticism and 
suggestions . . ..'' When influential retired real estate mogul 
and Party member Ren Zhiqiang questioned Xi's demand for 
loyalty, his microblog accounts were shut down and his Party 
membership suspended. A March 2016 open letter--posted online 
by authors who identified themselves as ``loyal Communist Party 
members''--called for Xi's resignation. The Chinese government 
responded swiftly and harshly by detaining more than a dozen 
people, including the family members of exiled writers who 
denied any involvement.

                    Civil Society as Security Threat

    With the passage in April 2016 of a widely criticized law 
governing overseas NGO activity in China, the government 
codified an approach to civil society that treats many groups 
and individuals operating in this space as security threats 
rather than important contributors to Chinese society. One of 
the law's new provisions prohibits foreign NGO activities in 
mainland China that officials deem ``endanger China's national 
unity, security, [or] ethnic unity'' or ``harm China's national 
interests and the public interest . . .,'' giving the 
government an overly broad level of discretion in violation of 
international standards. The legislation also designates the 
Ministry of Public Security and provincial-level public 
security agencies as the registration authorities for foreign 
NGOs. The full implications of the new law, which will take 
effect on January 1, 2017, are not yet clear, but its passage 
is widely viewed as a major blow to Chinese civil society. The 
broad range of organizations covered under the law, such as 
industry and trade associations, chambers of commerce, and 
development- and rights-based entities, is likely to have a 
chilling effect on innovation, exchanges, and cooperative 
projects.
    Individuals and entities previously regarded as working in 
areas deemed acceptable by the government increasingly found 
that this is no longer the case. After more than 20 years of 
distinguished work in areas including anti-domestic violence 
litigation and the protection of rural women's land rights, the 
Beijing Zhongze Women's Legal Counseling and Service Center 
ceased operations in February 2016, reportedly in response to a 
government directive. In addition, labor rights advocate He 
Xiaobo and his organization Nan Fei Yan Social Work Services 
Center previously received recognition and funding from the 
government for providing services to migrant workers, but in 
December 2015, authorities detained He, along with over a dozen 
other labor rights advocates, and charged him with 
``embezzlement'' before releasing him on bail. While 
unregistered religious groups, including Christian house 
churches, have long faced government harassment and worse for 
worshipping outside of state-approved parameters, this 
reporting year Pastor Gu Yuese (Joseph Gu), a senior official 
in both the Three-Self Patriotic Movement and the China 
Christian Council--the two state-sanctioned Protestant 
Christian associations in China--was fired and then detained 
and arrested following his public condemnation of authorities' 
cross removal campaign in Zhejiang province. Although Zhejiang 
authorities reportedly released him on bail in March 2016, his 
movement and communications were restricted. These and similar 
developments raise concerns that domestic civil society and 
religious groups, even those that previously have had limited 
space to operate, are under increasing threat of government 
pressure, harassment, and closure.

                              Rule by Law

    The Chinese government and Party continued to embrace rule 
by law--that is, using the law as a means to expand control 
over Chinese society while disregarding the law when it does 
not accommodate Party imperatives or advance Party objectives. 
Chinese lawyers and advocates at the vanguard of pressing for 
human rights and access to justice continued to find themselves 
targeted under the Chinese government and Party's abusive rule 
by law. As of May 2016, authorities had formally arrested at 
least 20 individuals in connection with the crackdown on 
lawyers and rights advocates that began in and around July 
2015, 16 of them on charges that fall under the category of 
``endangering state security,'' which can lead to lengthy 
sentences. In August 2016, four of these individuals reportedly 
pleaded guilty to subversion charges, following hearings in a 
Tianjin court at which their family members were reportedly 
barred from attending. Zhou Shifeng, director of the Fengrui 
Law Firm at the center of the July 2015 crackdown, was 
sentenced to 7 years in prison, and Hu Shigen, a long-time 
rights advocate and house church leader, was sentenced to 7 
years and 6 months. Shortly before these hearings, authorities 
said detained rights lawyer Wang Yu and legal assistant Zhao 
Wei were released on bail, but as of early August, neither had 
been seen publicly. Additionally, family members of those who 
run afoul of the Chinese government are increasingly at risk of 
collective punishment. For example, authorities placed Bao 
Zhuoxuan, the teenage son of Wang Yu and Bao Longjun, under 
strict surveillance and monitoring at the home of his 
grandparents and prevented him from seeking legal counsel or 
talking to journalists.
    During this reporting year, Chinese authorities continued 
to use ``black jails'' and other forms of extralegal and 
extrajudicial detention to suppress individuals such as those 
petitioning the government over grievances, Falun Gong 
practitioners, and rights advocates. Even though China ratified 
the Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment in 1988, the UN Committee 
against Torture concluded in late 2015 that China has failed to 
eliminate torture, enforced disappearances, deaths in custody, 
and numerous other forms of ill-treatment in detention.
    Chinese authorities' ongoing broadcasts on state television 
of prerecorded confessions of individuals who have yet to be 
formally charged with crimes or whose cases have not been sent 
to trial are serious violations of international standards with 
regard to the right to due process, a fair trial, and the right 
against self-incrimination. Not only did Chinese authorities 
broadcast ``confessions'' of Chinese citizens, such as Zhang 
Kai, a rights lawyer who worked with Christian congregations in 
Wenzhou municipality, Zhejiang, to prevent the local government 
from removing crosses from their places of worship, they aired 
the ``confessions'' of two Swedish citizens--Peter Dahlin, the 
cofounder of a legal advocacy NGO in Beijing municipality, and 
Gui Minhai, the co-owner of a publishing company in Hong Kong. 
In testimony presented at a Commission hearing in May 2016, 
Gui's daughter, Angela, asserted her father's confession was 
``staged,'' stating that the Chinese government authorities 
``felt they needed to fabricate a justification'' for his 
illegal detention.
    The Chinese government continued to obstruct access to 
legal counsel for individuals detained in politically sensitive 
cases, including many of the legal professionals rounded up 
during the crackdown that began in and around July 2015, as 
well as elected Wukan village Party committee chief Lin Zulian 
in Guangdong province. The UN Working Group on Arbitrary 
Detention released an opinion in June 2016 finding that 
American citizen Sandy Phan-Gillis, detained by Chinese 
authorities since March 2015, had been, among other things, 
denied access to legal counsel. The opinion marked the first 
time the Working Group had determined that the Chinese 
government arbitrarily detained an American citizen.
    Authorities in Tibetan autonomous areas and the XUAR 
continued to implement policies that further threaten culture, 
language, and religion, as well as prevent the effective 
exercise of local ``autonomous'' governance enshrined in 
China's Constitution. Additionally, on December 27, 2015, the 
National People's Congress adopted the PRC Counterterrorism 
Law, which contains provisions that expand police authority, 
raising concerns among human rights organizations that 
criticized the law as repressive and expressed fears that it 
would further empower officials to punish peaceful activities 
and target ethnic minorities.

                  Economic Insecurity and Labor Unrest

    Party legitimacy over the last three decades has been 
inextricably linked to economic growth and improving the lives 
of the Chinese people. But this legitimacy could face 
challenges as economic growth slows to the weakest annual rate 
in 25 years and economic liberalization stalls. President Xi's 
emphasis on the media's role in ``tell[ing] China's stories 
well'' extended to economic reporting. Chinese journalists 
covering the stock market reported being instructed to focus on 
official statements issued by the China Securities Regulatory 
Commission, which offers a decidedly positive outlook on the 
state of the economy. At the same time, the websites of many 
U.S. media companies remained blocked in China, including the 
New York Times, Bloomberg News, and the Wall Street Journal.
    The Commission observed growing labor unrest, especially in 
the manufacturing and construction sectors, as well as a 
government crackdown on labor advocacy. A labor rights group 
based in Hong Kong recorded over 2,700 strikes and protests in 
China in 2015, more than double the number recorded in 2014. 
The Chinese government prevents workers from organizing 
independent unions in part because the Party still regards 
organized labor as it regards citizen activism in other public 
spheres: a threat to the Party's hold on power. While wages in 
China continued to rise, workers faced slower wage growth, and 
disputes over unpaid wages increased. In December 2015, public 
security officials in Guangdong province, a manufacturing hub 
home to many of China's labor NGOs, detained at least 18 labor 
rights advocates affiliated with labor NGOs. As of July 2016, 
two remained in detention. Such economic insecurity and labor 
unrest is set against the backdrop of China's efforts to gain 
market economy status in the United States based on its WTO 
accession protocol.

             Erosion of Hong Kong's High Degree of Autonomy

    This past year, developments indicated that Hong Kong's 
``high degree of autonomy,'' guaranteed under the ``one 
country, two systems'' principle enshrined in the Basic Law, 
faced renewed threat of interference from mainland China. The 
disappearance, alleged abduction, and detention in mainland 
China of five Hong Kong-based booksellers (Swedish citizen Gui 
Minhai, British citizen and Hong Kong resident Lee Bo, and Hong 
Kong residents Lui Bo, Cheung Chi-ping, and Lam Wing-kei) in 
October and December 2015 and the televised ``confessions'' of 
four of the men in January and February 2016 were condemned 
internationally. British Foreign Secretary Philip Hammond 
declared Lee's abduction from Hong Kong a ``serious breach'' of 
the Sino-British Joint Declaration that assures Hong Kong 
residents ``the protection of the Hong Kong legal system.'' In 
its Hong Kong Policy Act report to Congress, the U.S. 
Department of State emphasized these concerns, noting that the 
cases of the booksellers ``raised serious concerns in Hong Kong 
and represent what appears to be the most significant breach of 
the `one country, two systems' policy since 1997'' (the year of 
the British handover of Hong Kong). Upon his return to Hong 
Kong in June 2016, Lam Wing-kei publicly revealed details of 
his and the other booksellers' abductions and detentions, 
including their forced confessions. Notably, Lam alleged that 
the abductions and detentions were directed by central 
government officials in Beijing.
    Underscoring the threat to freedom of expression, Hong Kong 
journalists and media organizations reported a continuing 
decline in press freedom in Hong Kong, citing government 
restrictions, violence against journalists, and pressure on 
reporters and editors from media ownership, including owners 
with financial ties to mainland China. The purchase of the 
South China Morning Post by Chinese online commerce company 
Alibaba Group raised concerns that Hong Kong media could face 
even greater pressure to self-censor or avoid reporting on 
topics deemed sensitive. After acquiring the paper, Alibaba's 
executive vice chairman said the firm aimed to counter negative 
coverage of China.
    In the face of increasing pressure from mainland China, 
divisions emerged among pro-democracy activists in Hong Kong, 
often along generational lines. After the ``Umbrella Movement'' 
protests in 2014, pro-democracy activists launched several new 
political parties that reflected general dissatisfaction with 
the existing political landscape, including the lack of 
democratic concessions from the Chinese government. Many of the 
new parties promote self-determination for Hong Kong, as 
opposed to democracy in mainland China. Others pressed for 
outright independence amid burgeoning localist sentiment. The 
Hong Kong government required prospective candidates for office 
in the September 2016 Legislative Council elections to sign a 
loyalty pledge affirming that Hong Kong is an ``inalienable'' 
part of China--several who refused to do so, or who did so 
unconvincingly, were disqualified. Despite central government 
warnings that promoting democratic self-determination for Hong 
Kong ``endangers state sovereignty and security,'' Hong Kong 
voters elected 6 localist candidates; altogether, opposition 
parties won 30 out of 70 total seats.

           Recommendations to Congress and the Administration

    <bullet> Developing a ``Whole-of-Government'' Human Rights 
Action Plan. The Administration and Congress should work 
together to develop an action plan on the role of human rights 
in U.S.-China relations, detailing specific ways to implement a 
coordinated interagency approach that integrates human rights 
issues across the full spectrum of bilateral issues. A ``whole-
of-government'' human rights diplomacy prepares all agencies 
interacting with Chinese government counterparts to discuss 
relevant human rights and rule of law issues and to articulate 
the link between human rights improvements in China and U.S. 
economic, security, and diplomatic interests. In addition, 
Congress and the Administration should work together to 
consider whether legislation or other measures are needed to 
implement interagency coordination on human rights in China, 
including by providing targeted talking points and prisoner 
lists to all U.S. Government delegations visiting China as well 
as support for the growing number of regular bilateral 
``dialogues'' and various ``People-to-People'' and multitrack 
diplomatic efforts that include both governmental and non-
governmental actors.
    <bullet> Strengthening the ``Rebalance'' to Asia. The 
Administration and Congress should work together and with 
regional allies and policy specialists, on ways to bring China 
into an economic and security cooperation system in Asia that 
includes upholding international standards on human rights and 
the rule of law. The Administration and Congress should work 
together to ensure that sufficient resources and executive 
authority are granted to advance human rights and the rule of 
law as critical national interests, pursued in tandem with U.S. 
diplomatic, economic, political, and security priorities in the 
Asia-Pacific region.
    <bullet> Strategic Use of Visa Policy and Other Diplomatic 
Measures. Congress and the Administration should work together 
to better implement existing laws that restrict visa access for 
individuals responsible for severe human rights violations and 
ensure that U.S. consular officials know how to apply such laws 
consistently, including Section 604 of the International 
Religious Freedom Act, Section 801 of the Admiral James W. 
Nance and Meg Donovan Foreign Relations Authorization Act, and 
the relevant parts of Section 212 of the Immigration and 
Nationality Act. Congress should consider whether additional 
legislation is needed to address ongoing human rights 
challenges in China, including such issues as restrictions on 
the free flow of news and information, visa delays or denials 
for journalists and scholars, allegations of organ harvesting, 
mistreatment or forced repatriation of asylum-seekers, and 
egregious discrimination and violence in ethnic minority areas.
    Congress should consider allocating resources to compile, 
document, and identify individuals and Chinese government 
officials responsible for severe human rights violations.
    The Administration should consider seeking revisions to the 
U.S.-China Consular Convention to clarify that Americans 
detained in China should be allowed to meet with a lawyer and 
discuss the details of their case with U.S. consular officials.
    <bullet> Engaging in Multilateral Action. The 
Administration should continue coordinating with like-minded 
partners on monitoring human rights concerns in China and 
encouraging Chinese officials to fulfill their commitments in 
accordance with international standards. The Administration 
should lead, as circumstances on the ground dictate, 
initiatives that highlight human rights concerns in China at 
the UN Human Rights Council and other multilateral forums where 
the United States and China are members.
    <bullet> Individual Political Prisoner Cases. In meetings 
with Chinese officials, the President, Cabinet Secretaries, 
other administration officials, and Congressional leaders 
should raise relevant cases, both publicly and privately, of 
individual victims of religious or political repression. U.S. 
Embassy and consular officials, including the Ambassador, 
should regularly seek visits and engagements with relevant 
Chinese authorities to raise the cases of prominent prisoners 
and should maintain contact with family members and associates 
of those unjustly detained or imprisoned.
    Members of Congress and the Administration are encouraged 
to consult the Commission's Political Prisoner Database for 
credible information on individual prisoners or groups of 
prisoners.
    <bullet> Internet Freedom. The Administration and Congress 
should continue to work together to support a consistent and 
coordinated policy approach to Internet governance that 
counters efforts by the Chinese government to promote 
``Internet sovereignty.''
    Congress should consider expanding Internet freedom 
programs that track, preserve, and recirculate media and 
Internet content produced within China that is deleted by 
government censors.
    Congress should consider allocating funds for programs that 
help Chinese human rights advocates and civil society 
organizations circumvent Internet restrictions and enhance 
digital security training and capacity building. In addition, 
Members of Congress should urge the Broadcasting Board of 
Governors to use all allocated Internet freedom funds to 
support technologies that provide or enhance access to the 
Internet, including circumvention tools that bypass Internet 
blocking, filtering, and other forms of censorship.
    <bullet> Press Freedom. The Administration should consider 
giving greater priority to the Chinese government's harassment 
of foreign journalists, blocking of news media websites, and 
limiting of press freedom. During regular diplomatic 
interactions, a diverse range of U.S. officials should promote 
freedom of the press and freedom of expression as vital 
foundations of an innovative economy, a vibrant civil society, 
and the rule of law, all of which contribute to sustainable 
prosperity for modern nations.
    Congress should consider whether legislation or other 
measures are needed to address potential trade barriers in 
China, including the ongoing and persistent restrictions on the 
free flow of news and information which affect foreign media 
companies attempting to access the Chinese market and investors 
seeking uncensored information about China's political and 
business climate.
    Congress should consider whether additional legislation is 
needed to protect foreign journalists, including the 
possibility of limiting the number of visas allowed to 
executives or administrative personnel from Chinese state-owned 
media enterprises operating in the United States if foreign 
journalists continue to face visa restrictions, police 
harassment and surveillance, censorship, or other egregious 
constraints.
    <bullet> Ending China's Population Control Policies. The 
Administration should integrate the provisions of the Girls 
Count Act (Public Law No. 114-24) into foreign assistance 
programs and consider appointing a Special Advisor at the U.S. 
Department of State to oversee the creation and coordination of 
technical assistance and capacity-building projects. Projects 
should seek to strengthen property and inheritance rights for 
Chinese women and girls and protect women and their families 
from the most coercive aspects of China's population control 
policies.
    The Administration should discuss problems linked to the 
Chinese government's population control policies and dramatic 
sex ratio imbalance as part of security, legal, trafficking, 
human rights, medical, public health, and ``People-to-People'' 
dialogues.
    The Administration and Congress should work together with 
intergovernmental organizations and non-governmental 
organizations (NGOs) to develop cooperative programs to address 
the demographic problem of China's ``missing women,'' and seek 
ways to support and bolster China's own efforts.
    Congress should continue to consider prohibition of U.S. 
contributions to the UN Population Fund (UNFPA) for use in 
China until all birth limitation and coercive population 
control policies are rescinded.
    <bullet> North Korean Refugees. Congress should reauthorize 
the North Korean Human Rights Act for fiscal year 2018.
    The Administration should consider incorporating human 
rights into its broader sanctioning authority by using the 
existing U.S. Department of State designations of both North 
Korea and China as a ``Country of Particular Concern'' for 
international religious freedom as well as the trafficking-in-
persons designations of ``Tier 3'' for North Korea and ``Tier 2 
Watchlist'' for China.
    Congress and the Administration should work to establish 
regional multilateral ``First Asylum'' arrangements for North 
Korean refugees and seek unfettered access to North Korean 
asylum-seekers in China for the Office of the UN High 
Commissioner for Refugees and humanitarian organizations.
    <bullet> Human Trafficking, Forced Labor, and Child Labor. 
Congress and the Administration should work together to ensure 
that the U.S. Department of State's Office to Monitor and 
Combat Trafficking in Persons and the U.S. Department of 
Labor's Bureau of International Labor Affairs have sufficient 
resources and status within their departments to effectively 
combat human trafficking and accurately report on current 
conditions.
    The Administration and Congress should work together to 
ensure that expanded powers given to the U.S. Customs and 
Border Protection agency are used to prevent the import of 
goods suspected of being made with forced or prison labor.
    Congress should consider whether additional legislation or 
other measures are needed to prevent human trafficking in the 
supply chains of businesses with U.S. Government procurement 
contracts and to enforce existing laws prohibiting the 
procurement of goods made with forced labor, prison labor, or 
child labor from China.
    Congress should consider legislation that improves U.S. 
Government data collection and reporting on the issue of human 
trafficking for the purpose of organ removal, globally and in 
China. To reduce demand for organs obtained through force or 
coercion, such legislation should also focus U.S. diplomatic 
resources toward the creation of international legal norms that 
promote the establishment of voluntary organ donation systems 
with effective enforcement mechanisms.
    <bullet> Ethnic Minorities. The Administration should 
consider raising issues of human rights in China's ethnic 
minority areas in bilateral and multilateral dialogues on 
security, legal, and counterterrorism issues with Chinese 
military, public security, or government officials.
    The Administration and Congress should work together to 
press for unrestricted access to ethnic minority regions and to 
facilitate implementation of the Tibetan Policy Act of 2002, 
including establishing a diplomatic office in Lhasa, 
encouraging development projects that comply with the Tibet 
Project Principles, and urging renewed dialogue between Chinese 
government officials and the Dalai Lama's representatives.
    The Administration should instruct the U.S. executive 
director of each international financial institution to oppose 
the financing of projects in Tibetan autonomous areas, the 
Xinjiang Uyghur Autonomous Region, and other ethnic minority 
areas if such projects have the anticipated effect of 
facilitating large-scale migrations into ethnic minority areas, 
fail to promote economic self-sufficiency of ethnic minorities, 
or do not respect their culture, religion, or traditions.
    Congress should continue to allocate funding for democratic 
leadership training for Tibetans, and Members of Congress and 
their staff should seek inter-parliamentary dialogues with 
Tibetan legislators to raise the profile, professionalism, and 
capacity of the Tibetan government-in-exile.
    <bullet> Commercial Rule of Law. The Administration should 
continue to designate China as a non-market economy until the 
Chinese government makes concrete improvements to policies 
detailed in this report that violate China's existing 
international trade obligations. Congress should consider 
legislation requiring that both the House and Senate consent to 
any changes made to China's designation.
    The Administration should work through the World Trade 
Organization (WTO) and its member states to encourage and 
enforce the elimination of China's barriers to the free flow of 
news and information to facilitate market growth, including by 
considering initiation of additional WTO disputes that seek the 
elimination of trade-restrictive Internet censorship and other 
restrictions to market access online.
    The Administration should ensure that the objectives of 
non-discrimination, fairness, and transparency are incorporated 
into the Bilateral Investment Treaty (BIT) negotiations, and 
that any BIT with China is a mutually beneficial and high-
standard agreement that effectively facilitates and enables 
market access and market operation, and that represents on each 
side an open and liberalized investment regime.
    Congress should consider whether legislation or other 
measures are needed to require that market access for Chinese 
investors in news, online media, and the entertainment sectors 
is conditioned on a reciprocal basis in order to provide a 
level playing field for U.S. investors. In addition, Members of 
Congress should press for the protection of U.S. companies 
investing in these sectors during BIT negotiations.
    <bullet> Technical Assistance Programs. The Administration 
should look for creative ways to continue existing aid and 
grant programs to individuals and civil society groups working 
to encourage human rights improvements, genuine democratic 
governance, and the rule of law, and work with foreign NGOs, 
the United Nations, and other countries on a unified response 
to the PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China, the PRC Charity 
Law, and other legislation drafted or enacted in the past year.
    The Administration and Congress should look to expand 
technical assistance and capacity-building programs in areas 
where Chinese officials have made commitments, such as curbing 
torture and wrongful convictions and implementing the PRC Anti-
Domestic Violence Law.
    Congress should consider requesting briefings or a one-time 
report from the Administration to review U.S.-funded rule-of-
law programs in China to determine their effectiveness, the 
pressures faced during operations in China, and whether new 
guidelines or resources are needed to advance U.S. interests in 
the development of rule of law in China.
    <bullet> Hong Kong. The Administration should continue to 
issue annually the report outlined in Section 301 of the United 
States-Hong Kong Policy Act of 1992, subject to Congressional 
directives.
    The Administration and Congress should work together to 
determine whether legislation or other measures are needed to 
revise the Hong Kong Policy Act if Hong Kong's autonomy and 
rule of law continue to be threatened.
    Congress should consider ways to express through public 
statements, official visits, and resolutions the important 
connection between maintaining a free press, a vibrant civil 
society, an independent judiciary, and transparent governance 
in Hong Kong and the mutual interests shared by the United 
States and China in maintaining Hong Kong as a center of 
business and finance in Asia.
    <bullet> Developing a More Robust Parliamentary Diplomacy. 
Congress should foster cooperation among parliamentarians and 
legislators committed to advancing the rule of law and the 
rights enumerated in the Universal Declaration of Human Rights 
by participating in existing institutions such as the 
International Panel of Parliamentarians for Freedom of Religion 
and the Parliamentary Friends of Tibet or by working with 
relevant NGOs to convene a global parliamentarians group on 
human rights in China.
    <bullet> Encouraging the Protection of Academic Freedom. 
The Administration should assist American universities and 
educational institutions in negotiations of memoranda of 
understanding and contracts with Chinese government entities to 
ensure that they include protections for academic freedom; the 
universally recognized rights of faculty, students, and staff; 
intellectual property rights; and Internet freedom.

                        ------------------------

    The Commission's Executive Branch members have participated 
in and supported the work of the Commission. The content of 
this Annual Report, including its findings, views, and 
recommendations, does not necessarily reflect the views of 
individual Executive Branch members or the policies of the 
Administration.
    The Commission adopted this report by a vote of 21 to 
0.<dagger>


    <dagger> Voted to adopt: Representatives Smith, Pittenger, Franks, 
Hultgren, Black, Walz, Kaptur, Honda, and Lieu; Senators Rubio, 
Lankford, Cotton, Daines, Sasse, Feinstein, Merkley, and Peters; and 
Deputy Secretary Lu, Under Secretary Sewall, Assistant Secretary 
Russel, and Assistant Secretary Malinowski.

                 Specific Findings and Recommendations

    A summary of specific findings follows below for each 
section of this Annual Report, covering each area that the 
Commission monitors. In each area, the Commission has 
identified a set of issues that merit attention over the next 
year, and, in accordance with the Commission's legislative 
mandate, submits for each a set of recommendations to the 
President and the Congress for legislative or executive action.

                         Freedom of Expression


                                Findings

        <bullet> During the Commission's 2016 reporting year, 
        the Chinese government and Communist Party continued to 
        restrict expression in contravention of international 
        human rights standards, including Article 19 of the 
        International Covenant on Civil and Political Rights 
        and Article 19 of the Universal Declaration of Human 
        Rights. While such standards permit states in limited 
        circumstances to restrict expression to protect 
        interests such as national security and public order, 
        official Chinese restrictions covered a broader range 
        of activity, including peaceful dissent and expression 
        critical of the government and Party.
        <bullet> Government and Party control of the press 
        continued to violate international press standards with 
        censorship and propaganda instructions to limit the 
        scope of news content. In a February 2016 speech, 
        President and Party General Secretary Xi Jinping 
        declared that the media ``must be surnamed Party'' 
        (bixu xing dang) and called for ``absolute loyalty'' to 
        the Party from official media outlets and personnel.
        <bullet> Chinese authorities continued to broadcast 
        prerecorded confessions on state-run television. 
        Chinese Human Rights Defenders said that the government 
        used televised confessions on state media ``to denounce 
        individuals or groups,'' ``control public narratives 
        about government-perceived `political threats,''' and 
        retaliate against government critics. Authorities also 
        countered criticism by shutting down microblog 
        accounts, and by harassing and detaining media 
        professionals and several China-based family members of 
        Chinese journalists and bloggers living overseas.
        <bullet> Chinese citizens and journalists challenged 
        the Party's control of news media and propaganda work, 
        some specifically in response to Xi's February speech. 
        Family members of rights defenders, labor groups, and 
        lawyers brought, or planned to bring, defamation suits 
        against official media outlets.
        <bullet> In May 2016, China was one of 10 countries to 
        vote against the Committee to Protect Journalists (CPJ) 
        receiving accreditation for non-consultative status at 
        the United Nations. CPJ is a prominent international 
        advocacy group for press freedom and the rights of 
        journalists and maintains a list of imprisoned Chinese 
        journalists and bloggers. Chinese authorities targeted 
        citizen journalists from the human rights website 64 
        Tianwang for harassment and detention, including Wang 
        Jing, Sun Enwei, and Huang Qi. In addition, authorities 
        did not grant permission to elderly journalist Gao Yu 
        to travel abroad for medical treatment, instead 
        harassing her and restricting her movements while she 
        serves a five-year sentence on medical parole in 
        Beijing municipality.
        <bullet> The scale of Internet and social media use 
        continued to grow in spite of government and Party 
        censorship. There were 710 million Internet users in 
        China at the end of June 2016, including 656 million 
        who accessed the Internet from mobile devices. A 
        European scholar observed that the government and Party 
        brought Internet governance ``into the cent[er] of 
        political decision-making'' in recent years.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Give greater public expression, including at the 
        highest levels of the U.S. Government, to the issue of 
        press freedom in China, condemning the harassment and 
        detention of both domestic and foreign journalists, the 
        denial, threat of denial, or delay of visas for foreign 
        journalists, and the censoring or blockage of foreign 
        media websites. Consistently link press freedoms to 
        U.S. interests, noting how censorship and restrictions 
        on journalists and media websites prevent the free flow 
        of information on issues of public concern, including 
        public health and environmental crises, food safety 
        problems, and corruption, and act as a trade barrier 
        for foreign media and companies attempting to access 
        the Chinese market. Raise these issues with Chinese 
        officials during future rounds of the Strategic and 
        Economic Dialogue. Assess the extent to which China's 
        treatment of foreign journalists contravenes its WTO or 
        other obligations.
          Sustain, and where appropriate expand, programs that 
        develop and distribute widely technologies that will 
        assist Chinese human rights advocates and civil society 
        organizations in circumventing Internet restrictions, 
        in order to access and share content protected under 
        international human rights standards. Continue to 
        maintain Internet freedom programs at the U.S. 
        Department of State and the Broadcasting Board of 
        Governors for China to provide digital security 
        training and capacity-building efforts for bloggers, 
        journalists, civil society organizations, and human 
        rights and Internet freedom activists in China.
          Raise with Chinese officials, during all appropriate 
        bilateral discussions, the costs to U.S.-China 
        relations and to the Chinese public's confidence in 
        government institutions that occur when the Chinese 
        government restricts political debate, advocacy for 
        democracy or human rights, and other forms of peaceful 
        political expression. Emphasize that such restrictions 
        exceed international standards for the restrictions on 
        free expression, particularly those contained in 
        Article 19 of the International Covenant on Civil and 
        Political Rights and Article 19 of the Universal 
        Declaration of Human Rights. Emphasize that such 
        restrictions erode confidence in media and government 
        institutions. Submit questions for China's next UN 
        Human Rights Council Universal Periodic Review, asking 
        China to explain what steps it will take to ensure its 
        restrictions on free expression conform to 
        international standards.
          Urge Chinese officials to end unlawful detention and 
        official harassment of Chinese activists, lawyers, and 
        journalists subject to reprisal for exercising their 
        right to freedom of expression. Call on officials to 
        end the illegal home confinement of individuals such as 
        Liu Xia; and release or confirm the release of 
        individuals detained or imprisoned for exercising 
        freedom of expression, such as Liu Xiaobo, Zhang 
        Haitao, Drukar Gyal (Shogjang), Gao Zhisheng, Xie 
        Wenfei, and Wang Mo. Raise this issue in bilateral 
        dialogues, such as the U.S.-China Human Rights 
        Dialogue, U.S.-China Legal Experts Dialogue, and 
        Strategic and Economic Dialogue, as well as through 
        multilateral institutions, such as China's UN Human 
        Rights Council Universal Periodic Review and the UN 
        Human Rights Council Working Group on Arbitrary 
        Detention.

                             Worker Rights


                                Findings

        <bullet> During the Commission's 2016 reporting year, 
        the All-China Federation of Trade Unions (ACFTU) 
        remained the only trade union organization permitted 
        under Chinese law, and leading union officials held 
        concurrent positions in the Communist Party and 
        government. Restrictions on workers' rights to freely 
        establish and join independent trade unions violate 
        international standards set forth by the International 
        Labour Organization (ILO), Universal Declaration of 
        Human Rights, International Covenant on Civil and 
        Political Rights, and International Covenant on 
        Economic, Social and Cultural Rights.
        <bullet> Workers' right to collective bargaining 
        remains limited in law and in practice, violating 
        China's obligations as a member of the ILO. Chinese 
        laws designate the Party-controlled ACFTU as 
        responsible for negotiating with employers and signing 
        collective contracts on behalf of workers, but the 
        ACFTU and its lower level branches reportedly more 
        often represented the interests of government or 
        enterprises. At the enterprise level, union leaders 
        were often company managers.
        <bullet> In 2015, China's economy grew at its slowest 
        rate in 25 years. Major steel and coal enterprises 
        announced plans for layoffs, and some workers in these 
        industries had reportedly already lost their jobs in 
        recent years. Employment in manufacturing reportedly 
        had declined for 25 consecutive months as of late 2015. 
        Service sector jobs increased in 2015, but these jobs 
        reportedly paid less on average than manufacturing 
        jobs. Wages continued to rise overall in China, though 
        workers faced slower wage growth, and in some cases 
        stagnant or reduced wages.
        <bullet> Chinese government officials and international 
        observers reported a significant increase in worker 
        actions such as strikes and protests. Although some of 
        the observed increase may have been due to better data 
        collection, China Labour Bulletin documented 2,773 
        worker actions in 2015, more than double the total from 
        2014. The majority of workers' actions involved 
        disputes over wage arrears.
        <bullet> The situation of labor rights advocates and 
        non-governmental organizations (NGOs) has worsened in 
        recent years. On December 3, 2015, public security 
        officials in Guangzhou and Foshan municipalities, 
        Guangdong province, detained at least 18 labor rights 
        advocates affiliated with several labor NGOs. As of 
        January 8, procuratorates in Foshan and Panyu district, 
        Guangzhou, had approved the arrests of Zeng Feiyang, 
        Zhu Xiaomei, He Xiaobo, and Meng Han, releasing Zhu on 
        bail on February 1 and He on bail on April 7. In June, 
        the Panyu district procuratorate reportedly began 
        reviewing the cases of Zeng, Zhu, Meng, and also Tang 
        Jian in preparation for a possible trial. According to 
        Chinese and international observers, authorities 
        targeted these individuals due to their labor rights 
        advocacy and ties to NGOs.
        <bullet> This past year, the Commission continued to 
        observe reports of the use of child labor in China, 
        including a 14-year-old factory worker in Guangdong 
        province who reportedly died in his sleep and a case in 
        Zhejiang province of at least eight children forced to 
        work for years making socks. The ILO Country Office for 
        China and Mongolia noted that the Chinese government 
        has not released official statistics on child labor in 
        China nor has it reported any cases to the ILO.
        <bullet> The Commission continued to observe reports of 
        the over-reliance on and misuse of dispatch and intern 
        labor during the reporting year, in violation of 
        domestic laws and regulations meant to prevent such 
        abuses. Workers above the legal retirement age 
        continued to enjoy fewer legal protections than other 
        workers under Chinese law. Workers above the retirement 
        age reportedly faced difficulties obtaining 
        compensation and other benefits.
        <bullet> Chinese government data showed continued 
        declines in workplace accidents and deaths, while 
        reported cases of occupational illness, particularly 
        pneumoconiosis, increased. Workers reportedly faced 
        difficulties obtaining compensation for workplace 
        illnesses. Despite relevant laws and regulations, 
        international observers continued to express concern 
        regarding workplace safety in China.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to release labor 
        rights advocates Zeng Feiyang and Meng Han. Raise their 
        cases in public and in private meetings with Chinese 
        officials. Urge authorities to drop all charges against 
        those labor NGO staff detained in December 2015 and 
        subsequently released on bail.
          Condemn the crackdown on labor advocacy NGOs in 
        China, and call on Guangdong provincial authorities in 
        particular to end the harassment of labor NGO staff. 
        Encourage authorities to cooperate with labor NGOs, 
        noting the positive role such organizations play in 
        encouraging workers to address their grievances 
        peacefully and through legal channels.
          Call on the Chinese government to respect 
        internationally recognized rights to freedom of 
        association and collective bargaining, and allow 
        workers to organize and establish labor unions. Convey 
        support in all appropriate bilateral and multilateral 
        dialogues for genuine collective bargaining and direct 
        elections of trade union representatives, emphasizing 
        that increased worker representation can be beneficial 
        for resolving workplace grievances and preventing 
        strikes.
          Encourage Chinese officials through all appropriate 
        bilateral discussions to publish information on 
        measures taken to prevent the employment of children 
        under the age of 16. Call on the Chinese government to 
        collect and publish detailed statistical data on 
        working children, including on child labor and 
        hazardous work, in order to better understand the 
        prevalence and nature of child labor in China and to 
        effectively target efforts to address this problem.
          Promote and support bilateral and multilateral 
        exchanges among government officials, academics, legal 
        experts, and civil society groups to focus on labor 
        issues such as collective bargaining, employment 
        discrimination, and occupational health and safety, 
        including, particularly, prevention of pneumoconiosis. 
        Seek opportunities to support capacity-building 
        programs to strengthen Chinese labor and legal aid 
        organizations involved in defending the rights of 
        workers.
          When appropriate, integrate meaningful civil society 
        participation into bilateral and multilateral 
        dialogues, meetings, and exchanges. Invite 
        international unions and labor NGOs as well as domestic 
        civil society groups from all participating countries 
        to observe relevant government-to-government dialogues. 
        Although participation of the ACFTU or Chinese 
        government-organized NGOs (so-called GONGOs) may be 
        constructive in some cases, ensure such organizations 
        are not treated as independent civil society groups.
          Support China's increased engagement and cooperation 
        with the International Labour Organization (ILO) 
        through funding for ILO technical cooperation projects 
        with China. Request that the ILO increase its work with 
        China on observing core labor standards, including 
        freedom of association and the right to organize.

                            Criminal Justice


                                Findings

        <bullet> During the 2016 reporting year, the Commission 
        observed continued reports of the Chinese government 
        using ``black jails'' and other forms of extralegal and 
        extrajudicial measures to arbitrarily detain targeted 
        individuals. In particular, a ``black jail'' in 
        Heilongjiang province, which was closed around April 
        2014, reportedly resumed operation during the past 
        year. A China-based human rights monitoring group also 
        reported increased use of involuntary commitment to 
        psychiatric hospitals as a political tool.
        <bullet> After the reeducation through labor system was 
        abolished in 2013, Chinese officials reportedly 
        continued to use ``black jails''--detention sites that 
        operate outside of China's judicial and administrative 
        detention systems--to suppress individuals such as 
        petitioners, rights advocates, and religious 
        practitioners.
        <bullet> The Chinese government continued to apply 
        broadly defined criminal provisions such as ``picking 
        quarrels and provoking trouble'' and ``gathering a 
        crowd to disturb order in a public place'' to punish 
        rights advocates, petitioners, lawyers, dissidents, and 
        ethnic minorities.
        <bullet> Some provisions in the Ninth Amendment to the 
        PRC Criminal Law, which became effective on November 1, 
        2015, may have a negative impact on human rights 
        conditions in China in areas such as freedom of speech, 
        freedom of the press, freedom of assembly, freedom of 
        religion, access to justice, and rights advocacy.
        <bullet> The UN Committee against Torture issued its 
        concluding observations on China's compliance with and 
        implementation of the Convention against Torture and 
        Other Cruel, Inhuman or Degrading Treatment or 
        Punishment. The Committee called on China to abolish 
        the coercive detention measure ``residential 
        surveillance at a designated location'' and censured 
        the Chinese government for failing to provide 
        disaggregated information about torture, criminal 
        justice, and related issues.
        <bullet> The Chinese government used charges of 
        ``endangering state security'' crimes in its crackdown 
        against rights lawyers and advocates, a category of 
        crimes that carry heavy penalties. The PRC Criminal 
        Procedure Law permitted the use of ``residential 
        surveillance at a designated location'' against those 
        accused of ``endangering state security'' crimes. The 
        UN Committee against Torture criticized this coercive 
        measure because it may amount to incommunicado 
        detention that puts detainees at a high risk of torture 
        or ill-treatment.
        <bullet> Despite legislative and regulatory enactments 
        by the Chinese government, the Commission continued to 
        observe cases of coerced confession. The Commission 
        also observed the Chinese government broadcasting 
        prerecorded ``confessions,'' a practice that could 
        violate international human rights standards.
        <bullet> In the past year, individuals died in 
        detention under circumstances that raised concerns 
        regarding abuse and torture. Officials reportedly 
        denied adequate medical care to detainees. In the case 
        of imprisoned rights advocate Yang Maodong, better 
        known as Guo Feixiong, officials reportedly arranged a 
        rectal examination that officials recorded and 
        threatened to post online.
        <bullet> The Ninth Amendment to the PRC Criminal Law 
        reduced the number of capital crimes, but the number of 
        executions in China remained high. One human rights 
        group estimated the number of executions in 2015 to be 
        in the thousands. The Chinese government's continued 
        withholding of statistical data on executions may 
        impede monitoring of Chinese authorities' compliance 
        with international standards on the use of capital 
        punishment.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to publicly commit to 
        a specific timetable for ratification of the 
        International Covenant on Civil and Political Rights 
        (ICCPR), which the Chinese government signed in 1998 
        but has not yet ratified.
          Urge Chinese officials to end all forms of 
        extrajudicial detention--such as ``custody and 
        education,'' confinement in drug detoxification 
        centers, and extralegal home confinement--that are 
        imposed without meeting the standards for a fair trial 
        as set forth in the ICCPR and other international human 
        rights instruments.
          Raise with Chinese officials, during all appropriate 
        bilateral discussions, individual cases where the 
        investigation of allegedly criminal activity has been 
        used to target government critics and rights advocates.
          Publicly convey support for human rights advocates 
        who have been deprived of liberty on unsubstantiated 
        criminal charges and for political or religious 
        reasons.
          Encourage Chinese officials to adopt the 
        recommendations made by the UN Committee against 
        Torture in relation to China's compliance with the 
        Convention against Torture and Other Cruel, Inhuman or 
        Degrading Treatment or Punishment, such as the call to 
        repeal the provisions allowing ``residential 
        surveillance at a designated location.'' Further 
        encourage Chinese officials to extend invitations to 
        all UN special rapporteurs and other special procedures 
        that have requested to visit China.
          Stress to the Chinese government the need for greater 
        transparency on the number and circumstances of 
        executions, and urge Chinese officials to further limit 
        the crimes to which the death penalty is applicable.
          Continue and, where appropriate, expand support for 
        programs involving U.S. entities engaging with reform-
        minded Chinese organizations and individuals (both 
        within and outside the government) in hopes of drawing 
        on comparative experience to improve the criminal 
        justice process. For example, the experience of the 
        United States and other jurisdictions can inform China 
        as it charts a path toward reducing reliance on 
        confessions, enhancing the role of witnesses at trials, 
        and creating more reliable procedures for reviewing 
        death penalty cases.

                          Freedom of Religion


                                Findings

        <bullet> In both law and practice, the Chinese 
        government continued to violate the rights of its 
        citizens to religious freedom, violating both the 
        Chinese government's international obligations and the 
        standards set by China's Constitution. Chinese 
        Communist Party and government officials have broad 
        discretion over religious practice, internal affairs, 
        and interpretations of faith, which is often exercised 
        based on Party and government policy interests.
        <bullet> Government and Party officials convened the 
        first National Conference on Religious Work in 15 years 
        in April 2016, signaling that officials aim to 
        prioritize religious affairs. Chinese President and 
        Communist Party General Secretary Xi Jinping declared 
        religious affairs to be an area of ``special 
        importance'' and directed government and Party 
        authorities to ensure that religious believers are 
        ``patriotic, preserve national unity, and serve the 
        overall interests of the Chinese nation.'' Xi 
        emphasized the Party view that religious groups are a 
        ``bridge'' connecting the Party and government to 
        religious believers and that groups must therefore 
        support the ``leadership of the Party'' and the Chinese 
        political system.
        <bullet> Chinese authorities deny members of various 
        religious communities the right to practice their faith 
        freely and without fear of government reprisal. The 
        2005 Regulations on Religious Affairs continue to 
        require religious groups to register with the 
        government and report on their religious activities. 
        Registration is a significant obstacle for some groups: 
        officials may deny registration applications of groups 
        they believe to be adverse to Party and government 
        interests, and some groups refuse to register because 
        they believe that the conditions associated with 
        registration compromise principles of their faith. 
        Official recognition of groups falling outside the 
        ``main'' religions--Buddhism, Catholicism, Islam, 
        Taoism, and Protestantism--is limited. Unregistered 
        religious and spiritual communities are especially 
        vulnerable to government harassment, detention, and 
        other abuses, but groups may be sanctioned regardless 
        of registration status when authorities view them as 
        posing a challenge to official authority. The 
        government has also continued to ban some belief 
        systems outright.
        <bullet> The government and Party continued to exert 
        political influence over the activities of Buddhist and 
        Taoist religious groups. As in past years, this 
        influence manifested in extensive government regulation 
        and sponsorship of religious activity.
        <bullet> The government and Party continued efforts to 
        control Chinese Catholic leadership and religious 
        practice. The government continued to deny Catholics in 
        China the freedom to be ministered to by bishops 
        independently approved by the Holy See, instead 
        continuing to require Catholic bishops to be selected 
        and ordained by state-controlled organizations without 
        Holy See approval. The government also continued to 
        harass, detain, or hold incommunicado certain Catholic 
        leaders.
        <bullet> The government and Party continued a campaign 
        initiated in 1999 of extensive, systematic, and in some 
        cases violent efforts to pressure Falun Gong 
        practitioners to renounce their belief in and practice 
        of Falun Gong.
        <bullet> The government and Party continued to enforce 
        regulations controlling the religious activities of 
        Muslim believers. Officials and state-sponsored 
        scholars also made a number of statements against the 
        popularization of practices and symbols associated with 
        Islam. Concurrent with these statements, experts noted 
        significant online commentary hostile to Islam, raising 
        concerns about rising anti-Muslim sentiment in China.
        <bullet> Chinese authorities continued to prevent many 
        Protestant Christians from worshiping freely, taking a 
        range of actions that experts believe are connected to 
        the national-level ``sinicization'' campaign. In 
        particular, authorities in Zhejiang province continued 
        to target Protestants with harassment and close 
        monitoring in the past reporting year, for example, by 
        continuing to implement a campaign launched in 2014 
        that has resulted in the removal of an estimated 1,500 
        church crosses from state-sanctioned churches, and in 
        more than 20 cases, the complete demolition of 
        churches. Some Protestant leaders have been sentenced 
        to prison terms, and officials also detained those 
        providing legal assistance to churches facing forced 
        cross removal. In other regions of China, government 
        officials detained Protestant believers and conducted 
        raids on church buildings and gatherings, with churches 
        in Guangdong province hit especially hard. In Guizhou 
        province, the Guiyang municipal government designated 
        the Living Stone Church an ``illegal social group.''
        <bullet> Religious communities that do not fall within 
        China's five ``main'' religions continue to exist 
        within China, some practicing openly and with tacit 
        government approval, while others, such as the local 
        Jewish community in Kaifeng municipality, Henan 
        province, have reportedly begun to experience 
        government restrictions on religious activity.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to guarantee to all 
        citizens freedom of religion in accordance with China's 
        international human rights obligations. Stress to 
        Chinese authorities that freedom of religion includes 
        the right to freely adopt beliefs and practice 
        religious activities without government interference, 
        particularly interference based on political goals.
          Stress to the Chinese government that the right to 
        freedom of religion includes, but is not limited to: 
        the right of Buddhists and Taoists to carry out 
        activities in temples and select monastic teachers 
        independent of state controls over religion; the right 
        of Catholics to recognize the authority of the Holy See 
        in matters relating to the practice of their faith, 
        including to make bishop appointments; the right of 
        Falun Gong practitioners to freely practice Falun Gong 
        inside China; the right of Muslims to freely preach, 
        undertake overseas pilgrimage, select and train 
        religious leaders, and wear clothing with religious 
        significance; the right of Protestants to worship free 
        from state controls over doctrine and worship, and to 
        be free from harassment, detention, and other abuses 
        for public and private manifestations of their faith, 
        including the display of crosses; and the right of 
        members of other religious communities, such as 
        Judaism, to be free of state control and harassment.
          Call for the release of Chinese citizens confined, 
        detained, or imprisoned for peacefully pursuing their 
        religious beliefs, as well as people confined, 
        detained, or imprisoned in connection to their 
        association with them. Such prisoners include Bishop 
        Thaddeus Ma Daqin, who has been under extralegal 
        confinement since July 2012 for renouncing his 
        affiliation with the Chinese Catholic Patriotic 
        Association; Pastors Bao Guohua and Xing Wenxiang of 
        Jinhua municipality, Zhejiang province; those 
        affiliated with the Living Stone Church in Guizhou 
        province, including its pastor, Li Guozhi (also known 
        as Yang Hua); and other prisoners mentioned in this 
        report and in the Commission's Political Prisoner 
        Database.
          Call on the Chinese government to fully implement 
        accepted recommendations from its October 2013 UN Human 
        Rights Council Universal Periodic Review, including 
        taking necessary measures to ensure that rights to 
        freedom of religion, religious culture, and expression 
        are fully observed and protected; cooperating with the 
        UN human rights system, specifically UN special 
        procedures and mandate holders; facilitating visits for 
        UN High Commissioners to China; taking steps to ensure 
        lawyers working to advance religious rights can 
        practice their profession freely and promptly 
        investigating allegations of violence and intimidation 
        impeding their work; and considering possible revisions 
        to legislation and administrative restrictions to 
        provide better protection of freedom of religion.
          Call on China to abolish Article 300 of the PRC 
        Criminal Law, which criminalizes ``organizing and using 
        a cult to undermine implementation of the law,'' and 
        Article 27 of the PRC Public Security Administration 
        Punishment Law, which stipulates detention or fines for 
        organizing or inciting others to engage in ``cult'' 
        activities and for using ``cults'' or the ``guise of 
        religion'' to disturb social order or to harm others' 
        health.
          Encourage U.S. political leaders to visit religious 
        sites in China to raise awareness of and promote 
        freedom of religion.

                         Ethnic Minority Rights


                                Findings

        <bullet> During the 2016 reporting year, central 
        government officials in China continued to stress the 
        importance of ``ethnic unity'' and of ethnic 
        minorities' identification with ``the motherland'' and 
        ``Chinese culture.'' An Australian scholar outlined 
        concerns regarding the impact of assimilation on ethnic 
        minorities' cultures and languages.
        <bullet> For a third consecutive year, Xinjiang Uyghur 
        Autonomous Region (XUAR) authorities implemented a 
        ``mass line'' campaign, which promotes ``ethnic unity'' 
        and requires officials working at the grassroots level 
        to monitor and control Muslim residents' religious 
        practices.
        <bullet> In addition to projects aimed at integrating 
        Han majority and ethnic minority populations, central 
        government officials pushed both development and 
        securitization in places such as Tibetan autonomous 
        areas and the XUAR, in an effort to maintain 
        ``stability.''
        <bullet> As in past reporting years, Inner Mongolia 
        Autonomous Region (IMAR) authorities detained herders 
        who engaged in peaceful protests related to grasslands, 
        including herders who reportedly used online forums or 
        spoke to foreign journalists about their grievances.
        <bullet> As in past reporting years, authorities in the 
        IMAR continued to harass Mongol rights advocate Hada 
        and his family. IMAR officials imprisoned Hada for 15 
        years beginning in 1995, and subsequently extralegally 
        detained him for an additional 4 years, after he 
        organized peaceful protests for Mongol rights and for 
        his role in founding the banned Southern Mongolian 
        Democratic Alliance. According to Hada and his wife, 
        Xinna, as of October 2015, public security personnel 
        have maintained a constant presence in their apartment 
        building in order to surveil Hada's activities at home, 
        and have followed him whenever he has gone out. In 
        addition, in October 2015, public security authorities 
        in Qingshan district, Baotou municipality, IMAR, 
        detained Hada and Xinna's son Uiles for 10 days on the 
        charge of ``obstructing official business.''

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Continue to build the capacity of Mongol, Uyghur, and 
        Tibetan groups working to advance human rights, 
        environmental protection, economic development, and 
        rule of law in China through U.S. foreign assistance 
        funding and by encouraging additional support from both 
        UN and non-governmental sources.
          Convey to the Chinese government the importance of 
        respecting and protecting ethnic minority cultures and 
        languages. Urge Chinese officials to provide ethnic 
        minority students and parents a choice of what language 
        or languages of instruction should be used at schools 
        they attend in accordance with the PRC Regional Ethnic 
        Autonomy Law.
          Support rule of law programs and exchange programs 
        that raise awareness among Chinese leaders of different 
        models for governance that protect ethnic minorities' 
        rights and allow them to exercise meaningful autonomy 
        over their affairs, in line with both Chinese law and 
        international human rights standards.
          Call on the Chinese government to allow Mongol 
        herders to exercise their fundamental rights of freedom 
        of expression, association, and peaceful assembly, as 
        well as the right to be free from arbitrary detention.
          Urge Chinese authorities to end restrictions on the 
        freedom of movement and other unlawful restrictions 
        against Hada, his wife, Xinna, and their son, Uiles. 
        The Universal Declaration of Human Rights grants 
        ``everyone . . . the right to freedom of movement and 
        residence within the borders of each state.''

                           Population Control


                                Findings

        <bullet> Chinese authorities continue to actively 
        promote and implement coercive population planning 
        policies that violate international standards, 
        including the 1995 Beijing Declaration and the 1994 
        Programme of Action of the Cairo International 
        Conference on Population and Development. Controls 
        imposed on Chinese women and their families, and 
        additional abuses engendered by the system, including 
        coerced abortion and discriminatory policies against 
        ``out-of-plan'' children, also violate standards set 
        forth in the Convention on the Rights of the Child and 
        the International Covenant on Economic, Social and 
        Cultural Rights. China is a State Party to these 
        treaties and has committed to upholding their terms. 
        The Chinese government's population planning policies 
        continue to exacerbate the country's demographic 
        challenges, which include an aging population, 
        diminishing workforce, and sex ratio imbalance.
        <bullet> In November 2015, the UN Committee against 
        Torture conducted its fifth periodic review of China's 
        compliance with the Convention against Torture and 
        Other Cruel, Inhuman or Degrading Treatment or 
        Punishment. In its concluding observations, the 
        Committee stated its concerns about China's coercive 
        implementation of the population policy, such as 
        coerced sterilization and forced abortion, and the lack 
        of information on investigations into such allegations.
        <bullet> As the November 2013 policy revision of 
        allowing couples to bear a second child if one parent 
        is an only child (dandu erhai policy) failed to meet 
        the intended birth target, and amid demographic and 
        economic concerns voiced by population experts and 
        research institutions, central Party authorities issued 
        a decision in October 2015 to adopt a ``universal two-
        child policy'' (quanmian erhai) at the Fifth Plenum of 
        the 18th Communist Party Central Committee, allowing 
        all married couples to have two children.
        <bullet> Central government authorities stated that the 
        universal two-child policy is the Party's ``major 
        initiative'' to ``promote balanced population 
        development'' and to address demographic concerns China 
        currently faces. Central government officials 
        emphasized repeatedly that family planning will remain 
        the long-term ``basic national policy.'' On December 
        27, 2015, the Standing Committee of the National 
        People's Congress amended the PRC Population and Family 
        Planning Law, which became effective nationwide on 
        January 1, 2016. As of August 2016, at least 29 
        provincial-level jurisdictions reportedly had revised 
        their population and family planning regulations in 
        accordance with the amended national law. Human rights 
        advocates, demographic experts, and others, however, 
        expressed concerns that coercive implementation of 
        family planning measures and human rights abuses will 
        persist despite the adoption of the universal two-child 
        policy.
        <bullet> The National Health and Family Planning 
        Commission predicted that the universal two-child 
        policy, if fully implemented, will result in population 
        growth. Population experts, citing the tepid response 
        to the previous policy revision, suggested that the 
        universal two-child policy likely will not lead to 
        significant population growth in the long term. Experts 
        urged central government authorities to introduce 
        supporting policy measures that will further encourage 
        couples to have two children. Central government 
        authorities pledged to promote ``family planning 
        service management reform'' and to introduce 
        ``supporting policy measures'' to help implement the 
        universal two-child policy. This past year, government 
        authorities also took steps to further relax the birth 
        registration system, allowing married couples to 
        register their first two children without going through 
        a complicated approval or application process.
        <bullet> The amended PRC Population and Family Planning 
        Law contains provisions that prohibit officials from 
        infringing upon the ``legitimate rights and interests'' 
        of citizens while implementing family planning 
        policies. Some provincial population planning 
        regulations continued to explicitly instruct officials 
        to implement abortions for ``out-of-plan'' pregnancies, 
        often referred to as a ``remedial measure.'' Local 
        authorities continued to promote ``family planning 
        work'' that entailed harsh and invasive family planning 
        measures.
        <bullet> Officials employed various methods of 
        punishment to enforce family planning policies, 
        including levying heavy fines, job termination, 
        arbitrary detention, and coerced abortion. Authorities 
        in some localities denied household registration 
        (hukou) to children whose parents violated local family 
        planning requirements. People who lack hukou in China 
        face considerable difficulties accessing social 
        benefits compared to registered citizens.
        <bullet> During this reporting year, central Party and 
        government authorities took steps to address the issue 
        of 13 million ``illegal residents'' (heihu), that is, 
        those without hukou, in China. In January 2016, the 
        State Council issued the Opinion on Resolving Issues of 
        Hukou Registration for Individuals Without Hukou, which 
        specified eight types of ``illegal residents'' newly 
        eligible to register for hukou without preconditions. 
        Unregistered individuals whose parents failed to pay 
        ``social compensation fees,'' however, were not 
        included in this list. Some parents, fearing that 
        authorities might forcibly collect social compensation 
        fees from them retroactively, remain deterred from 
        registering their children born in violation of family 
        planning policies.
        <bullet> This past year, international media reports 
        continued to suggest a link between China's large 
        number of ``surplus males'' and the trafficking of 
        foreign women into China for forced marriage or 
        commercial sexual exploitation. Reports also indicate 
        that China's population planning policies have 
        contributed to illegal adoptions, as a traditional 
        preference for sons combined with birth limits is 
        thought to encourage a black market for illegal 
        adoptions.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Press Chinese government officials to bring the PRC 
        Population and Family Planning Law into conformance 
        with international standards set forth in international 
        agreements, including the 1995 Beijing Declaration, the 
        1994 Programme of Action of the Cairo International 
        Conference on Population and Development, the 
        Convention on the Rights of the Child, and the 
        International Covenant on Economic, Social and Cultural 
        Rights. Urge the Chinese government to address the 
        concerns the UN Committee against Torture raised in its 
        concluding observations on the fifth periodic review of 
        China's compliance with the Convention against Torture.
          Highlight the looming demographic challenges 
        currently facing China in bilateral meetings with 
        Chinese government officials--including a rapidly aging 
        population, shrinking workforce, and sex ratio 
        imbalance. Urge the Chinese government to take the new 
        universal two-child policy further and heed the 
        recommendations of domestic and international 
        demographic experts by ending all birth restrictions on 
        families and abolishing ``social compensation fees.''
          Urge the Chinese government to expand its existing 
        efforts to register all children to include those whose 
        parents failed to pay the ``social compensation fees'' 
        associated with their births. In line with the Girls 
        Count Act of 2015, the U.S. State Department and the 
        U.S. Agency for International Development should 
        support training and programs that contribute to 
        improvements in the registration of girls, in order to 
        increase rights and opportunities for women and girls 
        in China.
          Call on China's central and local governments to 
        vigorously enforce provisions of Chinese law that 
        provide for punishment of officials and other 
        individuals who violate the rights of citizens when 
        implementing population planning policies, and to 
        clearly define what these rights entail. Urge the 
        Chinese government to establish penalties, including 
        specific criminal and financial penalties, for 
        officials and individuals found to have committed 
        abuses such as coercive abortion and sterilization.
          Publicly link, with supporting evidence, the sex 
        ratio imbalance exacerbated by China's population 
        planning policies with potential regional humanitarian 
        and security concerns--human trafficking, crime, 
        increased internal and external migration, and other 
        possible serious social, economic, and political 
        problems--and discuss and address these issues in 
        bilateral dialogues.

                   Freedom of Residence and Movement


                                Findings

        <bullet> The Chinese government continued use of the 
        household registration (hukou) system established in 
        1958. The hukou system limits the right of Chinese 
        citizens to freely choose their place of residence. The 
        hukou system classifies Chinese citizens as either 
        rural or urban, conferring legal rights and access to 
        public services based on their classification. 
        Implementation of hukou regulations discriminates 
        against rural hukou holders and migrants to urban areas 
        by denying them equitable access to public benefits and 
        services enjoyed by registered urban residents. The 
        hukou system conflicts with international human rights 
        standards guaranteeing freedom of residence and 
        prohibiting discrimination on the basis of ``national 
        or social origin, . . . birth or other status.''
        <bullet> The Chinese central government and provincial 
        and municipal authorities continued to implement 
        reforms to the hukou system. As of August 2016, at 
        least 29 province-level jurisdictions had issued 
        implementing proposals governing local hukou reform 
        planning. Local governments' reform plans did not 
        generally remove the link between residence and 
        provision of public benefits.
        <bullet> After issuing draft measures on residence 
        permits in December 2014, in November 2015, the State 
        Council issued provisional regulations on residence 
        permits. The provisional regulations are intended to 
        ``fully cover basic public services and benefits'' for 
        urban residents, but the provisional regulations extend 
        fewer benefits to permit holders than the 2014 draft 
        measures would have, and contain restrictive conditions 
        on who may apply for residence permits.
        <bullet> Chinese authorities continued to deny some 
        Chinese citizens who criticize the government their 
        internationally recognized right to leave the country. 
        Officials justified preventing some rights lawyers and 
        their family members from leaving China by saying their 
        leaving the country ``could endanger state security.'' 
        Chinese officials prevented at least seven individuals 
        from traveling to Geneva in November 2015 to take part 
        in the UN Committee against Torture's review of China's 
        compliance with the Convention against Torture and 
        Other Cruel, Inhuman or Degrading Treatment or 
        Punishment. Chinese authorities refused to allow 
        disabled former lawyer and housing rights advocate Ni 
        Yulan to travel to the United States in March 2016 to 
        receive a U.S. State Department award.
        <bullet> The Commission continued to observe reports of 
        Chinese government officials punishing rights advocates 
        and their families and associates and targeting some 
        members of ethnic minority groups by restricting their 
        freedom of movement in violation of Article 12 of the 
        International Covenant on Civil and Political Rights. 
        Authorities increased restrictions on movement during 
        politically sensitive periods, and placed particularly 
        strict controls on Uyghurs and Tibetans, as well as 
        residents of some ethnic minority areas.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on Chinese authorities to accelerate reforms to 
        the hukou system, including fully relaxing restrictions 
        on migration to major cities and centers of economic 
        opportunity; equalizing the level and quality of public 
        benefits and services afforded by local hukou and 
        residence permits; and implementing laws and 
        regulations to provide equal treatment for all Chinese 
        citizens, regardless of place of birth or residence.
          Support programs, organizations, and exchanges with 
        Chinese policymakers and academic institutions engaged 
        in research and outreach to migrants, in order to 
        advance legal and anti-discrimination assistance for 
        migrants and their families, and encourage policy 
        debates aimed at eliminating inequality and 
        discrimination connected to the hukou system.
          Emphasize in meetings with Chinese officials that the 
        Chinese government's noncompliance with international 
        standards on freedom of movement and travel diminishes 
        confidence in the Chinese government's commitment to 
        broader international standards. Call on the Chinese 
        central government to combat local authorities' 
        arbitrary and discriminatory restrictions on the 
        ability of residents of some ethnic minority areas, 
        particularly Uyghurs and Tibetans, to move freely 
        inside China.
          Raise specifically Chinese authorities' restrictions 
        on the freedom of movement and the right to leave the 
        country of rights defenders, lawyers, critics of the 
        government, and their family members and associates, 
        including, among others: the son of rights lawyer Liu 
        Xiaoyuan and the wife of detained lawyer Xie Yang; Yang 
        Jisheng, a historian and former journalist; Gao Yu, a 
        journalist serving a five-year prison sentence for 
        ``leaking state secrets''; and Ni Yulan, a disabled 
        former lawyer and housing rights advocate.

                            Status of Women


                                Findings

        <bullet> The Chinese government restricted many women's 
        rights advocates from providing services and engaging 
        in advocacy, violating China's obligations under 
        international standards. For example, on February 1, 
        2016, the widely known and respected Beijing Zhongze 
        Women's Legal Counseling and Service Center ceased 
        operations after government authorities reportedly 
        ordered the organization to shut down.
        <bullet> The Chinese government continued to target 
        individual women's rights advocates with criminal 
        prosecution and other forms of harassment. Wang Yu--a 
        high-profile human rights lawyer whom Beijing 
        municipality security officials detained in July 2015 
        and Tianjin municipality authorities subsequently 
        arrested on suspicion of ``subversion of state power'' 
        in January 2016--reportedly was released on bail in 
        August 2016 following the broadcast of a prerecorded 
        confession that members of the Chinese human rights 
        community believe was coerced. In April 2016, the 
        Foshan Intermediate People's Court in Guangdong 
        province put on trial women's rights and democracy 
        activist Su Changlan on the charge of ``inciting 
        subversion of state power.'' As of August 2016, she 
        remained in custody, awaiting a verdict. Police in 
        Beijing lifted bail conditions for five women's rights 
        advocates--referred to as the Feminist Five--who were 
        detained and subsequently released in 2015 in 
        connection with a planned anti-sexual harassment 
        campaign. The women, however, are still considered 
        suspects in an investigation for the crime of 
        ``gathering a crowd to disturb order in a public 
        place.''
        <bullet> Despite the legal framework prohibiting 
        employment discrimination, employers in China continued 
        to discriminate against women in recruiting, hiring, 
        compensation, and other employment practices. A March 
        2016 article in Xinhua stated that ``job discrimination 
        against women still pervades Chinese society.'' More 
        women are suing employers, or prospective employers, 
        for gender-based discrimination. Female plaintiffs 
        prevailed in two separate employment discrimination 
        cases, each claiming that a prospective employer 
        refused to hire her because she was a woman.
        <bullet> Employment discrimination against women based 
        on pregnancy continues to be a serious problem, despite 
        laws protecting the rights of pregnant workers. Results 
        from a recent survey of nearly 1,000 female employees 
        indicated that over 52 percent of the respondents 
        experienced discrimination when they were pregnant, on 
        maternity leave, or breastfeeding and, as a result, 
        suffered pay cuts, forced transfers, lost promotion and 
        training opportunities, or were pressured to resign.
        <bullet> The PRC Anti-Domestic Violence Law became 
        effective on March 1, 2016. The National People's 
        Congress passed the legislation in December 2015 after 
        more than a decade of advocacy and organizing by 
        women's rights advocates and Chinese officials. Many 
        women's rights advocates hailed the application of the 
        law to non-married, cohabiting partners and the fact 
        that the definition of domestic violence specifies both 
        physical and psychological abuse. Rights advocates, 
        nevertheless, expressed concerns about the omission of 
        sexual violence and economic coercion from the 
        definition of domestic violence and about the law's 
        silence with respect to same-sex couples.
        <bullet> Officials in China reportedly continued to use 
        coercion and violence against women while implementing 
        family planning policies, in contravention of 
        international standards. The UN Committee against 
        Torture, in its November 2015 review of China's 
        compliance with the Convention against Torture, 
        expressed concern about reports of coerced 
        sterilization and forced abortions, and noted the 
        Chinese government's failure to provide requested 
        information on such reports and on redress provided to 
        past victims.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Publicly and privately urge the Chinese government to 
        drop any and all remaining charges against the Feminist 
        Five, release rights activist Su Changlan from 
        detention, and clarify the status of rights lawyer Wang 
        Yu whose whereabouts remain unknown despite her 
        purported release on bail.
          Facilitate and support technical assistance programs 
        that would assist law enforcement and judicial 
        personnel as well as lawyers and women's rights 
        organizations in effectively enforcing the PRC Anti-
        Domestic Violence Law, including best practices for 
        implementing protection orders and handling domestic 
        violence cases in court.
          Support international exchanges among academics, 
        legal advocates, non-governmental organizations, and 
        others that focus on gender-based employment 
        discrimination, including pregnancy-related 
        discrimination.
          Call on the Chinese government to stop coercion and 
        violence against women during population planning 
        implementation and to provide the UN Committee against 
        Torture with the information it requested on coerced 
        sterilization and forced abortions and on redress to 
        past victims.

                           Human Trafficking


                                Findings

        <bullet> During the Commission's 2016 reporting year, 
        China remained a country of origin and destination for 
        the trafficking of men, women, and children, as defined 
        under the UN Protocol to Prevent, Suppress and Punish 
        Trafficking in Persons, Especially Women and Children 
        (UN TIP Protocol). In addition to domestic human 
        trafficking, criminal networks reportedly drove an 
        increase in human trafficking of Chinese nationals to 
        Southeast Asia, Europe, and Africa. Women from 
        Southeast Asia and Nepal reportedly were trafficked to 
        China for forced marriage or sexual exploitation.
        <bullet> The Commission observed reports of North 
        Korean laborers in China working under conditions 
        experts described as forced or slave labor. These 
        workers earned income for the North Korean government 
        and reportedly worked long hours in substandard 
        conditions for little or no pay. The U.S. State 
        Department and the UN TIP Protocol include forced labor 
        in their respective definitions of human trafficking.
        <bullet> Although the Chinese government abolished the 
        reeducation through labor system in 2013, authorities 
        continue the use of similar forms of arbitrary 
        detention, including ``custody and education'' and 
        compulsory drug detoxification, in which detainees 
        perform forced labor.
        <bullet> China's ongoing human trafficking problem 
        stems from a variety of social, economic, and political 
        factors. Within China, internal migrant workers were 
        vulnerable to being trafficked for forced labor, and 
        their children reportedly were at risk for forced 
        labor, forced marriage, and sexual exploitation. 
        Individuals with disabilities were at risk for forced 
        labor and forced begging. Poverty and political 
        instability contributed to trafficking from Southeast 
        Asia into China. North Korean refugees in China 
        remained at risk for human trafficking. China's sex 
        ratio imbalance created a demand for marriageable women 
        that may contribute to human trafficking for forced 
        marriage. Experts disagreed over the extent to which 
        the new universal two-child policy would affect the sex 
        ratio imbalance.
        <bullet> In March 2016, the Supreme People's Court 
        reported an almost 56-percent decline in the number of 
        human trafficking cases handled in Chinese courts and a 
        nearly 63-percent decline in the number of convictions 
        in 2015 compared to 2010.
        <bullet> The PRC Criminal Law prohibits human 
        trafficking, but China's domestic legislation remains 
        inconsistent with UN TIP Protocol standards. The 
        current definition of trafficking under Chinese law 
        does not clearly cover offenses against male victims. 
        Chinese law identifies illegal adoptions as human 
        trafficking, which under the UN TIP Protocol are 
        considered trafficking only if the end purpose is 
        exploitation.
        <bullet> During the reporting year, Hong Kong was a 
        destination for human trafficking, with migrant workers 
        particularly at risk of exploitation for forced labor. 
        One alleged victim of human trafficking challenged the 
        Hong Kong government in court, arguing that Hong Kong's 
        Bill of Rights Ordinance requires the Hong Kong 
        government to enact stronger anti-trafficking 
        legislation.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to abide by its 
        commitments under the UN TIP Protocol and to bring 
        anti-trafficking legislation into alignment with 
        international standards, specifically with regard to 
        China's legal definition of human trafficking. Call on 
        the Chinese government to extend coverage of the UN TIP 
        Protocol to include Hong Kong. Urge the Chinese 
        government to end its policy of forcibly repatriating 
        undocumented North Korean migrants.
          Work with regional governments, multilateral 
        institutions, and non-governmental organizations (NGOs) 
        to encourage and support the collection of more 
        accurate data in order to better assess the scale and 
        root causes of human trafficking in Asia and monitor 
        the effectiveness of anti-trafficking measures.
          Encourage and engage in continued regional 
        cooperation to combat human trafficking through 
        multilateral agreements and meetings such as the 
        Coordinated Mekong Ministerial Initiative Against 
        Trafficking, Asia-Pacific Economic Cooperation, and the 
        East Asia Summit. Such regional cooperation should 
        address migration and the flow of refugees, poverty, 
        sex ratio imbalances, and other risk factors that 
        contribute to human trafficking.
          Pursue cooperation on anti-trafficking efforts 
        through the U.S.-China Joint Liaison Group on Law 
        Enforcement Cooperation. Facilitate international 
        exchanges among civil society groups and industry 
        associations to raise awareness of best practices for 
        identifying and combating human trafficking in supply 
        chains. Support NGOs working on anti-trafficking 
        education and victims' services throughout Asia.
          Incorporate language into bilateral and multilateral 
        economic agreements requiring member countries to 
        improve data collection on human trafficking and to 
        take concrete steps toward eliminating human 
        trafficking within their borders.

                     North Korean Refugees in China


                                Findings

        <bullet> During the Commission's 2016 reporting year, 
        the Chinese government's policy of detaining North 
        Korean refugees and repatriating them to the Democratic 
        People's Republic of Korea (DPRK) remained in place, in 
        violation of its obligations under international human 
        rights and refugee law.
        <bullet> In November 2015, the UN Committee against 
        Torture (Committee) conducted its fifth periodic review 
        of China's compliance with the Convention against 
        Torture and Other Cruel, Inhuman or Degrading Treatment 
        or Punishment. In its concluding observations, the 
        Committee stated its concerns about China's lack of 
        ``national asylum legislation and administrative 
        procedures'' for determining refugee status and China's 
        ``rigorous policy of forcibly repatriating all 
        nationals of the [DPRK] on the ground that they have 
        illegally crossed the border solely for economic 
        reasons.'' The Committee also urged China to adopt 
        measures to address these concerns.
        <bullet> Heightened security measures along the China-
        North Korea and China-Southeast Asia borders increased 
        the risks North Korean refugees face. The number of 
        refugees who reached South Korea decreased from 1,397 
        in 2014 to 1,277 in 2015, continuing the trend of a 
        significant decline in the number of refugees entering 
        South Korea since 2011.
        <bullet> Chinese authorities continued to crack down on 
        organizations and individuals that have played a 
        crucial role in assisting and facilitating the movement 
        of North Korean refugees outside the DPRK, including 
        Canadian citizen Kevin Garratt who was reportedly 
        involved in assisting North Korean refugees.
        <bullet> The Commission observed reports of North 
        Korean laborers in China working under exploitative 
        conditions. According to one expert, the DPRK 
        government subjected these workers to ``very harsh 
        conditions of work'' that ``amount to forced labor.'' 
        This past year, some North Korean restaurant workers 
        escaped to South Korea from their work sites in China.
        <bullet> North Korean women who enter China illegally 
        remained particularly vulnerable to human trafficking. 
        The majority of North Korean refugees leaving the DPRK 
        are women, many of whom are trafficked from the DPRK 
        into or within China for the purposes of forced 
        marriage and commercial sexual exploitation.
        <bullet> Many children born to Chinese fathers and 
        North Korean mothers remained deprived of basic rights 
        to education and other public services owing to a lack 
        of legal resident status in China, contravening China's 
        obligations under international law.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Consider using the suite of sanctions that are 
        available, where appropriate, against Chinese 
        government agencies and individuals involved in the 
        repatriation of North Korean refugees, and press for 
        increased international monitoring of and 
        accountability for China's treatment of refugees.
          Call on the Chinese government to address the 
        concerns of the UN Committee against Torture by 
        incorporating the principle of non-refoulement into 
        domestic legislation and allowing UN High Commissioner 
        for Refugees personnel unimpeded access to North Korean 
        refugees in China.
          Urge Chinese officials to abide by China's 
        obligations under international human rights 
        instruments and to prosecute human traffickers 
        operating in China and along the China-North Korea 
        border.
          Urge Chinese authorities to recognize the legal 
        status of North Korean women who marry or have children 
        with Chinese citizens, and ensure that all such 
        children are granted resident status and access to 
        education and other public services in accordance with 
        Chinese law and international standards.
          Ask the U.S. Special Envoy on North Korean Human 
        Rights Issues to work with South Korean counterparts--
        including the newly established South Korean Ambassador 
        for International Cooperation on North Korean Human 
        Rights at the Ministry of Foreign Affairs and the North 
        Korean Human Rights Foundation under the Ministry of 
        Unification--to coordinate efforts related to 
        humanitarian assistance and human rights promotion for 
        North Korean refugees in China, in accordance with the 
        North Korean Human Rights Act.

                             Public Health


                                Findings

        <bullet> The Chinese government and Communist Party 
        advanced health care reform priorities with a merger of 
        two of China's three health insurance schemes announced 
        in January 2016. The merger will affect health 
        insurance coverage for more than 1 billion Chinese 
        citizens. The government also sought to address the 
        ongoing problem of ``commotions at hospitals'' (yi'nao) 
        related to patient-doctor disputes with measures to 
        improve security for hospital staff and a revision to 
        the PRC Criminal Law that imposes harsher penalties for 
        ``social order'' disturbances at hospitals.
        <bullet> The Party propaganda department issued 
        censorship directives to prohibit or limit news about 
        public health matters deemed politically sensitive, 
        including news stories about patient-doctor disputes, 
        challenges in accessing medical care, and apparently 
        contaminated pharmaceutical products. Parents who 
        advocated for government accountability over harm to 
        their children's health and well-being through public 
        protests and filing lawsuits encountered a range of 
        official responses, including detention.
        <bullet> Forcibly committing individuals without mental 
        illness to psychiatric facilities (bei jingshenbing) as 
        a ``form of retaliation and punishment by Chinese 
        authorities against activists and government critics'' 
        reportedly remains a serious problem in China despite 
        the PRC Mental Health Law's (MHL) prohibition of such 
        abuse. The Commission observed reports during the past 
        year on the forcible institutionalization of 
        individuals including Xing Shiku, Xia Funian, Wang 
        Hedi, Xu Dajin, Wang Shou'an, and Zhang Wenhe.
        <bullet> Chinese officials and domestic and 
        international experts have observed a range of 
        challenges in the implementation of the MHL since it 
        took effect in 2013. During the reporting year, 
        localities issued plans to implement the National 
        Mental Health Work Plan (2015-2020), including pilot 
        projects to provide more rehabilitation services for 
        individuals with psychosocial disorders. A focus on 
        individuals with severe mental disorders deemed at risk 
        of violent behavior is evident in national policy and 
        local mental health work agendas.
        <bullet> Provisions on anti-employment discrimination 
        and the right to work in the PRC Law on the Protection 
        of the Rights of Persons with Disabilities were cited 
        in a model case featuring the protection of the rights 
        of persons with disabilities published by the Supreme 
        People's Court in May 2016. In addition, in May, a 
        court in Guizhou province awarded financial 
        compensation to the plaintiff in a case that legal 
        experts noted was the first in which a court found in 
        favor of a plaintiff claiming employment discrimination 
        due to HIV/AIDS. Persons with disabilities and health-
        related conditions in China, nevertheless, continued to 
        face obstacles in attaining equal access to employment 
        and education. In July and August 2016, official media 
        reported on two cases in which individuals with visual 
        impairments were denied university enrollment and 
        government employment based on physical eligibility 
        standards.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to strengthen 
        implementation of the PRC Mental Health Law (MHL) and 
        stop using forcible psychiatric commitment to retaliate 
        against and silence persons with grievances against the 
        government or persons with dissenting opinions and 
        preferences. Urge the Chinese government to establish 
        panels made up of legal, medical, and security 
        professionals from within and outside the government to 
        monitor and report on implementation of the MHL and 
        initiatives planned under the National Mental Health 
        Work Plan (2015-2020) to ensure that local 
        implementation consistently meets standards of care and 
        rights protection stipulated in the MHL, the PRC Law on 
        the Protection of the Rights of Persons with 
        Disabilities, and international standards.
          Continue to support technical assistance and exchange 
        programs in the area of public health, including but 
        not limited to cardiac care and breast cancer 
        prevention that were identified during the seventh 
        annual U.S.-China Consultation on People-to-People 
        Exchange in June 2016. Require that U.S.-China 
        cooperative programs include the participation of U.S. 
        and Chinese non-governmental organizations.
          Urge Chinese officials to focus attention on 
        effective implementation of laws and regulations that 
        prohibit health-based discrimination in access to 
        employment and education, including revision of the 
        national physical eligibility standards for civil 
        servants and teachers that discriminate against persons 
        with health conditions. Where appropriate, share the 
        United States' ongoing experience with and efforts to 
        promote the rights of persons with disabilities in 
        education, employment, and public life, through non-
        governmental advocacy and services, and legal and 
        regulatory means.

                            The Environment


                                Findings

        <bullet> During the 2016 reporting year, reports 
        indicated the severity of China's air, water, and soil 
        pollution, and scientists published new research 
        linking air pollution to 1.6 million premature deaths 
        per year. Chinese authorities continued to censor and 
        control media reporting on the environment, including 
        on environmental emergencies, such as the August 2015 
        explosion in Tianjin municipality, the December 2015 
        landslide in Shenzhen municipality, and the summer 2016 
        floods and their aftermath.
        <bullet> The non-transparent and extralegal detention 
        of Chinese government officials handling environmental 
        matters and data raised concerns about China's 
        commitments to transparency and the rule of law in 
        environmental protection. Significant cases of concern 
        during the reporting year included the reported torture 
        of Xu Yongsheng, the former director of the National 
        Energy Administration; the detention of Zhang Lijun, a 
        retired vice minister of the Ministry of Environmental 
        Protection (MEP); and the detention of Wang Bao'an, the 
        director of the National Bureau of Statistics of China.
        <bullet> Since the revised PRC Environmental Protection 
        Law took effect in January 2015, official government 
        and media reports indicated that there have been some 
        improvements in public participation and an increase in 
        the number of environment-related public interest 
        lawsuits. During 2015, Chinese courts reportedly 
        accepted 53 public interest lawsuits.
        <bullet> The PRC Air Pollution Prevention and Control 
        Law passed in August 2015 and took effect on January 1, 
        2016. The MEP continued to implement 2015 revisions to 
        the PRC Environmental Protection Law that allow for the 
        imposition of daily fines for violating emissions 
        standards; the MEP, however, reportedly only issued 
        daily fines in a limited number of cases. The National 
        People's Congress passed an amendment to the PRC Wild 
        Animal Protection Law in July 2016, and central 
        government officials reportedly have plans to draft a 
        PRC Soil Pollution Law and revise the PRC Environmental 
        Impact Assessment Law.
        <bullet> During the reporting year, Chinese authorities 
        continued to harass and detain environmental advocates. 
        In April 2016, a court in Liaoning province reportedly 
        accepted a retrial request after a November 2015 
        judgment that imposed a 12-year prison sentence on 
        environmentalist Tian Jiguang for ``extortion,'' 
        ``embezzlement,'' and ``misappropriation of funds,'' 
        although the retrial decision did not suspend the 
        initial judgment. Tian founded a non-governmental 
        organization to protect spotted seals, and Chinese 
        authorities reportedly detained him in connection with 
        a blog post criticizing water pollution by a state-
        owned enterprise.
        <bullet> During the reporting year, China remained the 
        largest emitter of carbon dioxide in the world. The 
        United States and China continued many dialogues and 
        exchanges related to the environment and climate 
        change. In April 2016, China signed the Paris Agreement 
        under the United Nations Framework Convention on 
        Climate Change, affirming its June 2015 commitment to 
        lower carbon dioxide emissions per unit of GDP by 60 to 
        65 percent from the 2005 level by 2030.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Continue to support U.S.-China technical and legal 
        collaboration on environmental protection. U.S.-China 
        cooperation should focus on programs aimed at 
        increasing media freedom; improving transparency and 
        the rule of law; reducing air, water, and soil 
        contamination; and improving government accountability. 
        Raise concerns regarding the censorship of the 
        documentary ``Under the Dome'' and transparency 
        surrounding important environmental data.
          Raise questions with Chinese officials about the lack 
        of transparency and due process in the detentions of 
        energy, environmental, and statistics bureau officials, 
        including Xu Yongsheng, Zhang Lijun, and Wang Bao'an.
          Urge Chinese authorities to fully implement 
        provisions in Chinese law providing for public 
        participation in environmental policy and project 
        decisions. Support programs intended to increase the 
        scientific, technical, legal, and operational capacity 
        of Chinese environmental non-governmental organizations 
        (NGOs), including programs that assist NGOs in taking 
        full advantage of opportunities to file environmental 
        public interest lawsuits and submit open government 
        information requests. Raise the detention of Tian 
        Jiguang in meetings with Chinese officials.
          Support efforts by Chinese and U.S. groups working to 
        expand awareness of citizens' environmental rights in 
        China and the protection of those rights. Include 
        environmental law and transparency issues in bilateral 
        human rights and legal expert dialogues. Include 
        discussion of human rights dimensions of climate change 
        in the U.S.-China Climate Change Working Group.

                             Civil Society


                                Findings

        <bullet> During the Commission's 2016 reporting year, 
        the Chinese government and Communist Party continued to 
        deepen a crackdown that began in 2013 against non-
        governmental organizations (NGOs) and civil society 
        advocates. Targets of the crackdown included staff from 
        the Panyu Workers' Services Center and other labor 
        rights NGOs and the Beijing Zhongze Women's Legal 
        Counseling and Service Center. An international rights 
        NGO reported that authorities detained 22 human rights 
        defenders in 2015 on suspicion of ``inciting subversion 
        of state power,'' equal to the recorded total for the 
        three previous years combined under the same charge. 
        These detentions, some of which are linked to the 
        government's ``unprecedented attack'' beginning in and 
        around July 2015 against rights lawyers and advocates, 
        reportedly have contributed to a ``chilling effect'' on 
        civil society in China.
        <bullet> Chinese authorities also targeted an 
        international staff member of a legal rights advocacy 
        group during this reporting year. Authorities detained 
        Peter Dahlin, a Swedish rights advocate who cofounded 
        the Chinese Urgent Action Working Group, an 
        organization that trains and supports Chinese rights 
        defenders, for three weeks before expelling him from 
        the country. On January 19, 2016, while Dahlin was 
        still in detention, state television aired a 
        prerecorded confession, which Dahlin later stated was 
        scripted by Chinese authorities.
        <bullet> The National People's Congress passed the PRC 
        Law on the Management of Overseas NGO Activities in 
        Mainland China in April 2016. The law covers a wide 
        range of international NGOs (INGOs), grants authority 
        over INGO registration to the Ministry of Public 
        Security and provincial-level public security agencies, 
        and restricts the activities of INGOs in China through 
        registration and reporting requirements. International 
        observers called on the Chinese government to repeal 
        the legislation, and warned that the law could be used 
        to intimidate and suppress dissenting views and to 
        exert greater control over civil society.
        <bullet> The National People's Congress passed the PRC 
        Charity Law in March 2016. If fully implemented, the 
        legislation paves the way for easier registration for 
        qualifying charitable organizations, permits registered 
        charities to engage in public fundraising, requires 
        public disclosure of organizations' activities and use 
        of funds, and forbids embezzlement and misuse of funds. 
        Observers reported concerns over provisions in the law 
        that allow authorities to prosecute and shut down 
        groups deemed to ``endanger state security,'' a vague 
        charge that rights groups say authorities can use to 
        crack down on human rights advocacy.
        <bullet> During the past year, the central government 
        released draft revisions to the three major regulations 
        governing the registration and management of domestic 
        civil society organizations. Following the February 
        2016 State Council administrative revision to the 
        Regulations on the Registration and Management of 
        Social Organizations, the Ministry of Civil Affairs 
        (MCA) released a revised draft for public comment in 
        August 2016, which would permit direct registration for 
        business associations, research organizations, 
        charities, and service organizations. The MCA also 
        released a revised draft for public comment of the 
        Regulations on the Management of Non-Governmental, Non-
        Commercial Enterprises changing the name to the 
        Regulations on the Management of Social Service 
        Organization Registration, and renaming ``non-
        governmental, non-commercial units'' as ``social 
        service organizations.'' Provisions in the draft 
        Regulations on the Management of Foundations specify 
        how charitable foundations should be classified and 
        regulated.
        <bullet> The regulatory environment for Chinese NGOs 
        continued to be challenging to navigate. Authorities 
        continued to require some NGOs to secure the 
        sponsorship of a governmental or quasi-governmental 
        organization in order to be eligible for registration. 
        This ``dual management system'' subjects NGOs to 
        differentiated treatment based on authorities' 
        perception of a group's political sensitivity. Experts 
        noted that NGOs without government affiliation are at a 
        disadvantage compared to quasi-governmental or 
        government-organized non-governmental organizations 
        (GONGOs) with respect to public fundraising and 
        government procurement.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to hasten the enactment 
        of legal provisions pertaining to civil society that 
        are consistent with China's Constitution as well as 
        China's international obligations. Urge China to ratify 
        the International Covenant on Civil and Political 
        Rights (ICCPR). Urge the Chinese government to revise 
        or repeal the PRC Law on the Management of Overseas NGO 
        Activities in Mainland China and revise the PRC Charity 
        Law to reflect the principles of the ICCPR.
          Call on the Chinese government to cease harassment of 
        civil society advocates and NGOs. Integrate civil 
        society issues into bilateral discussions and 
        agreements and strengthen U.S. Government-funded 
        programs and exchanges in China.
          Take measures to facilitate the participation of 
        Chinese civil society advocates in relevant 
        international conferences and forums, and support 
        international training to build their leadership 
        capacity in non-profit management and best practices, 
        public policy advocacy, strategic planning, and media 
        relations.
          Urge the Chinese government to establish a fair and 
        transparent framework for the implementation and 
        regulation of government procurement of social services 
        from NGOs. Where appropriate, support civil society 
        leaders and advocates in visiting other signatories to 
        the World Trade Organization Agreement on Government 
        Procurement in order to observe best practices in 
        government procurement of services from NGOs.

                 Institutions of Democratic Governance


                                Findings

        <bullet> This past year, the Chinese Communist Party 
        continued to direct and influence politics and society 
        at all levels, including in the military, economy, 
        media, civil society, and family life. State media 
        outlets reported that Chinese President and Party 
        General Secretary Xi Jinping emphasized the Party's 
        claims to wide-ranging leadership at a senior-level 
        Party meeting in January 2016. The Party and government 
        adopted the 13th Five-Year Plan (2016-2020) for 
        economic and social development, which reiterates a 
        vision to ``spur a great rejuvenation of the Chinese 
        nation'' in line with the ``Chinese dream.''
        <bullet> The Commission observed a continued emphasis 
        on Party General Secretary and President Xi Jinping's 
        leading role in guiding decisionmaking in Party, 
        government, and military affairs. Reports suggested 
        that Xi used the ongoing anticorruption campaign, 
        intensified Party disciplinary measures, promoted his 
        speeches as ideological guidance, and continued his 
        chairmanship of at least six leading small groups in 
        the Party Central Committee to strengthen his power 
        within the Party. Following central Party meetings that 
        featured calls to strengthen the Party's role, several 
        provincial and local Party leaders referred to Xi as 
        the ``core'' (hexin) of Party leadership.
        <bullet> This past year, Chinese officials' wide-
        reaching anti-
        corruption campaign to reduce graft and strengthen 
        Party discipline continued snaring so-called ``tigers'' 
        and ``flies''--high- and low-level Party officials in 
        the government, military, media, and business--in a 
        manner that one scholar called selective in 
        enforcement, non-transparent, and politicized. The 
        Central Commission for Discipline Inspection targeted 
        officials through use of the non-transparent and 
        extralegal disciplinary process of shuanggui, about 
        which the UN Committee against Torture expressed 
        concern during its fifth periodic review of China's 
        compliance with the Convention against Torture and 
        Other Cruel, Inhuman or Degrading Treatment or 
        Punishment.
        <bullet> Chinese officials continued a broad 
        ideological and political crackdown on the Party and 
        bureaucracy, human rights lawyers, business leaders, 
        and rights advocates. Some representative cases of 
        advocates whom authorities targeted this past year 
        included Qin Yongmin, Zhao Suli, Wang Su'e, Xu Qin, Yin 
        Weihe, and Liu Shaoming. Authorities detained and in 
        some cases sentenced individuals in connection with 
        their commemoration of the violent suppression of the 
        1989 Tiananmen protests. Such individuals included Zhao 
        Changqing, Zhang Baocheng, Xu Caihong, Li Wei, Ma 
        Xinli, Liang Taiping, Fu Hailu, Tang Jingling, Yuan 
        Chaoyang, Wang Qingying, and Pu Zhiqiang.
        <bullet> This past year, central Party authorities did 
        not undertake any substantial political liberalization, 
        but instead pledged to continue improving China's 
        ``socialist political democratic consultative system'' 
        with the aim of strengthening Party leadership. Sources 
        from this past year highlighted several examples in 
        which officials interfered with or inhibited meaningful 
        public participation in local elections, undermining 
        the ability of Chinese political institutions to meet 
        the standards for ``genuine'' elections outlined in the 
        Universal Declaration of Human Rights and the 
        International Covenant on Civil and Political Rights.
        <bullet> In June 2016, international and Chinese 
        official media outlets reported a new round of protests 
        in Wukan, a village in Donghai subdistrict, Lufeng 
        city, Shanwei municipality, Guangdong province, over 
        the detention of the village committee's Party 
        Secretary Lin Zulian. Media reports indicated that 
        authorities detained Lin after he announced a public 
        meeting to protest the lack of official progress in the 
        government's pledge to return farmland. On June 21, 
        Shanwei officials released a prerecorded confession of 
        Lin admitting to taking bribes, which local residents 
        reportedly found unconvincing, and formally arrested 
        him on July 21.
        <bullet> Chinese authorities reiterated their intent to 
        improve open government affairs and aim for a higher 
        level of public information disclosure. The Party 
        Central Committee and State Council issued an opinion 
        in February 2016 to further strengthen work on the open 
        government information system, stipulating that 
        government agencies must effectively improve 
        disclosure, civic participation, and public trust.
        <bullet> The Chinese government continued plans to 
        establish the national social credit system this past 
        year. In June 2016, the State Council issued a guiding 
        opinion on building the social credit system, directing 
        national and provincial government agencies to 
        construct an ``interregional and cross-departmental 
        mechanism for encouraging trustworthiness and punishing 
        dishonesty.''

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Support U.S. research programs that seek to document 
        and analyze the governing institutions and ideological 
        campaigns of the Chinese Communist Party, as well as 
        its influence over companies, government agencies, 
        legislative and judicial bodies, and non-governmental 
        organizations.
          Employ a ``whole-of-government'' approach to 
        encourage Chinese authorities to ratify the 
        International Covenant on Civil and Political Rights 
        and release individuals detained or imprisoned for 
        exercising their rights to freedom of speech, 
        association, and assembly. Such political prisoners may 
        include those who sought to hold memorials for victims 
        of the violent suppression of the 1989 Tiananmen 
        protests, those engaged in anticorruption advocacy, or 
        other individuals mentioned in this report and in the 
        Commission's Political Prisoner Database.
          Support joint U.S.-China cooperative programs to 
        develop independent village committee and people's 
        congress election monitoring systems and encourage 
        central and local Party and government leaders to 
        implement free and fair elections across China. 
        Continue to support democracy promotion and rule of law 
        programs that are adapted to China.
          Support organizations working in China that seek to 
        work with local governments and non-governmental 
        organizations to improve transparency, especially in 
        efforts to expand and improve China's government 
        information disclosure initiatives. Urge Party 
        officials to further increase the transparency of Party 
        affairs.
          Call on the Chinese government to improve procedures 
        through which citizens may hold their officials 
        accountable. Urge Chinese officials to strengthen and 
        expand protections for corruption informants, 
        investigate irregularities associated with corruption-
        related detentions, and release detained anti-
        corruption and democracy advocates.

                         Commercial Rule of Law


                                Findings

        <bullet> As of December 11, 2016, China will have been 
        a member of the World Trade Organization (WTO) for 15 
        years. The Chinese government, however, has failed to 
        fulfill many of its WTO commitments, including its 
        legal commitments related to the rule of law, market 
        prices, transparency, non-discrimination against 
        foreign companies, and preferential treatment and 
        subsidies for state-owned enterprises. During the 
        reporting year, the United States and Chinese 
        governments' negotiation for a Bilateral Investment 
        Treaty (BIT) continued, and the U.S. Government's 
        objectives for the treaty included ``non-
        discrimination, fairness and transparency.''
        <bullet> The Chinese government continued to impose 
        restrictions on economic reporting and control access 
        to commercial information. The websites of the New York 
        Times, Bloomberg News, Wall Street Journal, and Reuters 
        remained blocked in China. In March 2016, the Office of 
        the U.S. Trade Representative listed Chinese Internet 
        censorship as a trade barrier for the first time. As of 
        August 2016, the Public Company Accounting Oversight 
        Board, a non-profit corporation established by the U.S. 
        Congress to oversee public company audits, reportedly 
        remained unable to obtain legal and financial documents 
        from China-based companies listed on U.S. stock 
        exchanges. A report indicated that between January 2010 
        and November 2015, Chinese companies reportedly raised 
        US$36.7 billion from U.S. investors in initial public 
        offerings.
        <bullet> In August 2015, Chinese authorities detained 
        Caijing financial reporter Wang Xiaolu after he 
        reported that the Chinese government might reduce 
        financial support for stabilizing stock prices. In or 
        around February 2016, authorities reportedly released 
        Wang from detention. In January 2016, authorities 
        detained Wang Bao'an, director of the National Bureau 
        of Statistics of China, hours after he had defended 
        China's economic performance and official economic data 
        at a news conference.
        <bullet> In March 2015, American businesswoman Sandy 
        Phan-Gillis disappeared as she was about to travel from 
        Zhuhai municipality, Guangdong province, to Macau. In 
        June 2016, the UN Working Group on Arbitrary Detention 
        issued an opinion that Phan-Gillis's detention was 
        arbitrary due to violations of her right to legal 
        counsel and the lack of a prompt, independent review of 
        her detention. In July 2016, international media 
        reported that Phan-Gillis had been, or would soon be, 
        indicted. According to the U.S. State Department, the 
        Chinese government's restrictions on communication 
        between U.S. consular officials and Phan-Gillis are 
        ``inconsistent'' with China's obligations under the 
        U.S.-China Consular Convention.
        <bullet> During the reporting year, China remained a 
        non-market economy. In 2015, China's 150,000 state-
        owned enterprises (SOEs) held over 100 trillion yuan 
        (US$16 trillion) in assets and employed more than 30 
        million people. ``State-owned holding'' enterprises 
        accounted for the majority of the total equity of the 
        Chinese stock market, and the Chinese government was 
        reportedly a majority shareholder in 99 of the 100 
        largest publicly listed companies.
        <bullet> Cyber theft of intellectual property supported 
        by the Chinese government reportedly continued during 
        the reporting year, despite President Barack Obama and 
        President Xi Jinping's agreement in September 2015 that 
        ``neither country's government will conduct or 
        knowingly support cyber-enabled theft of intellectual 
        property with the intent of providing competitive 
        advantages to companies or commercial sectors.'' 
        Inadequate protection for intellectual property and 
        discriminatory and non-transparent antimonopoly 
        enforcement in China continued to negatively affect 
        American companies, although there were some positive 
        judicial and regulatory developments.
        <bullet> Foreign investments by Chinese companies in 
        the United States, with the support of the Chinese 
        government and Chinese government-controlled financial 
        institutions, continued to grow during the 2016 
        reporting year. In January 2016, the Asian 
        Infrastructure Investment Bank, a multilateral 
        development bank headquartered in Beijing municipality, 
        formally opened.
        <bullet> In November 2015, the International Monetary 
        Fund (IMF) decided to include the yuan as part of the 
        Special Drawing Rights, despite concerns over 
        restrictions on convertibility of the yuan. In February 
        2016, the Wall Street Journal reported that the IMF was 
        unsatisfied with the lack of economic information 
        provided by the Chinese government. According to state-
        run news agency Xinhua, IMF officials later denied the 
        report.
        <bullet> In October 2015, the PRC Food Safety Law 
        became effective; an American company, however, 
        expressed concern with the Chinese government's 
        enforcement processes. During the reporting year, a 
        vaccine scandal involving the sale of improperly stored 
        vaccines caused significant public concern.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government, in Bilateral Investment 
        Treaty (BIT) negotiations and other forums, to stop 
        blocking access to U.S. commercial and media companies 
        in China, including the New York Times, Bloomberg News, 
        and the Wall Street Journal. The Office of the U.S. 
        Trade Representative should ensure that the BIT 
        includes protection for investments in news agency 
        services and online media, as well as protection for 
        cross-border data flows that are at least as strong as 
        those in the Trans-Pacific Partnership agreement. The 
        Office of the U.S. Trade Representative should provide 
        a list of U.S. commercial websites blocked in China in 
        its annual Special 301 Report.
          Study ways to respond to the Chinese government's 
        increased funding of international investment projects. 
        The United States should consider approving the 
        December 2010 International Monetary Fund (IMF) reform 
        measures to increase IMF funding and increase 
        representation of emerging economies.
          Consider revisions to the U.S.-China Consular 
        Convention to ensure that Americans detained in China 
        are allowed to discuss the details of their case with 
        U.S. consular officials and meet with a lawyer. U.S. 
        Government officials should raise the case of Sandy 
        Phan-Gillis in meetings with Chinese officials. Provide 
        additional support to U.S. companies facing criminal 
        and administrative enforcement actions in China and 
        litigating significant intellectual property cases.
          Increase reporting on intellectual property theft and 
        cyber espionage from China. The U.S. Department of 
        Justice should consider reporting intellectual property 
        cases involving foreign companies and foreign 
        nationals, including those originating from China, on 
        an annual basis.
          The U.S. Securities and Exchange Commission should 
        require full access to corporate documents for Chinese 
        companies listed on U.S. stock exchanges, and raise 
        challenges regarding corporate transparency in 
        discussions with Chinese officials.

                           Access to Justice


                                Findings

        <bullet> During the Commission's 2016 reporting year, 
        the Chinese government made some progress in 
        implementing various judicial reforms but continued to 
        fall short in meeting certain international human 
        rights standards such as equal access to impartial 
        tribunals.
        <bullet> Despite purported efforts to shield courts 
        from political influence, the Chinese government and 
        Communist Party continued to exert influence over the 
        judiciary. Although reports indicated that more 
        citizens had their cases accepted by courts this past 
        year, some courts continued to deny rights advocates 
        access to the court system.
        <bullet> The implementation of a trial-centered 
        litigation system, which is aimed at ensuring the 
        legality of evidence obtained during the pre-trial 
        process, was at the planning stage during this 
        reporting year. The effectiveness of this system, 
        however, may be hampered by the low rate of legal 
        representation in criminal cases before courts of first 
        instance, which dropped from 30 to 20 percent in the 
        past two years.
        <bullet> The Chinese court system continued to make 
        judicial opinions available online and issue ``guiding 
        cases'' toward the goal of promoting judicial 
        transparency and uniformity in court judgments.
        <bullet> In the past year, central and local government 
        reports showed an overall increase in funding for and 
        access to the legal aid system since 2010, and media 
        reports illustrated progress and challenges in efforts 
        toward further expansion.
        <bullet> The Chinese government took steps to improve 
        the overburdened petitioning system in part by 
        requiring administrative agencies to specify petition 
        subject matters within their respective jurisdictions, 
        using the two newly established circuit tribunals to 
        resolve petitioners' grievances, and diverting some 
        cases from the petitioning system to judicial and other 
        administrative channels. Some believe, however, that 
        these measures may not be able to effectively address 
        issues that are traditionally handled by the 
        petitioning system due to the costs and processing time 
        involved. In the past year, petitioners continued to 
        face reprisals for seeking redress from local 
        governments, such as being prosecuted for extortion and 
        other criminal charges.
        <bullet> During the reporting year, the Chinese 
        government continued to detain rights lawyers and 
        advocates whom it targeted during a nationwide and 
        coordinated crackdown that began in and around July 
        2015. Authorities denied many of the advocates access 
        to counsel and did not inform their families about the 
        detention location. Authorities also detained and 
        harassed family members of the detained advocates.
        <bullet> Authorities appeared to target non-
        governmental organizations (NGOs) and individuals whose 
        legal aid work overlapped with rights advocacy.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to eliminate all forms of 
        influence on the court system, including of the 
        Communist Party and the central government.
          Raise concerns about the fact that some local courts, 
        despite the new case filing system, refused to accept 
        cases submitted by petitioners and rights advocates, 
        thereby denying them equal access to justice.
          Encourage the Chinese government to improve legal 
        representation of criminal defendants and to take 
        substantive action to implement the trial-centered 
        litigation system that is designed to ensure the 
        legality of evidence obtained during the pre-trial 
        process.
          Increase support for programs that promote dialogue 
        between U.S. and Chinese legal experts regarding how 
        China can structure and implement legal reforms. 
        Concomitantly increase support for collaboration 
        between U.S. and Chinese academic and non-governmental 
        entities to foster programs that enhance the Chinese 
        legal system's potential to be a vehicle for protecting 
        citizens' rights.
          Urge the Chinese government to stop all forms of 
        persecution or prosecution of petitioners who use the 
        petitioning system to seek redress for their 
        grievances.
          Urge the Chinese government to protect the 
        fundamental civil and professional rights of China's 
        lawyers, to investigate all allegations of abuse, and 
        to ensure that those responsible are brought to 
        justice.
          Urge the Chinese government to unconditionally 
        release the rights lawyers and advocates detained 
        during the crackdown that began in and around July 
        2015, to investigate allegations of sexual assault 
        against Zhao Wei while in custody, and to vacate the 
        convictions of the individuals already sentenced.

                                Xinjiang


                                Findings

        <bullet> During the Commission's 2016 reporting year, 
        central and regional authorities continued to implement 
        repressive security measures targeting Uyghur 
        communities in the Xinjiang Uyghur Autonomous Region 
        (XUAR). Reports from international media and rights 
        advocates documented arbitrary detentions, oppressive 
        security checkpoints and patrols, the forcible return 
        of Uyghurs to the XUAR from other provinces as part of 
        heightened security measures, and forced labor as a 
        means to ``ensure stability.'' In addition, Meng 
        Jianzhu, head of the Communist Party Central Committee 
        Political and Legal Affairs Commission, repeatedly 
        stressed the need for authorities to ``eradicate 
        extremism''--in particular, ``religious extremism''--in 
        the XUAR in conjunction with security measures. The 
        U.S. Government and international observers have 
        asserted that XUAR officials have justified limits on 
        Uyghurs' religious freedom by equating them with 
        efforts to combat extremism.
        <bullet> The Commission observed fewer reports of 
        violent incidents involving ethnic or political 
        tensions in the XUAR in the 2016 reporting year than in 
        previous reporting years, though it was unclear whether 
        less violence occurred, or if Chinese authorities 
        prevented public disclosure of the information. 
        International media and rights advocates raised 
        concerns about Chinese authorities' failure to report 
        and attempts to suppress information regarding deadly 
        clashes involving Uyghurs, including information about 
        a September 2015 attack in Aksu prefecture.
        <bullet> On December 27, 2015, the National People's 
        Congress passed the PRC Counterterrorism Law. The 
        legislation, which took effect on January 1, 2016, 
        contains provisions that expand police authority, 
        including the authority to use weapons. Human rights 
        organizations and other observers criticized the law as 
        repressive and expressed fears that it expanded 
        officials' authority to punish peaceful activities and 
        target ethnic minorities, including Uyghurs.
        <bullet> On July 29, 2016, the XUAR People's Congress 
        approved regional measures to implement the PRC 
        Counterterrorism Law that contain more detailed 
        definitions than the national legislation regarding 
        terrorist activities and how to punish religious 
        extremists. A human rights advocate cited in an 
        international news report expressed concern that under 
        the new regional measures, authorities could label 
        Uyghurs' ordinary religious activities as extremism and 
        terrorism.
        <bullet> Uyghur political prisoners remaining in 
        detention in the XUAR during the reporting year include 
        Uyghur scholar Ilham Tohti; Tudaxun Hoshur, brother of 
        Uyghur-American reporter Shohret Hoshur; and Uyghur-
        Canadian imam Huseyin Celil.
        <bullet> During this reporting year, central and XUAR 
        officials continued to focus on the role of economic 
        growth and development initiatives in the XUAR in 
        promoting stability. Through the ``Silk Road'' and 
        ``One Belt, One Road'' development strategies 
        introduced in recent years, government authorities 
        sought to attract overseas investment and investment 
        from other areas of China, and to develop the XUAR as a 
        production and logistics hub. Critics of XUAR 
        development strategies outlined authorities' failure to 
        address persistent tensions involving socio-economic 
        inequality, ethnic tension, and assimilation. In 
        addition, an April 2016 Greenpeace briefing on air 
        quality in China reported that the five cities with the 
        highest average PM<INF>2.5</INF> concentration were 
        located in the XUAR--the result of the westward shift 
        of industries such as coal-fired power plants.
        <bullet> Following XUAR authorities' November 2014 
        amendment of regional regulations governing religious 
        affairs, central and XUAR officials continued to use 
        new legislation and other measures that narrowed the 
        scope of Uyghur Muslims' ability to peacefully practice 
        their religious faith and express their Muslim cultural 
        identity. Authorities in locations throughout the XUAR 
        also enforced controls on Uyghur Muslims in mosques and 
        in their homes, and sought to restrict Islamic teaching 
        outside of state control.
        <bullet> During the reporting year, central and 
        regional officials placed restrictions on journalists 
        covering XUAR-related issues, detained Uyghurs who 
        wrote for websites, enforced controls on online 
        communications tools in the XUAR, and restricted public 
        information on violent incidents in the XUAR. In one 
        example of officials restricting news media from 
        opposing the state's narrative on the XUAR and 
        counterterrorism, in December 2015, authorities failed 
        to renew the press credentials of Beijing municipality-
        based French reporter Ursula Gauthier, effectively 
        expelling her from China. Gauthier, who had criticized 
        Chinese counterterrorism policies, was the first 
        foreign journalist Chinese authorities expelled since 
        Al Jazeera reporter Melissa Chan in 2012.
        <bullet> During the reporting year, XUAR authorities 
        linked social policies in the areas of education and 
        employment in the XUAR to political goals such as the 
        ``sinicization'' of ethnic minority populations. In 
        November 2015, XUAR Party Secretary Zhang Chunxian 
        noted the importance of ``bilingual education'' in the 
        region, alongside ``ethnic blending'' and students' 
        acceptance of the ``five identifies,'' that is, 
        identifying with the country, Chinese nationality, 
        Chinese culture, the Chinese Communist Party, and 
        ``socialism with Chinese characteristics.'' Reports 
        indicated the existence of ethnic tensions amid an 
        influx of Han Chinese workers in the XUAR, and in spite 
        of some official efforts to create jobs for Uyghur 
        residents of the XUAR, some government and private 
        employers within the XUAR discriminated against non-Han 
        job applicants.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Support efforts to raise greater public awareness of 
        human rights conditions in the XUAR, support 
        initiatives to protect Uyghur culture, increase avenues 
        for Uyghurs to protect their human rights, and 
        undertake more frequent human rights-focused visits to 
        the XUAR.
          Call on the Chinese government to allow diplomats, 
        domestic and international journalists, and observers 
        greater freedom to report on XUAR-related issues, and 
        to allow domestic and international journalists to 
        freely express their views on government policy in the 
        XUAR, as provided for under Chinese and international 
        law.
          Call on the Chinese government to adhere to domestic 
        laws and regulations guaranteeing freedom of religious 
        belief as well as international standards guaranteeing 
        religious practice free from state restrictions.
          Call on the Chinese government to consult with non-
        Han Chinese parents, teachers, and students regarding 
        which language or languages of instruction should be 
        used in XUAR schools, from the preschool to the 
        university level. Call on Chinese officials to provide 
        parents and students a choice of instruction in the 
        Uyghur language and other non-Chinese languages 
        prevalent in the XUAR, as mandated in Article 4 of 
        China's Constitution and Article 10 of the PRC Regional 
        Ethnic Autonomy Law.
          Encourage U.S. companies conducting business or 
        investing in development initiatives in the XUAR to 
        promote equal opportunity employment for ethnic 
        minorities and to support development projects that 
        incorporate consultation with ethnic minorities 
        regarding the economic, political, and social impact of 
        such projects. Encourage U.S. companies investing in 
        XUAR business opportunities to actively recruit ethnic 
        minority candidates for employment positions, implement 
        mechanisms to eliminate hiring and workplace 
        discrimination, and urge Chinese counterparts to 
        provide equal opportunity employment to ethnic 
        minorities.
          Encourage U.S. companies conducting business or 
        investing in development initiatives in the XUAR to use 
        environmentally friendly business practices in their 
        operations and business strategies, and to promote 
        environmental preservation efforts in the region.

                                 Tibet


                                Findings

        <bullet> Formal dialogue between the Dalai Lama's 
        representatives and Chinese Communist Party and 
        government officials has remained stalled since the 
        January 2010 ninth round, the longest interval since 
        such contacts resumed in 2002. The Commission observed 
        no indication during the 2016 reporting year of 
        official Chinese interest in resuming a dialogue that 
        takes into account the concerns of Tibetans who live in 
        the Tibetan autonomous areas of China.
        <bullet> The frequency of Tibetan self-immolation 
        reportedly focusing on political and religious issues 
        during the 2016 reporting year declined substantially. 
        The approximately seven-month period between monk Sonam 
        Tobyal's self-immolation in July 2015 and monk Kalsang 
        Wangdu's self-immolation in February 2016 is the 
        longest since the period between the first two such 
        self-immolations in February 2009 and March 2011. 
        Government provisions imposing collective punishment on 
        self-immolators' family members or communities may have 
        deterred potential self-immolators from putting persons 
        close to them at risk.
        <bullet> The Party and government rely on regulation of 
        Tibetan Buddhism to compel its transformation into a 
        state-managed institution. In November 2015, Zhu 
        Weiqun, formerly a senior Party official and 
        counterpart in dialogue with the Dalai Lama's envoys, 
        described reincarnation as ``first and foremost an 
        important political matter in Tibet and an important 
        manifestation of the Chinese central government's 
        sovereignty over Tibet.'' A senior Tibet Autonomous 
        Region (TAR) Party official said in March 2016 that the 
        Dalai Lama was ``no longer a religious leader after he 
        defected [from] his country and betrayed its people.''
        <bullet> Tibetans continued to face Party and 
        government pressure on Tibetan culture and language. 
        Reports emerged showing that officials at times treated 
        Tibetan efforts to sustain their culture and language 
        as illegal or as a threat to social stability. Tibetans 
        continued either to attempt to arrange for Tibetan 
        language training--sometimes successfully--or to 
        protest the lack of it. Security officials continued to 
        detain Tibetans who advocated on behalf of Tibetan 
        culture and language, or who sought to publish their 
        views. President and Party General Secretary Xi Jinping 
        stressed in the August 2015 Sixth Tibet Work Forum the 
        requisite promotion of a common culture and identity 
        that would serve ``social stability.''
        <bullet> The Commission observed no evidence during its 
        2002 to 2016 period of reporting that the Party or 
        government solicited systematic or representative input 
        from the Tibetan population on economic development in 
        the Tibetan autonomous areas of China. TAR officials 
        asserted that the Sichuan-Tibet railway, upon which 
        construction began in December 2014, would bring ``even 
        more prosperity'' and denied that it would result in 
        environmental harm. Commission access this past year to 
        Chinese 2010 ethnic census data showed a 50-percent 
        increase in the Han population of Lhasa municipality 
        from 2000 to 2010--a period that included the 2006 
        completion of the Qinghai-Tibet railway. TAR total 
        population increased by about 15 percent, while its Han 
        population increased by about 55 percent.
        <bullet> As of August 1, 2016, the Commission's 
        Political Prisoner Database contained records of 650 
        Tibetan political prisoners believed or presumed 
        currently detained or imprisoned. Of those, 640 are 
        records of Tibetans detained on or after March 10, 
        2008; 43 percent of them are Tibetan Buddhist monks, 
        nuns, teachers, or trulkus. Officials imprisoned or 
        detained cultural advocates such as Tashi Wangchug and 
        Drukar Gyal. The UN Committee against Torture released 
        its Concluding Observations on the Fifth Periodic 
        Report of China in February 2016. With respect to 
        torture, and specifically to death believed to have 
        resulted from abuse while detained or imprisoned, as of 
        August 1, 2016, the PPD contained records of 23 
        Tibetans taken into police custody on or after March 
        10, 2008, who reportedly died as a result of such 
        circumstances.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to resume contact with 
        the Dalai Lama or his representatives and engage in 
        dialogue without preconditions. Such a dialogue should 
        aim to protect the Tibetan culture, language, religion, 
        and heritage within the Tibet Autonomous Region and the 
        Tibetan autonomous prefectures and counties in Qinghai, 
        Gansu, Sichuan, and Yunnan provinces. A Chinese 
        government decision to engage in dialogue can result in 
        a durable and mutually beneficial outcome for the 
        government and Tibetans that will benefit local and 
        regional security in coming decades.
          Encourage the Chinese government to take fully into 
        account the views and preferences of Tibetans when 
        planning infrastructure, natural resource development, 
        and settlement or resettlement projects in the Tibetan 
        areas of China. Encourage the government to engage with 
        appropriate experts in assessing the impact of projects 
        and in advising the government on the implementation 
        and progress of projects.
          Urge the Chinese government to recognize the role of 
        government regulatory measures and Party policies in 
        Tibetan protests and self-immolations. Stress to 
        Chinese officials that strengthening measures and 
        policies that Tibetans resent is unlikely to promote 
        ``social stability'' or a ``harmonious society.'' Urge 
        the government to refrain from using security and 
        judicial institutions to intimidate Tibetan communities 
        by prosecuting and imprisoning Tibetans with alleged 
        links to a self-immolator or other protesters, or for 
        sharing information about protests.
          Stress to Chinese officials that increasing pressure 
        on Tibetan Buddhists by aggressive use of regulatory 
        measures, ``patriotic'' and ``legal'' education, and 
        anti-Dalai Lama campaigns is likely to harm social 
        stability, not protect it. Urge the government to cease 
        treating the Dalai Lama as a security threat instead of 
        as Tibetan Buddhism's principal teacher. Urge the 
        government to respect the right of Tibetan Buddhists to 
        identify and educate religious teachers, including the 
        Dalai Lama, in a manner consistent with Tibetan 
        Buddhist preferences and traditions.
          Stress to the Chinese government the importance of 
        respecting and protecting the Tibetan culture and 
        language. Stress the importance of respecting Tibetan 
        wishes to maintain the role of both the Tibetan and 
        Chinese languages in teaching modern subjects, and to 
        refrain from criminalizing Tibetans' passion for their 
        language and culture. Urge Chinese officials to promote 
        a vibrant Tibetan culture by honoring China's 
        Constitution's reference to the freedoms of speech, 
        association, assembly, and religion, and refrain from 
        using the security establishment, courts, and law to 
        infringe upon Tibetans' exercise of such rights.
          Continue to condemn the use of security campaigns to 
        suppress human rights. Request the government to 
        provide complete details about Tibetans detained, 
        charged, or sentenced for protest-related and self-
        immolation-related ``crimes.'' Continue to raise in 
        meetings and correspondence with Chinese officials the 
        cases of Tibetans who remain imprisoned as punishment 
        for the peaceful exercise of human rights.
          Encourage the Chinese government to respect the right 
        to freedom of movement of Tibetans who travel 
        domestically, including for the purpose of visiting 
        Tibetan economic, cultural, and religious centers, 
        including Lhasa; to provide Tibetans with reasonable 
        means to apply for and receive documents necessary for 
        lawful international travel; to respect the right of 
        Tibetan citizens of China to reenter China after 
        traveling abroad; and to allow access to the Tibetan 
        autonomous areas of China to international journalists, 
        representatives of non-governmental organizations, 
        representatives of the United Nations, and U.S. 
        Government officials.
          Urge the Chinese government to invite a 
        representative of an international organization to meet 
        with Gedun Choekyi Nyima, the Panchen Lama whom the 
        Dalai Lama recognized in 1995, so that he can express 
        to the representative his wishes regarding privacy.

                  Developments in Hong Kong and Macau


                                Findings

        <bullet> The disappearance, alleged abduction, and 
        detention in mainland China of five Hong Kong 
        booksellers, including two foreign nationals, in 
        October and December 2015 compromised the ``one 
        country, two systems'' framework enshrined in the Basic 
        Law, which prohibits mainland Chinese authorities from 
        interfering in Hong Kong's internal affairs, and raised 
        concerns that Hong Kong's rule of law and autonomy were 
        increasingly threatened by Chinese authorities. 
        International human rights groups and non-governmental 
        organizations; Hong Kong activists, lawyers, and 
        legislators; and foreign governments condemned the 
        disappearances of Gui Minhai, Lee Bo, Lui Bo, Cheung 
        Chi-ping, and Lam Wing-kei in October and December 2015 
        and the televised ``confessions'' of four of the men in 
        January and February 2016. Lam Wing-kei alleged that 
        central government officials had ordered the five men's 
        detentions.
        <bullet> The Basic Laws of Hong Kong and Macau confirm 
        the applicability of the International Covenant on 
        Civil and Political Rights (ICCPR) to both territories, 
        and guarantee both regions ``a high degree of 
        autonomy'' from mainland China. The Basic Law of Hong 
        Kong provides specifically for universal suffrage in 
        electing the Chief Executive and Legislative Council, 
        but Macau's does not.
        <bullet> Some political groups and activists in Hong 
        Kong called for greater self-determination or 
        independence for Hong Kong, due in part to perceptions 
        that Chinese government control over Hong Kong and 
        mainland Chinese economic and cultural influence in 
        Hong Kong are increasing. Activists, students, and 
        veterans of the 2014 pro-democracy demonstrations 
        founded new political organizations that contested 
        local elections.
        <bullet> The Chinese central and Hong Kong governments 
        expressed opposition to increasing calls for political 
        self-determination in Hong Kong, including independence 
        from China. Some Chinese and Hong Kong officials 
        suggested that the act of advocating for Hong Kong's 
        independence violated Hong Kong criminal statutes and 
        the Basic Law. Lawyers, political groups, and others 
        criticized the Hong Kong government's disqualification 
        of six Legislative Council candidates for their pro-
        independence views, calling it ``political 
        censorship.''
        <bullet> In Hong Kong's September 4, 2016, Legislative 
        Council election, opposition parties, including both 
        pro-democrats and candidates seen as ``localist'' or 
        supportive of self-determination for Hong Kong, won a 
        total of 30 out of 70 seats. Localist candidates 
        reportedly received 19 percent of the popular vote and 
        won 6 seats.
        <bullet> Hong Kong journalists and media organizations 
        reported a continuing decline in press freedom in Hong 
        Kong, citing government restrictions, violence against 
        journalists, and pressure on reporters and editors from 
        media ownership, including owners with financial ties 
        to mainland China. According to a Hong Kong media non-
        governmental organization, 85 percent of Hong Kong 
        reporters believed that press freedom had deteriorated 
        in the past year. Concerns over editorial independence, 
        journalistic integrity, and management decisions 
        continued to grow during the past year, including at 
        media companies with financial connections to mainland 
        China. The purchase of the South China Morning Post 
        (SCMP) by Chinese company Alibaba Group raised concerns 
        that Hong Kong media could face increased pressure to 
        self-censor or avoid reporting on topics deemed 
        ``sensitive.'' SCMP was one of several Hong Kong media 
        outlets to publish alleged interviews with individuals 
        detained in mainland China or televise their 
        ``confessions'' this past year.
        <bullet> The Commission observed no progress in Macau 
        toward ``an electoral system based on universal and 
        equal suffrage . . .'' in line with provisions of the 
        ICCPR, as recommended by the UN Human Rights Committee. 
        Macau's Legislative Assembly passed revisions to an 
        electoral law that did not alter the composition of the 
        Legislative Assembly or the methods for Chief Executive 
        elections provided for in the Basic Law.
        <bullet> Macau officials continued negotiations with 
        Chinese authorities on an agreement governing 
        extraditions to and from mainland China. The Macau and 
        Hong Kong governments also pursued an interregional 
        extradition agreement. Activists, lawyers, and the UN 
        Committee against Torture cautioned against potential 
        abuses under the proposed agreements. In May 2016, the 
        Macau legislature rejected the government's extradition 
        bill.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese central government to ensure Hong 
        Kong residents' rights and to guarantee non-
        interference in Hong Kong's affairs by Chinese 
        officials or government entities. Raise issues relating 
        to Hong Kong's autonomy and freedom in meetings with 
        central government officials.
          Raise specifically, in meetings with Chinese and Hong 
        Kong officials, the cases of five Hong Kong residents 
        detained, disappeared, or under investigation in 
        mainland China: Gui Minhai, Lee Bo, Lui Bo, Cheung Chi-
        ping, and Lam Wing-kei. Inquire as to the charges 
        against them and the legal basis for those charges. 
        Inquire as to the legal status, condition, and 
        whereabouts of Gui Minhai.
          Urge the Chinese and Hong Kong governments to restart 
        the electoral reform process and work toward 
        implementing Chief Executive and Legislative Council 
        elections by universal suffrage with a meaningful 
        choice of candidates, in accordance with the 
        aspirations of the Hong Kong people, provisions of the 
        Basic Law, and the International Covenant on Civil and 
        Political Rights (ICCPR).
          Urge the Chinese and Macau governments to set a 
        timeline for implementing elections for Chief Executive 
        and the Legislative Assembly by universal suffrage, as 
        required by Article 25 of the ICCPR and repeatedly 
        urged by the UN Human Rights Committee.
          Urge the Chinese, Hong Kong, and Macau governments to 
        guarantee the rights of and protections for fugitives 
        and offenders under proposed mutual extradition 
        agreements. Urge the Hong Kong and Macau governments to 
        specifically prohibit extradition to China of 
        individuals likely to be subjected to torture or 
        mistreatment in custody, and individuals likely to be 
        subjected to political or religious detention or 
        imprisonment.

                      Political Prisoner Database


                            Recommendations

    When composing correspondence advocating on behalf of a 
political or religious prisoner, or preparing for official 
travel to China, Members of Congress and Administration 
officials are encouraged to:

        <bullet> Check the Political Prisoner Database (PPD) 
        (http://ppdcecc.gov) for reliable, up-to-date 
        information on a prisoner or groups of prisoners. 
        Consult a prisoner's database record for more detailed 
        information about the prisoner's case, including his or 
        her alleged crime, specific human rights that officials 
        have violated, stage in the legal process, and location 
        of detention or imprisonment, if known.
        <bullet> Advise official and private delegations 
        traveling to China to present Chinese officials with 
        lists of political and religious prisoners compiled 
        from database records.
        <bullet> Urge U.S. state and local officials and 
        private citizens involved in sister-state and sister-
        city relationships with China to explore the database, 
        and to advocate for the release of political and 
        religious prisoners in China.

                    A POWERFUL RESOURCE FOR ADVOCACY

    The Commission's 2016 Annual Report provides information 
about Chinese political and religious prisoners \1\ in the 
context of specific human rights and rule of law abuses. Many 
of the abuses result from the Chinese Communist Party's and 
government's application of policies and laws. The Commission 
relies on the Political Prisoner Database (PPD), a publicly 
available online database maintained by the Commission, for its 
own advocacy and research work, including the preparation of 
the Annual Report, and routinely uses the database to prepare 
summaries of information about political and religious 
prisoners for Members of Congress and Administration officials. 
The Commission invites the public to read about issue-specific 
Chinese political imprisonment in sections of this Annual 
Report, and to access and make use of the upgraded PPD at 
http://ppdcecc.gov. (Information about the PPD is available at 
http://www.cecc.gov/resources/political-prisoner-database.)
    The PPD received approximately 139,300 online requests for 
prisoner information during the 12-month period ending July 31, 
2016--an increase of approximately 19 percentage points over 
the 117,200 requests reported in the Commission's 2015 Annual 
Report for the 12-month period ending August 31, 2015.\2\ 
During the 12-month period ending in July 2016, the United 
States returned to the position of being the country of origin 
for the largest share of requests for information, with 
approximately 39.0 percent of such requests. During the 
Commission's 2015 reporting year, China had been for the first 
time the country of origin of the largest share of requests for 
PPD information, with approximately 40.4 percent of such 
requests \3\--a 78-percent increase over the 22.7 percent of 
requests reported for China in the Commission's 2014 Annual 
Report.\4\ During the Commission's 2016 reporting year, 
however, China resumed the second position with approximately 
25.4 percent of such requests (a decrease of 15.0 percent 
compared to the 2015 reporting year),\5\ followed by Ukraine 
with 6.6 percent (an increase compared to 4.1 percent in the 
2015 reporting period),\6\ Germany (3.2 percent), the United 
Kingdom (3.0 percent), the Russian Federation (3.0 percent), 
France (1.9 percent), Japan (1.6 percent), Poland (1.1 
percent), and Canada (0.8 percent).
    Worldwide commercial (.com) domains, which for the first 
time were the source of the largest share of online requests 
for information during the Commission's 2015 reporting year,\7\ 
retained that position this past year. Approximately 42.9 
percent of the 139,300 requests for information during the 12-
month period ending in July 2016 originated from .com domains--
an increase compared to the 38.4 percent reported for such 
requests during the 2015 reporting year.\8\ Numerical Internet 
addresses that do not provide information about the name of the 
registrant or the type of domain were second with approximately 
23.9 percent of requests for PPD information. That figure 
represents a decrease of 7.9 percentage points from the 31.8 
percent reported for such addresses during the Commission's 
2015 reporting year,\9\ and followed previous decreases of 6.6 
percentage points reported for the Commission's 2014 reporting 
year \10\ and 18.4 points for the Commission's 2013 reporting 
year.\11\
    Worldwide network (.net) domains were third during the 
Commission's 2016 reporting year with approximately 11.9 
percent of online requests for PPD information (an increase of 
3.5 percentage points compared to the 2015 reporting year),\12\ 
followed by U.S. Government (.gov) domains with 7.0 percent, 
then by domains in Germany (.de) with 2.4 percent, in Ukraine 
(.ua) with 2.2 percent, in the European Union (.eu) with 1.3 
percent, in the United Kingdom (.uk) with 0.7 percent, and in 
Japan (.jp), in France (.fr), and educational domains (.edu) 
with approximately 0.6 percent each. Non-profit organization 
domains (.org) accounted for 0.4 percent of requests for PPD 
information. Domains in China (.cn) during the Commission's 
2016 reporting year accounted for only 0.2 percent of online 
requests for PPD information compared to 5.9 percent of such 
requests during the 2015 reporting year \13\ and 19.5 percent 
during the 2014 reporting year.\14\

                          POLITICAL PRISONERS

    The PPD seeks to provide users with prisoner information 
that is reliable and up to date. Commission staff members work 
to maintain and update political prisoner records based on the 
staff member's area of expertise. The staff seek to provide 
objective analysis of information about individual prisoners, 
and about events and trends that drive political and religious 
imprisonment in China.
    As of August 1, 2016, the PPD contained information on 
8,394 cases of political or religious imprisonment in China. Of 
those, 1,383 are cases of political and religious prisoners 
currently known or believed to be detained or imprisoned, and 
7,011 are cases of prisoners who are known or believed to have 
been released, or executed, who died while imprisoned or soon 
after release, or who escaped. The Commission notes that there 
are considerably more than 1,383 cases of current political and 
religious imprisonment in China. The Commission staff works on 
an ongoing basis to add cases of political and religious 
imprisonment to the PPD.
    The Dui Hua Foundation, based in San Francisco, and the 
former Tibet Information Network, based in London, shared their 
extensive experience and data on political and religious 
prisoners in China with the Commission to help establish the 
database. The Dui Hua Foundation continues to do so. The 
Commission also relies on its own staff research for prisoner 
information, as well as on information provided by non-
governmental organizations (NGOs), other groups that specialize 
in promoting human rights and opposing political and religious 
imprisonment, and other public sources of information.

                   MORE POWERFUL DATABASE TECHNOLOGY

    The PPD has served since its launch in November 2004 as a 
unique and powerful resource for the U.S. Congress and 
Administration, other governments, NGOs, educational 
institutions, and individuals who research political and 
religious imprisonment in China, or who advocate on behalf of 
such prisoners. The July 2010 PPD upgrade significantly 
leveraged the capacity of the Commission's information and 
technology resources to support such research, reporting, and 
advocacy.
    The PPD aims to provide a technology with sufficient power 
to handle the scope and complexity of political imprisonment in 
China. The most important feature of the PPD is that it is 
structured as a genuine database and uses a powerful query 
engine. Each prisoner's record describes the type of human 
rights violation by Chinese authorities that led to his or her 
detention. These types include violations of the right to 
peaceful assembly, freedom of religion, freedom of association, 
and free expression, including the freedom to advocate peaceful 
social or political change and to criticize government policy 
or government officials.
    The design of the PPD allows anyone with access to the 
Internet to query the database and download prisoner data 
without providing personal information to the Commission, and 
without the PPD downloading any software or Web cookies to a 
user's computer. Users have the option to create a user 
account, which allows them to save, edit, and reuse queries, 
but the PPD does not require a user to provide any personal 
information to set up such an account. The PPD does not 
download software or a Web cookie to a user's computer as the 
result of setting up such an account. Saved queries are not 
stored on a user's computer. A user-specified ID (which can be 
a nickname) and password are the only information required to 
set up a user account.

              RECENT POLITICAL PRISONER DATABASE FEATURES

    In 2015, the Commission enhanced the functionality of the 
PPD to empower the Commission, the U.S. Congress and 
Administration, other governments, NGOs, and individuals to 
strengthen reporting on political and religious imprisonment in 
China and advocacy undertaken on behalf of Chinese political 
prisoners.
        <bullet> The PPD full text search and the basic search 
        both provide an option to return only records that 
        either include or do not include an image of the 
        prisoner.
        <bullet> PPD record short summaries accommodate more 
        text as well as greater capacity to link to external 
        websites.
    Notes to Section I--Political Prisoner Database

    \1\  The Commission treats as a political prisoner an individual 
detained or imprisoned for exercising his or her human rights under 
international law, such as peaceful assembly, freedom of religion, 
freedom of association, free expression, including the freedom to 
advocate peaceful social or political change, and to criticize 
government policy or government officials. (This list is illustrative, 
not exhaustive.) In most cases, prisoners in the PPD were detained or 
imprisoned for attempting to exercise rights guaranteed to them by 
China's Constitution and law, or by international law, or both. Chinese 
security, prosecution, and judicial officials sometimes seek to 
distract attention from the political or religious nature of 
imprisonment by convicting a de facto political or religious prisoner 
under the pretext of having committed a generic crime. In such cases 
defendants typically deny guilt but officials may attempt to coerce 
confessions using torture and other forms of abuse, and standards of 
evidence are poor. If authorities permit a defendant to entrust someone 
to provide him or her legal counsel and defense, as the PRC Criminal 
Procedure Law guarantees in Article 32, officials may deny the counsel 
adequate access to the defendant, restrict or deny the counsel's access 
to evidence, and not provide the counsel adequate time to prepare a 
defense.
    \2\  CECC, 2015 Annual Report, 8 October 15, 61.
    \3\  Ibid., 61.
    \4\  Ibid., 61; CECC, 2014 Annual Report, 9 October 14, 58.
    \5\  CECC, 2015 Annual Report, 8 October 15, 61.
    \6\  Ibid., 61.
    \7\  Ibid., 62.
    \8\  Ibid., 62.
    \9\  Ibid., 62.
    \10\  CECC, 2014 Annual Report, 9 October 14, 59.
    \11\  CECC, 2013 Annual Report, 10 October 13, 55.
    \12\  CECC, 2015 Annual Report, 8 October 15, 62.
    \13\  Ibid., 62.
    \14\  CECC, 2014 Annual Report, 9 October 14, 59.

                                                    Freedom of 
                                                     Expression
                                                Freedom of 
                                                Expression

                            II. Human Rights


                         Freedom of Expression


            International Standards on Freedom of Expression

    The Chinese government and Communist Party continued to 
restrict expression in contravention of international human 
rights standards, including Article 19 of the International 
Covenant on Civil and Political Rights (ICCPR) and Article 19 
of the Universal Declaration of Human Rights.\1\ According to 
the ICCPR--which China signed \2\ but has not ratified \3\--and 
as reiterated by the Special Rapporteur on the Promotion and 
Protection of the Right to Freedom of Opinion and Expression, 
under Article 19(3), countries may impose certain restrictions 
or limitations on freedom of expression, if such restrictions 
are provided by law and are necessary for the purpose of 
respecting the ``rights or reputations of others'' or 
protecting national security, public order, public health, or 
morals.\4\ An October 2009 UN Human Rights Council resolution, 
however, provides that restrictions on the ``discussion of 
government policies and political debate,'' ``peaceful 
demonstrations or political activities, including for peace or 
democracy,'' and ``expression of opinion and dissent'' are 
inconsistent with Article 19(3) of the ICCPR.\5\ The UN Human 
Rights Committee specified in a 2011 General Comment that 
restrictions on freedom of expression specified in Article 
19(3) should be interpreted narrowly and that the restrictions 
``may not put in jeopardy the right itself.'' \6\

                          Freedom of the Press


                  POLITICAL CONTROL OF THE NEWS MEDIA

    International experts have cautioned that media serving 
``as government mouthpieces instead of as independent bodies 
operating in the public interest'' are a major challenge to 
free expression.\7\ The Chinese Communist Party's longstanding 
position that the media is a political tool--functioning as a 
``mouthpiece'' for its official positions and in shaping public 
opinion \8\--received high-profile promotion \9\ during the 
Commission's 2016 reporting year. President and Party General 
Secretary Xi Jinping reiterated the primacy of the Party's 
control of the media in China during widely publicized visits 
on February 19, 2016, to Xinhua, People's Daily, and China 
Central Television (CCTV)--the three flagship state and Party 
media outlets--and in a speech on media policy at a Party forum 
the same day.\10\ During the speech, Xi reportedly declared 
that the media ``must be surnamed Party'' (bixu xing dang) \11\ 
and called for ``absolute loyalty'' to the Party from official 
media outlets and personnel.\12\ The range of media outlets in 
Xi's speech, according to some commentators, also extended to 
more market-oriented media in China, requiring that these media 
convey ``positive'' news about China in conformity with Party 
ideology.\13\
    Although freedom of speech and the press are guaranteed in 
China's Constitution,\14\ the legal parameters for the 
protection of the news media in gathering and reporting 
information are not clearly defined, particularly in the 
absence of a national press law.\15\ The Party and Chinese 
government continued to use complex and vague legal and 
regulatory provisions \16\ and a powerful propaganda system 
\17\ to exert political control over journalists and news 
coverage in China. Chinese and international media reports 
during the year indicated that government efforts since 2013 
and the changing media marketplace have led to tightened 
management of the news industry \18\ and further decreased the 
space for investigative journalism.\19\ An amendment to the PRC 
Criminal Law that became effective in November 2015, moreover, 
may place journalists at risk of being criminally charged for 
``fabricating false reports'' \20\ in their coverage of 
``hazards, epidemics, disasters, and situations involving 
police.'' \21\
    The Party regularly issues propaganda directives to control 
news media through the Central Propaganda Department and its 
lower level bureaus.\22\ Experts at Freedom House, a U.S.-based 
organization that monitors press and Internet freedom, analyzed 
dozens of such directives from 2015 and found that topic areas 
were ``far broader than mere criticism of the regime, dissident 
activities, or perennially censored issues . . .'' such as 
Tibet, Taiwan, and Falun Gong.\23\ These directives restricted 
information on public health and safety, economic policy, 
official wrongdoing, regulations on and instances of media 
censorship, civil society issues, and the Party's 
reputation.\24\ In March 2016, journalists also faced increased 
government censorship compared to previous years when covering 
the annual sessions of the National People's Congress and its 
advisory body, the Chinese People's Political Consultative 
Conference, as illustrated by a lengthy censorship directive 
\25\ and limited access to delegates.\26\ The establishment of 
``news ethics committees'' during the reporting year 
highlighted the government's intention to enhance official 
mechanisms to ``maintain and intensify press censorship.'' \27\

------------------------------------------------------------------------
            Chinese Media's ``Supervision by Public Opinion''
-------------------------------------------------------------------------
  Debate over the news media's ``supervision by public opinion'' (yulun
 jiandu)--an official term that affirms a role for the media to report
 critically in the public interest and to monitor those in power, which
 has been likened to investigative journalism \28\--was featured in
 reports during the year about the detention of an investigative
 journalist and the resolution of a defamation litigation case.
  In October 2015, authorities in Jiangxi province detained Liu Wei, an
 investigative journalist on assignment from Southern Metropolitan
 Daily, on suspicion of ``obtaining state secrets,'' for his coverage of
 the story of a local traditional healer allegedly involved in the death
 of a provincial legislator.\29\ After public security authorities
 released Liu on bail following a ``confession'' televised on state-run
 China Central Television, fellow journalists reportedly stated that the
 ``space for supervision by public opinion . . . was seriously
 constrained.'' \30\ Southern Metropolitan Daily editors reprinted a
 Xinhua editorial that contained Liu's ``confession,'' but prefaced the
 editorial by discussing the difficulties journalists face in conducting
 their work: ``[I]n-depth investigation is how the media gets at the
 truth of the matter, and it's a necessary and effective practice. But
 news investigations, nevertheless, do not enjoy legal impunity . . ..''
 \31\
------------------------------------------------------------------------


------------------------------------------------------------------------
      Chinese Media's ``Supervision by Public Opinion''--Continued
-------------------------------------------------------------------------
  Journalists and media companies have been frequent targets of
 defamation suits in China.\32\ One observer called the verdict in a
 defamation case adjudicated in November 2015 a ``historic'' judicial
 endorsement of media oversight.\33\ A court in Beijing municipality
 reversed a verdict, on appeal, of two media companies accused of having
 harmed the reputation of a luxury goods business in articles published
 in 2012.\34\ The verdict stated, ``News media have a right and a
 responsibility to properly carry out critical supervision.'' \35\ In
 his work report to the National People's Congress in March 2016,
 Supreme People's Court President Zhou Qiang specifically raised this
 case, remarking that the court's decision ``in effect, protect[s] the
 rights [quan] of news media to supervise public opinion.'' \36\
------------------------------------------------------------------------

              CHALLENGES TO THE MEDIA'S ``OFFICIAL'' ROLE

    Chinese citizens and journalists challenged the Party's 
news media control and propaganda work during this reporting 
year, sometimes specifically in response to President Xi 
Jinping's speech on Party primacy over news media. A prominent 
social media commentator \37\ and the unknown authors of a 
letter to Xi who identified themselves as ``loyal Party 
members,'' \38\ for example, criticized Xi's February 2016 
statements for devaluing the media's responsibility to report 
on behalf of the public.\39\ An editor at a market-oriented 
newspaper in Guangdong province quit his job, making note in 
his March 2016 resignation paperwork that he had ``no way to go 
along with your surname,'' in reference to Xi's injunction to 
``follow the Party's surname.'' \40\ Other challenges to 
censorship came from Caixin media,\41\ a Xinhua staff 
member,\42\ and a former deputy editor of People's Daily.\43\ 
Authorities countered criticism by shutting down microblog 
accounts,\44\ removing critical content from the Internet and 
social media,\45\ and detaining media professionals \46\ and 
several China-based family members of Chinese journalists and 
bloggers living overseas.\47\
    Chinese authorities continued to broadcast prerecorded 
confessions on state-controlled media,\48\ including those of a 
journalist,\49\ at least two rights lawyers,\50\ the Swedish 
cofounder of a legal advocacy group in Beijing 
municipality,\51\ and the co-owner of a Hong Kong publishing 
company.\52\ The international NGO Chinese Human Rights 
Defenders asserted that the government used the broadcast of 
confessions on state media outlets ``to denounce individuals or 
groups,'' ``control public narratives about government-
perceived `political threats,' '' and retaliate against 
government critics.\53\ Two Chinese officials publicly noted 
concerns of fairness and access to justice in cases of 
televised confessions prior to trial.\54\ [For more information 
on televised confessions during the reporting year, see Section 
II--Criminal Justice.]
    Family members of rights defenders, labor rights groups, 
and lawyers also brought, or planned to bring, lawsuits against 
official media outlets, with some claiming that the state-run 
media outlets' defamatory statements in newspapers and 
television were politically motivated.\55\ The mother of Zeng 
Feiyang--a labor rights advocate in Guangdong province detained 
in December 2015--reportedly withdrew a lawsuit against the 
state-run news service Xinhua after family members received 
threats that they would lose their jobs if the lawsuit went 
forward.\56\ In December 2015, a court in Beijing municipality 
postponed holding the trial in former defense lawyer Li 
Zhuang's defamation lawsuit against the Party-run China Youth 
Daily (CYD),\57\ reportedly due to the presiding judge's back 
injury.\58\ Li's legal counsel in the case, Peking University 
law professor He Weifang, noted that Li wanted to bring legal 
proceedings against CYD in 2011 but was only able to file the 
case in June 2015 following reform of the judiciary's case 
filing system.\59\ As of August 2016, the Commission had not 
observed reports that the case had come to trial.

       HARASSMENT AND CRIMINAL PUNISHMENT OF DOMESTIC JOURNALISTS

    The number of professional and citizen journalists detained 
in China increased in 2015,\60\ making China ``the world's 
worst jailer of the press'' for the second year in a row, 
according to the international advocacy group Committee to 
Protect Journalists (CPJ).\61\ A significant percentage of 
individuals on CPJ's list were ethnic Tibetans and Uyghurs with 
backgrounds as freelance or citizen journalists and 
bloggers,\62\ but the number of imprisoned journalists from 
mainstream media also increased in 2015.\63\ In May 2016, China 
was 1 of 10 countries to vote against CPJ's accreditation for 
non-governmental consultative status at the United Nations,\64\ 
a move criticized by rights groups \65\ and UN \66\ and foreign 
government officials.\67\ The international press freedom 
organization Reporters Without Borders ranked China 176th out 
of 180 countries in its 2016 World Press Freedom Index, which 
assesses the ``independence of the media, quality of 
legislative framework and safety of journalists,'' and also 
gave China the worst score under the category ``abuse'' of all 
180 countries covered in the index.\68\
    The Chinese government used a variety of legal and 
extralegal measures to target journalists, editors, and 
bloggers who covered issues authorities deemed to be 
politically sensitive. The Commission observed reports of 
dismissal or disciplinary action over alleged criticism of 
government policy \69\ and editorial ``mistakes,'' \70\ 
official harassment,\71\ physical violence,\72\ detention,\73\ 
and prison sentences.\74\ [For information on media 
developments and cases in the Xinjiang Uyghur Autonomous Region 
and in Hong Kong, see Section IV--Xinjiang--Freedom of the 
Press and Section VI--Developments in Hong Kong and Macau--
Press Freedom.] Selected cases of such harassment and detention 
included:

        <bullet> Gao Yu. In November 2015, the Beijing High 
        People's Court reduced the April 2015 sentence of Gao 
        Yu--a 72-year-old journalist whose 2014 televised 
        confession of ``revealing state secrets'' reportedly 
        had been made under duress \75\--from seven years to 
        five years.\76\ Although released on medical 
        parole,\77\ authorities continued to harass Gao, 
        including by demolishing a small study in her garden 
        and assaulting her son in March 2016,\78\ forcing her 
        to leave her home in Beijing municipality for a 
        ``vacation'' during the annual meeting of the National 
        People's Congress,\79\ and not granting her permission 
        to travel to Germany for medical treatment.\80\
        <bullet> Li Xin. In February 2016, the family of Li 
        Xin, a former journalist with the Southern Metropolitan 
        Daily, learned that Li was at an unidentified detention 
        site in China after going missing from Thailand in 
        January.\81\ Thai authorities reportedly stated that 
        they had a record of Li's entry into Thailand, but not 
        his exit.\82\ Li left China in October 2015, alleging 
        public security bureau officials pressured him to 
        inform on fellow journalists and rights advocates.\83\ 
        Li also provided details on how media censorship 
        operates in China in a November 2015 interview with 
        Radio Free Asia.\84\
        <bullet> Wang Jing and 64 Tianwang citizen journalists. 
        In April 2016, authorities in Jilin province sentenced 
        Wang Jing to 4 years and 10 months in prison for her 
        volunteer reporting for the human rights news website 
        64 Tianwang,\85\ including a report on a self-
        immolation protest in Tiananmen Square in 2014.\86\ 
        Chinese authorities also continued to harass and detain 
        other 64 Tianwang contributors \87\ during this 
        reporting year. In September 2015, authorities in 
        Zhejiang province arrested Sun Enwei, who had reported 
        on inadequate pension benefits for demobilized 
        soldiers.\88\ Authorities in Sichuan province 
        reportedly harassed Huang Qi, 64 Tianwang's founder, 
        after he accompanied two Japanese journalists to report 
        on sites in Sichuan province affected by the 2008 
        earthquake.\89\

            HARASSMENT OF FOREIGN JOURNALISTS AND NEWS MEDIA

    The Chinese government and Communist Party continued to use 
a range of methods to restrict and harass foreign journalists 
and news media outlets reporting in China. According to the 
Foreign Correspondents' Club of China's (FCCC) most recent 
annual report (2015) on working conditions for foreign 
reporters in China,\90\ these methods included official 
harassment of reporters,\91\ news assistants, and sources; \92\ 
attempts to block coverage of issues that authorities deemed 
sensitive; restrictions on travel to areas along China's border 
and ethnic minority regions; visa renewal delays and denials; 
and blocking foreign media outlets' websites \93\ and 
journalists' social media accounts in China.\94\ Examples of 
harassment during the reporting year included:

        <bullet> October 2015. Plainclothes police in Ulanhot 
        city, Hinggan (Xing'an) League, Inner Mongolia 
        Autonomous Region, forced journalists from Australian 
        and Japanese news publications to stay at a local 
        public security bureau for hours to verify their press 
        credentials.\95\ The journalists had planned, but were 
        unable, to interview Bao Zhuoxuan,\96\ the son of 
        detained human rights lawyers Wang Yu \97\ and Bao 
        Longjun,\98\ at his grandmother's home in Ulanhot.\99\
        <bullet> December 2015. Security agents reportedly 
        assaulted foreign journalists on assignment outside a 
        court in Beijing municipality who were reporting on the 
        trial of public interest lawyer Pu Zhiqiang.\100\
        <bullet> February and April 2016. Authorities in 
        Sichuan province prevented Japanese journalists from 
        the Asahi Shimbun from investigating conditions in 
        areas affected by the 2008 earthquake.\101\ 
        Unidentified individuals temporarily detained the 
        journalists during the February incident.\102\

    Based on the FCCC's annual survey on foreign journalists' 
experiences obtaining press credentials and work visas, the 
processing time for annual renewals of press cards (through the 
Ministry of Foreign Affairs) and residence visas (through 
public security bureaus) was shorter in 2015 compared to prior 
years and a relatively small percentage of correspondents 
reported problems with their visa renewals.\103\ The FCCC, 
however, emphasized that authorities continued to use visa 
applications and renewals as a political tool against foreign 
journalists,\104\ illustrated during this reporting year by the 
Chinese government's effective expulsion of French journalist 
Ursula Gauthier by not renewing her visa in December 2015.\105\ 
In a November 2015 article, Gauthier had criticized the 
government's counterterrorism policy in the Xinjiang Uyghur 
Autonomous Region.\106\

                Internet and Social Media Communications

    The scale of Internet and social media use continued to 
grow in China during this reporting year, while the government 
and Party continued to expand censorship of content. According 
to the China Internet Network Information Center, there were 
710 million Internet users in China by June 2016,\107\ 656 
million of whom accessed the Internet from mobile phones.\108\ 
As of April 2016, WeChat, an instant messaging platform, 
reportedly had more than 700 million monthly active users.\109\ 
Sina Weibo, a microblogging platform similar to Twitter, 
reportedly had 400 million monthly active users.\110\ One 
scholarly assessment found that government efforts to control 
social media and telecommunications have resulted in ``an 
exodus from public microblogging platforms to private messaging 
apps.'' \111\

                      GOVERNMENT AND PARTY CONTROL

    The Chinese government and Communist Party further 
entrenched institutional oversight and regulatory mechanisms to 
control Internet governance in China, and reiterated an 
Internet policy based on China's claims of ``Internet 
sovereignty.'' \112\ According to scholar Rogier Creemers, 
under President and Party General Secretary Xi Jinping, 
government and Party leaders have shifted responsibility for 
Internet governance away from ``technocratic'' state entities 
and brought Internet governance ``into the cent[er] of 
political decision-making.'' \113\

------------------------------------------------------------------------
                   Cyberspace Administration of China
-------------------------------------------------------------------------
  The expanding influence of the Cyberspace Administration of China
 (CAC), designated by the State Council in 2014 as the agency
 responsible for the ``governance of all online content'' in China,
 illustrates the government and Party's shifting priorities in Internet
 governance.\114\ Formerly known as the State Internet Information
 Office, the CAC is subordinate to the State Council but is directly
 supervised by the Central Leading Group for Cybersecurity and
 Informatization, a combined government and Party leadership group
 headed by Xi Jinping.\115\
------------------------------------------------------------------------


------------------------------------------------------------------------
              Cyberspace Administration of China--Continued
-------------------------------------------------------------------------
  Draft revisions of regulations managing Internet news services issued
 in January 2016 \116\ appear to grant responsibility to the CAC for all
 news-related online content and supervision of news websites'
 licensing, editorial liability, and disciplinary decisions.\117\ The
 definition of ``Internet news information'' in the draft revisions
 encompasses reporting and commentary on public affairs, including
 politics, economics, military affairs, and diplomacy, as well as
 reporting and commentary on emergent or ``sudden social incidents''
 (shehui tufa shijian).\118\ The scope of the draft revisions, moreover,
 extends beyond news websites to include ``applications, discussion
 forums, blogs, microblogs, instant messaging tools, search engines, and
 other applications that contain news, public opinion, or social
 mobilization functions.'' \119\ At least one Chinese source described
 the draft revisions as the ``toughest'' ever, aimed at further
 restricting the space for the public to discuss the news.\120\ In July,
 the Beijing branch of the CAC reportedly directed domestic Internet
 companies, including Sohu, Sina, and Netease, to discontinue online
 news programs producing original content that violated a provision in
 the 2005 version of the regulations on Internet news services'
 management that limits the reposting or republishing of news from
 ``central news units'' and those directly under the central
 government.\121\ In March 2016, Caixin, a market-oriented media outlet
 known for its investigative work, reportedly referred to the CAC as ``a
 government censorship organ,'' following the deletion of an article
 that discussed restrictions on airing opinions during the annual
 meetings of China's legislature and its advisory entity.\122\ The CAC,
 moreover, moved to impose ``eight requirements'' to further online news
 control, including 24-hour monitoring of online news content and
 holding editors-in-chief responsible for content.\123\ The ``eight
 requirements'' were imparted at an August 2016 meeting attended by
 representatives from official media outlets as well as commercial
 websites such as Tencent and Baidu.\124\
  In June 2016, CAC's prominent director Lu Wei stepped down from his
 position as China's ``Internet czar,'' though he still held a senior
 position at the Party's Central Propaganda Department.\125\ An August
 2016 report in Hong Kong's South China Morning Post speculated that Lu
 Wei's departure ``came after a spate of errors about politically
 sensitive topics made their way online . . ..'' \126\
------------------------------------------------------------------------

                  Punishing Citizens' Free Expression

    The Chinese government and Communist Party continued to 
violate the international standards noted at the beginning of 
this section as well as to exploit vague provisions in Chinese 
law to prosecute citizens for exercising their right to freedom 
of speech.\127\ Human Rights Watch, for example, asserted that 
official statistics from the Supreme People's Court on 
prosecutions on state security and terrorism charges in 2015 
signaled that the government had intensified efforts to 
``smother peaceful dissent.'' \128\ During the UN Committee 
against Torture's review in November 2015 of China's compliance 
with the Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, a member of the official 
Chinese delegation claimed that ``[t]he efforts of the Chinese 
judicial authorities were aimed at fighting criminal behaviour 
that truly undermined national security, not at criminalizing 
free speech exercised in accordance with the law.'' \129\ 
Contrary to this claim, Chinese authorities put individuals on 
trial during this reporting year who had been detained over the 
past three years for peaceful assembly and online advocacy for 
a range of issues such as press freedom, commemorating the 
violent suppression of the 1989 Tiananmen protests, officials' 
financial disclosure, the ratification of the International 
Covenant on Civil and Political Rights (ICCPR), support for the 
2014 pro-democracy protests in Hong Kong, and discussing ethnic 
minority rights and policy. Many of these individuals spent 
months in pre-trial detention without access to lawyers and 
reported suffering abuse and maltreatment while in 
custody,\130\ in violation of rights accorded in the ICCPR and 
Chinese law.\131\ Examples included the following cases.

        <bullet> Beijing municipality. In December 2015, the 
        Beijing No. 2 Intermediate People's Court sentenced 
        lawyer Pu Zhiqiang to three years' imprisonment, 
        suspended for three years, on the charges of ``inciting 
        ethnic hatred'' and ``picking quarrels and provoking 
        trouble'' based on seven microblog posts that 
        criticized government officials and China's ethnic 
        policy.\132\ Beijing authorities took Pu into custody 
        following his attendance at an event in May 2014 to 
        commemorate the 25th anniversary of the Tiananmen 
        protests and their violent suppression.\133\ The 
        conditions of Pu's suspended sentence included 
        restrictions on his activities.\134\ In addition, in 
        April 2016, the Beijing municipal justice bureau 
        reportedly sent written notification to Pu on his 
        permanent disbarment from legal practice, a consequence 
        of the criminal conviction.\135\
        <bullet> Guangdong province. Authorities in Guangdong 
        imposed prison sentences on Yang Maodong (commonly 
        known as Guo Feixiong) (six years),\136\ Sun Desheng 
        (two years and six months),\137\ Liu Yuandong (three 
        years),\138\ Wang Mo (four years and six months),\139\ 
        Xie Wenfei (four years and six months),\140\ and Liang 
        Qinhui (one year and six months).\141\ Authorities 
        charged Guo, Sun, and Liu with ``gathering a crowd to 
        disturb order in a public place.'' \142\ The judge in 
        Guo's case added the charge of ``picking quarrels and 
        provoking trouble'' while sentencing Guo on November 
        27, 2015.\143\ Security officials in Guangzhou 
        municipality had detained Guo, Sun, and Liu in 2013 in 
        connection with their protests against press 
        censorship,\144\ and also for Guo and Sun's advocacy of 
        government officials' asset disclosure and China's 
        ratification of the ICCPR.\145\ Authorities charged 
        Wang, Xie, and Liang with ``inciting subversion of 
        state power,'' a crime of ``endangering state 
        security'' in the PRC Criminal Law.\146\ Although Wang 
        also reportedly was involved in the protests against 
        press censorship in 2013, authorities detained him and 
        other mainland Chinese advocates--including Xie--for 
        their support of the pro-democracy protests in Hong 
        Kong in October of that year.\147\ Liang, an online 
        commentator, shared his critiques of Chinese President 
        and Communist Party General Secretary Xi Jinping on the 
        social media network QQ prior to his detention.\148\
        <bullet> Qinghai province. In February 2016, 
        authorities in Qinghai sentenced Tibetan writer Drukar 
        Gyal (also known as Druglo and by the pen name 
        Shogjang) to three years in prison on the charge of 
        ``inciting separatism.'' \149\ Shogjang had written a 
        blog post about security force deployments in Tongren 
        (Rebgong) county, Huangnan (Malho) Tibetan Autonomous 
        Prefecture, Qinghai, in the days prior to his detention 
        in March 2015.\150\ According to the Tibetan Buddhist 
        monk Jigme Gyatso (also known as Golog Jigme), Shogjang 
        also wrote about the corporal punishment of students in 
        Haibei (Tsojang) Tibetan Autonomous Prefecture, 
        Qinghai.\151\
        <bullet> Xinjiang Uyghur Autonomous Region (XUAR). In 
        January 2016, the Urumqi Intermediate People's Court in 
        Urumqi municipality, XUAR, sentenced Zhang Haitao, an 
        electronics tradesman and rights defender, to serve a 
        total of 19 years in prison for ``inciting subversion 
        of state power'' \152\ and ``stealing, spying, buying 
        and illegally supplying state secrets or intelligence 
        for an overseas entity'' \153\ for more than 200 
        microblog posts and content he provided to allegedly 
        ``hostile'' overseas media outlets.\154\ In his appeal, 
        Zhang argued that the court verdict had unreasonably 
        equated dissent with spreading rumors and peaceful 
        expression with serious social harm.\155\

    Nobel Peace Prize laureate Liu Xiaobo remained in prison, 
serving year 7 of his 11-year sentence on the charge of 
``inciting subversion of state power'' for several of his 
essays and his co-authorship of Charter 08, a treatise 
advocating political reform and human rights that was 
circulated online.\156\ Advocacy organizations continued to 
call for his release from prison \157\ and for the release of 
his wife, poet and artist Liu Xia,\158\ whom authorities have 
detained under extralegal detention at the couple's home in 
Beijing since October 2010.\159\

                                                    Freedom of 
                                                     Expression
                                                Freedom of 
                                                Expression
    Notes to Section II--Freedom of Expression

    \1\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19; Universal Declaration of Human Rights, 
adopted and proclaimed by UN General Assembly resolution 217A (III) of 
10 December 48, art. 19.
    \2\ United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights, last visited 26 
July 16. China signed the covenant on October 5, 1998.
    \3\ State Council Information Office, ``Progress in China's Human 
Rights in 2012,'' reprinted in Xinhua, 14 May 13, sec. 6; State Council 
Information Office, ``Progress in China's Human Rights in 2014,'' 
reprinted in Xinhua, 8 June 15. According to the 2012 white paper on 
human rights, the Chinese government ``actively works for approval of 
the International Covenant of Civil and Political Rights.'' The State 
Council, however, did not mention the International Covenant on Civil 
and Political Rights in its 2014 human rights white paper.
    \4\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19(3); UN Human Rights Council, Report of 
the Special Rapporteur on the Promotion and Protection of the Right to 
Freedom of Opinion and Expression, Frank La Rue, A/HRC/17/27, 16 May 
11, para. 24.
    \5\ Promotion and Protection of All Human Rights, Civil, Political, 
Economic, Social and Cultural Rights, Including the Right to 
Development, adopted by Human Rights Council resolution 12/16 of 12 
October 09, para. 5(p)(i).
    \6\ UN Human Rights Committee, General Comment No. 34, Article 19, 
Freedom of Opinion and Expression, CCPR/C/GC/34, 12 September 11, para. 
21.
    \7\ UN Human Rights Council, Tenth Anniversary Joint Declaration: 
Ten Key Challenges to Freedom of Expression in the Next Decade, 
Addendum to Report of the Special Rapporteur on the Promotion and 
Protection of the Rights to Freedom of Opinion and Expression, A/HRC/
14/23/Add.2, 25 March 10, art. 1(a).
    \8\ David Schlesinger et al., ``How To Read China's New Press 
Restrictions,'' Asia Society, ChinaFile (blog), 17 July 14; David 
Bandurski, ``Mirror, Mirror on the Wall,'' University of Hong Kong, 
China Media Project, 22 February 16; Jun Mai, ``Communist Party Warns 
of Gap Between `Public and Official Opinion,' '' South China Morning 
Post, 21 February 16. Bandurski, for example, points to former Chinese 
Communist Party leaders' pronouncements, such as Mao Zedong's 
injunction that ``politicians run the newspapers,'' Jiang Zemin's 
``guidance of public opinion,'' and Hu Jintao's ``channeling of public 
opinion,'' to illustrate the Party's expectation that the media serve 
as its ``mouthpiece'' and shaper of public opinion.
    \9\ ``Xi Jinping's View on News and Public Opinion'' [Xi jinping de 
xinwen yulun guan], People's Daily, 25 February 16; ``Party Principle 
Guides Media Innovation,'' Global Times, 22 February 16; ``Xi's Speech 
on News Reporting Resonates With Domestic Outlets,'' Xinhua, 22 
February 16; ``People's Daily Chief Yang Zhenwu: Properly Grasp the 
Needs in the Current Age for Government Officials Running Newspapers'' 
[Renmin ribao she shezhang yang zhenwu: bawo hao zhengzhijia banbao de 
shidai yaoqiu], People's Daily, 21 March 16. See also Edward Wong, ``Xi 
Jinping's News Alert: Chinese Media Must Serve the Party,'' New York 
Times, 22 February 16; China Digital Times, ``Xi's State Media Tour: 
`News Must Speak for the Party,' '' 19 February 16.
    \10\ ``Xi Jinping's View on News and Public Opinion'' [Xi jinping 
de xinwen yulun guan], People's Daily, 25 February 16; ``Xi's Speech on 
News Reporting Resonates With Domestic Outlets,'' Xinhua, 22 February 
16; China Digital Times, ``Xi's State Media Tour: `News Must Speak for 
the Party,' '' 19 February 16.
    \11\ ``Xi Jinping's View on News and Public Opinion'' [Xi jinping 
de xinwen yulun guan], People's Daily, 25 February 16; Zeng Xiangming, 
``How To Grasp Three Key Points of `Party Media Are Surnamed Party' '' 
[Ruhe bawo ``dangmei xing dang'' san ge guanjian], People's Daily, 9 
March 16; David Bandurski, ``How Xi Jinping Views the News,'' 
University of Hong Kong, China Media Project, 3 March 16.
    \12\ ``Xi Jinping's View on News and Public Opinion'' [Xi jinping 
de xinwen yulun guan], People's Daily, 25 February 16; ``Xi's Speech on 
News Reporting Resonates With Domestic Outlets,'' Xinhua, 22 February 
16; ``Xi Jinping Asks for `Absolute Loyalty' From Chinese State 
Media,'' Associated Press, reprinted in Guardian, 19 February 16.
    \13\ Shannon Tiezzi, ``Xi Wants Chinese Media To Be `Publicity 
Fronts' for the CCP,'' The Diplomat, 20 February 16; Lin Feiyun, ``In 
Imparting the News Media `Is Surnamed Party,' Xi Jinping Launches an 
Era of Total Control'' [Chuanmei ``xing dang,'' xi jinping kaiqi 
quanfangwei kongzhi shidai], Initium Media, 23 February 16.
    \14\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 35.
    \15\ Yang Lixin, ``Research on Judicial Parameters in Media Tort 
Liability and Media Rights Protection: Examining the Concept of Soft 
Standards on Privacy and Judicial Practice in a `Guide on the 
Application of the Tort Liability Law in Cases Involving the Media' '' 
[Meiti qinquan he meiti quanli baohu de sifa jiexian yanjiu: you 
``meiti qinquan zeren anjian falu shiyong zhiyin'' de zhiding tantao 
siyu ruan guifan de gainian he sifa shijian gongneng], Journal of Law 
Application, Issue 9 (2014), 45, 46; Xu Hao, ``Looking at the Media's 
Responsibility for Reasonable Review in the World Luxury Association 
Defamation Case'' [Xu hao: cong shishehui mingyu qinquan kan meiti de 
heli shencha yiwu], Southern Media Net, last visited 18 February 16. 
The status of the national press legislation is unclear. See, e.g., 
``Journalist Raises Question About Press Legislation, Official 
Intentionally Evades It and Adjourns Press Conference'' [Jizhe tiwen 
xinwen fa lifa guanyuan gu zuoyou er yan ta xuanbu sanhui], Radio Free 
Asia, 11 March 16.
    \16\ The State Administration of Press, Publication, Radio, Film 
and Television webpage for Chinese reporters includes a section on 
``relevant documents, laws, and regulations,'' at http://
press.gapp.gov.cn/reporter/channels/250.html, last visited 11 April 16. 
See, e.g., PRC Law on the Protection of State Secrets [Zhonghua renmin 
gongheguo baoshou guojia mimi fa], passed 5 September 88, amended 29 
April 10, effective 1 October 10, arts. 9, 27; Supreme People's Court, 
Several Provisions on the People's Court Accepting Supervision of News 
Media [Zuigao renmin fayuan guanyu renmin fayuan jieshou xinwen meiti 
yulun jiandu ruogan guiding], issued 8 December 09. Other key 
regulations touching on news publications and journalists include the 
PRC Administrative Licensing Law [Zhonghua renmin gongheguo xingzheng 
xuke fa], passed 28 August 03, effective 1 July 04; State Council, 
Regulations on the Management of Publications [Chuban guanli tiaoli], 
issued 25 December 01, amended and effective 19 March 11; State 
Council, Regulations on the Management of Audiovisual Products 
[Yinxiang zhipin guanli tiaoli], issued 25 December 01, amended and 
effective 19 March 11; State Administration of Press, Publications, 
Radio, Film and Television (SAPPRFT), Measures on Managing Information 
Obtained by Press Personnel Through Professional Conduct [Xinwen congye 
renyuan zhiwu xingwei xinxi guanli banfa], issued 30 June 14. For 
Commission analysis on the SAPPRFT Measures of June 2014, see CECC, 
``China's Media Regulator Places New Restrictions on Journalists and 
News Organizations,'' 5 November 14.
    \17\ ``Chinese Media Outlets `Take Daily Orders' From Government: 
Journalist,'' Radio Free Asia, 17 November 15.
    \18\ ``Annual Oversight: Industry Standards Frequently Involve 
Heavy Strikes, 5 Items of Targeted Work Causing Concern'' [Niandu 
jianguang: hangye guifan pinchu zhongquan, 5 xiang zhongdian gongzuo 
reren guangzhu], Donghe Information Net, 14 April 16; ``Central News 
Units Clean-Up and Consolidate Journalist Stations: More Than 30 
Percent Eliminated or Merged'' [Zhongyang xinwen danwei qingli zhengdun 
jizhezhan: chebing jigou guo sancheng], Procuratorial Daily, 28 January 
16; Zhuo Hongyong, ``Newspaper Industry Keywords in 2015'' [2015 nian 
baoye guanjian ci], People's Daily, 7 April 16.
    \19\ Tom Phillips, ``China's Young Reporters Give Up on Journalism: 
`You Can't Write What You Want,'' Guardian, 11 February 16; Sarah Cook, 
``The Decline of Independent Journalism in China,'' The Diplomat, 7 
January 16; Jingrong Tong, ``Is Investigative Journalism Dead in China? 
'' University of Nottingham China Policy Institute: Analysis (blog), 20 
November 15.
    \20\ Yaqiu Wang, Committee to Protect Journalists, ``In China, 
Harsh Penalties for `False News' Make It Harder for Reporters To 
Work,'' Committee to Protect Journalists (blog), 30 October 15.
    \21\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 291.
    \22\ ``Chinese Media Outlets `Take Daily Orders' From Government: 
Journalist,'' Radio Free Asia, 17 November 15. China Digital Times, a 
U.S.-based Web portal that aggregates English and Chinese language 
media, features translations of leaked censorship directives at its 
Ministry of Truth, http://chinadigitaltimes.net/china/directives-from-
the-ministry-of-truth/. For examples of directives censoring media- and 
press-related news during the Commission's 2016 reporting year, see, 
e.g., China Digital Times, ``Minitrue: Don't Hype Journalist's 
Detention,'' 21 October 15; China Digital Times, ``Minitrue: 21st 
Century Media Verdicts,'' 24 December 15.
    \23\ Sarah Cook, ``Chinese Journalism, Interrupted,'' Foreign 
Policy, Tea Leaf Nation (blog), 6 January 16.
    \24\ Ibid.
    \25\ China Digital Times, ``Minitrue: 21 Rules on Coverage of the 
Two Sessions,'' 8 March 16; Didi Kirsten Tatlow, ``What Chinese Media 
Mustn't Cover at the `2 Sessions,' '' New York Times, Sinosphere 
(blog), 9 March 16.
    \26\ Nectar Gan, ``No More Idle Chatter in the Great Teahouse of 
the People,'' South China Morning Post, 12 March 16.
    \27\ David Bandurski, ``Pulitzer's `Lookout on the Bridge' vs. 
China's `News Ethics Committees,' '' Asia Society, ChinaFile (blog), 20 
November 15.
    \28\ David Bandurski, ``Mirror, Mirror on the Wall,'' University of 
Hong Kong, China Media Project, 22 February 16; Li-Fung Cho, ``The 
Emergence of China's Watchdog Reporting,'' in Investigative Journalism 
in China: Eight Cases in Chinese Watchdog Journalism, eds. David 
Bandurski and Martin Hala (Hong Kong: Hong Kong University Press, 
2010), 166-67.
    \29\ Keira Lu Huang, ``Jailed and Refused Bail, Chinese 
Investigative Journalist Detained After Exposing High Profile 
Corruption Scandal,'' South China Morning Post, 19 October 15; 
International Federation of Journalists, ``Chinese Reporter Held on 
`State Secret' Charges,'' 20 October 15.
    \30\ ``Southern Metropolitan Reporter Liu Wei Shows Penitence on 
CCTV, Released on Bail'' [Nandu jizhe liu wei shang yangshi huizui huo 
qubao houshen], Radio Free Asia, 31 October 15.
    \31\ ``Investigation Into the Truth of the Wang Lin Case'' [Wang 
lin anzhong an zhenxiang diaocha], Xinhua, 30 October 15, reprinted in 
Southern Metropolitan Daily, 31 October 15.
    \32\ Benjamin L. Liebman, ``Innovation Through Intimidation: An 
Empirical Account of Defamation Litigation in China,'' Harvard 
International Law Journal, Vol. 47, No. 16 (Winter 2006), 54-57.
    \33\ Feng Yuding, ``After Three Years of the World Luxury 
Association's Lawsuit, Southern Weekend Wins on Appeal'' [Yu shishehui 
suzhan sannian, nanfang zhoumo zhongshen shengsu], Southern Weekend, 9 
November 15.
    \34\ Zhao Fuduo, ``World Luxury Association Loses Defamation 
Lawsuit Against Media on Appeal'' [Shishehui su meiti mingyu qinquanan 
zhongshen baisu], Caixin, 9 November 15.
    \35\ Ibid.; Lin Ye, ``World Luxury Association's Defamation Lawsuit 
Against Beijing News Verdict Revised on Appeal, World Luxury 
Association Loses Lawsuit'' [Shishehui su xinjingbao mingyu qinquan an 
zhongshen gaipan shishehui baisu], Beijing News, 9 November 15.
    \36\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], People's Daily, 13 March 16, sec. 2, para. 6.
    \37\ ``Outspoken Chinese Real Estate Mogul Becomes Latest Target of 
Party Wrath,'' China Change, 25 February 16.
    \38\ ``Loyal Party Members Urge Xi's Resignation,'' March 2016, 
translated in China Digital Times, 16 March 16.
    \39\ Ibid.; ``Outspoken Chinese Real Estate Mogul Becomes Latest 
Target of Party Wrath,'' China Change, 25 February 16.
    \40\ Austin Ramzy, ``Editor Says He Is Resigning Over Media 
Controls in China,'' New York Times, Sinosphere (blog), 29 March 16; 
China Digital Times, `` `Unable To Bear the Party Surname,' Editor 
Resigns,'' 28 March 16.
    \41\ Michael Forsythe, ``Chinese Publication, Censored by 
Government, Exposes Article's Removal,'' New York Times, Sinosphere 
(blog), 8 March 16; ``Caixin Media's Display of Courage Against China's 
Censors,'' Washington Post, 9 March 16.
    \42\ Chris Buckley, ``China's Censors Denounced in Online Attack,'' 
New York Times, 11 March 16.
    \43\ Zhou Ruijin, ``Ideological Work Also Needs Reform and 
Innovation'' [Yishi xingtai gongzuo ye yao gaige chuangxin], Phoenix 
Review, 2 February 16; Nectar Gan, `` `Censors Have Gone Too Far': 
Influential Voice of Deng Xiaoping Era Accuses China's Propaganda 
Chiefs of Too Much Intervention,'' South China Morning Post, 4 February 
16.
    \44\ Edward Wong, ``China Deletes Microblog of Critic of President 
Xi Jinping,'' New York Times, 28 February 16; Kenneth Tan, ``SCMP's 
Online Presence in Mainland China Completely Wiped Out,'' Shanghaiist, 
9 March 16. See also ``Outspoken Chinese Real Estate Mogul Becomes 
Latest Target of Party Wrath,'' China Change, 25 February 16.
    \45\ Michael Forsythe, ``Chinese Publication, Censored by 
Government, Exposes Article's Removal,'' New York Times, Sinosphere 
(blog), 8 March 16; ``Caixin Media's Display of Courage Against China's 
Censors,'' Washington Post, 9 March 16.
    \46\ Committee to Protect Journalists, ``Chinese Journalist Jia Jia 
Disappears, Whereabouts Unknown,'' 17 March 16; Edward Wong and Chris 
Buckley, ``China Said To Detain Several Over Letter Criticizing Xi,'' 
New York Times, 25 March 16; John Sudworth, ``China `Detained 20 Over 
Xi Resignation Letter,' '' BBC, China Blog, 25 March 16.
    \47\ Amnesty International, ``China: Prominent Blogger's Family 
Detained Over Letter Lambasting President Xi,'' 25 March 16; John 
Sudworth, ``China `Detained 20 Over Xi Resignation Letter,' '' BBC, 
China Blog, 25 March 16; Chang Ping, ``My Statement About the Open 
Letter to Xi Jinping Demanding His Resignation,'' China Change, 27 
March 16.
    \48\ Steven Jiang, ``Trial by Media? Confessions Go Prime Time in 
China,'' CNN, 26 January 16; Chinese Human Rights Defenders, ``China: 
Forced TV Confessions Violate Principle of Presumed Innocence Before 
Trial, Constitute Cruel & Degrading Punishment,'' 12 March 16. See also 
Zheping Huang, ``China Is Using Televised Confessions To Shame Detained 
Lawyers, Journalists, and Activists,'' Quartz, 15 July 15.
    \49\ ``Southern Metropolitan Reporter Liu Wei Shows Penitence on 
CCTV, Released on Bail'' [Nandu jizhe liu wei shang yangshi huizui huo 
qubao houshen], Radio Free Asia, 31 October 15. For coverage of the 
case of Caijing reporter Wang Xiaolu's televised confession at the end 
of the Commission's 2015 reporting year, see Amie Tsang, ``Caijing 
Journalist's Shaming Signals China's Growing Control Over News Media,'' 
New York Times, 6 September 15. For more information on Wang Xiaolu, 
see the Commission's Political Prisoner Database record 2015-00319.
    \50\ Josh Chin, ``Chinese Activist Wang Yu Seen `Confessing' in 
Video,'' Wall Street Journal, 1 August 16; Tom Phillips, ``Anger as 
Christian Lawyer Paraded on Chinese State TV for `Confession,' '' 
Guardian, 26 February 16. For more information, see the Commission's 
Political Prisoner Database records 2015-00252 on Wang Yu and 2015-
00318 on Zhang Kai.
    \51\ Edward Wong, ``China Uses Foreigners' Televised Confessions To 
Serve Its Own Ends,'' New York Times, 21 January 16. For more 
information on Peter Dahlin, see the Commission's Political Prisoner 
Database record 2016-00024.
    \52\ Steven Jiang, ``Trial by Media? Confessions Go Prime Time in 
China,'' CNN, 26 January 16; Chinese Human Rights Defenders, ``China: 
Forced TV Confessions Violate Principle of Presumed Innocence Before 
Trial, Constitute Cruel & Degrading Punishment,'' 12 March 16.
    \53\ Chinese Human Rights Defenders, ``China: Forced TV Confessions 
Violate Principle of Presumed Innocence Before Trial, Constitute Cruel 
& Degrading Punishment,'' 12 March 16.
    \54\ Jia Shiyu, ``Zhu Zhengfu: Suspects Making Confessions on 
Television Does Not Mean They Are Actually Guilty'' [Zhu zhengfu 
xianfan dianshili renzui budengyu zhen you zui], Beijing News, 2 March 
16; Mimi Lau, `` `Pull Plug on China's Televised Confessions' Urges Top 
Political Adviser Ahead of Meeting of Country's Legislature,'' South 
China Morning Post, 1 March 16; Josh Chin, ``Chinese Judge Criticizes 
Televised Confessions,'' Wall Street Journal, China Real Time Report 
(blog), 15 March 16.
    \55\ See, e.g., ``Chinese Labor Group Vows To Sue Over State Media 
Report on Detained Activists,'' Radio Free Asia, 25 January 16; China 
Labour Bulletin, ``Mother of Detained Labour Activist Zeng Feiyang Sues 
China's State Media,'' 12 April 16; ``Civil Complaint by Wang Qiaoling, 
Wife of Lawyer Li Heping, Against Xinhua News Agency and Eight Other 
Media Organizations for Defaming Her Husband,'' translated in Human 
Rights in China, 3 August 15; Rights Defense Network, ``Defamation 
Lawsuit of Female Rights Defender in Hunan, Teacher Chen Wenzhong, 
Against `Changsha Evening News' Will Go to Trial on the 7th'' [Hunan nu 
weiquan renshi chen wenzhong laoshi zhuanggao ``changsha wanbao'' 
mingyu qinquan yi an jiang yu 7 ri kaiting], 6 September 15; ``Zhang 
Wuzhou Seeks Justice on Behalf of Younger Brother Zhang Liumao, Plans 
To Sue CCTV'' [Zhang wuzhou wei didi zhang liumao shenzhang zhengyi ni 
qisu yangshi], Radio Free Asia, 6 May 16.
    \56\ Pablo Wang and Echo Hui, ``The Family of a Well-Known Chinese 
Activist Was Harassed Into Dropping a Lawsuit Against Xinhua,'' Quartz, 
2 May 16; Mimi Lau, ``Mother of Detained Labour Activist Takes on State 
Media--and Forced Into Hardest Decision of Her Life,'' South China 
Morning Post, 1 May 16.
    \57\ ``Li Zhuang Sues China Youth Daily for Defamation of 
Character, Case Filed After 3 and a Half Years of Trying'' [Li zhuang 
su zhongqingbao mingyu qinquan an shige 3 nian ban zai qisu huo li'an], 
The Paper, reprinted in Sohu, 8 June 15; Zhao Fuduo, ``Former Lawyer Li 
Zhuang Sues Publisher of `China Youth Daily' for Defamation of 
Character, Goes to Court on December 4'' [Qian lushi li zhuang su 
``zhongguo qingnian bao'' she mingyu qinquan an 12 yue 4 ri kaiting], 
Caixin, 1 December 15. Li claimed that China Youth Daily reporters 
failed to conduct investigative journalism in a 2009 article they wrote 
about Li's work as counsel in a high-profile criminal case in Chongqing 
municipality. See also Sida Liu, Lily Liang, and Terence C. Halliday, 
``The Trial of Li Zhuang: Chinese Lawyers' Collective Action Against 
Populism,'' Asian Journal of Law and Society, Vol. 1 (2014).
    \58\ Luo Ya, ``Li Zhuang's Defamation Lawsuit Against China Youth 
Daily Postponed Because Presiding Judge Sprained Back'' [Li zhuang su 
zhongqingbao mingyu qinquan an yin shenpanzhang yao niushang tuichi], 
Epoch Times, 6 December 15.
    \59\ Zhao Fuduo, ``Former Lawyer Li Zhuang Sues Publisher of `China 
Youth Daily' for Defamation of Character, Goes to Court on December 4'' 
[Qian lushi li zhuang su ``zhongguo qingnian bao'' she mingyu qinquan 
an 12 yue 4 ri kaiting], Caixin, 1 December 15.
    \60\ Elana Beiser, Committee to Protect Journalists (CPJ), ``China, 
Egypt Imprison Record Numbers of Journalists,'' 15 December 15; 
International Federation of Journalists (IFJ), ``China's Great Media 
Wall: The Fight for Freedom,'' 30 January 16, 10; ``China Holds 23 
Journalists, 84 Bloggers in 2015: Press Freedom Report,'' Radio Free 
Asia, 30 December 15. While variance in the data reflects differing 
approaches to whether citizen journalists and bloggers are included in 
the data, China's detention numbers are high as measured by leading 
press freedom organizations: CPJ reported on 49 detained journalists in 
2015; IFJ reported 41; and, according to Radio Free Asia, Reporters 
Without Borders (RSF) reported on the detention of 23 journalists and 
84 bloggers in 2015.
    \61\ Elana Beiser, Committee to Protect Journalists, ``China, Egypt 
Imprison Record Numbers of Journalists,'' 15 December 15; Shazdeh 
Omari, Committee to Protect Journalists, ``China Is World's Worst 
Jailer of the Press; Global Tally Second Worst on Record,'' 17 December 
14.
    \62\ Elana Beiser, Committee to Protect Journalists, ``China, Egypt 
Imprison Record Numbers of Journalists,'' 15 December 15. See also 
China country report in Freedom House, ``Freedom of the Press 2016,'' 
25 April 16.
    \63\ Freedom House, ``Freedom of the Press 2016,'' 25 April 16.
    \64\ Somini Sengupta, ``Press Freedom Group's Application for U.N. 
Accreditation Is Rejected,'' New York Times, 26 May 16. On June 14, 
2016, China was elected to a new three-year term on the UN Economic and 
Social Council. UN General Assembly, ``General Assembly Elects 18 
Members of Economic and Social Council, Also Adopts Texts, Including 
One Designating 29 June International Day of Tropics,'' 14 June 16; UN 
Watch, ``China, Russia, UAE, Venezuela, Wins Seats on UN Organ 
Overseeing Human Rights,'' 14 June 16.
    \65\ Committee to Project Journalists (CPJ), ``CPJ Denied ECOSOC 
Consultative Status After Vote in UN NGO Committee,'' 26 May 16; 
Freedom House, `` `Shameful' Decision To Deny CPJ Access to United 
Nations,'' 27 May 16.
    \66\ Ban Ki-moon, United Nations, ``Secretary-General's Remarks at 
the Opening of the 66th UN DPI/NGO Conference,'' 30 May 16; ``UN Rights 
Office Concerned Over Denial of Participation for Journalist's Group, 
LGBT Organizations,'' UN News Service, 31 May 16; Tracy Wilkinson, 
``Nations With Poor Human Rights Records Block UN Status for Press-
Rights Group,'' Los Angeles Times, 26 May 16.
    \67\ Tracy Wilkinson, ``Nations With Poor Human Rights Records 
Block UN Status for Press-Rights Group,'' Los Angeles Times, 26 May 16; 
Permanent Mission of France to the United Nations in New York, ``CPJ 
Application for UN Accreditation,'' 27 May 16. See also Department of 
International Relations and Cooperation, Republic of South Africa, 
``South Africa Has No Objection to CPJ Being Granted Observer Status by 
ECOSOC.,'' 27 May 16.
    \68\ Reporters Without Borders, ``2016 World Press Freedom Index,'' 
last visited 20 April 16; Reporters Without Borders, ``China: Great 
Firewall and Systematic Imprisonment,'' last visited 6 July 16. For 
general data on China, select the ``China'' country page; for the abuse 
score for all countries ranked in 2016, select the ``Index Details'' 
page; and for an explanation of the Press Freedom Index, select the 
page headed ``The World Press Freedom Index: What Is It? ''
    \69\ ``Zhao Xinyu, Former Editor-in-Chief of Xinjiang Daily, Doubly 
Expelled'' [Xinjiang ribaoshe yuan zongbianji zhao xinyu bei 
shuangkai], People's Daily, 2 November 15; Tom Phillips, ``Chinese 
Newspaper Editor Sacked for Criticising Beijing's `War on Terror,' '' 
Guardian, 2 November 15.
    \70\ See, e.g., Nectar Gan, ``Editor at Liberal Chinese Newspaper 
Fired Over Xi Front Page,'' South China Morning Post, 2 March 16; 
``[Xinhua News Blunder] Report Mistakenly Called Xi Jinping `Last 
Leader' Alleged To Be `Political Mistake,' Editor Dismissed and Loses 
Status as Probationary Party Member'' [(Xinhuashe cuoshi) cuocheng xi 
jinping ``zuihou lingdaoren'' baodao zhi ``zhengzhi cuowu'' fagao 
bianji tingzhi ji quxiao yubei dangyuan zige], Ming Pao, 16 March 16; 
Choi Chi-yuk, ``Beijing Clamps Down on News Portals, Ordering Round the 
Clock Monitoring,'' South China Morning Post, 19 August 16.
    \71\ See, e.g., ``Media: What Do Journalists' Ordinary Reports Have 
To Do With State Security? '' [Meiti: jizhe zhengchang baodao yu guojia 
anquan he gan?], Beijing News, reprinted in Sina.com, 10 April 16; Cao 
Guoxing, ``CPPCC Delegate Song Xin Intimidates Journalist Raising 
Questions at Two Sessions: `Be Careful, or You'll Be Taken Away' '' 
[Quanguo zhengxie weiyuan song xin weixie lianghui tiwen jizhe: 
``xiaoxin ba ni zhuaqilai''], Radio France Internationale, 16 March 16.
    \72\ See, e.g., ``Fire at Zhengzhou Property Causes 2 Deaths, 
Journalists Interviewing Are Hit and Taken Away by Police'' [Zhengzhou 
loupan zhaohuo zhi 2 si jizhe caifang bei da bing zao jingcha daizou], 
Henan TV, reprinted in Sohu, 31 October 15; ``Police Station Chief 
Revealed To Have Beaten Female Reporter Behind Closed Doors, Police at 
Doorway Blocked Other Journalists From Entering'' [Paichusuozhang bei 
bao guanmen da nu jizhe menkou jingcha zuzhi jizhe jinru], Harbin 
Broadcast TV, reprinted in Global Times, 21 April 16.
    \73\ See, e.g., Keira Lu Huang, ``Jailed and Refused Bail, Chinese 
Investigative Journalist Detained After Exposing High Profile 
Corruption Scandal,'' South China Morning Post, 18 October 15; Lan 
Tianming, ``3 Journalists From Wuwei, Gansu, Remain in Custody: 
Detained Journalist Denies Extortion Accusation'' [Gansu wuwei 3 jizhe 
bei juxu: zaiya jizhe dui qiaozha zhikong yuyi fouren], China Youth 
Daily, 22 January 16; Human Rights Campaign in China, ``Arrests 
Approved for Lu Yuyu, Founder of `Not the News' Site Documenting Civil 
Society Rights Defense Incidents, and Li Tingyu, on Suspicion of 
Picking Quarrels and Provoking Trouble, by Dali Procuratorate'' [Jilu 
minjian weiquan shijian ``fei xinwen'' chuangbanren lu yuyu ji li 
tingyu liang ren bei dali jianchayuan yi shexian xunxin zishi zui 
pizhun daibu], 22 July 16; Edward Wong and Chris Buckley, ``China Said 
To Detain Several Over Letter Criticizing Xi,'' New York Times, 25 
March 16.
    \74\ Several international media rights organizations maintain 
lists of detained and imprisoned journalists, writers, and bloggers 
from China. See, e.g., Committee to Protect Journalists, ``2015 Prison 
Census: 199 Journalists Jailed Worldwide,'' last visited 6 May 16; 
International Federation of Journalists, ``China's Great Media Wall: 
The Fight for Freedom,'' last visited 6 May 16; Independent Chinese PEN 
Center, Writers in Prison, last visited 6 May 16. In addition, the 
Commission maintains a Political Prisoner Database at ppdcecc.gov from 
which individual case data is available.
    \75\ Amnesty International, China Human Rights Lawyers Concern 
Group, Committee to Protect Journalists et al., ``Joint Letter to 
President Xi Jinping,'' reprinted in Human Rights Watch, 5 August 15. 
For more information on Gao Yu, see the Commission's Political Prisoner 
Database record 2004-05037.
    \76\ ``Gao Yu Admitted Guilt and Showed Remorse for Crime, May 
Temporarily Serve [Sentence] Outside Jail Based on Decision Made 
According to Law'' [Gao yu renzui huizui bei yifa jueding zanyu jianwai 
zhixing], Xinhua, 26 November 15; Rights Defense Network, ``Today Gao 
Yu's Case Verdict Changed on Appeal to Five-Year Prison Term and One-
Year Deprivation of Political Rights, Freedom of Speech Again Trampled 
On'' [Gao yu an jin zhongshen gaipan youqi tuxing wu nian, boduo 
zhengzhi quanli yi nian, yanlun ziyou zai zao cubao jianta], 26 
November 15.
    \77\ ``Gao Yu `Forced To Travel' During Two Sessions'' [Gao yu 
lianghui qijian ``bei luyou''], Radio Free Asia, 18 March 16.
    \78\ ``Chinese Journalist Gao Yu in Hospital After Demolition Raid 
on Home,'' Radio Free Asia, 6 April 16; `` `Today, I Must Break My 
Silence': Veteran Journalist Gao Yu,'' Radio Free Asia, 1 April 16; 
Reporters Without Borders, ``RSF Appalled by Harassment of Journalist 
Gao Yu's Family,'' 31 March 16.
    \79\ ``Gao Yu `Forced To Travel' During Two Sessions'' [Gao yu 
lianghui qijian ``bei luyou''], Radio Free Asia, 18 March 16.
    \80\ ``Gao Yu's Lawyer Calls on Authorities To Follow Through on 
Promise To Allow Gao To Go Abroad for Medical Treatment'' [Gao yu lushi 
huyu dangju luxing nuoyan pizhun gao dao haiwai jiuyi], Radio Free 
Asia, 4 February 16; Human Rights Watch, ``China: Detained Activist, 
Journalist Denied Needed Health Care,'' 6 May 16.
    \81\ Chris Buckley, ``Journalist Who Sought Refuge in Thailand Is 
Said To Return to China,'' New York Times, 3 February 16; Tom Phillips 
and Oliver Holmes, ``Activist Who Vanished in Thailand Is Being Held in 
China, Says Wife,'' Guardian, 3 February 16.
    \82\ Chris Buckley, ``Journalist Who Sought Refuge in Thailand Is 
Said To Return to China,'' New York Times, 3 February 16.
    \83\ ``Li Xin: Applies for Political Asylum So That He Doesn't 
Split Himself Further'' [Li xin: shenqing zhengzhi bihu shi bu xiang 
ren'ge fenliu xiaqu], BBC, 11 November 15.
    \84\ ``Chinese Media Outlets `Take Daily Orders' From Government: 
Journalist,'' Radio Free Asia, 17 November 15.
    \85\ ``Tianwang Citizen Journalist Wang Jing Sentenced to Prison 
for 4 Years'' [Tianwang gongmin jizhe wang jing bei pan qiu 4 nian], 
Radio Free Asia, 25 April 16; ``China Reissues Charges Against Citizen 
Journalist,'' Radio Free Asia, 24 February 16. Wang began to document 
petitioners' activities for 64 Tianwang in 2013 after years of seeking 
government assistance for information on her elder sister's 
disappearance from a factory work shift in 1993. Chuanying District 
People's Court of Jilin Municipality, Jilin Province, ``Criminal 
Verdict No. 132 (2015)'' [(2015) chuan xing chuzi di 132 hao], 20 April 
16, 4, reprinted in ``Criminal Verdict for Tianwang Citizen Journalist 
Wang Jing'' [Tianwang gongmin jizhe wang jing xingshi panjueshu], 64 
Tianwang, 24 April 16. For more information on Wang Jing, see the 
Commission's Political Prisoner Database record 2014-00104.
    \86\ Committee to Protect Journalists, ``Three Journalists Detained 
After Reporting on Tiananmen,'' 18 March 14.
    \87\ ``Tianwang Citizen Journalist Wang Jing Sentenced to Prison 
for 4 Years'' [Tianwang gongmin jizhe wang jing bei pan qiu 4 nian], 
Radio Free Asia, 25 April 16.
    \88\ Huang Qi, 64 Tianwang, ``Old War Veteran Sun Enwei Faces 
Criminal Detention, 11 Citizen Journalists From Tianwang Detained'' 
[Canzhan laobing sun enwei zao xingju tianwang 11 gongmin jizhe zaiya], 
29 August 15; Huang Qi, 64 Tianwang, ``Zhejiang Arrests Old Soldiers' 
Rights Defense Representative Sun Enwei, Police Threaten His Wife To 
Keep It a Secret'' [Zhejiang daibu laobing weiquan daibiao sun enwei 
jingfang weixie qizi baomi], 30 September 15; ``Old Soldier Sun Enwei 
Criminally Detained, Fellow Soldiers Will Go to Yangjiang for Rights 
Defense'' [Laobing sun enwei zao xingju zhanyou ni yangjiang weiquan], 
Radio Free Asia, 29 August 15. See also ``More Than 4,000 Retired 
Soldiers Gather at Central Military Commission Holding Banners To 
Protect Rights'' [4000 yu tuiyi junren ju zhongyang junwei la hengfu 
weiquan], New Tang Dynasty Television, 19 July 16. For more information 
on Sun Enwei, see the Commission's Political Prisoner Database record 
2016-00075.
    \89\ ``Interview: `The Authorities Fear We Will Expose the Scandal 
of Post-Quake Reconstruction,' '' Radio Free Asia, 4 March 16; 
``[Xinhua News Agency Blunder] Mistakenly Calling Xi Jinping the `Last 
Leader,' Report Accused of Being `Politically Incorrect,' Editor 
Dismissed and Loses Status as Probationary Party Member'' [(Xinhuashe 
cuoshi) cuo cheng xi jinping ``zuihou lingdao ren'' baodao zhi 
``zhengzhi cuowu'' fagao bianji tingzhi ji quxiao yubei dangyuan zige], 
Ming Pao, 16 March 16.
    \90\ Foreign Correspondents' Club of China, ``FCCC Annual Working 
Conditions Report 2015,'' reprinted in Wall Street Journal, May 2015.
    \91\ Ibid. See, e.g., Eric Fish, `` `I Don't Want To Think About 
Activating Change': NYT's David Barboza on Reporting in China,'' Asia 
Society, Asia Blog, 28 January 16. David Barboza, former Shanghai 
correspondent for the New York Times and the lead author of a 2012 
expose on the financial holdings of the family of then-premier, Wen 
Jiabao, indicated in this January 2016 Asia Society interview that 
Chinese authorities had increased harassment against him in 2015.
    \92\ Foreign Correspondents' Club of China, ``FCCC Annual Working 
Conditions Report 2015,'' reprinted in Wall Street Journal, May 2015. 
See, e.g., Edward Wong, ``Tibetan Entrepreneur Has Been Illegally 
Detained, Family Says,'' New York Times, 10 March 16; Edward Wong, 
``Tibetans Fight To Salvage Fading Culture in China,'' New York Times, 
28 November 15. For more information on Tashi Wangchug, see the 
Commission's Political Prisoner Database record 2016-00077.
    \93\ Foreign Correspondents' Club of China, ``FCCC Annual Working 
Conditions Report 2015,'' reprinted in Wall Street Journal, May 2015. 
See, e.g., Emily Feng, ``China Blocks Economist and Time Websites, 
Apparently Over Xi Jinping Articles,'' New York Times, Sinosphere 
(blog), 8 April 16; Jonathan Kaiman, ``There's a New BBC in China--And 
There's Nothing British About It,'' Los Angeles Times, 11 April 16; 
Greatfire.org, ``The New York Times vs. The Chinese Authorities,'' 7 
May 16. Western media blocked in China during the 2016 reporting year 
included the New York Times, Bloomberg News, the Wall Street Journal, 
Le Monde, El Pais, Time, and the Economist. Chinese censors blocked 
Reuters in 2015. ``Reuters Websites Become Inaccessible in China,'' 
Reuters, 20 March 15; Alistair Charlton, ``Reuters News Banned in 
China: English and Chinese Versions Inaccessible,'' International 
Business Times, 20 March 15.
    \94\ Foreign Correspondents' Club of China, ``FCCC Annual Working 
Conditions Report 2015,'' reprinted in Wall Street Journal, May 2015.
    \95\ Foreign Correspondents' Club of China, ``Incident Report: 
Reporters, Chinese Assistant Detained in Inner Mongolia, Blocked From 
Interviewing Teenage Son of Rights Lawyer,'' 13 October 15; Philip Wen, 
`` `You Are in Danger. We Are Being Monitored,' '' Sydney Morning 
Herald, 14 October 15.
    \96\ For more information on Bao Zhuoxuan, see the Commission's 
Political Prisoner Database record 2015-00345.
    \97\ For more information on Wang Yu, see the Commission's 
Political Prisoner Database record 2015-00252.
    \98\ For more information on Bao Longjun, see the Commission's 
Political Prisoner Database record 2015-00253.
    \99\ Foreign Correspondents' Club of China, ``Incident Report: 
Reporters, Chinese Assistant Detained in Inner Mongolia, Blocked From 
Interviewing Teenage Son of Rights Lawyer,'' 13 October 15; Philip Wen, 
`` `You Are in Danger. We Are Being Monitored,' '' Sydney Morning 
Herald, 14 October 15.
    \100\ Foreign Correspondents' Club of China (fccchina), ``FCCC 
Statement on Journalists Assaulted,'' TwitLonger post, 14 December 15; 
``Police Detain Supporters, Bar Journalists Outside Pu Zhiqiang 
Trial,'' Radio Free Asia, 14 December 15.
    \101\ ``May 12 Disaster Reconstruction and Corruption in Sichuan 
Becomes Forbidden Zone for Reporting, Japanese Journalists Obstructed 
From Interviewing Individuals Affected by Disaster'' [Sichuan 512 
zaihou chongjian yan tanfu cheng baodao jinqu rimei caifang zaimin 
shouzu], Radio Free Asia, 28 April 16.
    \102\ ``Interview: `The Authorities Fear We Will Expose the Scandal 
of Post-Quake Reconstruction,' '' Radio Free Asia, 4 March 16.
    \103\ Foreign Correspondents' Club of China, ``Annual Survey of 
Visa Issues,'' April 2016, reprinted in Committee to Protect 
Journalists (blog), 4 April 16; Committee to Protect Journalists, 
``Foreign Press in China Face Fewer Visa Delays but Obstacles Remain, 
FCCC Finds,'' Committee to Protect Journalists (blog), 4 April 16.
    \104\ Ibid.
    \105\ Ministry of Foreign Affairs, ``Foreign Ministry Spokesperson 
Lu Kang's Regular Press Conference on December 28, 2015,'' 28 December 
15; Tom Phillips, ``Ursula Gauthier: Foreign Media Must Fight China 
Censorship, Says Expelled Journalist,'' Guardian, 31 December 15.
    \106\ Ursula Gauthier, ``Following the Attacks, China's Solidarity 
Isn't Without Ulterior Motives'' [Apres les attentats, la solidarite de 
la chine n'est pas sans arriere-pensees], L'Obs, 18 November 15. 
Chinese official media heavily criticized Gauthier. See, e.g., 
``Opinion: Press Freedom No Excuse for Advocating Terrorism,'' Xinhua, 
28 December 15; ``State Media Supports Expulsion of French Journalist 
for Xinjiang Reporting,'' Feichangdao (blog), 11 January 16.
    \107\ China Internet Network Information Center, ``The 38th 
Statistical Report on Internet Development in China'' [Di 38 ci 
zhongguo hulian wangluo fazhan zhuangkuang tongji baogao], July 2016, 
1.
    \108\ Ibid.
    \109\ ``WeChat Blasts Past 700 Million Monthly Active Users, Tops 
China's Most Popular Apps,'' Tech in Asia, 17 April 16.
    \110\ Ibid.
    \111\ Rogier Creemers, ``The Pivot in Chinese Cybergovernance,'' 
China Perspectives, No. 5 (2015), 9.
    \112\ Dan Levin, ``At UN, China Tries To Influence Fight Over 
Internet Control,'' New York Times, 16 December 15; Zhuang Pinghui, 
``The World Needs New Rules for Cyberspace, Says China's President Xi 
Jinping,'' South China Morning Post, 17 December 15; ``Xi Jinping: Let 
the Internet Enrich the Nation and the People Even More'' [Xi jinping: 
rang hulianwang genghao zaofu guojia he renmin], Xinhua, 19 April 16. 
For an unofficial translation of Xi's speech, see ``Xi Jinping Gives 
Speech at Cybersecurity and Informatization Work Conference,'' China 
Copyright and Media Blog, 28 April 16. See also CECC, 2015 Annual 
Report, 8 October 15, 66, on ``Promoting `Internet Sovereignty.' ''
    \113\ Rogier Creemers, ``The Pivot in Chinese Cybergovernance,'' 
China Perspectives, No. 4 (2015), 8.
    \114\ Ibid., 8.
    \115\ Ibid., 6-8.
    \116\ Cyberspace Administration of China, Internet News Information 
Services Management Regulations (Revised Draft for Solicitation of 
Comments) [Hulianwang xinwen xinxi fuwu guanli guiding (xiuding 
zhengqiu yijian gao), 11 January 16.
    \117\ ``China's New Internet Regulations: Internet News Gathering 
Requires Establishing Chief Editor'' [Zhongguo hulianwang xin gui: 
wangluo xinwen caibian xu she zongbianji], BBC, 13 January 16; Qian 
Junke, ``Admirable Items in the Revised Draft of the Internet News 
Information Services Management Regulations'' [Wei xiuding hulianwang 
xinwen xinxi fuwu guanli guiding dianzang], Guangming Daily, 16 January 
16.
    \118\ Cyberspace Administration of China, Internet News Information 
Services Management Regulations (Revised Draft for Solicitation of 
Comments) [Hulianwang xinwen xinxi fuwu guangli guiding (xiuding 
zhengqiu yijian gao), 11 January 16, art. 2.
    \119\ Ibid., art. 6.
    \120\ Zhao Chenting, ``Solicitation of Comments on Management 
Regulations Released, Internet News Industry Faces Major Reshuffling'' 
[Guanli guiding zhengqiu yijian chulu hulianwang xinwenye mianlin da 
xipai], China Business News, reprinted in IResearch, 14 January 16.
    \121\ ``China Shuts Down Many Online Programs Producing Original 
News, Sina, Sohu and Netease Included Among Names of Those [Shut 
Down]'' [Zhongguo guanting duo wangzhan yuanchuang shiwen lanmu, 
xinlang wangyi, sohu bang shang youming], Initium Media, 25 July 16; 
David Bandurski, ``Convergent Control,'' University of Hong Kong, China 
Media Project, 25 August 16.
    \122\ Michael Forsythe, ``Chinese Publication, Censored by 
Government, Exposes Article's Removal,'' New York Times, Sinosphere 
(blog), 8 March 16.
    \123\ Zhu Jichai, ``Cyberspace Administration of China Presents 
Eight Requirements To Fulfill Main Responsibilities Online'' [Guojia 
wangxinban tichu wangzhan luxing zhuti zeren ba xiang yaoqiu], Xinhua, 
17 August 16; ``Watchdog Asks Websites To Strictly Manage Online 
Content,'' Global Times, 18 August 16.
    \124\ Zhu Jichai, ``Cyberspace Administration of China Presents 
Eight Requirements To Fulfill Main Responsibilities Online'' [Guojia 
wangxinban tichu wangzhan luxing zhuti zeren ba xiang yaoqiu], Xinhua, 
17 August 16.
    \125\ Jane Perlez and Paul Mozur, ``Lu Wei, China's Internet Czar, 
Will Step Down From Post,'' New York Times, 29 June 16.
    \126\ Choi Chi-yuk, ``Beijing Clamps Down on News Portals, Ordering 
Round the Clock Monitoring,'' South China Morning Post, 19 August 16.
    \127\ Stanley Lubman, ``China's Criminal Law Once Again Used as 
Political Tool,'' Wall Street Journal, China Real Time Report (blog), 1 
December 15.
    \128\ Human Rights Watch, ``China: State Security, Terrorism 
Convictions Double,'' 16 March 16.
    \129\ UN Committee against Torture, Summary Record of the 1371st 
Meeting (18 November 2015), CAT/C/SR.1371, 23 November 15, para. 23.
    \130\ `` `Tortured' Guangzhou Activist Refuses Food in Detention 
Center,'' Radio Free Asia, 7 January 15.
    \131\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 7, 9, 14.
    \132\ Jane Perlez, ``Chinese Rights Lawyer, Pu Zhiqiang, Is Given 
Suspended Prison Sentence,'' New York Times, 21 December 15; ``Verdict 
in Pu Zhiqiang's First Instance Trial, Prison Term of 3 Years Suspended 
for 3 Years'' [Pu zhiqiang yishen xuanpan jianjin 3 nian huanxing 3 
nian], Radio Free Asia, 22 December 15. Radio Free Asia reported that, 
according to Pu's lawyer Mo Shaoping, the three-year sentence was 
divided into two years for the charge of ``inciting ethnic hatred'' and 
one year for ``picking quarrels and provoking trouble.'' See also CECC, 
2015 Annual Report, 8 October 15, 68. For more information on Pu 
Zhiqiang, see the Commission's Political Prisoner Database record 2014-
00174.
    \133\ Austin Ramzy, ``Rights Lawyer Detained Ahead of Tiananmen 
Anniversary,'' New York Times, Sinosphere (blog), 6 May 14.
    \134\ Verna Yu, ``Beijing `Silencing' Outspoken Rights Lawyer With 
Restrictions on Suspended Jail Term,'' South China Morning Post, 4 
January 16.
    \135\ ``Pu Zhiqiang's Lawyer's License Revoked, Lawyer Cheng Hai 
Summoned Prior to Annual License Renewal'' [Pu zhiqiang bei quxiao 
lushi zige cheng hai lushi wei nianjian bei chuanhuan], Radio Free 
Asia, 14 April 16; Ben Blanchard, ``Prominent Chinese Rights Lawyer 
Says He Is Formally Disbarred,'' Reuters, 14 April 16; ``Pu Zhiqiang: 
China Rights Lawyer Has Licence Revoked,'' BBC, 14 April 16.
    \136\ Chris Buckley, ``Chinese Rights Advocate Known as Guo 
Feixiong Convicted of Unexpected New Charge,'' New York Times, 27 
November 15; Rights Defense Network, ``Tianhe District Court in 
Guangzhou Municipality Separately Sentences Guo Feixiong to Six Years, 
Sun Desheng to Two Years and Six Months, and Liu Yuandong to Three 
Years in Prison'' [Guangzhou shi tianhe qu fayuan jin fenbie panjue guo 
feixiong liu nian, sun desheng liang nian liu ge yue, liu yuandong san 
nian youqi tuxing], 27 November 15. For more information on Guo 
Feixiong (also known as Yang Maodong), see the Commission's Political 
Prisoner Database record 2005-00143.
    \137\ Rights Defense Network, ``Tianhe District Court in Guangzhou 
Municipality Separately Sentences Guo Feixiong to Six Years, Sun 
Desheng to Two Years and Six Months, and Liu Yuandong to Three Years in 
Prison'' [Guangzhou shi tianhe qu fayuan jin fenbie panjue guo feixiong 
liu nian, sun desheng liang nian liu ge yue, liu yuandong san nian 
youqi tuxing], 27 November 15; Rights Defense Network, ``Rights 
Defender Sun Desheng Today Completes Sentence and Leaves Prison, He 
Faced Torture, Abuse, and Beatings in Prison'' [Renquan hanweizhe sun 
desheng jinri xing man chuyu yuzhong zao kuxing nuedai ouda], 28 
February 16. For more information on Sun Desheng, see the Commission's 
Political Prisoner Database record 2011-00313.
    \138\ Rights Defense Network, ``Tianhe District Court in Guangzhou 
Municipality Separately Sentences Guo Feixiong to Six Years, Sun 
Desheng to Two Years and Six Months, and Liu Yuandong to Three Years in 
Prison'' [Guangzhou shi tianhe qu fayuan jin fenbie panjue guo feixiong 
liu nian, sun desheng liang nian liu ge yue, liu yuandong san nian 
youqi tuxing], 27 November 15. For more information on Liu Yuandong, 
see the Commission's Political Prisoner Database record 2013-00333.
    \139\ Rights Defense Network, ``Wang Mo, Xie Fengxia (Xie Wenfei) 
Today Both Sentenced to 4 Years and 6 Months' Imprisonment'' [Wang mo, 
xie fengxia (xie wenfei) jin jun huoxing 4 nian 6 ge yue youqi tuxing], 
8 April 16. For more information on Wang Mo, see the Commission's 
Political Prisoner Database record 2014-00328.
    \140\ Ibid. For more information on Xie Wenfei, see the 
Commission's Political Prisoner Database record 2014-00209.
    \141\ Rights Defense Network, ``Zhang Rongping (Zhang Shengyu) and 
Liang Qinhui Were Separately Sentenced Today to 4 Years and 1 Year and 
6 Months in Prison'' [Zhang rongping (zhang shengyu), liang qinhui jin 
fenbie huoxing 4 nian he 1 nian 6 ge yue], 8 April 16. For more 
information on Liang Qinhui, see the Commission's Political Prisoner 
Database record 2015-00045.
    \142\ ``Lawyers' Account: Court in China Adds Last-Minute Charge in 
Heavy Sentence Against Rights Leader Guo Feixiong,'' China Change, 27 
November 15 (Guo and Sun); ``Liu Yuandong Sentenced to Three Years for 
`Gathering a Crowd To Disturb Order in a Public Place' '' [Liu yuandong 
bei yi ``juzhong raoluan gonggong changsuo zhixu'' zui pan san nian], 
Boxun, 27 November 15 (Liu); PRC Criminal Law [Zhonghua renmin 
gongheguo xing fa], passed 1 July 79, amended 14 March 97, effective 1 
October 97, amended 25 December 99, 31 August 01, 29 December 01, 28 
December 02, 28 February 05, 29 June 06, 28 February 09, 25 February 
11, 29 August 15, effective 1 November 15, art. 291.
    \143\ Chris Buckley, ``Chinese Rights Advocate Known as Guo 
Feixiong Convicted of Unexpected New Charge,'' New York Times, 27 
November 15; ``Lawyers' Account: Court in China Adds Last-Minute Charge 
in Heavy Sentence Against Rights Leader Guo Feixiong,'' China Change, 
27 November 15; PRC Criminal Law [Zhonghua renmin gongheguo xing fa], 
passed 1 July 79, amended 14 March 97, effective 1 October 97, amended 
25 December 99, 31 August 01, 29 December 01, 28 December 02, 28 
February 05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 
effective 1 November 15, art. 293.
    \144\ ``Translation: Police Indictment Opinion for Guo Feixiong & 
Sun Desheng,'' Siweiluozi's Blog, 26 December 13; ``Liu Yuandong 
Sentenced to Three Years for `Gathering a Crowd To Disturb Order in a 
Public Place'' [Liu yuandong yi ``juzhong raoluan gonggong changsuo 
zhixu'' zui pan san nian], Boxun, 27 November 15. For more information 
on the anti-press censorship protests, see the box ``January 2013 
Southern Weekend Protests'' in CECC, 2013 Annual Report, 10 October 13, 
64.
    \145\ ``Translation: Police Indictment Opinion for Guo Feixiong & 
Sun Desheng,'' Siweiluozi's Blog, 26 December 13.
    \146\ Rights Defense Network, ``Wang Mo, Xie Fengxia (Xie Wenfei) 
Today Both Sentenced to 4 Years and 6 Months' Imprisonment'' [Wang mo, 
xie fengxia (xie wenfei) jin jun huoxing 4 nian 6 ge yue youqi tuxing], 
8 April 16 (Wang and Xie); Rights Defense Network, ``Zhang Rongping 
(Zhang Shengyu) and Liang Qinhui Were Separately Sentenced Today to 4 
Years and 1 Year and 6 Months in Prison'' [Zhang rongping (zhang 
shengyu), liang qinhui jin fenbie huoxing 4 nian he 1 nian 6 ge yue], 8 
April 16 (Liang); PRC Criminal Law [Zhonghua renmin gongheguo xing fa], 
passed 1 July 79, amended 14 March 97, effective 1 October 97, amended 
25 December 99, 31 August 01, 29 December 01, 28 December 02, 28 
February 05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 
effective 1 November 15, part 2, chap. 1, art. 105.
    \147\ Mo Zhixu, ``The Southern Street Movement: China's Lonely 
Warriors,'' China Change, 13 April 16.
    \148\ ``Guangzhou Netizen Liang Qinhui Faces Criminal Detention for 
Speech and Online Essays That Supposedly Defamed the Country's 
Leaders'' [Guangzhou wangyou liang qinhui yin yan huozui zao xingju 
wangluo wenzhang bei zhi dihui guojia lingdaoren], Radio Free Asia, 5 
February 15.
    \149\ ``CCP Sentences Tibetan Writer Involved in 2008 Tibetan 
Uprising to Three Years in Prison'' [Zhonggong panchu sheji 2008 nian 
xizang kangbao zangren zuojia sannian tuxing], Tibet Post 
International, 19 February 16; PRC Criminal Law [Zhonghua renmin 
gongheguo xing fa], passed 1 July 79, amended 14 March 97, effective 1 
October 97, amended 25 December 99, 31 August 01, 29 December 01, 28 
December 02, 28 February 05, 29 June 06, 28 February 09, 25 February 
11, 29 August 15, effective 1 November 15, art. 103. For more 
information on Drukar Gyal, see the Commission's Political Prisoner 
Database record 2010-00153.
    \150\ Canadian Journalists for Free Expression et al., ``Free 
Imprisoned Blogger Shokjang, Civil Society Groups Tell Chinese 
Authorities,'' reprinted in Canadian Journalists for Free Expression, 8 
April 16; ``CCP Sentences Tibetan Writer Involved in 2008 Tibetan 
Uprising to Three Years in Prison'' [Zhonggong panchu sheji 2008 nian 
xizang kangbao zangren zuojia sannian tuxing], Tibet Post 
International, 19 February 16.
    \151\ ``CCP Sentences Tibetan Writer Involved in 2008 Tibetan 
Uprising to Three Years in Prison'' [Zhonggong panchu sheji 2008 nian 
xizang kangbao zangren zuojia sannian tuxing], Tibet Post 
International, 19 February 16. See also PRC Compulsory Education Law 
[Zhonghua renmin gongheguo yiwu jiaoyu fa], passed 12 April 86, amended 
29 June 06, effective 1 September 06, art. 29. The PRC Compulsory 
Education Law prohibits corporal punishment in schools.
    \152\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 
1 July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 105.
    \153\ Ibid., art. 111.
    \154\ Rights Defense Network, ``Xinjiang Rights Defender Zhang 
Haitao Sentenced by Urumqi Intermediate Court to 15 Years for `Inciting 
Subversion of State Power' and 5 Years for `Providing Intelligence 
Overseas,' To Serve 19 Years in Total'' [Xinjiang renquan hanweizhe 
zhang haitao bei wulumuqi zhongyuan yi ``shandong dianfu guojia zui'' 
chu youqi tuxing 15 nian, ``wei jingwai tigong qingbao zui'' panchu 
youqi tuxing 5 nian, hebing zhixing 19 nian], 18 January 16; Yaxue Cao, 
``Appeal Begins of Harsh 19-Year Prison Term Given Xinjiang-Based 
Activist Zhang Haitao,'' China Change, 21 February 16. Zhang's sentence 
is divided into 15 years for the ``inciting'' charge and 5 years for 
the ``illegal provision'' charge even though authorities ordered him to 
serve 19 years. For more information on Zhang Haitao, see the 
Commission's Political Prisoner Database record 2015-00343.
    \155\ ``Harshly Sentenced to 19 Years, Zhang Haitao Submits 
`Appeal,' Family Members in Dire Need of Assistance'' [Bei pan 19 nian 
zhongxing de zhang haitao shaochu ``shangsushu'' jiashu jixu jiuzhu], 
Boxun, 31 January 16; Yaxue Cao, ``Appeal Begins of Harsh 19-Year 
Prison Term Given Xinjiang-Based Activist Zhang Haitao,'' China Change, 
21 February 16.
    \156\ ``International PEN Calls for the Immediate Release of Liu 
Xiaobo'' [Guoji bihui yaoqiu liji shifang liu xiaobo], Voice of 
America, 9 December 15; PEN International, ``China: Seven Years After 
His Arrest PEN Writers Urge China To Release Nobel Peace Prize Laureate 
Liu Xiaobo and Wife Liu Xia,'' 8 December 15; PEN American Center, 
``Dear President Xi: A Message From America's Writers,'' 18 September 
15; Yaqiu Wang, ``Amid Crackdown, China's Dissidents Fight To Keep the 
Spirit of Tiananmen Alive,'' World Politics Review, 7 June 16. For more 
information on Liu Xiaobo, see the Commission's Political Prisoner 
Database record 2004-03114.
    \157\ ``International PEN Calls for the Immediate Release of Liu 
Xiaobo'' [Guoji bihui yaoqiu liji shifang liu xiaobo], Voice of 
America, 9 December 15; PEN International, ``China: Seven Years After 
His Arrest PEN Writers Urge China To Release Nobel Peace Prize Laureate 
Liu Xiaobo and Wife Liu Xia,'' 8 December 15; PEN American Center, 
``Dear President Xi: A Message From America's Writers,'' 18 September 
15.
    \158\ ``International PEN Calls for the Immediate Release of Liu 
Xiaobo'' [Guoji bihui yaoqiu liji shifang liu xiaobo], Voice of 
America, 9 December 15; PEN American Center, ``Dear President Xi: A 
Message From America's Writers,'' 18 September 15; ``Five Years On, Liu 
Xiaobo's Wife Stays Silent, Under House Arrest,'' Radio Free Asia, 8 
October 15.
    \159\ Amnesty International, ``Liu Xia,'' 12 November 14; ``Liu 
Xia. A Photographer from China,'' Wall Street International, last 
visited 5 July 16. For more information on Liu Xia, see the 
Commission's Political Prisoner Database record 2010-00629.

                                                Worker Rights
                                                  Worker Rights

                             Worker Rights


                              Introduction

    During the Commission's 2016 reporting year, Chinese law 
continued to restrict workers' rights to freely establish and 
join independent trade unions. Workers' right to collective 
bargaining remained limited, and Chinese law did not protect 
workers' right to strike. In the face of slowing economic 
growth, Chinese firms and government officials warned of 
impending layoffs in troubled sectors. Wages continued to rise 
in China, but workers faced slower wage growth. Chinese 
government officials and international observers reported a 
significant increase in worker actions such as strikes and 
protests, and the majority of these actions involved disputes 
over wage arrears. The situation of labor rights advocates and 
non-governmental organizations (NGOs) has worsened in recent 
years, particularly in Guangdong province, where authorities 
detained over a dozen labor rights advocates and NGO staff, 
arresting four. Labor abuses related to dispatch and intern 
labor, as well as workers above the retirement age, continued. 
According to government data, workplace accidents and deaths 
continued to decline, while reported cases of occupational 
illness increased. International observers continued to express 
concern regarding workplace safety in China.

                              Trade Unions


                  ALL-CHINA FEDERATION OF TRADE UNIONS

    The All-China Federation of Trade Unions (ACFTU) remains 
the only trade union organization permitted under Chinese 
law.\1\ The ACFTU constitution describes the ACFTU as a ``mass 
organization'' \2\ under the leadership of the Chinese 
Communist Party and ``an important social pillar of state 
power.'' \3\ This past year, leading union officials held 
concurrent positions in the Communist Party and government.\4\ 
For example, Li Jianguo, Chairman of the ACFTU, was also Vice 
Chairman of the National People's Congress Standing Committee 
and a member of the Communist Party Central Committee Political 
Bureau.\5\ Chinese labor advocates reported that local trade 
unions rarely stood up for workers' rights and interests.\6\ 
During the reporting year, investigations by international NGOs 
into 10 Chinese factories in Guangdong province found that many 
workers did not know whether or not their factory had a 
union.\7\ Restrictions on workers' rights to freely establish 
and join independent trade unions violate international 
standards set forth by the International Labour Organization 
(ILO),\8\ Universal Declaration of Human Rights,\9\ 
International Covenant on Civil and Political Rights,\10\ and 
International Covenant on Economic, Social and Cultural 
Rights.\11\

                         COLLECTIVE BARGAINING

    Workers' right to collective bargaining remains limited in 
law and in practice. Provisions in the PRC Labor Law, PRC Labor 
Contract Law, and PRC Trade Union Law provide a legal framework 
for negotiating collective contracts,\12\ but these laws 
designate the Party-controlled ACFTU as responsible for 
negotiating with employers and signing collective contracts on 
behalf of workers.\13\ The PRC Trade Union Law requires trade 
unions to ``whole-heartedly serve workers''; \14\ in practice, 
however, the ACFTU and its lower level branches reportedly more 
often represented the interests of government or 
enterprises.\15\ At the enterprise level, union leaders were 
often company managers.\16\ One commentator at the ACFTU-
affiliated Henan Workers' Daily noted that many workers were 
indifferent to collective negotiations because they felt 
enterprise bosses ultimately determined the outcome.\17\ 
Restrictions on collective bargaining violate China's 
obligations as a member of the ILO.\18\

          Impact of Slower Economic Growth on China's Workers

    In 2015, China's economy grew at its slowest rate in 25 
years.\19\ According to the National Bureau of Statistics of 
China, China's rate of GDP growth was 6.9 percent in 2015, 
compared to 7.4 percent in 2014 and 7.7 percent in 2013.\20\ 
Some economists and other observers raised doubts regarding the 
accuracy of China's economic data, suggesting GDP growth in 
2015 may have been even slower.\21\ Slower growth has affected 
sectors of the economy unevenly,\22\ but economic indicators in 
2016 suggested a declining growth rate overall.\23\

                              UNEMPLOYMENT

    In the face of slowing economic growth, Chinese firms and 
government officials warned of impending layoffs. At a February 
2016 press conference, Minister of Human Resources and Social 
Security Yin Weimin predicted firms would need to lay off 
workers in the coming year due to overcapacity, saying that the 
coal and steel industries would likely lay off 1.8 million 
workers.\24\ The director of China's Employment Research 
Institute, Zeng Xiangquan, and others warned of additional 
layoffs, particularly in state-owned enterprises.\25\ Major 
steel and coal enterprises announced plans for layoffs, and 
some workers in these industries had reportedly already lost 
their jobs in recent years.\26\ Employment in manufacturing 
reportedly had declined for 25 consecutive months as of late 
2015, with factories closing or relocating due to slowing 
economic growth and rising wages.\27\ Service sector jobs 
increased in 2015, but these jobs reportedly paid less on 
average than manufacturing jobs.\28\ In the annual work report 
to the National People's Congress in March, Premier Li Keqiang 
pledged 100 billion yuan (US$15 billion) in ``rewards and 
subsidies'' to assist workers laid off due to economic 
restructuring.\29\ Some observers attributed government 
inaction on economic reforms to concerns that unemployment 
could contribute to instability.\30\
    Although the official urban unemployment rate at the end of 
2015 was 4.05 percent,\31\ scholars and economists cautioned 
that official unemployment statistics did not accurately 
reflect realities in the labor market, arguing that the true 
unemployment rate was likely higher than the official 
figure.\32\ Yu Jianrong, Director of the Rural Development 
Institute of the Chinese Academy of Social Sciences, warned of 
``hidden unemployment,'' meaning that many of China's nominally 
employed workers were in reality unemployed or 
underemployed.\33\ The 2010 PRC Social Insurance Law stipulated 
that workers and employers contribute to an unemployment 
insurance fund; \34\ the National Bureau of Statistics of 
China, however, reported that as of late 2015, only around 22 
percent of workers had unemployment insurance.\35\

                                 WAGES

    Wages reportedly continued to rise overall during the 
reporting year, though workers faced slower wage growth, and in 
some cases stagnant or reduced wages. Average overall wage 
growth in 2015 reportedly was 8.4 percent, down from a peak of 
11.6 percent in 2011.\36\ In 2015, 27 provincial-level regions 
and the Shenzhen Special Economic Zone raised minimum wages, 
with an average increase of 14 percent.\37\ This represented a 
smaller increase than the four previous years.\38\ The 
government of Guangdong province, an industrial hub, announced 
it would not raise its minimum wage in 2016 or 2017.\39\ Some 
workers in the steel and manufacturing sectors reported 
receiving lower wages.\40\ The Ministry of Labor and the Vice 
President of the China Association for Labor Studies, Su 
Hainan, reportedly warned local governments to be cautious in 
raising minimum wages.\41\ In February 2015, Finance Minister 
Lou Jiwei argued that in recent years China's wages had grown 
faster than workers' productivity, making Chinese enterprises 
less competitive.\42\ Su Hainan responded in March that while 
wages had increased quickly in recent years, 10 to 20 years ago 
wage growth was slower than productivity growth.\43\ National 
People's Congress delegate Zhang Xiaoqing argued that migrant 
workers' wages should increase further, saying recent increases 
had not kept up with rising prices.\44\

                            SOCIAL INSURANCE

    During the reporting year, workers' rates of social 
insurance coverage remained low,\45\ and the central government 
called for lowering mandatory contribution rates for 
employers.\46\ According to the PRC Social Insurance Law, 
workers are entitled to five forms of social insurance: basic 
pension insurance, medical insurance, work-related injury 
insurance, unemployment insurance, and maternity insurance.\47\ 
Under the law, employers and workers are required to contribute 
to basic pension, medical, and unemployment insurance; in 
addition, employers are required to contribute to work-related 
injury and maternity insurance on workers' behalf.\48\ 
According to statistics from the Ministry of Human Resources 
and Social Security (MOHRSS), while workers' insurance coverage 
rates increased in 2015, they remained low, particularly among 
migrant workers.\49\ For example, MOHRSS figures showed 
employment-based pension insurance coverage rates of 
approximately 46 percent for all workers, and 20 percent for 
migrant workers.\50\ For work-related injury insurance, 
coverage rates were 28 percent for all workers and 3 percent 
for migrant workers.\51\ In addition to low levels of coverage, 
experts also noted that many migrants face difficulties 
transferring their social insurance benefits after moving to 
new jurisdictions.\52\ During the reporting year, the central 
government called on local governments to reduce social 
insurance costs for employers by gradually lowering 
contribution rates,\53\ and as of June 2016, at least 16 
province-level jurisdictions reportedly had done so.\54\

                             Worker Actions

    Chinese government officials and international observers 
reported a significant increase in worker actions such as 
strikes and protests during the reporting year.\55\ In a 
December 2015 article in the Party-run People's Daily, Minister 
of Human Resources and Social Security Yin Weimin wrote that 
labor relations conflicts had become more prominent and more 
frequent.\56\ The Hong Kong-based non-profit organization China 
Labour Bulletin (CLB),\57\ which compiles data on worker 
actions gathered from traditional and social media,\58\ 
reported increasing numbers of worker strikes and protests in 
2015.\59\ Although some of the observed increase may have been 
due to better data collection,\60\ CLB documented 2,773 worker 
actions in 2015, more than double the total from 2014.\61\
    During 2015, a majority of worker actions reportedly 
involved disputes over wage arrears. According to CLB data, 
wage arrears-related worker actions accounted for 76 percent of 
all strikes and protests in 2015, compared to 52 percent in 
2014 and 25 percent in 2013.\62\ People's Daily reported 11,007 
``sudden incidents'' (tufa shijian) \63\ regarding migrant 
workers' wage arrears in the third quarter of 2015, a 34-
percent increase from the third quarter of 2014.\64\ The 
Wickedonna blog, which, until authorities detained its 
administrators, collected information on protests in China,\65\ 
documented 9,107 wage arrears-related protests--the single 
biggest cause of protests in China in 2015--accounting for 31.5 
percent of all protests documented on their website.\66\ 
According to commentary in People's Daily, wage arrears were a 
common problem for migrant workers.\67\
    According to CLB, worker actions related to layoffs, though 
far fewer, reportedly increased in 2015, accounting for 6 
percent of worker actions, compared to 3 percent in 2014 and 1 
percent in 2013.\68\ The proportion of worker actions over 
unpaid social insurance contributions decreased slightly in 
2015, accounting for 6 percent of worker actions compared to 8 
percent in 2014 and 7 percent in 2013.\69\ The Wickedonna blog 
documented 193 protests demanding unemployment compensation and 
101 protests over unpaid social insurance benefits.\70\
    CLB data showed that the proportion of worker actions in 
the manufacturing sector decreased in 2015 compared to previous 
years, while the proportion of worker actions in construction 
increased significantly in both 2014 and 2015.\71\ The 
Wickedonna blog similarly reported that construction workers' 
protests accounted for the largest number of worker 
protests.\72\ According to the State Council, wage arrears are 
a notable problem within the construction sector.\73\

 
----------------------------------------------------------------------------------------------------------------
                                                           Involving
 Year      Total      Involving Wage      Involving          Social         Manufacturing        Construction
                          Arrears          Layoffs         Insurance            Sector              Sector
----------------------------------------------------------------------------------------------------------------
2013   656           161 (25%)         8 (1%)           49 (8%)          280 (43%)            20 (3%)
----------------------------------------------------------------------------------------------------------------
2014   1,379         719 (52%)         47 (3%)          110 (8%)         559 (41%)            256 (19%)
----------------------------------------------------------------------------------------------------------------
2015   2,773         2,108 (76%)       153 (6%)         158 (6%)         885 (32%)            993 (36%)
----------------------------------------------------------------------------------------------------------------
Source: China Labour Bulletin as of June 2016. Note that percentages indicate percentage of total worker actions
  for that year.

    Government responses to worker strikes and protests were 
mixed. In some cases, worker actions resulted in local branches 
of the All-China Federation of Trade Unions (ACFTU) and 
governments offering support, compensation, or concessions to 
workers.\75\ In other cases, however, local governments 
reportedly responded to worker actions by sending police, 
detaining protesters, and physically assaulting workers.\76\ In 
one instance in March 2016, a court in Langzhong city, Nanchong 
municipality, Sichuan province, held a public sentencing 
``rally'' for eight workers.\77\ The court sentenced them to 
six to eight months in prison for their role in a protest over 
unpaid wages.\78\ According to CLB data, in 2015, police 
responded to about 30 percent of all worker actions, and 
authorities detained participants in about 7 percent of all 
worker actions.\79\ Chinese law does not protect workers' right 
to strike, in violation of the International Covenant on 
Economic, Social and Cultural Rights.\80\
    Selected worker actions this past year included the 
following:

        <bullet> Shenzhen Special Economic Zone, Guangdong 
        province. In October 2015, the Shenzhen Fu Chang 
        Electronic Technology Company (Fu Chang) shut down.\81\ 
        Fu Chang issued a statement to workers and suppliers 
        announcing its closure and citing legal and financial 
        troubles but did not offer severance pay to laid-off 
        workers.\82\ For several days, over 1,000 workers and 
        suppliers reportedly gathered outside Fu Chang's gates 
        demanding compensation.\83\ The Wall Street Journal 
        reported that Fu Chang eventually offered some 
        compensation to the workers, though some remained 
        dissatisfied with the settlement.\84\
        <bullet> Guangzhou municipality, Guangdong province. In 
        late September 2015, a labor dispatch agency providing 
        sanitation workers to a local government informed its 
        employees that they would be required to resign their 
        positions and instead work in another district of 
        Guangzhou.\85\ The workers refused to resign without 
        severance pay, and when the company ignored their 
        demands, the workers gathered at the local garbage 
        collection center in protest.\86\ Local authorities 
        organized negotiations between the company and the 
        workers' elected representatives.\87\ The dispatch 
        company agreed to give the workers severance pay, and 
        the local government's new contractor agreed to hire 
        the sanitation workers under direct contracts rather 
        than as dispatch laborers.\88\ [For more information, 
        see Dispatch Labor in this section.]
        <bullet> Shuangyashan municipality, Heilongjiang 
        province. On March 6, 2016, while discussing reforms to 
        Heilongjiang's largest state-owned enterprise, Longmay 
        Group (Longmay), Governor of Heilongjiang Lu Hao 
        claimed Longmay had not missed wage payments to the 
        coal mining company's 80,000 underground workers.\89\ 
        Beginning March 9, at least 1,000 workers across 
        Shuangyashan protested for about six days, criticizing 
        Lu Hao and demanding their unpaid wages.\90\ Workers 
        reported large wage cuts, and some said Longmay had not 
        paid them for months.\91\ On March 13, Lu Hao admitted 
        his mistake to Chinese media, and by March 15 Longmay 
        reportedly began issuing some payments to workers.\92\ 
        Following the protests, local authorities reportedly 
        detained some of the participants, and international 
        media reported a large police presence in 
        Shuangyashan.\93\

                             Civil Society

    The situation of labor rights advocates and non-
governmental organizations (NGOs) has worsened in recent years, 
particularly in Guangdong province, a manufacturing hub and 
home to many of China's labor NGOs.\94\ The Financial Times 
reported in March 2015 that over 30 grassroots labor NGOs 
operated in the Pearl River Delta region of Guangdong.\95\ 
These NGOs helped injured workers seek compensation, provided 
educational and other services to migrant workers, and trained 
workers in collective bargaining and defending their legal 
rights.\96\ Authorities have long subjected labor NGOs to 
various forms of harassment,\97\ but labor rights advocates 
reported increased pressure from authorities beginning in late 
2014.\98\ For example, labor NGO staff noted greater 
difficulties registering their organizations and increased 
restrictions on foreign funding.\99\ Unidentified assailants 
beat labor advocates Zeng Feiyang in December 2014 \100\ and 
Peng Jiayong in April 2015.\101\
    In December 2015, Guangdong authorities began a crackdown 
on labor NGO staff that domestic and international observers 
described as ``unprecedented'' and ``more serious'' than 
previous actions.\102\ [See box titled Detentions of Labor NGO 
Staff in Guangdong Province on next page.] Following the 
detention of staff from several labor NGOs in December 2015, 
Guangdong authorities reportedly threatened other labor NGO 
personnel with arrest, and many labor NGOs shut down.\103\ 
Chinese rights advocates and international observers noted that 
government suppression of a wide range of rights advocacy 
groups has intensified in recent years.\104\ The Chinese 
government's restrictions on labor NGOs contravene 
international standards on freedom of association, including 
Articles 20 and 23 of the Universal Declaration of Human 
Rights, Article 22 of the International Covenant on Civil and 
Political Rights, and Article 2(a) of the ILO Declaration on 
Fundamental Principles and Rights at Work.\105\ [For more 
information on NGOs in China and the crackdown on rights 
advocacy groups, see Section III--Civil Society.]

------------------------------------------------------------------------
           Detentions of Labor NGO Staff in Guangdong Province
-------------------------------------------------------------------------
  On December 3, 2015, public security officials in Guangzhou and Foshan
 municipalities detained at least 18 labor rights advocates affiliated
 with several labor NGOs.\106\ According to the international advocacy
 NGO Rights Defense Network (RDN), local police criminally detained Zeng
 Feiyang, Zhu Xiaomei, He Xiaobo, Peng Jiayong, and Deng Xiaoming, and
 took Meng Han into custody.\107\ Authorities also reportedly detained
 Tang Jian in Beijing municipality on December 4.\108\ All seven were
 current or former employees of Guangdong-based labor NGOs.\109\ As of
 January 8, 2016, procuratorates in Panyu district, Guangzhou, and
 Foshan had approved the arrests of Zeng, Zhu, and Meng for ``gathering
 a crowd to disturb social order'' \110\ and He for ``embezzlement.''
 \111\ Authorities released Deng and Peng on bail on January 9, Zhu on
 bail on February 1, and He on bail on April 7.\112\ On January 31, Tang
 reportedly announced his release from detention via social media.\113\
 By releasing Deng, Peng, Zhu, and He on bail (qubao houshen or
 ``guarantee pending further investigation''), authorities may continue
 to restrict their freedom of movement, summon them for further
 questioning, and monitor them for up to 12 months.\114\ In June, the
 Panyu District People's Procuratorate reportedly began reviewing the
 cases of Zeng, Zhu, Meng, and Tang in preparation for a possible trial,
 but, as of August, the Commission had not observed further news
 regarding the status of these cases.\115\
  According to Chinese and international observers, authorities targeted
 these individuals due to their labor rights advocacy and ties to
 NGOs.\116\ Radio Free Asia (RFA) quoted one labor rights advocate who
 said authorities seemed to be focusing on the NGO Panyu Workers'
 Services Center (Panyu), an organization established in 1998.\117\ A
 December 22, 2015, article by the state-run news agency Xinhua accused
 Panyu's director Zeng Feiyang of taking money from workers and
 mismanaging funds.\118\ The article claimed Panyu was an ``illegal
 organization'' that had received foreign funding, ``seriously disturbed
 social order,'' and ``trampled on the rights and interests of
 workers.'' \119\ Several workers disputed the Xinhua report, saying
 that Zeng had never taken their money.\120\ One labor advocate said to
 RFA, ``The labor movement and Zeng Feiyang [were] doing what the ACFTU
 should have done.'' \121\
------------------------------------------------------------------------

                              Labor Abuses


                              CHILD LABOR

    This past year, the Commission continued to observe reports 
of the use of child labor in China.\122\ Domestic laws 
generally prohibit the employment of minors under 16,\123\ and 
China has ratified the two fundamental International Labour 
Organization (ILO) conventions on the elimination of child 
labor.\124\ Yet, a June 2016 report by the Center for Child 
Rights & Corporate Social Responsibility found that 71 percent 
of auditors surveyed in China had observed suspected cases of 
child labor in the past two years.\125\ In April, official 
media reported that a 14-year-old factory worker in Foshan 
municipality, Guangdong, died in his sleep.\126\ In August, 
authorities in Zhuji city, Shaoxing municipality, Zhejiang 
province, reportedly approved the arrest of an employer who had 
forced at least eight children to work for years making 
socks.\127\ The ILO Country Office for China and Mongolia noted 
that the Chinese government has not released official 
statistics on child labor in China, nor has it reported any 
cases to the ILO.\128\

                             DISPATCH LABOR

    The Commission continued to observe reports of the over-
reliance on and misuse of dispatch labor during the reporting 
year, in violation of domestic laws and regulations \129\ meant 
to prevent such abuses. Firms have long used dispatch labor 
(laowu paiqian)--workers hired through subcontracting 
agencies--to cut costs.\130\ The PRC Labor Contract Law 
stipulates that dispatch workers be paid the same as full-time 
workers doing similar work, and only perform work on a 
temporary, auxiliary, or substitute basis.\131\ The 2014 
Interim Provisions on Dispatch Labor further require that 
dispatch labor make up no more than 10 percent of a firm's 
total workforce by March 2016.\132\ In March 2016, however, 
Vice President of the China Association for Labor Studies Su 
Hainan noted that some enterprises were getting around these 
new rules by firing dispatch workers and instead using 
``outsourced'' labor,\133\ another form of subcontracted 
labor.\134\
    Chinese media reports detailed multiple cases of 
enterprises violating the PRC Labor Contract Law and the 2014 
interim provisions by allowing dispatch workers to exceed 10 
percent of the workforce or perform the work of permanent 
employees.\135\ An investigation published in October 2015 by 
the U.S.-based non-governmental organization China Labor Watch 
and Norway-based environmental organization The Future in Our 
Hands found that roughly half of the tens of thousands of 
employees at a major electronics manufacturer were dispatch 
workers.\136\ In one case in December 2015, a group of 
protesting railway workers said they had been ``temporary'' 
employees for over 20 years.\137\

                              INTERN LABOR

    During the reporting year, reports continued to emerge of 
labor abuses involving interns.\138\ In October 2015, the 
Danish NGO Danwatch issued a report on vocational student 
interns working on assembly lines at Wistron Corporation 
(Wistron) in Zhongshan municipality, Guangdong, which 
manufactures computer servers for several large technology 
companies.\139\ Danwatch found that interns were performing 
assembly line work unrelated to their studies and that interns 
often worked more than the legal limit of eight hours per 
day.\140\ Some students told Danwatch that if they refused to 
intern with Wistron, they would not be allowed to 
graduate.\141\ In December 2015, a former employee of the ride-
hailing company Uber alleged the company relied on low-paid 
interns working long hours in its office in Guangzhou 
municipality, Guangdong.\142\ A former Uber intern in Tianjin 
municipality made similar accusations, telling a reporter that 
interns far outnumbered employees in the Tianjin office, and 
that interns worked more than eight hours per day.\143\
    Although regulations governing intern labor vary by 
locality,\144\ the PRC Education Law encourages work-study 
programs provided they do not interfere with students' 
education.\145\ In 2007, the Ministries of Education and 
Finance issued regulations defining internships as relevant to 
students' plans of study and prohibiting interns from working 
more than eight hours per day.\146\ In April 2016, the Ministry 
of Education and several other central government entities 
jointly issued additional regulations on vocational school 
interns.\147\ The regulations stipulate that interns doing the 
work of regular employees may not exceed 10 percent of a 
workplace's total employees, and task vocational schools with 
ensuring that workplaces accepting interns comply with relevant 
laws and regulations.\148\

                    WORKERS ABOVE THE RETIREMENT AGE

    During the reporting year, Chinese workers above the legal 
retirement age \149\ continued to enjoy fewer legal protections 
than other workers under Chinese law.\150\ According to the PRC 
Labor Contract Law and the law's implementing regulations, once 
workers reach retirement age or receive pensions their labor 
contracts should be terminated.\151\ A 2010 Supreme People's 
Court interpretation stated that when handling disputes between 
employers and workers who received pensions, the courts should 
treat the two sides as having a ``labor service relationship'' 
(laowu guanxi).\152\ Workers above the retirement age with 
``labor service contracts'' (laowu hetong) reportedly received 
fewer legal protections and benefits than typical workers.\153\ 
China Labour Bulletin (CLB) reported that workers above the 
retirement age often faced difficulty obtaining compensation 
and other benefits due to their status as labor service 
providers.\154\ According to the Supreme People's Court 
Research Office, while court cases involving labor disputes 
increased roughly 25 percent in 2015, court cases involving 
labor service contract disputes increased nearly 39 percent in 
2015.\155\

                     Occupational Health and Safety

    This past year, government data showed continued declines 
in workplace accidents and deaths, while reported cases of 
occupational illness increased. The State Administration of 
Work Safety (SAWS) reported in January 2016 that workplace 
accidents and deaths declined 7.9 and 2.8 percent, 
respectively, in 2015 compared to 2014.\156\ SAWS reported that 
accidents and deaths in the coal industry decreased 32.3 and 
36.8 percent, respectively, during the same period.\157\ Coal 
industry accidents reportedly declined in recent years as coal 
production fell and the government shut down smaller, more 
dangerous mines.\158\ According to CLB, the construction 
industry had the largest number of accidents in 2015, though 
these accidents caused relatively few deaths.\159\ In December 
2015, the National Health and Family Planning Commission 
released statistics on occupational illnesses for 2014, finding 
that total reported cases of occupational illness increased 
13.6 percent in 2014 compared to 2013.\160\ Pneumoconiosis 
accounted for roughly 90 percent of all cases of occupational 
illness, with 26,873 reported cases in 2014, a 16.1-percent 
increase from 2013.\161\ The Party-run Workers' Daily reported 
that pneumoconiosis sufferers found applying for compensation 
difficult and expensive, with long wait times and few 
applicants successfully obtaining compensation.\162\
    Despite relevant laws and regulations,\163\ international 
observers continued to express concern regarding workplace 
safety in China.\164\ Central government agencies issued 
several regulations regarding occupational health and safety 
during the reporting year,\165\ and SAWS released for public 
comment a second draft of implementing regulations for the PRC 
Work Safety Law in November 2015.\166\ Nevertheless, CLB 
specifically identified lax enforcement of safety regulations 
in the coal industry as well as poorly constructed factories in 
areas prone to tornadoes.\167\ China Labor Watch investigations 
into toy and kitchenware factories found inadequate fire safety 
measures and failures to provide sufficient protective 
equipment.\168\ International labor NGOs reported that 
employers often provided little or no safety training for new 
employees, despite Chinese regulations requiring a minimum of 
24 hours' pre-employment safety training.\169\

                                                  Worker Rights
                                                Worker Rights
    Notes to Section II--Worker Rights

    \1\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
passed and effective 3 April 92, amended 27 October 01, arts. 9-11; `` 
`They Tore Through Everything': Labour Activists Increasingly Targeted 
in Civil Rights Crackdown in China, Say Supporters,'' Agence France-
Presse, reprinted in South China Morning Post, 30 May 16; Zhang Yu, 
``Chinese Activists Struggle To Establish Independent Trade Unions,'' 
Global Times, 2 December 15. See also UN Committee on Economic, Social 
and Cultural Rights, Concluding Observations on the Second Periodic 
Report of China, including Hong Kong, China and Macao, China, adopted 
by the Committee at its 40th Meeting (23 May 2014), E/C.12/CHN/CO/2, 13 
June 14, para. 23.
    \2\ Embassy of the People's Republic of China in the Federal 
Democratic Republic of Nepal, ``Major Mass Organizations,'' 27 October 
04; Anthony J. Spires, ``Contingent Symbiosis and Civil Society in an 
Authoritarian State: Understanding the Survival of China's Grassroots 
NGOs,'' American Journal of Sociology, Vol. 117, No. 1 (July 2011), 9; 
Karla Simon, Civil Society in China: The Legal Framework From Ancient 
Times to the ``New Reform Era'' (New York: Oxford University Press, 
2013), 167-74. ``Mass organizations'' are organizations under the 
Chinese Communist Party such as the All-China Women's Federation, 
Communist Youth League of China, and All-China Federation of Industry 
and Commerce. The Chinese embassy in Nepal described these 
organizations as ``a bridge linking the CPC [Communist Party of China] 
and government with the people.'' According to scholar Anthony J. 
Spires, in practice ``mass organizations'' have functioned as ``one-way 
conduits for instructions from the top to the bottom.''
    \3\ Constitution of the Chinese Trade Unions [Zhongguo gonghui 
zhangcheng], issued 22 October 13, General Principles.
    \4\ ``Liu Guozhong, All-China Federation of Trade Unions Vice 
Chairman, Secretary of the Secretariat'' [Liu guozhong quanguo zong 
gonghui fu zhuxi, shujichu shuji], All-China Federation of Trade 
Unions, last visited 15 April 16; ``Guangdong Provincial Federation of 
Trade Unions Convenes Third Meeting of the Thirteenth Full Committee in 
Guangzhou'' [Guangdong sheng zong gonghui shisan jie san ci quanweihui 
zai sui zhaokai], Southern Worker, reprinted in Guangzhou Municipal 
Federation of Trade Unions, 7 March 16; ``Chengdu Trade Unions'' 
[Chengdu gonghui], Chengdu Municipal Federation of Trade Unions, last 
visited 9 March 16.
    \5\ ``Li Jianguo, Chairman of the All-China Federation of Trade 
Unions'' [Li jianguo quanguo zong gonghui zhuxi], All-China Federation 
of Trade Unions, last visited 9 March 16.
    \6\ Rights Defense Network, ``Letter From Labor and Other Sectors 
to CPC, NPC, and State Council on Strike Hard Campaign Against 
Guangdong Labor NGO Employees'' [Zhongguo laogong jie he shehui ge jie 
renshi jiu guangdong laogong NGO gongzuozhe zaoyu yanli daji zhi 
zhonggong zhongyang, quanguo renda, guowuyuan yijian shu], 11 December 
15; ``Chinese Workers at Walmart Campaign for Higher Wages, Union 
Elections,'' Radio Free Asia, 11 November 15; ``Guangdong Labor NGOs 
`Were Doing the Job of a Trade Union': Activists,'' Radio Free Asia, 23 
December 15.
    \7\ China Labor Watch and Solidar Suisse, ``Dirty Frying Pans,'' 4 
February 16, 2-3, 19, 36, 44, 57, 71; China Labor Watch, ``The Other 
Side of Fairy Tales,'' 20 November 15, 2, 14, 32, 48, 68, 94.
    \8\ International Labour Organization, ILO Convention (No. 87) 
Concerning Freedom of Association and Protection of the Right To 
Organise, 4 July 50, arts. 2, 3, 5.
    \9\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
23(4).
    \10\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 22(1); United Nations Treaty 
Collection, Chapter IV, Human Rights, International Covenant on Civil 
and Political Rights, last visited 20 May 16. China has signed but not 
ratified the ICCPR.
    \11\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 8.1; United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Economic, Social and Cultural Rights, last visited 11 March 16. China 
has signed and ratified the ICESCR.
    \12\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, arts. 16-35; PRC Labor Contract Law 
[Zhonghua renmin gongheguo laodong hetong fa], passed 29 June 07, 
amended 28 December 12, effective 1 July 13, arts. 51-56; PRC Trade 
Union Law [Zhonghua renmin gongheguo gonghui fa], passed and effective 
3 April 92, amended 27 October 01, arts. 6, 20.
    \13\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, art. 33; PRC Labor Contract Law 
[Zhonghua renmin gongheguo laodong hetong fa], passed 29 June 07, 
amended 28 December 12, effective 1 July 13, arts. 6, 51, 56; PRC Trade 
Union Law [Zhonghua renmin gongheguo gonghui fa], passed and effective 
3 April 92, amended 27 October 01, arts. 6, 20.
    \14\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
passed and effective 3 April 92, amended 27 October 01, art. 6.
    \15\ ``Chinese Workers at Walmart Campaign for Higher Wages, Union 
Elections,'' Radio Free Asia, 11 November 15; Shawn Shieh, ``The Fight 
Against Inequality: Martin Luther King and China's Labor Activists,'' 
NGOs in China (blog), 29 February 16; Anita Chan, ``The Chinese Trade 
Union Federation at the Crossroads--Relaxing Control Over Labour or 
Risking Labour Instability? '' in China at the Crossroads: What the 
Third Plenum Means for China, New Zealand and the World, ed. Peter 
Harris (Wellington: Victoria University Press, 2015), 64-71.
    \16\ `` `They Tore Through Everything': Labour Activists 
Increasingly Targeted in Civil Rights Crackdown in China, Say 
Supporters,'' Agence France-Presse, reprinted in South China Morning 
Post, 30 May 16; China Labor Watch and Solidar Suisse, ``Dirty Frying 
Pans,'' 4 February 16, 19; China Labour Bulletin, ``Increasingly Angry 
Workers in Chongqing Take to the Streets Once Again,'' 4 March 16.
    \17\ Jin Bei, ``Workers Should See the Importance of Collective 
Wage Negotiations'' [Laodongzhe ying zhongshi gongzi jiti xieshang], 
Henan Workers' Daily, 25 February 16.
    \18\ International Labour Organization, ILO Declaration on 
Fundamental Principles and Rights at Work and Its Follow-Up, 18 June 
98, art. 2(a). Article 2 of the ILO Declaration on Fundamental 
Principles and Rights at Work states that ``all Members, even if they 
have not ratified the Conventions in question, have an obligation 
arising from the very fact of membership in the Organization to 
respect, to promote and to realize, in good faith and in accordance 
with the Constitution, the principles concerning the fundamental rights 
which are the subject of those Conventions, namely: (a) freedom of 
association and the effective recognition of the right to collective 
bargaining . . ..'' International Labour Organization, ``China,'' 
NORMLEX Information System on International Labour Standards, last 
visited 14 March 16. China became a member of the ILO in 1919.
    \19\ Mark Magnier, ``China's Economic Growth in 2015 Is Slowest in 
25 Years,'' Wall Street Journal, 19 January 16; ``China Economic Growth 
Slowest in 25 Years,'' BBC, 19 January 16; International Labour 
Organization, ``ILO World Employment and Social Outlook (WESO)--Trends 
2016,'' 20 January 16.
    \20\ National Bureau of Statistics of China, ``National Economy 
Achieved Steady Progress in 2015'' [2015 nian guomin jingji yunxing 
wenzhong youjin, wenzhong youhao], 19 January 16; National Bureau of 
Statistics of China, ``2014 National Economy Running Smoothly Under the 
New Normal'' [2014 nian guomin jingji zai xin changtai xia pingwen 
yunxing], 20 January 15; National Bureau of Statistics of China, ``2013 
National Economy Development Stable and Improved'' [2013 nian guomin 
jingji fazhan wenzhong xianghao], 20 January 14.
    \21\ See, e.g., Andreas Illmer, ``China's Growth Data-Can You Trust 
It? '' BBC, 19 January 16; Edward Wong and Neil Gough, ``As China's 
Economic Picture Turns Uglier, Beijing Applies Airbrush,'' New York 
Times, 25 February 16; Mike Bird and David Scutt, ``Why Economists 
Don't Trust China's GDP Figures,'' Business Insider, 19 October 15. See 
also ``Inspection Team Alarmed That Many Northeastern Localities 
Fabricated GDP, Size of County Economies Exceeds Hong Kong'' [Dongbei 
duo di GDP zaojia jingdong xunshi zu xianyu jingji guimo chao 
xianggang], Beijing News, 11 December 15.
    \22\ ``China's Two-Speed Economy Stays Intact as Factories Slump, 
Services Gain,'' Bloomberg, 4 January 16; Mandy Zuo and Zhou Xin, ``The 
Hidden Cracks in China's Employment Figures,'' South China Morning 
Post, 25 January 16.
    \23\ See, e.g., Caixin and Markit, ``China General Services PMI 
Chinese Service Sector Expands at Weaker Pace in February,'' 3 March 
16; Duncan Hewitt, ``Fear of Slowing Economic Growth in China Spreads 
to Prosperous Pearl River Delta Region,'' International Business Times, 
22 December 15.
    \24\ ``Record of February 29 Ministry of Human Resources and Social 
Security Press Conference'' [Renshebu 2 yue 29 ri fabuhui shilu], China 
Internet Information Center, reprinted in Sina, 29 February 16. For 
more information on overcapacity in the Chinese economy, see European 
Union Chamber of Commerce in China, ``Overcapacity in China: An 
Impediment to the Party's Reform Agenda,'' 22 February 16.
    \25\ ``Expert Says China May See a Second Wave of Lay-Offs,'' 
People's Daily, 11 November 15; Benjamin Kang Lim et al., ``Exclusive: 
China To Lay Off Five to Six Million Workers, Earmarks at Least $23 
Billion,'' Reuters, 3 March 16.
    \26\ Duncan Hewitt, ``China Miners' Strike Highlights Challenges 
for Government in Reducing Overcapacity in Loss-Making Industries,'' 
International Business Times, 14 March 16; ``Death and Despair in 
China's Rustbelt,'' Bloomberg, 1 March 16; Tom Phillips, ``Glory Days 
of Chinese Steel Leave Behind Abandoned Mills and Broken Lives,'' 
Guardian, 21 January 16.
    \27\ Mark Magnier, ``China's Workers Are Fighting Back as Economic 
Dream Fades,'' Wall Street Journal, 14 December 15; Duncan Hewitt, 
``Fear of Slowing Economic Growth in China Spreads to Prosperous Pearl 
River Delta Region,'' International Business Times, 22 December 15; 
Mandy Zuo and Zhou Xin, ``The Hidden Cracks in China's Employment 
Figures,'' South China Morning Post, 25 January 16; Yu Nakamura, 
``China's Manufacturing Hub To Freeze Minimum Wage,'' Nikkei Asian 
Review, 8 March 16; Simon Denyer, ``Strikes and Workers' Protests 
Multiply in China, Testing Party Authority,'' Washington Post, 25 
February 16.
    \28\ ``Record of February 29 Ministry of Human Resources and Social 
Security Press Conference'' [Renshebu 2 yue 29 ri fabuhui shilu], China 
Internet Information Center, reprinted in Sina, 29 February 16; Brenda 
Goh, ``China Shifts Axed Miners to Lower-Paid Jobs in Farming, 
Cleaning,'' Reuters, 20 March 16; Duncan Hewitt, ``Fear of Slowing 
Economic Growth in China Spreads to Prosperous Pearl River Delta 
Region,'' International Business Times, 22 December 15.
    \29\ State Council, ``Government Work Report'' [Zhengfu gongzuo 
baogao], 5 March 15. See also Ministry of Human Resources and Social 
Security et al., Opinion on Resettling Workers in the Process of 
Resolving Steel and Coal Sector Overcapacity and Turning Around 
Development [Renli ziyuan shehui baozhangbu guojia fazhan gaigewei deng 
qi bumen guanyu zai huajie gangtie meitan hangye guosheng channeng 
shixian tuokun fazhan guocheng zhong zuo hao zhigong anzhi gongzuo de 
yijian], issued 7 April 16.
    \30\ Elizabeth C. Economy, ``The Fits and Starts of China's 
Economic Reforms,'' Council on Foreign Relations, Asia Unbound (blog), 
25 January 16; William Ide and Saibal Dasgupta, ``Worries About China's 
Economic Reform Progress Grow,'' Voice of America, 10 March 16; George 
Magnus, ``Should We Be Worried by Economic Warnings of a Bear in the 
China Shop? '' Guardian, 20 January 16.
    \31\ ``Record of February 29 Ministry of Human Resources and Social 
Security Press Conference'' [Renshebu 2 yue 29 ri fabuhui shilu], China 
Internet Information Center, reprinted in Sina, 29 February 16.
    \32\ Fathom Consulting, ``News in Charts: China's Hidden 
Unemployment Problem,'' Thomson Reuters, 3 June 16; Zhang Jun, ``The 
Truth About Chinese Unemployment Rates,'' Project Syndicate, 14 April 
16; Yu Jianrong, ``Worries Underlying China's Hidden Unemployment 
Problem'' [Zhongguo yinxing shiye wenti yinyou], People's Tribune, 18 
January 16. For more information on the unreliability of China's 
official unemployment statistics, see Shuaizhang Feng et al., ``Long 
Run Trends in Unemployment and Labor Force Participation in China,'' 
National Bureau of Economic Research, Working Paper 21460, August 2015.
    \33\ Yu Jianrong, ``Worries Underlying China's Hidden Unemployment 
Problem'' [Zhongguo yinxing shiye wenti yinyou], People's Tribune, 18 
January 16.
    \34\ PRC Social Insurance Law [Zhonghua renmin gongheguo shehui 
baoxian fa], passed 28 October 10, effective 1 July 11, art. 44.
    \35\ National Bureau of Statistics of China, ``2015 National 
Economic and Social Development Statistics Bulletin'' [2015 nian guomin 
jingji he shehui fazhan tongji gongbao], 29 February 16. See also China 
Labour Bulletin, ``China's Social Security System,'' last visited 6 
June 16.
    \36\ Li Tangning, ``28 Regions Raise Minimum Wage, Average Increase 
Around 14 Percent'' [28 diqu tigao zuidi gongzi biaozhun pingjun zengfu 
yue 14%], Economic Information Daily, 29 December 15.
    \37\ Ibid.
    \38\ Ibid. The average increase in minimum wages reportedly was 22 
percent in 2011, 20.2 percent in 2012, 17 percent in 2013, and 14.1 
percent in 2014.
    \39\ Guangdong Provincial People's Government, Guangdong Province 
Supply-Side Structural Reforms Action Plan on Reducing Costs (2016-
2018) [Guangdong sheng gongji ce jiegou xing gaige jiang chengben 
xingdong jihua (2016-2018 nian)], issued 28 February 16, item 2(2)1; 
Wang Jing, ``Guangdong Province Will Freeze Minimum Wage for Two 
Years'' [Guangdong sheng jiang lianxu liang nian bu tiaozheng zuidi 
gongzi biaozhun], Caixin, 2 March 16; Peter Wong, ``How China's Pearl 
River Delta Went From the World's Factory Floor to a Hi-Tech Hub,'' 
South China Morning Post, 6 October 15; Lisa Jucca, ``HSBC Renews Push 
in China's Pearl River Delta With Train Sponsorship,'' Reuters, 6 April 
16.
    \40\ Tom Phillips, ``Glory Days of Chinese Steel Leave Behind 
Abandoned Mills and Broken Lives,'' Guardian, 21 January 16; Simon 
Denyer, ``Strikes and Workers' Protests Multiply in China, Testing 
Party Authority,'' Washington Post, 25 February 16.
    \41\ Chun Han Wong, ``China May Rein in Wage Rises To Boost 
Economy,'' Wall Street Journal, 10 March 16; Li Tangning, ``28 Regions 
Raise Minimum Wage, Average Increase Around 14 Percent'' [28 diqu tigao 
zuidi gongzi biaozhun pingjun zengfu yue 14%], Economic Information 
Daily, 29 December 15.
    \42\ Wang Jing, ``Guangdong Province Will Freeze Minimum Wage for 
Two Years'' [Guangdong sheng jiang lianxu liang nian bu tiaozheng zuidi 
gongzi biaozhun], Caixin, 2 March 16.
    \43\ Zhang Moning, ``Renewed Debate Over `Labor Contract Law' '' 
[``Laodong hetong fa'' zhengyi zaiqi], South Reviews, 16 March 16.
    \44\ Guo Chao et al., ``Lou Jiwei: Current Labor Contract Law Does 
Not Suit Flexible Employment'' [Lou jiwei: xianxing laodong hetong fa 
bu shihe linghuo yonggong], Beijing News, 8 March 16.
    \45\ For information on workers' low levels of social insurance 
coverage in previous reporting years, see CECC, 2015 Annual Report, 8 
October 15, 87-88; CECC, 2014 Annual Report, 9 October 14, 75; CECC, 
2013 Annual Report, 10 October 13, 69-70.
    \46\ Ministry of Human Resources and Social Security and Ministry 
of Finance, Circular on Gradually Reducing Social Insurance Rates 
[Renli ziyuan shehui baozhangbu caizhengbu guanyu jieduanxing jiangdi 
shehui baoxian feilu de tongzhi], issued 14 April 16.
    \47\ PRC Social Insurance Law [Zhonghua renmin gongheguo shehui 
baoxian fa], passed 28 October 10, effective 1 July 11, arts. 1-4.
    \48\ Ibid., arts. 10, 23, 33, 44, 53. See also China Labour 
Bulletin, ``China's Social Security System,'' last visited 19 August 
16.
    \49\ Ministry of Human Resources and Social Security, ``2015 Annual 
Statistics Bulletin on Human Resources and Social Security 
Developments'' [2015 niandu renli ziyuan he shehui baozhang shiye 
fazhan tongji gongbao], 30 May 16, secs. 1-2. See also Li Zewei, ``All-
China Federation of Trade Unions Vice Chair: Hopes Migrant Workers Can 
Also Receive Pensions'' [Quanguo zonggong hui fu zhuxi: xiwang nenggou 
wei nongmingong ye shang yanglao baoxian], Beijing Youth Daily, 4 March 
16; Guo Chao et al., ``Lou Jiwei: Current Labor Contract Law Does Not 
Suit Flexible Employment'' [Lou jiwei: xianxing laodong hetong fa bu 
shihe linghuo yonggong], Beijing News, 8 March 16.
    \50\ Ministry of Human Resources and Social Security, ``2015 Annual 
Statistics Bulletin on Human Resources and Social Security 
Developments'' [2015 niandu renli ziyuan he shehui baozhang shiye 
fazhan tongji gongbao], 30 May 16, secs. 1-2.
    \51\ Ibid.
    \52\ Min Qin et al., ``Old Age Insurance Participation Among Rural-
Urban Migrants in China,'' Demographic Research, Vol. 33 (13 November 
15), 1059-60; China Labour Bulletin, ``China's Social Security 
System,'' last visited 19 August 16.
    \53\ Ministry of Human Resources and Social Security and Ministry 
of Finance, Circular on Gradually Reducing Social Insurance Rates 
[Renli ziyuan shehui baozhangbu caizhengbu guanyu jieduanxing jiangdi 
shehui baoxian feilu de tongzhi], issued 14 April 16.
    \54\ Li Tangning, ``14 Provinces Lower Pension Contribution Rates 
by 1 Percent, Social Insurance Participants Not Affected'' [14 shengfen 
xiatiao yanglao baoxian feilu 1% can bao renyuan shebao bu shou 
yingxiang], Economic Information Daily, 17 June 16. See also Bureau of 
Human Resources and Social Security and Bureau of Finance, Beijing 
Municipality, Circular on Gradually Reducing Municipality's Social 
Insurance Rates [Guanyu jieduanxing jiangdi benshi shehui baoxian feilu 
de tongzhi], issued 31 May 16, reprinted in Beijing Municipality Social 
Insurance Online Service Platform, last visited 26 August 16; ``Gansu 
Gradually Reducing Social Insurance Rates'' [Gansu jieduanxing jiangdi 
shehui baoxian feilu], Western Economic Daily, 1 July 16; Department of 
Human Resources and Social Security and Department of Finance, Sichuan 
Province, Circular on Issues Related to Gradually Reducing Sichuan 
Province's Social Insurance Rates [Sichuan sheng renli ziyuan he shehui 
baozhangting sichuan sheng caizhengting guanyu jieduanxing jiangdi 
wosheng shehui baoxian feilu youguan wenti de tongzhi], issued 28 April 
16, reprinted in Sichuan Province Human Resources and Social Security 
Department, 29 April 16.
    \55\ See, e.g., ``Ministry of Human Resources and Social Security: 
Guarantee Migrant Workers' Wages Before the Spring Festival, 
Maliciously Withholding Wages Will Bring Consequences'' [Renshebu: 
chunjie qian baozhang nongmingong gongzi zhifu eyi qian xin jiang la 
hei], People's Daily, 21 November 15; China Labour Bulletin, ``Strikes 
and Protests by China's Workers Soar to Record Heights in 2015,'' 7 
January 16; Pete Sweeney, ``China's Labour Law Under Fire as 
Restructuring Threatens Jobs,'' Reuters, 12 March 16.
    \56\ Yin Weimin, ``Promote Employment and Entrepreneurship (Study 
and Implement the Spirit of the 18th Party Congress's 5th Plenum)'' 
[Cujin jiuye chuangye (xuexi guanche dang de shiba jie wu zhong quanhui 
jingshen)], People's Daily, 15 December 15.
    \57\ China Labour Bulletin, ``About Us,'' last visited 22 August 
16.
    \58\ China Labour Bulletin, ``An Introduction to China Labour 
Bulletin's Strike Map,'' 29 March 16.
    \59\ China Labour Bulletin, ``Strikes and Protests by China's 
Workers Soar to Record Heights in 2015,'' 7 January 16; China Labour 
Bulletin, ``CLB Strike Map,'' last visited 8 June 16.
    \60\ China Labour Bulletin, ``Strikes and Protests by China's 
Workers Soar to Record Heights in 2015,'' 7 January 16.
    \61\ China Labour Bulletin, ``CLB Strike Map,'' last visited 8 June 
16.
    \62\ Ibid. Note that worker actions involving wage arrears may also 
involve other grievances.
    \63\ The Commission could not determine the precise nature of these 
``sudden incidents''; authorities in China have long used this term to 
refer to protests. See, e.g., Ben Blanchard, ``China Warns Spectators 
Off Xinjiang Torch Relay,'' Reuters, 16 June 08; Human Rights Watch, `` 
`A Great Danger for Lawyers': New Regulatory Curbs on Lawyers 
Representing Protesters,'' December 2006, 17; John Kamm, Dui Hua 
Foundation, ``Statement on China's Initial Report Under the 
International Covenant on Economic, Social and Cultural Rights,'' 25 
April 05.
    \64\ ``Ministry of Human Resources and Social Security: Guarantee 
Migrant Workers' Wages Before the Spring Festival, Maliciously 
Withholding Wages Will Bring Consequences'' [Renshebu: chunjie qian 
baozhang nongmingong gongzi zhifu eyi qian xin jiang la hei], People's 
Daily, 21 November 15.
    \65\ Committee to Protect Journalists, ``Two Chinese Journalists 
Detained for `Picking Quarrels and Provoking Trouble,' '' 28 June 16; 
Oiwan Lam, Global Voices Advocacy, ``Founder of Protest Reporting 
Outlet Goes Missing in China,'' 23 June 16; Human Rights Campaign in 
China, ``Arrests of Lu Yuyu, Founder of `Not the News' Site Documenting 
Civil Society Rights Defense Incidents, and Li Tingyu, on Suspicion of 
Picking Quarrels and Provoking Trouble, Approved by Dali 
Procuratorate'' [Jilu minjian weiquan shijian ``fei xinwen'' 
chuangbanren lu yuyu ji li tingyu liang ren bei dali jianchayuan yi 
shexian xunxin zishi zui pizhun daibu], 22 July 16. In June 2016, 
authorities in the Dali Bai Autonomous Prefecture, Yunnan province, 
detained Lu Yuyu and Li Tingyu, the citizen journalists who ran the 
Wickedonna blog, and formally arrested them in July. For more 
information, see the Commission's Political Prisoner Database records 
2016-00177 on Lu Yuyu and 2016-00190 on Li Tingyu. The Wickedonna blog 
can be found at newsworthknowingcn.blogspot.com. For more information 
about Lu Yuyu and Li Tingyu's efforts to document protests in China, 
see Wu Qiang, ``What Do Lu Yuyu's Statistics of Protest Tell Us About 
the Chinese Society Today? '' China Change, 6 July 16; Yaqiu Wang, 
``Meet China's Protest Archivist,'' Foreign Policy, Tea Leaf Nation 
(blog), 3 April 14.
    \66\ ``2015 Statistics'' [2015 nian tongji], Wickedonna (blog), 5 
January 16.
    \67\ Bi Shicheng, ``People's Daily Commentary: Joint Effort Needed 
To Cure `Year-End Wage Demands' '' [Renmin ribao renmin shiping: genzhi 
``nianmo tao xin'' xu gongtong shijin], People's Daily, 20 January 16.
    \68\ China Labour Bulletin, ``CLB Strike Map,'' last visited 8 June 
16. Note that worker actions involving layoffs may also involve other 
grievances.
    \69\ Ibid. Note that worker actions involving social insurance 
contributions may also involve other grievances.
    \70\ ``2015 Statistics'' [2015 nian tongji], Wickedonna (blog), 5 
January 16.
    \71\ China Labour Bulletin, ``CLB Strike Map,'' last visited 8 June 
16.
    \72\ ``2015 Statistics'' [2015 nian tongji], Wickedonna (blog), 5 
January 16.
    \73\ State Council, Opinion on Comprehensively Managing the Problem 
of Migrant Workers' Wage Arrears [Guowuyuan bangongting guanyu quanmian 
zhili tuoqian nongmingong gongzi wenti de yijian], issued 19 January 
16. See also China Labour Bulletin, ``Wage Arrears Protests Erupt at 
Wanda Plazas Across China,'' 13 November 15.
    \74\ China Labour Bulletin, ``CLB Strike Map,'' last visited 8 June 
16.
    \75\ See, e.g., China Labour Bulletin, ``Suntory Brewery Workers in 
China Force Their Trade Union To Take a Stand,'' 30 October 15; `` 
`Hungry' Workers Sleep on Street, Protest After Shenzhen Toy Factory 
Boss Absconds,'' Radio Free Asia, 10 November 15; China Labour 
Bulletin, ``Collective Action Gets Guangzhou Sanitation Workers Direct 
Employment Contracts,'' 5 November 15.
    \76\ See, e.g., ``Police Open Fire on Protesting Taxi Drivers in 
China's Shandong,'' Radio Free Asia, 11 December 15; ``China Mine 
Workers Detained After Protesting Unpaid Wages,'' Agence France-Presse, 
reprinted in Newsmax, 18 March 16; China Labour Bulletin, ``Guangdong's 
Workers Mobilize To Protect Leaders From Arrests and Reprisals,'' 13 
October 15.
    \77\ ``Public Sentencing of Workers Demanding Pay Degrades the 
Judiciary'' [Gongpan taoxin mingong xiaojie sifa zunyan], Beijing News, 
18 March 16; Chun Han Wong, ``Chinese City Publicly Shames Migrant 
Workers Who Protested Unpaid Wages,'' Wall Street Journal, China Real 
Time Report (blog), 18 March 16.
    \78\ Ibid.
    \79\ China Labour Bulletin, ``CLB Strike Map,'' last visited 8 June 
16.
    \80\ Cherie Chan, ``Labor Rights Movements Gaining Momentum in 
China,'' Deutsche Welle, 5 January 16; International Trade Union 
Confederation, ``The 2015 ITUC Global Rights Index,'' 10 June 15, 72; 
International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 8.1(d); United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Economic, Social and Cultural Rights, last visited 11 March 16. China 
has signed and ratified the ICESCR.
    \81\ Zhao Yibo, ``Shenzhen Fuchang Company Closure Prompts Rights 
Defense'' [Shenzhen fuchang gongsi daobi yinfa weiquan], Beijing News, 
10 October 15; Wang Cong and Huang Ge, ``Device Maker's Closure Sparks 
Protests,'' Global Times, 11 October 15.
    \82\ Wang Cong and Huang Ge, ``Device Maker's Closure Sparks 
Protests,'' Global Times, 11 October 15; Zhao Yibo, ``Shenzhen Fuchang 
Company Closure Prompts Rights Defense'' [Shenzhen fuchang gongsi daobi 
yinfa weiquan], Beijing News, 10 October 15; Mark Magnier, ``China's 
Workers Are Fighting Back as Economic Dream Fades,'' Wall Street 
Journal, 14 December 15.
    \83\ Mark Magnier, ``China's Workers Are Fighting Back as Economic 
Dream Fades,'' Wall Street Journal, 14 December 15; Wang Cong and Huang 
Ge, ``Device Maker's Closure Sparks Protests,'' Global Times, 11 
October 15; Zhao Yibo, ``Shenzhen Fuchang Company Closure Prompts 
Rights Defense'' [Shenzhen fuchang gongsi daobi yinfa weiquan], Beijing 
News, 10 October 15.
    \84\ Mark Magnier, ``China's Workers Are Fighting Back as Economic 
Dream Fades,'' Wall Street Journal, 14 December 15.
    \85\ China Labour Bulletin, ``Collective Action Gets Guangzhou 
Sanitation Workers Direct Employment Contracts,'' 5 November 15; 
``Guangzhou Panyu Shatou Street Sanitation Workers Collectively Defend 
Rights, Reach Initial Agreement With Management'' [Guangzhou panyu 
shatou jie huanwei gongren jiti weiquan yu zifang dacheng chubu xieyi], 
Boxun, 29 October 15.
    \86\ China Labour Bulletin, ``Collective Action Gets Guangzhou 
Sanitation Workers Direct Employment Contracts,'' 5 November 15.
    \87\ Ibid.; ``Guangzhou Panyu Shatou Street Sanitation Workers 
Collectively Defend Rights, Reach Initial Agreement With Management'' 
[Guangzhou panyu shatou jie huanwei gongren jiti weiquan yu zifang 
dacheng chubu xieyi], Boxun, 29 October 15.
    \88\ China Labour Bulletin, ``Collective Action Gets Guangzhou 
Sanitation Workers Direct Employment Contracts,'' 5 November 15.
    \89\ Li Wenying, ``Heilongjiang Governor Lu Hao: Longmay's 80,000 
Pit Workers Have Not Missed a Month's Wages'' [Heilongjiang shengzhang 
lu hao: longmei jingxia zhigong 8 wan, zhijin mei shao fa 1 ge yue 
gongzi], The Paper, 6 March 16. See also China Labour Bulletin, 
``Heilongjiang Coal Miners' Strike Forces Government To Pay Wage 
Arrears,'' 14 March 16.
    \90\ China Labour Bulletin, ``Heilongjiang Coal Miners' Strike 
Forces Government To Pay Wage Arrears,'' 14 March 16; Chris Buckley, 
``Official Admits He Gave Misleading Account of Chinese Miners' 
Plight,'' New York Times, 13 March 16; Chun Han Wong and Mark Magnier, 
``China Mixes Cash, Coercion To Ease Labor Unrest,'' Wall Street 
Journal, 15 March 16.
    \91\ China Labour Bulletin, ``Heilongjiang Coal Miners' Strike 
Forces Government To Pay Wage Arrears,'' 14 March 16; Duncan Hewitt, 
``China's Miners' Strike Highlights Challenges for Government in 
Reducing Overcapacity in Loss-Making Industries,'' International 
Business Times, 14 March 16; Sue-Lin Wong et al., ``Coal Miners Protest 
in Northeastern China, Claiming Unpaid Wages,'' Reuters, 13 March 16; 
Chun Han Wong and Mark Magnier, ``China Mixes Cash, Coercion To Ease 
Labor Unrest,'' Wall Street Journal, 15 March 16; Chris Buckley, 
``Official Admits He Gave Misleading Account of Chinese Miners' 
Plight,'' New York Times, 13 March 16.
    \92\ Wen Jing, `` `This Was Wrong, Now It Must Be Corrected' '' 
[``Zhege shi cuo le, zhi cuo jiu yao gai''], Beijing Times, 13 March 
16; Chun Han Wong and Mark Magnier, ``China Mixes Cash, Coercion To 
Ease Labor Unrest,'' Wall Street Journal, 15 March 16.
    \93\ ``Statement on Shuangyashan Incident'' [Guanyu shuangyashan 
shijian de shengming], Boxun, 17 March 16; ``China Mine Workers 
Detained After Protesting Unpaid Wages,'' Agence France-Presse, 
reprinted in Newsmax, 18 March 16; Gerry Shih, ``Anger in China's Coal 
Country as Miners Feel Left Behind,'' Associated Press, 18 March 16.
    \94\ For information on the role of labor NGOs in Guangdong 
province, see Feng Renke and Li Linjin, ``The Plight of Chinese Labor 
Rights NGOs'' [Zhongguo laogong weiquan NGO de kunjing], Financial 
Times, 2 March 15; Anita Chan, ``China's Factory Workers Are Becoming 
More Restive,'' Yale Global Online, 21 May 15.
    \95\ Feng Renke and Li Linjin, ``The Plight of Chinese Labor Rights 
NGOs'' [Zhongguo laogong weiquan NGO de kunjing], Financial Times, 2 
March 15.
    \96\ Yaxue Cao, ``Chinese Authorities Orchestrate Surprise Raid of 
Labor NGOs in Guangdong, Arresting Leaders,'' China Change, 10 December 
15. See also Nan Fei Yan Social Work Services Center, `` `Dead End,' an 
Open Letter From Labor Rights Defense Organization Nan Fei Yan'' [``Ci 
lu butong'' zhi laogong weiquan zuzhi nan fei yan de gongkai xin], 
reprinted in New Citizens' Movement (blog), 19 October 15.
    \97\ Tom Phillips, ``Call for China To Free Labour Activists or 
Risk Backlash From Frustrated Workforce,'' Guardian, 9 December 15; Eli 
Friedman, Aaron Halegua, and Jerome A. Cohen, ``Cruel Irony: China's 
Communists Are Stamping Out Labor Activism,'' Washington Post, 3 
January 16; Ivan Franceschini, ``Revisiting Chinese Labour NGOs: Some 
Grounds for Hope? '' Made in China, Issue 1 (January-March 2016), 17. 
See also CECC, 2012 Annual Report, 10 October 12, 59, 122.
    \98\ Nan Fei Yan Social Work Services Center, `` `Dead End,' an 
Open Letter From Labor Rights Defense Organization Nan Fei Yan'' [``Ci 
lu butong'' zhi laogong weiquan zuzhi nan fei yan de gongkai xin], 
reprinted in New Citizens' Movement (blog), 19 October 15; Feng Renke 
and Li Linjin, ``The Plight of Chinese Labor Rights NGOs'' [Zhongguo 
laogong weiquan NGO de kunjing], Financial Times, 2 March 15; Alexandra 
Harney, ``China Labor Activists Say Facing Unprecedented 
Intimidation,'' Reuters, 21 January 15. For information on the 
harassment of labor rights advocates and NGOs in the previous reporting 
year, see CECC, 2015 Annual Report, 8 October 15, 85-86.
    \99\ Nan Fei Yan Social Work Services Center, `` `Dead End,' an 
Open Letter From Labor Rights Defense Organization Nan Fei Yan'' [``Ci 
lu butong'' zhi laogong weiquan zuzhi nan fei yan de gongkai xin], 
reprinted in New Citizens' Movement (blog), 19 October 15; Feng Renke 
and Li Linjin, ``The Plight of Chinese Labor Rights NGOs'' [Zhongguo 
laogong weiquan NGO de kunjing], Financial Times, 2 March 15; Alexandra 
Harney, ``China Labor Activists Say Facing Unprecedented 
Intimidation,'' Reuters, 21 January 15.
    \100\ Rights Defense Network, ``Detained Guangdong Labor NGO Member 
Zhu Xiaomei Applies for Bail Because Child Still Nursing, Application 
Rejected, Currently Five NGO Members Criminally Detained, Two Forcibly 
Disappeared (Introduction to 7 Detained NGO Members Attached)'' 
[Guangdong bei zhua laogong NGO chengyuan zhu xiaomei yin haizi reng 
zai buru qi shenqing qubao bei ju muqian gong wu ming NGO chengyuan zao 
xingju, liang wei zao qiangpo shizong (fu 7 wei bei zhua NGO chengyuan 
jianjie)], 15 December 15; Feng Renke and Li Linjin, ``The Plight of 
Chinese Labor Rights NGOs'' [Zhongguo laogong weiquan NGO de kunjing], 
Financial Times, 2 March 15. Zeng Feiyang is the director of the Panyu 
Workers' Services Center in Guangzhou municipality, Guangdong province. 
For more information on Zeng Feiyang, see the Commission's Political 
Prisoner Database record 2015-00427.
    \101\ Rights Defense Network, ``Detained Guangdong Labor NGO Member 
Zhu Xiaomei Applies for Bail Because Child Still Nursing, Application 
Rejected, Currently Five NGO Members Criminally Detained, Two Forcibly 
Disappeared (Introduction to 7 Detained NGO Members Attached)'' 
[Guangdong bei zhua laogong NGO chengyuan zhu xiaomei yin haizi reng 
zai buru qi shenqing qubao bei ju muqian gong wu ming NGO chengyuan zao 
xingju, liang wei zao qiangpo shizong (fu 7 wei bei zhua NGO chengyuan 
jianjie)], 15 December 15; Rights Defense Network, ``Guangdong Labor 
Rights Advocates Suffer Consecutive Attacks at Entrance to Police 
Station'' [Guangdong laogong weiquan renshi lianxu zai paichusuo menkou 
yu xi], 4 April 15. Peng Jiayong is director of the Laborer Mutual Aid 
Group in Guangzhou municipality, Guangdong province. For more 
information on Peng Jiayong, see the Commission's Political Prisoner 
Database record 2015-00437. For additional examples of the harassment 
of labor advocates and labor NGOs from the previous reporting year, see 
CECC, 2015 Annual Report, 8 October 15, 85.
    \102\ Michael Forsythe and Chris Buckley, ``China Arrests at Least 
3 Workers' Rights Leaders Amid Rising Unrest,'' New York Times, 5 
December 15; Tom Phillips, ``Call for China To Free Labour Activists or 
Risk Backlash From Frustrated Workforce,'' Guardian, 9 December 15; Eli 
Friedman, Aaron Halegua, and Jerome A. Cohen, ``Cruel Irony: China's 
Communists Are Stamping Out Labor Activism,'' Washington Post, 3 
January 16. For more information on government suppression of labor 
NGOs in previous years, see CECC, 2012 Annual Report, 10 October 12, 
59, 122; CECC, 2015 Annual Report, 8 October 15, 85-86.
    \103\ Geoffrey Crothall, ``Refusing To Honor Labor Rights Backfires 
in China,'' New York Times, 12 May 16; ``Activists See Bleak Future for 
China's NGOs Amid Ongoing Crackdown,'' Radio Free Asia, 22 January 16.
    \104\ Yaqiu Wang, ``Amid Crackdown, China's Dissidents Fight To 
Keep the Spirit of Tiananmen Alive,'' World Politics Review, 7 June 16; 
Eli Friedman, Aaron Halegua, and Jerome A. Cohen, ``Cruel Irony: 
China's Communists Are Stamping Out Labor Activism,'' Washington Post, 
3 January 16; ``Activists See Bleak Future for China's NGOs Amid 
Ongoing Crackdown,'' Radio Free Asia, 22 January 16; Yaxue Cao, 
``Chinese Authorities Orchestrate Surprise Raid of Labor NGOs in 
Guangdong, Arresting Leaders,'' China Change, 10 December 15.
    \105\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, arts. 
20(1), 23(1), 23(4); International Covenant on Civil and Political 
Rights, adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, art. 22(1); International 
Labour Organization, ILO Declaration on Fundamental Principles and 
Rights at Work, 18 June 98, art. 2(a).
    \106\ Rights Defense Network, ``Detained Guangdong Labor NGO Member 
Zhu Xiaomei Applies for Bail Because Child Still Nursing, Application 
Rejected, Currently Five NGO Members Criminally Detained, Two Forcibly 
Disappeared (Introduction to 7 Detained NGO Members Attached)'' 
[Guangdong bei zhua laogong NGO chengyuan zhu xiaomei yin haizi reng 
zai buru qi shenqing qubao bei ju muqian gong wu ming NGO chengyuan zao 
xingju, liang wei zao qiangpo shizong (fu 7 wei bei zhua NGO chengyuan 
jianjie)], 15 December 15; Tom Phillips, ``Call for China To Free 
Labour Activists or Risk Backlash From Frustrated Workforce,'' 
Guardian, 9 December 15; Yaxue Cao, ``Chinese Authorities Orchestrate 
Surprise Raid of Labor NGOs in Guangdong, Arresting Leaders,'' China 
Change, 10 December 15; Rights Defense Network, ``Police Suddenly Crack 
Down on Four Guangdong Labor NGOs, `Haige Labor Services Center,' 
`Panyu Workers' Services Center,' `Sunflower Women Workers' Center,' 
`Nan Fei Yan,' Directors and Staff Disappear After Being Taken Away'' 
[Guangdong si laogong NGO ``hai ge laogong fuwu bu'', ``panyu 
dagongzu'', ``xiangyanghua nugong zhongxin'', ``nan fei yan'' turan 
zaodao jingfang daya, fuzeren ji yuangong bei daizou hou shilian], 3 
December 15. See also ``Guangdong Authorities Arrest Labor Rights 
Advocates,'' Congressional-Executive Commission on China, 21 January 
16.
    \107\ Rights Defense Network, ``Detained Guangdong Labor NGO Member 
Zhu Xiaomei Applies for Bail Because Child Still Nursing, Application 
Rejected, Currently Five NGO Members Criminally Detained, Two Forcibly 
Disappeared (Introduction to 7 Detained NGO Members Attached)'' 
[Guangdong bei zhua laogong NGO chengyuan zhu xiaomei yin haizi reng 
zai buru qi shenqing qubao bei ju muqian gong wu ming NGO chengyuan zao 
xingju, liang wei zao qiangpo shizong (fu 7 wei bei zhua NGO chengyuan 
jianjie)], 15 December 15. For more information on the labor rights 
advocates and their cases, see the following records in the 
Commission's Political Prisoner Database: 2014-00026 on Meng Han, 2015-
00427 on Zeng Feiyang, 2015-00428 on Zhu Xiaomei, 2015-00431 on He 
Xiaobo, 2015-00435 on Deng Xiaoming, and 2015-00437 on Peng Jiayong.
    \108\ Ibid. For more information on Tang Jian, see the Commission's 
Political Prisoner Database record 2016-00017.
    \109\ Rights Defense Network, `` `12/3 Guangzhou Labor NGO Case' 
Arrests Approved Today for Four Individuals, One Released, Whereabouts 
of Two Unknown'' [``12.3 guangzhou laogong NGO an'' jin si ren bei 
pizhun daibu, yi ren huoshi, liang ren wu xialuo], 8 January 16; Rights 
Defense Network, ``Detained Guangdong Labor NGO Member Zhu Xiaomei 
Applies for Bail Because Child Still Nursing, Application Rejected, 
Currently Five NGO Members Criminally Detained, Two Forcibly 
Disappeared (Introduction to 7 Detained NGO Members Attached)'' 
[Guangdong bei zhua laogong NGO chengyuan zhu xiaomei yin haizi reng 
zai buru qi shenqing qubao bei ju muqian gong wu ming NGO chengyuan zao 
xingju, liang wei zao qiangpo shizong (fu 7 wei bei zhua NGO chengyuan 
jianjie)], 15 December 15; Yaxue Cao, ``Chinese Authorities Orchestrate 
Surprise Raid of Labor NGOs in Guangdong, Arresting Leaders,'' China 
Change, 10 December 15; Red Balloon Solidarity, ``Sunday Topic: They 
Promoted the Rights and Interests of Migrants, but Spent Migrants' Day 
in a PSB Detention Center'' [Zhouri huati: tamen wei yimingong 
shenzhang quanyi yiminri que zai kanshousuo duguo], Ming Pao, 19 
December 15.
    \110\ Rights Defense Network, `` `12/3 Guangzhou Labor NGO Case' 
Arrests Approved Today for Four Individuals, One Released, Whereabouts 
of Two Unknown'' [``12.3 guangzhou laogong NGO an'' jin si ren bei 
pizhun daibu, yi ren huoshi, liang ren wu xialuo], 8 January 16; Sui-
Lee Wee, ``China Arrests Four Labor Activists Amid Crackdown: 
Lawyers,'' Reuters, 10 January 16; PRC Criminal Law [Zhonghua renmin 
gongheguo xing fa], passed 1 July 79, amended 14 March 97, effective 1 
October 97, amended 25 December 99, 31 August 01, 29 December 01, 28 
December 02, 28 February 05, 29 June 06, 28 February 09, 25 February 
11, 29 August 15, effective 1 November 15, art. 290.
    \111\ Rights Defense Network, `` `12/3 Guangzhou Labor NGO Case' 
Arrests Approved Today for Four Individuals, One Released, Whereabouts 
of Two Unknown'' [``12.3 guangzhou laogong NGO an'' jin si ren bei 
pizhun daibu, yi ren huoshi, liang ren wu xialuo], 8 January 16; ``Four 
Detained Labor Rights Defenders Arrested, Two Out on Bail, Attack Aimed 
at Panyu Workers' Services Center'' [Bei zhua lao wei renshi si pibu 
liang qubao maotou zhi zhi panyu dagongzu], Radio Free Asia, 10 January 
16; PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 July 
79, amended 14 March 97, effective 1 October 97, amended 25 December 
99, 31 August 01, 29 December 01, 28 December 02, 28 February 05, 29 
June 06, 28 February 09, 25 February 11, 29 August 15, effective 1 
November 15, art. 183.
    \112\ ``Four Detained Labor Rights Defenders Arrested, Two Out on 
Bail, Attack Aimed at Panyu Workers' Services Center'' [Bei zhua lao 
wei renshi si pibu liang qubao maotou zhi zhi panyu dagongzu], Radio 
Free Asia, 10 January 16 (on Deng and Peng's release); Human Rights 
Campaign in China, ``Guangdong Labor NGO Case--Zhu Xiaomei Released on 
Bail, Returns Home'' [Guangdong laogong NGO an zhu xiaomei yi qubao 
houshen huijia], 2 February 16 (on Zhu's release); China Labour 
Bulletin, ``Labour Activist He Xiaobo Released on Bail After Four 
Months in Detention,'' 8 April 16 (on He's release).
    \113\ Human Rights Campaign in China, ``Guangdong Labor NGO Case--
Zhu Xiaomei Released on Bail, Returns Home'' [Guangdong laogong NGO an 
zhu xiaomei yi qubao houshen huijia], 2 February 16. On January 31, 
2016, Tang indicated via WeChat that he had been out of detention for 
several days.
    \114\ For a description of bail (qubao houshen), also translated as 
``guarantee pending further investigation,'' under Chinese legal 
provisions, see Human Rights in China, ``HRIC Law Note: Five Detained 
Women Released on `Guarantee Pending Further Investigation,' '' 13 
April 15. For relevant Chinese legal provisions, see PRC Criminal 
Procedure Law [Zhonghua renmin gongheguo xingshi susong fa], passed 1 
July 79, amended 17 March 96, 14 March 12, effective 1 January 13, 
arts. 65-72, 77; Ministry of Public Security, Public Security 
Procedural Provisions on Handling Criminal Cases [Gong'an jiguan banli 
xingshi anjian chengxu guiding], issued 13 December 12, effective 1 
January 13, arts. 77, 85, 86, 89.
    \115\ ``Guangdong NGO's Zeng Feiyang and Three Others' Labor Rights 
Defense Cases Will Be Referred to Court in Late July'' [Guangdong NGO 
zeng feiyang deng si ren laogong weiquan an qiyue xiaxun yisong 
fayuan], Radio Free Asia, 6 July 16; Labor Partners 521, ``Guangdong 
Labor NGO Case Development: Zeng Feiyang, Meng Han, Zhu Xiaomei, and 
Tang Huanxing Cases Under Review for Prosecution'' [Guangdong laogong 
NGO an jinzhan: zeng feiyang, meng han, zhu xiaomei, tang huanxing bei 
yisong shencha qisu], reprinted in Rights Defense Network, 14 July 16.
    \116\ Human Rights Watch, ``China: Persecution of Labor Activists 
Escalates,'' 13 January 16; Cherie Chan, ``Labor Rights Movements 
Gaining Momentum in China,'' Deutsche Welle, 5 January 16; Yaxue Cao, 
``Chinese Authorities Orchestrate Surprise Raid of Labor NGOs in 
Guangdong, Arresting Leaders,'' China Change, 10 December 15; 
``Guangdong Labor NGOs `Were Doing the Job of a Trade Union': 
Activists,'' Radio Free Asia, 23 December 15.
    \117\ ``Four Detained Labor Rights Defenders Arrested, Two Out on 
Bail, Attack Aimed at Panyu Workers' Services Center'' [Bei zhua lao 
wei renshi si pibu liang qubao maotou zhi zhi panyu dagongzu], Radio 
Free Asia, 10 January 16. For additional information on Panyu Workers' 
Services Center, see Zhen Jinghui, ``Zeng Feiyang: A Labor NGO's Fight 
for Survival'' [Zeng feiyang: yi ge laogong NGO de jiafeng shengcun], 
South Reviews, 27 March 10, reprinted in Sina, 5 December 13.
    \118\ Zou Wei, ``Behind the Halo of the `Star of the Labor 
Movement'--`Panyu Workers' Services Center' Director Zeng Feiyang and 
Others Investigated as Suspects in Serious Crimes'' [Jiekai ``gongyun 
zhi xing'' guanghuan de beihou--``panyu dagongzu wenshu chuli fuwu bu'' 
zhuren zeng feiyang deng ren shexian yanzhong fanzui anjian diaocha], 
Xinhua, 22 December 15.
    \119\ Ibid.
    \120\ China Labour Bulletin, ``Workers Speak Out in Support of 
Detained Labour Activists in Guangdong,'' 5 January 16.
    \121\ ``Guangdong Labor NGOs `Were Doing the Job of a Trade Union': 
Activists,'' Radio Free Asia, 23 December 15.
    \122\ For information on child labor from previous reporting years, 
see CECC, 2015 Annual Report, 8 October 15, 86; CECC, 2014 Annual 
Report, 9 October 14, 76-77; CECC, 2013 Annual Report, 10 October 13, 
70-71.
    \123\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 
5 July 94, effective 1 January 95, art. 15; PRC Law on the Protection 
of Minors [Zhonghua renmin gongheguo wei chengnian ren baohu fa], 
passed 4 September 91, amended 29 December 06, effective 1 June 07, 
art. 38. Article 15 of the PRC Labor Law prohibits the employment of 
minors under 16, with exceptions for literature and the arts, sports, 
and special handicrafts, provided the employer undergoes inspection and 
approval and guarantees the child's right to compulsory education.
    \124\ International Labour Organization, ILO Convention (No. 138) 
Concerning Minimum Age for Admission to Employment, 26 June 73; 
International Labour Organization, ILO Convention (No. 182) Concerning 
the Prohibition and Immediate Action for the Elimination of the Worst 
Forms of Child Labour, 17 June 99; International Labour Organization, 
``Ratifications of C138--Minimum Age Convention, 1973 (No. 138),'' last 
visited 6 September 16; International Labour Organization, 
``Ratifications of C182--Worst Forms of Child Labour Convention, 1999 
(No. 182),'' last visited 6 September 16.
    \125\ Center for Child Rights & Corporate Social Responsibility, 
``Best Response: Auditors' Insights on Child Labor in Asia,'' June 
2016, 4.
    \126\ Zheng Caixiong, ``Boy's Sudden Death Prompts Campaign Against 
Child Labor,'' China Daily, 26 April 16. See also China Labor Watch, 
``Sudden Death of a 14 Year Old Child Worker From a Factory in 
Foshan,'' 27 April 16.
    \127\ Yuan Lingzhi, ``Child Laborers Cruelly Trapped Making Socks 
for Five Years Rescued, Worked Nearly 16 Hours Per Day'' [Tonggong bei 
kun heixin wazi zuofang 5 nian bei jiu meiri gongzuo jin 16 xiaoshi], 
Justice Net, 18 August 16.
    \128\ International Labour Organization, Country Office for China 
and Mongolia, ``Child Labour in China and Mongolia,'' last visited 6 
September 16.
    \129\ Ministry of Human Resources and Social Security, Interim 
Provisions on Dispatch Labor [Laowu paiqian zanxing guiding], issued 24 
January 14, effective 1 March 14; PRC Labor Contract Law [Zhonghua 
renmin gongheguo laodong hetong fa], passed 29 June 07, amended 28 
December 12, effective 1 July 13, arts. 58, 63, 66; National People's 
Congress Standing Committee, Decision on Amending the ``PRC Labor 
Contract Law'' [Quanguo renmin daibiao dahui changwu weiyuanhui guanyu 
xiugai ``zhonghua renmin gongheguo laodong hetong fa'' de jueding], 
issued 28 December 12, effective 1 July 13.
    \130\ Fair Labor Association, ``Issue Brief: Labor Dispatch Workers 
in China,'' March 2016; Lu Binyang, ``Temporary Railroad Workers Stage 
Sit-in Over Equal Pay,'' Caixin, 10 December 15; Jenny Chan et al., 
``Interns or Workers? China's Student Labor Regime,'' Asia-Pacific 
Journal, Vol. 13, Issue 26, No. 1 (August 2015), 3; Liu Genghua, 
International Labour Organization, ``Private Employment Agencies and 
Labour Dispatch in China,'' Sector Working Paper No. 293, 2014, 6. For 
information on contract or dispatch labor from previous reporting 
years, see CECC, 2015 Annual Report, 8 October 15, 92; CECC, 2014 
Annual Report, 9 October 14, 75-76; CECC, 2013 Annual Report, 10 
October 13, 71-72.
    \131\ PRC Labor Contract Law [Zhonghua renmin gongheguo laodong 
hetong fa], passed 29 June 07, amended 28 December 12, effective 1 July 
13, arts. 63, 66; National People's Congress Standing Committee, 
Decision on Amending the ``PRC Labor Contract Law'' [Quanguo renmin 
daibiao dahui changwu weiyuanhui guanyu xiugai ``zhonghua renmin 
gongheguo laodong hetong fa'' de jueding], issued 28 December 12, 
effective 1 July 13.
    \132\ Ministry of Human Resources and Social Security, Interim 
Provisions on Dispatch Labor [Laowu paiqian zanxing guiding], issued 24 
January 14, effective 1 March 14, arts. 4, 28. Article 28 includes an 
exception allowing firms with dispatch labor agreements that were 
signed prior to, and set to expire within two years of, the effective 
date of the amendment to the PRC Labor Contract Law to continue the use 
of dispatch labor at existing levels until those contracts expire.
    \133\ Zhang Moning, ``Renewed Debate Over `Labor Contract Law' '' 
[``Laodong hetong fa'' zhengyi zaiqi], South Reviews, 16 March 16.
    \134\ Allan Xu, ``China's Labor Dispatch Laws Come Into Effect, 
Signaling Sweeping Change for Employment Structures,'' China Briefing 
(blog), 8 March 16; Zhang Xin, ``Number of Dispatch Workers at Big Four 
Banks Down to 28,700, Yet Rural Commercial Banks Still Recruiting'' [Si 
da hang laowu paiqiangong jiang zhi 2.87 wan ren nong shanghang reng 
zai nishi zhaopin], Securities Daily, 20 October 15; Lucy Lu and Dai 
Zhengcao, ``Is Labor Dispatch Fading Away? Not That Simple,'' King & 
Wood Mallesons, China Law Insight (blog), 4 May 15.
    \135\ See, e.g., Lu Hui et al., ``Hi-Tech Industrial Park Predicts 
Output To Reach 28 Billion by Year End'' [Gaoxin keji chanye yuan yuji 
niandi chanzhi da 280 yi], Southern Daily, 7 July 16; Zhan Wenping, 
``Reforms Must Be Completed by End of Next Month, Otherwise New 
Dispatch Workers Cannot Be Hired'' [Xia yuedi qian xu wancheng zhenggai 
fouze bude xin yong bei paiqian laodongzhe], Xin Kuai Bao, 28 January 
16; Lu Binyang, ``Temporary Railroad Workers Stage Sit-in Over Equal 
Pay,'' Caixin, 10 December 15.
    \136\ China Labor Watch and The Future in Our Hands, ``Something's 
Not Right Here: Poor Working Conditions Persist at Apple Supplier 
Pegatron,'' 22 October 15, 8, 10.
    \137\ Lu Binyang, ``Temporary Railroad Workers Stage Sit-in Over 
Equal Pay,'' Caixin, 10 December 15.
    \138\ For information on the abuse of student labor in previous 
reporting years, see CECC, 2015 Annual Report, 8 October 15, 87; CECC, 
2014 Annual Report, 9 October 14, 77; CECC, 2013 Annual Report, 10 
October 13, 70-71.
    \139\ Danwatch, ``Servants of Servers: Rights Violations and Forced 
Labour in the Supply Chain of ICT Equipment in European Universities,'' 
October 2015, 5, 8.
    \140\ Ibid., 3, 6-10; Ministry of Education and Ministry of 
Finance, Measures on Managing Secondary Vocational School Student 
Internships [Zhongdeng zhiye xuexiao xuesheng shixi guanli banfa], 
issued 26 June 07, art. 5. Article 5 of the Measures on Managing 
Secondary Vocational School Student Internships prohibits interns from 
working more than eight hours per day.
    \141\ Danwatch, ``Servants of Servers: Rights Violations and Forced 
Labour in the Supply Chain of ICT Equipment in European Universities,'' 
October 2015, 3, 5, 6, 15.
    \142\ Li Yifan (Guodong de shaozi), ``Why Uber Wants To Kill Me--
The Secret Behind the 50-Billion-Dollar Valuation'' [Wo weishenme bei 
uber zhuisha--500 yi guzhi beihou buweirenzhi de mimi], Weibo post, 4 
December 15, 2:18 p.m.; Josh Horwitz and Echo Huang, ``Uber's Business 
in China Is Built on Exploiting Armies of Underpaid, Overworked 
Interns,'' Quartz, 16 December 15.
    \143\ Kai Maying (DOOM kai), ``I Am an Intern Uber Fired, Today I 
Have Something To Say'' [Wo shi yi ge bei uber kaichu de shixisheng, 
jintian wo you hua shuo], Weibo post, 6 December 15, 19:19 p.m.; Josh 
Horwitz and Echo Huang, ``Uber's Business in China Is Built on 
Exploiting Armies of Underpaid, Overworked Interns,'' Quartz, 16 
December 15.
    \144\ Grace Yang, ``Student Interns in China: The China Employment 
Law Issues,'' China Law Blog, 20 December 15.
    \145\ PRC Education Law [Zhonghua renmin gongheguo jiaoyu fa], 
passed 18 March 95, amended 27 August 09, 27 December 15, effective 1 
June 16, art. 58.
    \146\ Ministry of Education and Ministry of Finance, Measures on 
Managing Secondary Vocational School Student Internships [Zhongdeng 
zhiye xuexiao xuesheng shixi guanli banfa], issued 26 June 07, arts. 3, 
5.
    \147\ Ministry of Education et al., Provisions on Managing 
Vocational School Student Internships [Zhiye xuexiao xuesheng shixi 
guanli guiding], issued 11 April 16.
    \148\ Ibid., arts. 6, 9.
    \149\ State Council, Provisional Measures on Workers' Retirement 
and Withdrawal From Office [Guowuyuan guanyu gongren tuixiu, tuizhi de 
zanxing banfa], issued 2 June 78, art. 1; ``China Focus: China's Plan 
To Raise Retirement Age Meets Mixed Reactions,'' Xinhua, 4 March 16. 
Currently, the retirement age is 50 or 60 for male workers and 45 or 50 
for female workers depending on the type of job; the government, 
however, plans to raise the retirement age in coming years.
    \150\ Susan Finder, ``Data From the Supreme People's Court on 2015 
Labor/Employment Disputes,'' Supreme People's Court Monitor (blog), 27 
March 16; China Labour Bulletin, ``Elderly Sanitation Worker's Death 
Shows Need for Collective Action and Solidarity,'' 14 December 15.
    \151\ State Council, PRC Labor Contract Law Implementing 
Regulations [Zhonghua renmin gongheguo laodong hetong fa shishi 
tiaoli], issued 18 September 08, art. 21; PRC Labor Contract Law 
[Zhonghua renmin gongheguo laodong hetong fa], passed 29 June 07, 
amended 28 December 12, effective 1 July 13, art. 44(2). The PRC Labor 
Contract Law stipulates that if a worker receives a pension, his or her 
labor contract terminates (zhongzhi), but the implementing regulations 
require that contracts be terminated for all workers upon reaching the 
legal retirement age.
    \152\ Supreme People's Court, Interpretation Regarding Various 
Issues in Using Appropriate Laws When Accepting Labor Dispute Cases 
(Three) [Zuigao renmin fayuan guanyu shenli laodong zhengyi anjian 
shiyong falu ruogan wenti de jishi (san)], issued 13 September 10, art. 
7.
    \153\ Susan Finder, ``Data From the Supreme People's Court on 2015 
Labor/Employment Disputes,'' Supreme People's Court Monitor (blog), 27 
March 16; Lu Cheng, ``Many Older People Return To Work in Services'' 
[Laoren zai jiuye duoshu zuo fuwu], Yunnan Net, 3 May 16; Yang Lincong, 
``Rehired and Returning to Work Unit After Retirement--Is a Traffic 
Accident Considered a Workplace Injury'' [Tuixiu hou fanpin hui danwei 
shangban chu le jiaotong shigu suan bu suan gongshang], Jinhua Evening 
Paper, reprinted in Zhejiang News, 22 March 16. See also Owen Haacke, 
``China's Mandatory Retirement Age Changes: Impact for Foreign 
Companies,'' US-China Business Council (blog), 1 April 15.
    \154\ China Labour Bulletin, ``China's Elderly Street Sweepers at 
Risk as Temperatures Plummet,'' 22 January 16; China Labour Bulletin, 
``Elderly Sanitation Worker's Death Shows Need for Collective Action 
and Solidarity,'' 14 December 15.
    \155\ Supreme People's Court Research Office, ``2015 Situation of 
Judgments and Enforcement Nationwide'' [2015 nian quanguo fayuan 
shenpan zhixing qingkuang], 18 March 16, item 3(5). See also Susan 
Finder, ``Data From the Supreme People's Court on 2015 Labor/Employment 
Disputes,'' Supreme People's Court Monitor (blog), 27 March 16.
    \156\ Man Zhaoxu, ``38 Serious or Very Serious Accidents in 2015, 
768 Killed or Missing in 21 Provinces'' [2015 nian quanguo fasheng 38 
qi zhong te da shigu she 21 shengfen 768 ren sangsheng shizong], China 
National Radio, 15 January 16.
    \157\ Ibid.
    \158\ ``Coal Mine Accident Kills 19 Workers in Northern China,'' Al 
Jazeera, 24 March 16; ``Shaft of Light,'' Economist, 18 July 15; 
Michael Lelyveld, ``China Cuts Coal Mine Deaths, but Count in Doubt,'' 
Radio Free Asia, 16 March 15; China Labour Bulletin, ``Coal Mine 
Accidents in China Decrease as Production Stagnates,'' 3 April 14. See 
also David Stanway, ``China April Coal Output Down 11 Percent on Year: 
Stats Bureau,'' Reuters, 14 May 16.
    \159\ China Labour Bulletin, ``Calls To Improve China's Work Safety 
Go Unheeded in 2015,'' 18 January 16.
    \160\ National Health and Family Planning Commission, ``2014 Report 
on Occupational Illness Nationwide'' [2014 nian quanguo zhiye bing 
baogao qingkuang], 3 December 15; Hu Hao, ``China Had Over 26,000 
Reported Cases of Occupational Illness in 2013, Over 73 Percent of 
Cases in Coal, Non-Ferrous Metal, Machinery, and Construction 
Industries'' [Woguo 2013 nian baogao zhiye bing 2.6 wan yu li meitan 
youse jinshu jixie jianzhu hangye bingli chao 73%], Xinhua, 30 June 14.
    \161\ Ibid.
    \162\ Zheng Li, ``Longest Wait for Migrant Workers To Obtain 
Compensation for Pneumoconiosis Is Seven Years'' [Chenfeibing 
nongmingong huo pei zuichang hao shi qi nian], Workers' Daily, 10 
December 15.
    \163\ See, e.g., PRC Work Safety Law [Zhonghua renmin gongheguo 
anquan shengchan fa], passed 29 June 02, amended 31 August 14, 
effective 1 December 14; State Administration of Work Safety, 
Production and Operations Work Unit Safety Training Provisions 
[Shengchan jingying danwei anquan peixun guiding], issued 17 January 
06, effective 1 March 06; Ministry of Industry and Information 
Technology et al., Measures on Managing the Restricted Use of Harmful 
Materials in Electrical and Electronic Goods [Dianqi dianzi chanpin 
youhai wuzhi xianzhi shiyong guanli banfa], issued 21 January 16, 
effective 1 July 16.
    \164\ China Labour Bulletin, ``Calls To Improve China's Work Safety 
Go Unheeded in 2015,'' 18 January 16; Chris Buckley, ``Before Debris 
Collapse in China, Safety Fears Were Discussed,'' New York Times, 16 
January 16; China Labor Watch, ``The Other Side of Fairy Tales,'' 20 
November 15, 14, 19, 31, 47-48, 67.
    \165\ Ministry of Industry and Information Technology et al., 
Measures on Managing the Restricted Use of Harmful Materials in 
Electrical and Electronic Goods [Dianqi dianzi chanpin youhai wuzhi 
xianzhi shiyong guanli banfa], issued 21 January 16, effective 1 July 
16; National Health and Family Planning Commission et al., Opinion on 
Strengthening Prevention and Treatment Work on Pneumoconiosis Among 
Migrant Workers [Guanyu jiaqiang nongmingong chenfeibing fangzhi 
gongzuo de yijian], issued 8 January 16; State Administration of Work 
Safety, Circular on Drawing Profound Lessons From Accidents To Further 
Prevent and Limit Serious and Very Serious Coal Mining Accidents 
[Guanyu shenke xiqu shigu jiaoxun jinyibu fangfan he ezhi meikuang 
zhong te da shigu de tongzhi], issued 28 March 16.
    \166\ State Administration of Work Safety, Provisions on 
Implementing the ``PRC Work Safety Law'' (Trial) (Draft for 
Solicitation of Comments) [Guojia anquan shengchan jiandu guanli zongju 
shishi ``anquan shengchan fa'' ruogan guiding (shixing) (zhengqiu 
yijian gao)], issued 25 November 15; State Administration of Work 
Safety, Certain Decisions on Implementing the PRC Work Safety Law 
(September 2015 Draft for Solicitation of Comments) [Zhonghua renmin 
gongheguo anquan shengchan fa shishi ruogan jueding (zhengqiu yijian 
gao 2015 nian 9 yue)], issued 11 September 15.
    \167\ China Labour Bulletin, ``Northeast China Sees Two Coal Mine 
Disasters in Two Days,'' 18 December 15; China Labour Bulletin, 
``Factory Workers Feel the Full Impact of China's `Natural Disasters,' 
'' 27 October 15.
    \168\ China Labor Watch, ``The Other Side of Fairy Tales,'' 20 
November 15, 31, 48; China Labor Watch and Solidar Suisse, ``Dirty 
Frying Pans,'' 4 February 16, 2.
    \169\ Students & Scholars Against Corporate Misbehaviour and Labour 
Action China, ``Unveiling the Labour Rights Violations,'' February 
2016, 2; China Labour Bulletin, ``Calls To Improve China's Work Safety 
Go Unheeded in 2015,'' 18 January 16; China Labor Watch and Solidar 
Suisse, ``Dirty Frying Pans,'' 4 February 16, 5; State Administration 
of Work Safety, Production and Operations Work Unit Safety Training 
Provisions [Shengchan jingying danwei anquan peixun guiding], issued 17 
January 06, effective 1 March 06, art. 13.

                                                      Criminal 
                                                        Justice
                                                Criminal 
                                                Justice

                            Criminal Justice


                              Introduction

    During the Commission's 2016 reporting year, Chinese 
government and Communist Party officials continued to abuse 
criminal law and police power to further their priorities in 
``maintaining social stability'' and perpetuating one-party 
rule at the expense of individual freedoms.\1\ Representative 
examples discussed in this section include the criminal 
prosecution of Yang Maodong, better known as Guo Feixiong, who 
participated in peaceful rights advocacy and called for 
political reform; Tang Jingling, who promoted non-violent civil 
disobedience; and Zhang Haitao, who advocated for ethnic 
minority rights.
    The Commission observed that many of the concerns raised by 
the UN Committee against Torture (Committee) during its 
November 2015 review of China's compliance with the Convention 
against Torture and Other Cruel, Inhuman or Degrading Treatment 
or Punishment also were raised by the Committee during its 
previous review of China in 2008. The Committee remained 
concerned about a wide range of issues, including the use of 
extralegal and extrajudicial detention,\2\ harassment of rights 
lawyers and advocates,\3\ restrictions on detainees' access to 
legal counsel,\4\ and excessive time in detention for 
individuals held without formal charges.\5\ The Committee also 
expressed regret that the follow-up recommendations to the 
Chinese government identified in its 2008 concluding 
observations ``have not yet been implemented.'' \6\

                   Ongoing Use of Arbitrary Detention

    Extralegal and extrajudicial forms of detention that 
restrict a person's liberty without judicial oversight \7\ 
violate Article 9 of the Universal Declaration of Human Rights 
\8\ and Article 9(1) of the International Covenant on Civil and 
Political Rights (ICCPR).\9\ Some commonly used forms of 
extralegal and extrajudicial detention in China include the 
following.

                              BLACK JAILS

    ``Black jails'' are detention sites that operate outside of 
China's judicial and administrative detention systems.\10\ 
After the Chinese government abolished the reeducation through 
labor (RTL) system in 2013,\11\ the Commission continued to 
observe Chinese authorities' use of ``black jails'' \12\ to 
suppress individuals such as petitioners,\13\ rights 
advocates,\14\ and those resisting the government's crackdown 
on Christianity.\15\ In one example, in March 2016, local 
police from Beijing municipality reportedly detained rights 
advocate Yin Huimin \16\ for seven days in a ``black jail,'' 
during which time an officer punched and repeatedly slapped 
her, breaking her ear drum and causing permanent deafness in 
one ear.\17\ The Commission further observed multiple reports 
of Chinese authorities detaining petitioners in ``black jails'' 
prior to and during the National People's Congress and Chinese 
People's Political Consultative Conference meetings in March 
2016.\18\
    Local-level government and Communist Party officials 
reportedly used ``legal education centers''--a type of ``black 
jail'' \19\--to detain individuals such as Falun Gong 
practitioners, in an effort to force them to renounce their 
beliefs,\20\ and petitioners, in order to prevent them from 
making complaints to the central government.\21\ [For more 
information on Falun Gong practitioners and petitioners, see 
Section II--Freedom of Religion and Section III--Access to 
Justice.] In one example, in October 2015, authorities in 
Jiansanjiang, Fujin city, Jiamusi municipality, Heilongjiang 
province, detained a farm worker in a legal education center 
that reportedly closed around April 2014.\22\ In addition, Shi 
Mengwen continued to serve a three-year prison sentence in 
Jiansanjiang in apparent connection with his advocacy--along 
with three other Falun Gong practitioners--for the release of 
Falun Gong practitioners who had been arbitrarily detained at 
the Jiansanjiang ``legal education center.'' \23\

                        PSYCHIATRIC INSTITUTIONS

    Chinese authorities continued to forcibly commit 
individuals to psychiatric facilities as a tool of political 
repression \24\ despite provisions in the PRC Mental Health Law 
aimed at protecting citizens from such abuse.\25\ Civil Rights 
& Livelihood Watch, a human rights monitoring group based in 
China, noted an increase in reporting of such forcible 
commitments in 2015, stating that the options available for 
government officials to restrict citizens' liberty in the name 
of ``maintaining social stability'' became more limited after 
the 2013 abolition of the RTL system.\26\ [For more information 
on implementation of the PRC Mental Health Law, see Section 
II--Public Health.]

        CHINESE COMMUNIST PARTY DISCIPLINARY PROCESS (SHUANGGUI)

    Under an investigation process known as ``double 
designation'' (shuanggui), Party investigators may summon Party 
members \27\ to appear for interrogation at a designated time 
and place for alleged Party discipline violations.\28\ The 
shuanggui process is within the Party's control and outside 
China's legal system; it is a form of extralegal detention \29\ 
that contravenes rights guaranteed by the Universal Declaration 
of Human Rights and the ICCPR.\30\ Investigators detain Party 
members for three to six months on average \31\ and generally 
do not notify the detainee's family nor permit family visits or 
meetings with legal counsel.\32\ Investigators reportedly have 
employed torture and other coercive means to extract 
information and confessions during the investigation 
process.\33\ Human Rights Watch reported in February 2016 that 
prolonged solitary confinement, ill treatment, and threats 
against family members during shuanggui remained common.\34\ In 
February 2016, former Deputy Director of the National Energy 
Administration Xu Yongsheng retracted a confession he 
previously made while detained under shuanggui, asserting that 
investigators had tortured him while in custody.\35\

                              Criminal Law

    Some provisions in the Ninth Amendment to the PRC Criminal 
Law, which became effective on November 1, 2015,\36\ may have a 
negative impact on human rights practices in China \37\ in 
areas such as freedom of speech,\38\ freedom of the press,\39\ 
freedom of assembly,\40\ freedom of religion,\41\ access to 
justice,\42\ and rights advocacy.\43\

           USE OF CRIMINAL LAW TO PROSECUTE RIGHTS ADVOCATES

    In the past year, the Chinese government continued to use 
broadly defined crimes to punish rights advocates, petitioners, 
lawyers, and members of some ethnic minority groups.\44\

        <bullet> Picking quarrels and provoking trouble. This 
        past year, authorities prosecuted rights advocates for 
        ``picking quarrels and provoking trouble'' \45\ under 
        Article 293 of the PRC Criminal Law.\46\ A U.S.-based 
        legal scholar observed that the vagueness of this crime 
        potentially allowed police ``unlimited discretion to 
        detain and arrest offenders for almost any action.'' 
        \47\ The Chinese government expressly expanded this 
        provision to cover Internet activities in 2013 \48\ and 
        has since used it to prosecute individuals for online 
        speech.\49\ In December 2015, Chinese authorities 
        convicted public interest lawyer Pu Zhiqiang \50\ on 
        charges of ``picking quarrels and provoking trouble'' 
        and ``inciting ethnic hatred'' \51\ in connection with 
        his posting of several online messages critical of the 
        Chinese government.\52\ Pu was disbarred following his 
        conviction.\53\
        <bullet> Gathering a crowd to disturb order in a public 
        place. The Chinese government applied Article 291 of 
        the PRC Criminal Law under circumstances that could 
        constitute a restriction on freedom of assembly.\54\ 
        Article 291 provides for criminal sanctions--including 
        imprisonment of up to five years--for the main 
        organizer who gathers a crowd to disturb order in a 
        public place.\55\ In November 2015, a court in 
        Guangdong province sentenced rights advocate Yang 
        Maodong, better known as Guo Feixiong, to six years' 
        imprisonment under both this provision and Article 293, 
        reportedly in connection with his peaceful rights 
        advocacy and calls for official transparency and 
        political reform.\56\ As part of the same case, the 
        court also sentenced Sun Desheng to two years and six 
        months' imprisonment under Article 291.\57\
        <bullet> Organizing and using a cult to undermine 
        implementation of the law. The Commission observed that 
        in the past year, Chinese authorities used Article 300 
        of the PRC Criminal Law \58\ to prosecute 
        Buddhists,\59\ Christians,\60\ and Falun Gong 
        practitioners,\61\ among others, under circumstances 
        that could constitute a restriction on the freedom of 
        religion under international law.\62\ The Ninth 
        Amendment to the PRC Criminal Law added the possibility 
        of life imprisonment to Article 300.\63\ [For more 
        information on Chinese authorities' treatment of 
        religious groups, see Section II--Freedom of Religion.]
        <bullet> Endangering state security. During this 
        reporting year, the Chinese government used 
        ``endangering state security'' charges in a crackdown 
        against rights lawyers and advocates.\64\ Articles 102 
        to 112 of the PRC Criminal Law--listing offenses 
        including ``subversion of state power,'' 
        ``separatism,'' and ``espionage''--are collectively 
        referred to as crimes of ``endangering state security'' 
        (ESS), some of which carry the death penalty.\65\ The 
        U.S.-based human rights organization Dui Hua Foundation 
        noted a significant drop in the number of ESS trials in 
        2015, which it attributed to the Chinese government's 
        use of non-ESS charges to prosecute political and 
        religious activism.\66\ In January 2016, a court in 
        Guangdong province convicted Tang Jingling,\67\ Yuan 
        Chaoyang,\68\ and Wang Qingying \69\ of ``inciting 
        subversion of state power,'' an ESS charge, in 
        connection with their promotion of non-violent civil 
        disobedience, sentencing them to prison terms ranging 
        from two years and six months to five years.\70\ In the 
        same month, a court in the Xinjiang Uyghur Autonomous 
        Region sentenced Zhang Haitao,\71\ an advocate for 
        ethnic minority rights, to 19 years' imprisonment on 
        ESS charges.\72\ In addition, as of July 2016, 
        authorities filed ESS charges against at least 16 
        rights lawyers and advocates who were detained or 
        disappeared in connection with the crackdown that began 
        in and around July 2015.\73\ [For more information 
        about the 2015 crackdown on human rights lawyers and 
        advocates, see Section III--Access to Justice.]

------------------------------------------------------------------------
  UN Committee against Torture's Review of China's Compliance With the
                       Convention against Torture
-------------------------------------------------------------------------
  On November 17 and 18, 2015, the UN Committee against Torture
 (Committee) held sessions in Geneva, Switzerland, to assess China's
 compliance with the Convention against Torture and Other Cruel, Inhuman
 or Degrading Treatment or Punishment (Convention against Torture).\74\
 In response to Committee members' questions, the Chinese delegation
 claimed that ``[t]here were no cases of political imprisonment'' and
 that ``interrogation chairs were used to prevent detainees from
 escaping, attacking others or self-harming and were padded for comfort
 and safety.'' \75\ Recent reports from international human rights
 organizations referred to these chairs as ``tiger chairs'' and detailed
 their use as torture devices.\76\
  In its concluding observations, the Committee noted certain positive
 developments in the Chinese government's efforts to reform the criminal
 justice system, including the recognition of the infliction of mental
 suffering as a form of torture and the 2013 abolition of the
 reeducation through labor system.\77\
  The Committee, however, censured the Chinese government, noting that
 ``the practice of torture and ill-treatment is still deeply entrenched
 in the criminal justice system . . ..'' \78\ Specific concerns included
 that the definition of torture under Chinese law did not conform to
 that of the Convention against Torture\79\ and that Chinese authorities
 used broadly defined charges against rights advocates and religious
 practitioners and subjected them to ill-treatment, torture,\80\ ``black
 jails,'' and other forms of administrative detention without
 accountability.\81\ The Committee further criticized China for failing
 to provide disaggregated information about torture, criminal justice,
 and related issues by invoking state secrets provisions.\82\ Among its
 recommendations, the Committee called on China to repeal provisions of
 the PRC Criminal Procedure Law that allow de facto incommunicado
 detention known as ``residential surveillance at a designated
 location.'' \83\
------------------------------------------------------------------------


------------------------------------------------------------------------
  UN Committee against Torture's Review of China's Compliance With the
                  Convention against Torture--Continued
-------------------------------------------------------------------------
  The Chinese government reportedly barred at least seven rights
 advocates from exiting China to prevent them from attending the
 review.\84\ The Chinese government also reportedly denied citizens'
 disclosure requests for information omitted from China's written report
 to the Committee, including details of cases where the government had
 awarded compensation to victims of torture and coerced confession, the
 punishment that the perpetrators received, and the charges for which
 they were prosecuted.\85\
------------------------------------------------------------------------

 Ongoing Challenges in the Implementation of the Criminal Procedure Law


                          COERCED CONFESSIONS

    Despite legislative and regulatory enactments by the 
Chinese government to prevent coerced confession, the problem 
continued during the reporting year. A November 2015 Amnesty 
International report noted that the extraction of confessions 
through torture remained widespread in pre-trial detention, 
especially in cases that the government considered to be 
politically sensitive.\86\
    The 2012 amendment to the PRC Criminal Procedure Law (CPL) 
provided for the exclusion of evidence obtained through illegal 
means such as torture, force, or threat, and required 
audiovisual recording of the interrogation process in serious 
cases involving life imprisonment or the death penalty.\87\ In 
September 2015, the Ministry of Public Security (MPS) announced 
that the implementation of the audiovisual recording system, as 
prescribed by the CPL, was still in progress and that it 
planned eventually to expand the scope of the system to cover 
all criminal cases.\88\ In March 2016, the MPS issued 
disciplinary rules to hold police officers accountable for 
misconduct and subject them to criminal, administrative, and 
disciplinary sanctions, including for obtaining confessions by 
torturing detainees and retaliating against whistleblowers or 
complainants.\89\
    Chinese and international rights organizations expressed 
concerns about the implementation and effectiveness of existing 
preventive measures, as did a member of the Chinese People's 
Political Consultative Conference (CPPCC).\90\ Lawyer and CPPCC 
delegate Shi Jie observed that written interrogation notes 
sometimes were inconsistent with or even contradicted 
audiovisual recordings.\91\ Shi suggested that the National 
People's Congress specify, through legislation or judicial 
interpretation, that defense lawyers have the right to copy the 
recording of the entire interrogation session, whether or not 
the procuratorate decides to transfer it to the court.\92\ A 
U.S.-based legal expert observed that ``recording 
interrogations [was] not significantly changing the culture of 
extreme reliance on confessions as the primary form of evidence 
in criminal cases.'' \93\ Human Rights Watch also questioned 
the effectiveness of the supervisory mechanism.\94\

                         TELEVISED CONFESSIONS

    The Chinese government's practice of broadcasting on 
television prerecorded ``confessions'' in high-profile cases 
\95\ continued during the past reporting year.\96\ Examples of 
individuals subjected to televised ``confessions'' included the 
cofounder of a legal advocacy NGO,\97\ rights lawyers,\98\ 
media professionals,\99\ booksellers,\100\ and other 
individuals.\101\ Such practices contravene international human 
rights standards, including the right to a fair trial \102\ and 
due process,\103\ the presumption of innocence,\104\ and the 
right against self-incrimination.\105\ The international NGO 
Chinese Human Rights Defenders noted that ``[w]hen suspects are 
held incommunicado, without access to lawyers, and `confess' on 
TV--a cruel and degrading humiliation in itself--it is 
impossible to verify if they have confessed willingly or have 
been tortured, threatened, or intimidated.'' \106\ Zhu Zhengfu, 
a CPPCC member and Deputy Director of the All China Lawyers 
Association, reportedly said that televised confessions worked 
against the principle of the presumption of innocence.\107\ A 
senior judge in Henan province reportedly echoed this opinion, 
noting, ``Outside of a court, no one has the right to decide 
whether someone is guilty of a crime.'' \108\

           RESIDENTIAL SURVEILLANCE AT A DESIGNATED LOCATION

    Under Article 73 of the PRC Criminal Procedure Law, 
authorities can enforce a form of coercive detention known as 
``residential surveillance at a designated location'' \109\ to 
detain a person at an undisclosed location for up to six months 
for cases involving ``endangering state security'' (ESS), 
terrorism, and serious bribery.\110\ An international human 
rights group questioned the legality of ``residential 
surveillance at a designated location'' and noted that the six-
month period far exceeded the 30-day time limit for police to 
submit an arrest request to the procuratorate in cases where 
individuals were held at a detention center.\111\
    The UN Committee against Torture criticized this coercive 
measure because it ``may amount to incommunicado detention in 
secret places, putting detainees at a high risk of torture or 
ill-treatment.'' \112\ In December 2015, with the stated goal 
of supervising the enforcement of ``residential surveillance at 
a designated location,'' the Supreme People's Procuratorate 
issued provisions requiring procuratorate officials to issue an 
``opinion to correct'' upon discovering noncompliant or 
unlawful conduct such as corporal punishment and torture 
committed by officials carrying out the coercive measure.\113\ 
A lawyer based in Shanghai municipality, however, questioned 
the effectiveness of the provisions because they did not 
provide for any penalty.\114\ Two China-based legal scholars 
also cautioned that since ``residential surveillance at a 
designated location'' is enforced outside a detention center, 
the lack of effective supervision could lead to illegal 
evidence gathering.\115\

                           Access to Counsel

    In the past year, the Chinese government denied access to 
legal counsel to some individuals detained in politically 
sensitive cases. Individuals charged with ESS crimes--which the 
government often used against rights advocates \116\--continued 
to face difficulty in meeting with their lawyers.\117\ Article 
33 of the PRC Lawyers Law as amended in 2012 \118\ deprives 
detainees of the right to meet with their lawyers in ESS, 
terrorism, and serious bribery cases (``three categories of 
cases,'' or sanlei anjian \119\) unless an application for that 
purpose has been approved by the agency investigating the 
case.\120\ The CPL, however, does not provide for a specific 
timeframe within which authorities must decide on such an 
application.\121\ Authorities reportedly obstructed or denied 
access to counsel for those detained during a major crackdown 
on rights lawyers and advocates that began in and around July 
2015 \122\ and in other cases involving rights advocacy.\123\
    After the 2012 amendment of the CPL, some lawyers reported 
that defendants had improved access to legal counsel,\124\ even 
though lawyers continued to experience difficulties in meeting 
with their clients, for reasons including the following: 
insufficient numbers of lawyer meeting rooms in detention 
facilities; \125\ authorities' invocation of the ``three 
categories of cases'' to deny a detainee 
access to counsel irrespective of the actual charge; \126\ 
authorities' detention of individuals under ``residential 
surveillance at a designated location'' instead of at a 
detention center; \127\ and authorities' refusal to allow 
lawyer-client meetings without prior permission.\128\

                      Torture and Abuse in Custody

    During this reporting year, authorities at detention 
facilities continued to abuse detainees. For example, in 
November 2015, Zhang Liumao,\129\ founder of a literary 
magazine, died in a detention center in Guangzhou municipality, 
Guangdong province, after authorities had detained him for 
about two months on suspicion of ``picking quarrels and 
provoking trouble.'' \130\ A lawyer who viewed Zhang's body 
observed evidence of physical abuse,\131\ but procuratorate 
officials denied the family's demand for a copy of the full 
autopsy report.\132\
    In April 2016, the sister of imprisoned rights advocate 
Yang Maodong, better known as Guo Feixiong, requested that 
prison officials provide Guo with medical examination and 
treatment for his deteriorating health, which included 
intermittent bloody diarrhea and bleeding in his mouth and 
pharynx.\133\ In May, officials in charge of Guo's custody 
forced Guo to have a rectal examination, which officials 
reportedly filmed and threatened to post online.\134\
    In May 2016, Lei Yang, an environmentalist and new father, 
died shortly after police officers in Beijing municipality 
placed him in custody.\135\ In June, Beijing procuratorial 
officials approved the arrest of two of the officers involved 
on the charge of ``dereliction of duty.'' \136\ Authorities 
reportedly censored a news article about Lei's family accusing 
the police officers of causing Lei's death by intentional 
infliction of injury.\137\
    In August 2016, family members of detained lawyer Xie Yang 
issued a statement saying that in August 2015, officials 
reportedly beat Xie unconscious after Xie was tortured and 
called out for help from a window of the holding place where 
``residential surveillance at a designated location'' was 
enforced.\138\ In July 2016, officials at the Changsha 
Municipal No. 2 PSB Detention Center reportedly held Xie in a 
cell with a death row inmate who attacked Xie with handcuffs, 
causing serious injuries.\139\

                          Wrongful Conviction

    In March 2016, the Supreme People's Court (SPC) and the 
Supreme People's Procuratorate (SPP) reported continuing to 
make efforts to prevent wrongful convictions,\140\ and courts 
in Jilin, Zhejiang, and Yunnan provinces overturned convictions 
in some cases involving torture allegations.\141\ Nevertheless, 
reports of coerced confessions continued to surface this past 
year.\142\ In June 2016, the SPP released a guiding case in 
which a local procuratorate did not approve the arrest of a 
murder suspect when it determined that authorities had 
illegally obtained the suspect's confession and that other 
evidence was insufficient to establish criminal conduct.\143\ 
In March 2016, a procuratorate in Guizhou province agreed to 
investigate the 2003 murder convictions of two individuals who 
alleged that they were tortured during the police 
investigation, but the court that rendered the guilty verdict 
declined the procuratorate's request to retrieve the case 
materials for review.\144\
    The Chinese government and Communist Party previously have 
called for an end to the use of quotas for arrests, 
indictments, guilty verdicts, and case conclusions in 
performance evaluations.\145\ Depending on the implementation 
of such a plan,\146\ this change could reduce pressure on 
police to extract confessions \147\ and on courts to issue 
guilty verdicts.\148\ In February 2016, state-funded newspaper 
Beijing Times published a commentary in which the author 
anticipated that this change would result in an increase in 
not-guilty verdicts.\149\ According to the SPC work report 
released in March 2016, the not-guilty verdict rate for 2015 
was 0.084 percent,\150\ representing an increase from 0.066 
percent for 2014,\151\ but below 0.10 and 1.02 percent for 2010 
and 2000, respectively.\152\ Chinese news agency Caixin 
reported that more than half of the 26 annual work reports 
published by provincial-level high courts in 2016 continued to 
list statistical data of these quotas as performance 
indicators.\153\

                             Death Penalty

    The Ninth Amendment to the PRC Criminal Law removed the 
death penalty from 9 non-violent crimes,\154\ leaving 46 crimes 
that still carried the death penalty.\155\ While two UN special 
rapporteurs welcomed this move,\156\ one human rights group 
viewed it as a modest improvement,\157\ and another questioned 
its practical impact on reducing the number of executions.\158\ 
Despite the trend of a reduction in the number of executions in 
China--from an estimated 12,000 in 2002 to 2,400 in 2013 
\159\--the number of executions reportedly remained high 
relative to other countries.\160\ In April 2016, Amnesty 
International estimated that the number of executions in China 
in 2015 was still in the thousands, exceeding the number for 
all other countries combined.\161\

         WITHHOLDING OF STATISTICS RELATED TO THE DEATH PENALTY

    The Chinese government continued to withhold statistical 
data on executions \162\ and treat the data as a state 
secret.\163\ In its review of China's compliance with the 
Convention against Torture, the UN Committee against Torture 
requested that the Chinese government provide information on 
the number of executions carried out.\164\ In its response to 
the Committee, China merged the statistical data on the death 
penalty with other criminal sentences, rather than providing 
disaggregated data on executions alone.\165\

                 JUDICIAL REVIEW OF DEATH PENALTY CASES

    Some scholars expressed concerns about the death penalty 
review process, specifically its lack of clear legal 
standards,\166\ transparency,\167\ and adequate procedures to 
ensure meaningful participation by legal counsel.\168\ At a 
criminal law forum in October 2015, Zhou Guangquan, a Tsinghua 
University law professor and a member of the National People's 
Congress Legal Affairs Committee, called on the SPC to 
promulgate death penalty sentencing guidelines and to disclose 
statistical data on death penalty reviews.\169\
    The U.S.-based human rights organization Dui Hua Foundation 
examined 525 death penalty review decisions issued between 
April 2011 and November 2015 and inferred from these decisions 
that, in determining whether to approve a death sentence, the 
SPC considered several mitigating factors, including remorse, 
good behavior, severity of the crime, and the defendant's 
economic situation and role in the crime.\170\ The Dui Hua 
Foundation did not cite and the Commission did not observe any 
published legal standards governing death penalty review.\171\
    Although the SPC in 2013 promulgated a general rule 
requiring courts to post judgments online,\172\ an SPC official 
explained that the SPC would publish only selected death 
penalty review decisions.\173\ The Dui Hua Foundation reported 
an inconsistency between the 2-percent reversal rate based on 
the cases it examined \174\ and the figure provided by a former 
SPC judge, which was around 10 percent in 2014.\175\ The Dui 
Hua Foundation further noted that the SPC published a small 
fraction of the death penalty review decisions.\176\

                            ORGAN HARVESTING

    Huang Jiefu, a senior Chinese health official, announced in 
late 2014 that harvesting organs from executed prisoners would 
completely cease on January 1, 2015,\177\ but he later 
characterized death row prisoners as citizens who were eligible 
to give consent to organ donation.\178\ In November 2015, Huang 
again affirmed the ban on harvesting organs from executed 
prisoners but when asked, did not deny that the practice 
continued.\179\ In June 2016, the U.S. House of Representatives 
passed a resolution expressing concerns about organ harvesting 
in China and noting that Huang's 2014 announcement did not 
directly address organ harvesting from ``prisoners of 
conscience.'' \180\ Ahead of an August 2016 global conference 
on transplantation, its organizer, the Transplantation Society, 
rejected 10 out of 28 clinical papers submitted from China for 
presentation at the conference because of concerns over the 
sources of the transplanted organs discussed in these 
papers.\181\
    According to Chinese doctors interviewed by the New York 
Times, the Communist Party called for Party members to donate 
organs and bring media attention to organ donation, which 
reportedly resulted in an increase in donations.\182\ China 
Daily, a state-run media outlet, reported a 60-fold increase in 
voluntary organ donations between 2010 and 2014.\183\ According 
to a state-funded news outlet, as of July 2016, the number of 
patients waiting for organ transplantation (approximately 
300,000) remained significantly higher than those who actually 
received it (approximately 10,000).\184\

                                                      Criminal 
                                                        Justice
                                                Criminal 
                                                Justice
    Notes to Section II--Criminal Justice

    \1\ Maya Wang, Human Rights Watch, ``Dispatches: China Should End 
Deaths in Police Custody,'' Dispatches (blog), 27 May 16; Ako Tomoko, 
``Why Is China Muzzling Its Lawyers? '' Tokyo Foundation, 1 February 
16; Margaret Lewis, ``A Review of China's Record on Torture,'' 
University of Nottingham, China Policy Institute: Analysis (blog), 9 
February 16. See also James Leibold, ``China Tightens Its Security 
Screws,'' East Asia Forum, 22 December 15; Minxin Pei, ``The Twilight 
of Communist Party Rule in China,'' American Interest, Vol. 11, No. 4, 
12 November 15; Bureau of Diplomatic Security, U.S. Department of 
State, ``China 2016 Crime & Safety Report: Shenyang,'' 16 May 16.
    \2\ UN Committee against Torture, Concluding Observations of the 
Committee against Torture--China, adopted by the Committee at its 864th 
Meeting (21 November 2008), CAT/C/CHN/CO/4, 12 December 08, para. 14; 
UN Committee against Torture, Concluding Observations on the Fifth 
Periodic Report of China, adopted by the Committee at its 1391st and 
1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 42. See also Human Rights Watch, `` `An Alleyway in Hell,' '' 12 
November 09.
    \3\ UN Committee against Torture, Concluding Observations of the 
Committee against Torture--China, adopted by the Committee at its 864th 
Meeting (21 November 2008), CAT/C/CHN/CO/4, 12 December 08, para. 
15(b); UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 18.
    \4\ UN Committee against Torture, Concluding Observations of the 
Committee against Torture--China, adopted by the Committee at its 864th 
Meeting (21 November 2008), CAT/C/CHN/CO/4, 12 December 08, para. 
11(c); UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 12.
    \5\ UN Committee against Torture, Concluding Observations of the 
Committee against Torture--China, adopted by the Committee at its 864th 
Meeting (21 November 2008), CAT/C/CHN/CO/4, 12 December 08, para. 
11(a); UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 10.
    \6\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 6.
    \7\ Harry Wu and Cole Goodrich, ``A Jail by Any Other Name: Labor 
Camp Abolition in the Context of Arbitrary Detention in China,'' Human 
Rights Brief, Vol. 21, Issue 1 (Winter 2014), 4.
    \8\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 9.
    \9\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 9(1). See also CECC, 2014 Annual Report, 9 
October 14, 81; United Nations Treaty Collection, Chapter IV, Human 
Rights, International Covenant on Civil and Political Rights, last 
visited 20 May 16. China has signed but not ratified the ICCPR. State 
Council Information Office, ``National Human Rights Action Plan of 
China (2009-2010),'' 13 April 09, Introduction, sec. V(1). The 2009-
2010 National Human Rights Action Plan issued by the Chinese government 
in April 2009 stated that the ``essentials'' of the ICCPR were some of 
the ``fundamental principles'' on which the plan was framed, and that 
the government ``will continue legislative, judicial and administrative 
reforms to make domestic laws better linked with this Covenant, and 
prepare the ground for ratification of the ICCPR.'' See also 
International Justice Resource Center, ``Increased Oppression of 
Chinese Human Rights Defenders Draws International Criticism,'' 22 
February 16.
    \10\ Harry Wu and Cole Goodrich, ``A Jail by Any Other Name: Labor 
Camp Abolition in the Context of Arbitrary Detention in China,'' Human 
Rights Brief, Vol. 21, Issue 1 (Winter 2014), 4; Amnesty International, 
``China: Submission to the United Nations Committee against Torture 
59th Session, 9 November-9 December 2015,'' October 2015, 16; Chinese 
Human Rights Defenders, ``We Can Beat You to Death With Impunity,'' 
October 2014, 6. See also ``Guo Gai and Wang Jianfen: Details of Black 
Jails in Wuxi: Rescue and Torture Reenactment'' [Guo gai, wang jianfen: 
wuxi hei jianyu shimo: yingjiu he kuxing yanshi], Charter 08 (blog), 23 
December 15.
    \11\ National People's Congress Standing Committee, Decision on 
Abolishing Laws and Regulations Regarding Reeducation Through Labor 
[Quanguo renmin daibiao dahui changwu weiyuanhui guanyu feizhi youguan 
laodong jiaoyang falu guiding de jueding], issued and effective 28 
December 13; CECC, 2014 Annual Report, 9 October 14, 82-84.
    \12\ Amnesty International, ``China: Submission to the United 
Nations Committee against Torture 59th Session, 9 November-9 December 
2015,'' October 2015, 16; ``Black Jails Still in Vogue in Mainland, 
Reeducation Through Labor Continues To Exist Under a Different Name'' 
[Dalu hei jianyu shengxing laojiao huan tang bu huan yao], Radio Free 
Asia, 3 November 15. A petitioner reported that ``black jails'' 
provided no procedural protection and that human rights conditions had 
deteriorated after the abolition of RTL.
    \13\ Amnesty International, ``China: Submission to the United 
Nations Committee against Torture 59th Session, 9 November-9 December 
2015,'' October 2015, 16; ``Chinese Petitioner `Tortured' During 
Detention by Beijing Police,'' Radio Free Asia, 7 October 15; ``Wuxi 
`Fascism,' `Black Jail,' `Torture,' `Human Rights' '' [Wuxi ``faxisi'' 
``hei jianyu'' ``kuxing'' ``renquan''], Boxun, 20 April 16; ``Black 
Jails Still in Vogue in Mainland; Reeducation Through Labor Continues 
To Exist Under a Different Name'' [Dalu hei jianyu shengxing laojiao 
huan tang bu huan yao], Radio Free Asia, 3 November 15.
    \14\ Chinese Human Rights Defenders, ``[CHRB] CHRD Urges 
International Intervention To Gain Release of Human Rights Defenders in 
China (10/5-10/9/2015),'' 9 October 15.
    \15\ Carey Lodge, ``China: 20 Christians Sentenced to `Black Jail' 
in Last Two Months,'' Christian Today, 3 November 15; Carey Lodge, 
``China: Pastor Released From `Black Jail' After Opposing Cross 
Demolitions,'' Christian Today, 9 February 16.
    \16\ For more information on Yin Huimin, see the Commission's 
Political Prisoner Database record 2015-00015.
    \17\ ``Yin Huimin, Placed in Black Jail During the Two Sessions, 
Faced Torture and Violent Beating by Evil Police, Causing Permanent 
Deafness'' [Yin huimin lianghui qijian bei guan hei jianyu zao kuxing 
bei e jing baoda zhi zhongshen er long], Boxun, 19 March 16.
    \18\ See, e.g., Rights Defense Network, ``Two Sessions Stability 
Maintenance: Hebei Petitioner Zhao Chunhong Held in Black Jail'' 
[Lianghui weiwen, hebei nu fangmin zhao chunhong bei guan hei jianyu], 
4 March 16; Rights Defense Network, ``Two Sessions Stability 
Maintenance: Shanghai Rights Defender Ding Juying Held in Black Jail in 
Beijing, Zhou Xuezhen Administratively Detained'' [Lianghui weiwen, 
shanghai renquan hanweizhe ding juying zai beijing zao guan hei jianyu, 
zhou xuezhen bei xingzheng juliu], 6 March 16; Rights Defense Network, 
``Shanghai Petitioner Sun Hongqin Sent Back to Shanghai From Beijing 
and Held in Black Jail'' [Shanghai fangmin sun hongqin bei cong beijing 
qiansong huidao shanghai bei guan hei jianyu], 28 February 16; Xiong 
Bin and Shu Can, ``Interception for the Two Sessions Began on the 
Fourth Day, Number of Petitioners in Beijing Decreased'' [Lianghui jie 
fang chusi kaishi zai jing fangmin jianshao], New Tang Dynasty 
Television, 15 February 16.
    \19\ Teng Biao, ``What Is a `Legal Education Center' in China,'' 
China Change, 3 April 14.
    \20\ Amnesty International, ``China: Submission to the United 
Nations Committee against Torture 59th Session, 9 November-9 December 
2015,'' October 2015, 16.
    \21\ Rights Defense Network, ``Rights Defense Network: 
Investigative Report Regarding Mainland China's `Legal Education 
Centers' (Black Jails)'' [Weiquan wang: zhongguo dalu ``fazhi xuexi 
ban'' (hei jianyu) diaoyan baogao], 6 January 16.
    \22\ ``Black Jails Still in Vogue in Mainland, Reeducation Through 
Labor Continues To Exist Under a Different Name'' [Dalu hei jianyu 
shengxing laojiao huan tang bu huan yao], Radio Free Asia, 3 November 
15; ``Jiansanjiang `Black Jail' Closed'' [Jiansanjiang ``hei jianyu'' 
guanbi], Deutsche Welle, 2 May 14; ``Heilongjiang Human Rights Case 
Follow-up: Four Falun Gong Practitioners Illegally Tried,'' Clear 
Wisdom, 21 December 14.
    \23\ ``Heilongjiang Human Rights Case Follow-up: Four Falun Gong 
Practitioners Illegally Tried,'' Clear Wisdom, 21 December 14; 
``Jiansanjiang Case Verdict Announced, Lawyers and Family Members 
Intercepted, Defendants Don't Accept Verdict and Will Bring Appeals'' 
[Jiansanjiang an xuanpan lushi, jiashu zao lanjie dangshiren bufu 
panjue tichu shangsu], Radio Free Asia, 22 May 15. For prior Commission 
reporting on the legal education center in Jiansanjiang, see CECC, 2015 
Annual Report, 8 October 15, 124; CECC, 2014 Annual Report, 9 October 
14, 83. For more information on the cases of the four Falun Gong 
practitioners, see the Commission's Political Prisoner Database records 
2015-00301 on Li Guifang, 2015-00302 on Meng Fanli, 2015-00303 on Wang 
Yanxin, and 2015-00304 on Shi Mengwen.
    \24\ ``China Continues To Use Psychiatric `Treatment' on Its 
Critics: Report,'' Radio Free Asia, 11 February 16; ``Shanghai 
Petitioner Sent to Psychiatric Hospital in Beijing, Wuxi Using 
Psychiatric Hospitals To Replace Black Jails To Detain Petitioners'' 
[Shanghai yi fangmin zai beijing bei song jingshenbing yuan wuxi yi 
jingshenbing yuan daiti hei jianyu qiu fangmin], Radio Free Asia, 11 
February 16; An Jing, ``Psychiatric Hospitals Take the Place of Black 
Jails To Suppress Aggrieved Citizens Who Have Been Prevented From 
Petitioning'' [Jingshenbing yuan qudai hei jianyu zhuan zhi jiefang 
yuanmin], Renmin Bao, 11 February 16. Authorities in different 
localities across China reportedly continued the practice of holding 
petitioners and rights advocates in psychiatric institutions. See, 
e.g., Civil Rights & Livelihood Watch, ``2015 Year-End Report on Mental 
Health and Human Rights (Forced Psychiatric Commitment)'' [2015 nian 
zhongguo jingshen jiankang yu renquan (bei jingshenbing) nianzhong 
zongjie], 8 February 16; Chinese Human Rights Defenders, ``[CHRB] 
Forced Psychiatric Commitment of Dissidents Continues as Police Act 
Above Enacted Law (4/29-5/5, 2016),'' 5 May 16; Civil Rights & 
Livelihood Watch, ``More Than 20 Petitioners Welcomed Lu Liming of 
Shanghai Upon His Discharge From the Hospital, Concluding His Life of 
Forcible Psychiatric Commitment'' [20 yu fangmin yingjie shanghai lu 
liming chuyuan jieshu bei jingshenbing yuan shenghuo], 11 February 16 
(Beijing municipality); Civil Rights & Livelihood Watch, ``Qi Qianping 
From Guangzhou Forcibly Committed to Psychiatric Hospital Again for 
Over a Hundred Days'' [Guangzhou qi qianping zaici bei guan 
jingshenbing yuan yu bai tian], 5 May 16 (Guangdong province); Civil 
Rights & Livelihood Watch, ``Petitioner He Fangwu From Yongzhou City, 
Hunan Province, Forcibly Committed to Psychiatric Hospital Again'' 
[Hunan sheng yongzhou shi fangmin he fangwu zaici bei guan jingshenbing 
yuan], 17 April 16 (Hunan province); Civil Rights & Livelihood Watch, 
``Gu Xianghong From Hunan Committed to Psychiatric Hospital During the 
Two Sessions and to Date Has Not Been Released'' [Hunan gu xianghong 
lianghui qijian bei touru jingshenbing yuan zhijin wei fang], 21 March 
16 (Hunan province); Civil Rights & Livelihood Watch, ``Petitioner 
Zhang Chunyan From Inner Mongolia Certified To Have Mental Disorder, 
but Procuratorate Still Approved Her Arrest'' [Neimeng fangmin zhang 
chunyan bei jianding you jingshenbing reng bei jianchayuan pizhun 
daibu], 16 March 16 (Inner Mongolia Autonomous Region); Civil Rights & 
Livelihood Watch, ``Petitioner Wang Shou'an From Zhushan County, Hubei 
Province, Committed to Psychiatric Hospital for the First Time'' [Hubei 
sheng zhushan xian fangmin wang shou'an shouci bei guan jingshenbing 
yuan] 30 November 15 (Hubei province).
    \25\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13, arts. 27, 30, 
75(5), 78(1).
    \26\ Civil Rights & Livelihood Watch, ``2015 Year-End Report on 
Mental Health and Human Rights (Forced Psychiatric Commitment)'' [2015 
nian zhongguo jingshen jiankang yu renquan (bei jingshenbing) nianzhong 
zongjie], 8 February 16.
    \27\ Chinese Communist Party Central Commission for Discipline 
Inspection, Provisions for Investigative Work of Cases by Disciplinary 
Investigation Agencies [Zhongguo gongchandang jilu jiancha jiguan 
anjian jiancha gongzuo tiaoli], issued and effective 25 March 94, art. 
28. Article 28 of the 1994 provisions requires any person or 
organization having information about a case under investigation to 
comply with the shuanggui process. Chinese Communist Party Central 
Commission for Discipline Inspection, Opinion on Strengthening the 
Coordination Mechanisms in Case Investigation and on Further Regulating 
the Measure of ``Double Designation'' [Zhongyang jiwei guanyu wanshan 
cha ban anjian xiediao jizhi jinyibu gaijin he guifan ``lianggui'' 
cuoshi de yijian], issued 20 January 05, item 2(1); Flora Sapio, 
``Shuanggui and Extralegal Detention in China,'' China Information, 
Vol. 22, No. 1, March 2008, 14-15. The 2005 Central Commission for 
Discipline Inspection opinion limits the application of shuanggui to 
Party members.
    \28\ Chinese Communist Party Central Commission for Discipline 
Inspection, Provisions for Investigative Work of Cases by Disciplinary 
Investigation Agencies [Zhongguo gongchandang jilu jiancha jiguan 
anjian jiancha gongzuo tiaoli], issued and effective 25 March 94, arts. 
10, 28(3), 39. Article 39 of the 1994 provisions limits the initial 
investigation period to three months but allows the unit that opened 
the case to extend it for an unspecified length of time in ``serious or 
complex'' cases. Chinese Communist Party Central Commission for 
Discipline Inspection, Opinion on Strengthening the Coordination 
Mechanisms in Case Investigation and on Further Regulating the Measure 
of ``Double Designation'' [Zhongyang jiwei guanyu wanshan cha ban 
anjian xiediao jizhi jinyibu gaijin he guifan ``lianggui'' cuoshi de 
yijian], issued 20 January 05, item 2(3). The 2005 opinion limits the 
initial investigation period to three months with an extension period 
not exceeding three months. Amnesty International, ``No End in Sight: 
Torture and Forced Confessions in China,'' 11 November 15, 34.
    \29\ Flora Sapio, ``Shuanggui and Extralegal Detention in China,'' 
China Information, Vol. 22, No. 1, March 2008, 24.
    \30\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 9; 
International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, art. 9. See also CECC, 2015 Annual Report, 8 October 
15, 102-3; CECC, 2014 Annual Report, 9 October 14, 87-88.
    \31\ Flora Sapio, ``Shuanggui and Extralegal Detention in China,'' 
China Information, Vol. 22, No. 1, March 2008, 8, 16. Based on a sample 
of 380 cases between 1990 and 2005, Flora Sapio found that the period 
of detention ranged from two days to over a year with an average period 
of three to six months.
    \32\ Liu Hai and Sun Yizhen, ``When an Official Goes Missing, What 
Should Their Family Do? '' [Guanyuan shilian le, jiashu zenme ban?], 
Wujie News, reprinted in Phoenix Net, 13 December 15.
    \33\ Amnesty International, ``No End in Sight: Torture and Forced 
Confessions in China,'' 11 November 15, 34; Zhong Ruoxin, ``Zhong 
Ruoxin: Which Officials Suffered Torture in the Anticorruption Storm'' 
[Zhong ruoxin: fanfu fengbao zhong naxie zaoyu xingxun de guanyuan], 
Criminal Affairs Net, 26 March 16.
    \34\ Maya Wang, Human Rights Watch, ``Dispatches: A Top Chinese 
Banker's Mysterious Death,'' Dispatches (blog), 3 February 16.
    \35\ Austin Ramzy, ``Ex-Official in China Blames Torture for Graft 
Confession,'' New York Times, Sinosphere (blog), 25 February 16; Luo 
Jieqi and Cui Houjian, ``Former National Energy Administration Deputy 
Director Xu Yongsheng on Trial, While in Court Asserts Innocence and 
Says Was Tortured'' [Guojia nengyuanju yuan fu juzhang xu yongsheng 
shoushen dang ting hanyuan cheng zao bigong], Caixin, 24 February 16.
    \36\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xing fa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15.
    \37\ ``Twenty Newly Added Crimes in PRC Criminal Law Are Said To Be 
Aimed at Suppressing Rights Defenders'' [Zhongguo xingfa xin zeng 20 
xiang zuiming bei zhi yizai daya weiquan minzhong], Radio Free Asia, 2 
November 15.
    \38\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, arts. 120(1-6), 286(1); Rights Defense Network, 
``Request To Withdraw Unconstitutional Provisions in the Criminal Law 
Amendments--Suggestions for Amendment Proposed by Rights Defense 
Network Concerning PRC Criminal Law Amendment (9) (Second Reading 
Draft)'' [Chexiao weixian qinquan de xingfa xiuzheng'an youguan 
tiaowen--weiquanwang dui xingfa xiuzheng'an (jiu) (cao'an erci shenyi 
gao) youguan tiaowen xiugai jianyi], 4 August 15.
    \39\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 291(1); Human Rights Watch, ``China: New Ban on 
`Spreading Rumors' About Disasters,'' 2 November 15; Cai Xiaoying, 
``International Federation of Journalists: Worsening Environment for 
Journalists in China'' [Guoji jizhe lianhui: zhongguo meiti huanjing 
riyi yanjun], BBC, 30 January 16.
    \40\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 290; Rights Defense Network, ``Request To Withdraw 
Unconstitutional Provisions in the Criminal Law Amendments--Suggestions 
for Amendment Proposed by Rights Defense Network Concerning PRC 
Criminal Law Amendment (9) (Second Reading Draft)'' [Chexiao weixian 
qinquan de xingfa xiuzheng'an youguan tiaowen--weiquanwang dui xingfa 
xiuzheng'an (jiu) (cao'an erci shenyi gao) youguan tiaowen xiugai 
jianyi], 4 August 15.
    \41\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 300; Guo Baosheng, ``Rights Lawyers and Religious 
Freedom in China'' [Weiquan lushi yu zhongguo de zongjiao ziyoudu], 
Human Rights in China Biweekly, No. 151 (20 February 15-5 March 15).
    \42\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 308(1); Rights Defense Network, ``Request To 
Withdraw Unconstitutional Provisions in the Criminal Law Amendments--
Suggestions for Amendment Proposed by Rights Defense Network Concerning 
PRC Criminal Law Amendment (9) (Second Reading Draft)'' [Chexiao 
weixian qinquan de xingfa xiuzheng'an youguan tiaowen--weiquanwang dui 
xingfa xiuzheng'an (jiu) (cao'an erci shenyi gao) youguan tiaowen 
xiugai jianyi], 4 August 15.
    \43\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 309; `` `Disrupting Court Order?' Several Hundred 
Lawyers Protested in a Jointly Signed Letter'' [``Raoluan fating 
zhixu''? shubai lushi lian shu fandui], Deutsche Welle, 28 November 14; 
Human Rights Campaign in China, ``Lawyer Zhang Lei: Record of Verdict 
Announcement in Guo Feixiong and Sun Desheng Case'' [Zhang lei lushi: 
guo feixiong, sun desheng an xuanpan ji], 16 December 15. The presiding 
judge in this case characterized the lawyer's advocacy on behalf of his 
client as an ``attack,'' as reflected in the following exchange between 
the lawyer and the judge: ``[Lawyer] Zhang Lei: [. . .] The protesters 
were exercising their right of free speech. By treating citizens' 
exercise of their free speech right as causing commotion and trouble, 
the judiciary is in fact the one that is `causing commotion and 
trouble.' When it makes this kind of determination, it is the judiciary 
that is `picking quarrels and provoking trouble' with each individual 
citizen and their rights. [Judge] Zheng Xin: Do not attack the 
judiciary; otherwise, your speech will be terminated.''
    \44\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 36.
    \45\ See, e.g., Rights Defense Network, ``Fujian Rights Defender 
and Lawyer Ji Sizun Was Prosecuted for `Picking Quarrels and Provoking 
Trouble and Gathering a Crowd To Disturb Public Order' After Having 
Been in Custody for Nearly 11 Months'' [Fujian renquan hanweizhe ji 
sizun lushi zao jiya jin 11 ge yue hou bei yi ``xunxin zishi he juzhong 
raoluan gonggong zhixu zui'' qisu], 20 September 15; Rights Defense 
Network, ``Lawyer Liu Zhengqing: Three Gentlemen of Chibi Case Report--
After More Than 2 Years, New Charge of `Picking Quarrels and Provoking 
Trouble' Added Today'' [Liu zhengqing lushi: chibi san junzi an 
tongbao--lishi 2 nian duo jin zai zeng zuiming ``xunxin zishi''], 20 
October 15.
    \46\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 293.
    \47\ Stanley Lubman, `` `Picking Quarrels' Casts Shadow Over 
Chinese Law,'' Wall Street Journal, China Real Time Report (blog), 30 
June 14.
    \48\ Supreme People's Court, Supreme People's Procuratorate, 
Interpretation of Certain Issues Concerning the Application of Law in 
the Handling of Criminal Cases Including Defamation by Means of the 
Internet [Liang gao fabu guanyu banli wangluo feibang deng xingshi 
anjian shiyong falu ruogan wenti de jieshi], issued 10 September 13.
    \49\ Edward Wong, ``China Uses `Picking Quarrels' Charge To Cast a 
Wider Net Online,'' New York Times, 26 July 15 (quoting Professor Zhang 
Qianfan).
    \50\ For more information on Pu Zhiqiang, see the Commission's 
Political Prisoner Database record 2014-00174.
    \51\ ``Pu Zhiqiang: China Rights Lawyer Gets Suspended Jail 
Sentence,'' BBC, 22 December 15.
    \52\ Ibid.; John M. Glionna, ``Mao's Grandson, Promoted to Major 
General, Faces Ridicule,'' Los Angeles Times, 4 August 10; Chris 
Buckley, ``Comments Used in Case Against Pu Zhiqiang Spread Online,'' 
New York Times, Sinosphere (blog), 29 January 15.
    \53\ ``Pu Zhiqiang: China Rights Lawyer Has Licence Revoked,'' BBC, 
14 April 16.
    \54\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
20(1); International Covenant on Civil and Political Rights, adopted by 
UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 21.
    \55\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 291.
    \56\ Human Rights Campaign in China, ``Lawyer Zhang Lei: Record of 
Verdict Announcement in Guo Feixiong and Sun Desheng Case'' [Zhang lei 
lushi: guo feixiong, sun desheng an xuanpan ji], 16 December 15; Human 
Rights in China, ``Guo Feixiong and Sun Desheng Indictment,'' 19 June 
14. For more information on Yang Maodong, also known as Guo Feixiong, 
see the Commission's Political Prisoner Database record 2005-00143.
    \57\ Ibid. For more information on Sun Desheng, see the 
Commission's Political Prisoner Database record 2011-00313.
    \58\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 300. Article 300 of the PRC Criminal Law prohibits 
the ``use of secret societies, cults, or superstition to undermine the 
implementation of the law.'' The article, as amended in 2015, provides 
for life imprisonment if the circumstances are ``particularly 
serious.''
    \59\ Wei Meng, ``Wu Zeheng, Leader of Evil Cult `Huazang Dharma,' 
Sentenced to Life Imprisonment by Court of First Instance'' [Xiejiao 
zuzhi ``huazang zongmen'' toumu wu zeheng yishen bei panchu wuqi 
tuxing], Xinhua, 31 October 15; ``China Harshly Sentences Founder of 
Huazang Dharma,'' China Change, 3 November 15; Zhuhai Intermediate 
People's Court, ``Court of First Instance Announces Verdict in Case of 
Wu Zeheng and Four Others [Charged With] Organizing and Using Cult 
Organization To Undermine Implementation of the Law'' [Wu zeheng deng 5 
ren zuzhi, liyong xiejiao zuzhi pohuai falu shishi an yishen xuanpan], 
30 October 15.
    \60\ Guo Baosheng, ChinaAid, ``House Churches Are the Next Target 
of Sinicization of Christianity'' [Jiating jiaohui shi jidujiao 
zhongguohua de xia yi ge mubiao], 2 December 15.
    \61\ ``New Development in the Case in Which Lawyer Zhang Zanning 
Defended Wu Hongwei, a Falun Gong Practitioner From Heyuan, Guangdong'' 
[Zhang zanning lushi wei guangdong heyuan falun gong xueyuan wu hongwei 
bianhu xin jinzhan], Boxun, 12 December 15.
    \62\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
18; International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, art. 18.
    \63\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, art. 33.
    \64\ See, e.g., Chris Buckley, ``3 Rights Advocates Are Sentenced 
to Prison in China,'' New York Times, 28 January 16; ``Xinjiang Rights 
Defender Zhang Haitao Sentenced to 19 Years--With Real Estate 
Confiscated, Where Will Wife and Infant Son Live? '' [Xinjiang weiquan 
renshi zhang haitao zao zhongpan 19 nian fangchan jiang moshou qi yu 
qiangbao er hechu wei jia?], Radio Free Asia, 18 January 16; ``Chinese 
Law Enforcement Uncovers Endangering State Security Cases; Peter 
[Dahlin] and Other Suspects Placed Under Criminal Coercive Measures'' 
[Woguo zhifa bumen pohuo yi qi weihai guojia anquan anjian bide deng 
fanzui xianyiren bei yifa caiqu xingshi qiangzhi cuoshi], Xinhua, 19 
January 16.
    \65\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, arts. 54(2), 56, 102-113. All ESS crimes carry a 
mandatory supplemental sentence of deprivation of political rights, 
which include the rights of speech, publication, assembly, association, 
procession, and demonstration. PRC Criminal Procedure Law [Zhonghua 
renmin gongheguo xingshi susong fa], passed 1 July 79, amended 17 March 
96, 14 March 12, effective 1 January 13, art. 73; UN Committee against 
Torture, Concluding Observations on the Fifth Periodic Report of China, 
adopted by the Committee at its 1391st and 1392nd Meetings (2-3 
December 2015), CAT/C/CHN/CO/5, 3 February 16, para. 14. In addition to 
the severe criminal penalty, ESS offenses trigger the criminal 
procedure provision permitting ``residential surveillance at a 
designated location,'' which in practice could amount to incommunicado 
detention.
    \66\ Dui Hua Foundation, ``China State Security Trials Fell 50 
Percent in 2015, Official Data Suggest,'' Dui Hua Human Rights Journal, 
6 April 16.
    \67\ For more information on Tang Jingling, see the Commission's 
Political Prisoner Database record 2011-00255.
    \68\ For more information on Yuan Chaoyang, also known as Yuan 
Xinting, see the Commission's Political Prisoner Database record 2014-
00221.
    \69\ For more information on Wang Qingying, see the Commission's 
Political Prisoner Database record 2014-00180.
    \70\ Chris Buckley, ``3 Rights Advocates Are Sentenced to Prison in 
China,'' New York Times, 28 January 16; Human Rights in China, 
``Sentencing Document of Tang Jingling, Yuan Chaoyang, Wang Qingying, 
`The Three Gentlemen of Guangzhou' '' [``Guangzhou san junzi'' tang 
jingling, yuan chaoyang, wang qingying de panjue shu], 29 January 16.
    \71\ For more information on Zhang Haitao, see the Commission's 
Political Prisoner Database record 2015-00343.
    \72\ ``Xinjiang Rights Defender Zhang Haitao Sentenced to 19 
Years--With Real Estate Confiscated, Where Will Wife and Infant Son 
Live? '' [Xinjiang weiquan renshi zhang haitao zao zhongpan 19 nian 
fangchan jiang moshou qi yu qiangbao er hechu wei jia?], Radio Free 
Asia, 18 January 16; Rights Defense Network, ``Urumqi Intermediate 
Court Sentenced Xinjiang Rights Defender Zhang Haitao to Fixed-Term 
Imprisonment of 15 Years for `Inciting Subversion of State Power' and 
Fixed-Term Imprisonment of 5 Years for `Supplying Foreign Entities With 
State Intelligence,' To Serve 19 Years Combined'' [Xinjiang renquan 
hanwei zhe zhang haitao bei wulumuqi zhong yuan yi ``shandong dianfu 
guojia zui'' chu youqi tuxing 15 nian, ``wei jingwai tigong qingbao 
zui'' panchu youqi tuxing 5 nian, hebing zhixing 19 nian], 18 January 
16.
    \73\ China Human Rights Lawyers Concern Group, ``[`709 Crackdown'] 
Latest Data and Development of Cases as of 1800 4 July 2016,'' 4 July 
16; China Human Rights Lawyers Concern Group, ``Report on the 709 
Crackdown,'' 6 July 16, 27. See also Human Rights Watch, ``China: 
Subversion Charges Target Lawyers,'' 14 January 16. For more 
information on the 16 individuals detained during the July 2015 
crackdown who were charged with ESS crimes, see the Commission's 
Political Prisoner Database records 2004-02053 on Hu Shigen, 2010-00348 
on Wu Gan (also known as Tufu), 2015-00252 on Wang Yu, 2015-00253 on 
Bao Longjun, 2015-00272 on Zhou Shifeng, 2015-00276 on Liu Sixin, 2015-
00277 on Zhao Wei, 2015-00278 on Wang Quanzhang, 2015-00284 on Li 
Heping, 2015-00295 on Xie Yang, 2015-00308 on Xie Yanyi, 2015-00311 on 
Li Chunfu, 2015-00331 on Gou Hongguo (also known as Ge Ping), 2015-
00333 on Liu Yongping (also known as Laomu), 2015-00344 on Lin Bin 
(also known as Monk Wang Yun), and 2016-00115 on Zhai Yanmin.
    \74\ UN Committee against Torture, Summary Record of the 1368th 
Meeting, CAT/C/SR.1368, 20 November 15; UN Committee against Torture, 
Summary Record of the 1371st Meeting, CAT/C/SR.1371, 23 November 15; 
Nick Cumming-Bruce, ``China Faces Sharp Questioning by U.N. Panel on 
Torture,'' New York Times, 17 November 15.
    \75\ UN Committee against Torture, Summary Record of the 1371st 
Meeting, CAT/C/SR.1371, 23 November 15, paras. 29, 67. For more 
information about interrogation chairs, also known as ``tiger chairs,'' 
see Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police Torture 
of Criminal Suspects in China,'' May 2015, 40. Human Rights Watch 
reported that ``[p]olice officers regularly use restraints--known as 
the ``tiger chair''--to immobilize suspects during interrogations. 
Former detainees told Human Rights Watch that they were strapped in 
this metal chair for hours and even days, deprived of sleep, and 
immobilized until their legs and buttocks were swollen.''
    \76\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015; Amnesty 
International, ``No End in Sight: Torture and Forced Confessions in 
China,'' 11 November 15, 6.
    \77\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 5.
    \78\ Ibid., para. 20.
    \79\ Ibid., paras. 8-9.
    \80\ Ibid., para. 18.
    \81\ Ibid., para. 42.
    \82\ Ibid., paras. 22, 30.
    \83\ Ibid., paras. 14-15.
    \84\ Ibid., para. 38. ``The Committee is concerned at allegations 
that seven human rights defenders, who were planning to cooperate with 
the Committee in connection with the consideration of the fifth 
periodic report of the State party, were prevented from travelling or 
were detained on the grounds that their participation could `endanger 
national security.' '' ``Chinese Lawyer's Solitary Confinement Amounts 
to `Slow Torture': Wife,'' Radio Free Asia, 18 November 15; Stephanie 
Nebehay, ``U.N. Torture Watchdog Questions China Over Crackdown on 
Activists, Lawyers,'' Reuters, 17 November 15; Sui-Lee Wee and 
Stephanie Nebehay, ``At U.N., China Uses Intimidation Tactics To 
Silence Its Critics,'' Reuters, 5 October 15.
    \85\ See, e.g., Rights Defense Network, ``Shanghai Rights Defender 
Yin Huimin Received a Reply From the Ministry of Foreign Affairs 
Entitled `Reply Concerning an Open Government Information (OGI) 
Application,' in Which It Claimed That the Information Sought Was 
Beyond the Scope of OGI'' [Shanghai renquan hanweizhe yin huimin 
shoudao waijiaobu ``guanyu zhengfu xinxi gongkai shenqing de fuhan'' 
cheng shenqing gongkai neirong bu shuyu qi zhengfu xinxi gongkai 
fanchou], 21 September 15; Rights Defense Network, ``Shanghai Rights 
Defender Ding Juying Commenced an Action Against the Ministry of 
Foreign Affairs Concerning Her Request for Information Relating to the 
Torture Report Made Under the Open Government Information Regulations'' 
[Shanghai renquan hanweizhe ding juying jiu kuxing baogao xinxi gongkai 
shiyi qisu waijiaobu], 26 October 15; Rights Defense Network, 
``Shanghai Rights Defender Zheng Peipei Contests the Reply Issued by 
the Ministry of Foreign Affairs Regarding the Torture Report and 
Commenced an Administrative Litigation Action Against It'' [Shanghai 
renquan hanweizhe zheng peipei bufu waijiaobu jiu kuxing baogao de 
fuhan dui qi tiqi xingzheng susong], 19 October 15; Lin Yunfei, 
``Citizen Li Wei: Administrative Litigation Complaint'' [Gongmin li 
wei: xingzheng qisu zhuang], New Citizen Movement, 19 August 15.
    \86\ Amnesty International, ``No End in Sight: Torture and Forced 
Confessions in China,'' 11 November 15, 9.
    \87\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 54, 121.
    \88\ Xing Shiwei, ``Audiovisual Recording Will Be Implemented in 
All Criminal Cases'' [Suoyou xing'an xunwen jiang quan luyin luxiang], 
Beijing News, 22 September 15.
    \89\ Ministry of Public Security, Provisions on Accountability for 
Public Security Agencies and People's Police in Law Enforcement 
Misconduct [Gong'an jiguan renmin jingcha zhifa guocuo zeren zhuijiu 
guiding], issued 24 February 16, effective 1 March 16, arts. 12, 19.
    \90\ Network of Chinese Human Rights Defenders & A Coalition of 
Chinese NGOs, ``Civil Society Report Submitted to the Committee against 
Torture for Its Review at the 56th Session of the Fifth Periodic Report 
(CAT/C/CHN/5) by the People's Republic of China on Its Implementation 
of the Convention against Torture and Other Cruel Inhuman or Degrading 
Treatment or Punishment,'' 26 October 15, 4.
    \91\ Zhao Fuduo, ``Shi Jie, Member of the CPPCC: Proposing Rules To 
Expressly Include Audiovisual Recordings as Evidence'' [Quanguo 
zhengxie weiyuan shi jie: jianyi mingque xunwen luyin luxiang wei 
zhengju], Caixin, 26 February 16.
    \92\ Ibid.
    \93\ China's Pervasive Use of Torture, Hearing of the 
Congressional-Executive Commission on China, 14 April 16, Margaret K. 
Lewis, Professor of Law, Seton Hall University School of Law, 2.
    \94\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015, 94.
    \95\ CECC, 2014 Annual Report, 9 October 14, 87, box on ``Televised 
Confessions.''
    \96\ ``Ministry of Truth: A Brief History of Televised 
`Confessions' in China,'' Hong Kong Free Press, 8 February 16; ``Top 
China Lawyer Calls for End to Televised Confessions,'' Hong Kong Free 
Press, 4 March 16.
    \97\ Tom Phillips, ``Swedish Activist Peter Dahlin Paraded on China 
State TV for `Scripted Confession,' '' Guardian, 19 January 16. For 
more information on Peter Dahlin, see the Commission's Political 
Prisoner Database record 2016-00024.
    \98\ Abby Seiff, ``China's Latest Crackdown on Lawyers Is 
Unprecedented, Human Rights Monitors Say,'' ABA Journal, 1 February 16; 
``US Condemns Zhang Kai `Confession' on Chinese State TV,'' BBC, 27 
February 16. For more information, see the Commission's Political 
Prisoner Database records 2015-00272 on Zhou Shifeng and 2015-00318 on 
Zhang Kai.
    \99\ ``China Court Jails Former Journalist After Televised 
`Confession,' '' Hong Kong Free Press, 24 December 15; Engen Tham and 
Paul Carsten, ``China State Media Announce Confessions in Stock Market 
Investigations,'' Reuters, 31 August 15; Tom Phillips, ``Chinese 
Reporter Makes On-Air `Confession' After Market Chaos,'' Guardian, 31 
August 15. For more information on Wang Xiaolu, see the Commission's 
Political Prisoner Database record 2015-0319.
    \100\ Ned Levin, ``Hong Kong Booksellers Confess to Illegal Sales 
in China,'' Wall Street Journal, 29 February 16. For more information, 
see the Commission's Political Prisoner Database records 2016-00090 on 
Gui Minhai, 2016-00164 on Lui Bo, 2016-00165 on Cheung Chi-ping, and 
2016-00166 on Lam Wing-kei.
    \101\ ``Chinese Tycoon Admits $800m Fraud in TV Confession,'' Japan 
Times, 16 May 16; ``Chinese State TV Airs Confessions by Taiwan Fraud 
Suspects,'' Reuters, 15 April 16.
    \102\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 14.
    \103\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
11(1); International Covenant on Civil and Political Rights, adopted by 
UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 9.
    \104\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
11(1); International Covenant on Civil and Political Rights, adopted by 
UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 14(2).
    \105\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 14(3)(g).
    \106\ Chinese Human Rights Defenders, ``China: Forced TV 
Confessions Violate Principle of Presumed Innocence Before Trial, 
Constitute Cruel & Degrading Punishment,'' 12 March 16.
    \107\ Jia Shiyu, ``Zhu Zhengfu: Suspects Making Confessions on 
Television Does Not Mean They Are Actually Guilty'' [Zhu zhengfu 
xianfan dianshi li renzui bu dengyu zhen youzui], Beijing News, 2 March 
16.
    \108\ Josh Chin, ``Chinese Judge Criticizes Televised 
Confessions,'' Wall Street Journal, China Real Time Report (blog), 15 
March 16.
    \109\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 73; Dui Hua Foundation, ``China Issues 
Oversight Rules for `Non-Residential' Residential Surveillance,'' Dui 
Hua Human Rights Journal, 9 February 16. The Dui Hua Foundation 
translates the term ``residential surveillance at a designated 
location'' as ``designated-location residential surveillance.'' See 
also UN Committee against Torture, Concluding Observations on the Fifth 
Periodic Report of China, adopted by the Committee at its 1391st and 
1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 14. The UN Committee against Torture uses the translation 
``residential surveillance at a designated location.''
    \110\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 73, 77. See also Eva Pils et al., `` 
`Rule by Fear? ' '' Asia Society, ChinaFile (blog), 18 February 16. 
Scholar Eva Pils wrote: `` . . . whereas in 2011, the authorities made 
people disappear stealthily and generally without admitting that this 
was happening, forced disappearances have now effectively become part 
of the system, and the authorities carry them out `in accordance with 
law.' ''
    \111\ The Rights Practice, ``Prevention of Torture: Concerns With 
the Use of `Residential Confinement in a Designated Residence,' '' 
October 2015.
    \112\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 14.
    \113\ Supreme People's Procuratorate, ``SPP Issues Provisions 
Concerning People's Procuratorates Carrying Out Supervision of 
Residential Surveillance at a Designated Location To Strengthen and 
Standardize Procuratorial Supervision of Residential Surveillance at a 
Designated Location'' [Zuigaojian fabu renmin jianchayuan dui zhiding 
jusuo jianshi juzhu shixing jiandu de guiding jiaqiang he guifan dui 
zhiding jusuo jianshi juzhu de jiancha jiandu], 28 December 15.
    \114\ Cui Xiankang and Shan Yuxiao, ``There Is Hope for Correcting 
[Problem of] Families Not Being Notified Promptly of Residential 
Surveillance at a Designated Location'' [Zhiding jusuo jianshi juzhu 
yuqi bu tongzhi jiashu youwang bei jiuzheng], Caixin, 29 December 15.
    \115\ Liu Yachang and Wang Chao, ``Interpreting and Improving the 
Constitutionality of the Residential Surveillance at a Designated 
Location System'' [Liu yachang, wang chao: zhiding jusuo jianshi juzhu 
zhidu de hexianxing jiedu yu wanshan], Journal of Central South 
University (Social Sciences Edition) 2015 No. 5, reprinted in China 
Criminal Procedure Law Net, 29 April 16.
    \116\ Chinese Human Rights Defenders, `` `Too Risky To Call 
Ourselves Defenders': CHRD Annual Report on the Situation of Human 
Rights Defenders in China (2015),'' February 2016, 5-6; Tom Hancock and 
Felicia Sonmez, ``China Steps Up Political Arrests, Prosecutions: 
Rights Group,'' Agence France-Presse, reprinted in Sino Daily, 8 
January 15; Dui Hua Foundation, ``China: State Security Indictments Hit 
Record High in 2014,'' Dui Hua Human Rights Journal, 21 December 15. 
See also Human Rights Watch, ``China's Rights Defenders,'' last visited 
on 10 May 16.
    \117\ See, e.g., Chinese Human Rights Defenders, `` `Too Risky To 
Call Ourselves Defenders': CHRD Annual Report on the Situation of Human 
Rights Defenders in China (2015),'' February 2016, 15; Hai Yan, 
``Chinese Rights Lawyer Zhou Shifeng Prosecuted for `Subversion' '' 
[Zhongguo weiquan lushi zhou shifeng bei yi `dianfu zui' qisu], Voice 
of America, 13 June 16; ``In July 9 Case, Liu Sixin's Arrest on 
`Subversion' Charge Approved'' [709 an liu sixin she ``dianfu zui'' bei 
pibu], Radio Free Asia, 14 January 16; Lin Feng, ``Legal Assistant Born 
in the 90s Accused of Subversion of State Power, Family Says It's 
Ridiculous'' [90 hou lushi zhuli bei kong dianfu zhengquan, jiaren 
cheng huangmiu], Voice of America, 14 January 16.
    \118\ PRC Lawyers Law [Zhonghua renmin gongheguo lushi fa], passed 
28 October 07, amended 26 October 12, effective 1 January 13, art. 33. 
For the prior version, see PRC Lawyers Law [Zhonghua renmin gongheguo 
lushi fa], passed 28 October 07, effective 1 June 08, art. 33.
    \119\ Tai Jianlin, ``Lawyers' Meeting Rooms at PSB Detention Center 
Increased From Two to Nine'' [Kanshousuo lushi huijian shi liang jian 
bian jiu jian], Xinhua, 24 May 16.
    \120\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 37. See also Supreme People's Court, 
Supreme People's Procuratorate, Ministry of Public Security, Ministry 
of State Security, and Ministry of Justice, Provisions Concerning the 
Legal Protection of Lawyers' Rights To Practice [Guanyu yifa baozhang 
lushi zhiye quanli de guiding], issued and effective 16 September 15, 
art. 9.
    \121\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 37; Amnesty International, ``China: 
Submission to the United Nations Committee against Torture 59th 
Session, 9 November-9 December 2015,'' October 2015, 9.
    \122\ See, e.g., Rights Defense Network, ``Report on 709 Mass 
Crackdown: Lawyers' Request To Meet With Client Was Dodged by 
Supervisor Li Bin'' [709 da zhuabu an tongbao: lushi yaoqiu huijian 
dangshiren zao zhuguan li bin duobi], 28 April 16; Rights Defense 
Network, ``Lawyer Li Yuhan: Report Concerning Lawyer Wang Yu's Case and 
My Current Precarious Situation'' [Li yuhan lushi: guanyu wang yu lushi 
an he wo xianzai de weiji chujing tongbao], 15 March 16; ``No News 
Regarding Li Heping; Legal Representative Sues Tianjin Public Security 
Bureau'' [Li heping yin xun quan wu daili lushi konggao tianjin shi 
gong'anju], Radio Free Asia, 6 April 16; Rights Defense Network, 
``Lawyer Huang Hanzhong: Report on Bao Longjun's Case'' [Huang hanzhong 
lushi: bao longjun an jinzhan tongbao], 23 April 16; `` `709 Mass 
Crackdown': Lawyers' Request for Meeting With Wang Quanzhang and Zhao 
Wei Denied Again'' [``709 da zhuabu'': lushi huijian wang quanzhang, 
zhao wei zai zao jujue], Radio Free Asia, 3 June 16; ``Detained Lawyer 
Xie Yang Allegedly Tortured, His Wife Accused the Government of 
Corrupting the Law'' [Bei kou lushi xie yang yi shou nue qi kong dangju 
xun si wangfa], Radio Free Asia, 15 August 16.
    \123\ See, e.g., Rights Defense Network, ``Mr. Zhang Jianping, 
Hired by Mother of Jiangsu Women's Rights Defender Ms. Shan Lihua as 
Daughter's Defense Counsel, Faces Difficulty'' [Jiangsu nuquan 
hanweizhe shan lihua nushi muqin weituo zhang jianping xiansheng zuo 
nu'er bianhuren zao diaonan], 6 February 16; ``Guizhou Police Refuse To 
Let Lawyer Meet With Detained Pastor in `Pastor Yang Hua Case,' Church 
Sues State Administration for Religious Affairs, Court Refuses To 
Accept Case'' [Guizhou jingfang ju lushi huijian beibu ``yang hua mushi 
an'' mushi jiaohui gao zongjiaoju fayuan bu shouli], Radio Free Asia, 
10 March 16; Rights Defense Network, ``Weifang Case Bulletin: Five 
Individuals--Zhang Wanhe, Liu Xing, Li Yanjun, Yao Jianqing, and Zhai 
Yanmin--Still Held in Weifang PSB Detention Center'' [Weifang an 
tongbao: weifang kanshousuo reng you zhang wanhe, liu xing, li yanjun, 
yao jianqing, zhai yanmin wu ren zai ya], 25 March 16; Human Rights 
Campaign in China, ``In `December 3rd Labor NGO Incident,' Guangzhou 
No. 1 PSB Detention Center Denies Zeng Feiyang and Deng Xiaoming 
Meetings With Lawyers for Suspected Endangerment of State Security'' 
[``12.3 laogong NGO shijian'' guangzhou di yi kanshousuo yi zeng 
feiyang he deng xiaoming shexian weihai guojia anquan wei you jujue 
lushi huijian], 9 December 15.
    \124\ Wang Yu, ``Third Anniversary Since the Implementation of the 
New Criminal Procedure Law, Protection of Defense Rights Still Awaiting 
Improvement'' [Xin xingsufa shishi san zhounian bianhu quanli baozhang 
reng dai wanshan], 21st Century Business Herald, 24 March 16; Human 
Rights Campaign in China, ``Lawyer Ge Yongxi: Notes of He Xiaobo's 
Lawyer About Meeting--`Arrangements Will Be Made Within 48 Hours' '' 
[Ge yongxi lushi: he xiaobo daili lushi huijian shouji--``bei sishiba 
xiaoshi''], 9 December 15; Zhou Jianwei and Wei Wei, ``Causes and 
Strategies for Difficulty in Lawyers' Meetings Under the New Criminal 
Procedure Law'' [Xin xingsufa xia lushi huijian nan chengyin yu duice], 
Shandong Lawyers Net, 7 November 14. See also Yi Xiaohong, ``Shenzhen: 
Great Improvement in `Lawyers' Difficulties in Meeting and Viewing 
Documents' '' [Shenzhen: lushi ``huijian nan, yue juan nan'' wenti da 
you gaishan], Shenzhen Evening News, 18 December 15; ``Taiwan 
Delegation Toured PSB Detention Center Where Taiwanese Suspects Were 
Held: Their Rights Were Fully Protected, 45 Individuals All Admitted 
Guilt'' [Taiwan daibiaotuan canguan jiya taiwan xianfan kanshousuo: 
quanli dedao chongfen baozhang 45 ren jun yi renzui], Xinhua, 21 April 
16.
    \125\ Human Rights Campaign in China, ``Lawyer Ge Yongxi: Notes of 
He Xiaobo's Lawyer About Meeting--`Arrangements Will Be Made Within 48 
Hours' '' [Ge yongxi lushi: he xiaobo daili lushi huijian shouji--``bei 
sishi ba xiaoshi''], 9 December 15. See also Zhang Yangqiu, ``Proposal 
Regarding Full Protection of Lawyers' Meeting Rights'' [Guanyu chongfen 
baozhang lushi huijian quan de ti'an], Proposal Committee Office, 
Chinese People's Political Consultative Conference Shaanxi Provincial 
Committee, 31 March 16.
    \126\ See, e.g., UN Committee against Torture, Concluding 
Observations on the Fifth Periodic Report of China, adopted by the 
Committee at its 1391st and 1392nd Meetings (2-3 December 2015), CAT/C/
CHN/CO/5, 3 February 16, para. 12; Wu Fatian, ``My Encounter at the 
Yiyang Public Security Bureau Today'' [Jintian wo zai yiyang shi 
gong'anju de zaoyu], Weibo post, 22 June 16, 10:10 p.m.; Human Rights 
Campaign in China, ``In the `December 3rd Labor NGO Incident,' 
Guangzhou No. 1 PSB Detention Center Denied Zeng Feiyang and Deng 
Xiaoming Meetings With Lawyer on Endangering State Security Grounds'' 
[``12.3 laogong NGO shijian'' guangzhou di yi kanshousuo yi zeng 
feiyang he deng xiaoming shexian weihai guojia anquan wei you jujue 
lushi huijian], 9 December 15. See also Rights Defense Network, 
``Lawyer Cheng Hai: Defense Statement Presented Before the Court of 
Second Instance in Jia Lingmin's Picking Quarrels and Provoking Trouble 
Case'' [Cheng hai lushi: jia lingmin xunxin zishi an ershen bianhu ci], 
5 April 16.
    \127\ Wu Fatian, ``My Encounter at the Yiyang Public Security 
Bureau Today'' [Jintian wo zai yiyang shi gong'anju de zaoyu], Weibo 
post, 22 June 16, 10:10 p.m.; PRC Criminal Procedure Law (CPL) 
[Zhonghua renmin gongheguo xingshi susong fa], passed 1 July 79, 
amended 17 March 96, 14 March 12, effective 1 January 13, arts. 37, 72, 
73. ``Residential surveillance at a designated location'' is a coercive 
measure under the CPL that allows authorities to hold a person at an 
undisclosed location if the case relates to endangering state security, 
terrorism, or serious bribery cases (three categories), or if the 
detainee does not have a fixed place of abode. Meeting with defense 
counsel is subject to approval by the investigating agency if the case 
falls under one of the three categories.
    \128\ Yi Shenghua, ``Lawyer Yi Shenghua: Complete Strategy for 
Lawyer Meeting in Criminal Cases'' [Yi shenghua lushi: xingshi anjian 
lushi huijian quan gonglue], Weibo post, 7 March 16, 10:30 p.m.; Yu 
Weipeng, ``Measures Protecting Lawyers' Right To Meet With Their 
Clients During the Investigation Phase Must Be Properly Implemented'' 
[Baozhang lushi zhencha jieduan huijian quan xu luodao shichu], Chinese 
Lawyer, December 2015, 97-98; Rights Defense Network, ``Lawyer Cheng 
Hai: Defense Statement Presented Before the Court of Second Instance in 
Jia Lingmin's Picking Quarrels and Provoking Trouble Case'' [Cheng hai 
lushi: jia lingmin xunxin zishi an ershen bianhu ci], 5 April 16.
    \129\ For more information on Zhang Liumao, see the Commission's 
Political Prisoner Database record 2015-00358.
    \130\ ``Official News Media Said Zhang Liumao Was Involved in 
`Armed Riot,' Family Protested at Funeral Home When They Could Not See 
the Body After Death'' [Guanmei zhi zhang liumao ``wuzhuang baodong'' 
jiashu si bujian shi binyiguan kangyi], Radio Free Asia, 7 November 15; 
Edward Wong, ``Backers of Detained Chinese Activist Demand Explanation 
for His Death,'' New York Times, 6 November 15; Rights Defense Network, 
``Announcement on Joining the Citizens' Monitoring Group on the Death 
of Zhang Liumao of Guangdong at the Guangzhou No. 3 PSB Detention 
Center'' [Lianshu jiaru guangdong zhang liumao guangzhou san kan siwang 
an gongmin jiandu tuan gonggao], 5 November 15.
    \131\ ``Chinese Activist's Body `Covered' in Injuries After Death 
in Detention,'' Radio Free Asia, 17 November 15.
    \132\ ``Procuratorate Refuses To Provide Zhang Liumao's Autopsy 
Report, Family Not Satisfied and Intend To Request Review'' 
[Jianchayuan ju tigong zhang liumao shijian baogao jiashu buman ni ti 
fuyi], Radio Free Asia, 24 February 16.
    \133\ Yang Maoping, ``Request From Family for Immediately Carrying 
Out Diagnosis and Treatment for Yang Maodong'' [Guanyu liji dui yang 
maodong jinxing zhenduan zhiliao de jiashu yaoqiu shu], reprinted in 
Human Rights in China, 27 April 16.
    \134\ ``Open Letter by Guo Feixiong's Wife Zhang Qing Addressed to 
President Xi Jinping and Premier Li Keqiang (May 19, 2016)'' [Guo 
feixiong qizi zhang qing zhi xi jinping zhuxi, li keqiang zongli 
gongkaixin (2016 nian 5 yue 19 ri)], 19 May 16, reprinted in Rights 
Defense Network, 20 May 16; Zhang Qing, ``Guo Feixiong on Hunger Strike 
in Prison, Wife Details Degrading Treatment in an Open Letter to Xi 
Jinping and Li Keqiang,'' China Change, 19 May 16.
    \135\ Wang Heyan et al., ``Witnesses Say Lei Yang Was Chased by 
Plainclothes Officers and There Was a Fight, Public Security Bureau 
Says Autopsy Will Be Performed Today or Tomorrow'' [Mujizhe cheng lei 
yang bei bianyi zhuigan bing you da dou gong'an jin ming liang tian 
shijian ], Caixin, 10 May 16; Lin Feiran, Li Yutong, and Zhu Zhuolin, 
``Holder of Master's Degree Dies After He Is Detained on `Suspicion of 
Soliciting a Prostitute,' Was the Same Day as His Wedding Anniversary'' 
[Shuoshi ``shexian piaochang'' bei kongzhi hou shenwang dangtian shi qi 
jiehun jinian ri], Beijing News, 10 May 16; ``Man Suspected of 
Soliciting a Prostitute Dies Suddenly While in Custody, Procuratorate 
Already Involved'' [Shexian piaochang nanzi bei ya tuzhong cusi 
jianfang yi jieru], Qianjiang Evening News, 10 May 16; Beijing 
Municipal Procuratorate, ``The Fourth Sub-Procuratorate of Beijing 
Municipal People's Procuratorate Announces and Publishes Lei Yang's 
Autopsy in Accordance With Law'' [Beijing shi renmin jianchayuan di si 
fenyuan yifa gaozhi he gongbu lei yang shijian jianding yijian], 30 
June 16; Gao Xin and Yu Xiao, ``Conversation With Beijing Procuratorate 
Forensic Medical Examiner: Expert Forensic Medical Examiner Explains 
Lei Yang's Autopsy'' [Duihua beijing jianfang fayi: fayi zhuanjia jiedu 
lei yang shijian jianding yijian], Procuratorial Daily, 1 July 16.
    \136\ Beijing Municipal Procuratorate, ``The Fourth Sub-
Procuratorate of Beijing Municipal People's Procuratorate Announces and 
Publishes Lei Yang's Autopsy in Accordance With Law'' [Beijing shi 
renmin jianchayuan di si fenyuan yifa gaozhi he gongbu lei yang shijian 
jianding yijian], 30 June 16; ``Beijing Procuratorate Announced Lei 
Yang's Autopsy Results: Cause of Death Is Suffocation'' [Beijing 
jianfang gongbu lei yang an shijian jieguo: xi zhixi siwang], Radio 
Free Asia, 30 June 16.
    \137\ Yu Mengtong, ``Caixin's Report on Lei Yang's Family Accusing 
Police of Intentional Infliction of Injury Was Deleted'' [Caixin wang 
lei yang jiashu kong jingfang guyi shanghai baodao bei shan], Voice of 
America, 17 May 16.
    \138\ Xie Huicheng et al., ``Xie Yang's Family Joint Statement 
Condemning Torture (August 12, 2016)'' [Xie yang jiazu jiu kuxing de 
lianhe qianze shengming (2016 nian 8 yue 12 ri)], reprinted in Rights 
Defense Network, 12 August 16. See also ``Detained Lawyer Xie Yang 
Allegedly Tortured, His Wife Accused the Government of Corrupting the 
Law'' [Bei kou lushi xie yang yi shou nue qi kong dangju xun si wang 
fa], Radio Free Asia, 15 August 16. Xie Yang's wife reported that Xie 
told his lawyer that officials had tortured him to confess. For more 
information on Xie Yang, see the Commission's Political Prisoner 
Database record 2015-00295.
    \139\ Xie Huicheng et al., ``Xie Yang's Family Joint Statement 
Condemning Torture (August 12, 2016)'' [Xie yang jiazu jiu kuxing de 
lianhe qianze shengming (2016 nian 8 yue 12 ri)], reprinted in Rights 
Defense Network, 12 August 16.
    \140\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 13 March 16, 3; ``Supreme People's Procuratorate Work 
Report'' [Zuigao renmin jianchayuan gongzuo baogao], 13 March 16, 7-8.
    \141\ See, e.g., Li Xianfeng, ``18 Years of Injustice and 7 Days 
and 7 Nights of Torture'' [18 nian yuan'an bei xingxun de 7 tian 7 ye], 
Beijing Youth Daily, 8 May 16; Wang Jian, ``Chen Man, Wrongfully 
Convicted and Jailed for the Longest Time Known in the Country, Is 
Declared Innocent After 23 Years'' [``Guonei yizhi bei guan zuijiu de 
yuanyu fan'' chen man 23 nian hou xuangao wuzui], The Paper, 1 February 
16; Zhang Manshuang, ``Upstream News' Exclusive Interview With Qian 
Renfeng: Felt Despair When Tortured To Confess'' [Shangyou xinwen dujia 
duihua qian renfeng: bei xingxun bigong shi gandao zui juewang], 
Upstream News, 21 December 15. See also Supreme People's Court, 
``Supreme People's Court Granted Retrial in the Nie Shubin Intentional 
Homicide and Rape Case'' [Zuigao renmin fayuan jueding yifa zaishen nie 
shubin guyi sharen, qiangjian funu yi an], 8 June 16; Luo Sha and Bai 
Yang, ``Supreme People's Court Granted Retrial in the Nie Shubin 
Intentional Homicide and Rape Case'' [Zuigao renmin fayuan jueding yifa 
zaishen nie shubin guyi sharen, qiangjian funu yi an], Xinhua, 8 June 
16.
    \142\ ``China's `Youngest' University President Sentenced to Life: 
Justice Served or Grave Wrong Being Done? '' [Zhongguo ``zui nianqing'' 
daxue xiaozhang pan wuqi, zhengyi shenzhang huo yuan shen si hai?], 
Voice of America, 31 December 15; ``Second Instance Hearing Near for 
Former Editor-in-Chief of Guangzhou Daily, Niece of Zeng Qinghong's 
Wife Becomes the Focus'' [Guangzhou ribao qian shezhang ershen zaiji, 
zeng qinghong qi zhinu cheng jiaodian], Voice of America, 3 December 
15; Austin Ramzy, ``Ex-Official in China Blames Torture for Graft 
Confession,'' New York Times, Sinosphere (blog), 25 February 16.
    \143\ Supreme People's Procuratorate, ``Supreme People's 
Procuratorate Issues Seventh Set of Guiding Cases'' [Zuigao renmin 
jianchayuan fabu di qi pi zhidaoxing anli], 6 June 16, 7.
    \144\ Youling Jueshi, ``Two `Murder Convicts' Have Been Crying 
Injustice for 13 Years; Murky Evidence and Possible Confession Through 
Torture'' [Liang ``sharenfan'' hanyuan 13 nian zhengju buqing yi zao 
xingxun bigong], Tencent News, 1 April 16.
    \145\ Supreme People's Court, Opinion Regarding Establishing a 
Robust System To Prevent Wrongful Criminal Cases [Zuigao renmin fayuan 
guanyu jianli jianquan fangfan xingshi yuanjia cuo'an gongzuo jizhi de 
yijian], issued 9 October 13, art. 22. See also Josh Chin, ``China's 
Communist Party Sounds Death Knell for Arrest, Conviction Quotas,'' 
Wall Street Journal, China Real Time Report (blog), 22 January 15; 
Ministry of Public Security, Circular Regarding Further Strengthening 
and Improving Criminal Law Enforcement and Case Handling To Actually 
Prevent Wrongful Cases [Gong'anbu guanyu jinyibu jiaqiang he gaijin 
xingshi zhifa ban'an gongzuo qieshi fangzhi fasheng yuanjia cuo'an de 
tongzhi], issued 5 June 13; Wang Zhiguo, ``SPP Issues Opinion 
Requesting: Earnestly Perform the Procuratorate's Function, Prevent and 
Correct Wrongful Cases'' [Gao jian yuan fawen yaoqiu: qieshi luxing 
jiancha zhineng fangzhi he jiuzheng yuanjia cuo'an], Procuratorate 
Daily, 6 September 13; CECC, 2015 Annual Report, 8 October 15, 107.
    \146\ Stanley Lubman, ``Why Scrapping Quotas in China's Criminal 
Justice System Won't Be Easy,'' Wall Street Journal, China Real Time 
Report (blog), 30 January 15.
    \147\ Shannon Tiezzi, ``In China, a Move Away From Conviction 
Quotas,'' The Diplomat, 23 January 15; Human Rights Watch, ``Tiger 
Chairs and Cell Bosses: Police Torture of Criminal Suspects in China,'' 
May 2015, 33-34.
    \148\ Chen Fei and Zou Wei, ``Retired Beijing Judge: Abolishing 
Guilty Verdict Rate Will Reduce the Occurrence of Miscarriages of 
Justice'' [Beijing cizhi faguan: quxiao youzui panjue lu hui jianshao 
yuan'an de fasheng], Beijing Youth Daily, 22 January 15.
    \149\ Wang Lin, ``Not Guilty Verdict Rate Rises Again, Are You 
Ready'' [Wuzui panjue lu huisheng, zhunbei hao le ma], Beijing Times, 
23 February 16.
    \150\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 13 March 16, 2, 3.
    \151\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 12 March 15.
    \152\ Chen Xuequan, ``Examination of Issues Faced by Courts When 
Issuing a Not Guilty Verdict for Insufficiency of Evidence'' [Zhengju 
buzu shi fayuan zuo wuzui panjue nan suo she wenti yanjiu], Journal of 
Law Application, No. 6 (2015), reprinted in Procedural Law Research 
Institute, China University of Political Science and Law.
    \153\ Shan Yuxiao, ``Courts Continued To `Boast' Unreasonable 
Judicial Evaluation Targets'' [Fayuan reng ``shai'' bu heli sifa kaohe 
zhibiao], Caixin, 25 February 16. See also Liu Zhan, ``Commentary: Why 
Is Homicide Case Resolution Rate Still Being Ranked? '' [Pinglun: 
ming'an po'an lu weihe hai zai paihang?], China National Radio, 18 
April 16.
    \154\ ``National People's Congress Standing Committee Work Report 
(Summary)'' [Quanguo renmin daibiao dahui changwu weiyuanhui gongzuo 
baogao (zhaiyao)], Xinhua, 19 March 16; National People's Congress 
Standing Committee, PRC Criminal Law Amendment (Nine) [Zhonghua renmin 
gongheguo xingfa xiuzheng'an (jiu)], issued 29 August 15, effective 1 
November 15, items 9, 11, 12, 42, 50, 51. See also ``Zhang Dejiang: 
Improve the Criminal Law System, Remove Death Penalty From 9 Crimes 
That Are Infrequently Used'' [Zhang dejiang: wanshan xingshi falu zhidu 
quxiao 9 ge jiaoshao shiyong de sixing zuiming], China Radio 
International, 9 March 16; ``China's Criminal Law Amended Again, Death 
Penalty for 9 Crimes Removed'' [Zhongguo xingfa zai xiuzheng quxiao 9 
xiang sixing zuiming], Radio Free Asia, 30 August 15; ``Member of the 
Legislative Affairs Commission: Strictly Controlling Death Penalty and 
Progressively Reducing the Number of Executions Is the Direction of 
China's Criminal Law'' [Fagongwei: yankong sixing, zhubu jianshao 
sixing shi zhongguo xingfa de fangxiang], China News Service, reprinted 
in Xinhua, 29 August 15.
    \155\ Xie Sufang, ``Legislation in 2015 That Directly Benefited the 
Public'' [2015 nian naxie rang baixing zhijie shouyi de lifa], National 
People's Congress of China Magazine, No. 3, 1 February 16.
    \156\ Office of the UN High Commissioner for Human Rights, ``UN 
Human Rights Experts Welcome Encouraging Steps Away From Death Penalty 
in China and India,'' 11 September 15.
    \157\ Human Rights Watch, ``World Report 2016, Events of 2015,'' 
last visited 27 July 16, 175.
    \158\ Amnesty International, ``Amnesty International Report on 
China 2015/16,'' 2016, 119.
    \159\ Dui Hua Foundation, ``China Executed 2,400 People in 2013,'' 
20 October 14.
    \160\ Amnesty International, ``Death Penalty 2015: Facts and 
Figures,'' 6 April 16. According to Amnesty International, ``China 
remained the world's top executioner--but the true extent of the use of 
the death penalty in China is unknown as this data is considered a 
state secret; the figure of 1,634 excludes the thousands of executions 
believed to have been carried out in China.''
    \161\ Ibid.; Wen Shan and Ren Chen, ``Sharp Increase in Global 
Executions'' [Quanqiu sixing shuliang jizeng], Deutsche Welle, 6 April 
16.
    \162\ UN Committee against Torture, China's Reply to the Committee 
against Torture's List of Issues, CAT/C/CHN/Q/5/Add.2, 1 October 15, 
para. 37.
    \163\ Amnesty International, ``Death Penalty 2015: Facts and 
Figures,'' 6 April 16.
    \164\ UN Committee against Torture, List of Issues in Relation to 
the Fifth Periodic Report of China, CAT/C/CHN/Q/5/Add.1, 15 June 15, 
para. 37.
    \165\ UN Committee against Torture, China's Reply to the Committee 
against Torture's List of Issues, CAT/C/CHN/Q/5/Add.2, 1 October 15, 
para. 37.
    \166\ Shan Yuxiao, ``Tsinghua Scholar Calls on the Supreme People's 
Court To Make Public Annual Data on Death Penalty Review Cases'' 
[Qinghua xuezhe huyu zuigao fayuan gongkai sixing fuhe anjian niandu 
shuju], Caixin, 19 October 15; Zhao Bingzhi and Xu Wenwen, 
``Observations and Reflections on Death Penalty Reform in the `Ninth 
Amendment to the Criminal Law' '' [``Xingfa xiuzheng'an (jiu)'' sixing 
gaige de guancha yu sikao], Legal Forum, No. 1 (2016), 34; Li Wenchao, 
``The Flaws and Ways of Improving the Death Penalty Review Process'' 
[Sixing fuhe chengxu de quexian yu wanshan], Journal of Hubei 
Correspondence University, Vol. 29, No. 9 (2016), 92.
    \167\ Shan Yuxiao, ``Tsinghua Scholar Calls on the Supreme People's 
Court To Make Public Annual Data on Death Penalty Review Cases'' 
[Qinghua xuezhe huyu zuigao fayuan gongkai sixing fuhe anjian niandu 
shuju], Caixin, 19 October 15; Li Wenchao, ``The Flaws and Ways of 
Improving the Death Penalty Review Process'' [Sixing fuhe chengxu de 
quexian yu wanshan], Journal of Hubei Correspondence University, Vol. 
29, No. 9 (2016), 92.
    \168\ Tang Tong, ``Research on the Supervision of the Death Penalty 
Review Process by the Procuratorate'' [Sixing fuhe jiancha jiandu zhidu 
yanjiu], Culture and History Vision (March 2016), 45; Li Wenchao, ``The 
Flaws and Ways of Improving the Death Penalty Review Process'' [Sixing 
fuhe chengxu de quexian yu wanshan], Journal of Hubei Correspondence 
University, Vol. 29, No. 9 (2016), 92; Feng Yun, ``Discussion of the 
Right of Defense in the Death Penalty Review Process'' [Lun sixing fuhe 
chengxu zhong de bianhu quan], People's Tribune, April 2016, 124; Wang 
Yanling, ``Thoughts on the Current Status and Ways To Improve Our 
Nation's Death Penalty Review Procedure'' [Guanyu woguo sixing fuhe 
chengxu de xianzhuang ji wanshan de sikao], Shanxi Youth, No. 5 (2016), 
102.
    \169\ Shan Yuxiao, ``Tsinghua Scholar Calls on the Supreme People's 
Court To Make Public Annual Data on Death Penalty Review Cases'' 
[Qinghua xuezhe huyu zuigao fayuan gongkai sixing fuhe anjian niandu 
shuju], Caixin, 19 October 15.
    \170\ Dui Hua Foundation, ``Can Recognizing Poverty Reduce 
Executions in China? '' Dui Hua Human Rights Journal, 9 June 16; Dui 
Hua Foundation, ``China's Average `Death Row' Prisoner Waits 2 Months 
for Execution,'' Dui Hua Reference Materials, 27 April 16.
    \171\ Ibid.
    \172\ Supreme People's Court, Provisions on Releasing Opinions 
Online by People's Courts [Zuigao renmin fayuan guanyu renmin fayuan 
zai hulianwang gongbu caipan wenshu de gui-
ding], issued 13 November 13, effective 1 January 14, arts. 2, 3.
    \173\ Yang Weihan, ``The Supreme People's Court Explains in Detail 
the Hot Topic About the SPC's Posting of Judgments Online'' [Zuigao 
renmin fayuan xiang jie zuigao fayuan caipan wenshu shangwang redian 
wenti], Xinhua, reprinted in Central People's Government, 2 July 13.
    \174\ Dui Hua Foundation, ``China's Average `Death Row' Prisoner 
Waits 2 Months for Execution,'' Dui Hua Reference Materials, 27 April 
16; Dui Hua Foundation, ``Can Recognizing Poverty Reduce Executions in 
China? '' Dui Hua Human Rights Journal, 9 June 16.
    \175\ Dui Hua Foundation, ``Can Recognizing Poverty Reduce 
Executions in China? '' Dui Hua Human Rights Journal, 9 June 16; Ren 
Zhongyuan, ``Eight Years After the SPC Reclaimed Authority Over Death 
Penalty Review, How Has [the SPC] Spared People's Lives'' [Sixing fuhe 
quan shangshou ba nian zuigao fayuan ruhe daoxia liuren], Southern 
Weekend, 16 October 14.
    \176\ Dui Hua Foundation, ``China's Average `Death Row' Prisoner 
Waits 2 Months for Execution,'' Dui Hua Reference Materials, 27 April 
16.
    \177\ Ye Jingsi, ``China Confirms That Organs From Death Row 
Prisoners To End on January 1, 2015'' [Zhongguo mingque 2015 nian 
yuandan tingzhi caiyong siqiu qiguan], BBC, 4 December 14; Kirk C 
Allison et al., ``China's Semantic Trick With Prisoner Organs,'' 
British Medical Journal, 8 October 15; Transplant Experts of the 
National Organ Donation and Transplantation Committee et al., ``The New 
Era of Organ Transplantation in China,'' Chinese Medical Journal, Vol. 
129, No. 16, 5 August 16, 1891.
    \178\ Didi Kirsten Tatlow, ``China Bends Vow on Using Prisoners' 
Organs for Transplants,'' New York Times, 16 November 15; Kirk C 
Allison et al., ``China's Semantic Trick With Prisoner Organs,'' 
British Medical Journal, 8 October 15.
    \179\ Didi Kirsten Tatlow, ``Transplant Chief in China Denies 
Breaking Vow To Ban Prisoners' Organs,'' New York Times, 25 November 
15. See also China Organ Transplantation Development Foundation, 
``Organ Transplantation Q&A (Fifty),'' [Qiguan yizhi wenda (wushi)], 5 
May 16; Didi Kirsten Tatlow, ``Debate Flares on China's Use of 
Prisoners' Organs as Experts Meet in Hong Kong,'' New York Times, 17 
August 16. The New York Times reported that ``Prisoners can still 
donate organs, according to an entry dated May 5, 2016, on the website 
of the China Organ Transplantation Development Foundation, a group 
tasked with managing the transition.''
    \180\ U.S. House of Representatives, ``Expressing Concern Regarding 
Persistent and Credible Reports of Systematic, State-Sanctioned Organ 
Harvesting From Non-Consenting Prisoners of Conscience in the People's 
Republic of China, Including From Large Numbers of Falun Gong 
Practitioners and Members of Other Religious and Ethnic Minority 
Groups,'' H. Res. 343, 13 June 16. See also T. Trey et al., 
``Transplant Medicine in China: Need for Transparency and International 
Scrutiny Remains,'' American Journal of Transplantation (accepted for 
publication 13 August 16). The authors of the August 13, 2016, article 
echoed the concern raised in House Resolution 343 and further pointed 
out that verifiable evidence to date did not show that ``ethical 
practices have replaced unethical ones.''
    \181\ Didi Kirsten Tatlow, ``Choice of Hong Kong for Organ 
Transplant Meeting Is Defended,'' New York Times, Sinosphere (blog), 18 
August 16.
    \182\ Didi Kirsten Tatlow, ``Transplant Chief in China Denies 
Breaking Vow To Ban Prisoners' Organs,'' New York Times, 25 November 
15.
    \183\ Wang Xiaodong, ``Record High for Organ Donations,'' China 
Daily, 8 March 16. See also T. Trey et al., ``Transplant Medicine in 
China: Need for Transparency and International Scrutiny Remains,'' 
American Journal of Transplantation (accepted for publication 13 August 
16). According to transplantation experts, the sudden dramatic increase 
in volunteer organ donors is implausible. See also CECC, Annual Report 
2015, 8 October 15, 202.
    \184\ Chen Sisi, ``The Ratio of Supply to Demand for Organ 
Transplants in China Is 1:30, Donation Requires Consent of Parents, 
Children, and Spouse'' [Zhongguo qiguan yizhi gongxu bi 1:30, juanxian 
xu fumu, zinu, banlu dou tongyi], The Paper, 6 July 16.

                                                    Freedom of 
                                                       Religion
                                                Freedom of 
                                                Religion

                          Freedom of Religion


           International and Chinese Law on Religious Freedom

    During the Commission's 2016 reporting year, the Chinese 
government and Communist Party continued to violate the rights 
of Chinese citizens to religious freedom, which are guaranteed 
under Chinese and international law. Article 36 of China's 
Constitution guarantees ``freedom of religious belief,'' \1\ 
providing state protection to ``normal religious activities'' 
but leaving ``normal'' undefined.\2\ This article, nonetheless, 
prohibits discrimination based on religion and forbids state 
agencies, social organizations, and individuals from compelling 
citizens to believe or not believe in any religion.\3\ China 
has also signed \4\ and stated its intent to ratify \5\ the 
International Covenant on Civil and Political Rights (ICCPR), 
which obligates China to refrain in good faith from acts that 
would defeat the treaty's purpose.\6\ Article 18 of the ICCPR 
upholds a person's right to religious belief individually or in 
community with others; it also prohibits coercion that impairs 
an individual's ability to freely hold or adopt a religion or 
belief.\7\ The Constitution allows limitations on religious 
practice that ``disturbs public order, impairs the health of 
citizens, or interferes with the educational system of the 
state,'' and the ICCPR contains exceptions allowing states to 
impose some limitations on religious practice for public safety 
reasons.\8\ As this section documents, however, in practice, 
Party and government officials exercise broad discretion over 
religious practice, internal affairs, and interpretations of 
faith, often restricting particular religious practices based 
on Party interests. Such restrictions constitute state-
sponsored religious discrimination as well as undue state 
influence on the right to believe freely.

                Religious Affairs Regulation and Policy

    The Chinese government's regulatory framework for religious 
affairs does not guarantee the religious freedom of Chinese 
citizens. The key regulation on religious affairs, the 2005 
Regulations on Religious Affairs (RRA), requires religious 
groups to register with the government and report on their 
religious activities.\9\ Registration is a significant obstacle 
for some groups: officials may deny registration applications 
of groups they believe to be adverse to Party and government 
interests,\10\ and some groups refuse to register because they 
believe that the conditions associated with registration 
compromise principles of their faith.\11\ Official recognition 
of groups falling outside the ``main'' religions--Buddhism, 
Catholicism, Islam, Taoism, and Protestantism--is limited.\12\ 
Article 12 of the RRA requires religious activities to be 
conducted at registered sites by approved personnel,\13\ but 
scholars observe that officials may tolerate the religious 
activities of unregistered groups, especially if officials 
believe that the activities promote social or economic 
development interests.\14\ As this section documents, while 
unregistered religious and spiritual communities are 
particularly vulnerable to government harassment, detention, 
and other abuses, groups may be sanctioned regardless of 
registration status when officials view them as posing a 
challenge to government authority. Some religious groups and 
practices have been banned outright.\15\
    The RRA provides limited protection for the ``normal 
religious activities'' of registered religious groups and 
authorizes state control over religious affairs.\16\ The 
government and Party primarily control religious affairs 
through a national agency under the State Council, the State 
Administration for Religious Affairs (SARA), and lower level 
religious affairs bureaus.\17\ These government agencies 
control religious affairs through their effective authority 
over the ``patriotic'' religious associations representing the 
five ``main'' religions in China.\18\ The religious affairs 
bureaus work with the Party's United Front Work Department 
(UFWD) to select religious leaders for the official 
associations.\19\ A series of legislative measures targeting 
``cults'' in the summer of 2015 \20\ included an amendment to 
the PRC Criminal Law that extended the maximum sentence for 
violating Article 300 (``organizing and using a cult to 
undermine implementation of the law'') \21\ from 15 years to 
life in prison; \22\ as of August 2016, the Commission had not 
observed any sentence greater than 15 years solely for the 
violation of Article 300.

------------------------------------------------------------------------
            April 2016 National Conference on Religious Work
-------------------------------------------------------------------------
  In April 2016, the Party and government convened the first National
 Conference on Religious Work in 15 years, signaling that officials aim
 to prioritize religious affairs. Chinese President and Communist Party
 General Secretary Xi Jinping designated religious affairs as an area of
 ``special importance'' and directed government and Party authorities to
 ensure that religious believers are ``patriotic, preserve national
 unity, and serve the overall interests of the Chinese nation.'' \23\ Xi
 characterized religious groups as a ``bridge'' connecting the Party and
 government to religious believers, emphasizing that groups must
 therefore support the ``leadership of the Party'' and the Chinese
 political system.\24\ In recent years, local patriotic organizations
 issued open letters stating that their ability to act as a ``bridge''
 has been compromised as government policies have become more intolerant
 of their religious practices.\25\
  A key approach Xi identified for realizing these policy goals involved
 compelling believers to interpret religious doctrines in a way that
 adheres to ``social harmony,'' ``progress,'' and ``traditional
 culture.'' \26\ Xi invoked the goal of ``national rejuvenation''
 several times in his address and identified ``overseas [religious]
 infiltration'' and ``religious extremism'' as threats.\27\
------------------------------------------------------------------------

    Officials continued a long-term policy of regulating 
religion as an instrument for promoting national unity and 
``social stability.'' \28\ Official rhetoric this past year 
characterized Buddhism and Taoism as embodying essential 
aspects of Chinese culture.\29\ In contrast, official rhetoric 
emphasized the foreign origins of other religions, including 
Catholicism, Protestantism, and Islam, and highlighted their 
potential for ``inciting separatism'' and ``social unrest.'' 
\30\ Official speeches and policies referred to the goal of 
bringing religions into alignment with Party interests as 
``sinicization,'' which is linked in official rhetoric to the 
``national rejuvenation'' campaign.\31\ In one indication this 
year that officials continue to view religious belief in 
general as competing with Party loyalty, in February 2016, the 
Communist Party expanded the long-standing ban on religious 
belief for Party members \32\ to include retired members.\33\

                   Buddhism (Non-Tibetan) and Taoism

    Despite official statements that Buddhism and Taoism 
exemplify Chinese values, authorities continued to exert 
political influence over the activities of non-Tibetan Buddhist 
and Taoist religious groups. [For information on Tibetan 
Buddhists, see Section V--Tibet.] As in past years,\34\ this 
influence manifested in the form of extensive government 
regulation \35\ and sponsorship of religious activity.\36\ 
Officials indicated plans to continue such influence: shortly 
after the National Conference on Religious Work in April 2016, 
the president of the state-controlled Buddhist Association of 
China (BAC) called on members to work toward government and 
Party goals, including ``joining with the nation's legal regime 
to form a modern institutional system for Buddhism.'' \37\ Yang 
Shihua, a deputy secretary general of the state-sponsored 
Chinese Taoist Association, issued a statement saying that the 
government's support of numerous Taoist religious institutions 
would allow for ``cultivating an increasing number of patriotic 
and devout Taoist clergy.'' \38\
    This past year, authorities continued to implement a 2012 
central government directive calling for comprehensive 
monitoring and registration of Buddhist and Taoist sites, 
activities, and personnel.\39\ In December 2015, the State 
Administration for Religious Affairs announced that it had 
published a comprehensive Internet database of registered 
Buddhist and Taoist religious venues and that it continues 
efforts to certify all Buddhist and Taoist venues.\40\ The 
stated purpose for the database is to prevent donation-seeking 
by those ``falsely claiming affiliation with either of the two 
religious denominations.'' \41\ It is unclear whether the 
database may subject religious venues to increased scrutiny. 
This past year, believers practicing at unregistered venues 
reported feeling pressured to limit their activities for fear 
of government sanction.\42\
    This past year, authorities continued to characterize 
certain religious groups identifying with Buddhist and Taoist 
traditions as ``cult organizations.'' For instance, an article 
published in state media in March 2016 warned readers against 
cult organizations that ``misappropriate the teachings of 
Buddhism and Taoism,'' including Falun Gong and the Guangdong 
province-based Buddhist group Huazang Dharma.\43\ [For more 
information, see Falun Gong in this section.] In October 2015, 
the Zhuhai Intermediate People's Court in Zhuhai municipality, 
Guangdong, sentenced the leader of Huazang Dharma, Wu Zeheng, 
to life imprisonment, deprivation of political rights for life, 
and a fine \44\ for violating Article 300 of the PRC Criminal 
Law (``organizing and using a cult to undermine implementation 
of the law''),\45\ as well as fraud, rape, and producing and 
selling harmful and poisonous food.\46\ The court also 
sentenced four other Huazang Dharma members to prison terms of 
up to four years and fines.\47\ [For more information on 
Article 300 of the PRC Criminal Law, see Section II--Criminal 
Justice.]

                              Catholicism

    During the 2016 reporting year, the Chinese government and 
Communist Party continued efforts to control Chinese Catholic 
leadership and religious practice. The Chinese government 
continued to deny Catholics in China the freedom to be 
ministered to by bishops independently approved by the Holy 
See, which Catholics view as essential to their faith.\48\ At 
the April 2016 National Conference on Religious Work, an 
official characterized the Holy See's competing control over 
Catholic church hierarchy as a ``[problem] that need[s] to be 
urgently solved.'' \49\ At a February 2016 meeting of the two 
state-controlled Catholic organizations, the Catholic Patriotic 
Association (CPA) and the Bishops' Conference of the Catholic 
Church in China (BCCCC), leaders emphasized the importance of 
working toward ``national rejuvenation'' through the 
``sinicization'' of church practice and doctrine.\50\
    The Chinese government continued to require that Catholic 
bishops be selected through the state-controlled national 
religious organizations.\51\ After the February meeting, CPA 
and BCCCC leaders reportedly said that they would continue to 
follow government guidance in ordaining bishops and to bring 
unregistered clergy into their organizations.\52\ According to 
the Hong Kong Diocese's Holy Spirit Study Center, there are 
approximately 99 active bishops in China, 29 of whom are not 
approved by the government and minister to the underground 
church.\53\ After Pope Francis assumed the papacy in 2013, the 
Holy See and the Chinese government reportedly began a series 
of discussions regarding the system of bishop appointments in 
China.\54\ In October 2015, shortly after one meeting in 
Beijing municipality, the Holy See approved the election of 
Tang Yuange,\55\ who had been elected through a government-
sponsored election in Chengdu municipality, Sichuan province, 
in May 2014.\56\ In April 2016, Chinese and Holy See 
representatives formed a working group to discuss the selection 
and ordination of bishops in China; \57\ as of July 2016, both 
sides reportedly acknowledged that talks were continuing.\58\
    At the local level, government actions restricting freedom 
of religion for Catholics varied:

        <bullet> According to U.S.-based non-governmental 
        organization ChinaAid, by the end of 2015 officials in 
        Zhejiang province had authorized the demolition of over 
        20 churches and the removal of 1,500 crosses, targeting 
        both Protestant and Catholic churches.\59\ This state-
        sanctioned activity has taken place under the ``Three 
        Rectifications and One Demolition'' campaign launched 
        in 2014.\60\ [For more information on the cross-removal 
        campaign, see Protestantism in this section.]
        <bullet> In Sichuan province, government officials 
        reportedly required priests to submit reports on their 
        understanding of ``sinicization'' and its relation to 
        the church, according to an October 2015 Catholic news 
        media report.\61\
        <bullet> In Hebei province, where according to 
        government figures, the community of Catholics was 
        around 1 million as of 2010,\62\ Catholic news 
        organizations reported that five underground Catholic 
        priests went missing under suspicious circumstances in 
        April 2016; authorities later released two of the 
        priests.\63\ The Commission did not observe any updates 
        as to the status of the other three as of July 2016.
        <bullet> Authorities in Hebei also have not given any 
        information as to the whereabouts or condition of three 
        underground Hebei bishops: Coadjutor Bishop Cui Tai of 
        Xuanhua district, Zhangjiakou municipality (detained in 
        August 2014); \64\ Bishop Cosmas Shi Enxiang (missing 
        since 2001; in February 2015 officials denied an 
        unconfirmed report that he had passed away); \65\ and 
        Bishop James Su Zhimin of Baoding municipality 
        (detained in 1996; last seen in public in 2003).\66\ 
        Family members of Bishop Su reportedly appealed to 
        authorities for his release following a general amnesty 
        granted to disabled elderly prisoners; following one 
        appeal to a national-level official in January 2015, 
        authorities subjected the family to several days of 
        home confinement.\67\
        <bullet> In Shanghai municipality, Bishop Thaddeus Ma 
        Daqin of the Diocese of Shanghai continued to be held 
        under extralegal confinement at Sheshan seminary.\68\ 
        Authorities have restricted Ma's freedom of movement 
        since his public resignation from the CPA during his 
        ordination ceremony in July 2012 \69\ and reportedly 
        shut down his microblogging account around May 
        2016.\70\ In June 2016, Bishop Ma published a post on 
        his personal blog stating that Christians should defer 
        to national laws conflicting with religious doctrine 
        and calling his ``words and actions'' toward the CPA a 
        ``mistake.'' \71\ Several Chinese Catholic believers 
        and priests stated that they believed Bishop Ma posted 
        these statements due to government pressure.\72\

                               Falun Gong

    The Commission noted reports of continued harassment and 
abuse of Falun Gong practitioners as part of a campaign 
launched in 1999; \73\ this included official propaganda \74\ 
and censorship \75\ targeting the group, and harassment, 
arbitrary detention, abuse, and prosecution of individual 
practitioners.\76\ The campaign has been directed by policies 
issued by top-level government and Party officials \77\ and is 
overseen by the ``610 Office,'' an extralegal, Party-run 
security apparatus with branches at provincial and local 
levels.\78\
    As in previous years, authorities continued to pressure 
Falun Gong practitioners to renounce their beliefs in a process 
termed ``transformation through reeducation.'' \79\ To this 
end, officials reportedly subjected practitioners to extreme 
physical and psychological coercion in prisons and in 
administrative detention facilities such as ``legal education 
centers'' and compulsory drug detoxification centers.\80\ Human 
rights organizations \81\ and practitioners have documented 
coercive and violent practices against Falun Gong practitioners 
during custody, including electric shocks,\82\ sleep 
deprivation,\83\ food deprivation,\84\ forced feeding,\85\ 
forced drug administration,\86\ beatings,\87\ sexual abuse,\88\ 
and forcible commitment to psychiatric facilities.\89\
    Authorities also harassed, detained, and arrested those 
with associations with Falun Gong that ranged from social media 
activity to legal representation of practitioners. For example, 
in November 2015, the Ganyu District People's Court in 
Lianyungang municipality, Jiangsu province, reportedly tried 
Wang Dushan for ``using the Internet to undermine national 
law,'' a charge that his lawyer said does not exist in Chinese 
law.\90\ According to family members, Wang's father was a Falun 
Gong practitioner, but Wang himself had never practiced Falun 
Gong.\91\ He was living in Beijing municipality when 
authorities from his home district of Ganyu took him into 
custody on July 11, 2015.\92\ Wang had forwarded several 
pictures over social media, two of which included imagery and 
expressions associated with Falun Gong.\93\
    Lawyers defending Falun Gong practitioners continued to do 
so at great personal risk:

        <bullet> The Ministry of Public Security reportedly 
        harassed and threatened law professor Zhang Zanning 
        following his representation of Falun Gong practitioner 
        Wu Hongwei in November 2015.\94\ The Ministry of 
        Justice also investigated Zhang, reportedly due to his 
        representation of multiple Falun Gong practitioners in 
        court.\95\
        <bullet> Tianjin municipality police formally arrested 
        prominent human rights lawyer Wang Yu on January 8, 
        2016, on suspicion of ``subversion of state power.'' 
        \96\ Shortly after being detained in July 2015, state 
        media broadcast footage of Wang ``verbally abusing'' 
        court officials while representing Falun Gong 
        practitioners in a trial in April 2015.\97\ Independent 
        reports indicate that she was reacting to courtroom 
        bailiffs after they physically assaulted her client and 
        choked her co-counsel until he was close to 
        suffocation.\98\ Authorities reportedly released Wang 
        on bail in early August 2016, coinciding with the 
        airing of a prerecorded ``confession'' that members of 
        the Chinese human rights community believe was 
        coerced.\99\
        <bullet> Officials continued to subject Gao Zhisheng, 
        who was among the first attorneys to represent Falun 
        Gong practitioners, to harassment, restriction of 
        movement, and denial of necessary medical 
        treatment.\100\ In 2006, authorities sentenced Gao to 
        three years' imprisonment, suspended for five years, 
        for ``inciting subversion of state power.'' \101\ 
        Authorities reportedly harassed and tortured him during 
        his suspended sentence, which a Beijing court revoked 
        in December 2011, ordering Gao to serve the original 
        three-year sentence.\102\ During his detention and 
        imprisonment, Gao was held in solitary confinement, 
        given little food, and beaten, including with an 
        electric baton.\103\

    Courts and public security officials also committed 
numerous violations of legal procedure in cases involving Falun 
Gong practitioners this reporting year. Defense lawyers were 
often unable to provide adequate defense for Falun Gong 
practitioners: authorities in some cases denied client 
meetings,\104\ adequate notice of trial,\105\ and adequate time 
and opportunity to present a defense during trial.\106\ 
Authorities also have pressured families into dismissing 
independently hired attorneys.\107\
    International observers,\108\ including the U.S. House of 
Representatives \109\ and the European Parliament,\110\ 
expressed concern over reports that numerous organ 
transplantations in China have used the organs of detained 
prisoners, including Falun Gong practitioners.\111\ In a 
November 2015 interview, Huang Jiefu, the chairman of the 
committee responsible for reforming China's organ procurement 
system, denied that the new system allowed the transplantation 
of organs from executed prisoners.\112\ International medical 
professionals noted that such claims are impossible to verify 
given the lack of transparency \113\ and expressed skepticism 
of reforms \114\ raised by discrepancies in official data.\115\ 
[For more information on organ transplantation issues in China, 
see Section II--Criminal Justice.]

                                 Islam

    During the reporting year, regulations controlling the 
religious activities of Muslim believers remained in effect, 
while President Xi Jinping \116\ and state-sponsored Islamic 
leaders \117\ called for the ``sinicization'' of Islam. 
Continued government restrictions included regulating the 
confirmation of religious personnel \118\ and maintaining the 
national ``patriotic'' Islamic group's responsibility for 
organizing Hajj pilgrimages for all Chinese Muslims.\119\ 
During a July 2016 visit to the Muslim community of the Ningxia 
Hui Autonomous Region, President Xi encouraged Muslims to 
practice their religion in conformity with Chinese society 
\120\ and to resist extremist religious influence.\121\
    Officials also made a number of statements against the 
popularization of practices and symbols associated with 
Islam.\122\ In one example, Ye Xiaowen, administrator of a 
state-affiliated political research institute and former State 
Administration for Religious Affairs director,\123\ published a 
statement in state-sponsored media in May 2016 linking the 
popularization of halal products and Arabic street signs in 
certain regions to an ``infiltration'' of religious 
extremism.\124\ Ye characterized such phenomena as ``harboring 
an enormous threat to national unity and inciting ethnic 
antagonism, imperiling the present situation of stable 
solidarity, social harmony, and friendly relations between 
ethnic groups.'' \125\ At the national level, state-affiliated 
researchers campaigned against standardized regulations for the 
halal food industry, reportedly contributing to the abandonment 
of draft regulations in April 2016.\126\ Concurrent to the 
statements and actions of officials and researchers, experts 
noted significant online commentary hostile to Islam, raising 
concerns about rising anti-Muslim sentiment in China.\127\ In 
addition, overseas media reported that the November 2015 
criminal detention of Ma Jun, an influential Salafi imam, 
indicated that the government was adopting a more restrictive 
attitude toward religious groups.\128\ Ma reportedly had 
``close ties'' to the government \129\ and official media had 
featured him as a model of a moderate Islamic leader months 
before his detention.\130\ [For information on official 
controls on Islam in the Xinjiang Uyghur Autonomous Region, see 
Section IV--Xinjiang.]

                             Protestantism

    During the reporting year, Chinese government and Communist 
Party officials continued to prevent many Protestant Christians 
from worshipping freely, taking a range of actions that experts 
believed were connected to the national-level ``sinicization'' 
campaign.\131\ The government and Party continued to pressure a 
large number of unregistered house church Protestants to join 
the two state-controlled organizations that manage Protestant 
religious practice--the Three-Self Patriotic Movement (TSPM) 
and the Chinese Christian Council.\132\ Authorities in some 
areas, however, targeted existing members of the patriotic 
religious organizations, particularly in Wenzhou municipality, 
Zhejiang province,\133\ a region with a high concentration of 
Protestants.\134\

------------------------------------------------------------------------
                    ``Sinicization'' of Christianity
-------------------------------------------------------------------------
  As national-level officials called for the ``sinicization'' of several
 religions this past year, their rhetoric emphasized a need for
 believers to alter their beliefs and activities to align with the
 Chinese political system and culture.\135\ Following the National
 Conference on Religious Work in April 2016,\136\ Gao Feng, president of
 the state-sponsored Chinese Christian Council, stated that Chinese
 Christianity must ``be persistent in developing in the direction of
 sinicization, and actively guide Christianity to be compatible with
 socialist society.'' \137\ One of the primary figures responsible for
 developing the theory of ``sinicization,'' government official and
 scholar Zhuo Xinping,\138\ has elaborated that ``sinicization'' for
 Chinese Christians requires ``endorsing the Chinese political system,
 conforming to Chinese society, and embodying Chinese culture.'' \139\
 Zhuo asserted that Western values are ``directly opposed to and a
 repudiation of China's current political system'' and as a result,
 Chinese Protestantism is in a position of conflicting political
 loyalties and commitments.\140\
  As a primary example of ``sinicization'' policy at the local level,
 experts pointed to the ``Five Introductions and Five Transformations''
 (wujin wuhua) campaign ongoing in Zhejiang since 2015.\141\ The policy
 calls for ``introducing'' the following five concepts into churches:
 (1) laws and regulations, (2) health and medicine, (3) science, (4)
 charity, and (5) the promotion of social harmony; and for applying the
 following five ``transformations'': (1) to assimilate religious
 practices to local settings, (2) to standardize church management, (3)
 to adapt theology to conform to Chinese culture, (4) to make finances
 transparent, and (5) to render church doctrines compatible with Chinese
 political values.\142\ One Wenzhou church leader believed that the
 campaign was aimed at circumscribing church social activities and
 gaining control over church management, finances, and doctrine.\143\
------------------------------------------------------------------------

        CONTINUED CAMPAIGN AGAINST CHURCHES IN ZHEJIANG PROVINCE

    In the past year, authorities in Zhejiang province 
continued to harass and closely monitor Christians. In one 
example, officials continued to implement a campaign launched 
in 2013 purportedly to address ``illegal structures,'' but 
which appeared to target Christian sites and crosses, many of 
which were state-approved.\144\ As of September 2016, officials 
reportedly had removed more than 1,500 crosses (an estimated 90 
percent of all church crosses in the province) and destroyed 
more than 20 churches.\145\ Officials also appeared to have 
increased government presence within churches; officials in 
Pingyang county, Wenzhou municipality, reportedly monitored 
church gatherings in person so as to prevent discussion of 
cross removals or other government policies.\146\ Other local 
governments in Zhejiang reportedly required churches to promote 
Party policies aligning doctrine with official ideology by 
displaying propaganda or allowing officials to speak during 
church services.\147\
    Many Protestants in Zhejiang defied or protested these 
measures, and officials reacted by increasing pressure on 
individuals; leaders of registered churches who defended 
churches against cross removals received especially harsh 
treatment. For example, in February 2016, authorities sentenced 
government-appointed pastors Bao Guohua and Xing Wenxiang of 
Jinhua municipality to 14 and 12 years in prison, respectively, 
on charges of ``misappropriation of funds,'' ``gathering a 
crowd to disturb social order,'' ``illegal business activity,'' 
and ``concealing accounting and financial documents.'' \148\ In 
January 2016, Hangzhou municipal authorities detained Pastor Gu 
Yuese after he wrote two open letters in 2015 opposing the 
cross demolition campaign; he was released on bail in March 
2016.\149\ Prior to his detention, Gu had served as the leader 
of China's largest government-sanctioned church and the head of 
the Zhejiang Province Christian Council.\150\
    Other local government actions against Protestant believers 
this past year included reported threats \151\ and a ban on 
religious activities, including prayer, in hospitals.\152\ 
Protestant believers reported that local Party officials also 
conducted investigations of Party members to identify whether 
they were Christians and organized groups to study Marxist 
religious views.\153\
    Officials also targeted those providing legal assistance to 
churches facing forced cross removal. For example, in August 
2015, authorities detained lawyer Zhang Kai, who had provided 
legal counsel to over 100 churches in Wenzhou.\154\ During his 
detention, authorities reportedly forced Zhang to give a 
televised ``confession'' of his crimes, which included 
``endangering state security.'' \155\ In March 2016, Zhang 
announced on social media that he had returned to his parents' 
home in the Inner Mongolia Autonomous Region; he was reportedly 
released on bail pending investigation for one year.\156\ [For 
more on televised confessions, see Section II--Criminal 
Justice.]

     RESTRICTION OF PROTESTANT RELIGIOUS FREEDOM IN OTHER PROVINCES

    Authorities in other regions of China also restricted 
Protestant religious observance this past year. Government 
officials detained Protestant believers,\157\ conducted raids 
on church buildings and gatherings,\158\ and pressured 
landlords to evict churches from meeting spaces.\159\ According 
to ChinaAid, churches in Guangdong province were hit especially 
hard, with numerous house churches subjected to government 
raids and many ultimately closed down.\160\ In Guizhou 
province, the Guiyang municipal government designated one of 
the municipality's largest unregistered house churches, Living 
Stone Church, as an ``illegal social group.'' \161\ Guiyang 
authorities detained Living Stone pastor Li Guozhi (also known 
as Yang Hua) and several others in December 2015 and arrested 
Li on the charge of ``intentionally leaking state secrets'' in 
January 2016; as of August 2016, Li still awaited trial at the 
Nanming District People's Court in Guiyang.\162\ In August 
2016, the Tianjin No. 2 Intermediate People's Court tried and 
sentenced Hu Shigen, an advocate for religious freedom and 
democracy \163\ to seven years and six months' 
imprisonment.\164\ Hu's friends believe that Hu was coerced 
into pleading guilty \165\ to the charge of ``subversion of 
state power.'' \166\ Hu had led several underground churches 
\167\ and state media reported that he had ``used illegal 
religious activities as a platform'' to promote subversion of 
the Chinese government and the socialist system.\168\

                      Other Religious Communities

    Religious communities that do not fall within China's five 
``main'' religions continue to exist in China; some enjoy 
official support, while others face suppression from 
authorities. For example, despite lacking formal recognition at 
the national level,\169\ some Eastern Orthodox Christian 
communities are recognized at the local level.\170\ In Harbin 
municipality, Heilongjiang province, the Eastern Orthodox 
community is led by a Chinese priest who was ordained by the 
Russian Orthodox Church in October 2015 with the tacit approval 
of the Chinese government.\171\ In contrast, authorities in 
Kaifeng municipality, Henan province, reportedly shut down a 
Jewish educational center, banned foreign Jewish tour groups 
from visiting the city, destroyed a well used by local Jewish 
believers for ritual bathing, and placed community members 
under surveillance.\172\ The Chinese government also maintained 
its official policy of allowing some foreign religious 
communities to hold religious services for foreign 
nationals.\173\

                                                    Freedom of 
                                                       Religion
                                                Freedom of 
                                                Religion
    Notes to Section II--Freedom of Religion

    \1\ PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 83, 15 March 99, 14 March 04, art. 36.
    \2\ Ibid., art. 36; Liu Peng, ``Crisis of Faith,'' China Security, 
Vol. 4, No. 4 (Autumn 2008), 30.
    \3\ PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 83, 15 March 99, 14 March 04, art. 36.
    \4\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76; United Nations Treaty Collection, 
Chapter IV, Human Rights, International Covenant on Civil and Political 
Rights, last visited 28 July 16. China has signed but not ratified the 
ICCPR.
    \5\ State Council Information Office, ``Progress in China's Human 
Rights in 2012,'' reprinted in Xinhua, 14 May 13, chap. VI; Permanent 
Mission of the People's Republic of China to the UN, ``Aide Memoire,'' 
reprinted in United Nations, 13 April 06, para. IV; State Council, 
European Council, Prime Minister's Office of Sweden, and European 
Commission, ``Joint Statement of the 12th China-EU Summit,'' reprinted 
in Ministry of Foreign Affairs, 30 November 09, para. 8. Upon 
presenting its candidacy for the 2013 UN Human Rights Council 
elections, China reportedly promised to ``further protect civil and 
political rights,'' although it did not specifically state intent to 
ratify the ICCPR. UN General Assembly, Sixty-Eighth Session, Item 
115(c) of the Preliminary List, Elections To Fill Vacancies in the 
Subsidiary Organs and Other Elections: Election of Fourteen Members of 
the Human Rights Council, Note Verbale Dated 5 June 2013 from the 
Permanent Mission of China to the United Nations Addressed to the 
President of the General Assembly, A/68/90, 6 June 13.
    \6\ United Nations Conference on the Law of Treaties, ``Vienna 
Convention on the Law of Treaties,'' adopted 22 May 69, entry into 
force 27 January 80, arts. 18, 26.
    \7\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) on 16 December 66, entry 
into force 23 March 76, art. 18.
    \8\ PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 83, 15 March 99, 14 March 04, art. 36; International Covenant on 
Civil and Political Rights, adopted by UN General Assembly resolution 
2200A (XXI) on 16 December 66, entry into force 23 March 76, art. 18.
    \9\ State Council, Regulations on Religious Affairs [Zongjiao shiwu 
tiaoli], issued 30 November 04, effective 1 March 05, arts. 6, 8, 13-
16, 27. See, e.g., art. 6 (requiring religious organizations to 
register in accordance with the Regulations on the Management of the 
Registration of Social Organizations); art. 8 (requiring an application 
to the State Administration for Religious Affairs (SARA) to establish 
an institute for religious learning); arts. 13-16 (imposing an 
application procedure to register venues for religious activity); art. 
27 (requiring the appointment of religious personnel to be reported to 
the religious affairs bureau at or above the county level and requiring 
reporting the succession of Tibetan living Buddhas for approval of the 
religious affairs bureau at the level of a city divided into districts 
or higher, and requiring reporting for the record the appointment of 
Catholic bishops to SARA).
    \10\ See, e.g., Liu Peng, ``How To Treat House Churches: A Review 
of the Beijing Shouwang Church Incident,'' Pu Shi Institute for Social 
Sciences, 16 February 12. Shouwang Church repeatedly applied for 
registration and was denied by the local state agency in charge of 
religious affairs.
    \11\ Neil Connor, ``China's Catholics: `Rome May Betray Us, but I 
Won't Join a Church Which Is Controlled by the Communist Party,' '' 
Telegraph, 4 April 16; Emily Rauhala, ``Christians in China Feel Full 
Force of Authorities' Repression,'' Washington Post, 23 December 15. 
See also Qiao Nong, ChinaAid, ``Church in Huaqiu Township, Tongzi 
County, Guizhou Lost Lawsuit Against Land Bureau, Church To Be Seized'' 
[Guizhou tongzi huaqiu zhen jiaohui gao guotuju baisu, jiaotang jiang 
bei moshou], 4 January 16; Qiao Nong, ChinaAid, ``Shenzhen's Huaqiao 
City Church Forced To Relocate, Contract for Renting Another Site 
Broken'' [Shenzhen huaqiao cheng jiaohui bei bi qian, ling zu changdi 
zai bei huiyue], 23 December 15; Richard Madsen, China's Catholics 
(Berkeley and Los Angeles: University of California Press, 1998), 37-
38.
    \12\ State Council Information Office, ``The Situation of Religious 
Freedom in China'' [Zhongguo de zongjiao xinyang ziyou zhuangkuang], 
October 1997, sec. I. The central government has referred to the five 
religions as China's ``main religions,'' stating that the religions 
citizens ``mainly'' follow are Buddhism, Taoism, Islam, Catholicism, 
and Protestantism. Henan Province People's Congress Standing Committee, 
Henan Province Regulations on Religious Affairs [Henan sheng zongjiao 
shiwu tiaoli], issued 30 July 05, effective 1 January 06, art. 2; 
Shaanxi Province People's Congress Standing Committee, Shaanxi Province 
Regulations on Religious Affairs [Shaanxi sheng zongjiao shiwu tiaoli], 
issued 23 September 00, amended 30 July 08, art. 2. Some local 
regulations on religious affairs define ``religion'' to mean only these 
five religions. See, e.g., Zhejiang Province Ethnic and Religious 
Affairs Committee, Zhejiang Province Measures for the Management of 
Registration of Venues for Folk Belief Activity [Zhejiang sheng minjian 
xinyang huodong changsuo dengji bianhao guanli banfa], issued 19 
October 14, effective 1 January 15; Taizhou Municipality Bureau of 
Ethnic and Religious Affairs, Circular Concerning the 2016 Launch of 
Registration Work of Venues for Folk Belief Activity [Guanyu kaizhan 
2016 minjian xinyang huodong changsuo dengji bianhao gongzuo de 
tongzhi], issued 13 April 16; Hunan Province Religious Affairs 
Committee, Hunan Province Measures for the Management of Registration 
of Venues for Folk Belief Activity [Hunan sheng minjian xinyang huodong 
changsuo dengji guanli banfa], issued and effective 20 August 09; 
Shaoxing Municipality Bureau of Ethnic and Religious Affairs, Shaoxing 
Municipality Implementing Plan for Registration of Venues for Folk 
Belief Activity [Shaoxing shi minjian xinyang huodong changsuo dengji 
bianhao gongzuo shishi fang'an], issued 14 May 15; Chinese Academy of 
Social Sciences Institute for World Religions, ``State Administration 
for Religious Affairs Convenes Expert Scholars' Forum on Folk Beliefs'' 
[Guojia zongjiao shiwuju zhaokai minjian xinyang zhuanjia xuezhe 
zuotanhui], 21 March 16. See also Vincent Goossaert and David A. 
Palmer, The Religious Question in Modern China (Chicago: University of 
Chicago Press, 2011), 343, 346. There is limited official tolerance 
outside this framework for ethnic minority and ``folk'' religious 
practices. See, e.g., Inner Mongolia Autonomous Region People's 
Government General Office, Inner Mongolia Autonomous Region 
Implementing Measures for the Management of Venues for Religious 
Activity [Neimenggu zizhiqu zongjiao huodong changsuo guanli shishi 
banfa], issued 23 November 95, art. 2; State Council Information 
Office, ``The Situation of Religious Freedom in Xinjiang'' [Xinjiang de 
zongjiao xinyang ziyou zhuangkuang], reprinted in Xinhua, 2 June 16, 
secs. 1, 3. The Orthodox Christian church has also been recognized to 
varying degrees at the local government level. See also discussion in 
this section on Other Religious Communities.
    \13\ State Council, Regulations on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, effective 1 March 05, art. 12.
    \14\ Tim Oakes and Donald S. Sutton, ``Introduction,'' in Faiths on 
Display: Religion, Tourism, and the Chinese State (Lanham: Rowman & 
Littlefield Publishers, 2010), 15-17; Richard Madsen, ``Church State 
Relations in China--Consequences for the Catholic Church,'' Religions 
and Christianity in Today's China, Vol. 5 (2015), 66.
    \15\ Maria Hsia Chang, Falun Gong: The End of Days (New Haven: Yale 
University Press, 2004), 9, 144-53; Vincent Goossaert and David A. 
Palmer, The Religious Question in Modern China (Chicago: University of 
Chicago Press, 2011), 339.
    \16\ State Council, Regulations on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, effective 1 March 05. The 
Regulations on Religious Affairs (RRA) contains provisions authorizing 
official intervention into religious practices, beliefs, and 
organization, e.g., Article 6 (requiring ``religious groups'' to 
register with the government); Article 7 (providing official guidelines 
for the content and distribution of religious publications); Article 8 
(requiring institutions for religious education to apply for government 
approval); Article 11 (requiring the religious pilgrimage to be 
organized through the national religious body of Islam); Article 12 
(requiring religious activities to be held at state-approved sites); 
Article 17 (requiring sites for religious activities to set up 
management organizations and exercise democratic management); Article 
18 (requiring sites for religious activities to set up particular 
management systems for personnel, finance, accounting, sanitation, 
etc.); and Article 27 (subjecting religious personnel to qualification 
by a religious body).
    \17\ Vincent Goossaert and David A. Palmer, The Religious Question 
in Modern China (Chicago: University of Chicago Press, 2011), 153-54, 
346-48.
    \18\ Ibid., 153. The ``patriotic'' religious associations are 
state-controlled institutions that represent the five ``main'' 
religions of China: the Buddhist Association of China; the China 
Islamic Association; the China Taoist Association; the Chinese Catholic 
Patriotic Association and the National Conference of Bishops (an 
organization led by Catholic clergy); and the Three-Self (for ``self-
governing, self-financing, and self-propagating'') Patriotic Movement 
and the Chinese Christian Council (the latter two organizations have 
overlapping membership and represent Protestants). Although nominally 
independent, the ``patriotic'' religious associations are effectively 
under the authority of the State Council's agency for religious 
affairs.
    \19\ Ibid., 154.
    \20\ CECC, 2015 Annual Report, 8 October 15, 120.
    \21\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 300.
    \22\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xing fa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, item 33; ``China 
Focus: China Adopts Amendments to Criminal Law,'' Xinhua, 29 August 15; 
Dui Hua Foundation, ``China Mulls Harsher Penalties for Protesters, 
`Cults'; Fewer Capital Crimes,'' Dui Hua Human Rights Journal, 6 August 
15. See also CECC, 2015 Annual Report, 8 October 15, 120.
    \23\ ``Xi Jinping: Comprehensively Improve the Level of Religious 
Work Under the New Situation'' [Xi jinping: quanmian tigao xin xingshi 
xia zongjiao gongzuo shuiping], Xinhua, 23 April 16.
    \24\ Ibid.
    \25\ Zhejiang Province Chinese Catholic Patriotic Association and 
Zhejiang Province Chinese Catholic Religious Affairs Committee, 
``Statement Strongly Urging the Immediate Cessation of Cross Removals'' 
[Guanyu qianglie yaoqiu liji tingzhi chaichu jiaotang shizijia de 
baogao], 5 July 15, reprinted in ChinaAid, 29 July 15; Zhejiang 
Province Chinese Christian Council, ``Open Letter to the Zhejiang 
Province Ethnic and Religious Affairs Bureau'' [Zhi zhejiang sheng 
minzu zongjiao shiwu weiyuanhui de gongkai xin], 10 July 15.
    \26\ ``Xi Jinping: Comprehensively Improve the Level of Religious 
Work Under the New Situation'' [Xi jinping: quanmian tigao xin xingshi 
xia zongjiao gongzuo shuiping], Xinhua, 23 April 16. Authorities often 
use ``social harmony'' in official rhetoric to refer to containment of 
domestic instability, while Chinese cultural values are often 
emphasized in the official discourse of ``national rejuvenation,'' 
which argues that a distinctly ``Chinese'' form of national power will 
restore China to its historical supremacy. China scholars note that the 
``national rejuvenation'' discourse legitimizes the current political 
system while discrediting Western liberal democratic values by linking 
them to perceptions of foreign influence. See, e.g., Jinghan Zeng, The 
Chinese Communist Party's Capacity To Rule: Ideology, Legitimacy and 
Party Cohesion (New York: Palgrave Macmillan, 2016), sec. 5.3.3.
    \27\ ``Xi Jinping: Comprehensively Improve the Level of Religious 
Work Under the New Situation'' [Xi jinping: quanmian tigao xin xingshi 
xia zongjiao gongzuo shuiping], Xinhua, 23 April 16.
    \28\ Chinese Communist Party Central Committee, ``The Basic 
Viewpoint and Policy on the Religious Question During China's Socialist 
Period'' [Guanyu woguo shehui zhuyi shiqi zongjiao wenti de jiben 
guandian he jiben zhengce], reprinted in China Ethnicity and Religion 
Net, 31 March 82; Chinese Communist Party Central Committee, ``Document 
6: On Some Problems Concerning Further Improving Work on Religion,'' 5 
February 91, translated in Asia Watch Committee, ``Freedom of Religion 
in China,'' January 1992, 35-42. See also Vincent Goossaert and David 
A. Palmer, The Religious Question in Modern China (Chicago: University 
of Chicago Press, 2011), 325; State Council, Regulations on Religious 
Affairs [Zongjiao shiwu tiaoli], issued 30 November 04, effective 1 
March 05, art. 3. The RRA states that ``Religious groups, sites for 
religious activities and religious citizens shall . . . safeguard 
unification of the country, unity of all nationalities, and stability 
of society.''
    \29\ Xi Jinping, ``Speech by H. E. Xi Jinping President of the 
People's Republic of China at UNESCO Headquarters,'' reprinted in 
Ministry of Foreign Affairs, 28 March 14; Yang Shihua and Zhao Lixiu, 
Chinese Taoist Association ``Buddhist, Taoist Communities Study the 
Spirit of the National Conference on Religious Work: Seminar 
Highlights'' [Fojiao, daojiao jie xuexi quanguo zongjiao gongzuo huiyi 
jingshen yantaoban jiaoliu gao xuandeng], May 2016. See also Tim Oakes 
and Donald S. Sutton, ``Introduction,'' in Faiths on Display: Religion, 
Tourism, and the Chinese State (Lanham: Rowman & Littlefield, 2010) 1-
25; Xue Cheng, Buddhist Association of China, ``President Xue Cheng: 
Speech to the Committee on Buddhist Affairs of the Ninth Conference of 
the Buddhist Association of China'' [Xue cheng huizhang: zai zhongguo 
fojiao xiehui di jiu jie lishihui hanchuan fojiao jiaowu jiaofeng 
weiyuanhui shang de jianghua], 9 April 16.
    \30\ For the association between Christianity, foreign influence, 
and social unrest, see Willy Lam, ``Xi's Obsession With `Cultural 
Renaissance' Raises Fears of Another Cultural Revolution,'' Jamestown 
Foundation, China Brief, Vol. 16, Issue 3, 8 February 16, 4. See also 
the discussion in this section on Catholicism and Protestantism. For 
the association between Islam, foreign influence, and social unrest, 
see ``Ye Xiaowen: Warning Against the `Extremism' Underlying Religious 
`Expansion' '' [Ye xiaowen: jingti zongjiao ``fanhua'' houmian de 
``jiduanhua''], Huanqiu Net, 7 May 16.
    \31\ Willy Lam, ``Xi's Obsession With `Cultural Renaissance' Raises 
Fears of Another Cultural Revolution,'' Jamestown Foundation, China 
Brief, Vol. 16, No. 3, 8 February 16, 4. For more on the ``national 
rejuvenation'' campaign, see Zheng Wang, ``Not Rising, but 
Rejuvenating: The `Chinese Dream,' '' The Diplomat, 5 February 13. See 
also Jinghan Zeng, The Chinese Communist Party's Capacity To Rule: 
Ideology, Legitimacy and Party Cohesion (New York: Palgrave Macmillan, 
2016), sec. 5.3.3.
    \32\ Zhu Weiqun, ``Communist Party Members Cannot Be Religious 
Believers'' [Gongchandang yuan buneng xinyang zongjiao], Seeking Truth, 
15 December 11.
    \33\ ``Party Organization Department: Comprehensively Improving 
Work on Retired Cadres'' [Zhongzubu: quanmian zhuohao li tuixiu ganbu 
gongzuo], Xinhua, 4 February 16.
    \34\ Lawrence C. Reardon, ``The Party Giveth, and the Party Taketh 
Away: Chinese Enigmatic Attitudes Towards Religion,'' in Religious 
Transformation in Modern Asia: A Transnational Movement, ed. David W. 
Kim (Leiden: Brill, 2015), 34.
    \35\ State Council, Regulations on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, effective 1 March 05, arts. 6, 8, 
13-15, 27. See, e.g., RRA, art. 6 (requiring religious organizations to 
register in accordance with the Regulations on the Management of the 
Registration of Social Organizations); art. 8 (requiring an application 
to the State Administration for Religious Affairs (SARA) to establish 
an institute for religious learning); arts. 13-15 (imposing an 
application procedure to register venues for religious activity); and 
art. 27 (requiring the appointment of religious personnel to be 
reported to the religious affairs bureau at or above the county level 
and requiring reporting the succession of living Buddhas for approval 
to governments at the level of a city divided into districts or higher, 
and requiring reporting for the record the appointment of Catholic 
bishops to SARA). For measures regulating Taoist religious activity, 
see, e.g., Chinese Taoist Association, Measures for the Management of 
Taoist Temples [Daojiao gongguan guanli banfa], issued 23 June 10, 
amended 29 June 15, reprinted in State Administration for Religious 
Affairs, 15 October 15; Chinese Taoist Association, Measures for the 
Appointment of Key Religious Personnel in Taoist Temples [Daojiao 
gongguan zhuyao jiaozhi renzhi banfa], issued 23 June 10, amended 29 
June 15, reprinted in State Administration for Religious Affairs, 15 
October 15. For measures regulating Buddhist religious activity, see, 
e.g., Buddhist Association of China, Measures for the Appointment of 
the Heads of Theravada Buddhist Monasteries [Nanchuan fojiao siyuan 
zhuchi renzhi banfa], issued 3 November 11, reprinted in State 
Administration for Religious Affairs, 21 December 11; Buddhist 
Association of China, National Measures for the Management of Monastic 
Vows in Chinese Buddhist Monasteries [Quanguo hanchuan fojiao siyuan 
chuanshou santan dajie guanli banfa], issued 3 November 11, reprinted 
in State Administration for Religious Affairs, 21 December 11. See also 
Yang Siqi, ``Life in Purgatory: Buddhism Is Growing in China, but 
Remains in Legal Limbo,'' Time, 16 March 16.
    \36\ Buddhist Association of China, Buddhist Association of China 
Charter [Zhongguo fojiao xiehui zhangcheng], issued 21 April 15. The 
charter for the Buddhist Association of China states that it is funded 
in part by the government. See also Yang Shihua and Zhao Lixiu, Chinese 
Taoist Association, ``Buddhist, Taoist Communities Study the Spirit of 
the National Conference on Religious Work: Seminar Highlights'' 
[Fojiao, daojiao jie xuexi quanguo zongjiao gongzuo huiyi jingsheng 
yantaoban jiaoliu gao xuandeng], 8 June 16.
    \37\ Xue Cheng, Buddhist Association of China, ``President Xue 
Cheng: Speech to the Committee on Buddhist Affairs of the Ninth 
Conference of the Buddhist Association of China'' [Xue cheng huizhang: 
zai zhongguo fojiao xiehui di jiu jie lishihui hanchuan fojiao jiaowu 
jiaofeng weiyuanhui shang de jianghua], 9 April 16.
    \38\ Yang Shihua and Zhao Lixiu, Chinese Taoist Association, 
``Buddhist, Taoist Communities Study the Spirit of the National 
Conference on Religious Work: Seminar Highlights'' [Fojiao, daojiao jie 
xuexi quanguo zongjiao gongzuo huiyi jingsheng yantaoban jiaoliu gao 
xuandeng], 8 June 16.
    \39\ State Administration for Religious Affairs et al., Opinion 
Regarding Issues Related to the Management of Buddhist Monasteries and 
Taoist Temples [Guanyu chuli sheji fojiao simiao, daojiao gongguan 
guanli youguan wenti de yijian], issued 8 October 12.
    \40\ Xu Wei, ``Religious Venue List Completed,'' China Daily, 19 
December 15.
    \41\ Ibid.
    \42\ Yang Siqi, ``Life in Purgatory: Buddhism Is Growing in China, 
but Remains in Legal Limbo,'' Time, 16 March 16.
    \43\ Henan Province Anti-Cult Association, ``The Allure of Cult 
Organizations and How To Protect Oneself'' [Xiejiao de mihuoxing ji 
fangfan cuoshi], reprinted in Xinhua, 29 March 16.
    \44\ Wei Meng, ``Wu Zeheng, Leader of Evil Cult `Huazang Dharma' 
Sentenced to Life Imprisonment by Court of First Instance'' [Xiejiao 
zuzhi ``huazang zongmen'' toumu wu zeheng yishen bei panchu wuqi 
tuxing], Xinhua, 31 October 15.
    \45\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 300.
    \46\ Wei Meng, ``Wu Zeheng, Leader of Evil Cult `Huazang Dharma' 
Sentenced to Life Imprisonment by Court of First Instance'' [Xiejiao 
zuzhi ``huazang zongmen'' toumu wu zeheng yishen bei panchu wuqi 
tuxing], Xinhua, 31 October 15.
    \47\ Ibid.
    \48\ Neil Connor, ``China's Catholics: `Rome May Betray Us, but I 
Won't Join a Church Which Is Controlled by the Communist Party,' '' 
Telegraph, 4 April 16. See also Richard Madsen, China's Catholics 
(Berkeley and Los Angeles: University of California Press, 1998), 37-
38.
    \49\ Kou Jie, ``Meeting Calls for Religions With Chinese 
Characteristics,'' Global Times, 25 April 16.
    \50\ State Administration for Religious Affairs, ``Chinese Catholic 
Patriotic Association and Bishops' Conference of the Catholic Church in 
China Convene Coalition Leadership Meeting To Study 2016 Work 
Implementation'' [Zhongguo tianzhujiao yihui yituan zhaokai fuzeren 
lianxi huiyi yanjiu bushu 2016 nian gongzuo], 29 February 16.
    \51\ State Council, Regulations on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, effective 1 March 05, art. 27.
    \52\ ``China Church Officials Endorse Government Plans for 2016,'' 
Union of Catholic Asian News, 2 March 16. See also State Administration 
for Religious Affairs, ``Chinese Catholic Patriotic Association and 
Bishops' Conference of the Catholic Church in China Convene Coalition 
Leadership Meeting To Study 2016 Work Implementation'' [Zhongguo 
tianzhujiao yihui yituan zhaokai fuzeren lianxi huiyi yanjiu bushu 2016 
nian gongzuo], 29 February 16.
    \53\ ``Mainland China Has 112 Bishops, 99 in Active Ministry,'' 
Union of Catholic Asian News, 28 April 16.
    \54\ Victor Gaeten, ``The Pope and the Politburo: The Vatican's 
Chinese Diplomacy,'' Foreign Affairs, 24 March 16.
    \55\ ``Vatican Approves China's Elected Bishop Candidate,'' Union 
of Catholic Asian News, 28 April 16.
    \56\ Gerard O'Connell, ``Bishop Candidates Elected for Two Catholic 
Dioceses in Central China,'' America, 1 May 15.
    \57\ Lisa Jucca et al., ``After Decades of Mistrust, Pope Pushes 
for Diplomatic Breakthrough With China,'' Reuters, 14 July 16.
    \58\ Ibid.
    \59\ ChinaAid, ``2015 Annual Report: Chinese Government Persecution 
of Christians and Churches in China January-December 2015,'' March 
2016, sec. II(ii).
    \60\ Lawrence C. Reardon, ``The Party Giveth, and the Party Taketh 
Away: Chinese Enigmatic Attitudes Towards Religion,'' in Religious 
Transformation in Modern Asia: A Transnational Movement, ed. David W. 
Kim (Leiden: Brill, 2015), 39; ChinaAid, ``2015 Annual Report: Chinese 
Government Persecution of Christians and Churches in China January-
December 2015,'' March 2016, sec. II(ii).
    \61\ ``Sources Confirm Vatican-China Meeting in Beijing,'' Union of 
Catholic Asian News, 16 October 15.
    \62\ Hebei Province Ethnic and Religious Affairs Bureau, 
``Catholicism'' [Tianzhujiao], 6 December 10, last visited 29 July 16; 
``Hebei's Catholics Stand Out Amid Wider Crackdown,'' Union of Catholic 
Asian News, 28 January 16.
    \63\ ``China: Catholic Priests Missing; Woman Killed in Church 
Demolition,'' Independent Catholic News, 19 April 16; Victoria Ma, 
``Baoding Catholics Call for Safe Return of Missing Father Yang,'' Asia 
News, 16 April 16.
    \64\ ``Chinese Catholics Appeal for Release of Long-Imprisoned 
Bishop,'' Union of Catholic Asian News, 1 September 15; Bernardo 
Cervellera, ``Two Chinese Bishop Martyrs Recognised as `Illustrious 
Unknown' for 2011,'' Asia News, 30 December 11.
    \65\ Ibid.; Michael Forsythe, ``Questions Rise on Fate of Chinese 
Bishop,'' New York Times, 13 February 15. For more information on 
Bishop Cosmas Shi Enxiang, see the Commission's Political Prisoner 
Database record 2004-05378.
    \66\ ``Chinese Catholics Appeal for Release of Long-Imprisoned 
Bishop,'' Union of Catholic Asian News, 1 September 15; Bernardo 
Cervellera, ``Two Chinese Bishop Martyrs Recognised as `Illustrious 
Unknown' for 2011,'' Asia News, 30 December 11. For more information on 
Bishop James Su Zhimin, see the Commission's Political Prisoner 
Database record 2004-05380.
    \67\ ``Chinese Catholics Appeal for Release of Long-Imprisoned 
Bishop,'' Union of Catholic Asian News, 1 September 15.
    \68\ ``Chinese Bishop's Weibo Account Blocked, Movement 
Restricted,'' Union of Catholic Asian News, 3 May 16; John Sudworth, 
``China's Detained Bishop Ma `Given Political Lessons,' '' BBC, 24 
December 13. See also CECC, 2013 Annual Report, 10 October 13, 88-89; 
CECC, 2014 Annual Report, 9 October 14, 92; CECC, 2015 Annual Report, 8 
October 15, 122. For more information on Bishop Thaddeus Ma Daqin, see 
the Commission's Political Prisoner Database record 2013-00336.
    \69\ ``Shanghai Ordination Under Investigation,'' Union of Catholic 
Asian News, 11 July 12; ``Chinese Bishop's Weibo Account Blocked, 
Movement Restricted,'' Union of Catholic Asian News, 3 May 16; John 
Sudworth, ``China's Detained Bishop Ma `Given Political Lessons,' '' 
BBC, 24 December 13. See also CECC, 2013 Annual Report, 10 October 13, 
88-89.
    \70\ ``Chinese Bishop's Weibo Account Blocked, Movement 
Restricted,'' Union of Catholic Asian News, 3 May 16.
    \71\ Thaddeus Ma Daqin, ``He Teaches Us To Follow the Path of 
Loyalty to Our Country and Loyalty to Our Church--Written on the 
Occasion of the 100th Anniversary of Bishop Jin Luxian's Birth (5)'' 
[Ta jiaodao women zou aiguo aijiao de daolu--xieyu jin luxian zhujiao 
danchen yi bai zhounian zhi ji (wu)], Thaddeus Ma Daqin's Blog, 12 June 
16; ``Full Text of Bishop Ma Daqin's `Confession' '' [Ma daqin zhujiao 
``zibai'' quanwen], Asia News, 17 June 16. See also Gerard O'Connell, 
``Shanghai's Bishop Ma in Surprise Reversal on `Official' Church 
Group,'' America, 14 June 16; Lisa Jucca et al., ``After Decades of 
Mistrust, Pope Pushes for Diplomatic Breakthrough With China,'' 
Reuters, 14 July 16.
    \72\ Bernardo Cervellera, ``China and the Vatican: Bishop Ma's 
`About-Face' Arouses Incredulity and Disappointed Reactions'' [Zhongguo 
he fandigang: ma zhujiao ``bianlian'' jiqi nanyi zhixin he lingren 
jusang de fanying], Asia News, 17 June 16.
    \73\ Maria Hsia Chang, Falun Gong: The End of Days (New Haven: Yale 
University Press, 2004), 9.
    \74\ Henan Province Anti-Cult Association, ``The Allure of Cult 
Organizations and How To Protect Oneself'' [Xiejiao de mihuoxing ji 
fangfan cuoshi], reprinted in Xinhua, 29 March 16; Bengbu Municipal Law 
and Politics Committee, ``Bengbu Municipality Mobilizes Launch of Anti-
Cult Public Opinion and Propaganda Work'' [Bengbu shi jizhong kaizhan 
fan xiejiao yulun xuanchuan gongzuo], Anhui Chang'an Net, 18 May 16.
    \75\ GreatFire.org, ``Censorship of Falungong in China,'' last 
visited 3 August 16.
    \76\ ``Minghui Human Rights Reports 2015: Nearly 20,000 Incidents 
of Citizens Targeted in 2015 for Their Faith in Falun Gong,'' Clear 
Wisdom, 9 May 16. Based on data collected by the Falun Gong 
practitioner website Clear Wisdom, there were at least 19,095 incidents 
of harassment, being taken into custody, or detainment for belief in 
Falun Gong. ``158 Newly Reported Cases of Falun Gong Practitioners 
Sentenced for Their Faith,'' Clear Wisdom, 22 May 16. Data collected by 
Clear Wisdom documents 158 Falun Gong practitioners sentenced to prison 
in China between November 2015 and April 2016. More than 90 percent 
were reportedly tried without an open trial, among other alleged 
violations of legal procedure. Courts imposed sentences between 3 
months and 10 years as well as heavy fines.
    \77\ ``The General Office of the Chinese Communist Party (CCP) 
Central Committee and the General Office of the State Council Issue a 
Circular Calling for Strict Observance of Policy Demarcation Lines and 
for Promoting the Conversion and Extrication of the Great Majority of 
Falun Gong Practitioners,'' Xinhua, 24 August 99, reprinted and 
translated in China Law and Government, Vol. 32, No. 5 (September-
October 1999), 52-55; ``Decision of the Ministry of Civil Affairs of 
the People's Republic of China Concerning the Banning of the Research 
Society of Falun Dafa,'' Xinhua, 22 July 99, reprinted and translated 
in Chinese Law and Government, Vol. 32, No. 5 (September-October 1999), 
31; ``Notice of the Ministry of Public Security of the People's 
Republic of China,'' Xinhua, 22 July 99, reprinted and translated in 
Chinese Law and Government, Vol. 32, No. 5 (September-October 1999), 
31-32; ``Resolutely Implement the Central Government's Decisions; Abide 
by State Laws in Exemplary Fashion: Talk Given to Reporters by the 
Person in Charge of the Department of Organization of the Chinese 
Communist Party's (CCP) Central Committee,'' People's Daily, 23 July 
99, reprinted and translated in Chinese Law and Government, Vol. 32, 
No. 5 (September-October 1999), 46-50. See also Ming Xia and Shiping 
Hua, ``Guest Editors' Introduction,'' Chinese Law and Government, Vol. 
32, No. 5 (September-October 1999), 5-13; Human Rights Watch, 
``Dangerous Meditation: China's Campaign Against Falungong,'' January 
2002, sec. 3; ``2,024 More People Sign Petitions Supporting Prosecution 
of Jiang Zemin,'' Epoch Times, 19 June 16; Amnesty International, 
``China: `Changing the Soup but Not the Medicine?': Abolishing Re-
Education Through Labour in China,'' 17 December 13, 14; The Origins 
and Long-Term Consequences of the Communist Party's Campaign Against 
Falun Gong, Hearing of the Congressional-Executive Commission on China, 
18 December 12, Testimony of Sarah Cook, Senior Research Analyst for 
East Asia, Freedom House.
    \78\ Sarah Cook and Leeshai Lemish, ``The 610 Office: Policing the 
Chinese Spirit,'' Jamestown Foundation, China Brief, Vol. 11, Issue 17, 
16 September 11; CECC, 2012 Annual Report, 10 October 12, 82.
    \79\ Falun Dafa Information Center, ``Overview of Persecution,'' 9 
April 15. See, e.g., Bengbu Municipal Law and Politics Committee, 
``Bengbu Municipality Mobilizes Launch of Anti-Cult Public Opinion and 
Propaganda Work'' [Bengbu shi jizhong kaizhan fan xiejiao yulun 
xuanchuan gongzuo], Anhui Chang'an Net, 18 May 16. See also ``Communist 
Party Calls for Increased Efforts To `Transform' Falun Gong 
Practitioners as Part of Three-Year Campaign,'' Congressional-Executive 
Commission on China, 22 March 11.
    \80\ ``Minghui Human Rights Report: Nearly 20,000 Incidents of 
Citizens Targeted in 2015 for Their Faith in Falun Gong,'' Clear 
Wisdom, 9 May 16; Amnesty International, ``China: `Changing the Soup 
but Not the Medicine?': Abolishing Re-Education Through Labour in 
China,'' 17 December 13, 9, 18-25; Chinese Human Rights Defenders, 
``Civil Society Information Submission to the Committee against Torture 
for the Review of the Fifth Periodic Report of China (CAT/C/CHN/5): 
Specific Information on the Implementation of the Convention against 
Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment,'' 9 February 15, para. 11.
    \81\ Chinese Human Rights Defenders, ``Civil Society Information 
Submission to the Committee against Torture for the Review of the Fifth 
Periodic Report of China (CAT/C/CHN/5): Specific Information on the 
Implementation of the Convention against Torture and Other Cruel, 
Inhuman or Degrading Treatment or Punishment,'' 9 February 15, para. 
11; Amnesty International, ``China: `Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' 17 
December 13.
    \82\ Leo Timm, ``Man Killed in Chinese Jail Now Joined in Death by 
Younger Brother,'' Epoch Times, 4 May 16; Amnesty International, 
``China: `Changing the Soup but Not the Medicine?': Abolishing Re-
Education Through Labour in China,'' 17 December 13, 20.
    \83\ ``Overcoming Sleep Deprivation at a Brainwashing Center,'' 
Clear Wisdom, 8 March 16; Amnesty International, ``China: `Changing the 
Soup but Not the Medicine?': Abolishing Re-Education Through Labour in 
China,'' 17 December 13, 20.
    \84\ ``CCP Torture Method: `Hunger Therapy,' '' Clear Wisdom, 2 
March 16.
    \85\ Leo Timm, ``Chinese Practitioners of Falun Gong Tell Harrowing 
Accounts of Brutality by Mainland Regime,'' Epoch Times, 16 May 16; 
Amnesty International, ``China: `Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' 17 
December 13, 20.
    \86\ ``Woman, 63, Dies After Abuse and Forced Drug Injections 
Wreaked Havoc on Her Health,'' Clear Wisdom, 19 May 16; Amnesty 
International, ``China: `Changing the Soup but Not the Medicine?': 
Abolishing Re-Education Through Labour in China,'' 17 December 13, 20, 
22, 30, 31.
    \87\ ``Lawyers Highlight Police Beating of Handicapped 
Practitioner,'' Clear Wisdom, 16 January 15; Amnesty International, 
``China: `Changing the Soup but Not the Medicine?': Abolishing Re-
Education Through Labour in China,'' 17 December 13, 20.
    \88\ Xiuli Zhang, ``Memory Loss, Sexual Assault, and Broken Arm--
Woman Recounts Suffering at the Hands of Police,'' Clear Wisdom, 18 
November 15; China's Pervasive Use of Torture, Hearing of the 
Congressional-Executive Commission on China, 14 April 16, Testimony of 
Yin Liping, Falun Gong Practitioner and Survivor of Torture, Forced 
Labor, and Sexual Violence at the Masanjia Labor Camp.
    \89\ Mingde, ``Dark Secrets of China's `Ankang' Psychiatric 
Hospitals,'' Clear Wisdom, 11 January 15; Network of Chinese Human 
Rights Defenders and a Coalition of Chinese NGOs, ``Civil Society 
Report Submitted to the Committee against Torture for Its Review at the 
56th Session of the Fifth Periodic Report (CAT/C/CHN/5) by the People's 
Republic of China on Its Implementation of the Convention against 
Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment,'' 26 October 15, para. 57; Amnesty International, ``China: 
`Changing the Soup but Not the Medicine?': Abolishing Re-Education 
Through Labour in China,'' 17 December 13, 20, 27-29.
    \90\ ``18-Year-Old Jiangsu Adolescent Tried Illegally'' [Jiangsu 18 
sui shaonian bei feifa tingshen], Epoch Times, 11 November 15; Jenny Li 
and Larry Ong, ``20-Year-Old Chinese Man Put on Trial for Sharing 
Picture of Lotus Flower,'' Epoch Times, 17 November 15. See also PRC 
Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 July 79, 
amended 14 March 97, effective 1 October 97, amended 25 December 99, 31 
August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 
28 February 09, 25 February 11, 29 August 15, effective 1 November 15. 
For more information on Wang Dushan, see the Commission's Political 
Prisoner Database record 2016-00169.
    \91\ Jenny Li and Larry Ong, ``20-Year-Old Chinese Man Put on Trial 
for Sharing Picture of Lotus Flower,'' Epoch Times, 17 November 15.
    \92\ Ibid.
    \93\ Ibid.
    \94\ Yan Qingliu, ``Lawyer Zhang Zanning Mounts Not Guilty Defense, 
Faces Threats From CCP Public Security Officials'' [Lushi zhang zanning 
zuo wuzui bianhu, zao zhonggong gong'an weixie], Vision Times, 30 
January 16. See also Lin Feng, ``Lawyer of Guangdong Falun Gong 
Practitioner Accuses Jiang Zemin of Undermining Rule of Law'' 
[Guangdong falun gong xueyuan lushi dangting zhi jiang zemin pohuai 
fazhi], Voice of America, 2 January 16.
    \95\ Yan Qingliu, ``Lawyer Zhang Zanning Mounts Not Guilty Defense, 
Faces Threats From CCP Public Security Officials'' [Lushi zhang zanning 
zuo wuzui bianhu, zao zhonggong gong'an weixie], Vision Times, 30 
January 16.
    \96\ Rights Defense Network, ``In July 9 Crackdown, Arrests 
Approved for Fengrui Lawyer Wang Yu for `Subversion of State Power,' 
Gao Yue for `Helping Destroy Evidence,' Bao Longjun for `Inciting 
Subversion of State Power' '' [709 da zhuabu shijian zhong fengrui suo 
wang yu lushi bei yi shexian ``dianfu guojia zhengquan zui'' gao yue 
bei yi shexian ``bangzhu huimie zhengju zui,'' bao longjun bei yi 
shexian ``shandong dianfu guojia zhengquan zui'' pizhun daibu], 13 
January 16; PRC Criminal Law [Zhonghua renmin gongheguo xing fa], 
passed 1 July 79, amended 14 March 97, effective 1 October 97, amended 
25 December 99, 31 August 01, 29 December 01, 28 December 02, 28 
February 05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 
effective 1 November 15, art. 105. For more information on Wang Yu, see 
the Commission's Political Prisoner Database Record 2015-00252.
    \97\ Matthew Robertson and Yaxue Cao, ``The Vilification of Lawyer 
Wang Yu and Violence by Other Means,'' China Change, 27 July 15; ``In 
and Out of the Courtroom, On and Off Line, an Outrageous Legal 
Defense'' [Tingnei tingwai wangshang wangxia ruci bianhu wei naban], 
CCTV, reposted by Sina, 19 July 15.
    \98\ China Human Rights Lawyers Concern Group, ``A Statement About 
Recent Cases of Violence Against Lawyers and Interference of Their 
Rights To Practice,'' 27 April 15.
    \99\ Emily Rauhala, ``Jailed Chinese Lawyer Reappears To Deliver a 
`Confession,' but the Script Seems Familiar,'' Washington Post, 1 
August 16; ``China Releases Prominent Human Rights Lawyer on Bail,'' 
Associated Press, reprinted in New York Times, 1 August 16; Josh Chin, 
``Chinese Activist Wang Yu Seen `Confessing' in Video,'' Wall Street 
Journal, 1 August 16; American Bar Association, ``Chinese Lawyer Wang 
Yu To Receive Inaugural ABA International Human Rights Award,'' 8 July 
16.
    \100\ ``Misery Endures for Chinese Rights Lawyer Gao Zhisheng, 
`Freed' After Three Years in Solitary Confinement,'' South China 
Morning Post, 15 June 16; ``Just Where Should Gao Zhisheng Live?--
Questions for China's Thuggish Government,'' 10 November 15, translated 
in China Change, last visited 21 July 16. For more information on Gao 
Zhisheng, see the Commission's Political Prisoner Database record 2005-
00291.
    \101\ Isolda Morillo and Didi Tang, ``Leading China Lawyer Says He 
Was Tortured,'' Associated Press, 24 September 15.
    \102\ Geng He, ``Press Statement by Wife of Gao Zhisheng, on 9/8/
2014,'' 8 September 14, reprinted in China Change, 12 September 14.
    \103\ China's Pervasive Use of Torture, Hearing of the 
Congressional-Executive Commission on China, 14 April 16, Written 
Testimony of Geng He, Wife of Lawyer Gao Zhisheng; Isolda Morillo and 
Didi Tang, ``Leading China Lawyer Says He Was Tortured,'' Associated 
Press, 24 September 15; ``Gao Zhisheng: Chinese Lawyer Describes 
`Torture,' '' BBC, 24 September 15; Geng He, ``Press Statement by Wife 
of Gao Zhisheng, on 9/8/2014,'' China Change, 12 September 14.
    \104\ ``Minghui Human Rights Reports 2015: Illegal Sentencing and 
Imprisonment,'' Clear Wisdom, 17 January 16.
    \105\ Ibid.
    \106\ Matthew Robertson and Yaxue Cao, ``The Vilification of Lawyer 
Wang Yu and Violence by Other Means,'' China Change, 27 July 15; Lin 
Feng, ``Lawyer of Guangdong Falun Gong Practitioner Accuses Jiang Zemin 
of Undermining Rule of Law'' [Guangdong falun gong xueyuan lushi 
dangting zhi jiang zemin pohuai fazhi], Voice of America, 2 January 16.
    \107\ ``Minghui Human Rights Reports 2015: Illegal Sentencing and 
Imprisonment,'' Clear Wisdom, 17 January 16; Yan Qingliu, ``Lawyer 
Zhang Zanning Mounts Not Guilty Defense, Faces Threats From CCP Public 
Security Officials'' [Lushi zhang zanning zuo wuzui bianhu, zao 
zhonggong gong'an weixie], Vision Times, 30 January 16.
    \108\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 50(b). See also T. Trey et al., ``Transplant Medicine in China: 
Need for Transparency and International Scrutiny Remains,'' American 
Journal of Transplantation, accepted 13 August 16 (forthcoming).
    \109\ U.S. House of Representatives, Expressing Concern Regarding 
Persistent and Credible Reports of Systematic, State-Sanctioned Organ 
Harvesting From Non-Consenting Prisoners of Conscience in the People's 
Republic of China, Including From Large Numbers of Falun Gong 
Practitioners and Members of Other Religious and Ethnic Minority 
Groups, 114th Congress, 2nd Session, H. Res. 343, passed 13 June 16.
    \110\ European Parliament, Written Declaration of 27 July 2016 on 
Stopping Organ Harvesting From Prisoners of Conscience in China, 0048/
2016, 27 July 16. See also Matthew Robertson, ``Europe Takes Another 
Step To Censure Organ Harvesting in China,'' Epoch Times, 5 August 16.
    \111\ See, e.g., David Kilgour, Ethan Gutmann, and David Matas, 
``Bloody Harvest/The Slaughter: An Update,'' International Coalition to 
End Organ Pillaging in China, 22 June 16; Matthew Robertson and Sophia 
Fang, ``Investigative Report: A Hospital Built for Murder,'' Epoch 
Times, 21 June 16; Matthew Robertson, ``At Congressional Hearing, 
China's Organ Harvesting Seen Through Rose-Colored Glasses,'' Epoch 
Times, 29 June 16.
    \112\ Didi Kirsten Tatlow, ``Transplant Chief in China Denies 
Breaking Vow To Ban Prisoners' Organs,'' New York Times, 25 November 
15.
    \113\ T. Trey et al., ``Transplant Medicine in China: Need for 
Transparency and International Scrutiny Remains,'' American Journal of 
Transplantation, accepted 13 August 16 (forthcoming). See also Didi 
Kirsten Tatlow, ``Choice of Hong Kong for Organ Transplant Meeting Is 
Defended,'' New York Times, Sinosphere (blog), 18 August 16.
    \114\ Didi Kirsten Tatlow, ``Chinese Claim That World Accepts Its 
Organ Transplant System Is Rebutted,'' New York Times, Sinosphere 
(blog), 19 August 16; Matthew Robertson, ``Acrimony Mars Transplant 
Conference in Hong Kong,'' Epoch Times, 20 August 16.
    \115\ T. Trey et al., ``Transplant Medicine in China: Need for 
Transparency and International Scrutiny Remains,'' American Journal of 
Transplantation, accepted 13 August 16 (forthcoming). See also Didi 
Kirsten Tatlow, ``Debate Flares on China's Use of Prisoners' Organs as 
Experts Meet in Hong Kong,'' New York Times, 17 August 16.
    \116\ Miao Zi and Le Ran, Reuters, ``Xi Jinping Demands `Firm 
Resistance Against Illegal Religious Infiltration' '' [Xi jinping 
yaoqiu ``jianjue diyu feifa zongjiao shentou''], Deutsche Welle, 21 
July 16.
    \117\ State Administration for Religious Affairs, ``How To View the 
National Conference on Religious Work? The First Collection of 
Statements From the Five Major Religious Organizations!'' [Quanguo 
zongjiao gongzuo huiyi zenme kan? wu da zongjiao tuanti shouci jiti 
fasheng!], reprinted in China Religion Journal, 24 May 16.
    \118\ Islamic Association of China, Measures for Confirming the 
Credentials of Islamic Professional Religious Personnel [Yisilan jiao 
jiaozhi renyuan zige rending banfa], issued 7 August 06, art. 3; ``In 
Yunnan Province, 162 Pass Standardized Provincial Accreditation Test 
for Islamic Religious Personnel'' [Yunnan sheng 162 ren tongguo 
quansheng yisilan jiaozhi renyuan zige tongyi kaoshi], China Muslim 
Information, reprinted in Window Into Islam, 19 January 16; Xinjiang 
Uyghur Autonomous Region Agriculture Office, ``Explanation of `Certain 
Opinions Regarding Further Strengthening and Perfecting Islamic Work' 
'' [``Guanyu jinyibu jiaqiang he wanshan yisilan jiao gongzuo de ruogan 
yijian'' jiedu], 27 January 16; Qinghai Province Ethnic and Religious 
Affairs Committee, ``Qinghai Province Holds Islamic Religious Personnel 
Accreditation Test'' [Qinghai sheng jinxing yisilan jiaozhi renyuan 
zige rending kaoshi], 24 May 16, reprinted in China Ethnicity News.
    \119\ State Council, Regulations on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, effective 1 March 05, art. 11; 
Islamic Association of China, ``2016 Hajj Organization Service Work 
Communication Forum Convened in Lanzhou'' [2016 nian chaojin zuzhi fuwu 
gongzuo goutong yanshanghui zai lanzhou zhaokai], reprinted in Inner 
Mongolia Autonomous Region Islamic Association, 21 March 16.
    \120\ Miao Zi and Le Ran, Reuters, ``Xi Jinping Demands `Firm 
Resistance Against Illegal Religious Infiltration' '' [Xi jinping 
yaoqiu ``jianjue diyu feifa zongjiao shentou''], Deutsche Welle, 21 
July 16; Li Xiaokun, ``Xi Urges Muslims To Merge Faith, Culture,'' 
China Daily, 21 July 16.
    \121\ Miao Zi and Le Ran, Reuters, ``Xi Jinping Demands `Firm 
Resistance Against Illegal Religious Infiltration' '' [Xi jinping 
yaoqiu ``jianjue diyu feifa zongjiao shentou''], Deutsche Welle, 21 
July 16.
    \122\ See, e.g., ``Ningxia HAR Party Committee Studies the Spirit 
of the National Religious Work Conference'' [Ningxia zizhiqu dangwei 
xuexi quanguo zongjiao gongzuo huiyi jingshen], Central United Front 
Work Department Net, reprinted in Sina, 28 April 16; ``Qinghai Province 
Disposes of `Muslim Symbol,' `Halal Symbol' Problem'' [Qinghai sheng 
qingli zhengdun ``musilin biaozhi,'' ``qingzhen biaozhi'' wenti], 
Qinghai Province Ethnic and Religious Affairs Bureau, reprinted in 
Phoenix Net, 6 May 16. See also James Leibold, ``Creeping Islamophobia: 
China's Hui Muslims in the Firing Line,'' Jamestown Foundation, China 
Brief, Vol. 16, No. 10, 20 June 16.
    \123\ Yue Huairang, ``Ye Xiaowen No Longer the Party Secretary of 
the Central Institute of Socialism, Now the First Vice-President'' [Ye 
xiaowen buzai danren zhongyang shehui zhuyi xueyuan dangzu shuji, di yi 
fu yuanzhang], The Paper, 22 February 16.
    \124\ Ye Xiaowen, ``Ye Xiaowen: Warning Against the `Extremism' 
Behind Religious `Expansion' '' [Ye xiaowen: jingti zongjiao ``fanhua'' 
houmian de ``jiduanhua''], Global Times, 7 May 16.
    \125\ Ibid.
    \126\ Li Ruohan, ``Halal Food Law Dropped From 2016 Legislation 
Plan,'' Global Times, 18 April 16; James Leibold, ``Creeping 
Islamophobia: China's Hui Muslims in the Firing Line,'' Jamestown 
Foundation, China Brief, Vol. 16, No. 10, 20 June 16.
    \127\ Wai Ling Yeung, ``Is China Moving To Restrict Religious 
Freedom for the Hui Muslims? '' China Change, 13 May 16; James Leibold, 
``Creeping Islamophobia: China's Hui Muslims in the Firing Line,'' 
Jamestown Foundation, China Brief, Vol. 16, No. 10, 20 June 16.
    \128\ ``Special Topic: Ethnic Minorities Repeatedly Suppressed, 
Herders, Religious Leader Strictly Controlled'' [Zhuanti: shaoshu 
minzhu luzao daya mumin, zongjiao lingxiu bei yankong], Radio Free 
Asia, 9 March 16. See also Jonathan Kaiman, ``In China, Rise of 
Salafism Fosters Suspicion and Division Among Muslims,'' Los Angeles 
Times, 1 February 16.
    \129\ Jonathan Kaiman, ``In China, Rise of Salafism Fosters 
Suspicion and Division Among Muslims,'' Los Angeles Times, 1 February 
16. See also ``Special Topic: Ethnic Minorities Repeatedly Suppressed, 
Herders, Religious Leader Strictly Controlled'' [Zhuanti: shaoshu 
minzhu luzao daya mumin, zongjiao lingxiu bei yankong], Radio Free 
Asia, 9 March 2016. Ma was the Vice President of the Lanzhou 
Municipality Islamic Association in Gansu province.
    \130\ Rong Qihan, ``How `Modern' Imam Ma Jun Observes Friday 
Prayers During Ramadan'' [``Xiandai'' ahong ma jun de zhaiyue zhu ma 
ri], Xinhua, 13 July 15. See also ``Imam Ma Jun Released After Being 
Detained for 27 Days in the Keping County, Aksu, Xinjiang PSB Detention 
Center'' [Ma jun ahong bei xinjiang akasu keping xian kanshousuo guanya 
27 tian hou huoshi], Boxun, 6 December 15.
    \131\ Willy Lam, ``Xi's Obsession With `Cultural Renaissance' 
Raises Fears of Another Cultural Revolution,'' Jamestown Foundation, 
China Brief, Vol. 16, No. 3, 8 February 16, 4; Cao Yaxue, ``Cao Yaxue: 
Interview With a Wenzhou Pastor, Suppression and Transformation of 
Christianity'' [Cao yaxue: fangtan wenzhou mushi: dui jidujiao de daya 
yu gaizao], Voice of America, 27 November 15. For discussion of the 
Party's discourse on religion and foreign influence, see Lawrence C. 
Reardon, ``The Party Giveth, and the Party Taketh Away: Chinese 
Enigmatic Attitudes Towards Religion,'' in Religious Transformation in 
Modern Asia: A Transnational Movement, ed. David W. Kim (Leiden: Brill, 
2015), 43-45.
    \132\ See, e.g., Qiao Nong, ChinaAid, ``Officials Coerced 
Jinshuixia Church of Wuhan To Join the Three-Self Church, China's 
Religious Freedom Environment Continues To Deteriorate'' [Wuhan 
jinshuixia jiaohui zai bei guanfang weibi jiaru sanzi, zhongguo 
zongjiao ziyou huanjing riqu ehua], 8 October 15; Qiao Nong, ChinaAid, 
``Tongzi County, Guizhou, Officials Gather 14 Village Party Secretaries 
for Meeting, Forcing House Church To Merge With Three-Self Church'' 
[Guizhou tongzi xian guanyuan zhaoji 14 cun zhishu kaihui, qiangpo 
jiating jiaohui guiru sanzi], 9 November 15. See also ChinaAid, ``2015 
Annual Report,'' March 2016.
    \133\ Willy Lam, ``Xi's Obsession With `Cultural Renaissance' 
Raises Fears of Another Cultural Revolution,'' Jamestown Foundation, 
China Brief, Vol. 16, No. 3, 8 February 16, 4; Cao Yaxue, ``Cao Yaxue: 
Interview With a Wenzhou Pastor, Suppression and Transformation of 
Christianity'' [Cao yaxue: fangtan wenzhou mushi: dui jidujiao de daya 
yu gaizao], Voice of America, 27 November 15.
    \134\ David Volodzko, ``The Boss Christians of Wenzhou,'' The 
Diplomat, 6 March 15; Marie-Eve Reny, ``Nanlai Cao, Constructing 
China's Jerusalem: Christians, Power and Place in the City of 
Wenzhou,'' China Perspectives, Issue 2 (2012), 92.
    \135\ State Administration for Religious Affairs, ``How To View the 
National Conference on Religious Work? The First Collection of 
Statements From the Five Major Religious Organizations!'' [Quanguo 
zongjiao gongzuo huiyi zenme kan? wu da zongjiao tuanti shouci jiti 
fasheng!], reprinted in China Religion Journal, 24 May 16. See also 
Zhuo Xinping, ``The Three Essentials of `Sinicizing' Christianity: To 
Endorse the Chinese Political System, To Be Compatible With Chinese 
Society, and To Embody Chinese Culture'' [Jidujiao zhongguohua de san 
yaosu: dui zhongguo zhengzhi de rentong, dui zhongguo shehui de 
shiying, dui zhongguo wenhua de biaoda], China Ethnicity News, 17 March 
15.
    \136\ ``Xi Jinping: Comprehensively Improve the Level of Religious 
Work Under the New Situation'' [Xi jinping: quanmian tigao xin xingshi 
xia zongjiao gongzuo shuiping], Xinhua, 23 April 16. For more on the 
April 2016 National Conference on Religious Work, see the discussion in 
this section under Religious Affairs Regulation and Policy.
    \137\ State Administration for Religious Affairs, ``How To View the 
National Conference on Religious Work? The First Collection of 
Statements From the Five Major Religious Organizations!'' [Quanguo 
zongjiao gongzuo huiyi zenme kan? wu da zongjiao tuanti shouci jiti 
fasheng!], reprinted in China Religion Journal, 24 May 16.
    \138\ Guo Baosheng, ChinaAid, ``Understanding the Official Theory 
of `Sinicizing Christianity' Through Zhuo Xinping's Remarks'' [Cong 
zhuo xinping yanlun kan guanfang jidujiao zhongguohua lilun], 23 March 
16; Cao Yaxue, ``Cao Yaxue: Interview With a Wenzhou Pastor, 
Suppression and Transformation of Christianity'' [Cao yaxue: fangtan 
wenzhou mushi: dui jidujiao de daya yu gaizao], Voice of America, 27 
November 15; Zhuo Xinping, ``The Three Essentials of `Sinicizing' 
Christianity: To Endorse the Chinese Political System, To Be Compatible 
With Chinese Society, and To Embody Chinese Culture'' [Jidujiao 
zhongguohua de san yaosu: dui zhongguo zhengzhi de rentong, dui 
zhongguo shehui de shiying, dui zhongguo wenhua de biaoda], China 
Ethnicity News, 17 March 15. Zhuo Xinping is the director of a group 
focused on religious research within the Chinese Academy of Social 
Sciences (CASS) and a member of the Standing Committee of the National 
People's Congress.
    \139\ Zhuo Xinping, ``The Three Essentials of `Sinicizing' 
Christianity: To Endorse the Chinese Political System, To Be Compatible 
With Chinese Society, and To Embody Chinese Culture'' [Jidujiao 
zhongguohua de san yaosu: dui zhongguo zhengzhi de rentong, dui 
zhongguo shehui de shiying, dui zhongguo wenhua de biaoda], China 
Ethnicity News, 17 March 15.
    \140\ Ibid.
    \141\ Willy Lam, ``Xi's Obsession With `Cultural Renaissance' 
Raises Fears of Another Cultural Revolution,'' Jamestown Foundation, 
China Brief, Vol. 16, No. 3, 8 February 16, 4-5; Yaxue Cao and Pastor 
L, ``Second Interview With the Wenzhou Pastor: After the Demolition 
Come the `Transformations,' '' 15 December 15.
    \142\ Ibid.
    \143\ Cao Yaxue, ``Cao Yaxue: Interview With a Wenzhou Pastor, 
Suppression and Transformation of Christianity'' [Cao yaxue: fangtan 
wenzhou mushi: dui jidujiao de daya yu gaizao], Voice of America, 27 
November 15.
    \144\ Zhejiang Province People's Government, Circular on the 
Launching of a Province-Wide Three-Year ``Three Rectifications and One 
Demolition'' Operation [Zhejiang sheng renmin zhengfu guanyu zai 
quansheng kaizhan ``san gai yi chai'' san nian xingdong de tongzhi], 
issued 21 February 13; CECC, 2014 Annual Report, 9 October 14, 96-97.
    \145\ For data on the number of cross removals, see ChinaAid, 
``2015 Annual Report: Chinese Government Persecution of Christians and 
Churches in China January-December 2015,'' March 2016; Cao Yaxue, ``Cao 
Yaxue: Interview With a Wenzhou Pastor, Suppression and Transformation 
of Christianity'' [Cao yaxue: fangtan wenzhou mushi: dui jidujiao de 
daya yu gaizao], Voice of America, 27 November 15. See also Ian 
Johnson, ``Church-State Clash in China Coalesces Around a Toppled 
Spire,'' New York Times, 29 May 14; Willy Lam, ``Xi's Obsession With 
`Cultural Renaissance' Raises Fears of Another Cultural Revolution,'' 
Jamestown Foundation, China Brief, Vol. 16, No. 3, 8 February 16, 4.
    \146\ Yaxue Cao and Pastor L, ``Second Interview With the Wenzhou 
Pastor: After the Demolition Come the `Transformations,' '' China 
Change, 15 December 15.
    \147\ Ibid. See also Willy Lam, ``Xi's Obsession With `Cultural 
Renaissance' Raises Fears of Another Cultural Revolution,'' Jamestown 
Foundation, China Brief, Vol. 16, No. 3, 8 February 16, 4.
    \148\ For more information, see the Commission's Political Prisoner 
Database records 2016-00088 on Bao Guohua and 2016-00089 on Xing 
Wenxiang.
    \149\ For more information on Gu Yuese, see the Commission's 
Political Prisoner Database record 2016-00100.
    \150\ Ibid.
    \151\ ChinaAid, ``2015 Annual Report: Chinese Government 
Persecution of Christians and Churches in China January-December 
2015,'' March 2016; Yaxue Cao and Pastor L, ``Second Interview With the 
Wenzhou Pastor: After the Demolition Come the `Transformations,' '' 
China Change, 15 December 15.
    \152\ ``China's Zhejiang Bans Religious Activities in Hospitals as 
Crackdown Widens,'' Radio Free Asia, 18 August 16.
    \153\ Cao Yaxue, ``Cao Yaxue: Interview With a Wenzhou Pastor, 
Suppression and Transformation of Christianity'' [Cao yaxue: fangtan 
wenzhou mushi: dui jidujiao de daya yu gaizao], Voice of America, 27 
November 15.
    \154\ Hai Yan, ``Missing Beijing Lawyer Under `Residential 
Surveillance,' Outside World Fears Torture'' [Shizong beijing lushi zai 
wenzhou ``jianju'' waijie danxin kuxing], Voice of America, 13 August 
15. For more information on Zhang Kai, see the Commission's Political 
Prisoner Database record 2015-00318.
    \155\ Tom Phillips, ``Anger as Christian Lawyer Paraded on Chinese 
State TV for `Confession,' '' Guardian, 26 February 16.
    \156\ ChinaAid, ``Lawyer Zhang Kai Already Returned to Family Home 
in Inner Mongolia'' [Zhang kai lushi yijing huidao neimenggu laojia], 
23 March 16.
    \157\ In the Xinjiang Uyghur Autonomous Region: Qiao Nong, 
ChinaAid, ``One Church's Gathering of 66 People in Yili, Xinjiang 
Raided, 3 Believers Detained'' [Xinjiang yili yi jiating jiaohui 66 ren 
juhui bei chongji, 3 xintu bei juliu], 25 December 15. In Anhui 
province: Qiao Nong, ChinaAid, ``Pastor Lu Jingxiang of Mingguang, 
Anhui, Released After 15 Days of Detention'' [Anhui mingguang lu 
jingxiang mushi bei juliu 15 tian huoshi], 6 October 15. In Beijing 
municipality: ``Beijing Shouwang Church Worships Outdoors, Four 
Believers Administratively Detained for Ten Days'' [Beijing shouwang 
jiaohui huwai jingbai si ming xintu zao xingzheng juliu shi tian], 
Radio Free Asia, 26 October 15. In Guizhou province: Qiao Nong, 
ChinaAid, ``Three More Believers of the Daguan Church in Qianxi, 
Guizhou, Detained'' [Guizhou qianxi daguan jiaohui zai you san xintu 
bei ju], 22 October 15; Qiao Nong, ChinaAid, ``Cases of Five Believers 
of Guizhou's Daguan Church Transferred to the Procuratorate'' [Guizhou 
daguan jiaohui wu xintu an zai yisong jianchayuan], 25 January 16. In 
Henan province: ChinaAid, ``House Church Gathering Raided in Luoyang 
Municipality, Henan Province, Five People Including Pastor Shen 
Zhenguo, a Taiwanese Foreign National, and Wife Administratively 
Detained for 15 Days'' [Henan sheng luoyang shi jiating jiaohui juhui 
shou chongji, waiji taiwanren shen zhenguo lao mushi ji shimu deng 5 
ren bei xingzheng juliu 15 tian], 9 November 15; ``Church Leader Li 
Baocheng Sentenced to 4 Years, Four Coworkers Also Sentenced'' [Jiaohui 
lingxiu li baocheng bei pan 4 nian si ming tonggong yi huoxing], Radio 
Free Asia, 17 February 16. In Guangdong province: ``A Christian in 
Shantou Detained for Proselytizing, Dongguan House Church Sues 
Officials, Loses'' [Shantou yi jidutu chuan fuyin bei zhua, dongguan 
jiating jiaohui gaoguan baisu], Radio Free Asia, 11 February 16. For 
more reporting on detentions of Christian believers, see ChinaAid, 
``2015 Annual Report: Chinese Government Persecution of Christians and 
Churches in China January-December 2015,'' March 2016.
    \158\ In the Xinjiang Uyghur Autonomous Region: Qiao Nong, 
ChinaAid, ``One Church's Gathering of 66 People in Yili, Xinjiang 
Raided, 3 Believers Detained'' [Xinjiang yili yi jiating jiaohui 66 ren 
juhui bei chongji, 3 xintu bei juliu], 25 December 15. On December 10, 
authorities raided a church in Kashgar prefecture and criminally 
detained one member. In Henan province: ChinaAid, ``House Church 
Gathering Raided in Luoyang Municipality, Henan Province, Five People 
Including Pastor Shen Zhenguo, a Taiwanese Foreign National, and Wife 
Administratively Detained for 15 Days'' [Henan sheng luoyang shi 
jiating jiaohui juhui shou chongji, waiji taiwanren shen zhenguo lao 
mushi ji shimu deng 5 ren bei xingzheng juliu 15 tian], 9 November 15. 
In Luoyang municipality, Henan province, authorities raided a house 
church and detained two people for 15 days. For more reporting on house 
church raids, see ChinaAid, ``2015 Annual Report: Chinese Government 
Persecution of Christians and Churches in China January-December 
2015,'' March 2016.
    \159\ Qiao Nong, ChinaAid, ``Shenzhen Huaqiao Church Forced To 
Relocate, Contract for Another Venue Rescinded'' [Shenzhen huaqiao 
cheng jiaohui bei bi qian, ling zu changdi zai bei huiyue], 23 December 
15. In Shenzhen, the Huaqiao Church was evicted from its meeting space 
and had a subsequent lease revoked.
    \160\ ChinaAid, ``2015 Annual Report: Chinese Government 
Persecution of Christians and Churches in China January-December 
2015,'' March 2016; Qiao Nong, ChinaAid, ``Guangdong Becomes the 
Province Where House Churches Are Hardest Hit, Guangzhou House Churches 
Raided by Public Security for Two Consecutive Days'' [Guangdong yi 
cheng daji jiating jiaohui zhongdian shengfen guangzhou jiating jiaohui 
lianxu liang ri bei gong'an chongji], 8 December 15.
    \161\ Yaxue Cao, ``Living Stone: A Portrait of a House Church in 
China,'' China Change, 21 December 15.
    \162\ Qiao Nong, ChinaAid, ``Updated: Guizhou Pastor Possibly 
Tortured in Detention; Church Group Evicted,'' 20 May 16. For more 
information on Li Guozhi (also known as Pastor Yang Hua), see the 
Commission's Political Prisoner Database record 2016-00001.
    \163\ Javier C. Hernandez, ``China Sentences Hu Shigen, Democracy 
Advocate, to 7 Years in Prison,'' New York Times, 3 August 16. For more 
information on Hu Shigen, see Political Prisoner Database record 2004-
02053.
    \164\ Wang Yeshe, ``Court of First Instance Announces Verdict in 
Subversion of State Power Case Concerning Hu Shigen, Defendant 
Sentenced to Seven Years and Six Months' Imprisonment'' [Hu shigen 
dianfu guojia zhengquan an yishen dangting xuanpan beigaoren bei 
panxing qi nian ban], Xinhua, 3 August 16.
    \165\ Javier C. Hernandez, ``China Sentences Hu Shigen, Democracy 
Advocate, to 7 Years in Prison,'' New York Times, 3 August 16.
    \166\ Wang Yeshe, ``Court of First Instance Announces Verdict in 
Subversion of State Power Case Concerning Hu Shigen, Defendant 
Sentenced to Seven Years and Six Months' Imprisonment'' [Hu shigen 
dianfu guojia zhengquan an yishen dangting xuanpan beigaoren bei 
panxing qi nian ban], Xinhua, 3 August 16.
    \167\ Javier C. Hernandez, ``China Sentences Hu Shigen, Democracy 
Advocate, to 7 Years in Prison,'' New York Times, 3 August 16.
    \168\ Wang Yeshe, ``Court of First Instance Announces Verdict in 
Subversion of State Power Case Concerning Hu Shigen, Defendant 
Sentenced to Seven Years and Six Months' Imprisonment'' [Hu shigen 
dianfu guojia zhengquan an yishen dangting xuanpan beigaoren bei 
panxing qi nian ban], Xinhua, 3 August 16.
    \169\ State Council Information Office, ``The Situation of 
Religious Freedom in China'' [Zhongguo de zongjiao xinyang ziyou 
zhuangkuang], October 1997, sec. I. The central government has referred 
to the five religions as China's ``main religions,'' stating that the 
religions citizens ``mainly'' follow are Buddhism, Taoism, Islam, 
Catholicism, and Protestantism. Henan People's Congress, Henan Province 
Regulations on Religious Affairs [Henan sheng zongjiao shiwu tiaoli], 
issued 30 July 05, effective 1 January 06, art. 2; Shaanxi Province 
People's Congress Standing Committee, Shaanxi Province Regulations on 
Religious Affairs [Shaanxi sheng zongjiao shiwu tiaoli], issued 23 
September 00, amended 30 July 08, art. 2. Some local regulations on 
religious affairs define ``religion'' to mean only these five 
religions.
    \170\ See, e.g., Inner Mongolia Autonomous Region People's 
Government General Office, Inner Mongolia Autonomous Region 
Implementing Measures for the Management of Venues for Religious 
Activity [Neimenggu zizhiqu zongjiao huodong changsuo guanli shishi 
banfa], issued 23 January 95, art. 2; State Council Information Office, 
``The Situation of Religious Freedom in Xinjiang'' [Xinjiang de 
zongjiao xinyang ziyou zhuangkuang], reprinted in Xinhua, 2 June 16, 
secs. 1, 3.
    \171\ Hannah Gardner, ``Ordination of Russian Orthodox Priest in 
China Sign of Warming Ties Amid U.S. Tensions,'' USA Today, 22 October 
15.
    \172\ Sam Kestenbaum, ``Is China Cracking Down on Jewish Community 
in Kaifeng? '' Forward, 3 May 16; Anson Laytner, ``Jewish Troubles in 
Kaifeng, China,'' Times of Israel, The Blogs, 28 April 16.
    \173\ State Council, Provisions on the Management of Religious 
Activities of Foreigners Within the PRC [Zhonghua renmin gongheguo 
jingnei waiguoren zongjiao huodong guanli guiding], issued and 
effective 31 January 94, art. 4; State Administration for Religious 
Affairs, Implementing Details of Rules for the Provisions on the 
Management of Religious Activities of Foreigners Within the PRC 
[Zhonghua renmin gongheguo jingnei waiguoren zongjiao huodong guanli 
guiding shishi xize], issued 26 September 00, amended 29 November 10, 
effective 1 January 11, arts. 7, 17(5).

                                                Ethnic Minority 
                                                         Rights
                                                Ethnic Minority 
                                                Rights

                         Ethnic Minority Rights


                              Introduction

    During the Commission's 2016 reporting year, Chinese 
government and Communist Party officials failed to adhere to 
Chinese and international law in their treatment of ethnic 
minority populations. The PRC Regional Ethnic Autonomy Law 
contains protections for the languages, religious beliefs, and 
customs of the country's 55 recognized minority 
``nationalities,'' \1\ in addition to a system of regional 
autonomy in designated areas.\2\ Article 27 of the 
International Covenant on Civil and Political Rights, which 
China has signed and declared an intention to ratify, contains 
safeguards for the rights of ``ethnic, religious or linguistic 
minorities'' within a state.\3\ In practice, however, Chinese 
authorities enforced restrictions that some observers said 
prevented members of ethnic minority groups from maintaining 
their own cultural practices.\4\ [See Section IV--Xinjiang and 
Section V--Tibet for additional information on these areas.]

                         State Minority Policy

    Central government officials in China continued to stress 
the importance of ``ethnic harmony'' or ``ethnic unity'' \5\ 
and of ethnic minorities' identification with ``the 
motherland'' and ``Chinese culture.'' \6\ At the National 
People's Congress in March 2016, Premier Li Keqiang stressed 
the need to promote contact, exchanges, and ``ethnic blending'' 
(minzu jiaorong) between ethnicities.\7\ For a third 
consecutive year, Xinjiang Uyghur Autonomous Region (XUAR) 
authorities implemented a ``mass line'' campaign,\8\ which 
promotes ``ethnic unity'' \9\ and requires officials working at 
the grassroots level to monitor and control Muslim residents' 
religious practices.\10\ An Australian scholar outlined 
concerns regarding the impact of assimilation on ethnic 
minorities' cultures and languages.\11\ In addition to projects 
aimed at integrating Han majority and ethnic minority 
populations, government officials pushed both development \12\ 
and securitization \13\ in places such as Tibetan autonomous 
areas and the XUAR in an effort to maintain ``stability.''
    International media reports published during this reporting 
year highlighted disparities in official policies toward and 
treatment of Hui Muslims and Uyghur Muslims, stressing 
comparative tolerance of Hui Muslim religious practices and 
government programs incentivizing Hui-owned business 
ventures.\14\ Reports, however, also indicated officials' 
growing fears over the rise of Salafism, an ultra-conservative 
Sunni sect, in both the Hui and Uyghur Muslim communities, and 
described government actions to limit the growth of Salafism in 
China due to concerns over its alleged ties to extremism.\15\ 
In addition, a report published by an American research 
institute argued that fears over Islam in Chinese official and 
scholarly circles had led to the April 2016 dismissal of ethnic 
Hui Wang Zhengwei from his positions as Chairman of the State 
Ethnic Affairs Commission and Executive Deputy Head of the 
United Front Work Department.\16\ Wang had advocated for the 
preservation of China's regional ethnic autonomy system and had 
championed ethnic diversity in the face of Chinese officials 
who support the dilution of ethnic and religious identities, 
such as Zhu Weiqun, Chairperson of the Ethnic and Religious 
Affairs Committee of the Chinese People's Political 
Consultative Conference.\17\ [For more information on official 
policies toward and treatment of Uyghur Muslims, see Section 
II--Freedom of Religion and Section IV--Xinjiang.]

                 Grasslands Protests in Inner Mongolia

    Mongol herders and villagers in the Inner Mongolia 
Autonomous Region (IMAR) protested against the state-led 
demolition of herders' homes \18\ and killing of their 
livestock; \19\ state exploitation of their traditional grazing 
lands \20\ and resulting environmental damage; \21\ and 
inadequate compensation for the loss of grazing lands.\22\ As 
in past reporting years, IMAR authorities detained herders who 
engaged in peaceful protests related to grasslands, including 
herders who reportedly used online forums or spoke to foreign 
journalists about their grievances.\23\
    Representative examples of protests by Mongol herders and 
villagers included the following:

        <bullet> In October 2015, in Haliut (Hailiutu) 
        township, Urad (Wulate) Middle Banner, Bayannur 
        (Bayannao'er) municipality, IMAR, dozens of herders 
        protested in front of banner government offices 
        regarding a dispute over officials' sale of grasslands, 
        hoping to attract the attention of visiting IMAR Party 
        Secretary Wang Jun.\24\ Security officials reportedly 
        detained five of the herders.\25\ For at least two 
        weeks beginning February 23, 2016, herders again 
        gathered in front of government offices in Haliut, 
        demanding ``adequate compensation and immediate return 
        of their grazing lands.'' \26\
        <bullet> On December 17, 2015, in Dalain-Huv (Dalahubu 
        or Dalain Hob) township, Eznee (Eji'na) Banner, Alshaa 
        (Alashan) League, IMAR, close to 100 herders protested 
        in front of the Eznee Banner government building.\27\ 
        The herders called upon officials to protect 
        traditional grazing lands from ``trespassers'' from 
        Gansu province who they said destroyed the grasslands, 
        and sought an explanation for an attack by assailants 
        from Gansu on an Eznee Banner checkpoint.\28\
        <bullet> On June 10, 2016, in Bieligutai township, Abag 
        (Abaga) Banner, Xilingol (Xilinguole) League, IMAR, a 
        group of herders blocked the road leading to a highway 
        under construction in protest over what they alleged 
        was an encroachment on their traditional grazing 
        lands.\29\ According to the herders, their village 
        chief had commissioned construction of the highway 
        without their knowledge or consent, and this was the 
        second time highway builders had encroached upon their 
        grazing lands this year.\30\
    Instances of IMAR officials detaining Mongol herders for 
using the Internet and giving interviews related to grasslands-
related grievances included the following:

        <bullet> On November 25, 2015, security officials in 
        Haliut township, Urad Middle Banner, detained 
        Odongerel, a leading figure in organizing herders' 
        protests, for using the messaging service WeChat to 
        communicate with others.\31\ Authorities detained 
        Odongerel again on March 24, 2016, after she used 
        WeChat to express concern over the detention of other 
        herders.\32\
        <bullet> On January 25, 2016, security officials in 
        Darhan-Muumingan (Da'erhanmaoming'an) United Banner, 
        Baotou municipality, IMAR, detained at least a dozen 
        herders for several hours for contacting ``overseas 
        news media and hostile forces'' and engaging in 
        ``separatism.'' \33\ The detention was reportedly 
        related to a protest staged the previous week by 
        ``dozens'' of herders in the banner related to 
        compensation they had requested for an official ban on 
        livestock grazing.\34\ Following the protest, some of 
        the herders published pictures and video on social 
        media, in addition to speaking to foreign reporters and 
        human rights organizations.\35\
        <bullet> In February and March 2016, security officials 
        in Urad Middle Banner detained at least 20 herders for 
        allegedly ``giving interviews to foreign news media,'' 
        among other allegations.\36\ On March 4, authorities 
        detained one of the herders, Saishingaa, for 
        ``resisting arrest and providing information to foreign 
        news media and organizations.'' \37\ On March 7, 
        authorities detained two others from among these 
        herders, Munkh and Tuyaa.\38\
        <bullet> On March 21, 2016, security officials in Right 
        Uzumchin (Xiwuzhumuqin) Banner, Xilingol (Xilinguole) 
        League, IMAR, detained herder Enkhbat, and security 
        officials in Left Uzumchin (Dongwuzhumuqin) Banner, 
        Xilingol League, detained herders Burdee and Achilalt 
        for ``instigating illegal gatherings via the 
        Internet.'' \39\

               Continued Restrictions on Hada and Family

    As in past reporting years,\40\ authorities in the IMAR 
continued to harass Mongol rights advocate Hada and his 
family.\41\ IMAR officials imprisoned Hada for 15 years 
beginning in 1995 and subsequently extralegally detained him 
for an additional 4 years,\42\ after he organized peaceful 
protests for Mongol rights and for his role in founding the 
banned Southern Mongolian Democratic Alliance.\43\ According to 
Hada and his wife, Xinna, as of October 2015, public security 
personnel maintained a constant presence in their apartment 
building in order to surveil Hada's activities at home, and 
have followed him whenever he has gone out.\44\ Beginning 
October 15, 2015, public security authorities in Qingshan 
district, Baotou municipality, IMAR, detained Hada and Xinna's 
son Uiles for 10 days, on the charge of ``obstructing official 
business.'' \45\ Security authorities reportedly beat Uiles and 
Xinna prior to detaining Uiles.\46\

                                                Ethnic Minority 
                                                         Rights
                                                Ethnic Minority 
                                                Rights
    Notes to Section II--Ethnic Minority Rights

    \1\ ``Ethnic Minorities, Women, Children, Disabled Effectively 
Protected: Report,'' Xinhua, 14 June 16.
    \2\ PRC Regional Ethnic Autonomy Law [Zhonghua renmin gongheguo 
minzu quyu zizhi fa], passed 31 May 84, effective 1 October 84, amended 
28 February 01. For protections related to languages, religious 
beliefs, and customs, see Articles 10, 11, 21, 36, 37, 47, 49, and 53.
    \3\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 27.
    \4\ See, e.g., ``Controls on Uyghur Villages, Mosques Continue Into 
New Year,'' Radio Free Asia, 6 January 16; ``Officials Demolish Ethnic 
Mongolian Herders' Homes Amid `Upgrade' Plan,'' Radio Free Asia, 11 
January 16; ``Tibetan, Muslim Students Join in Protest for Equal 
Education,'' Radio Free Asia, 28 January 16.
    \5\ ``Li Keqiang: Increase Support for Development for Ethnic 
Minorities With Smaller Populations, Let People of All Ethnicities 
Together Move Toward Prosperity'' [Li keqiang: jiada fuchi renkou 
jiaoshao minzu fazhan lidu rang ge zu renmin gongtong maixiang 
xiaokang], People's Daily, 5 March 16; Zhu Xiaolong and Hou Lijun, 
``Zhu Weiqun: `Embedded' Thinking Is an Important Innovation in Ethnic 
Work'' [Zhu weiqun: ``qianru shi'' silu shi minzu gongzuo de zhongyao 
chuangxin], Xinhua, 7 March 16.
    \6\ James Leibold, ``China's Ethnic Policy Under Xi Jinping,'' 
Jamestown Foundation, China Brief, Vol. 15, Issue 20, 19 October 15, 7.
    \7\ ``Li Keqiang: Increase Support for Development for Ethnic 
Minorities With Smaller Populations, Let People of All Ethnicities 
Together Move Toward Prosperity'' [Li keqiang: jiada fuchi renkou 
jiaoshao minzu fazhan lidu rang ge zu renmin gongtong maixiang 
xiaokang], People's Daily, 5 March 16.
    \8\ Cao Xu, ``Xinjiang's Third Round of `Visit the Masses' Working 
Groups Go Into the Villages'' [Xinjiang di san pi ``fang hui ju'' 
gongzuo zu zhu cun jin dian], China Economic Weekly, 25 February 16; 
Sui Yunyan, ``Third Summary of XUAR 2015 `Visit the Masses' Activity'' 
[Xinjiang weiwu'er zizhiqu 2015 nian ``fang hui ju'' huodong zongshu 
zhi san], Xinjiang Daily, reprinted in China Internet Information 
Center, 24 February 16. These articles refer to the ``mass line'' 
campaign in the XUAR. For more information on this education and 
ideology campaign, see CECC, 2014 Annual Report, 9 October 14, 42, 100, 
140, 168.
    \9\ See, e.g., Tom Phillips, ``China Launches Massive Rural 
`Surveillance' Project To Watch Over Uighurs,'' Telegraph, 20 October 
14.
    \10\ Sui Yunyan, ``Third Summary of XUAR 2015 `Visit the Masses' 
Activity'' [Xinjiang weiwu'er zizhiqu 2015 nian `fang hui ju' huodong 
zongshu zhi san], Xinjiang Daily, reprinted in China Internet 
Information Center, 24 February 16; Tom Phillips, ``China Launches 
Massive Rural `Surveillance' Project To Watch Over Uighurs,'' 
Telegraph, 20 October 14; Reza Hasmath, ``Ethnic Violence in Xinjiang: 
Causes, Responses, and Future Outlook,'' University of Nottingham, 
China Policy Institute Policy Paper, No. 7, 27 October 14, 3. These 
articles refer to the ``mass line'' campaign in the XUAR.
    \11\ James Leibold, ``China's Minority Report,'' Foreign Affairs, 
23 March 16.
    \12\ Liu Xin, ``China Vows Frontier Boom,'' Global Times, 18 March 
16; Li Hong, Economic Research Institute of the XUAR Development and 
Reform Commission, ``Comments and Suggestions Regarding How To Carry 
Out the Plans Organized by the XUAR's `13th Five-Year Plan' '' [Zuohao 
zizhiqu ``shisan wu'' guihua bianzhi de yijian yu jianyi], 16 October 
15; Zhao Shubin, ``TAR Leaders and State Railways Administration Travel 
to Tibet for Investigation and Research Group Forum, Losang Jamcan and 
Lu Dongfu Attend and Give Speeches'' [Zizhiqu lingdao yu guojia tielu 
ju fu zang diaoyan zu zuotan luosang jiangcun lu dong fu chuxi bing 
jianghua], Tibet Daily, 15 May 16; Emily Rauhala, ``China's Plan To 
`Liberate' a Cradle of Tibetan Culture,'' Washington Post, 14 December 
15.
    \13\ James Leibold, ``China's Ethnic Policy Under Xi Jinping,'' 
Jamestown Foundation, China Brief, Vol. 15, Issue 20, 19 October 15, 6-
10; International Campaign for Tibet, ``Tightening of an Invisible Net: 
New Security Measures in Eastern Tibet Heighten Surveillance, 
Control,'' 16 February 16; Andrew Jacobs, ``Xinjiang Seethes Under 
Chinese Crackdown,'' New York Times, 2 January 16.
    \14\ Andrew Jacobs, ``Light Government Touch Lets China's Hui 
Practice Islam in the Open,'' New York Times, 1 February 16. See also 
Jonathan Kaiman, ``In China, Rise of Salafism Fosters Suspicion and 
Division Among Muslims,'' Los Angeles Times, 1 February 16.
    \15\ Jonathan Kaiman, ``In China, Rise of Salafism Fosters 
Suspicion and Division Among Muslims,'' Los Angeles Times, 1 February 
16. See also Andrew Jacobs, ``Light Government Touch Lets China's Hui 
Practice Islam in the Open,'' New York Times, 1 February 16; James 
Leibold, ``Creeping Islamophobia: China's Hui Muslims in the Firing 
Line,'' Jamestown Foundation, China Brief, Vol. 16, Issue 10, 20 June 
16.
    \16\ James Leibold, ``Creeping Islamophobia: China's Hui Muslims in 
the Firing Line,'' Jamestown Foundation, China Brief, Vol. 16, Issue 
10, 20 June 16.
    \17\ Ibid.
    \18\ See, e.g., Southern Mongolian Human Rights Information Center, 
``China Demolishes Mongolian Herders' Houses in Freezing Cold,'' 8 
January 16.
    \19\ See, e.g., Southern Mongolian Human Rights Information Center, 
``Anthrax Vaccine Overdosed, Livestock Wiped Out,'' 4 November 15.
    \20\ See, e.g., Southern Mongolian Human Rights Information Center, 
``Herders Protest Government Officials' Illegal Occupation of Grazing 
Land,'' 23 February 16; ``Ethnic Mongolians Protest Missile Tests on 
Grasslands, Lack of Income,'' Radio Free Asia, 26 January 16.
    \21\ See, e.g., Southern Mongolian Human Rights Information Center, 
``Herders Blocked Mines, Six Arrested and Detained,'' 19 March 16; 
``China Holds Five Ethnic Mongolian Herders Who Protested Mining 
Pollution,'' Radio Free Asia, 21 March 16; ``Officials Demolish Ethnic 
Mongolian Herders' Homes Amid `Upgrade' Plan,'' Radio Free Asia, 11 
January 16.
    \22\ See, e.g., Southern Mongolian Human Rights Information Center, 
``Herders Protest Government Officials' Illegal Occupation of Grazing 
Land,'' 23 February 16; Southern Mongolian Human Rights Information 
Center, ``Herders Detained for Involvement in `Framing and Denouncing 
the Socialist Regime,' '' 8 March 16; Southern Mongolian Human Rights 
Information Center, ``Herders Blocked Mines, Six Arrested and 
Detained,'' 19 March 16.
    \23\ See, e.g., Southern Mongolian Human Rights Information Center, 
``Herders' Leader Detained for `Chatting Via WeChat,' '' 27 November 
15; Southern Mongolian Human Rights Information Center, ``Taken Away by 
Police, Herders Accused of `National Separatism,' '' 26 January 16; 
``Ethnic Mongolians Protest Missile Tests on Grasslands, Lack of 
Income,'' Radio Free Asia, 26 January 16; Southern Mongolian Human 
Rights Information Center, ``Herders Detained for Involvement in 
`Framing and Denouncing the Socialist Regime,' '' 8 March 16; ``China 
Detains Dozens of Ethnic Mongolians Amid Ongoing Grassland Protest,'' 
Radio Free Asia, 9 March 16; Southern Mongolian Human Rights 
Information Center, ``Crackdown Escalates, More Herders Arrested for 
`Inciting Illegal Gatherings Via the Internet,' '' 24 March 16.
    \24\ ``Chinese Police Detain Mongolian Dissident's Son Amid Ongoing 
Protests Over Grasslands,'' Radio Free Asia, 15 October 15.
    \25\ Ibid.
    \26\ Southern Mongolian Human Rights Information Center, ``Herders 
Protest Government Officials' Illegal Occupation of Grazing Land,'' 23 
February 16; Southern Mongolian Human Rights Information Center, 
``Herders Detained for Involvement in `Framing and Denouncing the 
Socialist Regime,' '' 8 March 16.
    \27\ Southern Mongolian Human Rights Information Center, ``Riding 
Horses and Camels, Herder [sic] Took to the Streets in Southern 
Mongolia,'' 17 December 15.
    \28\ Ibid.
    \29\ ``Herders Blockade Disputed Highway Project in China's Inner 
Mongolia,'' Radio Free Asia, 13 June 16.
    \30\ Ibid.
    \31\ Southern Mongolian Human Rights Information Center, ``Herders' 
Leader Detained for `Chatting Via WeChat,' '' 27 November 15.
    \32\ Southern Mongolian Human Rights Information Center, 
``Crackdown Escalates, More Herders Arrested for `Inciting Illegal 
Gatherings Via the Internet,' '' 24 March 16.
    \33\ Southern Mongolian Human Rights Information Center, ``Taken 
Away by Police, Herders Accused of `National Separatism,' '' 26 January 
16; ``Ethnic Mongolians Protest Missile Tests on Grasslands, Lack of 
Income,'' Radio Free Asia, 26 January 16.
    \34\ Southern Mongolian Human Rights Information Center, ``Taken 
Away by Police, Herders Accused of `National Separatism,' '' 26 January 
16.
    \35\ Ibid.
    \36\ Southern Mongolian Human Rights Information Center, ``Herders 
Detained for Involvement in `Framing and Denouncing the Socialist 
Regime,' '' 8 March 16; ``China Detains Dozens of Ethnic Mongolians 
Amid Ongoing Grassland Protest,'' Radio Free Asia, 9 March 16.
    \37\ Ibid.
    \38\ Ibid.
    \39\ Southern Mongolian Human Rights Information Center, 
``Crackdown Escalates, More Herders Arrested for `Inciting Illegal 
Gatherings Via the Internet,' '' 24 March 16.
    \40\ See, e.g., CECC, 2015 Annual Report, 8 October 15, 139-40; 
CECC, 2014 Annual Report, 9 October 14, 102; CECC, 2013 Annual Report, 
10 October 13, 97.
    \41\ Southern Mongolian Human Rights Information Center, ``After 19 
Years of Imprisonment Hada Still Treated as Prisoner,'' 22 October 15; 
`` `My Husband Remains in Prison, Long After His Release': Dissident's 
Wife,'' Radio Free Asia, 23 October 15; Southern Mongolian Human Rights 
Information Center, ``Mongolian Dissident's Son Arrested and Detained 
for `Obstructing Official Business,' '' 16 October 15; ``Chinese Police 
Detain Mongolian Dissident's Son Amid Ongoing Protests Over 
Grasslands,'' Radio Free Asia, 15 October 15.
    \42\ Southern Mongolian Human Rights Information Center, 
``Mongolian Dissident's Son Arrested and Detained for `Obstructing 
Official Business,' '' 16 October 15.
    \43\ ``Inner Mongolian Dissident's Family Targeted,'' Radio Free 
Asia, 5 December 10; Hada, Xinna, and Uiles, Southern Mongolian Human 
Rights Information Center, ``Open Letter From Hada and His Family 
Members,'' 2 July 14; Southern Mongolian Human Rights Information 
Center, ``SMHRIC Statement to the UN Special Rapporteur on the Rights 
to Freedom of Peaceful Assembly and Association,'' 19 February 14. For 
Commission analysis on Hada, Xinna, and Uiles, see ``Authorities 
Heighten Persecution of Detained Mongol Rights Advocate's Wife and 
Son,'' CECC China Human Rights and Rule of Law Update, No. 1, 3 January 
13, 2. For more information, see the Commission's Political Prisoner 
Database records 2004-02045 on Hada, 2010-00704 on Xinna, and 2010-
00705 on Uiles.
    \44\ Southern Mongolian Human Rights Information Center, ``After 19 
Years of Imprisonment Hada Still Treated as Prisoner,'' 22 October 15; 
`` `My Husband Remains in Prison, Long After His Release': Dissident's 
Wife,'' Radio Free Asia, 23 October 15.
    \45\ Southern Mongolian Human Rights Information Center, 
``Mongolian Dissident's Son Arrested and Detained for `Obstructing 
Official Business,' '' 16 October 15. See also ``Chinese Police Detain 
Mongolian Dissident's Son Amid Ongoing Protests Over Grasslands,'' 
Radio Free Asia, 15 October 15.
    \46\ Southern Mongolian Human Rights Information Center, 
``Mongolian Dissident's Son Arrested and Detained for `Obstructing 
Official Business,' '' 16 October 15; ``Chinese Police Detain Mongolian 
Dissident's Son Amid Ongoing Protests Over Grasslands,'' Radio Free 
Asia, 15 October 15.

                                                    Population 
                                                        Control
                                                Population 
                                                Control

                           Population Control


    International Standards and China's Coercive Population Policies

    Chinese authorities continue to actively promote and 
implement coercive population planning policies that violate 
international standards. During the Commission's 2016 reporting 
year, Communist Party and central government authorities 
adopted a universal two-child policy and amended the PRC 
Population and Family Planning Law, allowing all married 
couples to have two children.\1\ Authorities continued to place 
an emphasis on birth limits and adherence to family planning as 
a ``basic national policy.'' \2\ The PRC Population and Family 
Planning Law and provincial-level regulations limit couples' 
freedom to build their families as they see fit,\3\ and include 
provisions that require couples be married to have children and 
limit them to bearing two children.\4\ Exceptions allowing for 
additional children exist for couples who meet certain 
criteria, which vary by province,\5\ including some exceptions 
for ethnic minorities,\6\ remarried couples, and couples who 
have children with disabilities.\7\ Officials continue to 
enforce compliance with population planning targets using 
methods including heavy fines,\8\ job termination,\9\ arbitrary 
detention,\10\ and coerced abortion.\11\
    Coercive controls imposed on Chinese women and their 
families, and additional abuses engendered by China's 
population and family planning system, violate standards set 
forth in the 1995 Beijing Declaration and Platform for Action 
\12\ and the 1994 Programme of Action of the Cairo 
International Conference on Population and Development.\13\ 
China was a state participant in the negotiation and adoption 
of both.\14\ Acts of official coercion committed in the 
implementation of population planning policies \15\ contravene 
provisions of the Convention against Torture and Other Cruel, 
Inhuman or Degrading Treatment or Punishment (Convention),\16\ 
which China has ratified.\17\ In November 2015, the UN 
Committee against Torture conducted its fifth periodic review 
of China's compliance with the Convention.\18\ In its 
concluding observations, the Committee stated its concerns 
about China's coercive implementation of the population policy, 
such as coerced sterilization and forced abortion, and the lack 
of information on investigations into such allegations.\19\ 
Furthermore, discriminatory policies against some children 
whose parents fail to comply with population planning policies 
\20\ contravene the Convention on the Rights of the Child \21\ 
and the International Covenant on Economic, Social and Cultural 
Rights.\22\ China is a State Party to these treaties and has 
committed to uphold their terms.\23\

                  Policy Revisions and Implementation

    At the Third Plenum of the 18th Party Central Committee 
held in November 2013,\24\ Party authorities issued the 
Decision on Certain Major Issues Regarding Comprehensively 
Deepening Reforms, which called for a broad range of 
reforms,\25\ including the provision of an exception to China's 
population planning policy aimed at addressing the demographic 
challenges facing China.\26\ The exception allowed couples to 
have two children if one of the parents is an only child (dandu 
erhai policy).\27\ The National Health and Family Planning 
Commission (NHFPC) had initially predicted that the policy 
revision would result in approximately 2 million additional 
births per year.\28\
    Government statistics, however, revealed the limited impact 
of the policy revision. As of October 2015, approximately two 
years after the policy revision became effective, roughly 1.85 
million out of 11 million eligible couples nationwide (16.8 
percent) had applied to have a second child.\29\ Moreover, data 
from the National Bureau of Statistics of China showed that the 
number of total births in 2015 decreased to 16.55 million, 
320,000 less than the 2014 figure.\30\ An NHFPC official 
attributed the decline to two main factors: some were waiting 
to have children in 2016, the Year of the Monkey, which in the 
traditional zodiac calendar is considered more auspicious for 
having children than the previous year; and the decline in the 
number of women of child-bearing age.\31\
    As the policy revision failed to meet the intended birth 
target and amid demographic and economic concerns voiced by 
population experts and research institutions,\32\ central Party 
authorities issued a decision at the Fifth Plenum of the 18th 
Party Central Committee in October 2015 to adopt a ``universal 
two-child policy'' (quanmian erhai), allowing all married 
couples to have two children.\33\ According to an NHFPC 
statement, the universal two-child policy is the Party's 
``major initiative'' to ``promote balanced population 
development'' and to address demographic concerns currently 
facing China.\34\ The NHFPC noted that the new policy would be 
conducive to ``optimizing the demographic structure, increasing 
labor supplies, and easing the pressure of an aging population; 
promoting healthy economic development for achieving the goal 
of building a moderately prosperous society; and implementing 
the family planning policy as a basic national policy in order 
to promote family well-being and social harmony.'' \35\ Central 
government officials emphasized repeatedly that family planning 
policy will ``remain'' a long-term ``basic national policy'' 
(jiben guoce).\36\
    On December 27, 2015, the National People's Congress 
Standing Committee amended the PRC Population and Family 
Planning Law, which became effective nationwide on January 1, 
2016.\37\ The NHFPC estimated that approximately 90 million 
couples nationwide became eligible to bear a second child under 
the new policy.\38\ As of August 2016, at least 29 provincial-
level jurisdictions reportedly had revised their population and 
family planning regulations in accordance with the amended 
national law.\39\ Human rights advocates, demographic experts, 
and others, however, expressed concerns that the coercive 
implementation of family planning measures and human rights 
abuses will persist despite the adoption of the universal two-
child policy.\40\
    Government officials and population experts differ over the 
potential impact of the universal two-child policy. The NHFPC 
predicted that the universal two-child policy, if fully 
implemented, will result in population growth,\41\ with an 
additional 3 million children born per year \42\ and an 
estimated total of 17.5 to 21 million children born per year 
within the next five years.\43\ NHFPC Director Li Bin also 
suggested that by 2050 the working-age population will increase 
by 30 million.\44\ Officials also noted an apparent increase in 
some localities in the number of women making medical or other 
appointments linked to pregnancy, giving an indication that 
more births are expected in 2016.\45\
    Population experts, citing the tepid response to the 
previous policy revision, suggested that the universal two-
child policy likely would not lead to significant population 
growth in the long term.\46\ Yao Meixiong, a population expert 
and Deputy Director of the Fujian Province Bureau of 
Statistics, predicted that China could see a population 
decrease by 2025, as the population of women of child-bearing 
age continues to decline.\47\ Some experts noted that the 
impact of the universal two-child policy would be limited to 
urban areas, as the rural population was already allowed to 
have two children under previous policy revisions.\48\ Many 
married couples, however, especially those in urban areas,\49\ 
were reportedly reluctant to have a second child due to a 
number of factors, including the high cost of rearing an 
additional child,\50\ lack of adequate child care and education 
options,\51\ lack of energy to look after children,\52\ 
disruption to career development,\53\ and the perception that 
having one child is enough due to decades-long government 
propaganda.\54\ To boost population growth, some experts urged 
central government authorities to introduce supporting policy 
measures that would encourage couples to have two children.\55\ 
Experts also suggested abolishing ``social compensation fees,'' 
\56\ further relaxing family planning policies to allow all 
couples to have three children if the universal two-child 
policy is ineffective,\57\ or ending family planning policies 
entirely.\58\
    Central government authorities pledged to promote ``family 
planning service management reform'' (jihua shengyu fuwu guanli 
gaige) and introduce ``supporting policy measures'' to 
facilitate the implementation of the universal two-child 
policy,\59\ including efforts to enhance existing public 
services for women and children's health care,\60\ reproductive 
health,\61\ child care,\62\ and education.\63\ This past year, 
government authorities also took steps to further relax the 
birth registration system, allowing married couples to register 
their first two children without going through a complicated 
approval or application process.\64\ An approval process, 
however, is still in place for eligible couples who intend to 
have a third child, though local family planning authorities 
are to promote ``optimization'' and ``simplification'' of that 
process.\65\

                        Coercive Implementation

    The amended PRC Population and Family Planning Law contains 
provisions that prohibit officials from infringing upon the 
``legitimate rights and interests'' of citizens while 
implementing family planning policies.\66\ Despite these 
provisions, abuses committed during the implementation of 
family planning policies continued during the Commission's 2016 
reporting year. Some provincial-level population planning 
regulations continued to explicitly instruct officials to carry 
out abortions, often referred to as ``remedial measures'' 
(bujiu cuoshi), for ``out-of-plan'' pregnancies.\67\

                           OFFICIAL CAMPAIGNS

    Language used in official speeches and government reports 
from jurisdictions across China continued to reflect an 
emphasis on the harsh enforcement of family planning measures. 
During this reporting year, as in previous years,\68\ official 
reports from several provinces across China--including 
Anhui,\69\ Fujian,\70\ the Guangxi Zhuang Autonomous 
Region,\71\ Henan,\72\ Hubei,\73\ Hunan,\74\ Shandong,\75\ and 
Shanxi \76\--continued to promote ``family planning work'' that 
entailed harsh and invasive family planning measures. Phrases 
such as ``fight the family planning work battle'' (dahao jihua 
shengyu gongzuo de gongjian zhan),\77\ ``resolutely implement'' 
(hen zhua),\78\ and ``use all means necessary'' (qian fang bai 
ji) \79\ appeared in official speeches and government reports, 
indicating the aggressive nature of these family planning 
campaigns.
    Some local government authorities stated in their reports 
that the goal of ``family planning work'' is to ``maintain a 
low birth rate'' (wending di shengyu shuiping),\80\ and touted 
their successes in meeting this goal by compelling women to 
undergo the invasive ``three inspections'' (intrauterine device 
(IUD), pregnancy, and health inspections) \81\ and ``four 
procedures'' (IUD insertion, first-trimester abortion, mid- to 
late-term abortion, and sterilization),\82\ and the forcible 
collection of ``social compensation fees'' (shehui fuyang 
fei).\83\ For example, a December 2015 government report from 
Wolong district, Nanyang municipality, Henan province, 
indicated that Wolong authorities had achieved the goal of 
``maintaining a low birth rate'' within the district by 
carrying out two ``high-quality reproductive health service'' 
campaigns in 2015.\84\ According to the same report, by the end 
of November 2015, Wolong family planning authorities had 
carried out 13,178 ``four procedures'' operations--11,590 IUD 
insertions, 169 IUD removals, 915 sterilizations, and 504 
abortions.\85\

------------------------------------------------------------------------
                    Representative Cases of Coercion
-------------------------------------------------------------------------
<bullet> According to a July 2016 report by state-funded news outlet
 Sixth Tone, government employers in Meizhou municipality, Guangdong
 province, pressured a remarried couple--a local resident surnamed Zhong
 and her husband--to have an abortion or face losing their jobs.\86\
 Both Zhong and her husband were government employees, and each had a
 child from their previous marriages.\87\ Under family planning
 regulations in Guangdong, a couple in their circumstances are not
 allowed to have another child,\88\ while family planning regulations in
 other provinces allow such remarried couples to have a third child.\89\
 Many couples in Guangdong reportedly were facing similar
 situations.\90\ In August 2016, China Business Network reported a
 similar case in which an employer pressured a remarried couple to
 undergo an abortion.\91\ In its  response to the report, the Guangdong
 Health and Family Planning Commission issued a statement urging
 employers not to force remarried couples to have abortions or dismiss
 them from their jobs.\92\
------------------------------------------------------------------------


------------------------------------------------------------------------
               Representative Cases of Coercion--Continued
-------------------------------------------------------------------------
<bullet> In December 2015, women's rights advocate Sarah Huang
 (pseudonym) testified before the Congressional-Executive Commission on
 China regarding official demands to abort her second child.\93\ When
 Huang was four months pregnant in October 2015, government authorities
 at a school where Huang's husband worked as a teacher pressured her to
 undergo a ``mandatory health checkup'' to ensure that there was no
 ``unlawful pregnanc[y].'' \94\ Authorities later threatened her with
 the loss of her husband's job if she did not have an abortion.\95\
 Huang expected that they would be fined approximately US$36,000 in
 ``social compensation fees'' if they decided to give birth to the
 child.\96\
------------------------------------------------------------------------

                      PUNISHMENT FOR NONCOMPLIANCE

    Chinese authorities continued to use various methods of 
punishment to enforce citizens' compliance with population 
planning policies. In accordance with national-level legal 
provisions,\97\ local governments have directed officials to 
punish noncompliance through heavy fines, termed ``social 
compensation fees,'' \98\ which reportedly compel many couples 
to choose between undergoing an unwanted abortion and incurring 
a fine much greater than the average annual income in their 
locality.\99\ In January 2016, Chinese media outlet Jiemian 
reported on one such case in which local authorities in Jianli 
county, Xingzhou municipality, Hubei province, demanded that 
Wang Mali (pseudonym) pay ``social compensation fees'' in the 
amount of 97,800 yuan (approximately US$15,000) for the May 
2015 birth of her second child, which violated national and 
local family planning regulations.\100\ The fine imposed on 
Wang reportedly was nearly 10 times the annual average income 
in her locality.\101\ Hubei's provincial family planning 
regulations, however, mandated a much lighter fine based on 
local average income.\102\ On January 18, 2016, Wang filed a 
lawsuit against the county population and family planning 
bureau.\103\ According to the same report, local family 
planning and public security officials subsequently went to 
Wang's home, pressuring her to pay ``social compensation fees'' 
and to delete her microblog posts that denounced local family 
planning authorities' alleged ``illegal actions.'' \104\ On 
January 25, 2016, the Jianli County People's Court accepted 
Wang's lawsuit, the first such lawsuit in Hubei in 2016.\105\ 
The court tried her case on April 28, and announced that it 
would issue a verdict at a later date.\106\ As of July, the 
court had not issued a verdict.\107\
    This past year, National People's Congress delegates, 
family planning officials, and experts from demographic, legal, 
economic, sociological, civil society, media, and other fields 
called on central government authorities to abolish ``social 
compensation fees.'' \108\ Some experts questioned the need to 
continue collecting ``social compensation fees,'' expecting 
very few policy violators after the universal two-child policy 
is implemented.\109\ According to a February 2016 China 
Business News report, approximately 5 percent (800,000) of the 
total newborn population in 2015 were third children born in 
violation of family planning policies, a number many experts 
considered too low to justify the significant costs associated 
with collecting ``social compensation fees.'' \110\ A National 
Health and Family Planning Commission (NHFPC) official also 
predicted that ``fewer and fewer families will violate family 
planning [policies] in the future.'' \111\
    NHFPC officials, however, repeatedly emphasized that 
``social compensation fees'' will not be abolished,\112\ saying 
that the fines will remain in place to ``restrict'' policy 
violations \113\ and that abolition would be ``unfair to those 
who comply with family planning policies.'' \114\ Local 
authorities are to collect fines from policy violators who give 
birth to a second child prior to the January 1, 2016, effective 
date of the universal two-child policy,\115\ as well as from 
policy violators who give birth to more than two children after 
the same effective date.\116\ During this reporting year, some 
women reportedly attempted to postpone the delivery of their 
second child until after January 1, 2016, in order to avoid 
large fines.\117\
    In November 2014, the State Council issued the draft 
Regulations on the Collection and Management of Social 
Compensation Fees (Regulations) for public comment.\118\ The 
draft Regulations marked several significant changes from the 
2002 Measures for Collection of Social Compensation Fees, 
including the proposal of a unified national collection 
standard that limits the amount of fines authorities may 
collect to no more than three times the local average annual 
income.\119\ As of August 2016, the Commission had not observed 
reports of the Chinese government issuing the Regulations.

------------------------------------------------------------------------
       Hukou Reform Addressing the Issue of ``Illegal Residents''
-------------------------------------------------------------------------
  During this reporting year, authorities in some areas withheld
 household registration (hukou) from children whose parents violated
 local family planning policies--including children born in excess of
 birth quotas and children born to unmarried parents--demanding that
 their parents first pay the necessary ``social compensation fees''
 associated with their births in order to obtain  hukou.\120\ People who
 lack hukou in China are commonly referred to as ``illegal residents''
 (heihu) \121\ and face considerable difficulty accessing social
 benefits typically afforded to registered citizens, including health
 insurance, public education, and state welfare.\122\ According to 2010
 national census data, there were approximately 13 million ``illegal
 residents'' in China,\123\ of whom over 60 percent were children born
 in violation of family planning policies.\124\ Discriminatory hukou
 policies preventing parents from registering their children violate the
 UN Convention on the Rights of the Child, to which China is a State
 Party.\125\
------------------------------------------------------------------------


------------------------------------------------------------------------
 Hukou Reform Addressing the Issue of  ``Illegal Residents''--Continued
-------------------------------------------------------------------------
  This past year, central authorities took steps to address the issue of
 ``illegal residents.'' On December 9, 2015, the Chinese Communist
 Party's Central Leading Group for Comprehensively Deepening Reforms,
 chaired by President and Party General Secretary Xi Jinping, issued an
 opinion to ``delink family planning policies from hukou registration,
 to strengthen the management of hukou registration, [and] to
 comprehensively resolve the issue of hukou registration for individuals
 without hukou.'' \126\ On January 14, 2016, the State Council General
 Office issued the Opinion on Resolving Issues of Hukou Registration for
 Individuals Without Hukou.\127\ The opinion called for ``safeguarding
 the legitimate right of every citizen to register for hukou according
 to law,'' and prohibited ``the establishment of any preconditions that
 are not in conformity with hukou registration regulations.'' \128\ The
 opinion also specified eight types of ``illegal residents'' newly
 eligible to register for hukou without preconditions, including those
 born in violation of family planning policies and those without birth
 certificates.\129\ Unregistered individuals whose parents failed to pay
 ``social compensation fees,'' however, were not included in this
 list.\130\ At a January 2016 press conference, an NHFPC official
 claimed that ``the issue of 13 million [illegal residents] has largely
 been addressed,'' and that ``very few people still lack hukou due to
 factors related to family planning policies.'' \131\
  Provincial-level authorities also made efforts to address the issue of
 ``illegal residents'' by loosening hukou registration requirements. The
 Party-run media outlet Legal Evening News reported that as of November
 2015, at least 13 provincial-level jurisdictions had removed ``social
 compensation fee'' payments as a precondition for obtaining hukou.\132\
 For example, Guangdong province authorities no longer require ``social
 compensation fee'' payments from family planning policy violators as a
 precondition for obtaining hukou; \133\ instead, authorities will
 collect ``social compensation fee'' payments after hukou
 registration.\134\ Some parents, fearing that authorities might
 forcibly collect ``social compensation fees'' from them retroactively,
 remain deterred from registering their children who were born in
 violation of family planning policies.\135\ Some provincial-level
 jurisdictions, including Beijing and Shanghai municipalities, continue
 to require ``social compensation fee'' payments \136\ and family
 planning paperwork \137\ as preconditions for hukou registration. [For
 more information on China's hukou system, see Section II--Freedom of
 Residence and Movement.]
------------------------------------------------------------------------

    In addition to fines, officials imposed or threatened other 
punishments for family planning violations. These punishments 
included job termination,\138\ arbitrary detention,\139\ and 
abortion.\140\ The PRC Population and Family Planning Law 
prohibits and provides punishments for officials' infringement 
on citizens' personal, property, and other rights while 
implementing population planning policies.\141\ In June 2015, 
the UN Committee against Torture asked the Chinese government 
to provide information for the Committee's fifth periodic 
review of China's compliance with the Convention against 
Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment, including on ``the total number of investigations 
or prosecutions launched against officials and other persons 
responsible for resorting to coercive and violent measures, 
such as forced sterilization and forced abortions, to implement 
the population policy . . . [and] details as to the types of 
punishment and disciplinary measures applied, and any relevant 
redress provided.'' \142\ In its October 2015 response to the 
Committee, however, the Chinese government did not provide all 
the relevant data the Committee requested.\143\

        Demographic Consequences of Population Control Policies

    The Chinese government's population planning policies 
continue to exacerbate the country's demographic challenges, 
which include a rapidly aging population, shrinking workforce, 
and sex ratio imbalance. Affected in recent decades by 
government restrictions on the number of births per couple, 
China's total fertility rate has dropped from 6 births per 
woman in the early 1970s \144\ to an estimated 1.4 to 1.6 
births per woman in 2016,\145\ below the replacement rate of 
2.1 births per woman necessary to maintain a stable 
population.\146\ The fertility rate is even lower in some major 
cities, such as Shanghai municipality, which has a fertility 
rate of approximately 0.7 births per woman, reportedly one of 
the lowest in the world.\147\
    China's low fertility rate has contributed to a rapidly 
aging population and a shrinking workforce. According to a 
January 2016 National Bureau of Statistics of China report, 
from 2014 to 2015, China's working-age population (persons 
between the ages of 16 and 59) declined by a record 4.87 
million people to 910.96 million,\148\ continuing a downward 
trend from the previous year.\149\ Experts expect the working-
age population to rapidly decline further in the next several 
decades.\150\ At the same time, the elderly population (persons 
aged 60 or older) increased by approximately 9.58 million in 
2015 to 222 million people, or 16.1 percent of the total 
population.\151\ According to a 2015 blue book on aging 
published by research entities affiliated with the Party and 
government, China's elderly population is estimated to reach 
371 million, or approximately a quarter of the population, by 
2030.\152\ A People's Daily report suggested that the elderly 
population will reach 483 million by 2050, approximately one-
third of China's total population.\153\ These demographic 
trends are likely to burden China's health care, social 
services, and retirement systems,\154\ and may weaken China's 
economy as labor costs rise and its competitiveness erodes, 
according to demographic expert Yi Fuxian.\155\
    The Chinese government's restrictive family planning 
policies also have exacerbated China's sex ratio 
imbalance.\156\ Although Chinese authorities continue to 
implement a ban on ``non-medically necessary sex determination 
and sex-selective abortion,'' \157\ some people reportedly 
continue the practice in response to government-imposed birth 
limits and in keeping with a traditional cultural preference 
for sons.\158\ According to a National Bureau of Statistics of 
China report, China's sex ratio at birth in 2015 was 113.51 
males to 100 females (compared with a normal ratio of 103 to 
107 males per 100 females).\159\ The overall sex ratio in 2015 
was 105.02 males to 100 females, and there were approximately 
33.66 million more males than females in China (704.14 million 
males to 670.48 million females).\160\
    International and domestic demographic experts have 
expressed concerns that the sex ratio imbalance in China could 
lead to ``anti-social behavior,'' \161\ ``violent crime,'' 
\162\ ``sex crime,'' \163\ ``prostitution,'' \164\ and 
``trafficking of women and children.'' \165\ This past year, 
international media reports continued to suggest a link between 
China's large number of ``surplus males'' and the trafficking 
of foreign women--from countries including Cambodia,\166\ Burma 
(Myanmar),\167\ Nepal,\168\ North Korea,\169\ and Vietnam 
\170\--into China for forced marriage or commercial sexual 
exploitation.
    Reports also indicate that decades of birth limits under 
China's population planning policies combined with a 
traditional preference for sons have helped create a black 
market for illegal adoptions.\171\ In January 2016, authorities 
in Henan province executed Tan Yongzhi, the head of an illegal 
adoption ring, for his involvement in acquiring and selling 
more than 20 infants, and 17 buyers also received criminal 
punishments.\172\ As of February 2016, authorities had not been 
able to locate the parents of these children.\173\ Chen Shiqu, 
Director of the Ministry of Public Security Anti-Trafficking 
Office, expressed optimism that the implementation of the 
universal two-child policy would prevent ``trafficking of 
children'' by reducing the ``demand for purchasing children.'' 
\174\ [For more information on cross-border trafficking and the 
Chinese government's conflation of child trafficking with 
illegal adoption, see Section II--Human Trafficking.]

                                                    Population 
                                                        Control
                                                Population 
                                                Control
    Notes to Section II--Population Control

    \1\ National Health and Family Planning Commission, ``Implement the 
Universal Two-Child Policy, Promote Balanced Population Development'' 
[Shishi quanmian lianghai zhengce, cujin renkou junheng fazhan], 29 
October 15; Peng Xiaofei et al., ``China To Adopt the Universal `Two-
Child' Policy'' [Woguo quanmian fangkai ``erhai'' zhengce], Beijing 
Youth Daily, 30 October 15; National People's Congress Standing 
Committee, Decision Regarding the Population and Family Planning Law 
[Quanguo renda changweihui guanyu xiugai renkou yu jihua shengyu fa de 
jueding], issued 27 December 15; PRC Population and Family Planning Law 
[Zhonghua renmin gongheguo renkou yu jihua shengyu fa], passed 29 
December 01, amended 27 December 15, effective 1 January 16, art. 18.
    \2\ National Health and Family Planning Commission, ``Implement the 
Universal Two-Child Policy, Promote Balanced Population Development'' 
[Shishi quanmian lianghai zhengce, cujin renkou junheng fazhan], 29 
October 15; Yang Qingshan, ``NHFPC Responds to the Timeframe of the 
Family Planning Policies: To Persist for at Least 20 Years'' [Weijiwei 
huiying jihua shengyu guoce shixian: qima haiyao jianchi 20 nian], 
China Youth Net, 11 January 16; ``State Council Information Office 
Holds Press Conference on Situation Related to Implementation of the 
Universal Two-Child Policy and Reform and Improvement of Family 
Planning Services Management: Text Record'' [Guoxinban jiu shishi 
quanmian lianghai zhengce gaige wanshan jihua shengyu fuwu guanli de 
youguan qingkuang juxing fabuhui wenzi shilu], reprinted in National 
Health and Family Planning Commission, 11 January 16.
    \3\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, art. 18; National People's 
Congress Standing Committee, Decision Regarding the Population and 
Family Planning Law [Quanguo renda changweihui guanyu xiugai renkou yu 
jihua shengyu fa de jueding], issued 27 December 15. Article 18 of the 
Population and Family Planning Law stipulates, ``the state advocates 
two children per couple.'' For provincial-level regulations limiting 
how many children married couples may bear see, e.g., Guangdong 
Province People's Congress Standing Committee, Guangdong Province 
Population and Family Planning Regulations [Guangdong sheng renkou yu 
jihua shengyu tiaoli], issued 2 February 80, amended 17 May 86, 28 
November 92, 1 December 97, 18 September 98, 21 May 99, 25 July 02, 28 
November 08, 27 March 14, 30 December 15, effective 1 January 16, 
reprinted in Huazhou City Health and Family Planning Bureau, art. 18; 
Zhejiang Province People's Congress Standing Committee, Zhejiang 
Province Population and Family Planning Regulations [Zhejiang sheng 
renkou yu jihua shengyu tiaoli], issued 3 September 02, amended 28 
September 07, 13 January 14, 14 January 16, reprinted in Zhejiang 
Province Health and Family Planning Commission, art. 17; Sichuan 
Province People's Congress Standing Committee, Sichuan Province 
Population and Family Planning Regulations [Sichuan sheng renkou yu 
jihua shengyu tiaoli], issued 2 July 87, amended 15 December 93, 17 
October 97, 26 September 02, 24 September 04, 20 March 14, 22 January 
16, art. 13.
    \4\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, art. 18. For provincial 
population policies that require couples be married to have children 
and limit them to bearing two children, see, e.g., Guangdong Province 
People's Congress Standing Committee, Guangdong Province Population and 
Family Planning Regulations [Guangdong sheng renkou yu jihua shengyu 
tiaoli], issued 2 February 80, amended 17 May 86, 28 November 92, 1 
December 97, 18 September 98, 21 May 99, 25 July 02, 28 November 08, 27 
March 14, 30 December 15, effective 1 January 16, reprinted in Huazhou 
City Health and Family Planning Bureau, art. 18; Zhejiang Province 
People's Congress Standing Committee, Zhejiang Province Population and 
Family Planning Regulations [Zhejiang sheng renkou yu jihua shengyu 
tiaoli], issued 3 September 02, amended 28 September 07, 13 January 14, 
14 January 16, reprinted in Zhejiang Province Health and Family 
Planning Commission, arts. 17, 41(4); Sichuan Province People's 
Congress Standing Committee, Sichuan Province Population and Family 
Planning Regulations [Sichuan sheng renkou yu jihua shengyu tiaoli], 
issued 2 July 87, amended 15 December 93, 17 October 97, 26 September 
02, 24 September 04, 20 March 14, 22 January 16, arts. 13, 34.
    \5\ National People's Congress, ``Answering Journalists' Questions 
`Regarding the Decision of Amending the Population and Family Planning 
Law' '' [``Guanyu xiugai renkou yu jihua shengyu fa de jueding'' da 
jizhe wen], reprinted in National Health and Family Planning 
Commission, 27 December 15. For provincial population planning 
provisions that allow exceptions for having an additional child, see, 
e.g., Guangdong Province People's Congress Standing Committee, 
Guangdong Province Population and Family Planning Regulations 
[Guangdong sheng renkou yu jihua shengyu tiaoli], issued 2 February 80, 
amended 17 May 86, 28 November 92, 1 December 97, 18 September 98, 21 
May 99, 25 July 02, 28 November 08, 27 March 14, 30 December 15, 
effective 1 January 16, reprinted in Huazhou City Health and Family 
Planning Bureau, art. 19; Zhejiang Province People's Congress Standing 
Committee, Zhejiang Province Population and Family Planning Regulations 
[Zhejiang sheng renkou yu jihua shengyu tiaoli], issued 3 September 02, 
amended 28 September 07, 13 January 14, 14 January 16, reprinted in 
Zhejiang Province Health and Family Planning Commission, art. 18; 
Sichuan Province People's Congress Standing Committee, Sichuan Province 
Population and Family Planning Regulations [Sichuan sheng renkou yu 
jihua shengyu tiaoli], issued 2 July 87, amended 15 December 93, 17 
October 97, 26 September 02, 24 September 04, 20 March 14, 22 January 
16, art. 13.
    \6\ See, e.g., Fujian Province People's Congress Standing 
Committee, Fujian Province Population and Family Planning Regulations 
[Fujian sheng renkou yu jihua shengyu tiaoli], issued 29 April 88, 
amended 28 June 91, 25 October 97, 18 November 00, 26 July 02, 14 
December 12, 29 March 14, 19 February 16, art. 9(4-5); Heilongjiang 
Province People's Congress Standing Committee, Heilongjiang Province 
Population and Family Planning Regulations [Heilongjiang sheng renkou 
yu jihua shengyu tiaoli], issued 18 October 02, amended 13 December 13, 
22 April 14, 17 April 15, 21 April 16, art. 13.
    \7\ National People's Congress, ``Answering Journalists' Questions 
`Regarding the Decision of Amending the Population and Family Planning 
Law' '' [``Guanyu xiugai renkou yu jihua shengyu fa de jueding'' da 
jizhe wen], reprinted in National Health and Family Planning 
Commission, 27 December 15. For provincial population planning 
provisions that allow exceptions for having an additional child, see, 
e.g., Zhejiang Province People's Congress Standing Committee, Zhejiang 
Province Population and Family Planning Regulations [Zhejiang sheng 
renkou yu jihua shengyu tiaoli], issued 3 September 02, amended 28 
September 07, 13 January 14, 14 January 16, reprinted in Zhejiang 
Province Health and Family Planning Commission, art. 18(1-4); Sichuan 
Province People's Congress Standing Committee, Sichuan Province 
Population and Family Planning Regulations [Sichuan sheng renkou yu 
jihua shengyu tiaoli], issued 2 July 87, amended 15 December 93, 17 
October 97, 26 September 02, 24 September 04, 20 March 14, 22 January 
16, art. 13(1); Guangxi Zhuang Autonomous Region People's Congress 
Standing Committee, Guangxi Zhuang Autonomous Region Population and 
Family Planning Regulations [Guangxi zhuangzu zizhiqu renkou he jihua 
shengyu tiaoli], issued 23 March 12, amended 13 January 14, 15 January 
16, art. 14(1-5); Jiangxi Province People's Congress Standing 
Committee, Jiangxi Province Population and Family Planning Regulations 
[Jiangxi sheng renkou yu jihua shengyu tiaoli], issued 16 June 90, 
amended 30 June 95, 20 June 97, 29 July 02, 27 March 09, 16 January 14, 
20 January 16, reprinted in People's Daily, art. 9(2-3).
    \8\ See, e.g., Kiki Zhao, ``Chinese Who Violated One-Child Policy 
Remain Wary of Relaxed Rules,'' New York Times, 8 February 16; Julia 
Glum, ``As China's One-Child Policy Ends, Parents Protest Fines Charged 
for Additional Kids,'' International Business Times, 5 January 16; 
China's New ``Two-Child Policy'' & the Continuation of Massive Crimes 
Against Women and Children, Hearing of the Congressional-Executive 
Commission on China, 3 December 15, Testimony of Sarah Huang, Activist.
    \9\ See, e.g., Kiki Zhao, ``Chinese Who Violated One-Child Policy 
Remain Wary of Relaxed Rules,'' New York Times, 8 February 16; China's 
New ``Two-Child Policy'' & the Continuation of Massive Crimes Against 
Women and Children, Hearing of the Congressional-Executive Commission 
on China, 3 December 15, Testimony of Sarah Huang, Activist.
    \10\ See, e.g., China's New ``Two-Child Policy'' & the Continuation 
of Massive Crimes Against Women and Children, Hearing of the 
Congressional-Executive Commission on China, 3 December 15, Testimony 
of Sarah Huang, Activist.
    \11\ See, e.g., China's New ``Two-Child Policy'' & the Continuation 
of Massive Crimes Against Women and Children, Hearing of the 
Congressional-Executive Commission on China, 3 December 15, Testimony 
of Sarah Huang, Activist; Wang Lu and Long Feihu, ``Take Multiple 
Measures To Attack `Two Unnecessary Procedures' '' [Duocuo bingju daji 
``liang fei''], Jingzhou Daily, reprinted in Hanfeng Net, 1 April 16. 
See also Wolong District Population and Family Planning Commission, 
``Wolong District 2015 Family Planning Work Summary and 2016 Work 
Plan'' [Wolong qu renkou jisheng gongzuo 2015 nian zongjie ji 2016 nian 
gongzuo guihua], 25 December 15.
    \12\ Beijing Declaration and Platform for Action, adopted by the 
Fourth World Conference on Women on 15 September 95, endorsed by UN 
General Assembly resolution 50/203 of 22 December 95, paras. 9(Annex 
1), 17. The Beijing Declaration states that governments which 
participated in the Fourth World Conference on Women reaffirmed their 
commitment to ``Ensure the full implementation of the human rights of 
women and of the girl child as an inalienable, integral and indivisible 
part of all human rights and fundamental freedoms; . . .'' (para. 9) 
and ``are convinced that . . . [t]he explicit recognition and 
reaffirmation of the right of all women to control all aspects of their 
health, in particular their own fertility, is basic to their 
empowerment; . . .'' (para. 17).
    \13\ Programme of Action adopted by the Cairo International 
Conference on Population and Development, 13 September 94, paras. 7.2, 
8.25. Paragraph 7.2 states that, ``Reproductive health therefore 
implies that people . . . have the capability to reproduce and the 
freedom to decide if, when and how often to do so. Implicit in this 
last condition are the right of men and women to be informed and to 
have access to safe, effective, affordable and acceptable methods of 
family planning of their choice . . ..'' Paragraph 8.25 states, ``In no 
case should abortion be promoted as a method of family planning.''
    \14\ United Nations, Report of the Fourth World Conference on 
Women, A/CONF.177/20/Rev.1, 27 October 95, chap. II, para. 3; chap. VI, 
para. 12. China was one of the participating States at the Fourth World 
Conference on Women, which adopted the Beijing Declaration and Platform 
for Action. United Nations Population Information Network, Report of 
the International Conference on Population and Development (ICPD), A/
Conf.171/13, 18 October 94, chap. II, sec. C; chap. VI, sec. 1. China 
was one of the participating States at the ICPD, which reached general 
agreement on the Programme of Action. The Programme of Action is 
provided as an annex to the above ICPD report.
    \15\ China's New ``Two-Child Policy'' & the Continuation of Massive 
Crimes Against Women and Children, Hearing of the Congressional-
Executive Commission on China, 3 December 15, Testimony of Sarah Huang, 
Activist; Wang Lu and Long Feihu, ``Take Multiple Measures To Attack 
`Two Unnecessary Procedures' '' [Duocuo bingju daji ``liang fei''], 
Jingzhou Daily, reprinted in Hanfeng Net, 1 April 16. See also Zhima 
Township People's Government, ``2015 Population and Family Planning 
Work Report'' [2015 niandu renkou he jihua shengyu gongzuo qingkuang 
tongbao], 17 January 16; Dongshahe Township People's Government, 
``Dongshahe Township: Solidify the Family Planning Foundation, Improve 
Service'' [Dongshahe zhen: hangshi jisheng jichu tisheng fuwu 
shuiping], 28 January 16; Wolong District Population and Family 
Planning Commission, ``Wolong District 2015 Family Planning Work 
Summary and 2016 Work Plan'' [Wolong qu renkou jisheng gongzuo 2015 
nian zongjie ji 2016 nian gongzuo guihua], 25 December 15.
    \16\ UN Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, entry into force 26 June 87, art. 
1; UN Committee against Torture, Concluding Observations of the 
Committee against Torture: China, adopted by the Committee at its 864th 
Meeting (3-21 November 2008), CAT/C/CHN/CO/4, 12 December 08, para. 21. 
In 2008, the UN Committee against Torture noted again with concern 
China's ``lack of investigation into the alleged use of coercive and 
violent measures to implement the population policy (A/55/44, para. 
122).''
    \17\ United Nations Treaty Collection, Chapter IV, Human Rights, 
Convention against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, last visited 8 July 16. China signed the 
Convention on December 12, 1986, and ratified it on October 4, 1988.
    \18\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16.
    \19\ Ibid., para. 51.
    \20\ Zhou Xiaoyang, ``Feature Story: China's Illegal Residents'' 
[Texie zhongguo heihu], Jiemian, 27 January 16; Kiki Zhao, ``Chinese 
Who Violated One-Child Policy Remain Wary of Relaxed Rules,'' New York 
Times, 8 February 16; ``Chinese Parents With Two Children Petition To 
Have Second Registered,'' Associated Press, reprinted in Japan Times, 5 
January 16.
    \21\ Convention on the Rights of the Child (CRC), adopted by UN 
General Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, arts. 2, 7-8, 24, 26, 28. Article 2 of the CRC calls upon 
State Parties to ``respect and ensure the rights set forth . . . to 
each child within their jurisdiction without discrimination of any 
kind, irrespective of the child's or his or her parent's or legal 
guardian's . . . national, ethnic or social origin . . . birth or other 
status''; and that ``State Parties shall respect and ensure the rights 
set forth in the present Convention to each child within their 
jurisdiction without discrimination of any kind, irrespective of the 
child's or his or her parents' or legal guardian's race, colour, sex, 
language, religion, political or other opinion, national, ethnic or 
social origin, property, disability, birth or other status.'' Article 
24 sets forth the right of the child to access health care; Article 26 
sets forth the right of the child to social security; and Article 28 
sets forth the right of the child to free primary education and 
accessible secondary education and higher education. United Nations 
Treaty Collection, Chapter IV, Human Rights, Convention on the Rights 
of the Child, last visited 8 July 16. China signed the CRC on August 
29, 1990, and ratified it on March 2, 1992.
    \22\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 10(3). Article 10(3) 
calls upon States Parties to recognize that ``Special measures of 
protection and assistance should be taken on behalf of all children and 
young persons without any discrimination for reasons of parentage or 
other conditions.'' United Nations Treaty Collection, Chapter IV, Human 
Rights, International Covenant on Economic, Social and Cultural Rights, 
last visited 8 July 16. China signed the ICESCR on October 27, 1997, 
and ratified it on March 27, 2001.
    \23\ Convention on the Rights of the Child (CRC), adopted by UN 
General Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90; United Nations Treaty Collection, Chapter IV, Human 
Rights, Convention on the Rights of the Child, last visited 8 July 16. 
China signed the CRC on August 29, 1990, and ratified it on March 2, 
1992. International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76; United Nations Treaty 
Collection, Chapter IV, Human Rights, International Covenant on 
Economic, Social and Cultural Rights, last visited 8 July 16. China 
signed the ICESCR on October 27, 1997, and ratified it on March 27, 
2001.
    \24\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], reprinted in Xinhua, 15 November 13; ``China To Ease One-
Child Policy,'' Xinhua, 15 November 13.
    \25\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], reprinted in Xinhua, 15 November 13. See also David 
Shambaugh, ``Breaking Down China's Reform Plan,'' National Interest, 2 
December 13; Christopher K. Johnson, Center for Strategic and 
International Studies, ``China Announces Sweeping Reform Agenda at 
Plenum,'' 15 November 13.
    \26\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], reprinted in Xinhua, 15 November 13, para. 46; National 
Health and Family Planning Commission, ``National Health and Family 
Planning Commission Deputy Director Wang Pei'an Answers Reporters' 
Questions About Maintaining the Basic National Family Planning Policy 
and Launching the Implementation of the Dandu Erhai Two-Child Policy'' 
[Guojia weisheng jisheng wei fu zhuren wang peian jiu jianchi jihua 
shengyu jiben guoce qidong shishi dandu erhai zhengce da jizhe wen], 16 
November 13; Marcus Roberts, ``Why Aren't Chinese Couples Keen To Have 
More Children? '' MercatorNet, 6 February 15; Elizabeth C. Economy, 
``Time for Xi To Reform His Reforms,'' Forbes, 6 February 15.
    \27\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], reprinted in Xinhua, 15 November 13, para. 46. See also 
``Chinese Communist Party Announces Revision to Population Planning 
Policy,'' Congressional-Executive Commission on China, 16 December 13.
    \28\ Lu Nuo, ``Relevant NHFPC Officials Interpret Adjustment to the 
Family Planning Policy'' [Weisheng jishengwei xiangguan fuzeren jiedu 
jihua shengyu tiaozheng zhengce], Xinhua, reprinted in PRC Central 
People's Government, 6 December 13; Liu Yang, ``Two Million Additional 
Births Per Year After Implementation of `Dandu Erhai [Policy]' '' 
[``Dandu erhai'' shishi hou nian zeng xingsheng er yue 200 wan], 
Beijing Youth Daily, reprinted in Xinhua, 18 April 14; Huang Wenzheng 
and Liang Jianzhang, ``NHFPC, Please Do Not Continue To Mislead Policy 
Making'' [Qing weiji wei buyao jixu wudao juece], Caixin, 14 January 
15; ``Scholar: Official Figure Incorrect, `Dandu Erhai [Policy]' Will 
Have Very Limited Impact on the Number of Births'' [Xuezhe: guanfang 
shuju bu zhun ``dandu erhai'' dui chusheng renshu yingxiang shen wei], 
Phoenix Net, 11 February 15.
    \29\ Wang Ling, ``Two Children for Only-Child Couples Policy 
Ineffective, the Number of Births Last Year Did Not Increase but 
Decreased'' [Dandu erhai yu leng qunian chusheng renkou bu zeng fan 
jiang], China Business Network, 19 January 16; ``Beyond the Ifs and 
Buts of Fertility Rate,'' China Daily, reprinted in China News Service, 
21 December 15.
    \30\ National Bureau of Statistics of China, ``National Economy 
Moved in the Direction of Steady Progress in 2015'' [2015 nian guomin 
jingji yunxing wenzhong youjin, wenzhong youhao], 19 January 16, sec. 
15; National Health and Family Planning Commission, ``Department of 
Community Family Planning Official Answers Questions From Health News 
and China Population Daily Journalists Regarding the Number of Births 
in 2015'' [Zhidaosi fuzeren jiu 2015 nian chusheng renkou shu da 
jiankang bao, zhongguo renkou bao jizhe wen], 20 January 16.
    \31\ National Health and Family Planning Commission, ``Department 
of Community Family Planning Official Answers Questions From Health 
News and China Population Daily Journalists Regarding the Number of 
Births in 2015'' [Zhidaosi fuzeren jiu 2015 nian chusheng renkou shu da 
jiankang bao, zhongguo renkou bao jizhe wen], 20 January 16; ``Sub-
Anchor: Number of Chinese Newborns Drops in 2015,'' CCTV, 24 January 
16.
    \32\ Xu Heqian and Zhao Han, ``One-Child Policy Said To Change 
Because Earlier Easing Failed,'' Caixin, 30 October 15; Wang Ling, 
``Population Report to the Decision-Making Level, Proposes To 
Immediately Implement Universal Two-Child Policy'' [Renkou baogao 
shangdi juece ceng jianyi liji fangkai quanmian sheng erhai], China 
Business Network, 16 October 15; Olivia Lowenberg, ``Why China Is 
Shifting to a `Two-Child' Policy,'' Christian Science Monitor, 21 
October 15.
    \33\ Chinese Communist Party Central Committee, ``Chinese Communist 
Party 18th Party Congress Fifth Plenum Announcement'' [Zhongguo 
gongchandang di shiba jie zhongyang weiyuanhui di wu ci quanti huiyi 
gongbao], 29 October 15; Peng Xiaofei et al., ``China To Adopt 
Universal `Two-Child' Policy'' [Woguo quanmian fangkai ``erhai'' 
zhengce], Beijing Youth Daily, 30 October 15.
    \34\ National Health and Family Planning Commission, ``Implement 
the Universal Two-Child Policy, Promote Balanced Population 
Development'' [Shishi quanmian lianghai zhengce, cujin renkou junheng 
fazhan], 29 October 15.
    \35\ Ibid.
    \36\ ``Xi Stresses Adherence to Family Planning Policy,'' Xinhua, 
19 May 16; National Health and Family Planning Commission, ``First 
National County-Level Family Planning Bureau Directors' Training Class 
for Studying and Implementing the Central Government's `Decision' Held 
in Chengdu'' [Quanguo xianji weisheng jishengwei zhuren xuexi guanche 
zhongyang ``jueding'' peixun ban (di yi qi) zai chengdu juban], 26 May 
16; Yang Qingshan, ``NHFPC Responds to the Timeframe of the Family 
Planning Policies: To Persist for at Least 20 Years'' [Weijiwei huiying 
jihua shengyu guoce shixian: qima haiyao jianchi 20 nian], China Youth 
Net, 11 January 16; ``State Council Information Office Holds Press 
Conference on Situation Related to Implementation of the Universal Two-
Child Policy and Reform and Improvement of Family Planning Services 
Management: Text Record'' [Guoxinban jiu shishi quanmian lianghai 
zhengce gaige wanshan jihua shengyu fuwu guanli de youguan qingkuang 
juxing fabuhui wenzi shilu], reprinted in National Health and Family 
Planning Commission, 11 January 16; ``Text Record of Director Li Bin 
and Others Answering Journalists' Questions Regarding `The 
Implementation of the Universal Two-Child Policy' '' [Li bin zhuren 
deng jiu ``shishi quanmian lianghai zhengce'' da jizhe wen wenzi 
shilu], reprinted in National Health and Family Planning Commission, 8 
March 16; National Health and Family Planning Commission, ``Implement 
the Universal Two-Child Policy, Promote Balanced Population 
Development'' [Shishi quanmian lianghai zhengce, cujin renkou junheng 
fazhan], 29 October 15.
    \37\ National People's Congress, National People's Congress 
Standing Committee Decision Regarding the Population and Family 
Planning Law [Quanguo renda changweihui guanyu xiugai renkou yu jihua 
shengyu fa de jueding], 27 December 15; PRC Population and Family 
Planning Law [Zhonghua renmin gongheguo renkou yu jihua shengyu fa], 
passed 29 December 01, amended 27 December 15, effective 1 January 16.
    \38\ ``Text Record of Director Li Bin and Others Answering 
Journalists' Questions Regarding `The Implementation of the Universal 
Two-Child Policy' '' [Li bin zhuren deng jiu ``shishi quanmian lianghai 
zhengce'' da jizhe wen wenzi shilu], reprinted in National Health and 
Family Planning Commission, 8 March 16.
    \39\ Wang Ling, ``Guangdong Two-Child Policy Rules for Remarried 
Couples Still Not Issued, Pregnant Woman Plans To Get an Abortion in 
Order To Keep Her Job'' [Guangdong zaihun erhai zhengce xize chi wei 
chutai yunfu wei bao gongzuo ni yinchan], China Business Network, 1 
August 16.
    \40\ China's New ``Two-Child Policy'' & the Continuation of Massive 
Crimes Against Women and Children, Hearing of the Congressional-
Executive Commission on China, 3 December 15, Testimony of Sarah Huang, 
Activist; Mairead McArdle, ``Chinese Human Rights Activist on Two-Child 
Policy: `Now They Will Kill Any Baby After Two,' '' CNS News, 3 
November 15; Bob Unruh, ``Media Hiding Horror of Continued Forced 
Abortion,'' WND, 1 January 16; Maya Wang, Human Rights Watch, 
``Dispatches: Ending the One-Child Policy Does Not Equal Reproductive 
Freedom in China,'' Dispatches (blog), 29 October 15; Sheng Keyi, 
``Still No Dignity for Chinese Women,'' New York Times, 10 November 15; 
`` `Two Kids' Not `Two Pregnancies,' Those Who Rush To Have Additional 
Baby Will Be Fined, Scholar Doubts the Necessity of `13th Five-Year 
Plan' '' [``Erhai'' fei ``ertai'' qiang sheng yao fakuan xuezhe zhiyi 
``shisanwu'' guihua biyaoxing], Radio Free Asia, 30 October 15; 
Masahiro Okoshi, ``Outlook Hazy for Approaching 2-Child Policy,'' 
Nikkei Asian Review, 22 December 15; Tom Phillips, ``China Ends One-
Child Policy After 35 Years,'' Guardian, 29 October 15.
    \41\ ``Text Record of Director Li Bin and Others Answering 
Journalists' Questions Regarding `The Implementation of the Universal 
Two-Child Policy' '' [Li bin zhuren deng jiu ``shishi quanmian lianghai 
zhengce'' da jizhe wen wenzi shilu], reprinted in National Health and 
Family Planning Commission, 8 March 16.
    \42\ ``Chinese Officials Say, Three Million Additional Births per 
Year With the Universal Two-Child Policy'' [Zhongguo guanfang shuo, 
kaifang ertai meinian duo sheng sanbaiwan ren], Radio Free Asia, 10 
November 15.
    \43\ National Health and Family Planning Commission, ``Department 
of Community Family Planning Official Answers Questions from Health 
News and China Population Daily Journalists Regarding the Number of 
Births in 2015'' [Zhidaosi fuzeren jiu 2015 nian chusheng renkou shu da 
jiankang bao, zhongguo renkou bao jizhe wen], 20 January 16.
    \44\ ``Text Record of Director Li Bin and Others Answering 
Journalists' Questions Regarding `The Implementation of the Universal 
Two-Child Policy' '' [Li bin zhuren deng jiu ``shishi quanmian lianghai 
zhengce'' da jizhe wen wenzi shilu], reprinted in National Health and 
Family Planning Commission, 8 March 16; ``Family Planning Policy To 
Stay for Now,'' Xinhua, reprinted in Shanghai Daily, 9 March 16.
    \45\ National Health and Family Planning Commission, ``Department 
of Community Family Planning Official Answers Questions from Health 
News and China Population Daily Journalists Regarding the Number of 
Births in 2015'' [Zhidaosi fuzeren jiu 2015 nian chusheng renkou shu da 
jiankang bao, zhongguo renkou bao jizhe wen], 20 January 16; Desiree 
Sison, ``Beijing Expects 300,000 Newborns in Year of the Monkey,'' 
China Topix, 19 February 16; ``China Focus: Hospitals Under Pressure 
Amid New Year Baby Boom,'' Xinhua, 3 March 16.
    \46\ Wang Ling, ``Two Children for Only-Child Couples Policy 
Ineffective, the Number of Births Last Year Did Not Increase but 
Decreased'' [Dandu erhai yu leng qunian chusheng renkou bu zeng fan 
jiang], China Business Network, 19 January 16; Didi Kirsten Tatlow, 
``Yi Fuxian, Critic of China's Birth Policy, Returns as an Invited 
Guest,'' New York Times, Sinosphere (blog), 24 March 16. See also 
Stuart Gietel-Basten, ``Two-Child Policy Alone Can't Fix Aging 
Problem,'' China Daily, 3 February 16; Li Dandan, ``China To Implement 
Universal Two-Child Policy, Experts Suggest Formulating Policy To 
Encourage [Having Two Children]'' [Woguo quanmian fangkai erhai 
zhuanjia jianyi zhiding guli zhengce], Beijing News, 29 October 15.
    \47\ Wang Ling, ``Two Children for Only-Child Couples Policy 
Ineffective, the Number of Births Last Year Did Not Increase but 
Decreased'' [Dandu erhai yu leng qunian chusheng renkou bu zeng fan 
jiang], China Business Network, 19 January 16. See also Li Dandan, 
``China To Implement Universal Two Child Policy, Experts Suggest 
Formulating Policy To Encourage [Having Two Children]'' [Woguo quanmian 
fangkai erhai zhuanjia jianyi zhiding guli zhengce], Beijing News, 29 
October 15.
    \48\ Dong Le, ``China Officially Announced the End of Over Three-
Decades-Long One-Child Policy'' [Zhongguo zhengshi xuanbu jieshu 30 duo 
nian de yitai zhengce], BBC, 29 October 15; ``He Qinglian: What Is the 
Relationship Between the Universal Two-Child Policy, Pension Policy and 
Labor Supply? '' [He qinglian: quanmian fangkai erhai yu yanglao ji 
laodong li gongji youhe guanxi], Voice of America, 2 November 15. See 
also Heilongjiang Province People's Congress Standing Committee, 
Heilongjiang Province Population and Family Planning Regulations 
[Heilongjiang sheng renkou yu jihua shengyu tiaoli], issued 18 October 
02, amended 13 December 13, 22 April 14, art. 13; Fujian Province 
People's Congress Standing Committee, Fujian Province Population and 
Family Planning Regulations [Fujian sheng renkou yu jihua shengyu 
tiaoli], issued 29 April 88, amended 28 June 91, 25 October 97, 18 
November 00, 26 July 02, 14 December 12, 29 March 14, art. 10(3).
    \49\ Tang Shuxin, ``Understanding China's `Two-Child Policy,' '' 
CCTV, 6 November 15; ``He Qinglian: What Is the Relationship Between 
the Universal Two-Child Policy, Pension Policy and Labor Supply? '' [He 
qinglian: quanmian fangkai erhai yu yanglao ji laodong li gongji youhe 
guanxi], Voice of America, 2 November 15; Amy L. Nathan, ``Why China's 
New `Two Child' Policy Means Zero in Its Big Cities,'' Huffington Post, 
1 November 15.
    \50\ ``Text Record of Director Li Bin and Others Answering 
Journalists' Questions Regarding `The Implementation of the Universal 
Two-Child Policy' '' [Li bin zhuren deng jiu ``shishi quanmian lianghai 
zhengce'' da jizhe wen wenzi shilu], reprinted in National Health and 
Family Planning Commission, 8 March 16; Amy L. Nathan, ``Why China's 
New `Two Child' Policy Means Zero in Its Big Cities,'' Huffington Post, 
1 November 15; Tang Shuxin, ``Understanding China's `Two-Child Policy,' 
'' CCTV, 6 November 15; ``Lack of Caregivers Biggest Obstacle to Second 
Child: Survey,'' Xinhua, 22 March 16.
    \51\ ``Text Record of Director Li Bin and Others Answering 
Journalists' Questions Regarding `The Implementation of the Universal 
Two-Child Policy' '' [Li bin zhuren deng jiu ``shishi quanmian lianghai 
zhengce'' da jizhe wen wenzi shilu], reprinted in National Health and 
Family Planning Commission, 8 March 16; Amy L. Nathan, ``Why China's 
New `Two Child' Policy Means Zero in Its Big Cities,'' Huffington Post, 
1 November 15; ``Lack of Caregivers Biggest Obstacle to Second Child: 
Survey,'' Xinhua, 22 March 16.
    \52\ Luo Bin, `` `Two-Child' Policy To Be Released Next Year,'' 
China Radio International, 22 December 15.
    \53\ ``Text Record of Director Li Bin and Others Answering 
Journalists' Questions Regarding `The Implementation of the Universal 
Two-Child Policy' '' [Li bin zhuren deng jiu ``shishi quanmian lianghai 
zhengce'' da jizhe wen wenzi shilu], reprinted in National Health and 
Family Planning Commission, 8 March 16; Luo Bin, `` `Two-Child' Policy 
To Be Released Next Year,'' China Radio International, 22 December 15; 
Liu Lili, Central Party School, ``Abolishing China's One-Child Policy 
Won't Help,'' East Asia Forum, 20 November 15; Alexis Villarias, 
``Having Second Child Worries Many Chinese Women,'' China Topix, 27 
February 16.
    \54\ Yimian Wu, ``Asia Faces Fertility Crisis,'' U.S. News & World 
Report, 11 November 15.
    \55\ Deng Qi, ``Expert: `Post-70s Generation' To Benefit the Most 
From the Universal Two Child Policy'' [Zhuanjia: quanmian fangkai erhai 
``70 hou'' shouyi zui da], Beijing News, 29 October 15; Li Dandan, 
``China To Implement Universal Two Child Policy, Experts Suggest 
Formulating Policy To Encourage [Having Two Children]'' [Woguo quanmian 
fangkai erhai zhuanjia jianyi zhiding guli zhengce], Beijing News, 29 
October 15; Wang Ling, ``Two Children for Only-Child Couples Policy 
Ineffective, the Number of Births Last Year Did Not Increase but 
Decreased'' [Dandu erhai yu leng qunian chusheng renkou bu zeng fan 
jiang], China Business Network, 19 January 16; Li Yan et al., ``Two-
Child Policy Won't Bring Desired Baby Boom, Experts Say,'' Caixin, 13 
November 15.
    \56\ Li Dandan, ``China To Implement Universal Two Child Policy, 
Experts Suggest Formulating Policy To Encourage [Having Two Children]'' 
[Woguo quanmian fangkai erhai zhuanjia jianyi zhiding guli zhengce], 
Beijing News, 29 October 15; Luo Ruiyao and Sheng Menglu, ``One-Child 
Policy Ended, but Violators Still Need To Pay Fines'' [Dusheng zinu 
zhengce meiyou le, dan weifan zhengce de ren reng yao fu fakuan], 
Caixin Weekly, reprinted in AsiaNews, 10 March 16; Luo Ruiyao, 
``Scholars Collectively Suggest Overhauling the Population and Family 
Planning Law, Call for Abolishing Social Compensation Fees'' [Xuezhe 
jiti jianyan da xiu jisheng fa yu feichu shehui fuyang fei], Caixin, 7 
December 15; Zhou Xin, ``China Must Scrap Remaining Birth Control 
Policies To Avert Demographic Crisis, Says Medical Researcher,'' South 
China Morning Post, 4 May 16.
    \57\ Peng Xiaofei et al., ``China To Adopt Universal `Two-Child' 
Policy'' [Woguo quanmian fangkai ``erhai'' zhengce], Beijing Youth 
Daily, 30 October 15.
    \58\ Dong Le, ``China Officially Announced the End of Over Three-
Decades-Long One-Child Policy'' [Zhongguo zhengshi xuanbu jieshu 30 duo 
nian de yitai zhengce], BBC, 29 October 15; Peng Xiaofei et al., 
``China To Adopt Universal `Two-Child' Policy'' [Woguo quanmian fangkai 
``erhai'' zhengce], Beijing Youth Daily, 30 October 15.
    \59\ Chinese Communist Party Central Committee and State Council, 
Decision Regarding the Implementation of the Universal Two-Child Policy 
and Reform and Improvement of Family Planning Service Management 
[Guanyu shishi quanmian lianghai zhengce gaige wanshan jihua shengyu 
fuwu guanli de jueding], issued 31 December 15, sec. 2(5); ``Text 
Record of Director Li Bin and Others Answering Journalists' Questions 
Regarding `The Implementation of the Universal Two-Child Policy' '' [Li 
bin zhuren deng jiu ``shishi quanmian lianghai zhengce'' da jizhe wen 
wenzi shilu], reprinted in National Health and Family Planning 
Commission, 8 March 16; National Health and Family Planning Commission, 
``Implement the Universal Two-Child Policy, Promote Balanced Population 
Development'' [Shishi quanmian lianghai zhengce, cujin renkou junheng 
fazhan], 29 October 15; National People's Congress, ``Answering 
Journalists' Questions `Regarding the Decision of Amending the 
Population and Family Planning Law' '' [``Guanyu xiugai renkou yu jihua 
shengyu fa de jueding'' da jizhe wen], reprinted in National Health and 
Family Planning Commission, 27 December 15.
    \60\ National People's Congress, ``Answering Journalists' Questions 
`Regarding the Decision of Amending the Population and Family Planning 
Law' '' [``Guanyu xiugai renkou yu jihua shengyu fa de jueding'' da 
jizhe wen], reprinted in National Health and Family Planning 
Commission, 27 December 15; ``Text Record of Director Li Bin and Others 
Answering Journalists' Questions Regarding `The Implementation of the 
Universal Two-Child Policy' '' [Li bin zhuren deng jiu ``shishi 
quanmian lianghai zhengce'' da jizhe wen wenzi shilu], reprinted in 
National Health and Family Planning Commission, 8 March 16; National 
Health and Family Planning Commission, ``Implement the Universal Two-
Child Policy, Promote Balanced Population Development'' [Shishi 
quanmian lianghai zhengce, cujin renkou junheng fazhan], 29 October 15; 
Chinese Communist Party Central Committee and State Council, Decision 
Regarding the Implementation of the Universal Two-Child Policy and 
Reform and Improvement of Family Planning Service Management [Guanyu 
shishi quanmian lianghai zhengce gaige wanshan jihua shengyu fuwu 
guanli de jueding], issued 31 December 15, sec. 3(10).
    \61\ National Health and Family Planning Commission, ``Implement 
the Universal Two-Child Policy, Promote Balanced Population 
Development'' [Shishi quanmian lianghai zhengce, cujin renkou junheng 
fazhan], 29 October 15.
    \62\ ``Text Record of Director Li Bin and Others Answering 
Journalists' Questions Regarding `The Implementation of the Universal 
Two-Child Policy' '' [Li bin zhuren deng jiu ``shishi quanmian lianghai 
zhengce'' da jizhe wen wenzi shilu], reprinted in National Health and 
Family Planning Commission, 8 March 16; National Health and Family 
Planning Commission, ``Implement the Universal Two-Child Policy, 
Promote Balanced Population Development'' [Shishi quanmian lianghai 
zhengce, cujin renkou junheng fazhan], 29 October 15.
    \63\ ``Text Record of Director Li Bin and Others Answering 
Journalists' Questions Regarding `The Implementation of the Universal 
Two-Child Policy' '' [Li bin zhuren deng jiu ``shishi quanmian lianghai 
zhengce'' da jizhe wen wenzi shilu], reprinted in National Health and 
Family Planning Commission, 8 March 16; Chinese Communist Party Central 
Committee and State Council, Decision Regarding the Implementation of 
the Universal Two-Child Policy and Reform and Improvement of Family 
Planning Service Management [Guanyu shishi quanmian lianghai zhengce 
gaige wanshan jihua shengyu fuwu guanli de jueding], issued 31 December 
15, sec. 3(10).
    \64\ Chinese Communist Party Central Committee and State Council, 
Decision Regarding the Implementation of the Universal Two-Child Policy 
and Reform and Improvement of Family Planning Service Management 
[Guanyu shishi quanmian lianghai zhengce gaige wanshan jihua shengyu 
fuwu guanli de jueding], issued 31 December 15, sec. 3(8); National 
Health and Family Planning Commission, ``January 15, 2016, NHFPC's 
Regular Press Conference Text Record'' [2016 nian 1 yue 15 ri guojia 
weisheng jisheng wei lixing xinwen fabu hui wenzi shilu], 15 January 
16. Previous birth registration reform allowed married couples to 
register their first child without going through an approval or 
application process. CECC, 2015 Annual Report, 8 October 15, 145.
    \65\ Chinese Communist Party Central Committee and State Council, 
Decision Regarding the Implementation of the Universal Two-Child Policy 
and Reform and Improvement of Family Planning Service Management 
[Guanyu shishi quanmian lianghai zhengce gaige wanshan jihua shengyu 
fuwu guanli de jueding], issued 31 December 15, sec. 3(8).
    \66\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, arts. 4, 39.
    \67\ For some specific examples, see Jiangxi Province People's 
Congress Standing Committee, Jiangxi Province Population and Family 
Planning Regulations [Jiangxi sheng renkou yu jihua shengyu tiaoli], 
issued 16 June 90, amended 30 June 95, 20 June 97, 29 July 02, 27 March 
09, 16 January 14, 20 January 16, art. 15; Shenzhen Municipality 
People's Congress Standing Committee, Shenzhen Special Economic Zone 
Population and Family Planning Regulations [Shenzhen jingji tequ renkou 
yu jihua shengyu tiaoli], issued 30 October 12, amended 24 December 15, 
art. 18; Hubei Province People's Congress Standing Committee, Hubei 
Province Population and Family Planning Regulations [Hubei sheng renkou 
yu jihua shengyu tiaoli], issued 1 December 02, amended 29 November 08, 
30 July 10, 27 March 14, 13 January 16, art. 12.
    \68\ CECC, 2015 Annual Report, 8 October 15, 146; CECC, 2014 Annual 
Report, 9 October 14, 104; CECC, 2013 Annual Report, 10 October 13, 
100; CECC, 2012 Annual Report, 10 October 12, 91; CECC, 2011 Annual 
Report, 10 October 11, 111; CECC, 2010 Annual Report, 10 October 10, 
118.
    \69\ Guichi District Commission for Discipline Inspection, ``Tangxi 
Township 2015 Work Summary and 2016 Work Plans'' [Tangxi zhen 2015 nian 
gongzuo zongjie he 2016 nian gongzuo jihua], last visited 28 March 16.
    \70\ Zhima Township People's Government, ``2015 Population and 
Family Planning Work Report'' [2015 niandu renkou he jihua shengyu 
gongzuo qingkuang tongbao], 17 January 16.
    \71\ Beishi Township People's Government, ``2015 Beishi Township 
Government Work Report'' [2015 nian beishi zhen zhengfu gongzuo 
baogao], 22 January 16; Li Shengwen, ``Xu Gui Attends Municipal Health 
and Family Planning Work Meeting'' [Xu gui chuxi quanshi weisheng 
jisheng gongzuo huiyi], Qinzhou Daily, reprinted in Qinzhou 
Municipality People's Government, 14 March 16.
    \72\ Wolong District Population and Family Planning Commission, 
``Wolong District 2015 Family Planning Work Summary and 2016 Work 
Plan'' [Wolong qu renkou jisheng gongzuo 2015 nian zongjie ji 2016 nian 
gongzuo guihua], 25 December 15.
    \73\ Yunyang District Health and Family Planning Bureau, ``District 
Health and Family Planning Bureau Regulates Family Planning Firmly'' 
[Qu weisheng ju zhengzhi shengyu zhixu bu shouruan], 1 December 15; 
Yiling District Women and Children Hospital, ``District Women and 
Children Health Family Planning Center's Work Affirmed by the 
Assessment Team of the District Health and Family Planning Commission'' 
[Qu fubao jisheng zhongxin ge xiang gongzuo shou dao qu weiji ju kaohe 
zu kending], 7 January 16.
    \74\ ``Yongding District Carries Out Inspection for Spring Family 
Planning Centralized Service Activity'' [Yongding qu kaizhan chunji 
jihua shengyu jizhong fuwu huodong ducha], Zhangjiajie Online, 25 
February 16.
    \75\ Dongshahe Township People's Government, ``Dongshahe Township: 
Solidify the Family Planning Foundation, Improve Service'' [Dongshahe 
zhen: hangshi jisheng jichu tisheng fuwu shuiping], 28 January 16.
    \76\ ``Gu County Makes Efforts To Create an Advanced County in 
National Family Planning Quality Service'' [Gu xian zhuoli chuangjian 
guojia jihua shengyu youzhi fuwu xianjin xian], Gu County News, 5 March 
16.
    \77\ Lei Ming, ``Countywide Family Planning Work Promotion Meeting 
Requirements: Fight Well the Family Planning Work Battle and Quickly 
Reverse the Passive Situation'' [Quan xian jihua shengyu gongzuo tuijin 
hui yaoqiu: dahao jihua shengyu gongzuo gongjian zhan xunsu niuzhuan 
beidong jumian], Luotian News, 12 May 16. See also Liu Weiping, 
Yongfeng Township People's Government, ``Yongfeng Township 
Comprehensively Coordinates Work Regarding Population and Family 
Planning and Opinion Polls'' [Yongfeng zhen quanmian bushu renkou yu 
jisheng ji mindiao gongzuo], 7 April 16.
    \78\ ``Gu County Makes Efforts To Create an Advanced County in 
National Family Planning Quality Service'' [Gu xian zhuoli chuangjian 
guojia jihua shengyu youzhi fuwu xianjin xian], Gu County News, 5 March 
16.
    \79\ Dongshahe Township People's Government, ``Dongshahe Township: 
Solidify the Family Planning Foundation, Improve Service'' [Dongshahe 
zhen: hangshi jisheng jichu tisheng fuwu shuiping], 28 January 16; Li 
Shengwen, ``Xu Gui Attends Municipal Health and Family Planning Work 
Meeting'' [Xu gui chuxi quanshi weisheng jisheng gongzuo huiyi], 
Qinzhou Daily, reprinted in Qinzhou Municipality People's Government, 
14 March 16.
    \80\ Yunyang District Health and Family Planning Bureau, ``District 
Health and Family Planning Bureau Regulates Family Planning Firmly'' 
[Qu weisheng ju zhengzhi shengyu zhixu bu shouruan], 1 December 15; 
Wolong District Population and Family Planning Commission, ``Wolong 
District 2015 Family Planning Work Summary and 2016 Work Plan'' [Wolong 
qu renkou jisheng gongzuo 2015 nian zongjie ji 2016 nian gongzuo 
guihua], 25 December 15; Zhima Township People's Government, ``2015 
Population and Family Planning Work Report'' [2015 niandu renkou he 
jihua shengyu gongzuo qingkuang tongbao], 17 January 16; Dongshahe 
Township People's Government, ``Dongshahe Township: Solidify the Family 
Planning Foundation, Improve Service'' [Dongshahe zhen: hangshi jisheng 
jichu tisheng fuwu shuiping], 28 January 16.
    \81\ Yunyang District Health and Family Planning Bureau, ``District 
Health and Family Planning Bureau Regulates Family Planning Firmly'' 
[Qu weisheng ju zhengzhi shengyu zhixu bu shouruan], 1 December 15; 
``Gu County Makes Efforts To Create an Advanced County in National 
Family Planning Quality Service'' [Gu xian zhuoli chuangjian guojia 
jihua shengyu youzhi fuwu xianjin xian], Gu County News, 5 March 16. 
See also Ma Jianwen, ``Investigation Into the `Three Inspections' of 
Rural Family Planning'' [Nongcun jihua shengyu zhong de ``san cha'' 
qingkuang diaocha], Women's Rights in China, reprinted in Boxun, 15 
April 09.
    \82\ ``Gu County Makes Efforts To Create an Advanced County in 
National Family Planning Quality Service'' [Gu xian zhuoli chuangjian 
guojia jihua shengyu youzhi fuwu xianjin xian], Gu County News, 5 March 
16; Guichi District Commission for Discipline Inspection, ``Tangxi 
Township 2015 Work Summary and 2016 Work Plans'' [Tangxi zhen 2015 nian 
gongzuo zongjie he 2016 nian gongzuo jihua], last visited 28 March 16; 
Yunyang District Health and Family Planning Bureau, ``District Health 
and Family Planning Bureau Regulates Family Planning Firmly'' [Qu 
weishengju zhengzhi shengyu zhixu bu shouruan], 1 December 15; Wolong 
District Population and Family Planning Commission, ``Wolong District 
2015 Family Planning Work Summary and 2016 Work Plan'' [Wolong qu 
renkou jisheng gongzuo 2015 nian zongjie ji 2016 nian gongzuo guihua], 
25 December 15; Zhima Township People's Government, ``2015 Population 
and Family Planning Work Report'' [2015 niandu renkou he jihua shengyu 
gongzuo qingkuang tongbao], 17 January 16; Dongshahe Township People's 
Government, ``Dongshahe Township: Solidify the Family Planning 
Foundation, Improve Service'' [Dongshahe zhen: hangshi jisheng jichu 
tisheng fuwu shuiping], 28 January 16. See also ``Chinese People Suffer 
From Family Planning [Policy's] Forced Sterilizations and Abortions'' 
[Jihua shengyu qiangzhi jieza renliu hai ku le zhongguo ren], Tencent, 
15 June 12.
    \83\ Yunyang District Health and Family Planning Bureau, ``District 
Health and Family Planning Bureau Regulates Family Planning Firmly'' 
[Qu weisheng ju zhengzhi shengyu zhixu bu shouruan], 1 December 15; 
``Gu County Makes Efforts To Create an Advanced County in National 
Family Planning Quality Service'' [Gu xian zhuoli chuangjian guojia 
jihua shengyu youzhi fuwu xianjin xian], Gu County News, 5 March 16; 
Zhima Township People's Government, ``2015 Population and Family 
Planning Work Report'' [2015 niandu renkou he jihua shengyu gongzuo 
qingkuang tongbao], 17 January 16; Dongshahe Township People's 
Government, ``Dongshahe Township: Solidify the Family Planning 
Foundation, Improve Service'' [Dongshahe zhen: hangshi jisheng jichu 
tisheng fuwu shuiping], 28 January 16. ``Social compensation fees'' are 
also known as ``social maintenance fees.''
    \84\ Wolong District Population and Family Planning Commission, 
``Wolong District 2015 Family Planning Work Summary and 2016 Work 
Plan'' [Wolong qu renkou jisheng gongzuo 2015 nian zongjie ji 2016 nian 
gongzuo guihua], 25 December 15.
    \85\ Ibid.
    \86\ Ni Dandan, ``Guangdong Families Told To Have Abortion or Lose 
Job,'' Sixth Tone, 22 July 16.
    \87\ Ibid.
    \88\ Ibid.; Guangdong Province People's Congress Standing 
Committee, Guangdong Province Population and Family Planning 
Regulations [Guangdong sheng renkou yu jihua shengyu tiaoli], issued 2 
February 80, amended 17 May 86, 28 November 92, 1 December 97, 18 
September 98, 21 May 99, 25 July 02, 28 November 08, 27 March 14, 30 
December 15, effective 1 January 16, reprinted in Huazhou City Health 
and Family Planning Bureau, art. 19. Article 19 of the Guangdong 
Province Population and Family Planning Regulations allows a couple to 
have an additional child if their child(ren) dies, or if a couple meets 
other criteria that conform to laws and regulations.
    \89\ Ni Dandan, ``Guangdong Families Told To Have Abortion or Lose 
Job,'' Sixth Tone, 22 July 16. For provincial family planning 
regulations that allow remarried couples to have an additional child, 
see, e.g., Zhejiang Province People's Congress Standing Committee, 
Zhejiang Province Population and Family Planning Regulations [Zhejiang 
sheng renkou yu jihua shengyu tiaoli], issued 3 September 02, amended 
28 September 07, 13 January 14, 14 January 16, reprinted in Zhejiang 
Province Health and Family Planning Commission, art. 18(1-3); Jiangxi 
Province People's Congress Standing Committee, Jiangxi Province 
Population and Family Planning Regulations [Jiangxi sheng renkou yu 
jihua shengyu tiaoli], issued 16 June 90, amended 30 June 95, 20 June 
97, 29 July 02, 27 March 09, 16 January 14, 20 January 16, reprinted in 
People's Daily, art. 9(3). See also Guangxi Zhuang Autonomous Region 
People's Congress Standing Committee, Guangxi Zhuang Autonomous Region 
Population and Family Planning Regulations [Guangxi zhuangzu zizhiqu 
renkou he jihua shengyu tiaoli], issued 23 March 12, amended 13 January 
14, 15 January 16, art. 14(1-5).
    \90\ Ni Dandan, ``Guangdong Families Told To Have Abortion or Lose 
Job,'' Sixth Tone, 22 July 16.
    \91\ Wang Ling, ``Remarried Pregnant Woman Plans To Get an Abortion 
in Order To Keep Her Job, Guangdong Health and Family Planning 
Commission Issues a New Statement'' [Zaihun yunfu wei bao gongzuo ni 
yinchan guangdong sheng weijiwei zuo zuixin biaotai], China Business 
Network, 2 August 16; Wang Ling, ``Guangdong Two-Child Policy Rules for 
Remarried Couples Still Not Issued, Pregnant Woman Plans To Get an 
Abortion in Order To Keep Her Job'' [Guangdong zaihun erhai zhengce 
xize chi wei chutai yunfu wei bao gongzuo ni yinchan], China Business 
Network, 1 August 16.
    \92\ Wang Ling, ``Remarried Pregnant Woman Plans To Get an Abortion 
in Order To Keep Her Job, Guangdong Health and Family Planning 
Commission Issues a New Statement'' [Zaihun yunfu wei bao gongzuo ni 
yinchan guangdong sheng weijiwei zuo zuixin biaotai], China Business 
Network, 2 August 16; Zheng Caixiong, ``Couples Not Waiting for 2nd-
Child Rule,'' China Daily, 3 August 16.
    \93\ China's New ``Two-Child Policy'' & the Continuation of Massive 
Crimes Against Women and Children, Hearing of the Congressional-
Executive Commission on China, 3 December 15, Testimony of Sarah Huang, 
Activist. See also June Cheng, ``Pro-Life Activist Faces Pressure To 
Abort,'' World News Group, 26 October 15.
    \94\ June Cheng, ``Pro-Life Activist Faces Pressure To Abort,'' 
World News Group, 26 October 15.
    \95\ China's New ``Two-Child Policy'' & the Continuation of Massive 
Crimes Against Women and Children, Hearing of the Congressional-
Executive Commission on China, 3 December 15, Testimony of Sarah Huang, 
Activist.
    \96\ Ibid.
    \97\ PRC Measures for Administration of Collection of Social 
Maintenance Fees [Shehui fuyang fei zhengshou guanli banfa], issued 2 
August 02, effective 1 September 02, arts. 3, 7. See also PRC 
Population and Family Planning Law [Zhonghua renmin gongheguo renkou yu 
jihua shengyu fa], passed 29 December 01, amended 27 December 15, 
effective 1 January 16, arts. 18, 41.
    \98\ See, e.g., Fujian Province People's Congress Standing 
Committee, Fujian Province Population and Family Planning Regulations 
[Fujian sheng renkou yu jihua shengyu tiaoli], issued 29 April 88, 
amended 28 June 91, 25 October 97, 18 November 00, 26 July 02, 14 
December 12, 29 March 14, 19 February 16, art. 42. In Fujian province, 
individuals in violation of local population planning regulations can 
each be fined up to six times the amount of the average income of a 
resident in their locality, sometimes more, based on the number of 
children born in violation of local regulations and their income 
compared to the local average disposable income of the previous year. 
See also Hubei Province People's Congress Standing Committee, Hubei 
Province Population and Family Planning Regulations [Hubei sheng renkou 
yu jihua shengyu tiaoli], issued 1 December 02, amended 29 November 08, 
30 July 10, 27 March 14, 13 January 16, art. 37; ``Who Do the Social 
Compensation Fees Actually `Support'? '' [Shehui fuyang fei jiujing 
``yang'' le shei?], People's Daily, 22 September 13; Chuan Jiang, 
``National Health and Family Planning Commission: Social Compensation 
Fee Arrears To Be Dealt With by Local Governments'' [Zhongguo weijiwei: 
shehui fuyangfei qiankuan you difang zhengfu chuli], BBC, 11 January 
16.
    \99\ ``Forced Abortions Alive and Well in China,'' Malta Today, 5 
May 16; Shen Lu and Katie Hunt, ``China's One-Child Policy Goes but 
Heartache Remains,'' CNN, 31 December 15. For provincial regulations 
that mandate the collection of social compensation fees, see, e.g., 
Fujian Province People's Congress Standing Committee, Fujian Province 
Population and Family Planning Regulations [Fujian sheng renkou yu 
jihua shengyu tiaoli], issued 29 April 88, amended 28 June 91, 25 
October 97, 18 November 00, 26 July 02, 14 December 12, 29 March 14, 19 
February 16, art. 42. In Fujian province, individuals in violation of 
local population planning regulations can be fined up to six times the 
amount of the average income of a resident in their locality, sometimes 
more, based on the number of children born in violation of local 
regulations and their income compared to the local average income of 
the previous year. Hubei Province People's Congress Standing Committee, 
Hubei Province Population and Family Planning Regulations [Hubei sheng 
renkou yu jihua shengyu tiaoli], issued 1 December 02, amended 29 
November 08, 30 July 10, 27 March 14, 13 January 16, art. 37.
    \100\ Zhou Xiaoyang, ``Feature Story: China's Illegal Residents'' 
[Texie zhongguo heihu], Jiemian, 27 January 16.
    \101\ Ibid.; Hubei Province People's Congress Standing Committee, 
Hubei Province Population and Family Planning Regulations [Hubei sheng 
renkou yu jihua shengyu tiaoli], issued 1 December 02, amended 29 
November 08, 30 July 10, 27 March 14, 13 January 16, art. 37.
    \102\ Ibid.
    \103\ Zhou Xiaoyang, ``Feature Story: China's Illegal Residents'' 
[Texie zhongguo heihu], Jiemian, 27 January 16.
    \104\ Ibid.
    \105\ Ibid.
    \106\ Zhou Xiaoyang, `` `First Case of Non-Single-Child [Parent 
Having Out-of-Plan Birth] Being Fined Social Compensation Fees' Tried 
in Court Today, Court To Issue Verdict at a Later Date'' [``Fei du 
qiang sheng shehui fuyang fei di yi an'' jinri kaiting fayuan jiang 
zeri xuanpan], Jiemian, 28 April 16.
    \107\ Fu Yao, ``What Now for China's 13 Million `Illegal 
Residents?' '' [Zhongguo 1300 wan ``heihu'' de zuihou hequ hecong?], 
China Newsweek, reprinted in Chuansong, New Fortune, 10 July 16.
    \108\ Wang Ling, ``Reporter Observations: Why Are Regulations on 
the Management of Social Compensation Fee Collection Not Issued? '' 
[Jizhe guancha: shehui fuyang fei zhengshou guanli tiaoli weihe 
nanchan?], China Business Network, 17 February 16; Luo Ruiyao, 
``Scholars Collectively Suggest Overhauling the Population and Family 
Planning Law, Call for Abolishing Social Compensation Fees'' [Xuezhe 
jiti jianyan da xiu jisheng fa yu feichu shehui fuyang fei], Caixin, 7 
December 15; Luo Ruiyao and Sheng Menglu, ``One-Child Policy Ended, but 
Violators Still Need To Pay Fines'' [Dusheng zinu zhengce meiyou le, 
dan weifan zhengce de ren reng yao fu fakuan], Caixin, reprinted in 
AsiaNews, 26 February 16.
    \109\ Wang Ling, ``Reporter Observations: Why Are Regulations on 
the Management of Social Compensation Fee Collection Not Issued? '' 
[Jizhe guancha: shehui fuyang fei zhengshou guanli tiaoli weihe 
nanchan?], China Business Network, 17 February 16; Wang Ling, ``China 
Remains at Long-Term Low Fertility Level, Last Year Only 800,000 Third 
Children Born in Excess of Birth Quotas'' [Zhongguo yi changqi chuyu di 
shengyu lu shuiping qunian sanhai yishang chaosheng renkou jin 80 wan], 
China Business Network, reprinted in Caijing, 1 February 16; ``Does the 
Collection of Social Compensation Fees Still Need `Regulations?' '' 
[Zhengshou shehui fuyang fei hai xuyao ``tiaoli'' ma], Beijing Youth 
Daily, 28 February 16.
    \110\ Wang Ling, ``China Remains at Long-Term Low Fertility Level, 
Last Year Only 800,000 Third Children Born in Excess of Birth Quotas'' 
[Zhongguo yi changqi chuyu di shengyu lu shuiping qunian sanhai yishang 
chaosheng renkou jin 80 wan], China Business Network, reprinted in 
Caijing, 1 February 16; Wang Ling, ``Reporter Observations: Why Are 
Regulations on the Management of Social Compensation Fee Collection Not 
Issued? '' [Jizhe guancha: shehui fuyang fei zhengshou guanli tiaoli 
weihe nanchan?], China Business Network, 17 February 16.
    \111\ Wang Ling, ``China Remains at Long-Term Low Fertility Level, 
Last Year Only 800,000 Third Children Born in Excess of Birth Quotas'' 
[Zhongguo yi changqi chuyu di shengyu lu shuiping qunian sanhai yishang 
chaosheng renkou jin 80 wan], China Business Network, reprinted in 
Caijing, 1 February 16.
    \112\ Wang Ling, ``Reporter Observations: Why Are Regulations on 
the Management of Social Compensation Fee Collection Not Issued? '' 
[Jizhe guancha: shehui fuyang fei zhengshou guanli tiaoli weihe 
nanchan?], China Business Network, 17 February 16; Luo Ruiyao and Sheng 
Menglu, ``One-Child Policy Ended, but Violators Still Need To Pay 
Fines'' [Dusheng zinu zhengce meiyou le, dan weifan zhengce de ren reng 
yao fu fakuan], Caixin, reprinted in AsiaNews, 26 February 16; ``State 
Council Information Office Holds Press Conference on Situation Related 
to Implementation of the Universal Two-Child Policy and Reform and 
Improvement of Family Planning Services Management: Text Record'' 
[Guoxinban jiu shishi quanmian lianghai zhengce gaige wanshan jihua 
shengyu fuwu guanli de youguan qingkuang juxing fabuhui wenzi shilu], 
reprinted in National Health and Family Planning Commission, 11 January 
16.
    \113\ ``State Council Information Office Holds Press Conference on 
Situation Related to Implementation of the Universal Two-Child Policy 
and Reform and Improvement of Family Planning Services Management: Text 
Record'' [Guoxinban jiu shishi quanmian lianghai zhengce gaige wanshan 
jihua shengyu fuwu guanli de youguan qingkuang juxing fabuhui wenzi 
shilu], reprinted in National Health and Family Planning Commission, 11 
January 16.
    \114\ Luo Ruiyao and Sheng Menglu, ``One-Child Policy Ended, but 
Violators Still Need To Pay Fines'' [Dusheng zinu zhengce meiyou le, 
dan weifan zhengce de ren reng yao fu fakuan], Caixin, reprinted in 
AsiaNews, 26 February 16; Wang Ling, ``Reporter Observations: Why Are 
Regulations on the Management of Social Compensation Fee Collection Not 
Issued? '' [Jizhe guancha: shehui fuyang fei zhengshou guanli tiaoli 
weihe nanchan?], China Business Network, 17 February 16.
    \115\ ``State Council Information Office Holds Press Conference on 
Situation Related to Implementation of the Universal Two-Child Policy 
and Reform and Improvement of Family Planning Services Management: Text 
Record'' [Guoxinban jiu shishi quanmian lianghai zhengce gaige wanshan 
jihua shengyu fuwu guanli de youguan qingkuang juxing fabuhui wenzi 
shilu], reprinted in National Health and Family Planning Commission, 11 
January 16; Wang Ling, ``Reporter Observations: Why Are Regulations on 
the Management of Social Compensation Fee Collection Not Issued? '' 
[Jizhe guancha: shehui fuyang fei zhengshou guanli tiaoli weihe 
nanchan?], China Business Network, 17 February 16.
    \116\ Wang Ling, ``Reporter Observations: Why Are Regulations on 
the Management of Social Compensation Fee Collection Not Issued? '' 
[Jizhe guancha: shehui fuyang fei zhengshou guanli tiaoli weihe 
nanchan?], China Business Network, 17 February 16.
    \117\ ``Women Pregnant With Second Children Defer Delivery Date To 
Break `Policy Gate' '' [Erhai yunfu tuo yuchanqi chuang ``zhengce 
guan''], Beijing Times, 3 January 16; Lee Min Kok, ``Pregnant Woman 
Lies Motionless for 5 Days To Avoid Giving Birth Before China's Two-
Child Policy Took Effect,'' Straits Times, 7 January 16; ``Pregnant 
Woman Delays Birth To Avoid 500,000 Yuan Fine,'' China Internet 
Information Center, 6 January 16.
    \118\ Wang Ling, ``Reporter Observations: Why Are Regulations on 
the Management of Social Compensation Fee Collection Not Issued? '' 
[Jizhe guancha: shehui fuyang fei zhengshou guanli tiaoli weihe 
nanchan?], China Business Network, 17 February 16.
    \119\ ``Regulations on the Collection and Management of Social 
Compensation Fees, Soliciting Comments and Proposing Unified Collection 
Standards'' [Shehui fuyang fei zhengshou guanli tiaoli zhengqiu yijian 
ni tongyi zhengshou biaozhun], People's Daily, 20 November 14, art. 6; 
Zhang Ran, ``Fines for Second Child Not To Exceed Three Times the Per 
Capita Income of One's Hukou Locale'' [Chaosheng ertai fakuan bu gao yu 
huji di sanbei renjun shouru], Beijing Times, 21 November 14; Wen Ru, 
``Social Compensation Fees Expected To Lower in Beijing'' [Beijing 
shehui fuyang fei you wang jiangdi], Beijing News, 22 November 14.
    \120\ Tang Lihan et al., ``Obtaining Hukou for Children Born in 
Excess of Birth Quotas: 9 Provinces and Municipalities Require Social 
Compensation Fee Certificate'' [Chaosheng luohu 9 sheng shi xuyao 
shehui fuyang fei zhengming], Legal Evening News, 24 November 15; Zhou 
Xiaoyang, ``Feature Story: China's Illegal Residents'' [Texie zhongguo 
heihu], Jiemian, 27 January 16; Chen Wei, ``Careless, Fearless,'' News 
China, February 2016.
    \121\ Tang Lihan et al., ``Obtaining Hukou for Children Born in 
Excess of Birth Quotas: 9 Provinces and Municipalities Require Social 
Compensation Fee Certificate'' [Chaosheng luohu 9 sheng shi xuyao 
shehui fuyang fei zhengming], Legal Evening News, 24 November 15; Wang 
Mengyao, ``Hukou Application Planned To Be Opened to `Illegal 
Residents' '' [Hukou banli ni xiang ``heihu'' kaifang], Beijing News, 3 
December 15; Zhou Xiaoyang, ``Feature Story: China's Illegal 
Residents'' [Texie zhongguo heihu], Jiemian, 27 January 16.
    \122\ Liu Jingyao, ``Resolving `Illegal Resident' Problem Manifests 
People-Oriented Concept'' [Jiejue ``heihu'' wenti zhangxian yi ren wei 
ben linian], Xinhua, 15 January 16; Chen Wei, ``Careless, Fearless,'' 
News China, February 2016; Zhou Xiaoyang, ``Feature Story: China's 
Illegal Residents'' [Texie zhongguo heihu], Jiemian, 27 January 16; 
Stephanie Gordon, ``China's Hidden Children,'' The Diplomat, 12 March 
15.
    \123\ Tang Lihan et al., ``Obtaining Hukou for Children Born in 
Excess of Birth Quotas: 9 Provinces and Municipalities Require Social 
Compensation Fee Certificate'' [Chaosheng luohu 9 sheng shi xuyao 
shehui fuyang fei zhengming], Legal Evening News, 24 November 15; Wang 
Ling, ``Barriers to Resolving the Problem of Illegal Residents: Some 
Areas Require Social Compensation Fee Back Payments Before Obtaining 
Hukou'' [Jiejue heihu wenti yu zu: bufen diqu yaoqiu bu jiao shehui 
fuyang fei cai neng luohu], China Business Network, 10 March 16.
    \124\ Wang Ling, ``Barriers to Resolving the Problem of Illegal 
Residents: Some Areas Require Social Compensation Fee Back Payments 
Before Obtaining Hukou'' [Jiejue heihu wenti yu zu: bufen diqu yaoqiu 
bu jiao shehui fuyang fei cai neng luohu], China Business Network, 10 
March 16.
    \125\ Convention on the Rights of the Child (CRC), adopted by UN 
General Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, arts. 2, 7-8, 24, 26, 28; United Nations Treaty 
Collection, Chapter IV, Human Rights, Convention on the Rights of the 
Child, last visited 8 July 16. China signed the CRC on August 29, 1990, 
and ratified it on March 2, 1992. See also UN Committee on the Rights 
of the Child, Concluding Observations on the Combined Third and Fourth 
Periodic Reports of China, Adopted by the Committee at its Sixty-Fourth 
Session (16 September-4 October 2013), CRC/C/CHN/CO/3-4, 29 October 13, 
paras. 39, 40(a-b). In September 2013, the UN Committee on the Rights 
of the Child conducted a periodic review of China's compliance with the 
Convention on the Rights of the Child. In its Concluding Observations, 
the Committee stated its concern about low rates of birth registration 
in China--in part due to China's family planning policies--and 
recommended that China ``reform family planning policies in order to 
remove all forms of penalties and practices that deter parents or 
guardians from registering the birth of their children'' and ``abandon 
the hukou system in order to ensure birth registration for all children 
. . ..''
    \126\ Jiao Ying, ``Family Planning Policies To Be Delinked From 
Hukou Registration, To Comprehensively Resolve the Issue of `Illegal 
Resident' '' [Jihua shengyu deng zhengce jiang yu hukou dengji tuogou 
quanmian jiejue ``heihu'' wenti], China National Radio, 10 December 15.
    \127\ State Council General Office, Opinion on Resolving Issues of 
Hukou Registration for Individuals Without Hukou [Guanyu jiejue wu 
hukou renyuan dengji hukou wenti de yijian], issued 31 December 15.
    \128\ Ibid., sec. 1(2-3); Liu Jingyao, ``Resolving `Illegal 
Resident' Problem Manifests People-Oriented Concept'' [Jiejue ``heihu'' 
wenti zhangxian yi ren wei ben linian], Xinhua, 15 January 16.
    \129\ State Council General Office, Opinion on Resolving Issues of 
Hukou Registration for Individuals Without Hukou [Guanyu jiejue wu 
hukou renyuan dengji hukou wenti de yijian], issued 31 December 15, 
sec. 2.
    \130\ Ibid., sec. 2.
    \131\ ``State Council Information Office Holds Press Conference on 
Situation Related to Implementation of the Universal Two-Child Policy 
and Reform and Improvement of Family Planning Services Management: Text 
Record'' [Guoxinban jiu shishi quanmian lianghai zhengce gaige wanshan 
jihua shengyu fuwu guanli de youguan qingkuang juxing fabuhui wenzi 
shilu], reprinted in National Health and Family Planning Commission, 11 
January 16.
    \132\ Tang Lihan et al., ``Obtaining Hukou for Children Born in 
Excess of Birth Quotas: 9 Provinces and Municipalities Require Social 
Compensation Fee Certificate'' [Chaosheng luohu 9 sheng shi xuyao 
shehui fuyang fei zhengming], Legal Evening News, 24 November 15.
    \133\ ``Delinking Hukou and Family Planning Policies, Still Need To 
Pay Fee for Having Excess Children'' [Luohu yu jisheng yi tuogou 
chaosheng reng yao jiaofei], Southern Metropolitan Daily, 15 January 
16; Kiki Zhao, ``Chinese Who Violated One-Child Policy Remain Wary of 
Relaxed Rules,'' New York Times, 8 February 16.
    \134\ ``Delinking Hukou and Family Planning Policies, Still Need To 
Pay Fee for Having Excess Children'' [Luohu yu jisheng yi tuogou 
chaosheng reng yao jiaofei], Southern Metropolitan Daily, 15 January 
16.
    \135\ Wang Mengyao, ``Hukou Application Planned To Be Opened to 
`Illegal Residents' '' [Hukou banli ni xiang ``heihu'' kaifang], 
Beijing News, 3 December 15; Wang Ling, ``Barriers to Resolving the 
Problem of Illegal Residents: Some Areas Require Social Compensation 
Fee Back Payments Before Obtaining Hukou'' [Jiejue heihu wenti yu zu: 
bufen diqu yaoqiu bu jiao shehui fuyang fei cai neng luohu], China 
Business Network, 10 March 16.
    \136\ Wang Ling, ``Barriers to Resolving the Problem of Illegal 
Residents: Some Areas Require Social Compensation Fee Back Payments 
Before Obtaining Hukou'' [Jiejue heihu wenti yu zu: bufen diqu yaoqiu 
bu jiao shehui fuyang fei cai neng luohu], China Business Network, 10 
March 16.
    \137\ ``Commentary: China Registers Individuals Without Hukou, 
Showing a People-Oriented Concept'' [Shuping: zhongguo wei wu hukou 
renyuan yifa luohu zhangxian yiren weiben linian], Xinhua, 14 January 
16; Chuan Jiang, ``China Allows 8 Types of `Illegal Residents' To 
Register for Hukou Without Conditions, Delinking [Hukou] From Family 
Planning Policies'' [Zhongguo yunxu 8 lei ``heihu'' wu tiaojian shang 
hu yu jisheng tuogou], BBC, 14 January 16.
    \138\ Kiki Zhao, ``Chinese Who Violated One-Child Policy Remain 
Wary of Relaxed Rules,'' New York Times, 8 February 16; China's New 
``Two-Child Policy'' & the Continuation of Massive Crimes Against Women 
and Children, Hearing of the Congressional-Executive Commission on 
China, 3 December 15, Testimony of Sarah Huang, Activist.
    \139\ China's New ``Two-Child Policy'' & the Continuation of 
Massive Crimes Against Women and Children, Hearing of the 
Congressional-Executive Commission on China, 3 December 15, Testimony 
of Sarah Huang, Activist.
    \140\ Ibid. See also Wang Lu and Long Feihu, ``Take Multiple 
Measures To Attack `Two Unnecessary Procedures' '' [Duocuo bingju daji 
``liang fei''], Jingzhou Daily, reprinted in Hanfeng Net, 1 April 16.
    \141\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, arts. 4, 39. Article 4 of the 
PRC Population and Family Planning Law states that officials ``shall 
perform their family planning work duties strictly in accordance with 
the law, and enforce the law in a civil manner, and they may not 
infringe upon the legitimate rights and interests of citizens.'' 
Article 39 states that an official is subject to criminal or 
administrative punishment if he ``infringe[s] on a citizen's personal 
rights, property rights, or other legitimate rights and interests'' or 
``abuse[s] his power, neglect[s] his duty, or engage[s] in malpractice 
for personal gain'' in the implementation of population planning 
policies.
    \142\ UN Committee against Torture, List of Issues in Relation to 
the Fifth Periodic Report of China, adopted by the Committee at its 
54th session (20 April-15 May 2015), CAT/C/CHN/Q/5/Add.1, 15 June 15, 
para. 26.
    \143\ UN Committee against Torture, China's Responses to the 
Committee against Torture's List of Issues [Zhongguo guanyu jinzhi 
kuxing weiyuanhui wenti dan de dafu cailiao], CAT/C/CHN/Q/5/Add.2, 1 
October 15, para. 26.
    \144\ Martin King Whyte, ``The True History of China's Disastrous 
One-Child Policy,'' Foreign Affairs, 5 November 15; ``Another One on 
the Way,'' China Daily, reprinted in The Star, 3 May 15.
    \145\ Ibid.; Chen Wei, ``China Commentaries: Universal Two-Child 
Policy Facing Challenges'' [Dianping zhongguo: quanmian lianghai 
shengyu zhengce mianlin de tiaozhan], BBC, 8 February 16.
    \146\ Zhu Changjun, ``Raising Fertility Rate Is Never an Easy 
Task'' [Tisheng shengyu lu conglai bu shi jiandan shi], China Youth 
Daily, 21 January 16; Karen Zraick, ``China Will Feel One-Child 
Policy's Effects for Decades, Experts Say,'' New York Times, 30 October 
15.
    \147\ Brook Larmer, ``The Long Shadow of China's One-Child 
Policy,'' New York Times, 6 November 15; ``To Adopt Universal Two-Child 
Policy, Fines Must Be Imposed for Violation of Birth Quota'' [Quanmian 
fangkai erhai shengyu chaosheng fakuan bu neng mian dan], Radio Free 
Asia, 15 January 16.
    \148\ National Bureau of Statistics of China, ``National Economy 
Moved in the Direction of Steady Progress in 2015'' [2015 nian guomin 
jingji yunxing wenzhong youjin, wenzhong youhao], 19 January 16; Laurie 
Burkitt, ``China's Working-Age Population Sees Biggest-Ever Decline,'' 
Wall Street Journal, China Real Time Report (blog), 22 January 16.
    \149\ National Bureau of Statistics of China, ``China's Economy 
Realized a New Normal of Stable Growth in 2014,'' 20 January 15; Laurie 
Burkitt, ``China's Working-Age Population Sees Biggest-Ever Decline,'' 
Wall Street Journal, China Real Time Report (blog), 22 January 16.
    \150\ ``China Facing Labor Shortage Due to One-Child Policy,'' 
Xinhua, reprinted in Shanghai Daily, 21 October 15; ``China's 
Demographic Crisis Already Apparent, Problems in Labor Shortage, 
Finding Wives, and Elderly Retirement May Explode in 5 Years'' 
[Zhongguo renkou weiji yi xian zhaogong quqi yanglao nanti huo 5 nian 
hou baofa], China Business Network, reprinted in Boxun, 20 October 15; 
Luo Juan, ``What Is the Impact of Delaying Retirement? '' [Yanchi 
tuixiu yingxiang ji he?], Workers' Daily, reprinted in Ministry of 
Human Resources and Social Security, 26 July 16; ``China's Working Age 
Population To Fall 23 Percent by 2050,'' Xinhua, 22 July 16.
    \151\ National Bureau of Statistics of China, ``National Economy 
Moved in the Direction of Steady Progress in 2015'' [2015 nian guomin 
jingji yunxing wenzhong youjin, wenzhong youhao], 19 January 16; 
National Bureau of Statistics of China, ``China's Economy Realized a 
New Normal of Stable Growth in 2014,'' 20 January 15.
    \152\ ``As First Domestic Blue Book on Aging Suggests, the [Need] 
for Developing Suitable Living Environment for the Elderly Is 
Imminent'' [Guonei shou bu laoling lanpi shu tichu, laonian yiju 
huanjing jianshe pozai meijie], Xinhua, 24 February 16.
    \153\ ``Development Report on Suitable Living Environment for 
Chinese Elderly Issued'' [Zhongguo laonian yiju huanjing fazhan baogao 
fabu], People's Daily, 25 February 16.
    \154\ Will Martin, ``China's Rapidly Ageing Population Is an 
Economic Ticking Timebomb,'' Business Insider, 4 May 16; ``China's 
Demographic Crisis Already Apparent, Problems in Labor Shortage, 
Finding Wives, and Elderly Retirement May Explode in 5 Years'' 
[Zhongguo renkou weiji yi xian zhaogong quqi yanglao nanti huo 5 nian 
hou baofa], China Business Network, reprinted in Boxun, 20 October 15.
    \155\ Zhou Xin, ``China Must Scrap Remaining Birth Control Policies 
To Avert Demographic Crisis, Says Medical Researcher,'' South China 
Morning Post, 4 May 16. See also ``China's Demographic Crisis Already 
Apparent, Problems in Labor Shortage, Finding Wives, and Elderly 
Retirement May Explode in 5 Years'' [Zhongguo renkou weiji yi xian 
zhaogong quqi yanglao nanti huo 5 nian hou baofa], China Business 
Network, reprinted in Boxun, 20 October 15; Laurie Burkitt, ``China's 
Working-Age Population Sees Biggest-Ever Decline,'' Wall Street 
Journal, China Real Time Report (blog), 22 January 16.
    \156\ National Health and Family Planning Commission, 
``Interpretation of the `Circular on Strengthening the Fight, 
Prevention, and Control of Fetal Gender Identification by Blood Test' 
'' [``Guanyu jiaqiang daji fangkong caixue jianding tai'er xingbie 
xingwei de tongzhi'' wenjian jiedu], 21 January 15; Sun Xiaobo, ``Price 
of Women Driven Up by Gender Imbalance,'' Global Times, 27 February 16; 
``Why 30 Million Chinese Men Could End Up as Perpetual Bachelors,'' 
CCTV, 26 January 16.
    \157\ For national regulations prohibiting the practices of non-
medically necessary gender determination testing and sex-selective 
abortion, see PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, art. 35; National Health and 
Family Planning Commission et al., Regulations on Prohibiting Non-
Medically Necessary Sex Determination and Sex-Selective Abortion 
[Jinzhi fei yixue xuyao de taier xingbie jianding he xuanze xingbie 
rengong zhongzhi renshen de guiding], passed 28 March 16, issued 12 
April 16, effective 1 May 16. For provincial regulations that ban non-
medically necessary sex determination and sex-selective abortion, see, 
e.g., Hubei Province People's Congress Standing Committee, Hubei 
Province Population and Family Planning Regulations [Hubei sheng renkou 
yu jihua shengyu tiaoli], issued 1 December 02, amended 29 November 08, 
30 July 10, 27 March 14, 13 January 16, art. 31; Sichuan Province 
People's Congress Standing Committee, Sichuan Province Population and 
Family Planning Regulations [Sichuan sheng renkou yu jihua shengyu 
tiaoli], issued 2 July 87, amended 15 December 93, 17 October 97, 26 
September 02, 24 September 04, 20 March 14, 22 January 16, art. 23.
    \158\ See, e.g., China's New ``Two-Child Policy'' & the 
Continuation of Massive Crimes Against Women and Children, Hearing of 
the Congressional-Executive Commission on China, 3 December 15, 
Testimony of Sarah Huang, Activist; Frank Fang, ``Chinese Woman, 
Pregnant With a Girl, Dies After 9th Abortion Because Her Mother-in-Law 
Wants a Grandson,'' Epoch Times, 1 March 16; Wang Lu and Long Feihu, 
``Take Multiple Measures To Attack `Two Unnecessary Procedures' '' 
[Duocuo bingju daji ``liang fei''], Jingzhou Daily, reprinted in 
Hanfeng Net, 1 April 16.
    \159\ National Bureau of Statistics of China, ``National Economy 
Moved in the Direction of Steady Progress in 2015'' [2015 nian guomin 
jingji yunxing wenzhong youjin, wenzhong youhao], 19 January 16; United 
Nations Population Fund, Population and Development in Viet Nam, last 
visited 11 May 16; United Nations Economic and Social Affairs, The 
World's Women 2015 Trends and Statistics, last visited 11 May 16; 
``Gender Imbalance in China Causing Many Men `Difficulty in Finding 
Wives' '' [Zhongguo dalu nan nu bili shiheng ling daliang nanxing 
``hunpei nan''], Radio Free Asia, 19 January 16.
    \160\ National Bureau of Statistics of China, ``National Economy 
Moved in the Direction of Steady Progress in 2015'' [2015 nian guomin 
jingji yunxing wenzhong youjin, wenzhong youhao], 19 January 16; 
``Gender Imbalance in China Causing Many Men `Difficulty in Finding 
Wives' '' [Zhongguo dalu nan nu bili shiheng ling daliang nanxing 
``hunpei nan''], Radio Free Asia, 19 January 16.
    \161\ ``China's Demographic Crisis Already Apparent, Problems in 
Labor Shortage, Finding Wives, and Elderly Retirement May Explode in 5 
Years'' [Zhongguo renkou weiji yi xian zhaogong quqi yanglao nanti huo 
5 nian hou baofa], China Business Network, reprinted in Boxun, 20 
October 15; Andrea den Boer and Valerie M. Hudson, ``The Security Risks 
of China's Abnormal Demographics,'' Washington Post, 30 April 14.
    \162\ Andrea den Boer and Valerie M. Hudson, ``The Security Risks 
of China's Abnormal Demographics,'' Washington Post, 30 April 14.
    \163\ ``China's Demographic Crisis Already Apparent, Problems in 
Labor Shortage, Finding Wives, and Elderly Retirement May Explode in 5 
Years'' [Zhongguo renkou weiji yi xian zhaogong quqi yanglao nanti huo 
5 nian hou baofa], China Business Network, reprinted in Boxun, 20 
October 15; ``Gender Imbalance in China Causing Many Men `Difficulty in 
Finding Wives' '' [Zhongguo dalu nan nu bili shiheng ling daliang 
nanxing ``hunpei nan''], Radio Free Asia, 19 January 16.
    \164\ ``Study: China To Enter `Era of Bachelors' in Five Years,'' 
CCTV, 30 September 15; Ryan Kilpatrick, ``China Begins Countdown to 
`Bachelor Crisis' as Over 33 Million Extra Men Come of Age,'' Hong Kong 
Free Press, 2 October 15; Andrea den Boer and Valerie M. Hudson, ``The 
Security Risks of China's Abnormal Demographics,'' Washington Post, 30 
April 14.
    \165\ ``Study: China To Enter `Era of Bachelors' in Five Years,'' 
CCTV, 30 September 15; Ryan Kilpatrick, ``China Begins Countdown to 
`Bachelor Crisis' as Over 33 Million Extra Men Come of Age,'' Hong Kong 
Free Press, 2 October 15; ``China's Demographic Crisis Already 
Apparent, Problems in Labor Shortage, Finding Wives, and Elderly 
Retirement May Explode in 5 Years'' [Zhongguo renkou weiji yi xian 
zhaogong quqi yanglao nanti huo 5 nian hou baofa], China Business 
Network, reprinted in Boxun, 20 October 15; Wang Ling, ``China's 
Bachelor Crisis May Explode in 2020: Over 10 Million Bare Branch Men'' 
[Zhongguo guanggun weiji 2020 nian huo quanmian baofa: guanggun nanxing 
shang qian wan], China Business Network, 29 September 15; Andrea den 
Boer and Valerie M. Hudson, ``The Security Risks of China's Abnormal 
Demographics,'' Washington Post, 30 April 14.
    \166\ Alice Cuddy and Neil Loughlin, ``Weddings From Hell: The 
Cambodian Brides Trafficked to China,'' Guardian, 1 February 16; Saing 
Soenthrith and Aria Danaparamita, ``Trilateral Agreement Signed To 
Combat Human Trafficking,'' Cambodia Daily, 18 January 16.
    \167\ Akkyaw, ``Trafficking Hits 10-Year Peak,'' Eleven, 7 January 
16.
    \168\ Gopal Sharma, ``Rise in Nepali Women Trafficked to China, 
South Korea--Rights Commission,'' Reuters, 27 April 16.
    \169\ Human Rights Watch, ``North Korea: Events of 2015,'' 27 
January 16; Sylvia Kim and Yong Joon Park, European Alliance for Human 
Rights in North Korea, ``Invisible Children: The Stateless Children of 
North Korean Refugees,'' 6 December 15; Elizabeth Shim, ``More North 
Korean Women Risking Arrest, Abuse To Sneak Into China for Work,'' 
United Press International, 19 November 15.
    \170\ Saing Soenthrith and Aria Danaparamita, ``Trilateral 
Agreement Signed To Combat Human Trafficking,'' Cambodia Daily, 18 
January 16; Soc Trang, ``Three Vietnamese Jailed for Trafficking Women 
to China,'' Thanh Nien News, 26 January 16.
    \171\ Xie Wenting, ``2-Child Policy To Ease Kid Snatching,'' Global 
Times, 4 November 15; Lucy Hornby, ``FT Seasonal Appeal: China's 
Missing Children,'' Financial Times, 2 December 15; ``More Than 40 
Percent of Trafficked Children Sold by Biological Parents'' [Chao 
sicheng bei guaimai ertong xi bei qinsheng fumu suo mai], Southern 
Metropolitan Daily, 13 October 15.
    \172\ Xing Shiwei, ``The Main Criminal Who Trafficked 22 Children 
in Henan Executed'' [Henan guaimai 22 ming ertong zhufan bei zhixing 
sixing], Beijing News, 30 January 16; Wang Bing and Zhao Lei, ``Updates 
on Tang Yongzhi's Execution for Child Trafficking: Unable To Locate the 
Parents of 27 Trafficked Victims'' [Tang yongzhi guaimai ertong huo 
sixing houxu: 27 ming bei guai zhe fumu wei zhaodao], CCTV, reprinted 
in China News Service, 1 February 16.
    \173\ Xing Shiwei, ``The Main Criminal Who Trafficked 22 Children 
in Henan Executed'' [Henan guaimai 22 ming ertong zhufan bei zhixing 
sixing], Beijing News, 30 January 16.
    \174\ Xie Wenting, ``2-Child Policy To Ease Kid Snatching,'' Global 
Times, 4 November 15.

                                                    Freedom of 
                                                 Residence and 
                                                       Movement
                                                Freedom of 
                                                Residence and 
                                                Movement

                   Freedom of Residence and Movement


                          Freedom of Residence

    During the Commission's 2016 reporting year, the Chinese 
government continued to unduly restrict the freedom of 
residence through use of the household registration (hukou) 
system established in 1958.\1\ The hukou system classifies 
Chinese citizens as rural or urban, conferring legal rights and 
access to public services based on their classification.\2\ 
Implementation of these regulations discriminates against rural 
hukou holders and migrants to urban areas by denying them 
equitable access to public benefits and services enjoyed by 
registered urban residents.\3\ The hukou system contravenes 
international human rights standards guaranteeing freedom of 
residence and prohibiting discrimination on the basis of 
``national or social origin, . . . birth or other status.'' \4\
    This past year, the Chinese central government and local 
authorities continued to implement reforms to the hukou system. 
In 2015, an estimated 292 million people lived outside of the 
locality where their hukou was registered.\5\ The central 
government reiterated its intent for 100 million people to 
obtain urban hukou by 2020,\6\ and provincial and local 
governments continued to issue implementing opinions on hukou 
system reform \7\ in line with the State Council's July 2014 
reform opinion.\8\ As of August 2016, at least 29 province-
level jurisdictions had issued proposals regarding local hukou 
reform planning.\9\ These reform efforts did not generally 
remove the link between residence and provision of public 
benefits; under many province-level reform opinions, access to 
benefits remains tied to holding a local residence permit or 
hukou.\10\
    As part of the Chinese government's hukou reforms, the 
State Council General Office issued an opinion in December 2015 
on providing hukou to individuals (known as ``illegal 
residents'' or heihu) lacking one altogether.\11\ The opinion 
lists eight categories of individuals who can apply for hukou 
under the new policy.\12\ In January 2016, the Chinese 
government and state media reported that the new policy ``had 
largely already addressed'' hukou registration problems for 13 
million people,\13\ approximately 60 percent of whom are 
reported to be people born in violation of local population 
planning policies.\14\ [For more information on the hukou 
system and population planning policy, see ``Hukou Reform 
Addressing the Issue of `Illegal Residents''' in Section II--
Population Control.]
    While central government plans relaxed the conditions 
required for migrants to apply for hukou in small- and medium-
sized cities,\15\ the criteria for applying for hukou in large 
cities remained restrictive.\16\ For example, in August 2016, 
the Beijing municipal government issued provisional measures 
governing a points system by which migrants can apply for and 
obtain Beijing hukou.\17\ Under the provisional measures, 
applicants receive points toward qualifying for hukou according 
to several factors, including length of residence in 
Beijing,\18\ education level,\19\ employment history,\20\ and 
desired residential location.\21\ The provisional measures also 
limit applicants' eligibility based on age,\22\ contributions 
to social insurance,\23\ compliance with population planning 
policy,\24\ and criminal record.\25\ The provisional measures 
additionally require applicants to already hold Beijing 
residence permits.\26\ The provisional measures do not specify 
a minimum point value needed to obtain Beijing hukou, but allow 
local officials to determine the value each year ``according to 
the population control situation.'' \27\ One expert criticized 
the provisional measures for discriminating against applicants 
with less education or working in low-skill fields.\28\ Other 
experts had expressed pessimism about a draft of the measures 
issued in December 2015,\29\ saying the points system benefited 
a small, relatively affluent population, leaving out poorer 
migrant workers who do not share the same qualifications.\30\
    After issuing draft measures on residence permits in 
December 2014,\31\ in November 2015, the State Council issued 
provisional regulations on residence permits.\32\ The 
provisional regulations, effective from January 1, 2016, aim to 
``fully cover basic public services and benefits for the urban 
resident population,'' including compulsory education, health 
services, and legal aid, among others.\33\ The provisional 
regulations maintain the 2014 draft measures' criteria \34\ for 
how restrictive cities' conditions for applicants may be, 
allowing larger cities to establish more stringent conditions 
for those applying for residence permits.\35\
    Two articles from the 2014 draft measures were not 
included, however, in the provisional regulations.\36\ The 
articles would have extended to residence permit holders 
benefits and services including educational assistance, elder 
care services, housing protections, and the right of children 
of permit holders to take college-entrance exams locally,\37\ 
and would have allowed permit holders' relatives to apply for 
local hukou if the permit holder met hukou application 
requirements.\38\

                          International Travel

    Article 12 of the International Covenant on Civil and 
Political Rights (ICCPR), which China has signed and committed 
to ratify, provides that ``[e]veryone shall be free to leave 
any country . . ..'' \39\ Under Article 12, countries may 
restrict this right, but only ``to protect national security, 
public order,'' and other select public interests.\40\ Chinese 
laws provide officials the authority to prevent from leaving 
the country those deemed threatening to state security or whose 
``exit from China is not allowed.'' \41\ Chinese officials used 
this authority to arbitrarily keep government critics, rights 
defenders, advocates, and others from leaving China.\42\
    The Commission observed the following representative cases 
during the 2016 reporting year:

        <bullet> As part of a nationwide crackdown on human 
        rights lawyers and rights advocates beginning in and 
        around July 2015,\43\ from July 2015 through January 
        2016, Chinese authorities prevented at least 24 rights 
        lawyers from leaving the country because, according to 
        authorities, their departure from China ``could 
        endanger state security.'' \44\ Authorities also 
        prevented family members of some lawyers from leaving 
        China.\45\ Rights lawyer Liu Xiaoyuan reported that 
        public security bureau officials in Nanchang 
        municipality, Jiangxi province, refused his son a 
        passport to study abroad.\46\
        <bullet> In April 2016, Chen Guiqiu, wife of detained 
        lawyer Xie Yang,\47\ attempted to sue several 
        government agencies after authorities in Shenzhen 
        municipality, Guangdong province, kept her from 
        traveling to Hong Kong.\48\ The Shenzhen Intermediate 
        People's Court \49\ and Guangdong High People's Court 
        refused to accept her lawsuit.\50\ The Shenzhen court 
        did not provide a reason,\51\ but two Guangdong court 
        judges said they did not have jurisdiction over border 
        control decisions because the decisions were part of a 
        criminal investigation.\52\
        <bullet> Chinese authorities continued \53\ to restrict 
        lawyers, rights advocates, and civil society 
        representatives from leaving the country to participate 
        in international human rights events. Officials 
        prevented at least seven rights defenders from 
        attending the November 2015 review of China's 
        compliance with the Convention against Torture and 
        Other Cruel, Inhuman or Degrading Treatment or 
        Punishment (Convention against Torture) in Geneva.\54\ 
        [For more information on ongoing repression of lawyers, 
        see Section III--Access to Justice.]
        <bullet> In February 2016, state news agency Xinhua 
        reportedly prohibited a former employee, journalist 
        Yang Jisheng, from traveling to the United States to 
        receive a journalism award.\55\ Yang was to attend an 
        award ceremony recognizing his work documenting China's 
        mass famine from 1958 to 1962.\56\ His account of the 
        famine, ``Tombstone,'' is banned in mainland China.\57\
        <bullet> Chinese authorities refused to allow disabled 
        former lawyer and housing rights advocate Ni Yulan to 
        travel to the United States in March 2016 to receive a 
        U.S. State Department award recognizing her rights 
        advocacy and work to promote the rule of law in 
        China.\58\ Ni said that authorities banned her from 
        leaving the country because she had been in contact 
        with rights lawyers who were detained in Tianjin 
        municipality as part of the crackdown on rights lawyers 
        and others beginning in and around July 2015.\59\ Ni 
        reported that after barring her from leaving China, 
        authorities placed her and her husband under ``soft 
        detention'' (ruanjin), a form of extralegal home 
        confinement,\60\ and pressured Ni's landlord and real 
        estate agent to force them to move.\61\
        <bullet> On August 6, 2016, Chinese customs officials 
        in Guangdong reportedly prevented Falun Gong 
        practitioner Wang Zhiwen from traveling to the United 
        States, canceling his passport on orders from public 
        security authorities.\62\ Authorities detained Wang in 
        1999 in connection with a Falun Gong protest in Beijing 
        municipality.\63\ He served 15 years of a 16-year 
        prison sentence on the charge of ``organizing and using 
        a cult to undermine implementation of the law'' until 
        his early release in October 2014, after which 
        authorities reportedly kept Wang under constant 
        surveillance.\64\

                           Domestic Movement

    During its 2016 reporting year, the Commission continued to 
observe reports of Chinese government officials punishing 
rights advocates and their families and associates, and 
targeting some members of ethnic minority groups by restricting 
their freedom of movement. Article 12 of the ICCPR provides 
that ``[e]veryone lawfully within the territory of a State 
shall, within that territory, have the right to liberty of 
movement . . ..'' \65\ Authorities increased restrictions on 
freedom of movement during politically sensitive periods 
throughout the year.
    In December 2015, shortly after the UN Committee against 
Torture's review of China's compliance with the Convention 
against Torture, organizers of an anti-torture conference for 
rights lawyers in the Guangxi Zhuang Autonomous Region canceled 
the event after police interference and harassment.\66\
    During the March 2016 meetings of the National People's 
Congress and the Chinese People's Political Consultative 
Conference in Beijing,\67\ Chinese authorities repeatedly 
intercepted petitioners who sought meetings in Beijing with 
government officials and temporarily restricted their movement, 
placed them under ``soft detention,'' or forcibly returned them 
to their places of residence.\68\ Local authorities reportedly 
criminally or administratively detained many of the petitioners 
upon their return.\69\ Authorities forced prominent journalist 
Gao Yu to leave Beijing during March 2016.\70\ Gao is on 
medical parole while serving a five-year prison sentence on the 
charge of ``leaking state secrets.'' \71\
    As in previous years,\72\ before and during the June 
anniversary of the 1989 Tiananmen protests and their violent 
suppression, Chinese authorities held rights advocates, 
activists, and veterans of the 1989 protests in ``soft 
detention'' or forced them to leave their homes to prevent them 
from gathering and commemorating the protests.\73\
    Residents of some ethnic minority areas, in particular 
Uyghurs and Tibetans, faced strict controls on their freedom of 
movement. Authorities in parts of the Xinjiang Uyghur 
Autonomous Region (XUAR) reportedly placed some Uyghurs under 
surveillance and limited their ability to attend mosques.\74\ 
XUAR authorities also abolished the ``convenience contact 
card'' system \75\ that had restricted Uyghurs' ability to 
freely move within the XUAR.\76\ Reports in the past year 
indicated that authorities in Biru (Driru) county, Naqu 
(Nagchu) prefecture, Tibet Autonomous Region (TAR), placed 
heavy restrictions on Tibetan Buddhist monks and nuns, 
including banning them from traveling without prior government 
authorization.\77\ Chinese authorities reportedly prohibited 
Tibetan residents of some western provinces from traveling to 
Lhasa municipality, TAR, in March 2016, around the anniversary 
of the 2008 Tibetan protests and the Dalai Lama's 1959 flight 
from Tibet.\78\ [For more information on government 
restrictions on Uyghurs and Tibetans, see Section IV--Xinjiang 
and Section V--Tibet.]

                                                    Freedom of 
                                                 Residence and 
                                                       Movement
                                                Freedom of 
                                                Residence and 
                                                Movement
    Notes to Section II--Freedom of Residence and Movement

    \1\ PRC Regulations on Household Registration [Zhonghua renmin 
gongheguo hukou dengji tiaoli], issued and effective 9 January 58.
    \2\ Kam Wing Chan, ``Crossing the 50 Percent Population Rubicon: 
Can China Urbanize to Prosperity? '' Eurasian Geography and Economics, 
Vol. 53, No. 1 (2012), 67; China Labour Bulletin, ``Migrant Workers and 
Their Children,'' last visited 15 July 16.
    \3\ Kam Wing Chan, ``Crossing the 50 Percent Population Rubicon: 
Can China Urbanize to Prosperity? '' Eurasian Geography and Economics, 
Vol. 53, No. 1 (2012), 67; UN Committee on Economic, Social and 
Cultural Rights, Concluding Observations on the Second Periodic Report 
of China, Including Hong Kong, China, and Macao, China, adopted by the 
Committee at its 40th Meeting (23 May 2014), E/C.12/CHN/CO/2, 23 June 
14, para. 15. See also Chun Han Wong and Laurie Burkitt, ``China Moves 
To Normalize the Status of Millions of People on Margins,'' Wall Street 
Journal, 10 December 15; China Labour Bulletin, ``Migrant Workers and 
Their Children,'' last visited 15 July 16.
    \4\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 2(1), 12(1), 12(3), 26; Universal 
Declaration of Human Rights, adopted and proclaimed by UN General 
Assembly resolution 217A (III) of 10 December 48, arts. 2, 13(1).
    \5\ National Bureau of Statistics of China, ``Announcement of Major 
Data From 2015 National 1 Percent Population Sample Survey'' [2015 nian 
quanguo 1% renkou chouyang diaocha zhuyao shuju gongbao], 20 April 16.
    \6\ State Council, Certain Opinions on Deeply Carrying Out New-Type 
Urbanization Construction [Guowuyuan guanyu shenru tuijin xinxing 
chengzhenhua jianshe de ruogan yijian], issued 2 February 16; State 
Council, Opinion on Further Carrying Out Household Registration System 
Reform [Guowuyuan guanyu jinyibu tuijin huji zhidu gaige de yijian], 
issued 24 July 14, para. 3. See also National People's Congress, PRC 
Outline of the 13th Five-Year Plan for National Economic and Social 
Development [Zhonghua renmin gongheguo guomin jingji he shehui fazhan 
di shisan ge wu nian guihua gangyao], issued 17 March 16, sec. 8.
    \7\ See, e.g., Zhejiang Province People's Government, Implementing 
Opinion on Further Carrying Out Household Registration System Reform 
[Zhejiang sheng renmin zhengfu guanyu jinyibu tuijin huji zhidu gaige 
de shishi yijian], issued 10 December 15, reprinted in Jingning She 
Autonomous County People's Government, 25 December 15; Hainan Province 
People's Government, Implementing Opinion on Further Carrying Out 
Household Registration System Reform [Hainan sheng renmin zhengfu 
guanyu jinyibu tuijin huji zhidu gaige de shishi yijian], issued 24 
December 15, reprinted in Sanya Municipal People's Government, 29 
December 15.
    \8\ State Council, Opinion on Further Carrying Out Household 
Registration System Reform [Guowuyuan guanyu jinyibu tuijin huji zhidu 
gaige de yijian], issued 24 July 14, para. 15.
    \9\ ``NDRC: 28 Provinces, Regions, and Municipalities Have Already 
Put Forward Concrete Proposals for Household Registration System 
Reform'' [Fagaiwei: yi you 28 ge sheng qu shi chutai huji zhidu gaige 
de juti fang'an], People's Daily, 19 April 16; Tibet Autonomous Region 
People's Government, Implementing Opinion on Further Carrying Out 
Household Registration System Reform [Xizang zizhiqu renmin zhengfu 
guanyu jinyibu tuijin huji zhidu gaige de shishi yijian], issued 25 May 
16. See also ``29 Provincial Residence Permits Systems Set, Each 
Residence Permit's Value Has Differences'' [29 shengfen juzhuzheng 
zhidu luodi juzhuzheng hanjin liang ge you butong], People's Daily, 29 
January 16.
    \10\ See, e.g., Hubei Provincial People's Government, Implementing 
Opinion on Further Carrying Out Household Registration System Reform 
[Sheng renmin zhengfu guanyu jinyibu tuijin huji zhidu gaige de shishi 
yijian], issued 6 September 15, reprinted in Hubei Province People's 
Government Information Transparency Directory, paras. 9-10; Inner 
Mongolia Autonomous Region People's Government, Implementing Opinion on 
Further Carrying Out Household Registration System Reform [Neimenggu 
zizhiqu renmin zhengfu guanyu jinyibu tuijin huji zhidu gaige de shishi 
yijian], issued 8 September 15, secs. 3(2), 4(2.6); Zhejiang Province 
People's Government, Implementing Opinion on Further Carrying Out 
Household Registration System Reform [Zhejiang sheng renmin zhengfu 
guanyu jinyibu tuijin huji zhidu gaige de shishi yijian], issued 10 
December 15, reprinted in Jingning She Autonomous County People's 
Government, 25 December 15, sec. 4; Hainan Province People's 
Government, Implementing Opinion on Further Carrying Out Household 
Registration System Reform [Hainan sheng renmin zhengfu guanyu jinyibu 
tuijin huji zhidu gaige de shishi yijian], issued 24 December 15, 
reprinted in Sanya Municipal People's Government, 29 December 15, 3(9).
    \11\ State Council General Office, Opinion on Resolving Issues of 
Hukou Registration for Individuals Without Hukou [Guowuyuan bangongting 
guanyu jiejue wu hukou renyuan dengji hukou wenti de yijian], issued 31 
December 15; Chun Han Wong and Laurie Burkitt, ``China Moves To 
Normalize the Status of Millions of People on Margins,'' Wall Street 
Journal, 10 December 15; Liu Jingyao, ``Resolving `Illegal Resident' 
Problems Manifests People-Centered Concept'' [Jiejue ``heihu'' wenti 
zhangxian yi ren wei ben linian], Xinhua, 15 January 16.
    \12\ State Council General Office, Opinion on Resolving Issues of 
Hukou Registration for Individuals Without Hukou [Guowuyuan bangongting 
guanyu jiejue wu hukou renyuan dengji hukou wenti de yijian], issued 31 
December 15, sec. 2.
    \13\ Liu Jingyao, ``Resolving `Illegal Resident' Problems Manifests 
People-Centered Concept'' [Jiejue ``heihu'' wenti zhangxian yi ren wei 
ben linian], Xinhua, 15 January 16; ``State Council Information Office 
Press Conference Text Record Regarding Implementation of the Universal 
Two-Child Policy and Reform and Improvement of Family Planning Service 
Management'' [Guoxinban jiu shishi quanmin liang hai zhengce gaige 
wanshan jihua shengyu fuwu guanli de youguan qingkuang juxing fabuhui 
wenzi shilu], National Health and Family Planning Commission, 11 
January 16.
    \14\ Wang Ling, ``Barriers to Resolving the Problem of Illegal 
Residents: Some Areas Require Social Compensation Fee Payments Before 
Hukou Registration'' [Jiejue heihu wenti yuzu: bufen diqu bu jiao 
shehui fuyang fei cai luohu], First Financial, reprinted in Sina, 10 
March 16.
    \15\ State Council, Opinion on Further Carrying Out Household 
Registration System Reform [Guowuyuan guanyu jinyibu tuijin huji zhidu 
gaige de yijian], issued 24 July 14, paras. 4-5; Xinping Guan, 
``Paulson Policy Memorandum: How To Better Support China's Migrant 
Population,'' Paulson Institute, November 2015, 7.
    \16\ ``Except for a Few Megacities, Household Registration 
Restrictions To Be Completely Relaxed'' [Chu ji shaoshu chaoda chengshi 
quanmian fangkai luohu xianzhi], Beijing News, 25 January 16; ``29 
Provincial Residence Permits Systems Set, Each Residence Permit's Value 
Has Differences'' [29 shengfen juzhuzheng zhidu luodi juzhuzheng hanjin 
liang ge you butong], People's Daily, 29 January 26.
    \17\ Beijing Municipality People's Government, Beijing Municipal 
Measures for Management of Obtaining Household Registration by Points 
(Provisional) [Beijing shi jifen luohu guanli banfa (shixing)], issued 
11 August 16, effective 1 January 17.
    \18\ Ibid., art. 5(2).
    \19\ Ibid., art. 5(3).
    \20\ Ibid., art. 5(5).
    \21\ Ibid., art. 5(4).
    \22\ Ibid., art. 4(2).
    \23\ Ibid., art. 4(3).
    \24\ Ibid., art. 9. See also Beijing Municipality People's 
Government, Beijing Municipal Measures for Management of Obtaining 
Household Registration by Points (Draft for Solicitation of Comments) 
[Beijing shi jifen luohu guanli banfa (zhengqiu yijian gao)], issued 10 
December 15, art. 4(4). The draft measures required applicants to 
comply with family planning policies, while the provisional measures 
allow successful applicants to bring with them only those children born 
according to family planning policies.
    \25\ Beijing Municipality People's Government, Beijing Municipal 
Measures for Management of Obtaining Household Registration by Points 
(Provisional) [Beijing shi jifen luohu guanli banfa (shixing)], issued 
11 August 16, effective 1 January 17, arts. 4(4), 5(9). Article 4(4) 
prohibits individuals with a criminal record (xingshi fanzui jilu), 
while article 5(9) subtracts points from applicants with a record of 
administrative detention (xingzheng juliu chufa) in Beijing.
    \26\ Ibid., art. 4(1).
    \27\ Ibid., art. 8.
    \28\ Wang Luyi, ``Lu Ming: Household Registration Points Policy 
Must Continue To Improve'' [Lu ming: jifen luohu zhengce xuyao jixu 
gaijin], Caixin, 12 August 16.
    \29\ Beijing Municipality People's Government, Beijing Municipal 
Measures for Management of Obtaining Household Registration by Points 
(Draft for Solicitation of Comments) [Beijing shi jifen luohu guanli 
banfa (zhengqiu yijian gao)], issued 10 December 15.
    \30\ Wang Shan, ``Points of No Return,'' News China, April 2016; 
Jamie Martines, ``Despite Policy Reforms, Barriers to Obtaining Hukou 
Persist,'' The Diplomat, 27 February 16; Sun Wenjing, ``Nie Riming: Who 
Benefits From Beijing's `Choose the Best' Points Systems for Settling? 
'' [Nie riming: beijing ``xuanba zhi'' jifen luohu huiji shei], Caixin, 
11 December 15.
    \31\ State Council Legislative Affairs Office, Measures for 
Management of Residence Permits (Draft for Solicitation of Comments) 
[Juzhuzheng guanli banfa (zhengqiu yijian gao)], issued 4 December 14.
    \32\ State Council, Provisional Regulations on Residence Permits 
[Juzhuzheng zanxing tiaoli], issued 26 November 15, effective 1 January 
16.
    \33\ Ibid., arts. 1, 12, 13.
    \34\ State Council Legislative Affairs Office, Measures for 
Management of Residence Permits (Draft for Solicitation of Comments) 
[Juzhuzheng guanli banfa (zhengqiu yijian gao)], issued 4 December 14, 
art. 16.
    \35\ State Council, Provisional Regulations on Residence Permits 
[Juzhuzheng zanxing tiaoli], issued 26 November 15, effective 1 January 
16, art. 16.
    \36\ State Council Legislative Affairs Office, Measures for 
Management of Residence Permits (Draft for Solicitation of Comments) 
[Juzhuzheng guanli banfa (zhengqiu yijian gao)], issued 4 December 14, 
arts. 14, 15; State Council, Provisional Regulations on Residence 
Permits [Juzhuzheng zanxing tiaoli], issued 26 November 15, effective 1 
January 16.
    \37\ State Council Legislative Affairs Office, Measures for 
Management of Residence Permits (Draft for Solicitation of Comments) 
[Juzhuzheng guanli banfa (zhengqiu yijian gao)], issued 4 December 14, 
art. 14.
    \38\ Ibid., art. 15.
    \39\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(2).
    \40\ Ibid., art. 12(3).
    \41\ PRC Passport Law [Zhonghua renmin gongheguo huzhao fa], passed 
29 April 06, effective 1 January 07, art. 13(7); PRC Exit and Entry 
Administration Law [Zhonghua renmin gongheguo chujing rujing guanli 
fa], passed 30 June 12, effective 1 July 13, art. 12(5).
    \42\ See, e.g., ``After Refusing To Allow Activist Home, China Now 
Bans Him From Leaving,'' Radio Free Asia, 6 October 15; ``China Slaps 
Exit Ban on Wife, Son of Defected Former Journalist,'' Radio Free Asia, 
7 December 15.
    \43\ CECC, 2015 Annual Report, 8 October 15, 50-51, 272.
    \44\ Rights Defense Network, ``Feng Zhenghu: Citizen's Right To 
Leave Country--33 Lawyers and Others Prevented From Leaving Country and 
Rights Defense Work'' [Feng zhenghu: gongmin chujing quan--33 ming 
lushi deng ren bei xianzhi chujing ji weiquan biaoxian], 5 February 16; 
PRC Exit and Entry Administration Law [Zhonghua renmin gongheguo 
chujing rujing guanli fa], passed 30 June 12, effective 1 July 13, art. 
12(5).
    \45\ Rights Defense Network, ``Feng Zhenghu: Citizen's Right To 
Leave Country--33 Lawyers and Others Prevented From Leaving Country and 
Rights Defense Work'' [Feng zhenghu: gongmin chujing quan--33 ming 
lushi deng ren bei xianzhi chujing ji weiquan biaoxian], 5 February 16.
    \46\ Liu Xiaoyuan, ``Lawyer Liu Xiaoyuan: My Son Has Also Been 
Unable To Obtain a Passport To Study Abroad'' [Liu xiaoyuan lushi: wo 
de haizi ye bu neng ban huzhao chuguo liuxue], Human Rights Campaign in 
China, 15 October 15. For more information on Liu Xiaoyuan, see the 
Commission's Political Prisoner Database record 2011-00355.
    \47\ For more information on Xie Yang, see the Commission's 
Political Prisoner Database record 2015-00295.
    \48\ Rights Defense Network, ``Explanation for July 9 Detained 
Lawyer Xie Yang's Wife and Professor Chen Guiqiu Being Restricted From 
Leaving Country'' [709 bei bu lushi xie yang qizi chen guiqiu jiaoshou 
bei xianzhi chujing de shuoming], 6 April 16; Rights Defense Network, 
``Chen Guiqiu, Wife of July 9 Lawyer Xie Yang, Sues PSB and Other 
Agencies Over Restriction on Leaving Country'' [709 xie yang lushi qizi 
chen guiqiu jiu bei zuzhi chujing qisu gong'anbu deng jigou], 11 April 
16.
    \49\ Rights Defense Network, ``Chen Guiqiu, Wife of July 9 Lawyer 
Xie Yang, Sues PSB and Other Agencies Over Restriction on Leaving 
Country'' [709 xie yang lushi qizi chen guiqiu jiu bei zuzhi chujing 
qisu gong'anbu deng jigou], 11 April 16; Rights Defense Network, 
``Shenzhen Intermediate People's Court Rejects Chen Guiqiu's (Wife of 
Lawyer Xie Yang) Materials for Administrative Lawsuit Over Restriction 
on Leaving Country, Trampling on the `Administrative Procedure Law' '' 
[Shenzhen shi zhongji fayuan ju shou chen guiqiu (xie yang lushi de 
qizi) yin bei zu chujing xingzheng susong cailiao jianta ``xingzheng 
susong fa''], 11 April 16.
    \50\ Rights Defense Network, ``Lawyer Zhang Lei: Guangdong High 
People's Court Rejects Chen Guiqiu's (Wife of Lawyer Xie Yang) Suit 
Over Exit Ban Against Public Security Bureau, Shenzhen Border 
Inspection, and Other Agencies'' [Zhang lei lushi: guangdong sheng 
gaoji fayuan jujue shouli chen guiqiu (xie yang lushi qizi) qisu 
gong'anbu, shenzhen bianjian deng jigou zuzhi chujing yi an], 18 April 
16.
    \51\ Rights Defense Network, ``Shenzhen Intermediate People's Court 
Rejects Chen Guiqiu's (Wife of Lawyer Xie Yang) Materials for 
Administrative Lawsuit Over Restriction on Leaving Country, Trampling 
on the `Administrative Procedure Law' '' [Shenzhen shi zhongji fayuan 
ju shou chen guiqiu (xie yang lushi de qizi) yin bei zu chujing 
xingzheng susong cailiao jianta ``xingzheng susong fa''], 11 April 16.
    \52\ Rights Defense Network, ``Lawyer Zhang Lei: Guangdong High 
People's Court Rejects Chen Guiqiu's (Wife of Lawyer Xie Yang) Suit 
Over Exit Ban Against Public Security Bureau, Shenzhen Border 
Inspection, and Other Agencies'' [Zhang lei lushi: guangdong sheng 
gaoji fayuan jujue shouli chen guiqiu (xie yang lushi qizi) qisu 
gong'anbu, shenzhen bianjian deng jigou zuzhi chujing yi an], 18 April 
16.
    \53\ CECC, 2015 Annual Report, 8 October 15, 166.
    \54\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 38; ``Rights Lawyer Confirms Civil Society Representatives 
Forbidden To Attend Torture Hearing'' [Weiquan lushi zhengshi minjian 
daibiao bei jin chuxi kuxing lingxun], Radio Free Asia, 18 November 15; 
Rights Defense Network, ``Lawyers Zhang Keke, Lin Qilei Not Allowed by 
`Border Control' To Leave Country, Border Inspection Police Refuse To 
Issue Any Written Documents'' [Zhang keke lushi, lin qilei lushi zao 
``bianjing kongzhi'' buzhun chujing bianjian jingcha ju bu chuju renhe 
shumian falu wenjian], 10 November 15. The vice-chair of the UN 
Committee against Torture questioned the ``endangering state security'' 
justification Chinese authorities reportedly gave for preventing their 
travel. UN Committee against Torture, Summary Record of the 1368th 
Meeting, CAT/C/SR.1368, 20 November 15, para. 92; Nick Cumming-Bruce, 
``China Faces Sharp Questioning by UN Panel on Torture,'' New York 
Times, 17 November 15.
    \55\ Tom Phillips, ``Chinese Journalist Banned From Flying to U.S. 
To Accept a Prize for His Work,'' Guardian, 15 February 16; ``Yang 
Jisheng Blocked From Traveling to U.S. To Accept Award'' [Yang jisheng 
bei zu fu mei lingjiang], Radio Free Asia, 16 February 16.
    \56\ Nieman Foundation for Journalism, ``Chinese Author Yang 
Jisheng Wins Louis M. Lyons Award for Conscience and Integrity in 
Journalism,'' Harvard University, 7 December 15; Tom Phillips, 
``Chinese Journalist Banned From Flying to U.S. To Accept a Prize for 
His Work,'' Guardian, 15 February 16; ``Yang Jisheng Blocked From 
Traveling to U.S. To Accept Award'' [Yang jisheng bei zu fu mei 
lingjiang], Radio Free Asia, 16 February 16.
    \57\ Michael Forsythe, ``Chinese Writer Says He's Forbidden From 
Traveling to U.S. for Harvard Prize,'' New York Times, 16 February 16; 
Tom Phillips, ``Chinese Journalist Banned From Flying to U.S. To Accept 
a Prize for His Work,'' Guardian, 15 February 16.
    \58\ ``Chinese `Woman of Courage' Faces Eviction, Travel Ban Ahead 
of Award,'' Radio Free Asia, 28 March 16; Office of Global Women's 
Issues, U.S. Department of State, ``Biographies of 2016 Award 
Winners,'' 28 March 16. For more information on Ni Yulan, see the 
Commission's Political Prisoner Database record 2005-00285.
    \59\ ``Chinese `Woman of Courage' Faces Eviction, Travel Ban Ahead 
of Award,'' Radio Free Asia, 28 March 16. See also CECC, 2015 Annual 
Report, 8 October 15, 50-51, 272.
    \60\ ``Ni Yulan Still Being Suppressed, Again Placed Under Soft 
Detention After Forced Travel'' [Ni yulan xu shou daya bi qian hou fu 
zao ruanjin], Radio Free Asia, 19 April 16; Megha Rajagopalan and 
Michael Martina, ``Chinese Authorities Hold Disabled Rights Lawyer 
Under House Arrest,'' Reuters, 25 April 16.
    \61\ ``Ni Yulan Again Placed Under Soft Detention by Authorities, 
Friend Detained Three Hours for Visiting Her'' [Ni yulan zai zao dangju 
ruanjin hao you tanshi bei ju san xiaoshi], Radio Free Asia, 20 April 
16.
    \62\ Leo Timm, ``Steps Away From Freedom, American Family Loses Bid 
To Rescue Father From China,'' Epoch Times, 18 August 16; ``United 
States Calls on China To Allow Falun Gong Practitioner To Leave 
Country'' [Meiguo huyu zhongguo yunxu yi ming falun gong xueyuan ziyou 
chujing], Voice of America, 12 August 16. See also Office of Press 
Relations, U.S. Department of State, ``Daily Press Briefing--August 11, 
2016,'' 11 August 16. For more information on Wang Zhiwen, see the 
Commission's Political Prisoner Record 2004-02191.
    \63\ Tian Jing and Tang Rui, ``After 15 Years of Unjust 
Imprisonment, Wang Zhiwen Released, Returns Home, but Still Monitored'' 
[Yuanyu 15 zai wang zhiwen bei shifang huijia reng zao jianshi], New 
Tang Dynasty Television, 26 October 14.
    \64\ ``United States Calls on China To Allow Falun Gong 
Practitioner To Leave Country'' [Meiguo huyu zhongguo yunxu yi ming 
falungong xueyuan ziyou chujing], Voice of America, 12 August 16; Tian 
Jing and Tang Rui, ``After 15 Years of Unjust Imprisonment, Wang Zhiwen 
Released, Returns Home, but Still Monitored'' [Yuanyu 15 zai wang 
zhiwen bei shifang huijia reng zao jianshi], New Tang Dynasty 
Television, 26 October 14.
    \65\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(1).
    \66\ ``Chinese Police Ban Anti-Torture Conference by Rights 
Lawyers,'' Radio Free Asia, 11 December 15.
    \67\ See, e.g., Civil Rights & Livelihood Watch, ``Shanghai 
Authorities Carry Out Two Sessions Clearances, Gao Xuekun and Other 
Petitioners Detained or Put in Soft Detention'' [Shanghai dangju wei 
lianghui qingchang gao xuekun deng duo ming fangmin bei juliu huo 
ruanjin], 28 February 16; Civil Rights & Livelihood Watch, ``Two 
Sessions Begin, Zhangzhou, Fujian, Petitioner Li Honghua Held Under 
Stability Control Conditions at Home'' [Lianghui zhaokai fujian 
zhangzhou fangmin li honghua bei wenkong zai jia], 6 March 16; Civil 
Rights & Livelihood Watch, ``People From Qianjiang Municipality, Hubei 
Province, in Soft Detention for Two Sessions Again Go to Beijing'' 
[Hubei sheng qianjiang shi lianghui ruanjin renyuan zaici dao jing], 26 
March 16.
    \68\ See, e.g., ``Two Sessions Petitioner Interceptions Begin 
February 11, Decrease in Petitioners in Beijing'' [Lianghui jie fang 
chusi kaishi zai jing fangmin jianshao], New Tang Dynasty Television, 
15 February 16; Rights Defense Network, ``Two Sessions Stability 
Maintenance, Hebei Petitioner Zhao Chunhong Held in Black Jail'' 
[Lianghui weiwen, hebei nu fangmin zhao chunhong bei guan hei jianyu], 
4 March 16; Civil Rights & Livelihood Watch, ``Xu Nailai and His 
Daughter in Soft Detention in Tianjin Hotel Because of Two Sessions 
Convening'' [Xu nailai funu yin lianghui zhaokai bei ruanjin zai 
tianjin yi jia binguan], 4 March 16; Civil Rights & Livelihood Watch, 
``Zhanjiang Municipality, Guangdong, Petitioner Chen Jianmei Held in 
Baoding, Hebei, Hotel'' [Guangdong zhanjiang shi fangmin chen jianmei 
bei guanya zai hebei baoding binguan], 4 March 16; Rights Defense 
Network, ``Changsha, Hunan, Rights Defender Xie Fulin Sent Back After 
Legally Going to Beijing To Petition'' [Hunan changsha weiquan renshi 
xie fulin yifa dao beijing shangfang bei qianhui], 4 March 16; Rights 
Defense Network, ``Rights Defense Bulletin: Wuxi Citizens Decipher 
Origin of `Zero Petitioning' in Wuxi During 2016's National `Two 
Sessions'--Encirclement and Interception, Extralegal Detention, 
Detention in Black Jails, Paying To Shut Down Accounts, Trafficking 
Petitioners'' [Weiquan jianbao: wuxi gongmin jiemi 2016 nian quanguo 
``lianghui'' qijian wuxi ``ling shangfang'' youlai--weizhui dujie, 
wangfa juliu, guan hei jianyu, huaqian xiaohao, fanmai fangmin], 3 
April 16.
    \69\ See, e.g., Civil Rights & Livelihood Watch, ``Xin'an County, 
Henan, Petitioner Pei Zhanying Criminally Detained for Going to Beijing 
To Petition During Two Sessions'' [Henan xin'an xian fangmin pei 
zhanying lianghui qijian jin jing shangfang bei xingju], 20 March 16; 
Rights Defense Network, ``As Two Sessions Draw Near, Shanghai Casts 
Wide Net and Detains 4 Rights Defenders; Ding Deyuan Ordered To Serve 7 
Days' Administrative Detention'' [Lianghui jiangjin, shanghai dasi 
juliu 4 wei renquan hanweizhe ding deyuan bei chu xingzheng juliu 7 
ri], 23 February 16. For more information, see the Commission's 
Political Prisoner Database records 2016-00245 on Pei Zhanying and 
2016-00054 on Ding Deyuan.
    \70\ ``Gao Yu `Forced To Travel' During Two Sessions'' [Gao yu 
lianghui qijian ``bei luyou''], Radio Free Asia, 18 March 16; ``Veteran 
Chinese Journalist Gao Yu Seen `on Vacation' in Yunnan,'' Radio Free 
Asia, 17 March 16. For more information on Gao Yu, see the Commission's 
Political Prisoner Database record 2004-05037.
    \71\ Chris Buckley, ``China To Release Journalist Gao Yu From 
Prison Over Illness,'' New York Times, 26 November 15; Jun Mai, 
``Jailed Chinese Journalist Gao Yu Granted Medical Parole After Appeal 
in State Secrets Case,'' South China Morning Post, 27 November 15.
    \72\ See, e.g., CECC, 2014 Annual Report, 9 October 14, 111; CECC, 
2015 Annual Report, 8 October 15, 166-67.
    \73\ See, e.g., ``On Eve of June Fourth, Beijing Scholars' Dinner 
Obstructed, Daughter of Xie Tao and Others `Under Guard' '' [Liusi 
qianxi beijing xueshe jucan shouzu xie tao zhi nu deng duo ren bei 
``shanggang''], Radio Free Asia, 20 May 16; ``China Clamps Down on 
Memorial Events Ahead of Tiananmen Crackdown Anniversary,'' Radio Free 
Asia, 26 May 16; ``As June Fourth Approaches, Many Places Strengthen 
Monitoring, Yu Shiwen Plans Hunger Strike Protest'' [Liusi linjin gedi 
jiaqiang jiankong yu shiwen ni jueshi kangyi], Radio Free Asia, 27 May 
16; Civil Rights & Livelihood Watch, ``As June Fourth Approaches, Sun 
Dongsheng, Li Xuehui Forced To Leave Beijing, Shanghai's Chen Baoliang 
Criminally Detained'' [Liusi linjin sun dongsheng, li xuehui bei po li 
jing shanghai chen baoliang bei xingju], 3 June 16; Rights Defense 
Network, ``Xu Yonghai: I Spent These Last Few Days Around June Fourth 
2016 in Soft Detention'' [Xu yonghai: wo zai ruanjin zhong duguo 2016 
nian liusi zhe ji tian], 6 June 16.
    \74\ ``Controls on Uyghur Villages, Mosques Continue Into New 
Year,'' Radio Free Asia, 6 January 16; Andrew Jacobs, ``Xinjiang 
Seethes Under Chinese Crackdown,'' New York Times, 2 January 16.
    \75\ Yao Tong, ``Xinjiang Introduces a Series of Initiatives To 
Resolve Outstanding Problems Among the Masses'' [Xinjiang chutai yi 
xilie jucuo jiejue qunzhong fanying tuchu wenti], Xinjiang Daily, 
reprinted in Tianshan Net, 30 March 16.
    \76\ Andrew Jacobs, ``Xinjiang Seethes Under Chinese Crackdown,'' 
New York Times, 2 January 16; Bai Tiantian, ``Xinjiang To End 
`Convenience Contact Cards,' '' Global Times, 31 March 16; CECC, 2014 
Annual Report, 9 October 14, 111.
    \77\ Tibetan Centre for Human Rights and Democracy, ``Mass 
Expulsion of Nuns and Land Grabbing in Tibet's Diru County,'' 13 
October 15; Tibetan Centre for Human Rights and Democracy, ``Document 
Exposes Intensification of State-Sanctioned Religious Repression in 
Troubled Tibetan County,'' 9 November 15. See also Bureau of Democracy, 
Human Rights and Labor, U.S. Department of State, ``Country Reports on 
Human Rights Practices for 2015: China (Includes Tibet, Hong Kong, and 
Macau),'' 13 April 16, 88.
    \78\ ``Tibetans in Chinese Provinces Blocked From Travel to Lhasa 
in March,'' Radio Free Asia, 24 March 16.

                                                Status of Women
                                                Status of Women

                            Status of Women


                          Public Participation


                        POLITICAL DECISIONMAKING

    The Chinese government is obligated under its international 
commitments \1\ and domestic laws \2\ to ensure gender-equal 
political participation; however, women continue to be 
underrepresented in political decisionmaking positions. Female 
representation remains low or non-existent in key Chinese 
Communist Party and government leadership positions.\3\ 
Overall, representation at upper and lower levels of government 
continues to fall short of the 30 percent target recommended by 
the UN Commission on the Status of Women.\4\

                       CIVIL SOCIETY AND ADVOCACY

    During the Commission's 2016 reporting year, the Chinese 
government restricted many women's rights advocates from 
providing services and engaging in activism, violating China's 
obligations under international standards.\5\ One prominent 
example was the closure, on February 1, 2016, of the Beijing 
Zhongze Women's Legal Counseling and Service Center (Zhongze), 
after government authorities reportedly ordered the 
organization to shut down.\6\ Founded in 1995, Zhongze focused 
on such issues as domestic violence, gender equality, and 
sexual harassment in the workplace, and had received widespread 
recognition and praise for its work, including from the Chinese 
government and state media.\7\ Observers viewed Zhongze's 
closure, which occurred amid an ongoing crackdown on non-
governmental organizations (NGOs), as a notable sign of the 
shrinking space for civil society in China.\8\
    The Chinese government continued to target individual 
women's rights advocates with criminal prosecution and other 
forms of harassment and intimidation. On July 9, 2015, at the 
onset of the Chinese government's nationwide crackdown on human 
rights lawyers and advocates,\9\ authorities took prominent 
female human rights lawyer Wang Yu into custody, and in January 
2016, formally arrested her on suspicion of ``subversion of 
state power.'' \10\ Wang worked on a wide range of rights 
issues, including the representation of Li Tingting, one of 
five women's rights advocates detained in the spring of 2015, 
and the women's rights activist Ye Haiyan (also known as 
Hooligan Sparrow).\11\ In early August 2016, reports emerged 
that authorities had released Wang Yu on bail, coinciding with 
the airing of a prerecorded confession that members of the 
Chinese human rights community believe was coerced.\12\ In 
April 2016, women's rights and democracy activist Su Changlan--
who has been in custody since October 2014--was put on trial in 
Foshan municipality, Guangdong province, for ``inciting 
subversion of state power.'' \13\ As of August 2016, 
authorities had not yet announced a verdict.\14\ The indictment 
issued in Su's case alleged that she had engaged in online 
``rumor-mongering'' and ``libel'' to ``attack the Chinese 
Communist Party and the socialist system.'' \15\
    As discussed in the Commission's 2015 Annual Report, in 
March 2015, Beijing municipal authorities criminally detained 
five women's rights advocates (also known as the Feminist Five) 
\16\ in connection with a planned anti-sexual harassment 
campaign. Following widespread domestic and international 
outcry, authorities released the five on bail in April 2015, 
and subjected them to restrictions on their movement and tight 
police surveillance.\17\ In April 2016, police lifted bail 
conditions for the women, but they are still considered 
suspects in an investigation for the crime of ``gathering a 
crowd to disturb order in a public place.'' \18\ Li Tingting, 
one of the five, described the environment for the feminist 
movement in China in late 2015 as being at an ``all-time low.'' 
\19\

                       Employment Discrimination

    China's labor laws require equal treatment of women in 
employment practices. The Chinese government is obligated to 
address discrimination in the workplace under its international 
commitments \20\ and domestic laws.\21\ Despite the legal 
framework prohibiting employment discrimination, a March 2016 
article in Xinhua stated that ``job discrimination against 
women still pervades Chinese society.'' \22\ According to the 
World Economic Forum's 2015 survey, women in China remained 
underrepresented in management positions \23\ and female 
employees earned 65 percent of male employees' earnings for 
similar work.\24\ The National People's Congress Committee on 
Finance and Economic Affairs noted at a November 2015 meeting 
that employment discrimination became ``increasingly serious in 
the wake of China's rapid economic development,'' and announced 
plans to draft legislation to address existing discrimination 
based on factors such as gender.\25\
    During this reporting year, employers in China continued to 
discriminate against women in recruiting, hiring, compensation, 
and other employment practices.\26\ Chinese law prohibits 
businesses from posting discriminatory advertisements for 
recruitment,\27\ but observers noted that weak enforcement 
enables employers to impose discriminatory conditions,\28\ and 
businesses continued to post advertisements specifying gender, 
personality, and physical appearance requirements.\29\
    More women are suing employers, or prospective employers, 
for gender-based discrimination.\30\ In what is believed to be 
the third gender-based employment discrimination legal case in 
China, and the first reported discrimination case against a 
state-owned enterprise to be heard in court, in November 2015, 
a court in Beijing municipality ruled for plaintiff Ma Hu 
(pseudonym) in her suit against the Beijing Postal Express and 
Logistics Co., Ltd.\31\--an affiliate of the national postal 
service China Post--finding that the defendant had refused to 
hire Ma because she was a woman.\32\ Ma had sought 57,570 yuan 
(US$8,653) in compensation and an apology, but the court only 
awarded her 2,000 yuan (US$300), and rejected her request for 
an apology.\33\ In August 2015, Gao Xiao (pseudonym), a female 
cook in Guangzhou municipality, Guangdong province, sued a 
local company for refusing to hire her for a chef's apprentice 
position because of her gender.\34\ After she filed suit, 
authorities threatened her and her landlord evicted her.\35\ In 
April 2016, a Guangzhou court ruled in her favor, but awarded 
her only 2,000 yuan in compensation.\36\ The Guangzhou 
Intermediate People's Court heard Gao's appeal of the ruling in 
August 2016.\37\ In June 2016, the Yuexiu District People's 
Court in Guangzhou heard an administrative suit Gao filed 
against the Guangzhou Human Resources and Social Security 
Bureau for failing to address workplace discrimination in the 
city.\38\
    Employment discrimination against women based on pregnancy 
continues to be a serious problem, despite laws protecting the 
rights of pregnant workers.\39\ Results from a survey of nearly 
1,000 female employees in government and private workplaces 
conducted by the Xicheng district, Beijing, branch of the All-
China Women's Federation and the Law Research Center for Women 
and Children indicated that over 52 percent of the respondents 
experienced discrimination when they were pregnant, on 
maternity leave, or breastfeeding, and as a result, suffered 
pay cuts, forced transfers, lost promotion and training 
opportunities, or were pressured to resign.\40\ In one such 
case, Yin Jing, a shopping mall counter manager in Beijing, was 
pushed out of her job in 2014 soon after she told her 
supervisor she was pregnant.\41\ In November 2015, a Beijing 
appeals court awarded Yin Jing 62,237 yuan (US$9,354) in 
compensation after she provided evidence that her employer knew 
she was pregnant when the company transferred her to a location 
three hours away and then fired her when she refused to 
transfer.\42\

                         Violence Against Women


                           DOMESTIC VIOLENCE

    The PRC Anti-Domestic Violence Law (Anti-DV Law) went into 
effect on March 1, 2016.\43\ The National People's Congress 
passed the legislation in December 2015 after more than a 
decade of advocacy and organizing by women's rights advocates 
and Chinese officials.\44\ Challenging the long-held view that 
domestic violence is a private ``family matter,'' the law 
requires police and courts to take action in cases of domestic 
violence.\45\ According to the All-China Women's Federation, 
nearly 25 percent of married Chinese women have experienced 
violence in their marriage.\46\
    Women's rights advocates celebrated the passage of the law 
but also expressed concerns.\47\ For example, advocates 
heralded a range of positive measures in the law, including 
that it applies to non-married, co-habiting partners in 
addition to married couples,\48\ and that the definition of 
domestic violence specifies both physical and psychological 
abuse.\49\ The law clarifies, moreover, a range of legal 
protections for victims, and requires public security officers 
to respond immediately to reports of domestic violence.\50\ 
Rights advocates, nevertheless, criticized the law for omitting 
two common forms of abuse--sexual violence and economic 
coercion--from the definition of domestic violence, and for the 
law's silence with respect to same-sex couples.\51\
    The Anti-DV Law authorizes courts to issue protection 
orders (also referred to as restraining orders) as stand-alone 
rulings to domestic violence victims or those facing a ``real 
danger'' (xianshi weixian) of domestic violence.\52\ The law 
stipulates that courts must rule on a protection order 
application within 72 hours, or within 24 hours in urgent 
situations.\53\ Such orders may include a variety of 
protections for the applicant, including requiring the abuser 
to move out of the residence.\54\

                       STATE-AUTHORIZED VIOLENCE

    Officials in China reportedly continued to use coercion and 
violence against women while implementing family planning 
policies, in contravention of international standards.\55\ The 
UN Committee against Torture (Committee) noted in the 
concluding observations following its November 2015 review of 
China's compliance with the Convention against Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment that 
it was ``concerned at reports of coerced sterilization and 
forced abortions.'' \56\ The Committee also expressed regret 
that the Chinese government had failed to provide information 
the Committee requested on investigations of such reports, as 
well as information on redress provided to past victims.\57\ 
[For more information, see Section II--Population Control.]
    During the course of the Committee's review, the Chinese 
government also failed to respond to questions posed by the 
Committee relating to reports of violence inflicted on women in 
``black jails,'' including the rape of Li Ruirui in 2009 and 
the suspicious deaths of Li Shulian in 2010 and Wang Delan in 
2013.\58\ The Chinese government similarly ignored the 
Committee's request for information about the cases of eight 
women who had been detained and abused at the Masanjia Women's 
Reeducation Through Labor Center in Yuhong district, Shenyang 
municipality, Liaoning province, and whom authorities 
subsequently imprisoned in 2014 after the women attempted to 
seek justice.\59\ [For more information on ``black jails'' and 
other forms of arbitrary detention, see Section II--Criminal 
Justice.]

                                                Status of Women
                                                Status of Women
    Notes to Section II--Status of Women

    \1\ Convention on the Elimination of All Forms of Discrimination 
against Women (CEDAW), adopted by UN General Assembly resolution 34/180 
of 18 December 79, entry into force 3 September 81, art. 7. Under 
Article 7(b) of CEDAW, China, as a State Party, is obligated to 
``ensure to women, on equal terms with men,'' the right ``[t]o 
participate in the formulation of government policy and the 
implementation thereof and to hold public office and perform all public 
functions at all levels of government[.]'' United Nations Treaty 
Collection, Chapter IV, Human Rights, Convention on the Elimination of 
All Forms of Discrimination against Women, last visited 13 July 16. 
China signed the convention on July 17, 1980, and ratified it on 
November 4, 1980, thereby committing to undertake the legal rights and 
obligations contained in these articles.
    \2\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 April 92, 
amended 28 August 05, effective 1 December 05, art. 11; PRC Electoral 
Law of the National People's Congress and Local People's Congresses 
[Zhonghua renmin gongheguo quanguo renmin daibiao dahui he difang geji 
renmin daibiao dahui xuanju fa], passed 1 July 79, amended 10 December 
82, 2 December 86, 28 February 95, 27 October 04, 14 March 10, art. 6. 
Both of these laws stipulate that an ``appropriate number'' of female 
deputies should serve at all levels of people's congresses.
    \3\ ``China Political Leaders'' [Zhongguo zhengyao], People's 
Daily, Chinese Communist Party News, last visited 20 July 16; ``Chinese 
Communist Party 17th Congress Central Leadership Organization Members'' 
[Zhongguo gongchandang di shiqi jie zhongyang lingdao jigou chengyuan], 
China Internet Information Center, last visited 13 July 16. Within 
Party leadership, only 2 of the 25 members of the Political Bureau of 
the Communist Party Central Committee (Politburo) are women, and there 
are no women among the 7 members of the Politburo Standing Committee--
the most powerful governing body in China. There are no women serving 
as Party secretaries at the provincial level. In government leadership, 
women hold 2 out of 25 national-level ministerial positions and 2 out 
of 31 governorships of provinces, provincial-level municipalities, and 
special autonomous regions (1 of the 2 female governors has 
provisional, or ``acting,'' status as of July 2016). In the 12th 
National People's Congress, which began in 2013, women held 699 out of 
the 2,987 seats (23.4 percent). Women's Studies Institute of China, 
``The Shadow Report of Chinese Women's NGOs on the Combined Seventh and 
Eighth Periodic Report Submitted by China Under Article 19 of the 
Convention on the Elimination of All Forms of Discrimination against 
Women: Temporary Special Measures and the Political and Public Life 
(Article 4 & 7),'' September 2014, 1-2. For more information on female 
members of the Politburo since 1945, see CECC, 2015 Annual Report, 8 
October 15, 176, endnote 5.
    \4\ Women's Studies Institute of China, ``The Shadow Report of 
Chinese Women's NGOs on the Combined Seventh and Eighth Periodic Report 
Submitted by China Under Article 19 of the Convention on the 
Elimination of All Forms of Discrimination against Women: Temporary 
Special Measures and the Political and Public Life (Article 4 & 7),'' 
September 2014, 1-2. Women made up 23.4 percent of the 12th National 
People's Congress and 22.6 percent of all village committee members. 
Permanent Mission of the People's Republic of China to the UN, 
``Introductory Statement by H.E. Mme. Song Xiuyuan, Head of the Chinese 
Delegation, Consideration of China's Combined Seventh and Eighth 
Periodic Reports by the Committee on the Elimination of Discrimination 
against Women,'' 23 October 14, sec. 3. The target of 30 percent female 
representation in leadership positions by 1995 was recommended by the 
UN Commission on the Status of Women at its 34th session in 1990. 
``Target: 30 Percent of Leadership Positions to Women by 1995--United 
Nations Commission on the Status of Women,'' UN Chronicle, Vol. 27, No. 
2, June 1990.
    \5\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
20(1); International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, arts. 21, 22(1); United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Civil and Political Rights, last visited 14 July 16. China has signed 
but not ratified the ICCPR.
    \6\ Rights Defense Network, ``Authorities Force China Women's 
Rights NGO `Zhongze Women's Legal Counseling and Service Center' To 
Shut Down'' [Zhongguo nuquan NGO ``zhongze funu falu zixun fuwu 
zhongxin'' zao dangju qiangpo xuangao jiesan], 29 January 16. See also 
Yaxue Cao, ``Guo Jianmei, Zhongze, and the Empowerment of Women in 
China,'' China Change, 14 February 16.
    \7\ Yaxue Cao, ``Guo Jianmei, Zhongze, and the Empowerment of Women 
in China,'' China Change, 14 February 16; Didi Kirsten Tatlow, ``China 
Is Said To Force Closing of Women's Legal Aid Center,'' New York Times, 
Sinosphere (blog), 29 January 16.
    \8\ Rights Defense Network, ``Authorities Force China Women's 
Rights NGO `Zhongze Women's Legal Counseling and Service Center' To 
Shut Down'' [Zhongguo nuquan NGO ``zhongze funu falu zixun fuwu 
zhongxin'' zao dangju qiangpo xuangao jiesan], 29 January 16; Didi 
Kirsten Tatlow, ``China Is Said To Force Closing of Women's Legal Aid 
Center,'' New York Times, Sinosphere (blog), 29 January 16. See also 
Yaxue Cao, ``Guo Jianmei, Zhongze, and the Empowerment of Women in 
China,'' China Change, 14 February 16.
    \9\ American Bar Association, ``Chinese Lawyer Wang Yu To Receive 
Inaugural ABA International Human Rights Award,'' 8 July 16. For more 
information on Wang Yu, see the Commission's Political Prisoner 
Database record 2015-00252. For further information about the crackdown 
on rights lawyers and advocates that began in and around July 2015, see 
CECC, 2015 Annual Report, 8 October 15, 272.
    \10\ Human Rights Watch, ``Arrests Reflect Xi Jinping's Broader 
Repression of Rights Activism,'' 14 January 16.
    \11\ Chris Buckley, ``China Arrests Rights Lawyer and Her Husband 
on Subversion Charges,'' New York Times, 13 January 16; ``A Human 
Rights Film China Wants Canned,'' Agence France-Presse, reprinted in 
Straits Times, 9 June 16. For more information on Li Tingting, see the 
Commission's Political Prisoner Database record 2015-00116.
    \12\ Emily Rauhala, ``Jailed Chinese Lawyer Reappears To Deliver a 
`Confession,' but the Script Seems Familiar,'' Washington Post, 1 
August 16; ``China Releases Prominent Human Rights Lawyer on Bail,'' 
Associated Press, reprinted in New York Times, 1 August 16; Josh Chin, 
``Chinese Activist Wang Yu Seen `Confessing' in Video,'' Wall Street 
Journal, 1 August 16. See also American Bar Association, ``Chinese 
Lawyer Wang Yu To Receive Inaugural ABA International Human Rights 
Award,'' 8 July 16.
    \13\ Human Rights Campaign in China, ``For Four Essays, Foshan's Su 
Changlan To Be Tried April 21 for Inciting Subversion of State Power'' 
[Yi si pian wenzhang wei you bei shandong dianfu guojia zhengquan zui 
qisu de foshan su changlan an jiang yu 4 yue 21 ri kaiting shenli], 19 
April 16. For more information on Su Changlan, see the Commission's 
Political Prisoner Database record 2014-00406.
    \14\ ``Trials Postponed Again for Foshan Rights Defenders Su 
Changlan, Chen Qitang'' [Foshan weiquan renshi su changlan, chen qitang 
shenxun zai bei yanqi], Radio Free Asia, 10 August 16.
    \15\ Human Rights Campaign in China, ``For Four Essays, Foshan's Su 
Changlan To Be Tried April 21 for Inciting Subversion of State Power'' 
[Yi si pian wenzhang wei you bei shandong dianfu guojia zhengquan zui 
qisu de foshan su changlan an jiang yu 4 yue 21 ri kaiting shenli], 19 
April 16.
    \16\ Amid the domestic and international outcry for the release of 
the five women's rights advocates, ``Feminist Five'' emerged as a label 
and social media hashtag to identify them. See, e.g., ``Before 
International Women's Day, Feminist Five and Their Lawyers Are Called 
in by Police,'' China Change, 6 March 16; ``Chinese Police Step Up 
Pressure on Feminist Five,'' Radio Free Asia, 23 September 15.
    \17\ ``One Year On, China's Five Feminists Remain Under Tight 
Surveillance,'' Radio Free Asia, 1 March 16.
    \18\ Didi Kirsten Tatlow, ``Police Remove Bail Conditions on 5 
Chinese Feminists Detained Last Year,'' New York Times, Sinosphere 
(blog), 13 April 16; ``One Year On, China's Five Feminists Remain Under 
Tight Surveillance,'' Radio Free Asia, 1 March 16; Human Rights in 
China, ``Supporting Women's Rights in China,'' 14 April 16; CECC, 2015 
Annual Report, 8 October 15, 173. For more information on the ``five 
feminists,'' see the Commission's Political Prisoner Database records 
2015-00114 on Wei Tingting, 2015-00115 on Wang Man, 2015-00116 on Li 
Tingting, 2015-00117 on Wu Rongrong, and 2015-00118 on Zheng Churan.
    \19\ Philip Wen, ``China's Few Defiant Feminists Jailed, Harassed, 
Watched,'' Sydney Morning Herald, 12 December 15.
    \20\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted by UN General Assembly resolution 34/180 of 18 
December 79, entry into force 3 September 81, art. 11(1); United 
Nations Treaty Collection, Chapter IV, Human Rights, Convention on the 
Elimination of All Forms of Discrimination against Women, last visited 
3 August 16. China signed the convention on July 17, 1980, and ratified 
it on November 4, 1980. International Covenant on Economic, Social and 
Cultural Rights (ICESCR), adopted by UN General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 3 January 76, art. 7; 
United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Economic, Social and Cultural Rights, last 
visited 14 July 16. China signed the ICESCR on October 27, 1997, and 
ratified it on March 27, 2001.
    \21\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 48; PRC Labor Law 
[Zhongghua renmin gongheguo laodong fa], passed 5 July 94, effective 1 
January 95, art. 13; PRC Law on the Protection of Women's Rights and 
Interests [Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 
April 92, amended 28 August 05, effective 1 December 05, art. 2.
    \22\ ``Discrimination Against Pregnant Woman Riles Netizens,'' 
Xinhua, reprinted in China Daily, 5 March 16.
    \23\ World Economic Forum, ``The Global Gender Gap Report 2015: 
China,'' 18 November 15. Eighteen percent of firms have women in senior 
management positions, according to the World Economic Forum Global 
Gender Gap Report.
    \24\ Ibid.
    \25\ ``NPC Deputies Recommended the Development of an Employment 
Anti-Discrimination Law To Improve Mechanisms for Protecting Equal 
Employment Rights'' [Renda daibiao jianyi zhiding fan jiuye qishi fa, 
wanshan pingdeng jiuye quan baozhang jizhi], China Internet Information 
Center, 4 November 15.
    \26\ ``Discrimination Against Pregnant Woman Riles Netizens,'' 
Xinhua, reprinted in China Daily, 5 March 16; ``Women Complain About 
Gender Discrimination in Workplace,'' China Daily, 8 March 16; 
``Catalyst Quick Take: Women in the Workforce: China,'' Catalyst, 8 
July 16. See also CECC, 2015 Annual Report, 8 October 15, 173.
    \27\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, arts. 12, 13. Gender-based 
discrimination against employees or applicants for employment is 
prohibited under Articles 12 and 13 of the PRC Labor Law. See also 
Ministry of Human Resources and Social Security, Decision Regarding 
Revising ``PRC Employment Services and Employment Management 
Regulations'' [Guanyu xiugai ``jiuye fuwu yu jiuye guanli guiding'' de 
jueding], issued 29 December 14, effective 1 February 15, arts. 20, 58.
    \28\ ``Building a Society With Equal Employment for Women,'' Sina, 
translated in Women of China, 6 February 15; China Labour Bulletin, 
``Workplace Discrimination,'' last visited 5 August 16; Jonathan 
Kaiman, ``In China, Feminism Is Growing--And So Is the Backlash,'' Los 
Angeles Times, 15 June 16.
    \29\ ``Chinese Activists Probe Colleges Over Sexist Job Adverts,'' 
Radio Free Asia, 31 March 16; China Labour Bulletin, ``Workplace 
Discrimination,'' last visited 5 August 16; Luo Wangshu, ``Woman Sues 
Logistics Firm for Discrimination,'' China Daily, 29 September 15; 
``Women Complain About Gender Discrimination in Workplace,'' China 
Daily, 8 March 16; Mao Kaiyun, `` `Already Nourished' Becomes the 
Standard To Measure Suspected Employment Discrimination'' [``Yiyu'' 
cheng jiuye fama shexian qishi], Beijing Morning Post, reprinted in 
Sina, 8 March 16.
    \30\ China Labour Bulletin, ``Workplace Discrimination,'' last 
visited 5 August 16.
    \31\ Nuquan Zhi Sheng (genderinchina), ``She Was the First Woman To 
Sue a State-Owned Enterprise for Gender-Based Employment 
Discrimination, Then Won'' [Ta shi zhongguo di yi ge zhuanggao guoqi 
jiuye xingbie qishi de nusheng, ranhou ying le], Weibo post, 3 November 
15, 10:59 a.m.; Maria Siow, ``Gender Discrimination Lawsuit in China 
Creates Buzz Among Activists,'' Channel NewsAsia, 20 September 15; Luo 
Wangshu, ``Woman Sues Logistics Firm for Discrimination,'' China Daily, 
29 September 15.
    \32\ Nuquan Zhi Sheng (genderinchina), ``She Was the First Woman To 
Sue a State-Owned Enterprise for Gender-Based Employment 
Discrimination, Then Won'' [Ta shi zhongguo di yi ge zhuanggao guoqi 
jiuye xingbie qishi de nusheng, ranhou ying le], Weibo post, 3 November 
15, 10:59 a.m.; Maria Siow, ``Gender Discrimination Lawsuit in China 
Creates Buzz Among Activists,'' Channel NewsAsia, 20 September 15; 
``Waiting for Verdict in China Gender-Based Employment Discrimination 
Case'' [Zhongguo jiuye xingbie qishi an dengdai fayuan panjue], Radio 
Free Asia, 25 September 15; China Labour Bulletin, ``Workplace 
Discrimination,'' last visited 5 August 16.
    \33\ Nuquan Zhi Sheng (genderinchina), ``She Was the First Woman To 
Sue a State-Owned Enterprise for Gender-Based Employment 
Discrimination, Then Won'' [Ta shi zhongguo di yi ge zhuanggao guoqi 
jiuye xingbie qishi de nusheng, ranhou ying le], Weibo post, 3 November 
15, 10:59 a.m.; China Labour Bulletin, ``Workplace Discrimination,'' 
last visited 5 August 16.
    \34\ Lin Jie, ``Woman Rejected for Kitchen Apprenticeship Due to 
Gender'' [Yi nusheng yingpin chufang xuetu yin xingbie zao ju], China 
Youth Daily, reprinted in People's Daily, 18 September 15; Jonathan 
Kaiman, ``In China, Feminism Is Growing--And So Is the Backlash,'' Los 
Angeles Times, 15 June 16.
    \35\ Jonathan Kaiman, ``In China, Feminism Is Growing--And So Is 
the Backlash,'' Los Angeles Times, 15 June 16.
    \36\ Ibid.
    \37\ China Labour Bulletin, ``Guangzhou Chef Goes to Court Again in 
Gender Discrimination Battle,'' 22 August 16.
    \38\ Ibid.
    \39\ ``Women Complain About Gender Discrimination in Workplace,'' 
China Daily, 8 March 16; China Labour Bulletin, ``Workplace 
Discrimination,'' last visited 5 August 16; China Labour Bulletin, 
``Pregnant Women Workers Struggle To Defend Their Rights in China's 
Factories,'' 1 December 15; ``Discrimination Against Pregnant Woman 
Riles Netizens,'' Xinhua, reprinted in China Daily, 5 March 16; 
``Gender Inequality Still Exists in the Workplace,'' China Women's 
News, reprinted in Women of China, 3 August 16; PRC Law on the 
Protection of Women's Rights and Interests [Zhonghua renmin gongheguo 
funu quanyi baozhang fa], passed 3 April 92, amended 28 August 05, 
effective 1 December 05, art. 27. An employer may not rescind the labor 
contract of an employee during ``pregnancy, childbirth, or while 
nursing.'' PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 
5 July 94, effective 1 January 95, art. 29(3).
    \40\ ``Gender Inequality Still Exists in the Workplace,'' China 
Women's News, reprinted in Women of China, 3 August 16.
    \41\ China Labour Bulletin, ``Pregnant Women Workers Struggle To 
Defend Their Rights in China's Factories,'' 1 December 15; China Labour 
Bulletin, ``Workplace Discrimination,'' last visited 5 July 16.
    \42\ Ibid.
    \43\ PRC Anti-Domestic Violence Law [Zhonghua renmin gongheguo fan 
jiating baoli fa], passed 27 December 15, effective 1 March 16.
    \44\ ``Legislators Approve China's First Law Against Domestic 
Violence,'' Xinhua, 27 December 15; ``China's Domestic Violence Law 
Gets Mixed Reception,'' Voice of America, 29 December 15; Wang 
Xiaodong, ``Law To Get Tough on Domestic Violence,'' China Daily, 5 
March 15; Robin Runge, ``Operating in a Narrow Space To Effect Change: 
Development of a Legal System Response to Domestic Violence in China,'' 
in Comparative Perspectives on Gender Violence: Lessons From Efforts 
Worldwide, eds. Rashmi Goel and Leigh Goodmark (Oxford: Oxford 
University Press, 2015), 31. In her essay detailing the advocacy 
efforts and challenges leading up to the final adoption of the PRC 
Anti-Domestic Violence Law, Robin Runge notes that anti-domestic 
violence advocates and women's rights scholars in China have been 
advocating for the past 25 years for the Chinese government to 
recognize domestic violence as a crime in both law and policy. For more 
background regarding the drafting of the law, see also CECC, 2015 
Annual Report, 8 October 15, 174-75.
    \45\ PRC Anti-Domestic Violence Law [Zhonghua renmin gongheguo fan 
jiating baoli fa], passed 27 December 15, effective 1 March 16, arts. 
15, 23; ``China Exclusive: China's Anti-Domestic Violence Laws To 
Protect Wives,'' Xinhua, 30 December 15; China Law Translate, ``Thicker 
Than Water: An Overview of China's New Domestic Violence Law,'' 31 
December 15.
    \46\ ``China Exclusive: China's Anti-Domestic Violence Laws To 
Protect Wives,'' Xinhua, 30 December 15; Emily Rauhala, ``Domestic 
Abuse Is Thriving in China's Culture of Silence,'' Washington Post, 2 
May 16. According to the All-China Women's Federation, only a fraction 
of abused wives report domestic violence.
    \47\ Emily Rauhala, ``China's Domestic Violence Law Is a Victory 
for Feminists. But They Say It Doesn't Go Far Enough,'' Washington 
Post, 29 December 15; ``China's Domestic Violence Law Gets Mixed 
Reception,'' Voice of America, 29 December 15; ``Activists Welcome 
China's 1st Domestic Violence Law,'' Associated Press, 28 December 15; 
``China's First Anti-Domestic Violence Law Is Formally Unveiled'' 
[Zhongguo shoubu fan jiabao fa zhengshi chutai], Radio Free Asia, 28 
December 15.
    \48\ Emily Rauhala, ``China's Domestic Violence Law Is a Victory 
for Feminists. But They Say It Doesn't Go Far Enough,'' Washington 
Post, 29 December 15; ``China's Domestic Violence Law Gets Mixed 
Reception,'' Voice of America, 29 December 15; ``China's First Anti-
Domestic Violence Law Is Formally Unveiled'' [Zhongguo shoubu fan 
jiabao fa zhengshi chutai], Radio Free Asia, 28 December 15; PRC Anti-
Domestic Violence Law [Zhonghua renmin gongheguo fan jiating baoli fa], 
passed 27 December 15, effective 1 March 16, arts. 2, 37.
    \49\ ``Activists Welcome China's 1st Domestic Violence Law,'' 
Associated Press, 28 December 15; PRC Anti-Domestic Violence Law 
[Zhonghua renmin gongheguo fan jiating baoli fa], passed 27 December 
15, effective 1 March 16 art. 2.
    \50\ ``China Exclusive: China's Anti-Domestic Violence Laws To 
Protect Wives,'' Xinhua, 30 December 15; ``China's First Anti-Domestic 
Violence Law Is Formally Unveiled'' [Zhongguo shoubu fan jiabao fa 
zhengshi chutai], Radio Free Asia, 28 December 15; PRC Anti-Domestic 
Violence Law [Zhonghua renmin gongheguo fan jiating baoli fa], passed 
27 December 15, effective 1 March 16, arts. 2, 13, 15-17, 19, 23-32, 
37.
    \51\ Emily Rauhala, ``China's Domestic Violence Law Is a Victory 
for Feminists. But They Say It Doesn't Go Far Enough,'' Washington 
Post, 29 December 15; ``China's Domestic Violence Law Gets Mixed 
Reception,'' Voice of America, 29 December 15; ``China's First Anti-
Domestic Violence Law Is Formally Unveiled'' [Zhongguo shoubu fan 
jiabao fa zhengshi chutai], Radio Free Asia, 28 December 15; 
``Activists Welcome China's 1st Domestic Violence Law,'' Associated 
Press, 28 December 15; PRC Anti-Domestic Violence Law [Zhonghua renmin 
gongheguo fan jiating baoli fa], passed 27 December 15, effective 1 
March 16.
    \52\ PRC Anti-Domestic Violence Law [Zhonghua renmin gongheguo fan 
jiating baoli fa], passed 27 December 15, effective 1 March 16, arts. 
23, 28; China Law Translate, ``Thicker Than Water: An Overview of 
China's New Domestic Violence Law,'' 31 December 15.
    \53\ PRC Anti-Domestic Violence Law [Zhonghua renmin gongheguo fan 
jiating baoli fa], passed 27 December 15, effective 1 March 16, art. 
28; ``Activists Welcome China's 1st Domestic Violence Law,'' Associated 
Press, 28 December 15.
    \54\ PRC Anti-Domestic Violence Law [Zhonghua renmin gongheguo fan 
jiating baoli fa], passed 27 December 15, effective 1 March 16, art. 
29; China Law Translate, ``Thicker Than Water: An Overview of China's 
New Domestic Violence Law,'' 31 December 15.
    \55\ Beijing Declaration and Platform for Action, adopted at the 
Fourth World Conference on Women on 27 October 95, and endorsed by UN 
General Assembly resolution 50/203 on 22 December 95, paras. 115, 
124(b); UN Women, Convention on the Elimination of All Forms of 
Discrimination against Women, General Recommendations Made by the 
Committee on the Elimination of Discrimination against Women, last 
visited 24 June 16, General Recommendation No. 19 (11th Session, 1992), 
paras. 22, 24(m); General Recommendation No. 21 (13th Session, 1994), 
paras. 21-23.
    \56\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 51.
    \57\ Ibid., paras. 51, 52.
    \58\ UN Committee against Torture, List of Issues in Relation to 
the Fifth Periodic Report of China, adopted by the Committee at its 
54th Session (20 April-15 May 2015), CAT/C/CHN/Q/5/Add.1, 15 June 15, 
paras. 17(a), 18; Chinese Human Rights Defenders, ``CHRD and Coalition 
of NGOs Information Submission to the UN Committee Against Torture for 
Consideration in List of Issues--February 2015,'' 9 February 15, paras. 
8(b) (including endnote 16), 14(a). For background on the types of 
abuse female detainees face in black jails, see Chinese Human Rights 
Defenders, `` `We Can Beat You to Death With Impunity': Secret 
Detention & Abuse of Women in China's `Black Jails,' '' October 2014, 
1, 8-16.
    \59\ UN Committee against Torture, List of Issues in Relation to 
the Fifth Periodic Report of China, adopted by the Committee at its 
54th Session (20 April-15 May 2015), CAT/C/CHN/Q/5/Add.1, 15 June 15, 
para. 17(a); Chinese Human Rights Defenders, ``CHRD and Coalition of 
NGOs Information Submission to the UN Committee Against Torture for 
Consideration in List of Issues--February 2015,'' 9 February 15, para. 
8(b) (including endnote 16). For more information on the eight former 
detainees of the Masanjia Women's Reeducation Through Labor (RTL) 
Center who were subsequently imprisoned, see the following records in 
the Commission's Political Prisoner Database: 2015-00307 on Shi Junmei, 
2015-00347 on Su Dezhen, 2015-00348 on Sun Rongyou, 2015-00349 on Zhao 
Lifen, 2015-00350 on Shi Guiying, 2015-00351 on Zhong Shujuan, 2015-
00352 on Zhu Jianyun, and 2015-0353 on Li Li. For more information on 
Masanjia and the RTL system, see CECC, ``Special Topic Paper: Prospects 
for Reforming China's Reeducation Through Labor System,'' 9 May 13.

                                                         Human 
                                                    Trafficking
                                                Human 
                                                Trafficking

                           Human Trafficking


                        Trends and Developments

    During the Commission's 2016 reporting year, China remained 
a country of origin \1\ and destination \2\ for the trafficking 
of men, women, and children, as defined under the UN Protocol 
to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children (UN TIP Protocol).\3\ According 
to United Nations Action for Cooperation against Trafficking in 
Persons (UN-ACT), men, women, and children reportedly were 
trafficked within China's borders for forced labor, forced 
marriage, and sexual exploitation.\4\ UN-ACT specifically 
highlighted the problems of forced marriage as well as forced 
begging and street performing in China.\5\ In addition to 
domestic human trafficking,\6\ cross-border trafficking was a 
significant concern.\7\ The International Organization for 
Migration (IOM) and International Labour Organization (ILO) 
reported that international criminal networks were driving an 
increase in human trafficking of Chinese nationals, 
particularly women, to Southeast Asia, Europe, and Africa.\8\ 
UN-ACT also reported that anecdotal evidence pointed to an 
increase in cross-border trafficking from China to Southeast 
Asia.\9\ The Commission observed media reports of an increase 
in the trafficking of women from Burma (Myanmar), Cambodia, 
Vietnam, and Nepal to China for forced marriage or sexual 
exploitation.\10\
    Experts noted a dearth of accurate statistics on the scale 
of human trafficking in the region due to a variety of factors, 
including the hidden and often disorganized nature of the 
crime, governments' collusion with human traffickers, confusion 
over the definition of human trafficking, and the use of 
problematic methodologies in data collection.\11\

             FORCED LABOR AND NORTH KOREAN WORKERS IN CHINA

    This past year, the Commission observed reports of North 
Korean laborers in China working under conditions experts 
described as forced or slave labor.\12\ According to a 
September 2015 report by Marzuki Darusman, the United Nations 
Special Rapporteur on the situation of human rights in the 
Democratic People's Republic of Korea (DPRK), in recent years 
the DPRK government sent over 50,000 North Korean nationals to 
work abroad in conditions that ``amount[ed] to forced labor.'' 
\13\ The Asan Institute for Policy Studies estimated in 2013 
that 19,000 such workers were in China.\14\ According to Greg 
Scarlatoiu, Executive Director of the Committee for Human 
Rights in North Korea, the overseas workers earned between 
US$150 and US$230 million per year for the DPRK government.\15\ 
North Korean workers reportedly worked long hours in 
substandard conditions for low pay, and in some cases workers 
received no pay.\16\ According to the UN report, DPRK security 
agents accompanied the workers abroad, restricted their freedom 
of movement, confiscated their passports, and subjected them to 
constant surveillance.\17\ The U.S. State Department and the UN 
TIP Protocol include forced labor within their respective 
definitions of human trafficking.\18\ [For more information on 
North Korean refugees and the risk of human trafficking, see 
Risk Factors in this section and Section II--North Korean 
Refugees in China.]

            FORCED LABOR IN ADMINISTRATIVE DETENTION CENTERS

    Although the Chinese government abolished the reeducation 
through labor (RTL) system in 2013,\19\ similar forms of 
arbitrary detention employing forced labor remain in place. The 
RTL system was a form of administrative punishment in which 
detainees were detained without trial \20\ and subjected to 
forced labor.\21\ RTL detainee labor constituted human 
trafficking as defined by the UN TIP Protocol.\22\ Following 
the abolition of RTL, authorities have reportedly continued to 
use similar forms of administrative detention, including 
``custody and education'' and compulsory drug 
detoxification,\23\ in which detainees perform forced 
labor.\24\ Zhang Sujun, Vice Minister of the Ministry of 
Justice, said in November 2014 that most RTL facilities were 
converted to compulsory drug detoxification centers,\25\ and in 
June 2015 he reported that the number of individuals held in 
detoxification centers had increased by about 29 percent 
compared to the previous year.\26\ In February 2016, the China 
National Narcotics Control Commission (CNNCC) reported that 
although the number of drug users remained stable in 2015, the 
total number of individuals investigated and detained for drug 
use increased compared to 2014.\27\ CNNCC did not report the 
number of suspected drug users being held in compulsory drug 
detoxification centers.\28\

                              Risk Factors

    China's ongoing human trafficking problem stems from a 
variety of social, economic, and political factors. According 
to UN-ACT, internal migrant workers in China were vulnerable to 
being trafficked for forced labor.\29\ Migrant workers' 
children, often unable to migrate with their parents, were 
reportedly at risk for forced labor, forced marriage, and 
sexual exploitation.\30\ Individuals with disabilities were at 
risk for forced labor and forced begging.\31\ The IOM and ILO 
reported that poor rural women were vulnerable to trafficking 
from China to Southeast Asia, Europe, and Africa.\32\ Poverty 
and political instability contributed to human trafficking from 
Southeast Asia to China for forced labor and sexual 
exploitation.\33\
    North Korean refugees who escaped into China also remained 
at risk of human trafficking. The Chinese government continued 
to treat North Korean refugees as economic migrants, 
repatriating all undocumented North Korean migrants.\34\ 
Although border crossings have reportedly decreased in recent 
years,\35\ the majority of North Koreans who crossed the border 
into China were women, and their reliance on smugglers left 
them vulnerable to trafficking for forced marriage and sexual 
exploitation.\36\ A UN report noted that female North Korean 
workers sent to China were also at risk of sexual 
exploitation.\37\ [For more information, see Section II--North 
Korean Refugees in China.]
    China's sex ratio imbalance--exacerbated by government-
imposed birth limits and in keeping with a traditional bias for 
sons \38\--created a demand for marriageable women that may 
contribute to human trafficking for forced marriage and sexual 
exploitation.\39\ According to estimates by the National Bureau 
of Statistics of China, in 2015, China had 33.66 million more 
men than women.\40\ The official sex ratio at birth, while 
lower than previous years,\41\ remained high at approximately 
113.5 boys born for every 100 girls.\42\ According to 
demographers, a typical sex ratio at birth is within the range 
of 103 to 107 boys born for every 100 girls.\43\ In December 
2015, the Chinese government adjusted its population policy to 
allow all married couples to have two children.\44\ Experts 
disagreed over the extent to which this new policy would 
further reduce the sex ratio imbalance.\45\ [For more 
information on China's population policies, see Section II--
Population Control.]

                        Anti-Trafficking Efforts

    The Chinese government increased punishments for buyers of 
trafficked women and children under domestic law, but the 
number of human trafficking convictions fell. On November 1, 
2015, an amendment to the PRC Criminal Law took effect \46\ 
that included a change to Article 241 regarding buyers of 
trafficked women and children.\47\ Previously, buyers could 
avoid criminal liability if they did not harm the victim or 
prevent authorities from rescuing the victim.\48\ The amended 
law provides that buyers will face criminal liability,\49\ 
although they may receive lighter or reduced punishments.\50\ 
In March 2016, the Supreme People's Court announced that in 
2015, courts nationwide handled 853 human trafficking cases and 
convicted 1,362 individuals.\51\ This represented an almost 56-
percent decline in the number of cases and a nearly 63-percent 
decline in the number of convictions compared to 2010.\52\ [For 
information on how the definition of human trafficking under 
Chinese law contributes to the unreliability of government 
trafficking statistics, see Anti-Trafficking Challenges in this 
section.]
    During this reporting year, the Chinese government 
continued to participate in regional efforts to combat human 
trafficking. In November 2015, the governments of China and 
Cambodia drafted a Memorandum of Understanding to address the 
trafficking of Cambodian women to China for forced 
marriage.\53\ The Chinese government continued its involvement 
in the Coordinated Mekong Ministerial Initiative Against 
Trafficking (COMMIT),\54\ participating in a joint workshop of 
COMMIT and the Association of Southeast Asian Nations (ASEAN) 
in December 2015.\55\

                      Anti-Trafficking Challenges

    Although the PRC Criminal Law prohibits human 
trafficking,\56\ China's domestic legislation remains 
inconsistent with UN TIP Protocol standards.\57\ The UN TIP 
Protocol definition of human trafficking involves three 
components: the action of recruitment, transfer, harboring, or 
receipt of persons; the means of force, coercion, fraud, 
deception, or control; and ``the purpose of exploitation,'' 
including sexual exploitation or forced labor.\58\ The 
definition of trafficking under Chinese law \59\ does not 
clearly cover all forms of trafficking covered under Article 3 
of the UN TIP Protocol,\60\ such as certain types of non-
physical coercion \61\ or offenses against male victims.\62\ 
Although the China Action Plan to Combat Trafficking in Persons 
(2013-2020), issued by the State Council in January 2013, 
revised the Chinese term for trafficking to include all persons 
(guaimai renkou),\63\ the amended PRC Criminal Law, which took 
effect on November 1, 2015, referred to only women and children 
(guaimai funu ertong).\64\
    The PRC Criminal Law is also overly broad compared with the 
UN TIP Protocol in that its definition of trafficking includes 
the purchase or abduction of children for subsequent sale 
without specifying the end purpose of these actions.\65\ Under 
the UN TIP Protocol, illegal adoptions are considered 
trafficking only if the end purpose of the sale is 
exploitation, such as sexual exploitation or forced labor.\66\ 
According to the U.S. State Department, the inconsistencies 
between China's legal definition of human trafficking and 
international standards contributed to the unreliability of 
data in official reports and statistics on the number of 
trafficking cases China's criminal justice system handles.\67\

                               Hong Kong

    During the reporting year, Hong Kong was a destination for 
human trafficking, with migrant domestic workers particularly 
at risk of exploitation for forced labor.\68\ According to the 
Hong Kong Census and Statistics Department's 2015 annual 
digest, as of 2014, there were over 330,000 migrant domestic 
workers working in households in Hong Kong, the majority of 
whom came from the Philippines and Indonesia.\69\ In December 
2015, the UN Committee against Torture noted its concern ``over 
numerous reports of cases of exploitation of migrant domestic 
workers.'' \70\ In March 2016, the migrants' rights non-
governmental organization Justice Centre Hong Kong (JCHK) \71\ 
released findings from a survey of over 1,000 migrant domestic 
workers, finding that 17 percent of respondents were working 
under conditions of forced labor.\72\ JCHK also found that 66.3 
percent of respondents showed ``strong signs of exploitation'' 
such as excessive working hours.\73\
    The UN Committee against Torture as well as domestic and 
international non-governmental organizations expressed concern 
that Hong Kong's laws did not adequately address human 
trafficking.\74\ While China acceded to the UN TIP Protocol in 
2010, the Chinese central government has not extended the 
Protocol to apply to Hong Kong.\75\ Moreover, the definition of 
human trafficking in Hong Kong's Crimes Ordinance covered only 
the cross-border movement of persons ``for the purpose of 
prostitution,'' not forced labor or other forms of 
trafficking.\76\ The UN Committee against Torture and JCHK 
further noted that two regulations--requiring migrant domestic 
workers to live with their employers \77\ and to leave Hong 
Kong within two weeks of termination of a contract \78\--
contributed to migrants' risk of exploitation for forced 
labor.\79\
    In January 2016, one alleged victim of human trafficking 
challenged the Hong Kong government in court, arguing that Hong 
Kong's Bill of Rights Ordinance requires the Hong Kong 
government to enact stronger anti-trafficking legislation.\80\ 
The man who brought the legal challenge reportedly took a 
position in Hong Kong as a domestic worker, but his employer 
instead forced him to work in an office from 2007 to 2010.\81\ 
During this time, his employer and the employer's family 
physically abused him, withheld his passport, and refused to 
pay him.\82\ A labor tribunal reportedly awarded the man less 
than 15 percent of the HK$220,000 (US$28,000) he claimed the 
employer owed him.\83\ The Hong Kong High Court heard testimony 
about the case in January 2016.\84\ As of August 2016, the 
Commission had not observed any further information on the 
status of the legal challenge. [For more information on Hong 
Kong, see Section VI--Developments in Hong Kong and Macau.]

                                                         Human 
                                                    Trafficking
                                                Human 
                                                Trafficking
    Notes to Section II--Human Trafficking

    \1\ See, e.g., Office To Monitor and Combat Trafficking in Persons, 
U.S. Department of State, ``Trafficking in Persons Report,'' June 2016, 
130; International Organization for Migration and International Labour 
Organization, ``Overview: Project Activities Throughout the Year and 
the Way Forward,'' EU-China Dialogue on Migration and Mobility Support 
Project Newsletter, Issue 2, January 2016, 4; ``Brussels Warns That 
Mass Migration to EU May Exacerbate Human Trafficking,'' Deutsche 
Welle, 19 May 16.
    \2\ See, e.g., United Nations Office of Drugs and Crime, 
``Protecting Peace and Prosperity in Southeast Asia: Synchronizing 
Economic and Security Agendas,'' February 2016, 26; Taylor O'Connell 
and Ben Sokhean, ``Human Trafficking Up, Spurred by Migration,'' 
Cambodia Daily, 26 February 16; Pratichya Dulal, ``When Danger Lurks 
Close to One's Home,'' Kathmandu Post, 15 December 15.
    \3\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entered into force 
25 December 03, art. 3(a). This protocol is also commonly referred to 
as the Palermo Protocol because it was adopted in Palermo, Italy, in 
2000. China acceded to the Protocol on February 8, 2010. United Nations 
Treaty Collection, Chapter XVIII, Penal Matters, 12.a, Protocol to 
Prevent, Suppress and Punish Trafficking in Persons, Especially Women 
and Children, supplementing the United Nations Convention against 
Transnational Organized Crime, last visited 10 June 16. For information 
on how international standards regarding forced labor fit into the 
framework of the UN TIP Protocol, see International Labour 
Organization, International Labour Office, ``Human Trafficking and 
Forced Labour Exploitation: Guidance for Legislation and Law 
Enforcement,'' 2005, 10; International Labour Organization, 
International Labour Office, ``Hard To See, Harder To Count: Survey 
Guidelines To Estimate Forced Labour of Adults and Children,'' 2012, 
12, 19.
    \4\ ``China,'' United Nations Action for Cooperation against 
Trafficking in Persons (UN-ACT), last visited 15 April 16.
    \5\ Ibid.
    \6\ See, e.g., Jun Mai, ``Women Held in a China Pigsty To Be Sold 
as Brides by Trafficking Gang Had Mental Impairments,'' South China 
Morning Post, 15 October 15; Mimi Lau, ``Diary of a Sex Slave: Police 
Rescue 5 Girls, Including a 12-Year-Old, From Sex Ring in West China; 
Five More Still Missing,'' South China Morning Post, 2 November 15.
    \7\ See, e.g., International Organization for Migration and 
International Labour Organization, ``Overview: Project Activities 
Throughout the Year and the Way Forward,'' EU-China Dialogue on 
Migration and Mobility Support Project Newsletter, Issue 2, January 
2016, 4; ``China,'' United Nations Action for Cooperation against 
Trafficking in Persons (UN-ACT), last visited 15 April 16; Gopal 
Sharma, ``Rise in Nepali Women Trafficked to China, South Korea--Rights 
Commission,'' Thomson Reuters Foundation, 27 April 16.
    \8\ International Organization for Migration and International 
Labour Organization, ``Overview: Project Activities Throughout the Year 
and the Way Forward,'' EU-China Dialogue on Migration and Mobility 
Support Project Newsletter, Issue 2, January 2016, 4.
    \9\ ``China,'' United Nations Action for Cooperation against 
Trafficking in Persons (UN-ACT), last visited 15 April 16.
    \10\ Soe Maung and Swan Ye Htut, ``Police Colonel Addresses Child 
Abduction Rumours, Human Trafficking,'' Myanmar Times, 3 February 16; 
Saing Soenthrith and Aria Danaparamita, ``Trilateral Agreement Signed 
To Combat Human Trafficking,'' Cambodia Daily, 18 January 16; Taylor 
O'Connell and Ben Sokhean, ``Human Trafficking Up, Spurred by 
Migration,'' Cambodia Daily, 26 February 16; Lucy Nguyen, ``Vietnamese 
Woman Jumps Out of Car in China To Escape Human Traffickers,'' Thanh 
Nien News, 15 March 16; Gopal Sharma, ``Rise in Nepali Women Trafficked 
to China, South Korea--Rights Commission,'' Thomson Reuters Foundation, 
27 April 16.
    \11\ See, e.g., Jessie Brunner, East-West Center, ``Inaccurate 
Numbers, Inadequate Polices: Enhancing Data To Evaluate the Prevalence 
of Human Trafficking in ASEAN,'' 2015, vi-vii; Dan Southerland, 
``Progress in Fight Against Human Trafficking in Asia Hard To 
Measure,'' Radio Free Asia, 6 April 16; Janie A. Chuang, ``Exploitation 
Creep and the Unmaking of Human Trafficking Law,'' American Journal of 
International Law, Vol. 108, No. 4 (October 2014), 609-10; United 
Nations Action for Cooperation against Trafficking in Persons (UN-ACT), 
``UN-ACT Research Strategy: Vulnerabilities, Trends and Impact,'' 2015, 
1. For publication date of UN-ACT report, see United Nations Action for 
Cooperation against Trafficking in Persons (UN-ACT), ``Research,'' last 
visited 23 July 16.
    \12\ See, e.g., Michael Larkin, ``Interview: Behind North Korea's 
Use of `Slave Labor,''' The Diplomat, 8 October 15; Edith M. Lederer, 
``UN Investigator: North Koreans Doing Forced Labor Abroad,'' 
Associated Press, 28 October 15; ``North Koreans Endure `Forced Labor' 
in China To Earn Money for the Regime,'' Radio Free Asia, 6 November 
15.
    \13\ UN General Assembly, Situation of Human Rights in the 
Democratic People's Republic of Korea, A/70/362, 8 September 15, paras. 
24, 26. See also Shin Chang-Hoon and Go Myong-Hyun, Asan Institute for 
Policy Studies, ``Beyond the UN COI Report on Human Rights in DPRK,''11 
December 14, 21-30; International Network for the Human Rights of North 
Korean Overseas Labor, ``The Conditions of the North Korean Overseas 
Labor,'' December 2012, 19-21.
    \14\ Shin Chang-Hoon and Go Myong-Hyun, Asan Institute for Policy 
Studies, ``Beyond the UN COI Report on Human Rights in DPRK,'' 11 
December 14, 30.
    \15\ Michael Larkin, ``Interview: Behind North Korea's Use of 
`Slave Labor,''' The Diplomat, 8 October 15.
    \16\ Ibid.; Brian Padden, ``Activists Seek Better Conditions for 
North Korean Migrant Laborers,'' Voice of America, 23 December 15; 
``North Koreans Endure `Forced Labor' in China To Earn Money for the 
Regime,'' Radio Free Asia, 6 November 15; UN General Assembly, 
Situation of Human Rights in the Democratic People's Republic of Korea, 
A/70/362, 8 September 15, para. 27.
    \17\ UN General Assembly, Situation of Human Rights in the 
Democratic People's Republic of Korea, A/70/362, 8 September 15, para. 
27. See also Seol Song Ah, ``North Korean Restaurants in Dandong 
Failing To Pay Workers' Salaries,'' Daily NK, 28 March 16; Brian 
Padden, ``Activists Seek Better Conditions for North Korean Migrant 
Laborers,'' Voice of America, 23 December 15.
    \18\ U.S. Department of State, ``What Is Modern Slavery?'' last 
visited 11 April 16; UN Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, Supplementing 
the United Nations Convention against Transnational Organized Crime, 
adopted by General Assembly resolution 55/25 of 15 November 00, entered 
into force 25 December 03, art. 3(a). For information on how 
international standards regarding forced labor fit into the framework 
of the UN TIP Protocol, see International Labour Organization, 
International Labour Office, ``Human Trafficking and Forced Labour 
Exploitation: Guidance for Legislation and Law Enforcement,'' 2005, 7-
15; International Labour Organization, International Labour Office, 
``Hard To See, Harder To Count: Survey Guidelines To Estimate Forced 
Labour of Adults and Children,'' Second Edition, 2012, 12, 19.
    \19\ National People's Congress Standing Committee, Decision on 
Abolishing Laws and Regulations Regarding Reeducation Through Labor 
[Quanguo renmin daibiao dahui changwu weiyuanhui guanyu feizhi youguan 
laodong jiaoyang falu guiding de jueding], issued and effective, 28 
December 13; Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2016, 130.
    \20\ Amnesty International, ```Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' ASA 17/
042/2013, 17 December 13, 5; Human Rights Watch, ``China: Fully Abolish 
Re-Education Through Labor,'' 8 January 13; State Council, Decision on 
the Issue of Reeducation Through Labor [Guowuyuan guanyu laodong 
jiaoyang wenti de jueding], issued 3 August 57, item 3; State Council, 
Supplementary Provisions on Reeducation Through Labor [Guowuyuan guanyu 
laodong jiaoyang de buchong guiding], issued 29 November 79, items 1-2.
    \21\ Amnesty International, ```Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' ASA 17/
042/2013, 17 December 13, 17-18; Human Rights Watch, ``China: Fully 
Abolish Re-Education Through Labor,'' 8 January 13; State Council, 
Decision on the Issue of Reeducation Through Labor [Guowuyuan guanyu 
laodong jiaoyang wenti de jueding], issued 3 August 57, item 2.
    \22\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entered into force 
25 December 03, art. 3(a). Reeducation through labor (RTL) inmate labor 
can be viewed as constituting trafficking under Article 3(a) of the UN 
TIP Protocol, as RTL facility authorities engaged in the ``harbouring'' 
and ``receipt of persons, by means of the threat or use of force . . . 
for the purpose of exploitation.'' According to Article 3(a), 
exploitation includes ``forced labour.'' ILO Convention (No. 29) 
Concerning Forced or Compulsory Labour, 28 June 30, art. 2. Article 2.1 
of the Forced or Compulsory Labour Convention defines ``forced or 
compulsory labour'' as ``all work or service which is exacted from any 
person under the menace of any penalty and for which the said person 
has not offered himself voluntarily.'' Article 2.2(c) makes an 
exception for ``Any work or service extracted from any person as a 
consequence of a conviction in a court of law . . ..'' As RTL inmates 
were detained without trial, this exception did not apply. For more 
information on conditions RTL inmates faced, including ``the threat or 
use of force,'' see, e.g., Amnesty International, ```Changing the Soup 
but Not the Medicine?': Abolishing Re-Education Through Labour in 
China,'' ASA 17/042/2013, 17 December 13, 17-33; Human Rights Watch, 
``China: Fully Abolish Re-Education Through Labor,'' 8 January 13. See 
also Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2016, 130.
    \23\ Amnesty International, ``China: Submission to the United 
Nations Committee Against Torture,'' 28 October 15, 17; Alexandra 
Harney et al., ``U.S. Downplayed Evidence of Abuses in Chinese 
Detention Camps,'' Reuters, 30 December 15; Chi Yin and Jerome A. 
Cohen, ``Lack of Due Process Mars China's War on Drugs,'' East Asia 
Forum, 20 July 15; Huang Qi, 64 Tianwang, ``He Peng of Xichang, 
Sichuan, Escorted From Two Sessions, Sent to Drug Detoxification 
Center'' [Sichuan xichang he peng lianghui yafan song jiedusuo], 14 
March 16. For relevant legal provisions, see PRC Narcotics Law 
[Zhonghua renmin gongheguo jindu fa], passed 29 December 07, effective 
1 June 08, arts. 38, 41, 43, 47; State Council, Drug Detoxification 
Regulations [Jiedu tiaoli], issued 26 June 11; Ministry of Justice, 
Judicial and Administrative Bureaus Compulsory Drug Detoxification Work 
Regulations [Sifa xingzheng jiguan qiangzhi geli jiedu gongzuo gui-
ding], issued 3 April 13, effective 1 June 13; State Council, Measures 
on Custody and Education of Prostitutes [Maiyin piaochang renyuan 
shourong jiaoyu banfa], issued 4 September 93, amended 8 January 11.
    \24\ Ministry of Justice, Judicial and Administrative Bureaus 
Compulsory Drug Detoxification Work Regulations [Sifa xingzheng jiguan 
qiangzhi geli jiedu gongzuo guiding], issued 3 April 13, effective 1 
June 13, art. 43; Alexandra Harney et al., ``U.S. Downplayed Evidence 
of Abuses in Chinese Detention Camps,'' Reuters, 30 December 15. See 
also Human Rights Watch, ```Where Darkness Knows No Limits': 
Incarceration, Ill-Treatment, and Forced Labor as Drug Rehabilitation 
in China,'' January 2010, 27-31; Asia Catalyst, ```Custody and 
Education': Arbitrary Detention for Female Sex Workers in China,'' 
December 2013, 8, 25-27.
    \25\ Sun Ying, ``Ministry of Justice: Vast Majority of Nation's 
Former Reeducation Through Labor Centers Have Been Turned Into 
Compulsory Drug Detoxification Centers'' [Sifabu: quanguo jueda duoshu 
yuan laojiao changsuo zhuan wei qiangzhi geli jiedu changsuo], China 
National Radio, 5 November 14.
    \26\ Sun Chunying, ``Establish and Improve Judicial-Administrative 
Drug Detoxification System With Chinese Characteristics'' [Jianli he 
wanshan zhongguo tese sifa xingzheng jiedu zhidu], Legal Daily, 1 June 
15.
    \27\ China National Narcotics Control Commission, ``2015 Report on 
Narcotics Trends in China'' [2015 nian zhongguo dupin xingshi baogao], 
18 February 16, reprinted in China Narcotics Net, 18 February 16.
    \28\ Ibid.
    \29\ United Nations Action for Cooperation against Trafficking in 
Persons (UN-ACT), ``China,'' last visited 7 April 16.
    \30\ Lucy Hornby, ``FT Seasonal Appeal: China's Missing Children,'' 
Financial Times, 2 December 15.
    \31\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2016, 130; 
Supreme People's Procuratorate and China Disabled Persons' Federation, 
Opinion on Procuratorial Work To Ensure Protection of the Legal Rights 
and Interests of Persons With Disabilities [Guanyu zai jiancha gongzuo 
zhong qieshi weihu canji ren hefa quanyi de yijian], issued 8 December 
15, para. 4.
    \32\ International Organization for Migration and International 
Labour Organization, ``Overview: Project Activities Throughout the Year 
and the Way Forward,'' EU-China Dialogue on Migration and Mobility 
Support Project Newsletter, Issue 2, January 2016, 4.
    \33\ UN Office on Drugs and Crime, ``Protecting Peace and 
Prosperity in Southeast Asia: Synchronizing Economic and Security 
Agendas,'' February 2016, 21; Anemi Wick, ``Trafficked Vietnamese 
Brides'' [Bei guaimai de yuenan xinniang], Deutsche Welle, 13 February 
16; Andrew R.C. Marshall, ``Led by China, Mekong Nations Take on Golden 
Triangle Narco-Empire,'' Reuters, 15 March 16; Get It Right This Time: 
A Victims-Centered Trafficking in Persons Report, Hearing of the 
Subcommittee on Africa, Global Health, Global Human Rights, and 
International Organizations, Committee on Foreign Affairs, U.S. House 
of Representatives, 22 March 16, Testimony of Matthew Smith, Executive 
Director of Fortify Rights. See also United Nations Action for 
Cooperation against Trafficking in Persons (UN-ACT), ``COMMIT SOM/IMM 
Concluded,'' 5 May 15.
    \34\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
paras. 46-47; Human Rights Watch, ``World Report 2016: Events of 
2015,'' 2016, 430.
    \35\ Anna Fifield, ``Just About the Only Way To Escape North Korea 
Is if a Relative Has Already Escaped,'' Washington Post, 31 March 16; 
Human Rights Watch, ``North Korea--World Report 2016: Events of 2015,'' 
2016, 429-30; Chun Su-jin and Kim So-hee, ``More Elite Flee Though 
Pyongyang Tightens Up,'' Korea JoongAng Daily, 13 April 16.
    \36\ Elizabeth Shim, ``More North Korean Women Risking Arrest, 
Abuse To Sneak Into China for Work,'' United Press International, 19 
November 15; Human Rights Watch, ``World Report 2016: Events of 2015,'' 
2016, 429-30.
    \37\ UN General Assembly, Situation of Human Rights in the 
Democratic People's Republic of Korea, A/70/362, 8 September 15, para. 
42.
    \38\ Dan Southerland, ``Progress in Fight Against Human Trafficking 
in Asia Hard To Measure,'' Radio Free Asia, 6 April 16; Liberty Asia 
and Thomson Reuters Foundation, ``From Every Angle: Using the Law To 
Combat Human Trafficking in Southeast Asia,'' November 2014, 44; 
Population Reference Bureau, ``PRB Discuss Online: Will China Relax Its 
One-Child Policy? '' 22 February 11.
    \39\ Dan Southerland, ``Progress in Fight Against Human Trafficking 
in Asia Hard To Measure,'' Radio Free Asia, 6 April 16; Get It Right 
This Time: A Victims-Centered Trafficking in Persons Report, Hearing of 
the Subcommittee on Africa, Global Health, Global Human Rights, and 
International Organizations, Committee on Foreign Affairs, U.S. House 
of Representatives, 22 March 16, Testimony of Mark Lagon, President, 
Freedom House; Liberty Asia and Thomson Reuters Foundation, ``From 
Every Angle: Using the Law To Combat Human Trafficking in Southeast 
Asia,'' November 2014, 44.
    \40\ National Bureau of Statistics of China, ``2015 National 
Economy Steadily Progressing and Stable'' [2015 nian guomin jingji 
yunxin wen zhong you jin, wen zhong you hao], 19 January 16.
    \41\ Hu Hao, ``China's Sex Ratio at Birth Falls Sixth [Year] in a 
Row'' [Woguo chusheng renkou xingbie bi liu lian jiang], Xinhua, 4 
February 15; Chen Xianling, ``China's Sex Ratio Highest in the World, 
[In] 34 Years 30 Million `Extra' Men Born'' [Woguo xingbie bi pian gao 
shijie di yi 34 nian ``duo'' chu 3000 wan nanxing], Southern 
Metropolitan Daily, 11 February 15; ``China's Sex Ratio at Birth 
Declines 4 Years in a Row,'' Xinhua, 5 March 13.
    \42\ National Bureau of Statistics of China, ``2015 National 
Economy Steadily Progressing and Stable'' [2015 nian guomin jingji 
yunxin wen zhong you jin, wen zhong you hao], 19 January 16.
    \43\ See, e.g., UN Department of Economic and Social Affairs, ``The 
World's Women 2015: Trends and Statistics,'' 2015, 6; Christophe Z. 
Guilmoto, ``Skewed Sex Ratios at Birth and Future Marriage Squeeze in 
China and India, 2005-2100,'' Demography, Vol. 49 (2012), 77-78; Stuart 
Basten and Georgia Verropoulou, ```Maternity Migration' and the 
Increased Sex Ratio at Birth in Hong Kong SAR,'' Population Studies, 
Vol. 67, No. 3 (2013), 325; Population Control in China: State-
Sponsored Violence Against Women and Children, Hearing of the 
Congressional-Executive Commission on China, 30 April 15, Testimony of 
Dr. Nicholas Eberstadt, Henry Wendt Chair in Political Economy, 
American Enterprise Institute for Public Policy Research, 2.
    \44\ National People's Congress Standing Committee, Decision 
Regarding Amending the Population and Family Planning Law [Quanguo 
renda changweihui guanyu xiugai renkou yu jihua shengyu fa de jueding], 
issued 27 December 15.
    \45\ Shen Lu and Katie Hunt, ``China's One-Child Policy Goes but 
Heartache Remains,'' CNN, 31 December 15; ``Sex Ratio Imbalance in 
China Giving Many Men `Difficulty With Marriage''' [Zhongguo dalu nannu 
bili shiheng ling daliang nanxing ``hunpei nan''], Radio Free Asia, 19 
January 16; Dan Southerland, ``Progress in Fight Against Human 
Trafficking in Asia Hard To Measure,'' Radio Free Asia, 6 April 16.
    \46\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xing fa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15.
    \47\ Ibid., item 15.
    \48\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 241; International 
Organization for Migration and International Labour Organization, 
``Recent Migration-Related Policy Developments,'' EU-China Dialogue on 
Migration and Mobility Support Project Newsletter, Issue 2, January 
2016, 2.
    \49\ ``Xinhua Insight: Infant Trafficking Rooted in Poverty, 
Ignorance of Law,'' Xinhua, 24 January 16; ``It's a Crime, I Tell Ya: 
Major Changes in China's Criminal Law Amendment 9,'' China Law 
Translate (blog), 27 September 15; International Organization for 
Migration and International Labour Organization, ``Recent Migration-
Related Policy Developments,'' EU-China Dialogue on Migration and 
Mobility Support Project Newsletter, Issue 2, January 2016, 2; Chen 
Liping, ``Pointing Out Seven Major Highlights of the Criminal Law 
Amendment (Nine) Draft'' [Dianji xing fa xiuzheng'an (jiu) cao'an de qi 
da liangdian], Legal Daily, 28 October 14.
    \50\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xing fa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, item 15. This 
wording is slightly different from earlier drafts of the amendment. The 
first draft provided that buyers of trafficked women who did not 
prevent the women from returning home and buyers of children who had 
not harmed them could receive a light or reduced punishment, or be 
``exempt'' from punishment. The second draft provided that buyers could 
receive a light or reduced punishment in cases involving trafficked 
children, or be ``exempt'' from punishment in cases that involved 
trafficked women. National People's Congress Standing Committee, PRC 
Criminal Law Amendment (Nine) (Draft) [Zhonghua renmin gongheguo xing 
fa xiuzheng'an (jiu) (cao'an)], 3 November 14, item 13; National 
People's Congress Standing Committee, PRC Criminal Law Amendment (Nine) 
(Draft) (Second Reading) [Zhonghua renmin gongheguo xing fa xiuzheng'an 
(jiu) (cao'an) (er ci shenyi gao)], 6 July 15, item 15.
    \51\ Xu Jun, ``High Incidence of Trafficking in Women and Children 
Beginning To Be Contained'' [Guaimai funu ertong fanzui gaofa taishi 
chubu ezhi], People's Daily, 8 March 16.
    \52\ Ibid.
    \53\ Chhay Channyda, ``China-Kingdom MOU Targets Illicit Bride 
Market,'' 12 March 16; Caitlin Richards, United Nations Action for 
Cooperation against Trafficking in Persons (UN-ACT), ``Cambodia and 
China Partnering To Protect Vulnerable Migrant Women,'' UN-ACT (blog), 
10 December 15.
    \54\ Memorandum of Understanding on Cooperation against Trafficking 
in Persons in the Greater Mekong Sub-Region, signed 29 October 04, 
reprinted in UN Action for Cooperation against Trafficking in Persons, 
last visited 14 July 16. The six signatories to the MOU were Cambodia, 
China, Lao PDR, Burma (Myanmar), Thailand, and Vietnam.
    \55\ United Nations Action for Cooperation against Trafficking in 
Persons (UN-ACT), ``UN-ACT Project Updates,'' UN-ACT Newsletter, 
January 2016; ``Police To Attend Anti-Trafficking Meeting,'' Myanmar 
Times, 13 October 15.
    \56\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 240.
    \57\ Topics that need to be addressed in domestic legislation to 
bring it into compliance with the UN TIP Protocol include the 
protection and rehabilitation of victims of trafficking (see UN TIP 
Protocol, Article 6.3), the addition of non-physical forms of coercion 
into the legal definition of trafficking (see UN TIP Protocol, Article 
3(a)), and the trafficking of men (covered under the definition of 
``trafficking in persons'' in Article 3(a) of the UN TIP Protocol). See 
UN Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, Supplementing the United Nations 
Convention against Transnational Organized Crime, adopted by General 
Assembly resolution 55/25 of 15 November 00, entered into force 25 
December 03.
    \58\ United Nations Office on Drugs and Crime, ``What Is Human 
Trafficking?'' last visited 22 June 16; UN Protocol to Prevent, 
Suppress and Punish Trafficking in Persons, Especially Women and 
Children, Supplementing the United Nations Convention against 
Transnational Organized Crime (UN TIP Protocol), adopted by General 
Assembly resolution 55/25 of 15 November 00, entered into force 25 
December 03, art. 3(a, c, d). Note that for children under age 18, the 
means described in Article 3(a) are not required for an action to 
constitute human trafficking. For information on how international 
standards regarding forced labor fit into the framework of the UN TIP 
Protocol, see International Labour Office, International Labour 
Organization, ``Human Trafficking and Forced Labour Exploitation: 
Guidance for Legislation and Law Enforcement,'' 2005, 7-15; 
International Labour Office, International Labour Organization, ``Hard 
To See, Harder To Count: Survey Guidelines To Estimate Forced Labour of 
Adults and Children,'' Second Edition, 2012, 12, 19.
    \59\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 240. The PRC Criminal Law defines trafficking as 
``abducting, kidnapping, buying, trafficking in, fetching, sending, or 
transferring a woman or child, for the purpose of selling the victim.''
    \60\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by General Assembly resolution 55/25 of 15 November 
00, entered into force 25 December 03, art. 3(a). See also United 
Nations Office on Drugs and Crime, ``What Is Human Trafficking?'' last 
visited 22 June 16.
    \61\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, arts. 240, 244, 358. For additional information on this 
topic, see Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' 19 June 13, 
130. According to this report, ``it remains unclear whether [articles 
240, 244, and 358] have prohibited the use of common non-physical forms 
of coercion, such as threats of financial or reputational harm, or 
whether acts such as recruiting, providing, or obtaining persons for 
compelled prostitution are covered.''
    \62\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 240. The PRC Criminal Law defines trafficking as 
``abducting, kidnapping, buying, trafficking in, fetching, sending, or 
transferring a woman or child, for the purpose of selling the victim.''
    \63\ State Council General Office, ``China Action Plan To Combat 
Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai renkou 
xingdong jihua (2013-2020 nian)], 2 March 13.
    \64\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xing fa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15; PRC Criminal Law 
[Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, effective 1 November 15, art. 240. 
The amendment did not include a change to Article 240 of the PRC 
Criminal Law, which defines human trafficking using the term 
``trafficking in women and children'' (guaimai funu ertong). Item 15 of 
the PRC Criminal Law Amendment revising Article 241 of the PRC Criminal 
Law refers only to women and children.
    \65\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 240. The PRC Criminal Law defines trafficking as 
``abducting, kidnapping, buying, trafficking in, fetching, sending, or 
transferring a woman or child, for the purpose of selling the victim.''
    \66\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by General Assembly resolution 55/25 of 15 November 
00, entered into force 25 December 03, art. 3(a, c). The end result of 
exploitation is one of the required elements of a trafficking case 
under Article 3 of the UN TIP Protocol. See also UN General Assembly, 
Report of the Ad Hoc Committee on the Elaboration of a Convention 
against Transnational Organized Crime on the Work of Its First to 
Eleventh Sessions, Addendum, Interpretive Notes for the Official 
Records (Travaux Preparatoires) of the Negotiation of the United 
Nations Convention against Transnational Organized Crime and Protocols 
Thereto, A/55/383/Add. 1, 3 November 00, para. 66.
    \67\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2016, 131. 
For examples of the conflation of illegal adoption with human 
trafficking during the Commission's 2016 reporting year, see, e.g., 
``Key Figure in Guangxi Cross-Border Infant Trafficking Case Executed'' 
[Guangxi teda kuaguo fan ying an zhu fan bei zhixing sixing], Legal 
Daily, reprinted in People's Daily, 17 August 16; Xu Jun, ``High 
Incidence of Trafficking in Women and Children Beginning To Be 
Contained'' [Guaimai funu ertong fanzui gaofa taishi chubu ezhi], 
People's Daily, 8 March 16; ``Xinhua Insight: Infant Trafficking Rooted 
in Poverty, Ignorance of Law,'' Xinhua, 24 January 16; ``Death Penalty 
Implemented for Trafficker of 22 Children'' [Guaimai 22 ming ertong 
zuifan bei zhixing sixing], Xinhua, 29 January 16.
    \68\ UN Office on Drugs and Crime, ``Protecting Peace and 
Prosperity in Southeast Asia: Synchronizing Economic and Security 
Agendas,'' February 2016, 34; Justice Centre Hong Kong, ``Coming Clean: 
The Prevalence of Forced Labour and Human Trafficking for the Purpose 
of Forced Labour Amongst Migrant Domestic Workers in Hong Kong,'' March 
2016, 6-7, 52, 64; Office To Monitor and Combat Trafficking in Persons, 
U.S. Department of State, ``Trafficking in Persons Report,'' June 2016, 
194.
    \69\ Census and Statistics Department, Hong Kong Special 
Administrative Region, ``Hong Kong Annual Digest of Statistics'' 
[Xianggang tongji niankan], October 2015, 43. See also Justice Centre 
Hong Kong, ``Coming Clean: The Prevalence of Forced Labour and Human 
Trafficking for the Purpose of Forced Labour Amongst Migrant Domestic 
Workers in Hong Kong,'' March 2016, 6, 20. Note that the Hong Kong 
government refers to migrant domestic workers as ``foreign domestic 
helpers.''
    \70\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China With Respect to Hong Kong, China, 
adopted by the Committee at its 1392nd and 1393rd Meetings (3 December 
2015), CAT/C/CHN-HKG/CO/5, 3 February 16, para. 20.
    \71\ Justice Centre Hong Kong, ``Who We Are,'' last visited 15 July 
16.
    \72\ Justice Centre Hong Kong, ``Coming Clean: The Prevalence of 
Forced Labour and Human Trafficking for the Purpose of Forced Labour 
Amongst Migrant Domestic Workers in Hong Kong,'' March 2016, 7, 33, 52.
    \73\ Ibid., 7, 54.
    \74\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China With Respect to Hong Kong, China, 
adopted by the Committee at its 1392nd and 1393rd Meetings (3 December 
2015), CAT/C/CHN-HKG/CO/5, 3 February 16, para. 20; Justice Centre Hong 
Kong, ``Coming Clean: The Prevalence of Forced Labour and Human 
Trafficking for the Purpose of Forced Labour Amongst Migrant Domestic 
Workers in Hong Kong,'' March 2016, 26; Liberty Asia and Reed Smith 
Richards Butler, ``Legal Overview of Human Trafficking in Hong Kong,'' 
2015, 7-8.
    \75\ United Nations Treaty Collection, Chapter XVIII, 12.a., Penal 
Matters, Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, last visited 
23 July 16. See also UN Committee on the Elimination of Discrimination 
against Women, Concluding Observations on the Combined Seventh and 
Eighth Periodic Reports of China, adopted by the Committee at its 59th 
session (20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 
14, para. 56.
    \76\ Legislative Council of the Hong Kong Special Administrative 
Region, Crimes Ordinance (Cap. 200) [Di 200 zhang xingshi zuixing 
tiaoli], amended 2 August 12, sec. 129(1); Hong Kong Bar Association, 
``Hong Kong Bar Association's Submission to the United Nations 
Committee Against Torture,'' 17 October 15, para. 22; Liberty Asia and 
Reed Smith Richards Butler, ``Legal Overview of Human Trafficking in 
Hong Kong,'' 2015, 15.
    \77\ Hong Kong Special Administrative Region Government, 
Immigration Department, Visa/Extension of Stay Application Form for 
Domestic Helper From Abroad, last visited 18 July 16, 6(ii); Hong Kong 
Special Administrative Region Government, Immigration Department, 
Employment Contract (for a Domestic Helper Recruited From Abroad), last 
visited 18 July 16, 3; Hong Kong Special Administrative Region 
Government, Immigration Department, ``Foreign Domestic Helpers,'' last 
visited 18 July 16, Q30. See also Danny Lee, ``Hong Kong Domestic 
Helpers Arrested in Crackdown on `Live-Out' Maids,'' South China 
Morning Post, 29 January 15.
    \78\ Hong Kong Special Administrative Region Government, 
Immigration Department, Visa/Extension of Stay Application Form for 
Domestic Helper From Abroad, last visited 18 July 16, 6(vi); Hong Kong 
Special Administrative Region Government, Immigration Department, 
``Conditions of Employment for Foreign Domestic Helpers: A General 
Guide to the Helper,'' last visited 18 July 16, 3; Hong Kong Special 
Administrative Region Government, Immigration Department, ``Foreign 
Domestic Helpers,'' last visited 18 July 16, Q33, Q44. See also 
Adrienne Chum, ``Helping Hands: The Two-Week Rule,'' HK Magazine, 30 
July 15.
    \79\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China With Respect to Hong Kong, China, 
adopted by the Committee at its 1392nd and 1393rd Meetings (3 December 
2015), CAT/C/CHN-HKG/CO/5, 3 February 16, para. 20; Justice Centre Hong 
Kong, ``Coming Clean: The Prevalence of Forced Labour and Human 
Trafficking for the Purpose of Forced Labour Amongst Migrant Domestic 
Workers in Hong Kong,'' March 2016, 23.
    \80\ Adam Severson, ``Reviewing Hong Kong's Human Trafficking 
Case,'' Justice Centre Hong Kong (blog), 15 January 16; Justice Centre 
Hong Kong, ``Coming Clean: The Prevalence of Forced Labour and Human 
Trafficking for the Purpose of Forced Labour Amongst Migrant Domestic 
Workers in Hong Kong,'' March 2016, 26; Eddie Lee, ``South Asian in 
Judicial Review Had To Return to Hong Kong for Unpaid Wages, High Court 
Hears,'' South China Morning Post, 15 January 16; Legislative Council 
of the Hong Kong Special Administrative Region, Hong Kong Bill of 
Rights Ordinance (Cap. 383) [Di 383 zhang xianggang renquan fa'an 
tiaoli], amended 30 June 97, sec. 8, art. 4. See also Astrid Zweynert, 
``Trafficking Victim To Challenge Hong Kong's Lack of Forced Labor Law 
in Court,'' Thomson Reuters Foundation, 16 July 15.
    \81\ ``Man Tricked Into Working in Hong Kong, Then Forced To Work 
Unpaid, Beaten: Lawyers,'' Agence France-Presse, reprinted in Straits 
Times, 12 January 16; Eddie Lee, ``South Asian in Judicial Review Had 
To Return to Hong Kong for Unpaid Wages, High Court Hears,'' South 
China Morning Post, 15 January 16; Justice Centre Hong Kong, ``Coming 
Clean: The Prevalence of Forced Labour and Human Trafficking for the 
Purpose of Forced Labour Amongst Migrant Domestic Workers in Hong 
Kong,'' March 2016, 26.
    \82\ Roland Lim, ``Landmark Case To Test Human Trafficking Laws in 
Hong Kong,'' Channel News Asia, 12 January 16; Eddie Lee, ``South Asian 
in Judicial Review Had To Return to Hong Kong for Unpaid Wages, High 
Court Hears,'' South China Morning Post, 15 January 16; Eddie Lee, ``I 
Have Faith in Hong Kong Government, South Asian Seeking Trafficking 
Review Tells Court,'' South China Morning Post, 12 January 16.
    \83\ ``Man Tricked Into Working in Hong Kong, Then Forced To Work 
Unpaid, Beaten: Lawyers,'' Agence France-Presse, reprinted in Straits 
Times, 12 January 16; Eddie Lee, ``South Asian in Judicial Review Had 
To Return to Hong Kong for Unpaid Wages, High Court Hears,'' South 
China Morning Post, 15 January 16.
    \84\ Roland Lim, ``Landmark Case To Test Human Trafficking Laws in 
Hong Kong,'' Channel NewsAsia, 13 January 16; Eddie Lee, ``South Asian 
in Judicial Review Had To Return to Hong Kong for Unpaid Wages, High 
Court Hears,'' South China Morning Post, 15 January 16.

                                                  North Korean 
                                                   Refugees in 
                                                          China
                                                North Korean 
                                                Refugees in 
                                                China

                     North Korean Refugees in China


                              Introduction

    During the Commission's 2016 reporting year, the Chinese 
government's policy of detaining North Korean refugees and 
repatriating them to the Democratic People's Republic of Korea 
(DPRK) remained in place, despite substantial evidence that 
repatriated persons face torture, imprisonment, execution, and 
other inhuman treatment.\1\ The Chinese government regards 
North Koreans who enter China without proper documentation as 
illegal economic migrants \2\ and maintains a policy of 
forcible repatriation based on a 1986 border protocol with the 
DPRK.\3\ China's repatriation of North Korean refugees 
contravenes its international obligations under the 1951 UN 
Convention Relating to the Status of Refugees (1951 Convention) 
and its 1967 Protocol, to which China has acceded.\4\
    China is obligated under the Convention against Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment to 
refrain from repatriating persons if there are ``grounds for 
believing that [they] would be in danger of being subject to 
torture.'' \5\ In November 2015, the UN Committee against 
Torture (Committee) conducted its fifth periodic review of 
China's compliance with the Convention.\6\ In its concluding 
observations, the Committee stated its concerns about China's 
lack of ``national asylum legislation and administrative 
procedures'' for determining refugee status, as well as China's 
``rigorous policy of forcibly repatriating all nationals of the 
[DPRK] on the ground that they have illegally crossed the 
border solely for economic reasons.'' \7\ The Committee urged 
China to address these concerns by incorporating the 
``principle of non-refoulement'' into domestic legislation, 
``immediately ceas[ing] forcible repatriation of undocumented 
migrants and victims of trafficking'' to the DPRK, and allowing 
``UNHCR personnel unimpeded access to nationals of the [DPRK] . 
. . in order to determine if they qualify for refugee status.'' 
\8\

             Repatriation of Refugees and Border Conditions

    This past year, heightened security measures along the 
China-North Korea and China-Southeast Asia borders increased 
the risks North Korean refugees face. In November 2015, Human 
Rights Watch reported an October 2015 case in which Vietnamese 
authorities detained nine North Korean refugees--including an 
11-month-old infant--near the China-Vietnam border and later 
transferred them to Chinese authorities in the Guangxi Zhuang 
Autonomous Region.\9\ Chinese authorities subsequently 
transferred the group to a military base in Tumen city, Yanbian 
Korean Autonomous Prefecture, Jilin province, near the China-
North Korea border, causing concerns that authorities planned 
to repatriate them.\10\ China's Ministry of Foreign Affairs 
refused to answer a media inquiry from Radio Free Asia 
regarding the condition of these nine North Korean 
refugees.\11\ As of August 2016, the Commission had not 
observed any updates about the group.
    Heightened border security may be limiting the outflow of 
refugees from the DPRK, as demonstrated by the smaller number 
of refugees reaching South Korea.\12\ South Korean Ministry of 
Unification data reportedly showed that the number of refugees 
who reached South Korea decreased from 1,397 in 2014 to 1,277 
in 2015,\13\ continuing the trend of a significant decline in 
the number of refugees entering South Korea since 2011.\14\

                    Crackdown on Foreign Aid Workers

    During this reporting year, Chinese and North Korean 
authorities continued to crack down on organizations and 
individuals--including foreign aid workers, Christian 
missionaries and churches, and non-governmental organizations--
that have played a crucial role in assisting and facilitating 
the movement of North Korean refugees outside the DPRK.\15\ In 
January 2016, Chinese authorities indicted Canadian citizen 
Kevin Garratt, accusing him of ``spying and stealing China's 
state secrets.'' \16\ Garratt and his wife operated a coffee 
shop near the North Korean border in Dandong municipality, 
Liaoning province, and were reportedly involved in assisting 
North Korean refugees.\17\

                     North Korean Workers in China

    During this reporting year, the Commission observed reports 
of North Korean laborers in China working under exploitative 
conditions. According to Greg Scarlatoiu, Executive Director of 
the Committee for Human Rights in North Korea, the DPRK 
government sent about 50,000 North Korean nationals to work 
overseas and subjected them to ``very harsh conditions of 
work'' that ``amount to forced labor.'' \18\ These ``harsh'' 
work conditions reportedly include long working hours with 
little or no time off,\19\ ``strict supervision'' by North 
Korean agents,\20\ confiscation of pay,\21\ violence,\22\ 
health and safety hazards,\23\ and sexual harassment and 
exploitation.\24\ [For more information on North Korean workers 
in China, see Section II--Human Trafficking.]
    This past year, some North Korean restaurant workers 
escaped to South Korea from their work sites in China. 
According to media reports, the DPRK government operated more 
than 130 restaurants overseas, about 100 of which were located 
in China, earning approximately US$10 million per year for the 
DPRK government.\25\ One South Korean media outlet reported 
that about 350 to 400 North Koreans, including 50 minors, 
worked at these restaurants in China.\26\

        <bullet> April 2016. According to South Korean media 
        reports, a group of 13 North Korean restaurant workers 
        in Ningbo municipality, Zhejiang province, escaped to 
        South Korea via a Southeast Asian country.\27\ On April 
        11, China's Ministry of Foreign Affairs spokesperson Lu 
        Kang confirmed the incident at a press conference, and 
        emphasized that the restaurant workers left China with 
        valid passports.\28\
        <bullet> May 2016. Three North Korean restaurant 
        workers in Weinan municipality, Shaanxi province, 
        reportedly escaped to South Korea via Thailand without 
        passports.\29\

                   Trafficking of North Korean Women

    North Korean women who enter China illegally remain 
particularly vulnerable to human trafficking. The demand for 
trafficked North Korean women has been linked to a sex ratio 
imbalance in China exacerbated by the Chinese government's 
population planning policies.\30\ Sources indicate that the 
majority of North Korean refugees leaving the DPRK are 
women,\31\ many of whom are trafficked by force or deception 
from the DPRK into or within China for the purposes of forced 
marriage and commercial sexual exploitation.\32\ The Chinese 
government's refusal to recognize these women as refugees 
denies them legal protection and encourages the trafficking of 
North Korean women and girls within China.\33\ China is 
obligated under the Convention on the Elimination of All Forms 
of Discrimination against Women and the UN Protocol to Prevent, 
Suppress and Punish Trafficking in Persons, Especially Women 
and Children to take measures to safeguard trafficking victims 
and suppress all forms of trafficking in women.\34\

              Children of North Korean and Chinese Parents

    Many children born to Chinese fathers and North Korean 
mothers remain deprived of basic rights to education and other 
public services, owing to a lack of legal resident status in 
China. According to some estimates, the population in China of 
children born to North Korean women ranges between 20,000 and 
30,000.\35\ The PRC Nationality Law provides that all children 
born in China are entitled to Chinese nationality if either 
parent is a Chinese citizen.\36\ Despite this stipulation and a 
December 2015 policy change to register 13 million ``illegal 
residents'' (heihu) who lack household registration (hukou) in 
China,\37\ Chinese authorities reportedly continue to largely 
deprive these children of their rights to birth registration 
and nationality,\38\ and their North Korean mothers remain 
deterred from registering these children due to fear of 
repatriation.\39\ Without proof of resident status, these 
children are unable to access education and other public 
services.\40\ In some cases, bribery of local officials has 
reportedly allowed a very small number of children to obtain 
identification documents.\41\ The denial of nationality rights 
and access to education for these children contravenes China's 
obligations under international law, including the Convention 
on the Rights of the Child and the International Covenant on 
Economic, Social and Cultural Rights.\42\

                                                  North Korean 
                                                   Refugees in 
                                                          China
                                                North Korean 
                                                Refugees in 
                                                China
    Notes to Section II--North Korean Refugees in China

    \1\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 46. In the Concluding Observations on the Fifth Periodic Report 
of China, the UN Committee against Torture noted ``over 100 testimonies 
received by United Nations sources . . . in which nationals of the 
Democratic People's Republic of Korea indicate that persons forcibly 
repatriated to the Democratic People's Republic of Korea have been 
systematically subjected to torture and ill-treatment.'' Sophie 
Richardson, Human Rights Watch, ``Dispatches: China's Tired Line on 
Human Rights in North Korea,'' Dispatches (blog), 15 March 16; Zhang 
Mengyuan, ``Thailand Complains That North Korean Refugees Are a Heavy 
Burden, Over Two Thousand North Koreans Entered Into [Thailand] 
Illegally'' [Taiguo baoyuan tuobeizhe cheng zhongfu nian yu liang qian 
chaoxianren feifa rujing], Hudu News, reprinted in Sohu, 26 January 16; 
Choe Sang-Hun, ``South Korea Says It's Working To Halt Refugees' Return 
to North,'' New York Times, 26 November 15; Xu Jiadong, ``If Forcibly 
Repatriated by the CCP, [They] Could Face Torture and Death'' 
[Tuobeizhe ruo bei zhonggong qiangxing qianfan jiang mianlin kuxing he 
siwang], Aboluowang, 26 November 15.
    \2\ Christine Chung, Committee for Human Rights in North Korea, 
``China Responds to the Committee against Torture,'' HRNK Insider 
(blog), 4 December 15; Choe Sang-Hun, ``South Korea Says It's Working 
To Halt Refugees' Return to North,'' New York Times, 26 November 15; 
``Human Rights Watch Calls on China To Not Repatriate Nine North Korean 
Refugees'' [Renquan guancha yu zhongguo wu qianfan jiu ming chaoxian 
nanmin], Radio Free Asia, 21 November 15.
    \3\ Democratic People's Republic of Korea Ministry of State 
Security, People's Republic of China Ministry of Public Security, 
Mutual Cooperation Protocol for the Work of Maintaining National 
Security and Social Order in the Border Areas, signed 12 August 86, 
art. 4(1), reprinted in North Korea Freedom Coalition. The protocol 
commits each side to treat as illegal those border crossers who do not 
have proper visa certificates, except in cases of ``calamity or 
unavoidable factors.'' See also ``China's Policy Change Toward North 
Korea Disastrous for Defectors'' [Zhongguo dui chao zhengce chuxian 
bianhua yangji tuobeizhe de chujing], Radio Free Asia, 24 November 15.
    \4\ Convention Relating to the Status of Refugees, adopted on 28 
July 51 by the UN Conference of Plenipotentiaries on the Status of 
Refugees and Stateless Persons convened under General Assembly 
resolution 429(V) of 14 December 50, entry into force 22 April 54, 
arts. 1(A2), 33(1). Article 1 of the 1951 Convention, as amended by the 
1967 Protocol, defines a refugee as someone who, `` . . . owing to 
well-founded fear of being persecuted for reasons of race, religion, 
nationality, membership of a particular social group or political 
opinion, is outside the country of his nationality and is unable or, 
owing to such fear, is unwilling to avail himself of the protection of 
that country . . ..'' Article 33 of the 1951 Convention mandates that, 
``No Contracting State shall expel or return (`refouler') a refugee in 
any manner whatsoever to the frontiers of territories where his life or 
freedom would be threatened on account of his race, religion, 
nationality, membership of a particular social group or political 
opinion.'' Protocol Relating to the Status of Refugees (1967 Protocol), 
adopted by UN General Assembly resolution 2198 (XXI) of 16 December 66, 
entry into force 4 October 67. See also UN Office of the High 
Commissioner for Refugees, ``UNHCR, Refugee Protection and 
International Migration,'' 17 January 07. According to the UN High 
Commissioner for Refugees, ``People who leave their own country for 
non-refugee related reasons may nevertheless acquire a well-founded 
fear of persecution in their own country following their departure. An 
economic migrant may . . . become a `refugee sur place', when there is 
an armed conflict or violent change of regime in that person's country 
of origin, or when the government or other actors in that country begin 
to inflict human rights violations on the community of which that 
migrant is a member.''
    \5\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, entry into force 26 June 87, art. 
3. Article 3 states that, ``No State Party shall expel, return 
(`refouler') or extradite a person to another State where there are 
substantial grounds for believing that he would be in danger of being 
subjected to torture.'' The Chinese government ratified the Convention 
on October 4, 1988.
    \6\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 1.
    \7\ Ibid., para. 46.
    \8\ Ibid., para. 47.
    \9\ Human Rights Watch, ``China: Don't Return Nine North Korean 
Refugees,'' 21 November 15; Choe Sang-Hun, ``South Korea Says It's 
Working To Halt Refugees' Return to North,'' New York Times, 26 
November 15; ``Human Rights Watch Calls on China To Not Repatriate Nine 
North Korean Refugees'' [Renquan guancha yu zhongguo wu qianfan jiu 
ming chaoxian nanmin], Radio Free Asia, 21 November 15.
    \10\ Human Rights Watch, ``China: Don't Return Nine North Korean 
Refugees,'' 21 November 15; ``China's Policy Change Toward North Korea 
Disastrous for Defectors'' [Zhongguo dui chao zhengce chuxian bianhua 
yangji tuobeizhe de chujing], Radio Free Asia, 24 November 15; Xu 
Jiadong, ``If Forcibly Repatriated by the CCP, [They] Could Face 
Torture and Death'' [Tuobeizhe ruo bei zhonggong qiangxing qianfan 
jiang mianlin kuxing he siwang], Aboluowang, 26 November 15.
    \11\ ``China's Policy Change Toward North Korea Disastrous for 
Defectors'' [Zhongguo dui chao zhengce chuxian bianhua yangji tuobeizhe 
de chujing], Radio Free Asia, 24 November 15.
    \12\ Lee Jin-a, ``High Cost Puts Squeeze on Would-Be NK 
Defectors,'' Korea Times, 19 April 16; Chun Su-jin and Kim So-hee, 
``More Elite Flee Though Pyongyang Tightens Up,'' Korea JoongAng Daily, 
13 April 16; Susan Cheong, ``North Korean Defections Drop Under Kim 
Jong-un,'' Australia Broadcasting Corporation, 4 May 16.
    \13\ ``North Korean Defectors Arriving in South Korea in 2015 About 
Half the Number Compared to Before Kim Jong-un's Rule'' [2015 nian di 
han tuobeizhe jiao jin zheng'en zhizheng qian jian ban], Yonhap News 
Agency, 4 January 16; Lin Senhai, ``Korean Media: Under Kim Jong-un's 
Rule in North Korea, `Defectors' Entering South Korea Reduced by Half'' 
[Hanmei: jin zheng'en zhizheng chaoxian hou jinru hanguo de 
``tuobeizhe'' jian ban], Global Times, 5 January 16; ``South Korea: The 
Number of North Korean Defectors Who Arrived in South Korea This Past 
Year Reduced to Half Compared to Before Kim Jong-un's Rule'' [Han: 
qunian di han tuobeizhe renshu jiao jin zheng'en shangtai qian shao 
yiban], South China Morning Post, 5 January 16.
    \14\ ``North Korean Defectors Arriving in South Korea in 2015 About 
Half the Number Compared to Before Kim Jong-un's Rule'' [2015 nian di 
han tuobeizhe jiao jin zheng'en zhizheng qian jian ban], Yonhap News 
Agency, 4 January 16. The number of North Koreans who defected to the 
South was 2,706 in 2011. Lin Senhai, ``Korean Media: Under Kim Jong-
un's Rule in North Korea, `Defectors' Entering South Korea Reduced by 
Half'' [Hanmei: jin zheng'en zhizheng chaoxian hou jinru hanguo de 
``tuobeizhe'' jian ban], Global Times, 5 January 16; ``South Korea: The 
Number of North Korean Defectors Who Arrived in South Korea This Past 
Year Reduced to Half Compared to Before Kim Jong-un's Rule'' [Han: 
qunian di han tuobeizhe renshu jiao jin zheng'en shangtai qian shao 
yiban], South China Morning Post, 5 January 16; Chun Su-jin and Kim So-
hee, ``More Elite Flee Though Pyongyang Tightens Up,'' Korea JoongAng 
Daily, 13 April 16.
    \15\ Elizabeth Shim, ``More North Korean Women Risking Arrest, 
Abuse To Sneak Into China for Work,'' United Press International, 19 
November 15; ``North Korean Refugees Come in Contact With the Christian 
Faith Near the Chinese Border, First Taste of Freedom'' [Tuobeizhe zai 
zhongguo bianjing jiechu jidu xinyang, chu chang ziyou ziwei], Union of 
Catholic Asian News, 19 October 15; Jenna Yoojin Yun, ``30,000 North 
Korean Children Living in Limbo in China,'' Guardian, 5 February 16; 
Stefan J. Bos, ``Breaking News: Korean Christian Worker Feared 
Kidnapped by North Korea,'' BosNewsLife, 21 April 16.
    \16\ Catherine E. Shoichet, ``China Indicts Canadian Kevin Garratt 
on Spying Charges,'' CNN, 28 January 16; ``Canadian Citizen Indicted in 
China on Charges of Stealing State Secrets,'' Xinhua, 28 January 16.
    \17\ ``North Korean Refugees Come in Contact With the Christian 
Faith Near the Chinese Border, First Taste of Freedom'' [Tuobeizhe zai 
zhongguo bianjing jiechu jidu xinyang, chu chang ziyou ziwei], Union of 
Catholic Asian News, 19 October 15; ``Canadian Man Kevin Garratt 
Charged in China Over State Secrets,'' BBC, 29 January 16; Chris 
Buckley, ``China To Try Canadian on Spying Charges,'' New York Times, 
28 January 16.
    \18\ Greg Scarlatoiu, ``Loyal but Exploited: North Korea's Overseas 
Laborers,'' Washington Times, 30 March 16. See also Seol Song Ah, ``N. 
Korean Workers in China Spread Even Thinner,'' Daily NK, 31 May 16.
    \19\ Greg Scarlatoiu, ``Loyal but Exploited: North Korea's Overseas 
Laborers,'' Washington Times, 30 March 16; Adam Taylor, ``The Weird 
World of North Korea's Restaurants Abroad,'' Washington Post, 8 April 
16; Seol Song Ah, ``Pay Cuts, Longer Hours for N. Korean Workers in 
China,'' Daily NK, 25 April 16.
    \20\ Greg Scarlatoiu, ``Loyal but Exploited: North Korea's Overseas 
Laborers,'' Washington Times, 30 March 16. See also Hyun-jin Kim, ``N. 
Koreans: Brutal Work Abroad Better Than Life Back Home,'' Associated 
Press, 12 April 16; Anna Fifield, ``North Korean Restaurant Workers 
Defect En Masse to South Korea,'' Washington Post, 8 April 16; ``N.K. 
Hit by Int'l Sanctions Closes Over 30 Restaurants Abroad: Source,'' 
Yonhap News Agency, 12 July 16.
    \21\ Greg Scarlatoiu, ``Loyal but Exploited: North Korea's Overseas 
Laborers,'' Washington Times, 30 March 16; Hyun-jin Kim, ``N. Koreans: 
Brutal Work Abroad Better Than Life Back Home,'' Associated Press, 12 
April 16; Seol Song Ah, ``Pay Cuts, Longer Hours for N. Korean Workers 
in China,'' Daily NK, 25 April 16. See also Alastair Gale, ``North 
Korea's Largest Recent Defector Group Arrives in South Korea,'' Wall 
Street Journal, 8 April 16.
    \22\ Hyun-jin Kim, ``N. Koreans: Brutal Work Abroad Better Than 
Life Back Home,'' Associated Press, 12 April 16.
    \23\ Greg Scarlatoiu, ``Loyal but Exploited: North Korea's Overseas 
Laborers,'' Washington Times, 30 March 16.
    \24\ Hyun-jin Kim, ``N. Koreans: Brutal Work Abroad Better Than 
Life Back Home,'' Associated Press, 12 April 16.
    \25\ ``N. Korean Restaurant Staff Who Defected En Masse Worked in 
China: Source,'' Yonhap News Agency, 10 April 16; ``N.K. Hit by Int'l 
Sanctions Closes Over 30 Restaurants Abroad: Source,'' Yonhap News 
Agency, 12 July 16; Kim So-hee and Kim Hyoung-gu, ``More Overseas 
Workers of North May Flee,'' Korea JoongAng Daily, 11 April 16.
    \26\ ``N.K. Hit by Int'l Sanctions Closes Over 30 Restaurants 
Abroad: Source,'' Yonhap News Agency, 12 July 16.
    \27\ Kim So-hee and Kim Hyoung-gu, ``More Overseas Workers of North 
May Flee,'' Korea JoongAng Daily, 11 April 16; ``13 Defectors Fled 
Restaurant While Supervisor Was Away,'' Chosun Ilbo, 12 April 16; 
Rachel Lee, ``Defections May Fray China-NK Ties,'' Korea Times, 10 
April 16.
    \28\ Ministry of Foreign Affairs, ``On April 11, 2016, Ministry of 
Foreign Affairs Spokesperson Lu Kang Holds Regular Press Conference'' 
[2016 nian 4 yue 11 ri waijiaobu fayanren lu kang zhuchi lixing 
jizhehui], 11 April 16.
    \29\ Elizabeth Shim, ``Two North Korea Restaurant Workers in 
Thailand Detention, Report Says,'' United Press International, 25 May 
16; Elizabeth Shim, ``Three North Korean Waitresses Defect to South 
Korea,'' United Press International, 1 June 16; Kim Jin-cheol, ``S. 
Korea Taking Very Different Approach to Latest Defection of N. Korean 
Restaurant Staff,'' Hankyoreh, 3 June 16.
    \30\ Jenna Yoojin Yun, ``30,000 North Korean Children Living in 
Limbo in China,'' Guardian, 5 February 16; Sylvia Kim and Yong Joon 
Park, European Alliance for Human Rights in North Korea, ``Invisible 
Children: The Stateless Children of North Korean Refugees,'' December 
2015; Elizabeth Shim, ``More North Korean Women Risking Arrest, Abuse 
To Sneak Into China for Work,'' United Press International, 19 November 
15; Sun Xiaobo, ``Price of Women Driven Up by Gender Imbalance,'' 
Global Times, 27 February 16.
    \31\ Sokeel Park, Liberty in North Korea, ``Most North Korean 
Refugees Are Women. Here's Why.,'' 8 March 16; Lin Senhai, ``Korean 
Media: Under Kim Jong-un's Rule in North Korea, Defectors Entering 
South Korea Reduced by Half'' [Hanmei: jin zheng'en zhizheng chaoxian 
hou jinru hanguo de ``tuobeizhe'' jian ban], Global Times, 5 January 
16; Elizabeth Shim, ``More North Korean Women Risking Arrest, Abuse To 
Sneak Into China for Work,'' United Press International, 19 November 
15.
    \32\ Park Ji-hyun, ``Women Who Live Under Another Sky--Demanding 
the Chinese Government Prohibit Trafficking of North Korean Women and 
Stop Repatriating North Korean Defectors'' [Huo zai ling yi tiankong 
xia de nuxing--yaoqiu zhongguo zhengfu jinzhi fanmai beihan funu 
huodong ji tingzhi qianfan tuobeizhe], InMediaHK, 1 October 15; Jenna 
Yoojin Yun, ``30,000 North Korean Children Living in Limbo in China,'' 
Guardian, 5 February 16; Elizabeth Shim, ``More North Korean Women 
Risking Arrest, Abuse To Sneak Into China for Work,'' United Press 
International, 19 November 15. See also Sokeel Park, Liberty in North 
Korea, ``Most North Korean Refugees Are Women. Here's Why.,'' 8 March 
16.
    \33\ Park Ji-hyun, ``Women Who Live Under Another Sky--Demanding 
the Chinese Government Prohibit Trafficking of North Korean Women and 
Stop Repatriating North Korean Defectors'' [Huo zai ling yi tiankong 
xia de nuxing--yaoqiu zhongguo zhengfu jinzhi fanmai beihan funu 
huodong ji tingzhi qianfan tuobeizhe], InMediaHK, 1 October 15; Sylvia 
Kim and Yong Joon Park, European Alliance for Human Rights in North 
Korea, ``Invisible Children: The Stateless Children of North Korean 
Refugees,'' December 2015.
    \34\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted by UN General Assembly resolution 34/180 of 18 
December 79, entry into force 3 September 81, art. 6; Protocol to 
Prevent, Suppress and Punish Trafficking in Persons, Especially Women 
and Children, Supplementing the United Nations Convention against 
Transnational Organized Crime, adopted by UN General Assembly 
resolution 55/25 of 15 November 00, entry into force 25 December 03, 
arts. 6, 9.
    \35\ Sylvia Kim and Yong Joon Park, European Alliance for Human 
Rights in North Korea, ``Invisible Children: The Stateless Children of 
North Korean Refugees,'' December 2015, 4; Emma Batha, Thomson Reuters 
Foundation, ``China Urged To Give Citizenship to Stateless Children of 
Trafficked North Koreans,'' 9 December 15; Jenna Yoojin Yun, ``30,000 
North Korean Children Living in Limbo in China,'' Guardian, 5 February 
16.
    \36\ PRC Nationality Law [Zhonghua renmin gongheguo guoji fa], 
passed, issued, and effective 10 September 80, art. 4. Article 4 of the 
PRC Nationality Law provides that, ``Any person born in China having 
both a father and mother who are Chinese nationals or having one parent 
who is a Chinese national shall have Chinese nationality.''
    \37\ Jiao Ying, ``Family Planning Policies To Be Delinked From 
Hukou Registration, To Comprehensively Resolve the Issue of `Illegal 
Residents' '' [Jihua shengyu deng zhengce jiang yu hukou dengji tuogou 
quanmian jiejue ``heihu'' wenti], China National Radio, 10 December 15; 
Wang Ling, ``Barriers To Resolving the Problem of Illegal Residents: 
Some Areas Require Social Compensation Fee Payments Before Obtaining 
Hukou'' [Jiejue heihu wenti yu zu: bufen diqu yaoqiu bujiao shehui 
fuyangfei cai neng luohu], Chinese Business Network, 10 March 16.
    \38\ Emma Batha, Thomson Reuters Foundation, ``China Urged To Give 
Citizenship to Stateless Children of Trafficked North Koreans,'' 9 
December 15; Jenna Yoojin Yun, ``30,000 North Korean Children Living in 
Limbo in China,'' Guardian, 5 February 16; Park Ji-hyun, ``Women Who 
Live Under Another Sky--Demanding the Chinese Government Prohibit 
Trafficking of North Korean Women and Stop Repatriating North Korean 
Defectors'' [Huo zai ling yi tiankong xia de nuxing--yaoqiu zhongguo 
zhengfu jinzhi fanmai beihan funu huodong ji tingzhi qianfan 
tuobeizhe], InMediaHK, 1 October 15.
    \39\ Jenna Yoojin Yun, ``30,000 North Korean Children Living in 
Limbo in China,'' Guardian, 5 February 16; Sylvia Kim and Yong Joon 
Park, European Alliance for Human Rights in North Korea, ``Invisible 
Children: The Stateless Children of North Korean Refugees,'' December 
2015.
    \40\ Sylvia Kim and Yong Joon Park, European Alliance for Human 
Rights in North Korea, ``Invisible Children: The Stateless Children of 
North Korean Refugees,'' December 2015, 8; Park Ji-hyun, ``Women Who 
Live Under Another Sky--Demanding the Chinese Government Prohibit 
Trafficking of North Korean Women and Stop Repatriating North Korean 
Defectors'' [Huo zai ling yi tiankong xia de nuxing--yaoqiu zhongguo 
zhengfu jinzhi fanmai beihan funu huodong ji tingzhi qianfan 
tuobeizhe], InMediaHK, 1 October 15; Emma Batha, Thomson Reuters 
Foundation, ``China Urged To Give Citizenship to Stateless Children of 
Trafficked North Koreans,'' 9 December 15.
    \41\ Sylvia Kim and Yong Joon Park, European Alliance for Human 
Rights in North Korea, ``Invisible Children: The Stateless Children of 
North Korean Refugees,'' December 2015, 88.
    \42\ Convention on the Rights of the Child, adopted by UN General 
Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, arts. 2(1), 7, 28(1a). Under the Convention on the Rights 
of the Child, China is obligated to register children born within the 
country immediately after birth and also provide all children with 
access to education without discrimination on the basis of nationality. 
International Covenant on Economic, Social and Cultural Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 3 January 76, art. 13. Under Article 13, China recognizes 
that everyone has a right to education, including a free and compulsory 
primary education.

                                                  Public Health
                                                Public Health

                             Public Health


                           Health Care Reform

    The Chinese government and Communist Party advanced policy 
priorities for health care reform during the Commission's 2016 
reporting year.\1\ Among them was a January 2016 announcement 
merging the New Rural Cooperative Medical Scheme (NRCMS) and 
the Urban Resident-Based Basic Medical Insurance Scheme 
(URBMI), two of China's three health insurance schemes,\2\ to 
improve medical access and resources in rural areas for 802 
million people covered by NRCMS \3\ and the distribution of 
benefits for 314 million people covered by URBMI.\4\ While 
precursor pilot projects that consolidated NRCMS and URBMI 
reported positive effects,\5\ uniform management of the merged 
schemes may be a challenge, according to one health official, 
because local-level governments are authorized to choose the 
government agency responsible for local oversight.\6\ In 
addition, migrant workers may lack adequate coverage under the 
merger unless the government addresses the limited portability 
of insurance benefits across provincial lines.\7\
    Government entities also addressed the problem of 
``commotions at hospitals'' (yi'nao) that have flared up over 
patient-doctor disputes and grievances with medical 
treatment,\8\ some of which have become violent and resulted in 
fatalities of medical personnel.\9\ Four ministries issued 
measures in March 2016 to improve hospital security.\10\ In 
addition, in the Ninth Amendment to the PRC Criminal Law, which 
became effective in November 2015, impeding medical care was 
specified as a ``social order'' disturbance under Article 290, 
thereby strengthening the legal basis to impose harsher 
criminal penalties in the prosecution of yi'nao.\11\

                    Transparency and Accountability

    Propaganda officials issued censorship directives to media 
outlets \12\ to prohibit reporting on health-related issues 
deemed politically sensitive--such as patient-doctor disputes 
\13\ and scalping tickets to shorten patients' wait times in 
hospital lines \14\--or to limit coverage to authorized 
versions of the news--such as the U.S. Government's blocking 
two shipments of contaminated pharmaceutical products from 
Tianjin municipality for import to the United States.\15\ A 
state-funded news outlet's article in March 2016 about a 
business in Shandong province that distributed unrefrigerated 
vaccines in more than 20 provinces since 2010 \16\ was ``taken 
offline,'' and a censorship directive instructed that there be 
no further reprints or ``hyp[ing]'' of the article.\17\ The 
news about the vaccines generated considerable public 
concern,\18\ including joint letters from lawyer groups to 
high-level government entities that demanded government 
accountability, access to information, and stronger legal 
remedies.\19\ Official media and the government later reported 
on the government's actions to investigate the perpetrators of 
the illegal vaccine business as well as possible health risks 
from tainted vaccines.\20\
    Parents who advocated for government accountability over 
harm to their children's health and well-being encountered a 
range of official responses. In March 2016, for example, public 
security officials in Beijing municipality criminally detained 
five parent advocates for 30 days for protesting problematic 
vaccines.\21\ In April, authorities reportedly transferred 
1,000 parents participating in a protest outside the National 
Health and Family Planning Commission in Beijing to an 
unofficial detention center.\22\ Some of the parents at that 
protest reportedly filed lawsuits before being detained.\23\

              Implementation of the PRC Mental Health Law

    Forcibly committing individuals without mental illness to 
psychiatric facilities (bei jingshenbing) as a ``form of 
retaliation and punishment by Chinese authorities against 
activists and government critics'' \24\ reportedly remains a 
serious problem in China \25\ despite the PRC Mental Health 
Law's (MHL) prohibition of such abuse.\26\ Prior to the UN 
Committee against Torture's review of China's compliance with 
the Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment (Convention) in November 
2015, a network of human rights organizations highlighted the 
case of the ongoing psychiatric hospitalization of a former 
factory worker, Xing Shiku, as an example of the Chinese 
government's disregard for its obligations as a State Party to 
the Convention.\27\ Other cases of individuals who remain 
detained in psychiatric facilities against their will for 
reportedly politically motivated reasons include Xia Funian, 
Wang Hedi, Xu Dajin, Wang Shou'an, and Zhang Wenhe.\28\
    The Chinese government has prioritized mental health policy 
as part of the ``right to health'' in national human rights 
efforts in recent years,\29\ yet officials and experts have 
observed a range of challenges in the implementation of the MHL 
since it became effective in 2013. These challenges include 
gaps in the legal framework regarding compulsory treatment \30\ 
and involuntary hospitalization procedures; \31\ a need for 
more psychiatric facilities \32\ and community-based 
rehabilitation services,\33\ and the psychiatrists and mental 
health specialists to staff them; \34\ poor coordination of 
responsibilities among the government agencies tasked with 
mental health work; \35\ and the financial burdens of accessing 
medical treatment without adequate insurance.\36\ Some 
localities issued plans to implement the National Mental Health 
Work Plan (2015-2020) \37\ with the launch of pilot projects in 
37 municipalities \38\ and the drafting of new or revised local 
mental health regulations.\39\ A focus on individuals with 
severe mental disorders deemed at risk of violent behavior \40\ 
is evident in the national and local mental health policy 
agendas.\41\ Wang Guoqiang, Vice Minister of the National 
Health and Family Planning Commission, reportedly stated in 
June 2016 that new pilot projects should ``strengthen the 
management work of those with severe mental disorders who are 
at risk of causing disruptive incidents and troubles [zhaoshi 
zhaohuo].'' \42\ A Party-run media outlet, however, reported 
that the rate of ``disruptive'' incidents committed by 
individuals with mental illness is lower than that of the 
population at large, yet public stigma against those with 
psychosocial disorders persists.\43\

           Rights Protection and Health-Based Discrimination

    Although Chinese laws and regulations contain provisions to 
prohibit discrimination due to disability and some health-based 
conditions,\44\ two Chinese scholars observed a gap between law 
and practice in rights protection for persons with disabilities 
in a law review article of March 2016, noting the ``phenomenon 
of `heavy legislation, light implementation' '' and infrequent 
citation in court decisions to laws protecting the rights of 
persons with disabilities.\45\ Provisions on employment 
discrimination and the right to work in the PRC Law on the 
Protection of the Rights of Persons with Disabilities were 
cited in a case dating from 2014 among a group of 10 model 
cases published by the Supreme People's Court in May 2016, all 
of which featured the protection of the rights of persons with 
disabilities.\46\ In the 2014 case's second instance (appeals) 
court decision, those provisions were used as the legal basis 
to dismiss the employer-defendant's claim that the employee-
plaintiff had misled the company by not stating she had a 
disability when she signed a labor contract.\47\ In May, a 
court in Guizhou province awarded financial compensation to the 
plaintiff in a case that legal experts noted was the first in 
which a court found in favor of a plaintiff claiming employment 
discrimination due to HIV/AIDS.\48\ The court verdict 
reportedly did not acknowledge the incident as employment 
discrimination.\49\
    Persons with disabilities and health-related conditions in 
China continued to face obstacles in attaining equal access to 
employment \50\ and education.\51\ In July and August 2016, for 
example, official media outlets reported on two cases in which 
individuals with visual impairments were denied university 
enrollment \52\ and government employment \53\ based on 
physical eligibility standards.\54\ Five lawyers subsequently 
called for a governmental review of the physical eligibility 
standards for university enrollment.\55\ Rights Defense 
Network, moreover, reported on blind individuals who faced 
harassment and detention for advocacy. In November 2015, 
authorities in Hefei municipality, Anhui province, took at 
least five blind advocates into custody for blocking an 
elevator while they sought to meet with the director of the 
Hefei branch of the China Disabled Persons Federation about 
access to welfare and social services.\56\

                                                  Public Health
                                                Public Health
    Notes to Section II--Public Health

    \1\ China's 13th Five-Year Plan, Hearing of the U.S.-China Economic 
and Security Review Commission, 27 April 16, Testimony of Yanzhong 
Huang, Senior Fellow for Global Health, Council on Foreign Relations 
and Professor, School of Diplomacy and International Relations, Seton 
Hall University, 2.
    \2\ State Council, Opinion on the Integration of Urban-Rural 
Residents' Basic Health Care Insurance System [Guowuyuan guanyu zhenghe 
chengxiang jumin jiben yiliao baoxian zhidu de yijian], issued 3 
January 16; ``Reconciling City and Country: China's Lessons for a 
Divided World,'' Lancet, Vol. 387, 23 January 16, 311; Xiong-Fei Pan, 
Jin Xu, and Qingyue Meng, ``Correspondence: Integrating Social Health 
Insurance Systems in China,'' Lancet, Vol. 387, 26 March 16, 1274-75. 
The State Council Opinion stipulates that provinces and provincial-
level municipalities and regions should develop comprehensive plans for 
the merger by June 2016 and detailed implementation plans by the end of 
2016.
    \3\ ``Reconciling City and Country: China's Lessons for a Divided 
World,'' Lancet, Vol. 387, 23 January 16, 311; Qingyue Meng et al., 
``Consolidating the Social Health Insurance Schemes in China: Towards 
an Equitable and Efficient Health System,'' Lancet, Vol. 386, 10 
October 15, 1485, Table 1. Data are from 2013 official statistics.
    \4\ State Council, Opinion on the Integration of Urban-Rural 
Residents' Basic Health Care Insurance System [Guowuyuan guanyu zhenghe 
chengxiang jumin jiben yiliao baoxian zhidu de yijian], issued 3 
January 16, sec. 1; ``Reconciling City and Country: China's Lessons for 
a Divided World,'' Lancet, Vol. 387, 23 January 16, 311; Liu Jiaying 
and Shi Rui, ``Urban-Rural Residents' Health Insurance Merged, but 
Jurisdiction of Management Authority Unknown'' [Chengxiang jumin yibao 
binggui guanli quan guishu bukezhi], Caixin, 13 January 16.
    \5\ Qingyue Meng et al., ``Consolidating the Social Health 
Insurance Schemes in China: Towards an Equitable and Efficient Health 
System,'' Lancet, Vol. 386, 10 October 15, 1487.
    \6\ Liu Jiaying and Shi Rui, ``Urban-Rural Residents' Health 
Insurance Merged, but Jurisdiction of Management Authority Unknown'' 
[Chengxiang jumin yibao binggui guanli quan guishu bukezhi], Caixin, 13 
January 16.
    \7\ Xiong-Fei Pan, Jin Xu, and Qingyue Meng, ``Correspondence: 
Integrating Social Health Insurance Systems in China,'' Lancet, Vol. 
387, 26 March 16, 1274-75.
    \8\ ``[Editorial] Curing `Medical Commotions' Once and for All Will 
Necessarily Depend on Rational Communication Between Doctors and 
Patients'' [[Shelun] genzhi ``yi'nao'' xu kao yihuan lixing goutong 
pingtai], Southern Metropolitan Daily, 1 April 16; Sarah Biddulph, 
``Resolving Medical Disputes and Causing Havoc in Hospitals (Yinao)'' 
in The Stability Imperative: Human Rights and Law in China (Vancouver: 
UBC Press, 2015), 126-28, 135-36, 144-70.
    \9\ Chris Buckley, ``A Danger for Doctors in China: Patients' Angry 
Relatives,'' New York Times, 18 May 16; China Digital Times, 
``Translation: Why One Doctor Put Down the Scalpel,'' 19 May 16. See 
also CECC, 2014 Annual Report, 9 October 14, 124.
    \10\ Hu Hao, ``Four Ministries Jointly Issue Circular To Strengthen 
the Protection of Medical Order'' [Si bumen lianhe xiafa tongzhi 
jiaqiang weihu yiliao zhixu], Xinhua, 30 March 16. See also Sarah 
Biddulph, ``Resolving Medical Disputes and Causing Havoc in Hospitals 
(Yinao)'' in The Stability Imperative: Human Rights and Law in China 
(Vancouver: UBC Press, 2015), 160-61.
    \11\ Wu Liufeng, ``Amendments to Criminal Law (Ninth) Will Be 
Implemented Next Month, for Disturbances at Hospitals and Substituting 
for Test-Takers, Criminal Sentences of at Most 7 Years'' [Xing fa 
xiuzheng'an (jiu) xia yue shishi yi'nao, tikao zuigao huoxing 7 nian], 
Western China Metropolitan Daily, reprinted in China News Net, 19 
October 15; PRC Criminal Law [Zhonghua renmin gongheguo xing fa], 
passed 1 July 79, amended 14 March 97, effective 1 October 97, amended 
25 December 99, 31 August 01, 29 December 01, 28 December 02, 28 
February 05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 
effective 1 November 15, art. 290. See also Sarah Biddulph, ``Resolving 
Medical Disputes and Causing Havoc in Hospitals (Yinao)'' in The 
Stability Imperative: Human Rights and Law in China (Vancouver: UBC 
Press, 2015), 150, 161-63.
    \12\ China Digital Times, a news aggregation website based in 
California, translates propaganda directives and posts them to its 
website under the heading Ministry of Truth at http://
chinadigitaltimes.net/china/directives-from-the-ministry-of-truth/.
    \13\ ``Minitrue: 21 Rules on Coverage of the Two Sessions,'' 6 
March 16, reprinted in China Digital Times, 8 March 16, item 3; Didi 
Kirsten Tatlow, ``What Chinese Media Mustn't Cover at the `2 Sessions,' 
'' New York Times, Sinosphere (blog), 9 March 16.
    \14\ ``Minitrue: 21 Rules on Coverage of the Two Sessions,'' 6 
March 16, reprinted in China Digital Times, 8 March 16, item 19; Didi 
Kirsten Tatlow, ``What Chinese Media Mustn't Cover at the `2 Sessions,' 
'' New York Times, Sinosphere (blog), 9 March 16.
    \15\ China Digital Times, ``Minitrue: Don't Hype Tainted Tianjin 
Pharma Products,'' 24 December 15.
    \16\ China Digital Times, ``Minitrue: Unrefrigerated Vaccines Worth 
Hundreds of Millions of Yuan Flow Into 18 Provinces: Possibly Affecting 
Human Life'' [Zhenlibu: shuyi yuan yimiao wei lengcang liuru 18 
shengfen: huo yingxiang renming], 22 March 16; Li Jing, ``Vaccine 
Scandal: Hundreds Involved Across 24 Provinces in China,'' South China 
Morning Post, 20 March 16.
    \17\ China Digital Times, ``Minitrue: Don't Hype Article on Illegal 
Vaccines,'' 22 March 16.
    \18\ Chris Buckley, ``China's Vaccine Scandal Threatens Public 
Faith in Immunizations,'' New York Times, 18 April 16.
    \19\ ``Wang Shengsheng and 12 Other Lawyers' Letter to China's 
State Council: Request for the Protection of the Public's Right To Know 
and Right to Relief in the Vaccines Criminal Case'' [Wang shengsheng 
deng 13 wei lushi zhi zhongguo guowuyuan: guanyu zai yimiao fanzui an 
zhong baohu zhiqing quan he jiuji quan de yaoqiu], 28 March 16, 
reprinted in Rights Defense Network; ``Volunteer Lawyers Group Working 
on the Problem Vaccines Incident Make Suggestions Regarding 
Certification and Remedial Measures in the Problematic Vaccines 
Incident--Permit Collective Lawsuits and Establish Relief Funds for 
Those Harmed by Medicine'' [Wenti yimiao shijian zhiyuan lushi tuan 
guanyu yimiao anjian jianding yu jiuji jizhi de jianyi--yunxu jiti 
susong, jianli yao hai jiuji jijin], 9 April 16, reprinted in Rights 
Defense Network, 10 April 16; Michael Woodhead, ``Illegal Vaccine 
Fallout: Clinics Deserted as Public Lose [sic] Confidence; Lawyers 
Support Patients' Rights; Failure Blamed on `Private Market,' '' China 
Medical News (blog), 29 March 16.
    \20\ Chen Fei, ``SPP To Supervise Handling of Illegal Vaccine 
Business Cases'' [Zuigaojian guapai duban feifa jingying yimiao xilie 
an], Xinhua, 22 March 16; ``Illegal Vaccine Business Case in Ji'nan, 
Shandong, Investigative Group From Multiple Agencies Arrives in 
Shandong and Starts Handling Investigative Work'' [Shandong ji'nan 
feifa jingying yimiao xilie anjian bumen lianhe diaocha zu fu shandong 
kaizhan anjian diaocha chuli gongzuo], Xinhua, 29 March 16; National 
Health and Family Planning Commission, ``Risk Assessment Report on 
Safety and Effectiveness of Suspect Vaccines From the Cases of the 
Illegal Vaccine Business in Ji'nan, Shandong'' [Shandong ji'nan feifa 
jingying yimiao xilie anjian she'an yimiao jiezhong anquanxing he 
youxiaoxing fengxian pinggu baogao], 13 April 16.
    \21\ Rights Defense Network, ``Vaccine Victim Yi Wenlong, Accused 
of `Picking Quarrels and Provoking Trouble' Was Among Five Criminally 
Detained, All Were Released'' [Bei kong ``xunxin zishi'' zao xingju de 
yimiao shouhaizhe yi wenlong deng wu ren yi quanbu shifang], 12 April 
16. For an example of an individual detained for discussing the tainted 
vaccines on social media, see Human Rights Campaign in China, ``Because 
Hunan Citizen Liu Junjun Discussed the Tainted Vaccines Incident in a 
WeChat Friend Group, Authorities Administratively Detained Him for Six 
Days for Intentionally Disrupting Public Order'' [Hunan gongmin liu 
junjun yin zai weixin pengyou quan taolun du yimiao shijian zao dangju 
yi guyi raoluan gonggong zhixu zui xingzheng juliu liu tian], 6 April 
16.
    \22\ ``Chinese Parents Sue Amid Protests Over Tainted Vaccines,'' 
Radio Free Asia, 19 April 16.
    \23\ Ibid.
    \24\ Civil Rights & Livelihood Watch, ``2015 Year-End Summary on 
Mental Health and Human Rights in China (Forced Psychiatric 
Commitment)'' [2015 nian zhongguo jingshen jiankang yu renquan (bei 
jingshenbing) nianzhong zongjie], February 2016; Chinese Human Rights 
Defenders, ``[CHRB] Forced Psychiatric Commitment of Dissidents 
Continues as Police Act Above Enacted Law (4/29-5/5, 2016),'' 5 May 16.
    \25\ Civil Rights & Livelihood Watch, ``2015 Year-End Summary on 
Mental Health and Human Rights in China (Forced Psychiatric 
Commitment)'' [2015 nian zhongguo jingshen jiankang yu renquan (bei 
jingshenbing) nianzhong zongjie], February 2016.
    \26\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13, arts. 27, 30, 
75(5), 78(1).
    \27\ Network of Chinese Human Rights Defenders et al., ``Civil 
Society Report Submitted to the Committee against Torture,'' 26 October 
15, para. 58. In 2014, a UN expert group that examines cases of 
arbitrary detention asserted that Xing's detention in a psychiatric 
facility in Harbin municipality, Heilongjiang province, for more than 
seven years violated international legal norms. See UN Human Rights 
Council, Working Group on Arbitrary Detention, Opinions adopted by the 
Working Group on Arbitrary Detention at its 69th Sess., No. 8/2014 
(China), A/HRC/WGAD/2014/xx, 20 May 14, paras. 41, 42, 47; Chinese 
Human Rights Defenders, ``UN Working Group Finds China's Psychiatric 
Detention of Petitioner `Arbitrary,' '' 21 July 14. For more 
information on Xing Shiku, see the Commission's Political Prisoner 
Database record 2011-00093.
    \28\ Chinese Human Rights Defenders, ``[CHRB] Forced Psychiatric 
Commitment of Dissidents Continues as Police Act Above Enacted Law (4/
29-5/5, 2016),'' 5 May 16.
    \29\ State Council Information Office, ``Assessment Report on the 
Implementation of the National Human Rights Action Plan of China (2012-
2015),'' 14 June 16, sec. 4.
    \30\ ``Open Solicitation of Comments on Compulsory Treatment Center 
Regulations, Standardizing System To Control Persons With Mental 
Illness Who Cause Disturbances'' [Qiangzhi yiliaosuo tiaoli gongkai 
zhengqiu yijian guifan zhaoshi zhaohuo jingshenbingren guanzhi zhidu], 
China National Radio, 10 June 16; Shen Fan and Zhao Fuduo, ``Prevent 
`Forcible Commitment to Psychiatric Facilities,' Scholar Recommends 
Compulsory Treatment Be Incorporated Into Human Rights Protection 
System'' [Fangzhi ``bei jingshenbing'' xuezhe jianyi qiangzhi yiliao 
naru renquan baozhang tixi], Caixin, 15 June 16.
    \31\ Shen Fan and Zhao Fuduo, ``Prevent `Forcible Commitment to 
Psychiatric Facilities,' Scholar Recommends Compulsory Treatment Be 
Incorporated Into Human Rights Protection System'' [Fangzhi ``bei 
jingshenbing'' xuezhe jianyi qiangzhi yiliao naru renquan baozhang 
tixi], Caixin, 15 June 16; Zhou Shenghao, ``Under Laws and Regulations, 
Protecting the Rights of and Preventing Risks From Persons With Mental 
Illness'' [Falu guizhi xia jingshen zhang'ai huanzhe de quanyi baozhang 
he fengxian fangkong], Sanming Municipality Public Security Bureau, 
last visited 15 May 16; Yang Shao and Bin Xie, ``Approaches to 
Involuntary Admission of the Mentally Ill in the People's Republic of 
China: Changes in Legislation From 2002 to 2012,'' Journal of the 
American Academy of Psychiatry and the Law, Vol. 43, No. 1 (March 
2015), 35-44.
    \32\ Wei Fangchao, ``Mental Health Work Plan Issued, Will Seek 
Responsibility When Persons With Severe Mental Disorders Cause 
Incidents'' [Jingshen weisheng gongzuo guihua fabu yanzhong jingshen 
zhang'ai huanzhe zhaoshi jiang zhuize], China Internet Information 
Center, 18 June 15; National Health and Family Planning Commission, 
``October Regular Press Release Material: Situation on Progress 
Throughout Country on Mental Health Work'' [10 yue lixing fabuhui 
cailiao: quanguo jingshen weisheng gongzuo jinzhan qingkuang], 9 
October 15. According to official statistics, there are 1,650 
psychiatric facilities and approximately 20,000 psychiatrists in China.
    \33\ Li Hongmei, ``In China, Individuals With Severe Mental Illness 
Reach 4.3 Million Persons'' [Woguo yanzhong jingshenbing huanzhe da 430 
wan ren], People's Daily, 13 January 16; ``Society Needs [Them], but No 
Way To Get a Business Registration'' [Shehui you xuqiu dan gongshang 
zhuce meifa tongguo], China Youth Daily, 3 April 16.
    \34\ Shiwei Liu and Andrew Page, ``Reforming Mental Health in China 
and India,'' Lancet, 18 May 16.
    \35\ National Health and Family Planning Commission, ``October 
Press Release Material: Situation on Progress Throughout Country on 
Mental Health Work'' [10 yue lixing fabuhui cailiao: quanguo jingshen 
weisheng gongzuo jinzhan qingkuang], 9 October 15; Zhou Shenghao, 
``Under Laws and Regulations, Protecting the Rights of and Preventing 
Risks From Persons With Mental Illness'' [Falu guizhi xia jingshen 
zhang'ai huanzhe de quanyi baozhang he fengxian fangkong], Sanming 
Municipality Public Security Bureau, last visited 15 May 16.
    \36\ Fiona J. Charlson et al., ``The Burden of Mental, 
Neurological, and Substance Use Disorders in China and India: A 
Systematic Analysis of Community Representative Epidemiological 
Studies,'' Lancet, 18 May 16, 12; Zhou Shenghao, ``Under Laws and 
Regulations, Protecting the Rights of and Preventing Risks From Persons 
With Mental Illness'' [Falu guizhi xia jingshen zhang'ai huanzhe de 
quanyi baozhang he fengxian fangkong], Sanming Municipality Public 
Security Bureau, last visited 15 May 16.
    \37\ State Council General Office, ``National Mental Health Work 
Plan (2015-2020)'' [Quanguo jingshen weisheng gongzuo guihua (2015-2020 
nian)], 18 June 15. For examples of local implementing plans, see, 
e.g., ``Sichuan Establishes Comprehensive Mental Health Services 
Management System'' [Sichuan jianli jingshen weisheng zonghe fuwu 
guanli jizhi], Sichuan Daily, 18 April 16; Hangzhou Municipal People's 
Government, Implementing Opinion on Further Strengthening Integrated 
Management Work on Mental Health [Hangzhou shi renmin zhengfu guanyu 
jinyibu jiaqiang jingshen weisheng zonghe guanli gongzuo de shishi 
yijian], issued 17 February 16; Inner Mongolia Autonomous Region 
People's Government General Office, ``Inner Mongolia Autonomous Region 
Implementing Plan for the `National Mental Health Work Plan (2015-
2020)' '' [Neimenggu zizhiqu shishi ``quanguo jingshen weisheng gongzuo 
guihua (2015-2020 nian)'' fang'an], 5 May 16.
    \38\ Li Huifang, ``Chaoyang District, Beijing, Launches National 
Mental Health Integrated Management Pilot Project'' [Beijing shi 
chaoyang qu quanguo jingshen weisheng zonghe guanli shidian gongzuo 
qidong], People's Daily, 20 October 15. According to the People's Daily 
report, there are 37 pilot sites throughout the country. For examples 
of pilot sites, see Wenquan Township People's Government, ``Haidian 
District, Beijing Municipality, Implementation Plan for Wenquan 
Township Fulfilling `Haidian District's Launch of the National Mental 
Health Integrated Management Pilot Project' '' [Guanyu wenquan zhen 
luoshi ``haidian qu kaizhan quanguo jingshen weisheng zonghe guanli 
shidian gongzuo fang'an'' de shishi fang'an], 25 April 16, reprinted in 
Haidian District People's Government, 27 April 16; Yangpu District 
Health and Family Planning Commission et al., Shanghai Municipality, 
``Yangpu District, Shanghai Municipality Mental Health Integrated 
Management Pilot Project Implementing Plan (2015-2017)'' [Shanghai shi 
yangpu qu jingshen weisheng zonghe guanli shidian gongzuo shishi 
fang'an (2015-2017)], 9 October 15; Huangpi District People's 
Government Office, Wuhan Municipality, Hubei Province, ``Implementing 
Plan for Huangpi District's Launch of the National Mental Health 
Integrated Management Pilot Project'' [Huangpi qu kaizhan quanguo 
jingshen weisheng zonghe guanli shidian gongzuo shishi fang'an], 22 
January 16; Taicang City People's Government, Suzhou Municipality, 
Jiangsu Province, ``Taicang City Mental Health Integrated Management 
Pilot Project'' [Taicang shi jingshen weisheng zonghe guanli shidian 
gongzuo fang'an], 14 March 16.
    \39\ Hangzhou Municipality People's Congress, Zhejiang Province, 
Public Announcement on the Open Solicitation of Opinions on ``(Draft) 
Decision on Revisions to `Hangzhou Municipality Mental Health 
Regulations' '' [Guanyu gongkai zhengqiu ``guangyu xiugai `hangzhou shi 
jingshen weisheng tiaoli' de jueding (cao'an)'' yijian de gonggao], 29 
April 16; Gansu Province People's Government Legal Affairs Office, 
Gansu Province Mental Health Regulations (Review Draft) [Gansu sheng 
jingsheng weisheng tiaoli (songshen gao)], 24 February 16.
    \40\ Wei Fangchao, ``Mental Health Work Plan Issued, Will Seek 
Responsibility When Persons With Severe Mental Disorders Cause 
Incidents'' [Jingshen weisheng gongzuo guihua fabu yanzhong jingshen 
zhang'ai huanzhe zhaoshi jiang zhuize], China Internet Information 
Center, 18 June 15; ``Seeking Responsibility When National Standards 
and Regulations Are Not Effective in the Management of Individuals With 
Serious Psychiatric Disorders'' [Guanli zhaoshi zhaohuo deng yanzhong 
jingsheng zhang'ai huanzhe you le guobiao, jianguan buli jiang zhuize], 
The Paper, 28 January 16; ``Enter the Inner World of an `Armed, Crazy 
Person,' Seeing a Psychiatric Hospital's Current Conditions'' [Zoujin 
``wu fengzi'' de neixin shijie tanfang jingshen bingyuan xianzhuang], 
Chinese Business Review, reprinted in CNWest, 9 May 16.
    \41\ See, e.g., Taicang City People's Government, Suzhou 
Municipality, Jiangsu Province, ``Taicang City Mental Health Integrated 
Management Pilot Project'' [Taicang shi jingshen weisheng zonghe guanli 
shidian gongzuo fang'an], 14 March 16, sec. 1(2.2, 7); Huangpi District 
People's Government Office, Wuhan Municipality, Hubei Province, 
``Implementing Plan for Huangpi District's Launch of the National 
Mental Health Integrated Management Pilot Project'' [Huangpi qu kaizhan 
quanguo jingshen weisheng zonghe guanli shidian gongzuo shishi 
fang'an], 22 January 16, sec. 1(2); Yangpu District Health and Family 
Planning Commission et al., Shanghai Municipality, ``Yangpu District, 
Shanghai Municipality, Mental Health Integrated Management Pilot 
Project Implementing Plan (2015-2017)'' [Shanghai shi yangpu qu 
jingshen weisheng zonghe guanli shidian gongzuo shishi fang'an (2015-
2017)], 9 October 15, sec. 3(2.4(3)); Liu Yang, ``For Taking Good Care 
of Persons Suffering From Mental Disorders, Annual Stipend of 2,400 
Yuan'' [Kanhu hao jingshen zhang'aizhe nian jiang 2400 yuan], Beijing 
Youth Daily, 15 March 16.
    \42\ National Health and Family Planning Commission, 
``Teleconference Convened in Beijing To Launch National Mental Health 
Integrated Management Pilot Projects'' [Quanguo jingshen weisheng 
zonghe guanli shidian gongzuo qidong shipin huiyi zai jing zhaokai], 12 
June 15. For more on the term zhaoshi zhaohuo, see Wei Xiong and 
Michael R. Phillips, translators, ``Translated and Annotated Version of 
the 2015-2020 National Mental Health Work Plan of the People's Republic 
of China,'' Shanghai Archives of Psychiatry, Vol. 28, No. 1 (2016), 
endnote 24.
    \43\ Yin Li, ``The Difficult Road `Back Home' for Those Recovering 
From Mental Illness'' [Jingshen jibing kangfuzhe jiannan ``huijia'' 
lu], Legal Daily, 16 May 16.
    \44\ National laws and regulations that promote equal access to 
employment and education and prohibit health-based discrimination 
include the PRC Law on the Protection of Persons with Disabilities 
[Zhonghua renmin gongheguo canji ren baozhang fa], passed 28 December 
90, amended 24 April 08, effective 1 July 08, arts. 3, 30-40; PRC 
Employment Promotion Law [Zhonghua renmin gongheguo jiuye cujin fa], 
passed 30 August 07, effective 1 January 08, arts. 3, 29, 30; State 
Council, Regulations on the Treatment and Control of HIV/AIDS [Aizibing 
fangzhi tiaoli], issued 18 January 06, effective 1 March 06, art. 3; 
State Council, Regulations on the Employment of Persons with 
Disabilities [Canji ren jiuye tiaoli], issued 14 February 07, effective 
1 May 07, arts. 3, 4, 13, 27. See also Li Jing and Li Jianfei, 
``Current Trends in the Development of the Chinese Social Security 
System for People With Disabilities,'' Frontiers of Law in China, Vol. 
11, No. 1 (March 2016), 9-11.
    \45\ Li Jing and Li Jianfei, ``Current Trends in the Development of 
the Chinese Social Security System for People With Disabilities,'' 
Frontiers of Law in China, Vol. 11, No. 1 (March 2016), 19.
    \46\ Supreme People's Court (SPC), ``Kong X and Beijing X 
Management Company Labor Dispute Case'' [Kong mou yu beijing mou wuye 
guanli gongsi laodong zhengyi jiufen an], 13 May 16. Commission staff 
observed that the summary of the Kong X case on the SPC China Court Net 
website cited to the provisions on the right to work and anti-
employment discrimination from the old version of the PRC Law on the 
Protection of the Rights of Persons with Disabilities (1990) rather 
than the current version of the law (revised in 2008). See PRC Law on 
the Protection of the Rights of Persons with Disabilities [Zhonghua 
renmin gongheguo canji ren baozhang fa], passed 28 December 90, 
effective 15 May 91, arts. 27, 34; PRC Law on the Protection of Persons 
with Disabilities [Zhonghua renmin gongheguo canji ren baozhang fa], 
passed 28 December 90, amended 24 April 08, effective 1 July 08, arts. 
30, 38. In May, the SPC issued 10 model cases featuring rights 
protection of persons with disabilities. These cases included civil 
disputes over property rights, divorce, and employment, among others, 
and a criminal case of sexual violence. See Yang Qing, ``Supreme 
People's Court Publicizes 10 Model Cases on Protecting the Rights and 
Interests of Persons With Disabilities'' [Zuigao renmin fayuan gongbu 
10 qi canji ren quanyi baozhang dianxing anli], China Court Net, 13 May 
16; Li Wanxiang, ``SPC Publishes 10 Model Cases, Fulfills Laws and 
Regulations To Prohibit Discrimination Against Persons With 
Disabilities'' [Zuigaofa gongbu 10 qi dianxing anli luoshi jinzhi qishi 
canji ren falu guiding], China Economic Net, 13 May 16.
    \47\ Beijing Municipality No. 2 Intermediate People's Court, 
Beijing Zhongshui Products Management Co., Ltd., and Kong X Labor 
Dispute Civil Appeal Judgment [Beijing zhongshui wuye guanli youxian 
gongsi yu kong x laodong zhengyi er shen minshi panjueshu], 19 August 
14, reprinted in OpenLaw. Commission staff observed that the second 
instance (appeals) court decision in the Kong X case cited to the 
provisions on the rights to work and anti-employment discrimination 
from the old version of the PRC Law on the Protection of the Rights of 
Persons with Disabilities (1990) rather than the current version of the 
law (revised in 2008). See PRC Law on the Protection of the Rights of 
Persons with Disabilities [Zhonghua renmin gongheguo canji ren baozhang 
fa], passed 28 December 90, effective 15 May 91, arts. 27, 34; PRC Law 
on the Protection of Persons with Disabilities [Zhonghua renmin 
gongheguo canji ren baozhang fa], passed 28 December 90, amended 24 
April 08, effective 1 July 08, arts. 30, 38. For the first instance 
trial verdict, which did not cite to the PRC Law on the Protection of 
the Rights of Persons with Disabilities, see Beijing Municipality 
Xicheng People's Court, Kong Xia and Beijing Zhongshui Products 
Management Co., Ltd., Labor Dispute First Instance Civil Judgment [Kong 
xia yu beijing zhongshui wuye guanli youxian gongsi laodong zhengyi 
yishen minshi panjueshu], 19 March 14, reprinted in OpenLaw.
    \48\ Han Linjun, ``Plaintiff Wins Lawsuit in HIV/AIDS Employment 
Discrimination Case in Guizhou'' [Guizhou aizibing jiuye qishi an 
yuangao shengsu], Beijing Times, 12 May 16.
    \49\ Ibid.
    \50\ See, e.g., Tan Jun, ``Person With Disability From Hunan Ranked 
First in Civil Servant Exam Ultimately Not Hired, Physical Eligibility 
Standards Are Said To Be Employment Discrimination'' [Hunan yi canji 
ren kao gongzhi chengji di yi zuizhong luoxuan, tijian biaozhun bei zhi 
jiuye qishi], The Paper, 17 August 16; ``Eliminate Systemic Employment 
Discrimination Against Persons With Disabilities'' [Xiaochu canji ren 
jiuye de zhiduxing qishi], Securities Times, 19 August 16; ``Refused 
Employment Due to Being HIV-Positive, Young Guy in Jiangxi Sues Human 
Resources Department'' [Yin ganran aizi qiuzhi zao ju, jiangxi xiao huo 
qisu rensheju], China Free Press, 14 April 16.
    \51\ See, e.g., Luo Ruiyao, ``China Still Has 83,000 Disabled 
Children Deprived of an Education, Special Education Situation Is 
Difficult'' [Zhongguo reng you 8.3 wan canji ertong shixue tejiao 
xingshi jianju], Caixin, 1 December 15; Tan Jun, ``Person With 
Disability From Hunan Ranked First in Civil Servant Exam Ultimately Not 
Hired, Physical Eligibility Standards Are Said To Be Employment 
Discrimination'' [Hunan yi canji ren kao gongzhi chengji di yi zuizhong 
luoxuan, tijian biaozhun bei zhi jiuye qishi], The Paper, 17 August 16.
    \52\ Wang Xiaofang, ``Parents Questioned Medical School's Refusal 
To Admit Student With Low Vision'' [Yixueyuan jushou shican kaosheng 
zao jiazhang zhiyi], Beijing Youth Daily, 26 July 16. See also Zhang 
Min and Jiang Xin, ``Admissions Refused for Henan Student With Weak 
Color Vision, University Says It's Fair and Legal'' [Henan seruo 
kaosheng bei tuidang suobao daxue cheng heli hefa], China Youth Daily, 
20 July 16.
    \53\ Tan Jun, ``Person With Disability From Hunan Ranked First in 
Civil Servant Exam Ultimately Not Hired, Physical Eligibility Standards 
Are Said To Be Employment Discrimination'' [Hunan yi canji ren kao 
gongzhi chengji di yi zuizhong luoxuan, tijian biaozhun bei zhi jiuye 
qishi], The Paper, 17 August 16; Qian Fengwei, ``Calling for Equal 
Treatment in Employment of Persons With Disabilities'' [Canji ren jiuye 
huhuan pingdeng duidai], Beijing Morning Post, reprinted in Xinhua, 18 
August 16.
    \54\ See Ministry of Education, Guiding Opinion on Regular 
University-Level Student General Admissions Physical Eligibility Work 
[Putong gaodeng xuexiao zhaosheng tijian gongzuo zhidao yijian], 3 
March 03; Ministry of Human Resources and Ministry of Health, Civil 
Servant General Recruitment Physical Eligibility Standards (Trial) 
[Gongwuyuan luyong tijian tongyong biaozhun (shixing)], issued 17 
January 05, reprinted in State Administration of Civil Service, 29 
October 08.
    \55\ ``Discussing the Problem of Chinese Disabled Persons' 
Enjoyment of the Right to Higher Education'' [Tantao zhongguo canzhang 
renshi xiangshou gaodeng jiaoyu quanli de wenti], Radio Free Asia, 12 
August 16. See also CECC, 2013 Annual Report, 10 October 13, 122-23; 
CECC, 2012 Annual Report, 10 October 12, 112.
    \56\ Rights Defense Network (RDN), ``Blind Persons From Hefei 
Criminally Detained at Province's Disability Federation Office While 
Asking To Meet With Director, Family Members of the Blind Persons Say 
Disability Federation Is Making Local Police Harass Disabled Persons'' 
[Hefei shi mang ren dao sheng canlian yaoqiu jian canlian lingdao bei 
xingju, mang ren jiaren zhi canlian zhishi jingcha zhenya canji ren], 
25 March 16. According to RDN, in December 2015, authorities in Hefei 
municipality, Anhui province, arrested five of the blind advocates on 
the charge of ``gathering a crowd to disturb social order.'' RDN 
reported that authorities released one individual (unnamed in the 
article) on bail (``release on guarantee pending investigation''). For 
information on the other four cases, see the Commission's Political 
Prisoner Database records 2016-00244 on Li Xiaojun, 2016-00246 on Gao 
Junkai, 2016-00247 on Xu Zimao, and 2016-00248 on Fei Qinxu.

                                                The Environment
                                                The Environment

                            The Environment


                              Introduction

    While the Chinese government pointed to areas of progress 
in environmental protection and enforcement during the 
Commission's 2016 reporting year,\1\ air,\2\ water,\3\ and soil 
pollution \4\ challenges remained and continued to be a source 
of public discontent.\5\ The Chinese government and Communist 
Party took regulatory \6\ and policy action \7\ to increase 
environmental protection and combat climate change; however, 
officials continued to tightly control media reporting and 
commentary on the environment,\8\ and extralegally detained 
environmental \9\ and statistics bureau officials.\10\ A former 
energy official alleged that Chinese authorities used torture 
to force him to confess to corruption.\11\ Official government 
and media reports indicated that there were some improvements 
in public participation,\12\ yet authorities continued to 
harass, and in some cases detain, environmental advocates.\13\ 
U.S.-China cooperation on environmental and climate change 
issues continued.\14\

             Health Effects and Economic Costs of Pollution

    Chinese and international media reports focusing on air 
pollution this past year revealed that the problem remains 
severe, with ongoing economic \15\ and public health \16\ 
implications. Government-published statistics from 2015 
indicated that 80 percent of monitored cities failed to meet 
national air quality standards,\17\ and one international study 
estimated that 1.6 million premature deaths per year in China 
were linked to air pollution.\18\ According to one Chinese 
researcher, the government's current emissions reduction 
targets are inadequate and ``more aggressive policies are 
urgently needed.'' \19\ The Chinese Academy of Environmental 
Planning estimated that the costs of pollution in China were 
3.5 percent of GDP as of 2010, totaling 1.54 trillion yuan 
(approximately US$238 billion),\20\ while a non-profit 
institution estimated the costs of air pollution in China as 
totaling at least 6.5 percent of GDP (approximately US$442 
billion).\21\

------------------------------------------------------------------------
   Air Pollution in Beijing Municipality: ``Red Alerts'' and Changing
                               Benchmarks
-------------------------------------------------------------------------
  In one example of costly government action taken this past year,
 authorities in Beijing municipality issued air pollution ``red alerts''
 from December 8 to 10 \22\ and December 19 to 22, 2015,\23\
 implementing emergency measures such as shutting down schools,
 prohibiting the driving of cars, and advising Beijing residents to wear
 face masks outside.\24\ In February 2016, however, authorities raised
 the threshold for ``red alerts.'' \25\ One Chinese environmental expert
 noted that if the threshold had not been raised, the number of ``red
 alerts'' per year would have resulted in ``high social and economic
 cost[s].'' \26\
------------------------------------------------------------------------


------------------------------------------------------------------------
   Air Pollution in Beijing Municipality: ``Red Alerts'' and Changing
                          Benchmarks--Continued
-------------------------------------------------------------------------
  Chinese and international experts have expressed concern that Chinese
 government reporting on air pollution is misleading and that
 authorities have ``manipulated'' public information on air quality ``in
 order to influence people's expectations.'' \27\ In September 2013, for
 example, the Beijing municipal government set a target that fine
 particulate concentrations would decrease by around 25 percent from
 2012 levels by 2017.\28\ In 2015, the Beijing government reported
 improvement in the city's annual fine particulate concentrations
 compared to 2014 levels.\29\ Beijing's fine particulate concentration
 levels, however, had not improved from the original 2012 benchmark.\30\
------------------------------------------------------------------------

    Media and research reports this past year also showed that 
water and soil pollution in China remained areas of significant 
concern.\31\ In April 2016, the Ministry of Water Resources 
reported that nearly 50 percent of ground water was of 
``extremely bad'' quality and another 30 percent was ``bad.'' 
\32\ According to a prominent Chinese environmental expert, 
water designated as ``bad'' is not safe for human contact.\33\ 
With regard to soil pollution in China, a senior government 
official cautioned that the problem is ``serious,'' stating 
``it's not easy to be optimistic.'' \34\ In May 2016, the State 
Council issued an Action Plan for Soil Pollution Prevention and 
Control with a goal that 90 percent of polluted land would be 
safe for use by 2020.\35\

         Environmental Censorship and Environmental Emergencies

    During this reporting year, Chinese authorities continued 
to censor reporting (``guide public opinion'') on the 
environment and environmental emergencies.\36\ In February 
2016, China's Minister of Environmental Protection, Chen 
Jining, avoided answering a question about the March 2015 film 
``Under the Dome,'' which examined air pollution in China and 
received over 200 million views in China before authorities 
ordered its removal.\37\ Chen had previously praised the 
film.\38\ During the annual meetings of the National People's 
Congress and Chinese People's Political Consultative Conference 
in March 2016, the Central Propaganda Department reportedly 
prohibited Chinese media from reporting on the smog.\39\ 
Chinese authorities also restricted reporting on environmental 
emergencies, including the August 2015 explosion of a hazardous 
goods warehouse in Tianjin municipality,\40\ the December 2015 
landslide in Shenzhen municipality,\41\ and widespread flooding 
across China in summer 2016.\42\ In 2015, the officially 
reported number of ``environmental emergencies'' declined to 
330,\43\ down from 471 in 2014 and 712 in 2013.\44\

       Anticorruption Campaign Targeting Environmental Officials

    During the reporting year, Chinese authorities extralegally 
detained and investigated senior environmental and statistics 
bureau officials for alleged corruption-related offenses, and 
one former energy official alleged that he had been tortured. 
In November 2015, Minister of Environmental Protection Chen 
Jining said that China ``must strengthen the legal construction 
over environmental protection and protect the environment in a 
lawful manner.'' \45\ Chinese authorities, however, utilized 
shuanggui procedures \46\ to investigate officials for 
corruption in cases involving alleged offenses that may have 
affected the environment and statistical data.\47\ Shuanggui is 
an extralegal form of detention used for Party officials that 
violates Chinese law \48\ and contravenes international 
standards on arbitrary detention.\49\ [For more information on 
shuanggui, see Section II--Criminal Justice.] In February 2016, 
a former senior National Energy Administration official alleged 
that government authorities tortured him to confess to 
corruption.\50\ Recent examples from the anticorruption 
campaign included:

        <bullet> Zhang Lijun. In July 2015, Party authorities 
        detained Zhang Lijun, a former Vice Minister of the 
        Ministry of Environmental Protection.\51\ His detention 
        reportedly was linked to accepting bribes to manipulate 
        state emissions standards to permit the sale of 
        vehicles that would not otherwise have complied with 
        emissions standards.\52\ In December, Party authorities 
        expelled Zhang from the Party.\53\
        <bullet> Wang Bao'an. In January 2016, Party 
        authorities detained the Director of the National 
        Bureau of Statistics of China (NBS) Wang Bao'an.\54\ 
        Although some media reports indicated that Wang's 
        detention may have been due to his previous work at the 
        Ministry of Finance,\55\ other reports noted that 
        Wang's detention raised questions about the 
        government's energy and economic reporting.\56\ In 
        February, state-run news agency Xinhua reported that 
        the Central Commission for Discipline Inspection had 
        found that ``some leading [NBS] cadres'' were ``seeking 
        personal gains through abuse of powers including data 
        fabrication.'' \57\ Wang previously met with a senior 
        U.S. energy official to discuss cooperation regarding 
        energy statistics work.\58\
        <bullet> Xu Yongsheng. In February 2016, Xu Yongsheng, 
        a former deputy director of the National Energy 
        Administration, reportedly claimed during his trial at 
        the Beijing No. 1 Intermediate People's Court that 
        authorities had used torture to force him to sign a 
        confession.\59\ Authorities alleged that Xu, who was 
        first detained in May 2014, had accepted 5.6 million 
        yuan (approximately US$800,000) from eight state-owned 
        enterprises in exchange for licenses for 27 power 
        plants.\60\

          Progress and Challenges in Environmental Enforcement

    Official reports indicated that amid ongoing challenges, 
authorities strengthened environmental enforcement in some 
areas. For example, according to the Supreme People's Court, 
Chinese courts concluded 78,000 civil and 19,000 criminal 
environmental cases in 2015.\61\ The criminal cases concluded 
represented an increase of 18.8 percent over 2014.\62\ 
According to the Ministry of Environmental Protection (MEP), in 
2015, environmental authorities punished 191,000 firms for 
violating environmental regulations and fined polluters 4.25 
billion yuan (approximately US$654 million)--a 34-percent 
increase over 2014.\63\ MEP reportedly faced challenges in 
collecting fines from state-owned enterprises and other 
politically connected companies.\64\ In some cases, MEP 
attempted to put pressure on provincial and local officials by 
summoning them to Beijing \65\ to discuss environmental 
violations and pollution in person.\66\ MEP also continued to 
implement 2015 revisions \67\ to the PRC Environmental 
Protection Law (EPL) that allow for the imposition of daily 
fines for violating emissions standards. A Chinese expert, 
however, criticized MEP for issuing daily fines in an 
insufficient number of cases.\68\ In one example that drew 
national criticism,\69\ in March 2016, local environmental 
officials in Gaoyou city, Yangzhou municipality, Jiangsu 
province, penalized the Guangming Chemical Plant with a fine of 
603 yuan (approximately US$92) after it reportedly released 
pollution into the water in violation of legal standards, 
causing significant fish deformities.\70\
    Local government officials showed concern about the cost of 
environmental protection against the backdrop of a slowing 
economy and overcapacity.\71\ In one example, the mayor of 
Shijiazhuang municipality in Hebei province reportedly 
criticized environmental protection efforts, lamenting that 
government measures, including those taken against inefficient 
industry and heavily polluting industry, had cost the city 
government 12 billion yuan (approximately US$1.8 billion) in 
revenue due to decreased industrial production.\72\

                        Regulatory Developments

    During the reporting year, there were some encouraging 
environmental regulatory developments, but also areas of 
significant concern.\73\ In October 2015, the Chinese 
government reportedly announced plans to revise the PRC 
Environmental Impact Assessment Law and the Regulations on 
Planning Environmental Impact Assessments.\74\ In December 
2015, the National People's Congress (NPC) released draft 
revisions to the PRC Wild Animal Protection Law.\75\ Experts in 
China and abroad raised concerns \76\ that the draft revisions 
could provide a legal basis for animal exploitation for the 
purposes of captive breeding, Chinese traditional medicine, and 
wildlife shows.\77\ In July 2016, the NPC passed an amended PRC 
Wild Animal Protection Law.\78\ An international non-
governmental organization described the amended law as a 
``missed opportunity'' and expressed concern that the amendment 
provides a legal basis for the sale of products from endangered 
species including tigers and elephants.\79\ Amid serious 
concerns about air quality in China,\80\ the PRC Air Pollution 
Prevention and Control Law, which the NPC passed on August 29, 
2015, took effect on January 1, 2016.\81\

     Public Participation and Harassment of Environmental Advocates

    The revised PRC Environmental Protection Law (EPL), which 
took effect on January 1, 2015, provided a stronger legal basis 
for public participation in environmental public interest 
lawsuits,\82\ yet citizens continued to face obstacles in their 
pursuit of environmental justice.\83\ According to one Chinese 
law professor, Chinese courts showed ``major progress'' in 2015 
in their acceptance of 53 environmental public interest 
lawsuits.\84\ In October 2015, in the first case filed under 
the revised EPL, the Nanping Intermediate People's Court in 
Nanping municipality, Fujian province, issued a 1.46 million 
yuan (US$230,000) verdict against a quarry for illegally 
dumping waste material in a suit brought by the environmental 
non-governmental organizations (NGOs) Friends of Nature and 
Fujian Green Home.\85\ In January 2016, the Supreme People's 
Court upheld a judgment greater than 160 million yuan (US$26 
million) in water pollution litigation brought by the Taizhou 
City Environmental Protection Association, a government-
organized NGO, against six chemical companies in Taizhou 
municipality, Jiangsu province.\86\
    Chinese authorities detained and harassed some 
environmental advocates who challenged government actions on 
the environment. Examples from the past reporting year 
included:

        <bullet> In November 2015, the Panjin Intermediate 
        People's Court in Panjin municipality, Liaoning 
        province, reportedly upheld a first-instance judgment 
        that imposed a 12-year prison sentence on 
        environmentalist Tian Jiguang for extortion, 
        embezzlement, and misappropriation of funds.\87\ Tian 
        is the founder and leader of the Panjin City 
        Association of Volunteers for the Protection of the 
        Spotted Seal. Chinese authorities reportedly detained 
        him in October 2013 for a blog post he wrote 
        criticizing water pollution by a state-owned 
        enterprise.\88\ In April 2016, the Panjin Intermediate 
        People's Court issued a decision accepting a retrial 
        request filed by Tian's wife; however, during the 
        retrial the prior judgment remained effective.\89\
        <bullet> The Chinese public also expressed their 
        frustrations in a number of environmental protests 
        during the reporting year. In October 2015, Chinese 
        authorities detained a large number of people during 
        protests outside a cement factory in Guangdong 
        province.\90\ In March 2016, authorities in Urad 
        (Wulate) Middle Banner, Inner Mongolia Autonomous 
        Region, reportedly detained 20 protesters for giving 
        interviews to foreign reporters about their efforts to 
        protect their grazing lands.\91\ In April 2016, parents 
        in Changzhou municipality, Jiangsu, protested and 
        environmental groups filed litigation concerning a 
        school built next to three chemical factories that 
        reportedly illegally dumped hazardous substances near a 
        school site, allegedly causing some students to become 
        seriously ill.\92\ In June 2016, two individuals were 
        detained for protesting a waste incineration plant in 
        Ningxiang county, Changsha municipality, Hunan 
        province.\93\ In August 2016, thousands of people 
        reportedly protested government-approved plans to build 
        a nuclear processing plant in Lianyungang municipality, 
        Jiangsu.\94\

              Climate Change and International Cooperation

    This past year, although China remained the largest emitter 
of carbon dioxide, the Chinese government committed to 
increasing efforts to address climate change and environmental 
protection. In 2015, China was the largest source of carbon 
dioxide emissions in the world,\95\ and the National Bureau of 
Statistics of China (NBS) reportedly released revised data 
indicating that China's annual coal consumption over the past 
decade had been as much as 17 percent greater than previously 
reported.\96\ In March 2016, as part of the 13th Five-Year 
Plan, Chinese authorities announced a 2020 target for total 
energy consumption.\97\ According to one media report,\98\ the 
target announced in March 2016 \99\ represented an increase 
from an official target announced in November 2014.\100\ In 
2015, China's power sector reportedly added 64 gigawatts of 
coal-fired generating capacity, compared to an increase of 
around 35 gigawatts in 2014, after central government officials 
transferred approval authority over new power plants to local 
governments.\101\
    During this reporting year, the governments of the United 
States and China closely cooperated on climate change and 
environmental protection, including the following examples:

        <bullet> In June 2016, 39 of the 120 reported outcomes 
        of the eighth round of the U.S.-China Strategic and 
        Economic Dialogue Strategic Track were related to 
        cooperation on climate change and energy (27 outcomes) 
        and cooperation on environmental protection (12 
        outcomes).\102\
        <bullet> In September 2015, during Chinese President Xi 
        Jinping's visit to Washington, D.C., President Barack 
        Obama and President Xi issued a joint statement 
        reaffirming their commitment to addressing climate 
        change.\103\
        <bullet> In April 2016, China signed the Paris 
        Agreement under the United Nations Framework Convention 
        on Climate Change.\104\ The Chinese government 
        submitted, in June 2015, an Intended Nationally 
        Determined Contribution to the United Nations Framework 
        Convention on Climate Change for the Paris Agreement to 
        ``lower carbon dioxide emissions per unit of Gross 
        Domestic Product by 60-65 percent from the 2005 level'' 
        by 2030.\105\

                                                The Environment
                                                The Environment
    Notes to Section II--The Environment

    \1\ Ministry of Environmental Protection, ``2015 Bulletin on the 
State of the Environment in China'' [2015 zhongguo huanjing zhuangkuang 
gongbao], 20 May 16, 1-6; ``Report on the Work of the Government,'' 
Xinhua, 17 March 16; Beijing Municipality Environmental Protection 
Bureau, ``2015 Bulletin on the State of the Environment in Beijing 
Municipality'' [2015 beijing shi huanjing zhuangkuang gongbao], April 
2016, 1.
    \2\ Ma Tianjie, ``China's Environment in 2015: A Year in Review,'' 
China Dialogue, 23 December 15; Robert A. Rohde and Richard A. Muller, 
``Air Pollution in China: Mapping of Concentrations and Sources,'' PLOS 
ONE, Vol. 10(8), 20 August 15; Rachael Jolley, ``China Must Stop 
Censoring the Debate on Killer Air Pollution,'' New Scientist, 28 
October 15.
    \3\ Li Jing, ``80 Per Cent of Groundwater in China's Major River 
Basins Is Unsafe for Humans, Study Reveals,'' South China Morning Post, 
12 April 16; Chris Buckley and Vanessa Piao, ``Rural Water, Not City 
Smog, May Be China's Pollution Nightmare,'' New York Times, 11 April 
16; ``Xinhua Insight: China Thirsts for Change as Water Crisis Hits,'' 
Xinhua, 21 January 16.
    \4\ ``Action Plan Targets Soil Pollution,'' China Daily, reprinted 
in Ministry of Environmental Protection, 2 June 16; ``Chen Jining: 
Ministry of Environmental Protection Currently Drafting Soil Pollution 
Law'' [Chen jining: huanbaobu zheng zai qicao turang wuran fangzhi fa], 
People's Daily, 7 March 15; Li Jing and Ting Yan, ``Parents Unconvinced 
as Chinese Authorities Pledge Investigations Into Soil Blamed for 
Students' Health Problems, Including Cancer,'' South China Morning 
Post, 19 April 16; Ben Blanchard, ``Amid `Serious' Situation, China 
Eyes Soil Pollution Law in 2017,'' Reuters, 9 March 16.
    \5\ Li Jing and Ting Yan, ``Parents Unconvinced as Chinese 
Authorities Pledge Investigations Into Soil Blamed for Students' Health 
Problems, Including Cancer,'' South China Morning Post, 19 April 16; 
``Guangdong Riot Police Crack Down on Two Waste Pollution Protests,'' 
Radio Free Asia, 14 October 15.
    \6\ PRC Air Pollution Prevention and Control Law [Zhonghua renmin 
gongheguo daqi wuran fangzhi fa], passed 5 September 87, amended 29 
August 95, 29 April 00, 29 August 15, effective 1 January 16.
    \7\ National People's Congress, PRC Outline of the 13th Five-Year 
Plan for National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shisan ge wunian guihua 
gangyao], issued 17 March 16.
    \8\ See, e.g., Cary Huang, ``Press Freedom Needed To Win China's 
Choking Air Pollution Battle,'' South China Morning Post, 8 December 
15; Matthew Auer and King-wa Fu, ``Clearing the Air: Investigating 
Weibo Censorship in China: New Research To Show Censorship of 
Microbloggers Who Spoke Out About Pollution Documentary,'' Index on 
Censorship, Vol. 44, No. 3 (September 2015), 76-79; China Digital 
Times, ``Minitrue: 21 Rules on Coverage of the Two Sessions,'' 8 March 
16; China Digital Times, ``Minitrue: Media Directives on Tianjin Port 
Explosion,'' 13 August 15.
    \9\ ``CPC Expels Former Environment Official for Corruption,'' 
Xinhua, reprinted in China Daily, 31 December 15; ``Zhang Lijun Sacking 
Reveals Chain of Environmental Interests, Number of Other Officials 
Also Reported'' [Zhang lijun luoma jiekai huanbao liyi lian duo 
guanyuan tong bei jubao], China Business Journal, reprinted in Sohu, 9 
August 15.
    \10\ Central Commission for Discipline Inspection and Ministry of 
Supervision, ``National Bureau of Statistics Communist Party Secretary 
and Bureau Chief Wang Bao'an Under Investigation for Serious Violations 
of Discipline'' [Guojia tongjiju dangzu shuji, juzhang wang bao'an 
shexian yanzhong weiji jieshou zuzhi diaocha], 26 January 16; Saibal 
Dasgupta, ``Probe Targeting China's Statistic Head Sparks Concern,'' 
Voice of America, 11 February 16; Jun Mai, ``China's Statistics Chief 
Wang Baoan Detained in Graft Investigation,'' South China Morning Post, 
26 January 16.
    \11\ Austin Ramzy, ``Ex-Official in China Blames Torture for Graft 
Confession,'' New York Times, Sinosphere (blog), 25 February 16; Luo 
Jieqi and Cui Houjian, ``Former National Energy Administration Deputy 
Director Xu Yongsheng on Trial, Asserts Innocence in Court and Says 
Confession Forced'' [Guojia nengyuanju yuan fu juzhang xu yongsheng 
shoushen dang ting hanyuan cheng zao bigong], Caixin, 24 February 16.
    \12\ Ministry of Environmental Protection, ``2015 Bulletin on the 
State of the Environment in China'' [2015 zhongguo huanjing zhuangkuang 
gongbao], 20 May 16, 4; Beijing Municipality Environmental Protection 
Bureau, ``2015 Bulletin on the State of the Environment in Beijing 
Municipality'' [2015 beijing shi huanjing zhuangkuang gongbao], April 
2016, 33; Zhang Chun, ``China Court Rules in Favour of First Public 
Interest Environmental Lawsuit,'' China Dialogue, 11 November 15; Liu 
Qin, ``Will China's Environmental Law Help To Win `War on Pollution?' 
'' China Dialogue, 22 March 16.
    \13\ Yaxue Cao, ``12 Years in Prison for Trying To Protect Spotted 
Seals,'' China Change, 16 November 15; ``Shanghai Pollution Fee Scheme 
Doesn't Attack the Causes of Smog: Commentators,'' Radio Free Asia, 17 
December 15; ``China Holds Lawyers, Threatens Activist Amid Mongolian 
Pollution Protest,'' Radio Free Asia, 18 April 16; ``Officials Call for 
Calm Amid Mass Pollution Protests in China's Hubei,'' Radio Free Asia, 
27 June 16.
    \14\ U.S. Department of State, ``U.S.-China Strategic & Economic 
Dialogue Outcomes of the Strategic Track,'' 24 June 15; Beth Walker, 
``Interview: China's Environmental Challenges,'' China Dialogue, 9 
February 16.
    \15\ Keith Crane and Zhimin Mao, RAND, ``Costs of Selected Policies 
To Address Air Pollution in China,'' 2015.
    \16\ Robert A. Rohde and Richard A. Muller, ``Air Pollution in 
China: Mapping of Concentrations and Sources,'' PLOS ONE, Vol. 10(8), 
20 August 15; Li Jing, ``80 Per Cent of Groundwater in China's Major 
River Basins Is Unsafe for Humans, Study Reveals,'' South China Morning 
Post, 12 April 16; Li Jing and Ting Yan, ``Parents Unconvinced as 
Chinese Authorities Pledge Investigations Into Soil Blamed for 
Students' Health Problems, Including Cancer,'' South China Morning 
Post, 19 April 16.
    \17\ Greenpeace, ``A Summary of the 2015 Annual PM2.5 City 
Rankings,'' 20 January 16; ``Ministry Says China Air Quality `Improved' 
in 2015,'' Xinhua, reprinted in Global Times, 4 February 16.
    \18\ Robert A. Rohde and Richard A. Muller, ``Air Pollution in 
China: Mapping of Concentrations and Sources,'' PLOS ONE, Vol. 10(8), 
20 August 15. See also Dan Levin, ``Study Links Polluted Air in China 
to 1.6 Million Deaths a Year,'' New York Times, 13 August 15.
    \19\ Alan Yuhas, ``Scientists: Air Pollution Led to More Than 5.5 
Million Premature Deaths in 2013,'' Guardian, 12 February 16. As noted 
in the Guardian report, ``[Qiao Ma] said coal burned for electricity 
was the largest polluter in the country, and that China's new targets 
to reduce emissions, agreed at the Paris climate talks last year, do 
not go far enough . . .. `We think that more aggressive policies are 
urgently needed,' Ma said.''
    \20\ Ministry of Environmental Protection, ``Who Says Green GDP Was 
Short-Lived? From a Focus, to Temporary Suspension, to Starting the 
Process Yet Again'' [Luse GDP shui shuo shi tanhua? cong redian dao 
zanshi tingbai, zai dao you yici ta shang zhengcheng], reprinted in 
Xinhua, 25 March 16. See American Chamber of Commerce in China, ``2016 
American Business in China White Paper,'' April 2016, 188.
    \21\ Keith Crane and Zhimin Mao, RAND, ``Costs of Selected Policies 
To Address Air Pollution in China,'' 2015.
    \22\ Beijing Municipality Environmental Protection Bureau, 
``Beijing Initiates First Heavy Air Pollution Red Alert'' [Woshi shouci 
qidong kongqi zhong wuran hongse yujing], 7 December 15.
    \23\ Beijing Municipality Environmental Protection Bureau, 
``Beijing Again Initiates Heavy Air Pollution Red Alert'' [Woshi zaici 
qidong kongqi zhong wuran hongse yujing], 18 December 15.
    \24\ Te-Ping Chen and Brian Spegele, ``China's Red Alert on Air 
Pollution Puts Focus on Regulators,'' Wall Street Journal, 8 December 
15; ``China Smog: Beijing Issues Second Ever Pollution Red Alert,'' 
BBC, 18 December 15; Barbara Finamore, ``What China's Second Red Alert 
Means for the Future of Clean Energy,'' Fortune, 6 January 16. See also 
Beijing Municipal People's Government, ``Beijing Municipality Heavy Air 
Pollution Emergency Plan'' [Beijing shi kongqi zhong wuran yingji 
yu'an], issued 16 March 15.
    \25\ Ministry of Environmental Protection and China Meteorological 
Administration, ``Letter Regarding Unifying Heavy Pollution Alert 
Classifying Standards in Beijing, Tianjin, and Hebei and Strengthening 
Heavy Pollution Response Work'' [Guanyu tongyi jing jin ji chengshi 
zhong wuran tianqi yujing fenji biaozhun qianghua zhong wuran tianqi 
yingdui gongzuo de han], 2 February 16; Owen Guo, ``Beijing To Raise 
Threshold on Red Alerts for Smog,'' New York Times, 22 February 16.
    \26\ Owen Guo, ``Beijing To Raise Threshold on Red Alerts for 
Smog,'' New York Times, 22 February 16.
    \27\ Yana Jin et al., ``China, Information and Air Pollution,'' Vox 
EU, 2 December 15. See also Steven Q. Andrews, ``China's Air Pollution 
Reporting Is Misleading,'' China Dialogue, 27 March 14.
    \28\ Beijing Municipal People's Government General Office, 
``Beijing Municipality 2013-2017 Clean Air Action Plan Major Task 
Breakdown'' [Beijing shi 2013-2017 nian qingjie kongqi xingdong jihua 
zhongdian renwu fenjie], issued 23 August 13.
    \29\ Beijing Municipality Environmental Protection Bureau, ``2015 
Bulletin on the State of the Environment in Beijing Municipality'' 
[2015 beijing shi huanjing zhuangkuang gongbao], April 2016, 3. In 
2015, the annual average PM<INF>2.5</INF> concentration in Beijing 
municipality was reported as 80.6 micrograms per cubic meter. See also 
Beijing Municipal People's Government General Office, ``Beijing 
Municipality 2013-2017 Clean Air Action Plan Major Task Breakdown'' 
[Beijing shi 2013-2017 nian qingjie kongqi xingdong jihua zhongdian 
renwu fenjie], issued 23 August 13. In 2012, the annual average 
PM<INF>2.5</INF> concentration in Beijing was approximately 80 
micrograms per cubic meter.
    \30\ Ibid.
    \31\ Li Jing, ``80 Per Cent of Groundwater in China's Major River 
Basins Is Unsafe for Humans, Study Reveals,'' South China Morning Post, 
12 April 16; Ministry of Water Resources, ``Groundwater Quality Monthly 
Report'' [Dixia shui dongtai yuebao], April 2016, 1; Ben Blanchard, 
``Amid `Serious' Situation, China Eyes Soil Pollution Law in 2017,'' 
Reuters, 9 March 16.
    \32\ Ministry of Water Resources, ``Groundwater Quality Monthly 
Report'' [Dixia shui dongtai yuebao], April 2016, 1; Li Qin, ``Clear as 
Mud: How Poor Data Is Thwarting China's Water Clean-Up,'' China 
Dialogue, 18 May 16; Li Jing, ``80 Per Cent of Groundwater in China's 
Major River Basins Is Unsafe for Humans, Study Reveals,'' South China 
Morning Post, 12 April 16.
    \33\ Li Jing, ``80 Per Cent of Groundwater in China's Major River 
Basins Is Unsafe for Humans, Study Reveals,'' South China Morning Post, 
12 April 16. See also Ministry of Water Resources, ``Groundwater 
Quality Monthly Report'' [Dixia shui dongtai yuebao], April 2016.
    \34\ Ben Blanchard, ``Amid `Serious' Situation, China Eyes Soil 
Pollution Law in 2017,'' Reuters, 9 March 16.
    \35\ State Council, ``Soil Pollution Prevention and Control Action 
Plan'' [Turang wuran fangzhi xingdong jihua], issued 28 May 16; Karl S. 
Bourdeau and Sarah A. Kettenmann, ``China Announces Action Plan To 
Tackle Soil Pollution,'' Beveridge and Diamond, P.C., Environmental Law 
Portal, 6 June 16.
    \36\ See, e.g., Cary Huang, ``Press Freedom Needed To Win China's 
Choking Air Pollution Battle,'' South China Morning Post, 8 December 
15; Matthew Auer and King-wa Fu, ``Clearing the Air: Investigating 
Weibo Censorship in China: New Research To Show Censorship of 
Microbloggers Who Spoke Out About Pollution Documentary,'' Index on 
Censorship, Vol. 44, No. 3 (September 2015), 76-79; China Digital 
Times, ``Minitrue: 21 Rules on Coverage of the Two Sessions,'' 8 March 
16; China Digital Times, ``Minitrue: Media Directives on Tianjin Port 
Explosion,'' 13 August 15; David Bandurski, ``Taming the Flood: How 
China's Leaders `Guide' Public Opinion,'' Asia Society, ChinaFile 
(blog), 20 July 15.
    \37\ Te-Ping Chen, ``China Is Winning Environmental Clean-Up Race, 
Minister Says,'' Wall Street Journal, China Real Time Report (blog), 19 
February 16; Daniel K. Gardner, ``Why `Under the Dome' Found a Ready 
Audience in China,'' New York Times, 18 March 15.
    \38\ Te-Ping Chen, ``China Is Winning Environmental Clean-Up Race, 
Minister Says,'' Wall Street Journal, China Real Time Report (blog), 19 
February 16. See also Pan Yue, ``The Environment Needs Public 
Participation,'' China Dialogue, 5 December 06.
    \39\ China Digital Times, ``Minitrue: 21 Rules on Coverage of the 
Two Sessions,'' 8 March 16; Didi Kirsten Tatlow, ``What Chinese Media 
Mustn't Cover at the `2 Sessions,' '' New York Times, Sinosphere 
(blog), 9 March 16.
    \40\ China Digital Times, ``Minitrue: Media Directives on Tianjin 
Port Explosion,'' 13 August 15; Gabriel Dominguez, ``China's Official 
Response to Emergencies Is `Censorship,' '' Deutsche Welle, 18 August 
15; Stanley Lubman, ``The Tianjin Explosions: A Signal for Reform,'' 
Wall Street Journal, China Real Time Report (blog), 7 September 15.
    \41\ ``A Deadly Landslide Exposes the Depths of China's Corruption 
and Censorship,'' Washington Post, 29 December 15; Joyce Hwang, ``China 
Trying To Determine Culpability for Massive Landslide,'' Voice of 
America, 23 December 15; Chris Buckley and Austin Ramzy, ``Before 
Shenzhen Landslide, Many Saw Warning Signs as Debris Swelled,'' New 
York Times, 22 December 15; Kim Kyung-Hoon, ``China Makes Five More 
Arrests Over Deadly Shenzhen Landslide--Xinhua,'' Reuters, 9 January 
16.
    \42\ China Digital Times, ``Media & Censors Promote Positivity on 
Deadly Floods,'' 11 July 16; Oiwan Lam, ``Chinese Censors Are Making 
Sure Social Media Only Shows Positive Flooding News,'' Global Voices, 
11 July 16; Echo Huang Yinyin and Zheping Huang, ``The Chinese 
Government's Incompetence Caused Flooding Deaths in Hebei, Villagers 
Say,'' Quartz, 27 July 16; Xingtai Announcements (Xingtai fabu), 
``Xingtai Municipality Public Security Bureau Handling Case of Three 
Online Rumor Disseminators According to Law'' [Xingtai shi gong'anju 
dui san ming wangshang sanbu yaoyanzhe yifa jinxing chuli], Weibo post, 
26 July 16, 10:44 a.m. Chinese authorities punished three individuals 
for posting ``rumors'' about death tolls.
    \43\ ``MEP: In 2015, Total of 330 Environmental Emergencies Took 
Place in China'' [Huanbaobu: 2015 nian quanguo gong fasheng tufa 
huanjing shijian 330 qi], Xinhua, 13 April 16; Ministry of 
Environmental Protection, ``MEP Releases a Report on the Facts of Major 
Environmental Emergencies in 2015,'' 27 April 16.
    \44\ Ministry of Environmental Protection, ``Bulletin on the Basic 
Situation of Emergency Environmental Incidents in 2014'' [Huanjing 
baohubu tongbao 2014 nian tufa huanjing shijian jiben qingkuang], 23 
January 15.
    \45\ Chen Jining, Ministry of Environmental Protection, ``Reforming 
Eco-Environmental Protection Institutional Setup and Upgrading 
Environmental Treatment Capacity Remarks Made at the 2015 Annual 
General Meeting of China Council for International Cooperation on 
Environment and Development,'' 9 November 15.
    \46\ See, e.g., Orville Schell, ``Crackdown in China: Worse and 
Worse,'' New York Review of Books, 21 April 16; Ye Zhusheng, `` 
`Shuanggui' Between Discipline and the Law '' [Jilu yu falu zhijian de 
``shuanggui''], South Reviews, reprinted in Consensus Net, 10 June 13; 
David Wertime, ``Inside China's Blackest Box,'' Foreign Policy, Tea 
Leaf Nation (blog), 2 July 14.
    \47\ ``Zhang Lijun Doubly Dismissed on the Last Day of This Year, 
Reported To Be `Black Hand Behind the Smog' '' [Zhang lijun jinnian 
zuihou yi tian bei shuangkai ceng bei jubao shi wumai beihou heishou], 
China News Service, 31 December 15. Zhang's alleged corrupt actions 
regarding vehicle emissions standards reportedly negatively impacted 
national air quality. Michael Lelyveld, ``China Downplays Energy 
Efficiency Gain,'' Radio Free Asia, 16 February 16; ``Power Use, 
Railway Freights Signal Economic Restructuring: NBS Chief,'' Global 
Times, 8 October 15. These articles report on the National Bureau of 
Statistics of China (NBS), NBS director Wang Bao'an, and environmental 
data. ``CCDI Warns of Corruption Risks After Inspections,'' Xinhua, 5 
February 16. Xinhua reported that the Communist Party of China Central 
Commission for Discipline Inspection had found that NBS officials had 
been involved in ``data fabrication.'' Nicolas Jenny, ``Panama Papers 
Lay Bare China's Corruption, Environmental Woes,'' Global Risk 
Insights, 15 April 16. This article describes how corruption and 
environmental damage are connected. Zheng Jinran, ``Ex-Environment 
Official Charged With Corruption,'' China Daily, 28 November 15.
    \48\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 37; PRC Legislation Law 
[Zhonghua renmin gongheguo lifa fa], passed 15 March 00, amended and 
effective 15 March 15, art. 8(5). See also Donald Clarke, ``Discipline 
Inspection Commissions and Shuanggui Detention,'' Chinese Law Prof 
Blog, 5 July 14.
    \49\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 9; 
International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, art. 9.
    \50\ Austin Ramzy, ``Ex-Official in China Blames Torture for Graft 
Confession,'' New York Times, Sinosphere (blog), 25 February 16; Luo 
Jieqi and Cui Houjian, ``Former National Energy Administration Deputy 
Director Xu Yongsheng on Trial, Asserts Innocence in Court and Says 
Confession Forced'' [Guojia nengyuanju yuan fu juzhang xu yongsheng 
shoushen dang ting hanyuan cheng zao bigong], Caixin, 24 February 16.
    \51\ Central Commission for Discipline Inspection and Ministry of 
Supervision, ``Former Vice Minister of Environmental Protection and 
Communist Party Member Zhang Lijun Under Investigation for Serious 
Violations of Party Discipline'' [Huanjing baohubu yuan fubuzhang, 
dangzu chengyuan zhang lijun shexian yanzhong weiji weifa jieshou zuzhi 
diaocha], 30 July 15; ``Zhang Lijun Sacking Reveals Chain of 
Environmental Interests, Number of Other Officials Also Reported'' 
[Zhang lijun luoma jiekai huanbao liyi lian duo guanyuan tong bei 
jubao], China Business Journal, reprinted in Sohu, 9 August 15; Feng 
Jun, ``Ministry of Environmental Protection `First Tiger' Sacked, 
Leading to Ministry of Environmental Protection Corruption Scandal'' 
[Huanbaobu ``shou hu'' luoma jiang yinchu huanbaobu fanfu wo an], 
Tencent Finance, Prism, 3 August 15.
    \52\ Mimi Lau, ``Focus Turns to Subordinates in Graft Probe Into 
China's Environment Vice-Minister Zhang Lijun,'' South China Morning 
Post, 4 August 15; ``Zhang Lijun Sacking Reveals Chain of Environmental 
Interests, Number of Other Officials Also Reported'' [Zhang lijun luoma 
jiekai huanbao liyi lian duo guanyuan tong bei jubao], China Business 
Journal, reprinted in Sohu, 9 August 15.
    \53\ ``CPC Expels Former Environment Official for Corruption,'' 
China Daily, 31 December 15.
    \54\ Central Commission for Discipline Inspection and Ministry of 
Supervision, ``National Bureau of Statistics Communist Party Secretary 
and Bureau Chief Wang Bao'an Under Investigation for Serious Violations 
of Party Discipline'' [Guojia tongjiju dangzu shuji, juzhang wang 
bao'an shexian yanzhong weiji jieshou zuzhi diaocha], 26 January 16; 
Jun Mai, ``China's Statistics Chief Wang Baoan Detained in Graft 
Investigation,'' South China Morning Post, 26 January 16.
    \55\ Ed Zhang, ``Appointment Shows Desire for More Effective 
Communication,'' China Daily, 1 March 16; Gabriel Wildau, ``China's 
Statistics Chief Wang Baoan Accused of Corruption,'' Financial Times, 
26 January 16.
    \56\ Nick Butler, ``Treat China's Dubious Energy Data With 
Caution,'' Financial Times, 8 February 16; Michael Lelyveld, ``China 
Downplays Energy Efficiency Gain,'' Radio Free Asia, 16 February 16; 
Keith Bradsher, ``Inquiry in China Adds to Doubt Over Reliability of 
Its Economic Data,'' New York Times, 26 January 16; Jan Ivar Korsbakken 
et al., ``China's Coal Consumption and CO2 Emissions: What Do We Really 
Know,'' China Dialogue, 31 March 16.
    \57\ ``CCDI Warns of Corruption Risks After Inspections,'' Xinhua, 
5 February 16. See also Central Commission for Discipline Inspection 
and Ministry of Supervision, ``Central Eighth Inspection Group Reports 
Back to National Bureau of Statistics Party Group Regarding the Special 
Inspection Situation'' [Zhongyang di ba xunshizu xiang guojia tongjiju 
dangzu fankui zhuanxiang xunshi qingkuang], 4 February 16.
    \58\ National Bureau of Statistics of China, ``Mr. Wang Baoan Met 
With the Administrator of the U.S. Energy Information Administration,'' 
30 July 15.
    \59\ Luo Jieqi and Cui Houjian, ``Former Energy Official Says 
Police Tortured Him Into Confessing,'' Caixin, 25 February 16; Austin 
Ramzy, ``Ex-Official in China Blames Torture for Graft Confession,'' 
New York Times, Sinosphere (blog), 25 February 16.
    \60\ Luo Jieqi and Cui Houjian, ``Former Energy Official Says 
Police Tortured Him Into Confessing,'' Caixin, 25 February 16; Luo 
Jieqi and Cui Houjian, ``Former National Energy Administration Deputy 
Director Xu Yongsheng on Trial, Asserts Innocence in Court and Says 
Confession Forced'' [Guojia nengyuanju yuan fu juzhang xu yongsheng 
shoushen dang ting hanyuan cheng zao bigong], Caixin, 24 February 16. 
Xu Yongsheng allegedly received bribes to approve 27 power plants, 
including thermal power plants. See also Robert A. Rohde and Richard A. 
Muller, ``Air Pollution in China: Mapping of Concentrations and 
Sources,'' PLOS ONE, Vol. 10(8), 20 August 15. Power plants that use 
fossil fuel are a significant source of air pollution in China.
    \61\ ``Chinese Courts Conclude 19,000 Criminal Cases on 
Pollution,'' Xinhua, 13 March 16.
    \62\ Ibid.
    \63\ ``Chinese Polluters Fined US$654 Million in 2015,'' Xinhua, 11 
March 16.
    \64\ Alex Wang, ``Chinese State Capitalism and the Environment,'' 
Social Science Research Network, updated 21 April 15, 11-12.
    \65\ ``China's Green Push Gives Clout to Once `Embarrassing' 
Ministry,'' Reuters, 1 March 16.
    \66\ Zhang Yan, ``Ministry Summons Local Officials for `Talk' Over 
Problems on Nature Reserves,'' Caixin, 15 January 16.
    \67\ PRC Environmental Protection Law [Zhonghua renmin gongheguo 
huanjing baohu fa], passed 26 December 89, amended 24 April 14, 
effective 1 January 15, art. 58.
    \68\ Liu Qin, ``Will China's Environmental Law Help To Win `War on 
Pollution?' '' China Dialogue, 22 March 16.
    \69\ Ministry of Environmental Protection, ``MEP Pays High 
Attention to the 603 Yuan Penalty in Gaoyou,'' 18 March 16; ``China 
Orders Probe After Polluting Factory Fined Just $90,'' Reuters, 18 
March 16; ``Large Number of Deformed Fish in Gaoyou, Jiangsu, Fish 
Ponds, MEP: Pollution Not Above Standards'' [Jiangsu gaoyou yu tang 
xian daliang jixing yu huanbaoju: wuran wu hanliang wei chaobiao], 
China News Service, reprinted in Sina, 14 October 15.
    \70\ Ibid.
    \71\ European Union Chamber of Commerce in China, ``Overcapacity in 
China: An Impediment to the Party's Reform Agenda,'' 22 February 16, 
13; Te-ping Chen, ``China's Antipollution Push Brings Costs for Its 
Provinces,'' Wall Street Journal, 11 March 16.
    \72\ Te-ping Chen, ``China's Antipollution Push Brings Costs for 
Its Provinces,'' Wall Street Journal, 11 March 16.
    \73\ Barbara Finamore et al., ``Tackling Pollution in China's 13th 
Five Year Plan: Emphasis on Enforcement,'' Natural Resources Defense 
Council (blog), 11 March 16; Deborah Seligsohn and Angel Hsu, ``How 
China's 13th Five-Year Plan Addresses Energy and the Environment,'' 
Asia Society, ChinaFile (blog), 10 March 16; Ma Tianjie, ``China's 
Environment in 2015: A Year in Review,'' China Dialogue, 23 December 
15.
    \74\ Ma Tianjie, ``China's Environment in 2015: A Year in Review,'' 
China Dialogue, 23 December 15.
    \75\ PRC Wild Animal Protection Law (Draft Revision) [Zhonghua 
renmin gongheguo yesheng dongwu baohu fa (xiuding cao'an)], December 
2015.
    \76\ Liu Su'nan, ``Wild Animal Protection Law Under Revision, 
Experts Say Outdated Law Needs To Be Updated'' [Yesheng dongwu baohu fa 
zai xiuding zhuanjia cheng linian guoshi jianyi li xin fa], Jiemian, 31 
December 15.
    \77\ Shaojie Huang, ``Exploitation of Endangered Species Feared as 
China Revisits Wildlife Law,'' New York Times, Sinosphere (blog), 1 
February 16.
    \78\ PRC Wild Animal Protection Law [Zhonghua renmin gongheguo 
yesheng dongwu baohu fa], passed 8 November 88, amended 28 August 04, 
27 August 09, 2 July 16, effective 1 January 17.
    \79\ Environmental Investigation Agency, ``China's Wildlife 
Protection Law,'' last visited 19 August 16. See also Vicky Lee, 
``Uncertainty for Tigers Under China's New Wildlife Law,'' China 
Dialogue, 12 July 16; Laney Zhang, Law Library of Congress, ``China: 
New Wildlife Protection Law,'' Library of Congress, Global Legal 
Monitor, 5 August 16.
    \80\ Ma Tianjie, ``China's Environment in 2015: A Year in Review,'' 
China Dialogue, 23 December 15.
    \81\ PRC Air Pollution Prevention and Control Law [Zhonghua renmin 
gongheguo daqi wuran fangzhi fa], passed 29 August 15, effective 1 
January 16; State Council Legislative Affairs Office, ``Xia Yong: 
Conscientiously Implement Air Pollution Prevention and Control Law'' 
[Xia yong: renzhen shishi daqi wuran fangzhi fa], 29 December 15.
    \82\ PRC Environmental Protection Law [Zhonghua renmin gongheguo 
huanjing baohu fa], passed 26 December 89, amended 24 April 14, 
effective 1 January 15, art. 58. For more information, see Supreme 
People's Court, Interpretation Regarding Certain Issues Related to 
Application of the Law in Environmental Civil Public Interest 
Litigation [Guanyu shenli huanjing minshi gongyi susong anjian shiyong 
falu ruogan wenti de jieshi], issued 6 January 15, effective 7 January 
15.
    \83\ Yaxue Cao, ``12 Years in Prison for Trying To Protect Spotted 
Seals,'' China Change, 16 November 15.
    \84\ Liu Qin, ``Will China's Environmental Law Help To Win `War on 
Pollution?' '' China Dialogue, 22 March 16; Karl Bourdeau and Dan 
Schulson, `` `Citizen Suits' Under China's Revised Environmental 
Protection Law: A Watershed Moment in Chinese Environmental Litigation? 
'' Beveridge & Diamond, P.C., 9 March 16.
    \85\ Zhang Chun, ``China Court Rules in Favor of First Public 
Interest Environmental Law,'' China Dialogue, 11 November 15. The case 
was filed on January 1, 2015. Karl Bourdeau and Dan Schulson, `` 
`Citizen Suits' Under China's Revised Environmental Protection Law: A 
Watershed Moment in Chinese Environmental Litigation? '' Beveridge & 
Diamond, P.C., 9 March 16.
    \86\ Cao Yin, ``Top Court Upholds Record Penalty of $26m for Water 
Pollution,'' China Daily, 22 January 16.
    \87\ Yaxue Cao, ``12 Years in Prison for Trying To Protect Spotted 
Seals,'' China Change, 16 November 15; Dawa County People's Court, 
Liaoning Province, ``Criminal Verdict No. 00001 (2015)'' [Liaoning 
sheng dawa xian renmin fayuan xingshi panjue shu (2015) dawa xing chuzi 
di 00001 hao], 3 August 15, 29, reprinted in ``Dawa County People's 
Court, Liaoning Province, Criminal Verdict (20150803)'' [Liaoning sheng 
dawa xian renmin fayuan xingshi panjue shu (20150803)], Sina, 10 
November 15.
    \88\ Yaxue Cao, ``12 Years in Prison for Trying To Protect Spotted 
Seals,'' China Change, 16 November 15. See also Bureau of Democracy, 
Human Rights and Labor, U.S. Department of State, ``Country Reports on 
Human Rights Practices for 2015: China (Includes Tibet, Hong Kong, and 
Macau)'' 13 April 16, 48. In April 2016, the Panjin Intermediate 
People's Court reportedly accepted Tian's request for a retrial, 
although he remained in prison. Guo Rui, ``Retrial for the Number One 
`Protector of Spotted Seals,' Tian Jiguang, First Instance Sentence of 
12 Years Shocked Environmental World'' [``Baohu ban haibo'' di yi ren 
tian jiguang an zaishen yishen bei pan 12 nian zhenjing huanbao jie], 
Phoenix Net, 29 April 16.
    \89\ Panjin Intermediate People's Court, Liaoning Province, 
``Retrial Decision, Criminal Appeal No. 3 (2016)'' [Liaoning sheng 
panjin shi zhongji renmin fayuan zaishen jueding shu (2016) liao 11 
xing shen 3 hao], 15 April 16, reprinted in Guo Rui, ``Retrial for the 
Number One `Protector of Spotted Seals,' Tian Jiguang, First Instance 
Sentence of 12 Years Shocked Environmental World'' [``Baohu ban haibo'' 
di yi ren tian jiguang an zaishen yishen bei pan 12 nian zhenjing 
huanbao jie], Phoenix Net, 29 April 16. Phoenix Net reprinted the 
retrial decision in the article from April 29, 2016.
    \90\ ``Guangdong Riot Police Crack Down on Two Waste Pollution 
Protests,'' Radio Free Asia, 14 October 15.
    \91\ ``China Detains Dozens of Ethnic Mongolians Amid Ongoing 
Grassland Protest,'' Radio Free Asia, 9 March 16.
    \92\ ``Middle School Moves to New Address as 500 Students Have 
Health Irregularities, Some Found To Have Leukemia'' [Zhongxue ban 
xinzhi 500 xuesheng shenti yichang gebie cha chu baixiebing], Sina, 17 
April 16; Tom Phillips, ``China's Toxic School: Officials Struggle To 
Contain Uproar Over Sick Students,'' Guardian, 19 April 16; Yu Zhuang, 
``Friends of Nature (China)'s Fight Against Soil Pollution in China,'' 
Vermont Law School, Asia Environmental Governance Blog, 13 May 16; Shi 
Yi, ``Chinese NGOs Sue Chemical Companies Over Contaminated School,'' 
Sixth Tone, 29 April 16; ``Sickness at a Chinese High School Blamed on 
Toxic Waste Dumped Nearby,'' Radio Free Asia, 19 April 16.
    \93\ Rights Defense Network, ``Ningxiang County, Hunan Province, 
Residents Ou Quanjiang and Zhang Hailong Criminally Detained for 
Opposing Construction of Waste Incinerator Projects, Two Other 
Participants Wanted by Authorities'' [Hunan ningxiang xian gongmin ou 
quanjiang, zhang hailong yin fandui xingjian lese fenshao fadian 
xiangmu jing zao xingju dangju tongji ling liang ming canyuzhe], 29 
June 16; Ningxiang County Public Security Bureau (Ningxiang gong'an), 
``Ningxiang County Public Security Bureau Notice on the Investigation 
Situation of the June 27 Group Petitioning Incident'' [Ningxiang xian 
gong'anju guanyu 6.27 ji fang shijian chachu qingkuang tonggao], WeChat 
post, 28 June 16; Catherine Lai, ``Two Detained After Third 
Environmental Protest in Central China in 3 Days,'' Hong Kong Free 
Press, 29 June 16.
    \94\ Chris Buckley, ``Thousands in Eastern Chinese City Protest 
Nuclear Waste Project,'' New York Times, 8 August 16; ``Thousands 
Protest Plans for Nuclear Processing Plant in China's Jiangsu,'' Radio 
Free Asia, 8 August 16.
    \95\ International Energy Agency, ``Decoupling of Global Emissions 
and Economic Growth Confirmed,'' 16 March 16; ``Global CO2 Emissions 
Are Set To Stall in 2015,'' Economist, Graphic Detail (blog), 8 
December 15. See also U.S. Environmental Protection Agency, ``Global 
Greenhouse Gas Emissions Data,'' last visited 25 August 16.
    \96\ Chris Buckley, ``China Burns Much More Coal Than Reported, 
Complicating Climate Talks,'' New York Times, 3 November 15; Tom 
Phillips, ``China Underreporting Coal Consumption by up to 17%, Data 
Suggests,'' Guardian, 4 November 15; Ayaka Jones, Today in Energy, 
``Recent Statistical Revisions Suggest Higher Historical Coal 
Consumption in China,'' Energy Information Administration (EIA), U.S. 
Department of Energy, 16 September 15. The September 2015 EIA report 
noted an upward revision in China's previously reported coal 
consumption figures of up to 14 percent based on new preliminary 
Chinese government data. In November 2015, the New York Times reported 
an upward revision of up to 17 percent based on the final Chinese 
government data.
    \97\ National People's Congress, PRC Outline of the 13th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shisan ge wunian guihua 
gangyao], issued 17 March 16, chap. 43(1).
    \98\ Michael Lelyveld, ``China Raises Energy Consumption Cap,'' 
Radio Free Asia, 28 March 16.
    \99\ Ibid.; National People's Congress, PRC Outline of the 13th 
Five-Year Plan on National Economic and Social Development [Zhonghua 
renmin gongheguo guomin jingji he shehui fazhan di shisan ge wunian 
guihua gangyao], issued 17 March 16, chap. 43(1). In March 2016, the 
National People's Congress set a 2020 target for annual primary energy 
consumption of 5 billion tons of standard coal equivalent.
    \100\ Michael Lelyveld, ``China Raises Energy Consumption Cap,'' 
Radio Free Asia, 28 March 16; State Council General Office, ``Energy 
Development Strategic Action Plan (2014-2020)'' [Nengyuan fazhan 
zhanlue xingdong jihua (2014-2020 nian)], issued 7 June 14; ``China 
Unveils Energy Strategy, Targets for 2020,'' Xinhua, 19 November 14. In 
November 2014, the State Council set a target for annual primary energy 
consumption of 4.8 billion tons of standard coal equivalent for 2020.
    \101\ ``China's Coal-Fired Power Producers Set To Play the 
`Rebalancing' Game,'' South China Morning Post, 17 April 16.
    \102\ Office of the Spokesperson, U.S. Department of State, ``U.S.-
China Strategic & Economic Dialogue Outcomes of the Strategic Track,'' 
7 June 16, items 40-78.
    \103\ Office of the Press Secretary, The White House, ``U.S.-China 
Joint Presidential Statement on Climate Change,'' 25 September 15; 
``Full Text: Outcomes List of President Xi Jinping's State Visit to the 
United States,'' Xinhua, 25 September 15.
    \104\ UN Framework Convention on Climate Change, Adoption of the 
Paris Agreement, FCCC/CP/2015/L.9/Rev.1, 12 December 15; ``China Signs 
Paris Agreement on Climate Change,'' Xinhua, 23 April 16.
    \105\ ``China Submits Its Climate Action Plan Ahead of 2015 Paris 
Agreement,'' United Nations Framework Convention on Climate Change, UN 
Climate Change Newsroom, 30 June 15; UN Framework Convention on Climate 
Change, Adoption of the Paris Agreement, FCCC/CP/2015/L.9/Rev.1, 12 
December 15; ``Spotlight: China Makes Active Contribution for 
Breakthrough at Paris Climate Talks,'' Xinhua, 13 December 15.

                                                  Civil Society
                                                Civil Society

                  III. Development of the Rule of Law


                             Civil Society


                              Introduction

    Chinese non-governmental organizations (NGOs) vary in scope 
and focus, and illustrate complex levels of organization in an 
evolving regulatory environment. Government-registered NGOs are 
one subset of Chinese NGOs. According to the Ministry of Civil 
Affairs, at the end of 2015, China had 661,861 registered 
``social organizations'' (shehui zuzhi)--the official term for 
NGOs--that consisted of 329,122 non-governmental, non-
commercial organizations (minban feiqiye danwei), a 12.6-
percent increase from the previous year; 4,762 foundations 
(jijinhui); and 327,977 social associations (shehui tuanti).\1\ 
Whereas many registered NGOs in China are government-organized 
non-governmental organizations (GONGOs),\2\ organizations 
founded by citizens who have few or no ties with the state, 
nevertheless, make up a significant subset of Chinese NGOs.\3\ 
Many of these NGOs remain unregistered or are registered as 
business entities due to restrictions and barriers to 
registration.\4\ In 2010, a Chinese scholar estimated that 90 
percent of NGOs are unregistered,\5\ while more recent 
estimates from 2014 range from 40 to 70 percent.\6\ The number 
of unregistered NGOs in China reportedly ranges from 1 million 
to 8 million.\7\ While recent regulatory developments have 
strengthened the legal basis for public participation in some 
ways,\8\ the Chinese government continued to limit the space in 
which civil society groups are permitted to work.\9\

    Continued Crackdown and the ``Chilling Effect'' on Civil Society

    During the Commission's 2016 reporting year, the Chinese 
government and Communist Party continued to deepen a crackdown 
that began in 2013 on non-governmental organizations (NGOs) and 
civil society advocates \10\ working on labor,\11\ women's 
rights,\12\ and rights defense advocacy.\13\ In addition to the 
government's ``unprecedented attack'' on more than 300 rights 
lawyers and advocates beginning in and around July 2015,\14\ 
the international NGO Chinese Human Rights Defenders (CHRD) 
reported that authorities detained 22 human rights defenders 
for ``political'' crimes in 2015 on suspicion of ``inciting 
subversion of state power,'' equal to the number of individuals 
reportedly detained under the same charge from 2012 to 
2014.\15\ [For more information and updates on cases from the 
July 2015 crackdown on Chinese lawyers, see Section III--Access 
to Justice.] CHRD also recorded 11 cases of human rights 
defenders arrested on suspicion of ``subversion of state 
power'' in January 2016, ``surpassing the documented number 
from 2012 to 2014 combined.'' \16\ The intensified pressure 
from central and local government authorities reportedly had a 
``chilling effect'' \17\ on the media,\18\ labor NGOs,\19\ 
charity workers,\20\ and academics,\21\ as well as on 
international NGOs.\22\ As one international labor expert 
noted, the crackdown on civil society appears to be 
``specifically aimed at the pillars of civil society that have 
been most effective in pushing the government to do things.'' 
\23\
    During the reporting year, authorities targeted some 
domestic NGOs and their staff, as illustrated in the following 
examples:

        <bullet> In December 2015, public security officials 
        harassed or detained at least 25 labor advocates 
        affiliated with labor NGOs in Guangdong province,\24\ 
        including staff from the Panyu Workers' Services 
        Center,\25\ the Nan Fei Yan Social Work Services 
        Center,\26\ Haige Labor Services Center,\27\ and the 
        Panyu Workers' Mutual Assistance Group.\28\ In January 
        2016, authorities formally arrested Zeng Feiyang,\29\ 
        Zhu Xiaomei,\30\ Meng Han,\31\ and He Xiaobo \32\ 
        reportedly for their organizing work and activities; 
        and released Zhu Xiaomei and He Xiaobo on bail in 
        February \33\ and April 2016,\34\ respectively.
        <bullet> In January 2016, public security authorities 
        from Beijing municipality reportedly ordered the 
        Beijing Zhongze Women's Legal Counseling and Service 
        Center (Zhongze) to close.\35\ Zhongze, founded by 
        lawyer Guo Jianmei in 1995 as the Center for Women's 
        Law Studies and Legal Services of Peking University, 
        pioneered impact litigation in domestic violence, 
        sexual harassment, and other women's rights issues.\36\ 
        Zhongze also implemented projects in rural women's land 
        rights \37\ and submitted reports to the UN Committee 
        on the Elimination of Discrimination against Women that 
        reviewed the Chinese government's compliance with the 
        Convention on the Elimination of all Forms of 
        Discrimination against Women.\38\ Despite ongoing 
        difficulties over the years,\39\ such as in 2010 when 
        Peking University rescinded its sponsorship of the 
        organization, Guo's work is recognized domestically and 
        internationally.\40\

    Chinese authorities also targeted an international staff 
member of a legal rights advocacy group during this reporting 
year. In January 2016, authorities detained Peter Dahlin, a 
Swedish rights advocate who cofounded the Chinese Urgent Action 
Working Group, an organization based in Beijing municipality 
that trained and supported Chinese rights defenders,\41\ for 
three weeks under suspicion of ``funding criminal activities 
harmful to China's national security'' before expelling him 
from the country.\42\ On January 19, while Dahlin was in 
detention, state television aired a prerecorded confession of 
him admitting to ``[violating] Chinese law'' and ``[causing] 
harm to the Chinese government.'' \43\ Dahlin later stated in 
an interview with the New York Times that Chinese authorities 
had scripted the confession.\44\ Officials accused Dahlin's 
group of receiving foreign funding to train ``agents'' to 
``endanger state security.'' \45\ Chinese state media 
highlighted Dahlin's partnership with Wang Quanzhang,\46\ a 
lawyer at the Fengrui Law Firm in Beijing,\47\ whom authorities 
detained during the crackdown on lawyers and rights advocates 
that began in and around July 2015.\48\ Official state media 
also linked Dahlin's detention to Xing Qingxian, a rights 
advocate accused of aiding human rights lawyer Wang Yu's son in 
his attempt to leave China.\49\
    The Chinese government's crackdown on NGOs and staff 
violates rights guaranteed in China's Constitution,\50\ as well 
as international standards on freedom of speech and association 
set forth in the International Covenant on Civil and Political 
Rights \51\ and the Declaration on Human Rights Defenders.\52\ 
In response to China's crackdown on civil society, in February 
2016, the UN High Commissioner for Human Rights Zeid Ra'ad Al 
Hussein raised concerns and sought clarification from the 
Chinese government about the recent arrests of lawyers and 
harassment of NGO workers.\53\ In March 2016, the United States 
and 11 other nations issued a joint statement at the UN Human 
Rights Council that expressed concern regarding ``China's 
deteriorating human rights record.'' \54\ A U.S. Department of 
State spokesperson reportedly remarked that the joint statement 
was ``the first collective action taken regarding China at the 
Human Rights Council since its inception in 2007.'' \55\

                        Legislative Developments

    In the past year, the National People's Congress passed two 
major laws that pertain to civil society--the PRC Charity Law 
and the PRC Law on the Management of Overseas NGO Activities in 
Mainland China. A labor expert called the new laws ``the most 
consequential nonprofit laws passed in the history of the 
PRC.'' \56\ Observers noted that the Charity Law may promote 
philanthropy in China and foster better accountability and 
credibility as the charity sector develops.\57\ Yet, they also 
expressed concerns that the laws' tighter restrictions \58\ 
will likely limit NGOs' access to domestic and international 
funding, thereby jeopardizing the survival of some NGOs.\59\

------------------------------------------------------------------------
                             PRC Charity Law
-------------------------------------------------------------------------
  The National People's Congress (NPC) passed the PRC Charity Law in
 March 2016 \60\ after issuing two drafts for public comment in October
 2015 and January 2016.\61\ Chinese officials released the law against
 the backdrop of several highly publicized charity-related scandals.\62\
 Chinese leaders expressed hope that the law will help fight poverty
 \63\ and encourage charitable giving.\64\ Chinese experts have
 expressed hope that it may improve governance and transparency.\65\
  Key provisions include the following:
 
  <bullet> Registration. While observers noted that the Charity Law
   removes the requirement for charities to find a supervisory
   organization to register with civil affairs departments,\66\ Article
   20 defers the authority to stipulate specific registration management
   methods to the State Council.\67\
  <bullet> Fundraising. Articles 22 and 23 permit registered charities
   to engage in public fundraising, including through radio, television,
   newspapers, and the Internet, after obtaining a public fundraising
   qualification certificate, which organizations can apply for after
   being lawfully registered for two years.\68\
  <bullet> Transparency. Articles 72 and 73 require organizations to
   publicly disclose information on the organization's charter, members,
   plans, activities, fundraising, and the use of funds.\69\
  <bullet> Preventing misconduct. Provisions prohibit and provide
   punishment for embezzlement and misuse of funds, including revocation
   of registration, by any organization or individual associated with an
   organization.\70\
------------------------------------------------------------------------


------------------------------------------------------------------------
                       PRC Charity Law--Continued
-------------------------------------------------------------------------
  International human rights organizations and media reports have
 highlighted concerns over certain provisions of the law, as follows:
 
  <bullet> Endangering state security. Article 104 provides the legal
   basis for authorities to criminally prosecute and shut down groups
   deemed to ``endanger state security,'' \71\ a vague charge human
   rights groups say authorities can use to crack down on human rights
   advocacy \72\ and limit sources of funding for independent
   groups.\73\
  <bullet> Registration. One media report suggested that some charitable
   organizations may choose not to register due to authorities'
   suspicions regarding their activities.\74\
  <bullet> Implementation. Some reports noted that while the law
   includes positive provisions, implementation at the local level will
   determine its impact on Chinese civil society groups.\75\
  <bullet> Tax benefits. Articles 79 to 84 \76\ provide what experts
   worry are vaguely defined rules entitling beneficiaries,
   organizations, and donors to tax benefits.\77\
------------------------------------------------------------------------


------------------------------------------------------------------------
 PRC Law on the Management of Overseas NGO Activities in Mainland China
                                  \78\
-------------------------------------------------------------------------
  On April 28, 2016, the National People's Congress (NPC) passed the PRC
 Law on the Management of Overseas NGO Activities in Mainland China,\79\
 scheduled to take effect on January 1, 2017,\80\ after much
 deliberation and two drafts.\81\ The final version of the law appeared
 to address some concerns expressed during the public comment
 process.\82\ Revisions included more specificity in the definition of
 ``overseas NGOs,'' \83\ which an expert interpreted to encompass
 ``industry and trade associations, chambers of commerce, [and]
 development and human rights NGOs . . .''; \84\ allowing more than one
 representative office per organization in China; \85\ and extending the
 length of time that a representative office's registration is
 valid.\86\
  International observers, nevertheless, continued to raise concerns
 with several of the new law's provisions, including:
 
  <bullet>  Registration authority given to Ministry of Public Security
   (MPS) and provincial-level public security offices. Whereas the
   Ministry of Civil Affairs has management authority over domestic
   NGOs,\87\ Article 41 authorizes public security officials to manage
   registration, conduct annual inspections, and investigate ``illegal
   activities'' of international NGOs (INGOs).\88\ Article 11 requires
   the formal consent of a government-approved professional supervisory
   unit (PSU) in order for INGOs to register with MPS.\89\ Articles 46
   and 47 provide for public security officials--under specific
   conditions--to shut down INGO activities, confiscate property, detain
   INGO personnel, and criminally prosecute ``illegal activities.'' \90\
------------------------------------------------------------------------


------------------------------------------------------------------------
PRC Law on the Management of Overseas NGO Activities in Mainland China--
                             Continued \78\
-------------------------------------------------------------------------
  <bullet>  Endangering national security. Article 5 prohibits INGOs
   from carrying out activities that ``endanger China's national unity,
   security, [or] ethnic unity'' or ``harm China's national interests
   and the public interest . . ..'' \91\ It also prohibits INGOs from
   engaging in or funding ``for-profit'' or ``political'' activities, as
   well as ``illegally engaging in and funding religious activities.''
   \92\
  <bullet>  Additional registration requirement. Article 9 requires that
   INGOs set up and register a representative office or, if they want to
   carry out temporary activities, they must ``file a record according
   to law'' (yi fa bei'an).\93\ Foreign organizations that have not
   registered or ``filed a record'' are forbidden from funding or
   partnering with domestic NGOs.\94\
  <bullet>  Restrictions on temporary activity. Articles 16 and 17
   require INGOs without representative offices in China to partner with
   ``Chinese partner units,'' which include state agencies, mass
   organizations, public institutions, or social organizations, in order
   to ``file a record.'' \95\ The duration of temporary activities is
   limited to one year, and extensions are dependent on making new
   filings.\96\
  <bullet>   Reporting requirement. Articles 19 and 31 require that
   representative offices of INGOs submit an annual activity plan for
   the following year by December 31 \97\ and work reports on the
   previous year--including financial information, activities, and
   personnel and institutional changes--by January 31 to their PSUs for
   annual inspections by the relevant public security offices.\98\
  <bullet>  Possible exemptions. Article 53 provides ambiguous language
   for how ``overseas schools, hospitals, science and engineering
   technology research institutions, and academic organizations'' are
   treated under the law, and places them under the authority of
   ``relevant national provisions.'' \99\ Experts questioned whether
   this exempts these organizations from the provisions of the law.\100\
 
  International observers called on the Chinese government to repeal the
 legislation, and warned that the law could be used as a tool of
 intimidation and suppression of dissenting views; \101\ a mechanism for
 exerting greater control over civil society; \102\ and an intensified
 effort to ``stifle'' groups in certain civil society sectors.\103\ The
 U.S. Government expressed concern that the law may constrain U.S.-China
 people-to-people exchanges and relations.\104\ A Chinese lawyer called
 the law a form of ``national security legislation,'' and said it
 signaled a ``fundamental change'' in China's regulation of INGOs to a
 ``national-security focused model'' that discourages INGOs' ``presence
 and activity.'' \105\ A Chinese professor at Tsinghua University's
 School of Public Policy and Management cautioned that the concentration
 of approval authority and the new and complex approval process within
 the public security bureaucracy could result in a ``stagnation effect''
 on INGO activity in China.\106\
------------------------------------------------------------------------

                     Other Regulatory Developments

    During the past year, the Chinese government released plans 
and draft revisions to the three major regulations that pertain 
to the registration and management of civil society 
organizations as part of a broad decision on revising 
regulations.\107\ The Ministry of Civil Affairs (MCA) released 
revised drafts for public comment of all three 
regulations.\108\ Following the February 2016 State Council 
administrative revision of the Regulations on the Registration 
and Management of Social Organizations,\109\ the MCA released a 
revised draft of the same regulation for public comment in 
August 2016 which would permit direct registration for business 
associations, research organizations, charities, and service 
organizations.\110\ Drafters changed the title of the 
Regulations on the Management of Non-Governmental, Non-
Commercial Enterprises to Regulations on the Management of 
Social Service Organization Registration, renaming ``non-
governmental, non-commercial units'' as ``social service 
organizations.'' \111\ Provisions in the draft Regulations on 
the Management of Foundations specify how charitable 
foundations should be classified and regulated.\112\ In 
addition, Article 4 of all three draft regulations stipulates 
that Communist Party groups must be established within 
organizations.\113\ In August 2016, the Party Central Committee 
and State Council jointly released an opinion on reforming 
social organization management, emphasizing the Party's 
leadership over civil society and setting 2020 as the target 
year for establishing a uniform registration and management 
system throughout the country.\114\

                         Regulatory Environment

    The regulatory environment for Chinese NGOs continues to be 
challenging to navigate. Authorities continue to require some 
NGOs to secure the sponsorship of a governmental or quasi-
governmental organization in order to be eligible for 
registration at civil affairs bureaus.\115\ This ``dual 
management system'' \116\ subjects NGOs to differentiated 
treatment based on authorities' perception of a group's 
political sensitivity.\117\ Facing strict government control 
and barriers to registering as social organizations,\118\ many 
Chinese NGOs register instead as business entities or remain 
unregistered.\119\ Without registered status, NGOs have 
difficulty obtaining government funding or receiving donations 
from the private sector \120\ and often rely more heavily on 
international funding, which has become more difficult to 
secure in the new regulatory environment.\121\
    Experts noted that NGOs without government affiliation are 
at a disadvantage compared to quasi-governmental or government-
organized non-governmental organizations (GONGOs) with respect 
to public fundraising and government procurement. A 2014 China 
Academy of Social Sciences report highlighted GONGOs' monopoly 
over fundraising as one of the reasons independent NGOs receive 
little funding.\122\ According to a government official, 
government procurement of services may contribute to the uneven 
development of government-affiliated and grassroots NGOs.\123\ 
Amid the concern about the lack of a fair assessment mechanism 
for procurement,\124\ in February 2016, officials in Chengdu 
municipality, Sichuan province, reportedly released the first 
guidelines in China for the evaluation of government 
procurement of public services.\125\

                                                  Civil Society
                                                Civil Society
    Notes to Section III--Civil Society

    \1\ Pan Yue, ``MCA Registered a Total of 661,861 Social 
Organizations,'' People's Daily, 15 April 16.
    \2\ Shawn Shieh, ``Mapping the Dynamics of Civil Society,'' in NGO 
Governance and Management in China, eds. Reza Hasmath and Jennifer Y.J. 
Hsu (Abingdon: Routledge, 2016), 48.
    \3\ Ibid., 52-53; Deng Guosheng, ``The State of and Obstacles to 
Chinese Grassroots NGO Development'' [Zhongguo caogen NGO fazhan de 
xianzhuang yu zhang'ai], Social Outlook, reprinted in Shanda 960, Vol. 
5 (June 2010). These organizations are often referred to as grassroots 
(caogen) organizations.
    \4\ Isabel Hilton et al., ``The Future of NGOs in China: A 
ChinaFile Conversation,'' Asia Society, ChinaFile (blog), 14 May 15; 
Shawn Shieh, ``Mapping the Dynamics of Civil Society,'' in NGO 
Governance and Management in China, eds. Reza Hasmath and Jennifer Y.J. 
Hsu (Abingdon: Routledge, 2016), 52-53.
    \5\ Deng Guosheng, ``The State of and Obstacles to Chinese 
Grassroots NGO Development'' [Zhongguo caogen NGO fazhan de xianzhuang 
yu zhang'ai], Social Outlook, reprinted in Shanda 960, Vol. 5 (June 
2010).
    \6\ Shawn Shieh, ``Mapping the Dynamics of Civil Society,'' in NGO 
Governance and Management in China, eds. Reza Hasmath and Jennifer Y.J. 
Hsu (Abingdon: Routledge, 2016), 53.
    \7\ Deng Guosheng, ``The State of and Obstacles to Chinese 
Grassroots NGO Development'' [Zhongguo caogen NGO fazhan de xianzhuang 
yu zhang'ai], Social Outlook, reprinted in Shanda 960, Vol. 5 (June 
2010). In 2010, Tsinghua University professor Deng Guosheng estimated 
that there were 1 to 1.5 million grassroots NGOs in China, of which 90 
percent were unregistered. ``Chinese Civil Society: Beneath the 
Glacier,'' Economist, 12 April 14; Kristie Lu Stout, ``People Power in 
the People's Republic of China,'' CNN, 26 June 14. In 2014, the 
Economist estimated that there were 1.5 million unregistered groups 
while CNN reported 2 million. Li Fan, ``The Current State of Civil 
Society in China'' [Woguo gongmin shehui de xianzhuang], Tianze 
Economic Research Institute (Unirule), Biweekly Forum, 12 September 14. 
Li Fan, director of World and China Institute, a Chinese NGO research 
center, claimed that China has 8 million unregistered NGOs, while Hu 
Xingdou, an economics professor at the Beijing Institute of Technology, 
and Xu Xin, a law professor at Beijing Institute of Technology, both 
questioned Li's claim, saying that Li's definition of what constitutes 
an NGO was too broad. His calculations included groups such as quasi-
governmental mass organizations, spin-off government units, business 
associations, recreational clubs, virtual groups, and rural mutual aid 
groups.
    \8\ Karl Bourdeau and Daniel Schulson, `` `Citizen Suits' Under 
China's Revised Environmental Protection Law: A Watershed Moment in 
Chinese Environmental Litigation? '' JD Supra Business Advisor, 10 
March 16; Shawn Shieh, ``Grassroots NGOs Win Landmark Environmental 
Public Interest Lawsuit,'' NGOs in China (blog), 17 November 15; Cui 
Zheng and Kong Lingyu, ``Progress for NGOs Battling Polluters in 
Court,'' Caixin, 3 December 15. Despite potential progress for 
environmental grassroots NGOs to bring public interest lawsuits, few 
NGOs have the capacity and resources to file cases and courts have 
rejected more cases than they have accepted.
    \9\ Chinese Human Rights Defenders, `` `Too Risky To Call Ourselves 
Defenders': CHRD Annual Report on the Situation of Human Rights 
Defenders in China (2015),'' February 2016.
    \10\ ``China Steps Up Crackdown on Civil Society, Rights 
Advocates,'' Democracy Digest, 13 January 16.
    \11\ ``Chinese Police Raid Labor Rights Groups, Detain at Least 
Five Activists,'' Radio Free Asia, 7 December 15; China Labour 
Bulletin, ``Labour Activists Detained for Doing the Job of the Trade 
Union,'' 5 December 15; ``Guangdong Authorities Arrest Labor Rights 
Advocates,'' Congressional-Executive Commission on China, 21 January 
16.
    \12\ Didi Kirsten Tatlow, ``China Is Said To Force Closing of 
Women's Legal Aid Center,'' New York Times, Sinosphere (blog), 29 
January 16.
    \13\ Chinese Human Rights Defenders, `` `Too Risky To Call 
Ourselves Defenders': CHRD Annual Report on the Situation of Human 
Rights Defenders in China (2015),'' February 2016.
    \14\ Ibid.; China Human Rights Lawyers Concern Group, ``[`709 
Crackdown'] Latest Data and Development of Cases as of 1800 4 July 
2016,'' 4 July 16. See also CECC, 2015 Annual Report, 8 October 15, 
272.
    \15\ Chinese Human Rights Defenders, `` `Too Risky To Call 
Ourselves Defenders': CHRD Annual Report on the Situation of Human 
Rights Defenders in China (2015),'' February 2016.
    \16\ Ibid.
    \17\ Timothy Hildebrandt, Social Organizations and the 
Authoritarian State in China (Cambridge: Cambridge University Press, 
2013), 58. Hildebrandt explains use of the term ``chilling effect'' in 
the context of civil society as the internalization of the fear of a 
negative state response to the point that civil society actors do not 
contemplate taking actions that might put themselves in jeopardy.
    \18\ Freedom House, ``Freedom on the Net 2015: China Report,'' 
October 2015.
    \19\ Mimi Lau, ``Mother of Detained Labour Activist Takes on State 
Media--And Forced Into Hardest Decision of Her Life,'' South China 
Morning Post, 1 May 16.
    \20\ Verna Yu, ``Charity Workers in China Say NGOs Being `Pulled 
Out by the Roots,' '' South China Morning Post, 22 January 16.
    \21\ Orville Schell, ``Crackdown in China: Worse and Worse,'' New 
York Review of Books, 21 April 16.
    \22\ Chinese Human Rights Defenders, ``China: Repeal Overseas NGO 
Law & Protect Freedom of Association,'' 28 April 16.
    \23\ James Griffiths, ``China on Strike,'' CNN, 29 March 16.
    \24\ ``Guangdong Police `Root Out' Labor NGOs, Provoking Serious 
Concern'' [Guangdong jingfang ``saodang'' laogong NGO yinfa yanzhong 
guanzhu], Voice of America, 6 December 15; Yaxue Cao, ``Chinese 
Authorities Orchestrate Surprise Raid of Labor NGOs in Guangdong, 
Arresting Leaders,'' China Change, 10 December 15; ``Guangdong 
Authorities Arrest Labor Rights Advocates,'' Congressional-Executive 
Commission on China, 21 January 16.
    \25\ ``Four Detained Labor Rights Defenders Arrested, Two Out on 
Bail, Attack Aimed at Panyu Workers' Services Center'' [Bei zhua lao 
wei renshi si pibu liang qubao maotou zhi zhi panyu dagongzu], Radio 
Free Asia, 10 January 16.
    \26\ ``Guangdong Police `Root Out' Labor NGOs, Provoking Serious 
Concern'' [Guangdong jingfang ``saodang'' laogong NGO yinfa yanzhong 
guanzhu], Voice of America, 6 December 15.
    \27\ Rights Defense Network, ``Police Suddenly Crack Down on Four 
Guangdong Labor NGOs, `Haige Labor Services Center,' `Panyu Workers' 
Services Center,' `Sunflower Women Workers' Center,' `Nan Fei Yan,' 
Leaders and Workers Disappear After Being Taken Away'' [Guangdong si 
laogong NGO ``haige laogong fuwu bu'', ``panyu dagongzu'', 
``xiangyanghua nugong zhongxin'', ``nan fei yan'' turan zaodao jingfang 
daya, fuzeren ji yuangong bei daizou hou shilian], 3 December 15.
    \28\ Yaxue Cao, ``Chinese Authorities Orchestrate Surprise Raid of 
Labor NGOs in Guangdong, Arresting Leaders,'' China Change, 10 December 
15.
    \29\ Rights Defense Network, `` `12/3 Guangzhou Labor NGO Cases' 
Arrests Approved Today for Four Individuals, One Released, Two 
Disappeared'' [``12.3 guangzhou laogong NGO an'' jin si ren bei pi 
daibu, yi ren huoshi, liang ren wuxialuo], 8 January 16. For more 
information on Zeng Feiyang, see the Commission's Political Prisoner 
Database record 2015-00427.
    \30\ Ibid. For more information on Zhu Xiaomei, see the 
Commission's Political Prisoner Database record 2015-00428.
    \31\ Ibid. For more information on Meng Han, see the Commission's 
Political Prisoner Database record 2014-00026.
    \32\ Ibid. For more information on He Xiaobo, see the Commission's 
Political Prisoner Database record 2015-00431.
    \33\ China Labour Bulletin, ``Labour Activist Zhu Xiaomei Released 
After Two Months in Detention,'' 4 February 16.
    \34\ Guo Rui, ``One of Those Arrested in Guangdong Labor NGO Case, 
He Xiaobo Released on Bail'' [Guangdong laogong NGO an beibu ren zhi yi 
he xiaobo yi qubao houshen], Phoenix News, 8 April 16.
    \35\ Rights Defense Network, ``Authorities Force China Women's 
Rights NGO `Zhongze Women's Legal Aid Center' To Shut Down'' [Zhongguo 
nuquan NGO ``zhongze funu falu zixun fuwu zhongxin'' zao dangju qiangpo 
xuangao jiesan], 29 January 16; Jiang Jie and Chen Heying, ``Women's 
Legal Aid Center in Beijing Closed,'' Global Times, 2 February 16.
    \36\ Hai-Ching Yang, ``An Alternative to Impact Litigation in 
China: The Procurator as a Legal Avenue for Cases in the `Private 
Family Sphere' of Domestic Violence,'' Pacific Rim Law & Policy 
Journal, Vol. 20, No. 1 (January 2011), 244-45.
    \37\ Yaxue Cao, ``Guo Jianmei, Zhongze, and the Empowerment of 
Women in China,'' China Change, 14 February 16.
    \38\ See, e.g., Anti-Domestic Violence Network/Beijing FanBao, 
Beijing Zhongze Women's Legal Consulting Services Center, and China 
Women's University, ``The Shadow Report of Chinese Women's NGOs on the 
Combined Seventh and Eighth Periodic Report Submitted by China under 
Article 18 of the Convention on the Elimination of All Forms of 
Discrimination against Women: Violence Against Women (General 
Recommendation No. 19),'' September 2014; Beijing Zhongze Legal 
Consulting Services Center, China Association for Employment Promotion, 
and Women's Studies Institute of China, ``The Shadow Report of Chinese 
Women's NGOs on the Combined Seventh and Eighth Periodic Report 
Submitted by China under Article 18 of the Convention on the 
Elimination of All Forms of Discrimination against Women,'' September 
2014; Women Human Rights Defenders International Coalition, ``China: 
WHRDIC Condemns Closure of Women's Legal Aid Center in China,'' 
reprinted in World Organisation Against Torture, February 2016.
    \39\ Human Rights in China, ``Women's Rights NGO Responds to 
Cancellation by Peking University,'' 7 April 10.
    \40\ Yaxue Cao, ``Guo Jianmei, Zhongze, and the Empowerment of 
Women in China,'' China Change, 14 February 16; Lu Congcong and Chen 
Rui, ``Guo Jianmei, Alumna From Entering Class of '79: I'm Very Happy 
To Be a Public Interest Lawyer'' [79 ji xiaoyou guo jianmei zuo gongyi 
lushi, wo hen kuaile], Peking University Law School, Alumni Affairs, 
last visited 25 July 16.
    \41\ Chinese Urgent Action Working Group, ``Urgent Action: 
Statement on the Detention of Peter Dahlin,'' China Change, 12 January 
16.
    \42\ Ibid.; Chris Buckley, ``China To Expel Peter Dahlin, Swedish 
Human Rights Advocate,'' New York Times, 25 January 16.
    \43\ Edward Wong, ``China Uses Foreigners' Televised Confessions To 
Serve Its Own Ends,'' New York Times, 21 January 16; Chris Buckley, 
``China To Expel Peter Dahlin, Swedish Human Rights Advocate,'' New 
York Times, 25 January 16.
    \44\ Edward Wong, ``Inside China's Secret 23-Day Detention of a 
Foreign Nonprofit Chief,'' New York Times, 9 July 16.
    \45\ ``China Tamps Dissent With Trumped Up `State Security' and 
`Terrorism' Charges,'' Radio Free Asia, 17 March 16.
    \46\ ``Police Smashes Illegal Organization Jeopardizing China's 
National Security,'' Xinhua, 19 January 16; Simon Lewis, ``Swedish 
Activist Peter Dahlin Concerned Over Colleagues in Chinese Prisons,'' 
Time, 26 January 16.
    \47\ Chinese Human Rights Defenders, `` `Too Risky To Call 
Ourselves Defenders': CHRD Annual Report on the Situation of Human 
Rights Defenders in China (2015),'' February 2016, 12; Edward Wong, 
``Inside China's Secret 23-Day Detention of a Foreign Nonprofit 
Chief,'' New York Times, 9 July 16. For more information on Wang 
Quanzhang, see the Commission's Political Prisoner Database record 
2015-00278.
    \48\ Chinese Human Rights Defenders, `` `Too Risky To Call 
Ourselves Defenders': CHRD Annual Report on the Situation of Human 
Rights Defenders in China (2015),'' February 2016.
    \49\ ``Police Smashes Illegal Organization Jeopardizing China's 
National Security,'' Xinhua, 19 January 16; Simon Lewis, ``Swedish 
Activist Peter Dahlin Concerned Over Colleagues in Chinese Prisons,'' 
Time, 26 January 16. For more information on Xing Qingxian, see the 
Commission's Political Prisoner Database record 2009-00113.
    \50\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 35.
    \51\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, arts. 19, 21, 22. China signed the 
ICCPR in 1998 and the Chinese government has stated its intent to 
ratify it. During the UN Human Rights Council's Universal Periodic 
Review of the Chinese government's human rights record in October 2013, 
China stated it is ``making preparations for the ratification of ICCPR 
and will continue to carry out legislative and judicial reforms.'' UN 
Human Rights Council, Report of the Working Group on the Universal 
Periodic Review--China, A/HRC/25/5, 4 December 13, para. 153.
    \52\ Declaration on the Right and Responsibility of Individuals, 
Groups and Organs of Society To Promote and Protect Universally 
Recognized Human Rights and Fundamental Freedoms (Declaration on Human 
Rights Defenders), adopted by UN General Assembly resolution 53/144 of 
8 March 99, art. 5(a-c).
    \53\ Office of the UN High Commissioner for Human Rights, ``UN 
Human Rights Chief Deeply Concerned by China Clampdown on Lawyers and 
Activists,'' 16 February 16.
    \54\ ``Joint Statement on China's Human Rights Situation,'' 
reprinted in HumanRights.gov, 10 March 16. The joint statement was read 
aloud at the UN Human Rights Council meeting on March 10, 2016, by the 
U.S. Ambassador to the UN Human Rights Council, Keith Harper, on behalf 
of Australia, Denmark, Finland, Germany, Iceland, Ireland, Japan, the 
Netherlands, Norway, Sweden, the United Kingdom, and the United States. 
See also Simon Denyer, ``Is China Heading in the Wrong Direction? For 
Once, the West Calls Beijing Out,'' Washington Post, 23 March 16.
    \55\ Nike Ching, ``Unprecedented UNHRC Joint Statement Condemns 
China's Problematic Violations,'' Voice of America, 10 March 16.
    \56\ Shawn Shieh, ``2016: The Year of Regulation and a New Future 
for Civil Society,'' NGOs in China (blog), 11 June 16.
    \57\ See, e.g., Mark Sidel, ``Permissive or Restrictive? A Mixed 
Picture for Philanthropy in China,'' Alliance Magazine, 14 March 16; 
Louis Thivierge, ``China's New Charity Law: A Legal Framework To 
Incentivise Philanthropy and Achieve a `Moderately Prosperous Society,' 
'' Tsinghua China Law Review, 24 March 16; Reza Hasmath, ``The Pros and 
Cons of China's NGO Laws,'' The Diplomat, 23 March 16; Narada 
Foundation, ``Charity Law: 8 Major Advances and 10 Major Expectations'' 
[Cishan fa: 8 da jinbu yu 10 da qidai], 9 March 16.
    \58\ See, e.g., Reza Hasmath, ``The Pros and Cons of China's NGO 
Laws,'' The Diplomat, 23 March 16; Yimei Chen, ``An Interview With Mark 
Sidel: Engaging With Chinese Philanthropy From a Global Perspective,'' 
China Development Brief, 23 February 16; Chinese Human Rights 
Defenders, ``[CHRB] New Charity Law Will Further Isolate & Weaken Civil 
Society in China (March 21-31/2016),'' 31 March 16.
    \59\ See, e.g., Chinese Human Rights Defenders, ``[CHRB] New 
Charity Law Will Further Isolate & Weaken Civil Society in China (March 
21-31/2016),'' 31 March 16; Human Rights Watch, ``Human Rights Watch 
Letter to China NPC Chairman Zhang Dejiang,'' 3 March 16.
    \60\ ``China Adopts Charity Law,'' Xinhua, 16 March 16; PRC Charity 
Law [Zhonghua renmin gongheguo cishan fa], passed 16 March 16, 
effective 1 September 16. See also the following unofficial translation 
``2016 Charity Law,'' translated in China Law Translate (blog), 16 
March 16.
    \61\ National People's Congress Standing Committee, Charity Law 
(Draft) [Cishan fa (cao'an)], 31 October 15; National People's Congress 
Standing Committee, Charity Law Draft Second Review Revised Draft 
[Cishan fa cao'an erci shenyi gao xiugai gao], 11 January 16.
    \62\ ``Parties Hotly Discuss Six Main Issues of Charity Law Draft'' 
[Gefang reyi cishan fa cao'an liu da jiaodian], Xinhua, 30 October 15; 
Josh Chin, ``China Charity Law Seeks To Make Giving Easier,'' Wall 
Street Journal, 14 March 16.
    \63\ See, e.g., ``Xinhua Insight: NPC Hopes Charity Law Can Help 
Poverty Fight,'' Xinhua, 9 March 16. See also ``China Hopes To Improve 
Philanthropy Through Charity Law: Spokeswoman,'' Xinhua, 4 March 16.
    \64\ See, e.g., ``NPC Passes China's First Charity Law To Encourage 
Participation,'' China Radio International, 16 March 16.
    \65\ See, e.g., Shi Rui et al., ``China Builds Legal Basis for 
Charitable Giving,'' Caixin Net, 18 December 15; ``NPC Passes China's 
First Charity Law To Encourage Participation,'' China Radio 
International, 16 March 16.
    \66\ PRC Charity Law [Zhonghua renmin gongheguo cishan fa], passed 
16 March 16, effective 1 September 16, arts. 8-20. See, e.g., Xu 
Yongguang, ``Highlighting China's First Charity Law,'' CCTV, 10 March 
16; Shawn Shieh, ``Charity Law FAQs,'' NGOs in China (blog), 29 March 
16.
    \67\ Dong Zijin, ``Five Considerations Regarding the Charity Law'' 
[Dong zijin: guanyu cishan fa de wu ge tixing], Caijing, 15 April 16; 
PRC Charity Law [Zhonghua renmin gongheguo cishan fa], passed 16 March 
16, effective 1 September 16, art. 20.
    \68\ PRC Charity Law [Zhonghua renmin gongheguo cishan fa], passed 
16 March 16, effective 1 September 16, arts. 22-23.
    \69\ Ibid., arts. 71-75.
    \70\ Ibid., arts. 52, 98, 108.
    \71\ Ibid., art. 104. In addition, Articles 4 and 15 prohibit 
activities and funding for activities that ``endanger state security'' 
and ``social public interests.'' Megha Rajagopalan, ``China Charity Law 
To Forbid Activity That `Endangers National Security,' '' Reuters, 9 
March 16; Shawn Shieh, ``Charity Law FAQs,'' NGOs in China (blog), 29 
March 16; Chinese Human Rights Defenders, ``[CHRB] New Charity Law Will 
Further Isolate & Weaken Civil Society in China (March 21-31/2016),'' 
31 March 16.
    \72\ See, e.g., Human Rights Watch, ``China: State Security, 
Terrorism Convictions Double,'' 16 March 16; Chinese Human Rights 
Defenders, ``[CHRB] New Charity Law Will Further Isolate & Weaken Civil 
Society in China (March 21-31/2016),'' 31 March 16.
    \73\ Shawn Shieh, ``Charity Law FAQs,'' NGOs in China (blog), 29 
March 16; Chinese Human Rights Defenders, ``[CHRB] New Charity Law Will 
Further Isolate & Weaken Civil Society in China (March 21-31/2016),'' 
31 March 16.
    \74\ Josh Chin, ``The Good--And Bad--About China's New Charity 
Law,'' Wall Street Journal, China Real Time Report (blog), 16 March 16.
    \75\ See, e.g., Shannon Van Sant, ``China Approves Comprehensive 
Law on Charities, Nonprofits,'' Voice of America, 23 March 16; Josh 
Chin, ``The Good--And Bad--About China's New Charity Law,'' Wall Street 
Journal, China Real Time (blog), 16 March 16. See also Yimei Chen, ``An 
Interview with Mark Sidel: Engaging With Chinese Philanthropy From a 
Global Perspective,'' China Development Brief, 23 February 16.
    \76\ PRC Charity Law [Zhonghua renmin gongheguo cishan fa], passed 
16 March 16, effective 1 September 16, arts. 79-84.
    \77\ See, e.g., Josh Chin, ``The Good--And Bad--About China's New 
Charity Law,'' Wall Street Journal, China Real Time (blog), 16 March 
16; Dong Zijin, ``Five Considerations Regarding the Charity Law'' [Dong 
zijin: guanyu cishan fa de wu ge tixing], Caijing, 15 April 16.
    \78\ CECC, 2015 Annual Report, 8 October 15, 227-28.
    \79\ PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China [Zhonghua renmin gongheguo 
jingwai feizhengfu zuzhi jingnei huodong guanli fa], passed 28 April 
16, effective 1 January 17; ``China Releases Law on Management of 
Overseas Non-Governmental Organizations' Activities in Mainland China'' 
[Woguo chutai jingwai feizhengfu zuzhi jingnei huodong guanli fa], 
Xinhua, 28 April 16.
    \80\ PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China [Zhonghua renmin gongheguo 
jingwai feizhengfu zuzhi jingnei huodong guanli fa], passed 28 April 
16, effective 1 January 17, art. 54; ``China Releases Law on Management 
of Overseas Non-Governmental Organizations' Activities in Mainland 
China'' [Woguo chutai jingwai feizhengfu zuzhi jingnei huodong guanli 
fa], Xinhua, 28 April 16.
    \81\ ``China Releases Law on Management of Overseas Non-
Governmental Organizations' Activities in Mainland China'' [Woguo 
chutai jingwai feizhengfu zuzhi jingnei huodong guanli fa], Xinhua, 28 
April 16; Didi Kirsten Tatlow, ``China Wrestles With Draft Law on 
Nongovernmental Organizations,'' New York Times, Sinosphere (blog), 11 
March 16; National People's Congress Standing Committee, PRC Overseas 
Non-Governmental Organizations Management Law (Draft) (Second Reading 
Draft) [Zhonghua renmin gongheguo jingwai feizhengfu zuzhi guanli fa 
(cao'an) (er ci shenyi gao)], 5 May 15. For an unofficial English 
translation of the draft version, see China Development Brief, ``CDB 
English Translation of the Overseas NGO Management Law (Second 
Draft),'' 21 May 15.
    \82\ See, e.g., Human Rights Watch, ``Submission by Human Rights 
Watch to the National People's Congress Standing Committee on the 
Second Draft of the Foreign Non-Governmental Organizations Management 
Law,'' 2 June 15; Amnesty International, ``China: Submission to the NPC 
Standing Committee's Legislative Affairs Commission on the Second Draft 
Foreign Non-Governmental Organizations Management Law,'' June 2015, 3-
4; China Development Brief, ``Feedback and Suggestions on the `Overseas 
NGO Management Law of the People's Republic of China (Draft)' (Second 
Reading),'' May 2015, 2-7.
    \83\ ``Draft Law on Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China Submitted for Third 
Review'' [Jingwai feizhengfu zuzhi jingnei huodong guanli fa cao'an 
tiqing san shen], Xinhua, 25 April 16; ``Changes Anticipated in the New 
FNGO Law,'' China Law Translate (blog), 25 April 16; PRC Law on the 
Management of Overseas Non-Governmental Organizations' Activities in 
Mainland China [Zhonghua renmin gongheguo jingwai feizhengfu zuzhi 
jingnei huodong guanli fa], passed 28 April 16, effective 1 January 17, 
art. 2; National People's Congress Standing Committee, PRC Overseas 
Non-Governmental Organizations Management Law (Draft) (Second Reading 
Draft) [Zhonghua renmin gongheguo jingwai feizhengfu zuzhi guanli fa 
(cao'an) (er ci shenyi gao)], 5 May 15, art. 2. The definition of 
overseas NGOs in the final version of the law states overseas NGOs are 
``not-for-profit, non-governmental social organizations lawfully 
established outside of mainland China such as foundations, social 
associations, and think tanks.'' The second draft law released for 
public comment in May 2015 defined overseas NGOs as ``not-for-profit, 
non-governmental social organizations formed outside mainland China.''
    \84\ Shawn Shieh, ``Overseas NGO Law FAQs,'' NGOs in China (blog), 
1 May 16; PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China [Zhonghua renmin gongheguo 
jingwai feizhengfu zuzhi jingnei huodong guanli fa], passed 28 April 
16, effective 1 January 17, art. 2.
    \85\ ``Draft Law on Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China Submitted for Third 
Review'' [Jingwai feizhengfu zuzhi jingnei huodong guanli fa cao'an 
tiqing san shen], Xinhua, 25 April 16; ``Changes Anticipated in the New 
FNGO Law,'' China Law Translate (blog), 25 April 16.
    \86\ Ibid.
    \87\ Shawn Shieh, ``Mapping the Dynamics of Civil Society,'' in NGO 
Governance and Management in China, eds. Reza Hasmath and Jennifer. 
Y.J. Hsu (Abingdon: Routledge, 2016), 51-52; International Center for 
Not-for-Profit Law, ``NGO Law Monitor: China,'' last updated 20 June 
16.
    \88\ PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China [Zhonghua renmin gongheguo 
jingwai feizhengfu zuzhi jingnei huodong guanli fa], passed 28 April 
16, effective 1 January 17, art. 41; Simon Denyer, ``China Passes Tough 
Law To Bring Foreign NGOs Under Security Supervision,'' Washington 
Post, 28 April 16.
    \89\ PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China [Zhonghua renmin gongheguo 
jingwai feizhengfu zuzhi jingnei huodong guanli fa], passed 28 April 
16, effective 1 January 17, art. 11. Article 11 states that public 
security and government offices are tasked with publishing a directory 
of approved professional supervisory units (PSUs).
    \90\ Ibid., arts. 46-47.
    \91\ Ibid., art. 5.
    \92\ Ibid., art. 5.
    \93\ Ibid., art. 9.
    \94\ Ibid., art. 9.
    \95\ Ibid., arts. 16-17.
    \96\ Ibid., art. 17.
    \97\ Ibid., arts. 6, 19, 31.
    \98\ Ibid., arts. 6, 31.
    \99\ Ibid., art. 53; Shawn Shieh, ``Overseas NGO Law FAQs,'' NGOs 
in China (blog), 1 May 16.
    \100\ Shawn Shieh, ``Overseas NGO Law FAQs,'' NGOs in China (blog), 
1 May 16; ``Changes Anticipated in the New FNGO Law,'' China Law 
Translate (blog), 25 April 16.
    \101\ Office of the UN High Commissioner for Human Rights, ``China: 
Newly Adopted Foreign NGO Law Should Be Repealed, UN Experts Urge,'' 3 
May 16.
    \102\ Chinese Human Rights Defenders, ``China: Repeal Overseas NGO 
Law & Protect Freedom of Association,'' 28 April 16; Tom Phillips, 
``China Passes Law Imposing Security Controls on Foreign NGOs,'' 
Guardian, 28 April 16; Charlie Campbell, ``China's New Foreign NGO Law 
Is Threatening Vital Advocacy Work,'' Time, 26 April 16; Mark Sidel, 
``It Just Got Harder To Make a Difference in China,'' Foreign Policy, 
Tea Leaf Nation (blog), 29 April 16.
    \103\ Freedom House, ``China's NGO Law Aims To Stifle `Foreign' 
Influence, Basic Rights,'' 29 April 16.
    \104\ The White House, ``Statement by NSC Spokesperson Ned Price on 
China's Foreign NGO Management Law,'' 28 April 16; John Kerry, U.S. 
Department of State, ``China's Passage of the Law on the Management of 
Foreign NGO Activities Inside Mainland China,'' 28 April 16.
    \105\ Sebastian Heilmann et al., ``How Should Global Stakeholders 
Respond to China's New NGO Management Law? '' Asia Society, ChinaFile 
(blog), 5 May 16.
    \106\ Jia Xijin, ``Jia Xijin: Where Will the Second Boot Fall in 
the Legislation for Overseas NGOs? '' [Jia xijin: lifa jingwai NGO, di 
er zhi xuezi ruhe luodi?], Caijing, 27 November 15.
    \107\ State Council General Office, State Council's 2016 
Legislative Work Plan [Guowuyuan 2016 nian lifa gongzuo jihua], 17 
March 16, 1. See also CECC, 2013 Annual Report, 10 October 13, 133.
    \108\ Ministry of Civil Affairs, Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Commercial 
Enterprises (Revised Draft for Solicitation of Comments) [Minban 
feiqiye danwei dengji guanli tiaoli zanxing tiaoli (xiuding cao'an 
zhengqiu yijian gao)], 26 May 16; Ministry of Civil Affairs, 
Regulations on the Management of Foundations (Revised Draft for 
Solicitation of Comments) [Jijinhui guanli tiaoli (xiuding cao'an 
zhengqiu yijian gao)], 26 May 16; Ministry of Civil Affairs, 
Regulations on the Registration and Management of Social Organizations 
(Revised Draft for Solicitation of Comments) [Shehui tuanti dengji 
guanli tiaoli (xiuding cao'an zhengqiu yijian gao)], 1 August 16.
    \109\ State Council, Decision on Amending Some Administrative 
Regulations [Guowuyuan guanyu xiugai bufen xingzheng fagui de jueding], 
issued and effective 6 February 16, 18; ``State Council Revises the 
Administrative Regulations for the Registration of Social 
Organizations,'' China Development Brief, 3 March 16; Wang Yong, 
``State Council Amends the `Regulations for the Registration and 
Management of Social Organizations' '' [Guowuyuan xiugai ``shehui 
tuanti dengji guanli tiaoli''], China Philanthropy Times, reprinted in 
Syntao, 4 March 16. The revisions allow applicant organizations that 
have appropriate sponsors to apply directly for registration rather 
than first having to apply to prepare for registration at the relevant 
government agency.
    \110\ Ministry of Civil Affairs, Regulations on the Registration 
and Management of Social Organizations (Revised Draft for Solicitation 
of Comments) [Shehui tuanti dengji guanli tiaoli (xiuding cao'an 
zhengqiu yijian gao)], 1 August 16, 20. See also Ben Blanchard, ``China 
Proposes Tightening Grip on NGOs,'' Reuters, 1 August 16.
    \111\ Ministry of Civil Affairs, Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Commercial 
Enterprises (Revised Draft for Public Comment) [Minban feiqiye danwei 
dengji guanli tiaoli zanxing tiaoli (xiuding cao'an zhenqiu yijian 
gao)], 26 May 16, Introduction. According to Article 10, ``social 
organizations'' categorized as ``non-governmental, non-commercial 
enterprises'' under these regulations include science and technology 
research groups, philanthropic groups, and community service groups.
    \112\ Ministry of Civil Affairs, Regulations on the Management of 
Foundations (Revised Draft for Solicitation of Comments) [Jijinhui 
guanli tiaoli (xiuding cao'an zhengqiu yijian gao)], 26 May 16, 
Explanations.
    \113\ Ministry of Civil Affairs, Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Commercial 
Enterprises (Revised Draft for Solicitation of Comments) [Minban 
feiqiye danwei dengji guanli tiaoli zanxing tiaoli (xiuding cao'an 
zhengqiu yijian gao)], 26 May 16, art. 4; Ministry of Civil Affairs, 
Regulations on the Management of Foundations (Revised Draft for 
Solicitation of Comments) [Jijinhui guanli tiaoli (xiuding cao'an 
zhengqiu yijian gao)], 26 May 16, art. 4; Ministry of Civil Affairs, 
Regulations on the Registration and Management of Social Organizations 
(Revised Draft for Solicitation of Comments) [Shehui tuanti dengji 
guanli tiaoli (xiuding cao'an zhengqiu yijian gao)], 1 August 16, art. 
4.
    \114\ ``Party Central Committee General Office and State Council 
General Office Publish `Opinion on Reforming Management System of 
Social Organizations To Promote Social Organizations' Healthy and 
Orderly Development' '' [Zhongban guoban yinfa ``guanyu gaige shehui 
zuzhi guanli zhidu cujin shehui zuzhi jiankang youxu fazhan de yijian], 
Xinhua, 21 August 16, 2(2-3); Ben Blanchard, ``China To Strengthen 
Communist Party's Role in Non-Govt Bodies,'' Reuters, 21 August 16.
    \115\ State Council, Regulations on the Registration and Management 
of Social Organizations [Shehui tuanti dengji guanli tiaoli], issued 25 
October 98, amended and effective 6 February 16, art. 6; Ministry of 
Civil Affairs, Temporary Regulations on the Registration and Management 
of Non-Governmental, Non-Commercial Enterprises (Revised Draft for 
Solicitation of Comments) [Minban feiqiye danwei dengji guanli tiaoli 
zanxing tiaoli (xiuding cao'an zhengqiu yijian gao)], 26 May 16, art. 
10.
    \116\ International Center for Not-for-Profit Law, ``NGO Law 
Monitor: China,'' last updated 20 June 16; Shawn Shieh, ``Mapping the 
Dynamics of Civil Society,'' in NGO Governance and Management in China, 
eds. Reza Hasmath and Jennifer Y.J. Hsu (Abingdon: Routledge, 2016), 
52. Shieh refers to the management system of NGOs as ``dual 
supervision'' by relevant-level entities within the civil affairs 
bureaucracy and by professional supervisory units. Dong Zijin, ``Five 
Considerations Regarding the Charity Law'' [Guanyu cishan fa de wu ge 
tixing], Caijing, 15 April 16.
    \117\ Teng Biao, ``Assessment of the Drafts of the `Foreign NGO 
Management Law' and `National Security Law' '' [Ping ``jingwai 
feizhengfu zuzhi guanli fa'' he ``guojia anquan fa'' cao'an], 
Independent Chinese PEN Center (blog), 30 June 15; Fengshi Wu and Kin-
man Chan, ``Graduated Control and Beyond: The Evolving Government-NGO 
Relations,'' China Perspectives, 2012, No. 3, 10-11.
    \118\ International Center for Not-for-Profit Law, ``NGO Law 
Monitor: China,'' last updated 20 June 16. Some other barriers to 
registration include extensive documentation requirements; broad 
prohibitions of certain activities such as advocacy, legal assistance, 
labor, religion, and ethnic minority affairs; and authorities' 
extensive discretion to deny registration.
    \119\ Ibid.; Wan Yanhai, ``Wan Yanhai Special Column: Sounding the 
Alarm on Transition Institute's Alleged Crime of `Illegal Business 
Activity' '' [Wan yanhai zhuanlan: chuanzhixing ``feifa jingying zui'' 
qiaoxiang de jingzhong], Storm Media, 1 May 15. See also Teng Biao, 
``Assessment of the Drafts of the `Foreign NGO Management Law' and the 
`National Security Law' '' [Ping ``jingwai feizhengfu zuzhi guanli fa'' 
he ``guojia anquan fa'' cao'an], Independent Chinese PEN Center (blog), 
30 June 15.
    \120\ Nala, ``Non-Profit Organizations in China and Their Future 
Prospects,'' Washington Institute of China Studies, Business and Public 
Administration Studies, Vol. 8, No. 1 (2014), 30.
    \121\ Verna Yu, ``Overseas Funding: The `Original Sin' of Mainland 
Independent NGOs? '' [Jingwai zizhu neidi duli NGO de ``yuanzui''?], 
South China Morning Post, 22 January 16.
    \122\ Jiang Tao, ``CASS Report: China's Civil Society Groups Face 
Five Dilemmas'' [Shekeyuan baogao: zhongguo minjian zuzhi mianlin wu da 
kunjing], China News Service, 25 December 14.
    \123\ Wang Changbao, ``How Government Procurement of Services Can 
Effectively Advance'' [Zhengfu goumai gonggong fuwu ruhe youxiao 
tuijin], China Government Procurement Net, 25 January 16.
    \124\ Ibid.
    \125\ Zhu Hong, ``The First `Guidelines for the Evaluation of the 
Management of Government Services Procurement' Released'' [Quanguo 
shouge ``zhengfu goumai shehui zuzhi fuwu xiangmu jixiao pinggu caozuo 
zhiyin'' fabu], People's Daily, 2 February 16.

                                                Institutions of 
                                                    Democratic 
                                                     Governance
                                                Institutions of 
                                                Democratic 
                                                Governance

                 Institutions of Democratic Governance


Political Power of the Chinese Communist Party Under General Secretary 
                               Xi Jinping

    In China's one-party, authoritarian political system,\1\ 
the Chinese Communist Party plays a leading role in the state 
and society.\2\ Observers note that the central role of the 
Party in governing the state appears to have strengthened since 
Party General Secretary and President Xi Jinping came into 
power in November 2012,\3\ a development that has further 
``blurred'' the lines between Party and government, according 
to some experts.\4\ During the Commission's 2016 reporting 
year, under Xi's leadership, the Party demanded absolute 
loyalty \5\ and continued to direct and influence politics and 
society at all levels, including in the military,\6\ 
economy,\7\ media,\8\ civil society,\9\ and family life.\10\ 
State-run media outlets reported that President Xi emphasized 
the Party's claims to leadership over ``political, military, 
civil, and academic--east, west, south, north, and center'' at 
a senior-level Party meeting in January 2016.\11\ After the 
18th Party Central Committee approved the Proposal on Drafting 
the 13th Five-Year Plan for National Economic and Social 
Development at its Fifth Plenum in October 2015,\12\ the 
government adopted the plan during the annual legislative and 
political advisory sessions in March 2016.\13\ The 13th Five-
Year Plan reiterates a vision to ``spur a great rejuvenation of 
the Chinese nation'' in line with the ``Chinese dream.'' \14\ 
Xi introduced the concept of the ``Chinese dream'' in 2013,\15\ 
promoting a Party- and government-centric model of ``socialism 
with Chinese characteristics'' in economics, politics, and 
society \16\ that rejects so-called ``Western values'' \17\ and 
``hostile forces.'' \18\

                       XI JINPING'S LEADING ROLE

    This past year, the Commission observed a continued 
emphasis on Xi's leading role in guiding decisionmaking in 
Party, government, and military affairs. Reports suggested that 
Xi used the ongoing anticorruption campaign,\19\ intensified 
Party disciplinary measures,\20\ promoted his speeches as 
ideological guidance,\21\ and continued his chairmanship of at 
least six leading small groups (lingdao xiaozu) in the Party 
Central Committee to strengthen his power within the Party.\22\ 
Following central Party meetings that featured calls to 
strengthen the Party's role as the ``core'' (hexin) of Chinese 
government and society,\23\ several provincial and local Party 
leaders referred to Xi as the ``core'' of Party leadership 
\24\--a term previously used to characterize Deng Xiaoping and 
Jiang Zemin, former Party General Secretaries.\25\ In a 
development that observers assert further signals Xi's 
increased power over the military,\26\ in April 2016, Xi gained 
a new title as the commander-in-chief of the Central Military 
Commission's Joint Battle Command Center and urged the command 
system to be ``absolutely loyal.'' \27\ Reports this past year 
noted official propaganda efforts focusing on Xi's leadership 
style and policies that some observers found reminiscent of 
Chairman Mao Zedong's ``cult of personality,'' \28\ 
highlighting Xi's efforts to amass personalized power.\29\ An 
Australian academic characterized Xi as the ``chairman of 
everything,'' noting that Xi's leadership style represented a 
departure from previous leaders' adherence to the concerns of 
Party elders and the post-Mao model of collective 
decisionmaking.\30\ Xi's restrictive media policies reportedly 
elicited criticism from property tycoon and popular social 
media commentator Ren Zhiqiang,\31\ Chinese media outlet 
Caixin,\32\ and anonymous sources.\33\ [For more information on 
critiques of Xi's media policy, see Section II--Freedom of 
Expression.] Moreover, the Central Commission for Discipline 
Inspection, the Party institution that has spearheaded the 
anticorruption campaign closely associated with Xi,\34\ 
published an essay in March 2016 on its website titled, ``A 
Thousand Yes-Men Cannot Equal One Honest Advisor,'' \35\ which 
appeared to criticize Xi's suppression of dissent within the 
Party, according to observers.\36\

             Party-Building in Civil Society Organizations

    The Communist Party continued to prioritize expanding its 
presence in civil society through ``Party-building,'' \37\ a 
policy of establishing groups of Party members within civil 
society organizations.\38\ A Party Central Committee opinion 
from September 2015 guided local-level Party committees to 
ensure that Party groups in non-governmental social 
organizations (shehui zuzhi) ``guarantee the political 
direction'' of such organizations by promoting the Party line, 
implementing Party decisions, studying Xi's important speeches 
and thought, and ensuring that social organizations follow 
national law.\39\ Provincial Party committees and officials in 
Anhui,\40\ Guizhou,\41\ Gansu,\42\ and Liaoning provinces \43\ 
released plans that assign greater personal responsibility to 
Party officials to develop active Party groups in social 
organizations.\44\

                 Anticorruption Campaign and Challenges

    This past year, President and Party General Secretary Xi 
Jinping's wide-reaching anticorruption campaign \45\ to reduce 
graft and strengthen Party discipline \46\ continued snaring 
so-called ``tigers'' and ``flies''--high- and low-level Party 
officials \47\--in a manner that one scholar called selective 
in enforcement, non-transparent, and politicized.\48\ The 
Central Commission for Discipline Inspection (CCDI) targeted 
officials in the government,\49\ military,\50\ state security 
apparatus,\51\ media,\52\ and business \53\ this past year. By 
the end of 2015, CCDI authorities had reportedly investigated 
at least one high-level official from every provincial-level 
administrative area \54\ and, according to Xinhua, administered 
disciplinary penalties for nearly 300,000 officials.\55\ The 
Supreme People's Procuratorate investigated a total of 40,834 
cases of professional misconduct involving 54,249 people in 
2015,\56\ numbers comparable to the previous year.\57\ The CCDI 
announced plans to boost the efficiency of discipline 
inspection within central Party and government entities \58\ by 
expanding the scope of monitoring to lower levels,\59\ 
strengthening intra-Party accountability mechanisms,\60\ and 
setting up more ``resident supervisor offices'' within central, 
provincial-, and local-level departments.\61\ Reports in 
domestic and international media outlets during this reporting 
year raised allegations of torture \62\ and the unnatural 
deaths of officials,\63\ including alleged suicides.\64\ The 
CCDI also continued to administer the non-transparent and 
extralegal disciplinary process of shuanggui (``double 
designation''), which requires Party members to appear for 
interrogation at a designated time and place.\65\ Following its 
November 2015 review of China's compliance with the Convention 
against Torture and Other Cruel, Inhuman or Degrading Treatment 
or Punishment, the UN Committee against Torture expressed 
concern in its concluding observations that Party members held 
under shuanggui may be denied access to counsel and are at risk 
of torture, and recommended that the system be abolished.\66\
    Despite the anticorruption efforts directed by central 
Party officials, corruption remains a major problem.\67\ In 
April 2016, the International Consortium of Investigative 
Journalists published internal documents from a Panamanian law 
firm containing information on offshore companies tied to nine 
families of high-level Party officials, including President Xi 
Jinping.\68\ In the same month, Xi announced that a pilot 
program banning business operations of family members of senior 
Party officials will be expanded from Shanghai municipality to 
Beijing and Chongqing municipalities, Guangdong province, and 
the Xinjiang Uyghur Autonomous Region as part of the 
anticorruption campaign.\69\

 ``Rule by Fear'': Continued Crackdown on Free Speech and Assembly and 
                           Democracy Advocacy

    Officials continued a broad ideological and political 
crackdown on the Party and bureaucracy, human rights lawyers, 
business leaders, and bloggers, generating what one scholar 
called a climate of ``rule by fear.'' \70\ The Chinese 
government employed the use of ``fear techniques'' by 
televising and ``advertising'' \71\ the suppression of both 
Chinese and foreign nationals.\72\ Notable televised 
confessions in this past year include those of legal advocacy 
non-governmental organization (NGO) cofounder and Swedish human 
rights advocate Peter Dahlin; \73\ lawyers Zhang Kai and Wang 
Yu; \74\ elected village Party committee chief Lin Zulian; \75\ 
and four Hong Kong booksellers--Swedish citizen Gui Minhai,\76\ 
Cheung Chi-ping,\77\ Lam Wing-kei,\78\ and Lui Bo.\79\ In 
addition to what observers believed were forced 
confessions,\80\ the alleged cross-jurisdiction abductions and 
arbitrary detentions of Chinese and foreign nationals during 
this past year \81\ violated Article 9 of the Universal 
Declaration of Human Rights, which stipulates that ``no one 
shall be subjected to arbitrary arrest, detention, or exile.'' 
\82\ [For more information on the cases of the Hong Kong 
booksellers, see Section VI--Developments in Hong Kong and 
Macau.]
    Chinese authorities also continued to harass, detain, and 
impose prison sentences on democracy advocates who exercised 
their rights to freedom of speech, assembly, and demonstration. 
Representative cases of advocates whom authorities targeted 
this past year included:

        <bullet> Qin Yongmin and Zhao Suli. In January 2015, 
        authorities in Wuhan municipality, Hubei province, 
        detained Qin, a founder of the banned China Democracy 
        Party and the domestic NGO China Human Rights Watch, 
        and his wife Zhao.\83\ In May 2016, another rights 
        advocate confirmed Qin's detention in Wuhan.\84\ As of 
        June 2016, Zhao's whereabouts and the charges against 
        her, if any, remained unknown.\85\ After holding Qin 
        incommunicado for 17 months, authorities indicted Qin 
        on the charge of ``subversion of state power'' in June 
        2016.\86\
        <bullet> Authorities in Beijing municipality detained 
        protesters gathered outside the Beijing No. 2 
        Intermediate People's Court during public interest 
        lawyer Pu Zhiqiang's trial in December 2015.\87\ 
        Authorities reportedly detained Zhang Zhan,\88\ Wang 
        Su'e,\89\ Qu Hongxia,\90\ Ran Chongbi,\91\ Li 
        Meiqing,\92\ Wen Rengui,\93\ and Sheng Lanfu \94\ on 
        suspicion of ``picking quarrels and provoking 
        trouble,'' \95\ and released them in January 2016.\96\
        <bullet> Xu Qin. In January 2016, authorities in 
        Beijing detained and arrested Xu, acting secretary-
        general of China Human Rights Watch and member of an 
        affiliated group, Rose China,\97\ on suspicion of 
        ``picking quarrels and provoking trouble'' ahead of a 
        planned gathering of hundreds of petitioners in 
        Beijing.\98\ Authorities released Xu on February 2.\99\
        <bullet> Yin Weihe. Authorities in Xiangxiang city, 
        Xiangtan municipality, Hunan province, detained Yin in 
        September 2013 on suspicion of ``picking quarrels and 
        provoking trouble,'' reportedly for sharing information 
        on the 1989 Tiananmen protests and official 
        corruption.\100\ Authorities tried him in January 2014 
        \101\ and released him on bail in October 2014,\102\ 
        before detaining him again in December 2015.\103\ In 
        March 2016, the Xiangxiang Municipal People's Court 
        sentenced Yin to three years' imprisonment for 
        ``picking quarrels and provoking trouble.'' \104\
        <bullet> Liu Shaoming. Police in Guangzhou 
        municipality, Guangdong province, criminally detained 
        labor rights advocate Liu in May 2015 and charged him 
        in July 2015 with ``inciting subversion of state 
        power'' for writing and sharing political essays online 
        related to the 1989 Tiananmen protests.\105\ The 
        Guangzhou Intermediate People's Court heard Liu's case 
        in April 2016,\106\ but as of July 2016 had not issued 
        a verdict.\107\
        <bullet> In June 2016, a court in Hangzhou 
        municipality, Zhejiang province, convicted democracy 
        advocates Lu Gengsong and Chen Shuqing of ``subversion 
        of state power'' and sentenced them to prison terms of 
        11 years and 10 years and 6 months, respectively, for 
        writing pro-democracy essays and for involvement with 
        the China Democracy Party.\108\

    This past year, authorities persecuted individuals for 
participating in memorial events in remembrance of the violent 
suppression of the 1989 Tiananmen protests. According to one 
report, authorities questioned, held in custody, criminally 
detained, sent on forced ``vacation,'' or harassed at least 53 
individuals.\109\ Cases included:

        <bullet> On May 31, 2016, police in Beijing 
        municipality criminally detained Zhao Changqing, Zhang 
        Baocheng, Xu Caihong, Li Wei, Ma Xinli, and Liang 
        Taiping \110\ after they had attended a private 
        gathering at Zhao's home on May 30 to commemorate the 
        Tiananmen protests and call for the release of Guo 
        Feixiong and Yu Shiwen.\111\ The six were all 
        subsequently released on bail in June and July.\112\
        <bullet> Fu Hailu. Public security authorities in 
        Chengdu municipality, Sichuan province, detained Fu on 
        May 28, 2016,\113\ and formally arrested him on July 5 
        on suspicion of ``inciting subversion of state power'' 
        \114\ after he posted pictures online of satirically 
        labeled liquor bottles commemorating the 1989 
        protests.\115\ Authorities also reportedly detained and 
        formally arrested Chen Bing, Luo Fuyu, and Zhang 
        Juanyong on suspicion of ``inciting subversion of state 
        power'' in connection with Fu's case.\116\

    Authorities also pursued criminal cases against people 
detained in 2014, prior to the 25th anniversary of the 1989 
Tiananmen protests and their violent suppression, including:

        <bullet> In January 2016, the Guangzhou Intermediate 
        People's Court in Guangdong sentenced democracy 
        advocates Tang Jingling,\117\ Yuan Chaoyang,\118\ and 
        Wang Qingying\119\--nicknamed the ``Three Gentlemen of 
        Guangzhou''--to five years; three years and six months; 
        and two years and six months in prison, respectively, 
        for ``inciting subversion of state power.'' \120\
        <bullet> Pu Zhiqiang. In December 2015, the Beijing No. 
        2 Intermediate People's Court sentenced prominent 
        public interest lawyer Pu Zhiqiang to three years' 
        imprisonment, suspended for three years, for ``inciting 
        ethnic hatred'' and ``picking quarrels and provoking 
        trouble'' \121\ for seven microblog posts that 
        criticized government officials and China's ethnic 
        policies.\122\

  Promoting ``Socialist Political Democratic Consultative Processes''

    This past year, central Communist Party authorities did not 
undertake any substantial political liberalization,\123\ but 
instead pledged to continue improving China's ``socialist 
political democratic consultative system'' with the aim of 
strengthening Party leadership.\124\ Chinese officials have 
described China's political system as a ``socialist democracy'' 
with ``multi-party cooperation'' and ``political consultation'' 
under the leadership of the Communist Party.\125\ In the past, 
types of ``consultation'' have included intraparty input on 
decisions about Party cadre appointments, development projects 
at grassroots levels, and some draft laws, as well as 
discussions between Party representatives and the national 
Chinese People's Political Consultative Conference (CPPCC) and 
the eight ``democratic'' minor parties under the CPPCC 
umbrella.\126\ In March 2016, state-run media published 
commentary emphasizing the role of the CPPCC and promoting the 
CPPCC's importance as the official channel for ``democratic 
consultations'' and increasing public trust.\127\

            Democratic Governance in China's One-Party State

    Sources from this past year highlighted several instances 
in which officials interfered with or inhibited meaningful 
public participation in local elections,\128\ undermining the 
ability of Chinese political institutions to meet the standards 
for ``genuine'' elections outlined in the Universal Declaration 
of Human Rights \129\ and the International Covenant on Civil 
and Political Rights.\130\ Chinese advocates for fair elections 
called for the National People's Congress to guarantee judicial 
protection of voters' legal rights as defined by the PRC 
Organic Law of Village Committees.\131\ Reports from a human 
rights organization highlighted problems with local elections, 
including local officials' unlawful establishment of working 
groups to influence outcomes,\132\ lack of public participation 
in the nomination process,\133\ and lack of official response 
to citizens' complaints regarding election malfeasance.\134\ As 
an example of official harassment of an election participant, 
in June 2016, public security authorities in Yongjing county, 
Linxia Hui Autonomous Prefecture, Gansu province, criminally 
detained rights advocate Qu Mingxue--along with Zhang Lujun, 
Liu Mingxue, and Wang Mingzhu, who were released on the same 
day--on suspicion of ``disrupting elections'' \135\ for 
recommending Liu as an independent write-in candidate in a June 
20 local people's congress election in Yongjing and supporting 
his independent candidacy on social media.\136\ Authorities 
formally arrested Qu on July 2 \137\ but decided not to indict 
him, releasing him on July 28.\138\ In addition, in August 
2016, Zixi county, Fuzhou municipality, Jiangxi province, 
public security officials ordered Yang Wei to serve 10 days' 
administrative detention after he requested forms from local 
government offices to run as an independent candidate in the 
provincial people's congress elections.\139\

------------------------------------------------------------------------
             A New Round of Protests in Wukan Village \140\
-------------------------------------------------------------------------
  In June 2016, international and Chinese official media outlets
 reported a new round of protests in Wukan, a village in Donghai
 subdistrict, Lufeng city, Shanwei municipality, Guangdong province,
 over the detention of the village committee's Communist Party Secretary
 Lin Zulian.\141\ Wukan was the site of major protests in 2011 over land
 expropriation issues and the death of a village protest leader while in
 custody.\142\ Provincial-level authorities subsequently allowed a
 village committee election in March 2012 in which protest leaders were
 directly elected to the committee, including Lin.\143\ Further protest
 broke out in Wukan in 2014 when local villagers claimed government
 interference in village elections following the detention of two
 candidates who helped to organize the 2011 protests and who had been
 elected to the village committee in 2012.\144\
  According to an official notice from the Lufeng public security
 bureau, on June 17, 2016, Lufeng authorities imposed ``coercive
 measures'' against Lin for allegedly ``accepting bribes.'' \145\ Media
 reports, however, indicated that authorities detained Lin after he
 announced a public meeting to protest the lack of official progress in
 the government's pledge to return farmland.\146\ On June 21, Shanwei
 officials released a prerecorded confession of Lin admitting to taking
 bribes, which local residents reportedly found unconvincing,\147\ and
 formally arrested him on July 21.\148\ The Hong Kong-based newspaper
 South China Morning Post reported that authorities warned two prominent
 rights lawyers not to work on the case.\149\ After Lin's detention,
 local authorities placed Lin's family members under 24-hour
 surveillance, conditions that reportedly led Lin's grandson to attempt
 suicide in early August.\150\
------------------------------------------------------------------------

  Implementation of Open Government and Citizen Access to Information

    Chinese authorities reiterated their intent to improve open 
government affairs and to aim for a higher level of information 
disclosure to the public.\151\ Following official guidance from 
the Communist Party \152\ and State Council \153\ that called 
on government agencies to improve transparency, promote 
administrative reform, and restrain officials from arbitrarily 
exercising their authority, the Party Central Committee General 
Office and State Council General Office issued an opinion in 
February 2016 to further strengthen work on the open government 
information (OGI) system.\154\ The opinion stipulated that 
government agencies must effectively improve disclosure, 
achieve a high level of civic participation, elevate access to 
information, and foster public trust.\155\
    Despite progress on policy and regulatory measures, 
transparency and access to government data are still lacking 
and implementation of the 2008 Open Government Information 
Regulations \156\ remain problematic. Chinese authorities 
reportedly denied or ignored OGI requests, including in cases 
related to land dispossession and forcible relocation,\157\ 
government spending,\158\ and criminal matters.\159\ Several 
rights advocates filed lawsuits against government agencies 
after officials denied their OGI requests for data submitted to 
the UN Committee against Torture.\160\ Authorities also 
rejected OGI requests on the grounds of ``state secrets.'' 
\161\ Government agencies are required to develop ``negative 
lists'' that specifically enumerate the types of information 
that are not subject to disclosure, including information that 
may ``endanger state security, economic security, public 
security, or social stability.'' \162\ A lack of transparency 
in trade-related regulations \163\ and clarity in policy 
regulating Chinese stock markets reportedly has contributed to 
difficulties for investors in China.\164\ In addition to calls 
for improved transparency, reports noted that central 
authorities have admitted to publishing unreliable information 
in the past year.\165\ [For more information on lack of 
transparency in China's commercial environment, see Section 
III--Commercial Rule of Law.]

                          Social Credit System

    In an effort to address the lack of trust in Chinese 
society, in 2014, the State Council released a planning outline 
for the creation of a national social credit system to measure 
and improve the credibility of government agencies, 
organizations, and individuals in four main areas: 
administrative affairs, business, society, and justice.\166\ 
According to the planning outline, laws, regulations, and a 
standard system of supervision and management for administering 
social credit should be in place by 2020.\167\ Media reports 
speculate that by 2020 every individual will have a 
personalized social credit score.\168\ Each individual's score 
will reflect a wide range of information, including financial 
data, criminal records, traffic violations, social media 
activity, and consumer purchases.\169\ While the State Council 
planning outline includes the goals of increasing government 
transparency and accountability and reducing official 
misconduct,\170\ critics have raised concerns about negative 
privacy implications of this nationwide system,\171\ noting 
that the social credit system is part of the Chinese 
government's ongoing efforts to counter perceived threats and 
shape citizens' behavior through massive data-gathering and 
surveillance.\172\
    The Chinese government continued plans to establish the 
national social credit system this past year.\173\ In June 
2016, the State Council issued a guiding opinion on building 
the social credit system, directing national and provincial 
government agencies to construct an ``interregional and cross-
departmental mechanism for encouraging trustworthiness and 
punishing dishonesty.'' \174\ The opinion outlined four main 
areas of ``dishonest'' behavior punishable under a unified 
social credit mechanism: ``severely endangering'' public health 
and safety, including in medicine, the environment, industry, 
and manufacturing; ``severely harming fair market competition 
and order and normal social order,'' including bribery, tax 
evasion, loan evasion, and wage payment violations; ``refusal 
to fulfill legal obligations,'' including failing to comply 
with judicial sentences or administrative decisions; and 
``refusal to fulfill national defense obligations,'' including 
declining or evading military service.\175\ The opinion also 
called for government and public organizations, financial 
institutions, credit and rating agencies, and professional 
associations to create and publish ``red lists'' of those who 
exhibit ``model trustworthiness'' and ``blacklists'' of those 
who are ``severely dishonest,'' and provide them to government 
departments.\176\

                                                Institutions of 
                                                    Democratic 
                                                     Governance
                                                Institutions of 
                                                Democratic 
                                                Governance
    Notes to Section III--Institutions of Democratic Governance

    \1\ Freedom House, ``Freedom in the World 2016--China,'' last 
visited 7 July 16; Jidong Chen et al., ``Sources of Authoritarian 
Responsiveness: A Field Experiment in China,'' American Journal of 
Political Science, Vol. 60, No. 2 (April 2016), 383; David Shambaugh, 
China's Future (Cambridge: Polity Press, 2016), 98. Bureau of 
Democracy, Human Rights, and Labor, U.S. Department of State, ``Country 
Reports on Human Rights Practices for 2015: China (Includes Tibet, Hong 
Kong, and Macau),'' 13 April 16, 1.
    \2\ David Shambaugh, China's Future (Cambridge: Polity Press, 
2016), 115, 121-22. See also Susan V. Lawrence and Michael F. Martin, 
``Understanding China's Political System,'' Congressional Research 
Service, 20 March 13, summary; Chinese Communist Party Constitution 
[Gongchandang zhangcheng], adopted 6 September 82, amended 1 November 
87, 18 October 92, 18 September 97, 14 November 02, 21 October 07, 14 
November 12, General Program. For English translation, see ``Full Text 
of Constitution of Communist Party of China,'' Xinhua, 18 November 12. 
The Party Constitution states that, ``Acting on the principle that the 
Party commands the overall situation and coordinates the efforts of all 
quarters, the Party must play the role as the core of leadership among 
all other organizations at the corresponding levels.'' PRC 
Constitution, issued 4 December 82, amended 12 April 88, 29 March 93, 
15 March 99, 14 March 04, art. 37; PRC Legislation Law [Zhonghua renmin 
gongheguo lifa fa], passed 15 March 00, effective 1 July 00, preface.
    \3\ ``Xi Jinping's Leadership: Chairman of Everything,'' Economist, 
2 April 16; Will Edwards, ``The Chinese Communist Party Under Xi 
Jinping,'' Cipher Brief, 21 June 16; ``Xi Jinping: Party, Political, 
Military, Civil, and Academic; East, West, South, North, and Center; 
The Party Leads Everything'' [Xi jinping: dang zheng jun min xue, dong 
xi nan bei zhong, dang shi lingdao yiqie de], The Paper, 30 January 16.
    \4\ Christopher K. Johnson and Scott Kennedy, ``China's Un-
Separation of Powers: The Blurred Lines of Party and Government,'' 
Foreign Affairs, 24 July 15.
    \5\ ``Li Zhanshu: Agencies Should Always Maintain a High Degree of 
Consistency With Party Center'' [Li zhanshu: zhong zhi jiguan yao 
shizhong tong dang zhongyang baochi gaodu yizhi], Xinhua, 27 January 
16; Jun Mai, `` `Absolute Loyalty': Top Xi Jinping Aide Demands 
Communist Party Units Toe the Line,'' South China Morning Post, 27 
January 16.
    \6\ ``Xi Jinping: Full Implementation of Reform Strategy To 
Strengthen Military: Unswervingly Taking the Road To Build a Strong 
Army With Chinese Characteristics'' [Xi jinping: quanmian shishi gaige 
qianjun zhanlue jianding bu yizou zhongguo tese qiangjun zhilu], 
Xinhua, 26 November 15; Cheng Li, ``Promoting `Young Guards': The 
Recent High Turnover in the PLA Leadership (Part II: Expansion and 
Escalation),'' China Leadership Monitor, Hoover Institution, Stanford 
University, No. 49 (Winter 2016), 1. The Party used the military 
organizational reshuffle in early 2016 to elevate its leading role.
    \7\ National People's Congress, PRC Outline of the 13th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shisan ge wunian guihua 
gongyao], issued 17 March 16, chap. 1; Elizabeth C. Economy, ``The Fits 
and Starts of China's Economic Reforms,'' Council on Foreign Relations, 
Asia Unbound (blog), 25 January 16.
    \8\ ``Xi Completes Media Tour, Stresses Party's Leadership,'' 
Xinhua, 20 February 16.
    \9\ Chinese Communist Party Central Committee General Office, 
Opinion on Strengthening Party-Building Work in Social Organizations 
(Provisional) [Guanyu jiaqiang shehui zuzhi dang de jianshe gongzuo de 
yijian (shixing)], issued 28 September 15.
    \10\ ``China To Adopt Universal `Two-Child' Policy'' [Woguo 
quanmian fangkai ``erhai'' zhengce], Beijing Youth Daily, 30 October 
15; National Health and Family Planning Commission, ``To Implement 
Universal Two-Child Policy, To Promote Balanced Population 
Development'' [Shishi quanmian lianghai zhengce, cujin renkou junheng 
fazhan], 29 October 15.
    \11\ ``Xi Jinping Presides Over the Chinese Communist Party Central 
Committee Politburo Standing Committee Meeting'' [Xi jinping zhuchi 
zhonggong zhongyang zhengzhiju changwei hui huiyi], Xinhua, 7 January 
16; ``Xi Jinping: Party, Political, Military, Civil, and Academic; 
East, West, South, North, and Center; The Party Leads Everything'' [Xi 
jinping: dang zheng jun min xue, dong xi nan bei zhong, dang shi 
lingdao de yiqie de], The Paper, 30 January 16; Eva Pils et al., `Rule 
by Fear?' A ChinaFile Conversation,'' Asia Society, ChinaFile (blog), 
18 February 16.
    \12\ Chinese Communist Party Central Committee, 18th Party Central 
Committee Fifth Plenum Communique [Zhongguo gongchandang di shiba jie 
zhongyang weiyuanhui di wu ci quanti huiyi gongbao], 29 October 15.
    \13\ National People's Congress, PRC Outline of the 13th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shisan ge wunian guihua 
gongyao], issued 17 March 16. See also State Council, ``2016 Two 
Sessions: NPC & CPPCC: Annual Legislative and Political Advisory 
Sessions,'' last visited 16 June 16.
    \14\ National People's Congress, PRC Outline of the 13th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shisan ge wunian guihua 
gongyao], issued 17 March 16, chap. 1.
    \15\ ``Profile: Xi Jinping: Pursuing Dream for 1.3 Billion 
Chinese,'' Xinhua, 17 March 13; ``Xi Jinping: Party, Political, 
Military, Civil, and Academic; East, West, South, North, and Center; 
The Party Leads Everything'' [Xi jinping: dang zheng jun min xue, dong 
xi nan bei zhong, dang shi lingdao de yiqie de], The Paper, 30 January 
16.
    \16\ Ibid. See also Liu Shaohua, ``Xi Jinping Governing Ideological 
Keyword 2: Chinese Dream, 1.3 Billion People's Dream of Rejuvenation'' 
[Xi jinping zhiguo lizheng guanjianci 2: zhongguo meng 13 yi ren de 
fuxing mengxiang], People's Daily, 16 January 16. Xi has reportedly 
mentioned ``Chinese dream'' more than 200 times in public speeches and 
interviews. ``Chinese Road: Chinese Dream'' [Zhongguo daolu: zhongguo 
meng], Xinhua, last visited 16 June 16.
    \17\ Liu Yizhan, ``Yuan Guiren: College Teachers Must Observe the 
Political, Legal, and Moral Triple Baseline'' [Yuan guiren: gaoxiao 
jiaoshi bixu shouhao zhengzhi, falu, daode santiao dixian], Xinhua, 29 
January 15; Megha Rajagopalan, ``China Is Waging a `Hidden War' Against 
the West,'' Reuters, reprinted in Business Insider, 20 May 15.
    \18\ ``Chinese Communist Party Central Committee General Office and 
State Council General Office Release Opinion on Further Strengthening 
and Improving Propaganda and Ideology Work in Higher Education Under 
New Circumstances'' [Zhonggong zhongyang bangongting, guowuyuan 
bangongting yinfa guanyu jinyibu jiaqiang he gaijin xin xingshi xia 
gaoxiao xuanchuan sixiang gongzuo de yijian], Xinhua, 19 January 15. 
For an unofficial English translation of the opinion cited, see 
``Opinions Concerning Further Strengthening and Improving Propaganda 
and Ideology Work in Higher Education Under New Circumstances,'' China 
Copyright and Media (blog), 16 February 15. See also ``China Pledges 
New Crackdown on `Hostile Forces,' '' Associated Press, reprinted in Al 
Jazeera, 16 March 16; Yu Zhiguo, ``General Secretary Xi Jinping 
Emphasizes the Profound Meaning of `Grasping the Truth' '' [Xi 
zongshuji qiangdiao ``zhua shi'' yu shenyi], People's Daily, 29 June 
16.
    \19\ Orville Schell, ``Crackdown in China: Worse and Worse,'' New 
York Review of Books, 21 April 16; Minxin Pei, ``The Twilight of 
Communist Party Rule in China,'' American Interest, Vol. 11, No. 4, 12 
November 15; Robert Daly, ``The Mixed Rationales and Mixed Results of 
Xi Jinping's Anticorruption Campaign,'' Woodrow Wilson International 
Center for Scholars, 11 May 16. See CECC, 2013 Annual Report, 10 
October 13, 143-44; CECC, 2014 Annual Report, 9 October 14, 143-44; 
CECC, 2015 Annual Report, 8 October 15, 242-43.
    \20\ Wei Pu, ``Xi Jinping: Is China on the Road to Total 
Dictatorship? '' Radio Free Asia, 8 February 16; Simon Denyer, 
``China's Xi Tells Grumbling Party Cadres: `Don't Talk Back,' '' 
Washington Post, 29 December 15; Chun Han Wong, ``China's Xi Jinping 
Puts Loyalty to the Test at Congress,'' Wall Street Journal, 16 March 
16. For examples of intensified Party discipline, see Jiang Jie, 
``Party Rules Ban Groundless Comments on Major Policies,'' Global 
Times, 23 October 15; ``China's Anti-Graft Body To Supervise More 
Central Organs,'' Xinhua, 20 September 15.
    \21\ Si Zhitong, ``How To Study Xi's Series of Major Speeches, From 
Looking at Misuse of the Concept of `The New Normal' '' [Cong lanyong 
``xin changtai'' gainian kan ruhe xuexi xilie zhongyao jianghua], 
Seeking Truth, 11 May 16; Chinese Communist Party Central Committee 
General Office, ``Regarding the Overall Launch of `Learn Party 
Constitution and Party Rules, Study Speech Series, Be an Up-to-Standard 
Party Member' Education Program'' [Guanyu zai quanti dangyuan zhong 
kaizhan ``xue dang zhang dang gui, xue xilie jianghua, zuo hege 
dangyuan'' xuexi jiaoyu fang'an], Communist Party Member Net, 29 
February 16; Neil Conner, `` `Read My Speeches, Study Marx,' China's Xi 
Jinping Tells Party Members in Latest Drive Against Wrongdoing,'' 
Telegraph, 7 April 16.
    \22\ Alice Miller, ``More Already on the Central Committee's 
Leading Small Groups,'' China Leadership Monitor, Hoover Institution, 
Stanford University, No. 44 (Summer 2014), 28 July 14, 6. Miller noted 
that Xi was the director of at least six leading small groups as of 
July 2014. Andrew J. Nathan, ``Who Is Xi? '' New York Review of Books, 
12 May 16. Nathan indicated in a New York Review of Books essay that Xi 
was the chairman of seven leading small groups, but did not list the 
groups. Bai Mo, ``Observation: What Other Titles Does `Chairman of 
Everything' Xi Jinping Want? '' [Guancha: ``quanmian zhuxi'' xi jinping 
hai yao shenme touxian?], BBC, 21 April 16. Bai Mo also reported that 
Xi was the director of seven leading small groups. However, one of the 
groups--the National Security Commission--is not technically considered 
a leading small group.
    \23\ ``Xi Jinping Presides Over Chinese Communist Party Central 
Committee Politburo Standing Committee Meeting'' [Xi jinping zhuchi 
zhonggong zhongyang zhengzhiju changweihui huiyi], Xinhua, 7 January 
16; ``Li Zhanshu: Agencies Reporting to the Center Must Always Maintain 
a High Degree of Consistency With Party Central Committee'' [Li 
zhanshu: zhong zhi jiguan yao shizhong tong dang zhongyang baochi gaodu 
yizhi], Xinhua, 27 January 16.
    \24\ Du Baojun, ``Many Provincial Party Committees Declare: Firmly 
Maintain General Secretary Xi Jinping as the Core'' [Duo sheng dangwei 
biaotai: jianjue weihu xi jinping zongshuji zhege hexin], Phoenix Net, 
31 January 16; Jun Mai, `` `Absolute Loyalty': Top Xi Jinping Aide 
Demands Communist Party Units Toe the Line,'' South China Morning Post, 
27 January 16.
    \25\ Ting Shi, ``Xi's New Title Highlights China's Power 
Struggle,'' Bloomberg, 2 February 16; Chris Buckley, ``Xi Jinping 
Assuming New Status as China's `Core' Leader,'' New York Times, 4 
February 16.
    \26\ Minnie Chan, ``China's President Xi Steps Out With a New 
Military Title--And the Uniform To Match,'' South China Morning Post, 
21 April 16; Andrew Nathan and Tai Ming Cheung, ``Xi Jinping's New 
Military Position,'' Asia Society, ChinaFile (blog), 1 May 16.
    \27\ ``Xi Jinping's New Tilte [sic] Announced: The `Commander in 
Chief of the Central Military Commission Joint Battle Command Center,' 
'' People's Daily, 21 April 16.
    \28\ Jonathan Landreth et al., ``Xi Jinping: A Cult of Personality? 
'' Asia Society, ChinaFile (blog), 4 March 16; ``Beware the Cult of 
Xi,'' Economist, 2 April 16; Andrew Browne, ``Xi Embraces Mao's Radical 
Legacy,'' Wall Street Journal, 13 May 16.
    \29\ Orville Schell, ``Crackdown in China: Worse and Worse,'' New 
York Review of Books, 21 April 16; Andrew J. Nathan, ``Who Is Xi? '' 
New York Review of Books, 12 May 16; Carl Minzner, ``Is China's 
Authoritarianism Decaying Into Personalised Rule? '' East Asia Forum, 
24 April 16; Hannah Beech, ``China's Chairman Builds a Cult of 
Personality,'' Time, 31 March 16; Philip Wen, ``China's Great Leap 
Backwards: Xi Jinping and the Cult of Mao,'' Sydney Morning Herald, 15 
May 16.
    \30\ ``Chairman of Everything,'' Economist, 2 April 16; Ryan 
Manuel, ``Will Xi Always Be Obeyed? '' East Asia Forum, 1 September 15.
    \31\ Chris Buckley, ``Chinese Tycoon Criticizes Leader, and Wins 
Surprising Support,'' New York Times, 18 March 16; Edward Wong, ``China 
Puts a Tycoon, Ren Zhiqiang, on Probation for Criticizing Policies,'' 
New York Times, 2 May 16.
    \32\ Michael Forsythe, ``Chinese Publication, Censored by 
Government, Exposes Article's Removal,'' New York Times, Sinosphere 
(blog), 8 March 16.
    \33\ China Digital Times, ``Loyal Party Members Urge Xi's 
Resignation,'' 16 March 16; Chris Buckley, ``Anonymous Call for Xi To 
Quit Rattles Party Leaders in China,'' New York Times, 29 March 16.
    \34\ Willy Lam, ``China's Anti-Graft Campaign in Review,'' 
Jamestown Foundation, China Brief, Vol. 15, No. 23, 7 December 15. See 
also Ling Li, ``The Rise of the Discipline and Inspection Commission 
1927-2012: Anticorruption Investigation and Decision-Making in the 
Chinese Communist Party,'' Modern China, Vol. 42, No. 5 (2016), 448.
    \35\ Lei Si, ``A Thousand Yes-Men Cannot Equal One Honest Advisor'' 
[Qian ren zhi nuonuo, buru yi shi zhi e'e], Central Commission for 
Discipline Inspection, 1 March 16. For an unofficial translation, see 
``A Thousand Yes-Men Cannot Equal One Honest Advisor,'' translated in 
Asia Society, ChinaFile (blog), 21 March 16.
    \36\ Andrew J. Nathan et al., ``Cracks in Xi Jinping's Fortress? '' 
Asia Society, ChinaFile (blog), 21 March 16; Simon Denyer, ``Grumbling 
Mounts in China, Even in the Party. Is President Xi Losing His Grip? '' 
Washington Post, 29 March 16; Freedom House, ``China Media Bulletin,'' 
No. 114, April 2016, 3-4.
    \37\ See, e.g., ``Party Central Committee General Office, State 
Council General Office Publish `Opinion on Reforming Management System 
of Social Organizations To Promote Social Organizations' Healthy and 
Orderly Development' '' [Zhongban guoban yinfa ``guanyu gaige shehui 
zuzhi guanli zhidu cujin shehui zuzhi jiankang youxu fazhan de yijian], 
Xinhua, 21 August 16, 2(2-3). See also Ben Blanchard, ``China To 
Strengthen Communist Party's Role in Non-Govt Bodies,'' Reuters, 21 
August 16.
    \38\ Zheng Qi, ``Several Problems Worth Considering With Party-
Building in Social Organizations'' [Shehui zuzhi dangjian zhide 
zhongshi de jige wenti], Study Times, reprinted in People's Daily, 29 
October 15. See also Patricia M. Thornton, ``The Advance of the Party: 
Transformation or Takeover of Urban Grassroots Society? '' China 
Quarterly, Vol. 213 (March 2013), 2, 7; CECC, 2013 Annual Report, 10 
October 13, 132, 139.
    \39\ ``Chinese Communist Party Central Committee General Office 
Releases `Opinion on Strengthening Party-Building Work in Social 
Organizations (Provisional)' '' [Zhonggong zhongyang bangongting yinfa 
``guanyu jiaqiang shehui zuzhi dang de jianshe gongzuo de yijian 
(shixing)''], Xinhua, 28 September 15, item 2.4(1).
    \40\ ``Truly Grasp [Party] Organization [Department] Building 
Comprehensive Coverage, Resolutely Take on Responsibility'' [Zhenzhua 
zujian fugai, yingzhao yashi zeren], China Organization and Personnel 
News (Zhongguo zuzhi renshi bao), 21 March 16.
    \41\ ``Congjiang, Guizhou: `Four Modern Standardizations' Advance 
Tangible and Effective Party-Building Coverage in Non-Public and Social 
Organizations'' [Guizhou congjiang: ``sihua biaozhun'' tuijin feigong 
he shehui zuzhi dangjian youxing youxiao fugai], People's Daily, 
Chinese Communist Party News Net, 17 March 16.
    \42\ ``Gansu Province Chinese Communist Party Committee General 
Office Issues `Opinion on Implementing the Work of Strengthening 
Province-Wide Party-Building in Social Organizations (Trial)' '' 
[Zhonggong gansu shengwei bangongting yinfa ``guanyu jiaqiang quansheng 
shehui zuzhi dang de jianshe gongzuo de shishi yijian (shixing)''], 
Gansu Daily, 8 January 16.
    \43\ ``Strengthen the Political Function and Service Capacity of 
Party Groups in Social Organizations, Lead Social Organizations in 
Developing the Correct Orientation'' [Qianghua shehui zuzhi dangzu 
zhengzhi gongneng he fuwu gongneng yinling shehui zuzhi zhengque fazhan 
fangxiang], Liaoning Daily, 11 March 16.
    \44\ ``Truly Grasp [Party] Organization [Department] Building 
Comprehensive Coverage, Resolutely Take on Responsibility'' [Zhenzhua 
zujian fugai, yingzhao yashi zeren], China Organization and Personnel 
News (Zhongguo zuzhi renshi bao), 21 March 16. In Anhui province's 
five-year plan for establishing Party groups in social organizations, 
local Party officials' success in meeting benchmarks for Party-building 
work in social organizations will be included as performance review 
criteria.
    \45\ ``Visualizing China's Anti-Corruption Campaign,'' Asia 
Society, ChinaFile (blog), 21 January 16.
    \46\ Ling Li, ``The Rise of the Discipline and Inspection 
Commission 1927-2012: Anticorruption Investigation and Decision-Making 
in the Chinese Communist Party,'' Modern China, Vol. 42, No. 5 (2016), 
448; Willy Lam, ``China's Anti-Graft Campaign in Review,'' Jamestown 
Foundation, China Brief, Vol. 15, No. 23, 7 December 15.
    \47\ Zhang Yan, ``New Data Shows China's Fight on Corruption,'' 
China Daily, 13 March 16; Michael Forsythe, ``Database Tracks `Tigers 
and Flies' Caught in Xi Jinping's Corruption Crackdown,'' New York 
Times, Sinosphere (blog), 21 January 16. For data on ``snared'' 
officials, see ``Visualizing China's Anti-Corruption Campaign,'' Asia 
Society, ChinaFile (blog), 21 January 16.
    \48\ Bai Mo, ``Focus: Xi Jinping's Anticorruption, Victory in Sight 
or Danger Lurking Below? '' [Jiaodian: xi jinping fanfu shengli zaiwang 
haishi weiji sifu?], BBC, 8 March 16.
    \49\ James T. Areddy, ``Governor of Key China Province Under 
Investigation,'' Wall Street Journal, 8 October 15.
    \50\ ``Former Military Leader Guo Boxiong Confesses to Taking 
Bribes,'' Xinhua, 5 April 16.
    \51\ ``Former Vice Governor of Hainan Sentenced to 12 Years for 
Corruption,'' Xinhua, reprinted in China Economic Net, 30 March 16.
    \52\ Yunnan Province Commission for Discipline Inspection, ``Yunnan 
Television Internet Group Corporation Former Party Committee Secretary, 
CEO Wang Jianyou, Investigated'' [Yunnan guangdian wangluo jituan 
youxian gongsi yuan dangwei shuji, dongshizhang wang jianyou jieshou 
zuzhi diaocha], reprinted in Central Commission for Discipline 
Inspection, 9 May 16.
    \53\ Central Commission for Discipline Inspection, ``CCDI Gave 10 
Central Management Cadres Heavy Disciplinary Measures and Significantly 
Adjusted Their Job Responsibilities'' [Zhongyang jiwei 2015 nian jiyu 
10 ming zhongguan ganbu dangji zhong chufen bing zuochu zhongda zhiwu 
tiaozheng], 29 January 16.
    \54\ Zheping Huang, ``China's Corruption Crackdown Is So Vast, Top 
Officials From Every Province Have Been Nabbed,'' Quartz, 12 November 
15.
    \55\ ``Graft Busters Discipline Nearly 300,000 Officials in 2015,'' 
Xinhua, 6 March 16.
    \56\ ``In 2015, Procuratorial Agencies Filed 40,834 Cases Involving 
54,249 People for Investigation of Professional Misconduct'' [2015 nian 
jiancha jiguan li'an zhencha zhiwu fanzui anjian 408374 jian 54249 
ren], Procuratorial Daily, reprinted in Supreme People's Procuratorate, 
13 March 16.
    \57\ ``China Enhances Crackdown on Corruption: Reports,'' Xinhua, 
12 March 15. In 2014, the Supreme People's Procuratorate investigated 
55,101 people in 41,487 cases of professional misconduct.
    \58\ ``China's Streamlined Inspection System Targets Central 
Organs,'' Xinhua, 5 January 16.
    \59\ Nectar Gan, ``China's Communist Party Graft-Busters To Widen 
Political Watch in 2016,'' South China Morning Post, 14 January 16.
    \60\ ``Wang Qishan's Work Report at the 18th Party CCDI Sixth 
Plenary Session'' [Wang qishan zai shiba jie zhongyang jiwei liuci 
quanhui shang de gongzuo baogao], Xinhua, 12 January 16, reprinted in 
Central Commission for Discipline Inspection, 24 January 16, sec. 3(2).
    \61\ ``China's Anti-Graft Body To Supervise More Central Organs,'' 
Xinhua, 20 September 15.
    \62\ Luo Jieqi and Cui Houjian, ``Former National Energy 
Administration Deputy Director Xu Yongsheng on Trial, While in Court 
Claims Innocence, Says Was Tortured'' [Guojia nengyuan ju yuan 
fujuzhang xu yongsheng shoushen, dang ting hanyuan cheng zao bigong], 
Caixin, 24 February 16; Austin Ramzy, ``Ex-Official in China Blames 
Torture for Graft Confession,'' New York Times, Sinosphere (blog), 25 
February 16.
    \63\ Brian Spegele, ``China Probes a Senior Oil Official's 
Mysterious Death,'' Wall Street Journal, 2 December 15; Scott 
Cendrowski, ``Apparent Suicides Multiply in China's Anti-Corruption 
Campaign,'' Fortune, 3 December 15; Zheng Wei, ``China Commentary: 
Chinese Officials' Morale Falls to Freezing Point'' [Dianping zhongguo: 
shiqi jiang zhi bingdian de zhongguo guanyuan], BBC, 27 June 16.
    \64\ Ibid.
    \65\ Orville Schell, ``Crackdown in China: Worse and Worse,'' New 
York Review of Books, 21 April 16. For a scholarly analysis of 
``shuanggui,'' see Flora Sapio, ``Shuanggui and Extralegal Detention in 
China,'' China Information, Vol. 22, No. 1 (March 2008), 7-37. See also 
CECC, 2015 Annual Report, 8 October 15, 102-03; CECC, 2014 Annual 
Report, 9 October 14, 87-88.
    \66\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
paras. 44-45.
    \67\ Transparency International, ``Corruption Perceptions Index 
2015,'' 27 January 16. China's score improved by one point from 2014 to 
2015 from 36 to 37, ranking 83 out of 163 countries surveyed. See, 
e.g., ``The Panama Papers Embarrass China's Leaders,'' Economist, 7 
April 16; ``Central Gov't Bodies Criticized for Violating Frugality 
Rules,'' Xinhua, 29 June 16.
    \68\ Michael Forsythe and Austin Ramzy, ``China Censors Mentions of 
`Panama Papers' Leaks,'' New York Times, Sinosphere (blog), 5 April 16; 
``The Panama Papers Embarrass China's Leaders,'' Economist, 7 April 16.
    \69\ ``Xinhua Insight: China Pilots Regulations on Officials' 
Family Businesses,'' Xinhua, 20 April 16; Cary Huang, ``Xi Jinping 
Tightens Reins on Business Ties of Chinese Officials' Families in Wake 
of Panama Papers,'' South China Morning Post, 19 April 16.
    \70\ Eva Pils, ``The Rise of Rule by Fear,'' University of 
Nottingham, China Policy Institute: Analysis (blog), 15 February 16; 
Minxin Pei, ``China's Rule of Fear,'' Project Syndicate, 8 February 16.
    \71\ Eva Pils, ``The Rise of Rule by Fear,'' University of 
Nottingham, China Policy Institute: Analysis (blog), 15 February 16.
    \72\ Steven Jiang, ``Trial by Media? Confessions Go Prime Time in 
China,'' CNN, 26 January 16; ``Hong Kong Bookseller Gui Minhai 
Suspected of Illegal Business Activity, Changing Cover To Evade 
Inspection'' [Xianggang shushang gui minhai shexian feifa jingying, 
huan fengmian guibi jiancha], Phoenix Net, 28 February 16.
    \73\ Steven Jiang, ``Trial by Media? Confessions Go Prime Time in 
China,'' CNN, 26 January 16. For more information on Peter Dahlin, see 
the Commission's Political Prisoner Database record 2016-00024.
    \74\ Tom Phillips, ``Anger as Christian Lawyer Paraded on Chinese 
State TV for `Confession,' '' Guardian, 26 February 16; Emily Rauhala, 
``Jailed Chinese Lawyer Reappears To Deliver a `Confession,' but the 
Script Seems Familiar,'' Washington Post, 1 August 16; ``China Releases 
Prominent Human Rights Lawyer on Bail,'' Associated Press, reprinted in 
New York Times, 1 August 16; Josh Chin, ``Chinese Activist Wang Yu Seen 
`Confessing' in Video,'' Wall Street Journal, 1 August 16; For more 
information, see the Commission's Political Prisoner Database records 
2015-00252 on Wang Yu and 2015-00318 on Zhang Kai.
    \75\ Chun Han Wong, ``Skepticism in China After Wukan Confession,'' 
Wall Street Journal, China Real Time Report (blog), 22 June 16. Lin is 
also known as Lin Zuluan.
    \76\ For more information on Gui Minhai, see the Commission's 
Political Prisoner Database record 2016-00090.
    \77\ For more information on Cheung Chi-ping, see the Commission's 
Political Prisoner Database record 2016-00165.
    \78\ For more information on Lam Wing-kei, see the Commission's 
Political Prisoner Database record 2016-00166.
    \79\ For more information on Lui Bo, see the Commission's Political 
Prisoner Database record 2016-00164.
    \80\ Ed Flanagan, ``Disappearances, Forced Confessions: China 
Targets Dissent,'' NBC, 31 January 16; ``Hong Kong Bookseller: China TV 
Confession was `Forced,' '' BBC, 16 June 16.
    \81\ Ilaria Maria Sala, ``Four Hong Kong Publishers Known for Books 
Critical of Chinese Regime Missing,'' Guardian, 9 November 15; Hermina 
Wong, ``Bookseller Lee Bo Feared `Political Reasons' Behind Colleague's 
Disappearance, Before Vanishing Himself,'' Hong Kong Free Press, 8 
March 16; Rishi Iyengar, ``Hong Kong To Send Delegation to Beijing To 
Discuss Detention of Local Booksellers,'' Time, 4 July 16.
    \82\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 9.
    \83\ Civil Rights & Livelihood Watch, ``Husband and Wife Qin 
Yongmin and Zhao Suli Disappeared for Nearly One Year, Worrying Many'' 
[Qin yongmin, zhao suli fufu shizong jijiang man yi nian yin gejie 
danyou], 1 January 16. For more information, see the Commission's 
Political Prisoner Database record 2004-02138 on Qin Yongmin and 2016-
00069 on Zhao Suli.
    \84\ Rights Defense Network, ``Well-Known Democracy Activist Qin 
Yongmin Confirmed in Detention at Wuhan No. 2 PSB Detention Center, 
Case With Procuratorate'' [Zhuming minyun renshi qin yongmin queren zao 
jiya zai wuhan di er kanshousuo anjian zai jianchayuan], 11 May 16.
    \85\ ``Fears Grow for `Disappeared' Wife of Detained Chinese 
Activist,'' Radio Free Asia, 22 June 16.
    \86\ Rights Defense Network, ``Qin Yongmin Indictment'' [Qin 
yongmin qisu shu], 2 July 16.
    \87\ Rights Defense Network, ``Because of Supporting Pu Zhiqiang 
Outside His Trial, Four Citizen Rights Defenders, Zhang Zhan, Wang Su'e 
(F), Qu Hongxia (F), Ran Chongbi (F) Held, All Criminally Detained'' 
[Yin tingshen xianchang shengyuan pu zhiqiang renquan hanweizhe zhang 
zhan, wang su'e (nu), qu hongxia (nu), ran chongbi (nu), si gongmin bei 
zhuabu dou zao xingju], 18 December 15.
    \88\ For more information on Zhang Zhan, see the Commission's 
Political Prisoner Database record 2015-00473.
    \89\ For more information on Wang Su'e, see the Commission's 
Political Prisoner Database record 2015-00470.
    \90\ For more information on Qu Hongxia, see the Commission's 
Political Prisoner Database record 2015-00472.
    \91\ For more information on Ran Chongbi, see the Commission's 
Political Prisoner Database record 2014-00361.
    \92\ For more information on Li Meiqing, see the Commission's 
Political Prisoner Database record 2016-00036.
    \93\ For more information on Wen Rengui, see the Commission's 
Political Prisoner Database record 2016-00261.
    \94\ For more information on Sheng Lanfu, see the Commission's 
Political Prisoner Database record 2015-00188.
    \95\ Rights Defense Network, ``Because of Supporting Pu Zhiqiang 
Outside His Trial, Four Citizen Rights Defenders, Zhang Zhan, Wang Su'e 
(F), Qu Hongxia (F), Ran Chongbi (F) Held, All Criminally Detained'' 
[Yin tingshen xianchang shengyuan pu zhiqiang renquan hanweizhe zhang 
zhan, wang su'e (nu), qu hongxia (nu), ran chongbi (nu), si gongmin bei 
zhuabu dou zao xingju], 18 December 15; Amnesty International, ``China: 
Seven Activists Released (UA 293/15),'' 22 January 16.
    \96\ Rights Defense Network, ``6 Citizens Criminally Detained in 
`Supporting Pu Zhiqiang Case' All Released'' [``Shengyuan pu zhiqiang 
an'' bei xingju 6 gongmin yijing quanbu huoshi], 21 January 16; Amnesty 
International, ``China: Seven Activists Released (UA 293/15),'' 22 
January 16.
    \97\ Rights Defense Network, ``China Human Rights Watch 
(Registration Pending) Acting Secretary General Ms. Xu Qin Detained, 
More Than Ten People From Rose China Missing or Detained'' [Zhongguo 
renquan guancha (chou) daili mishuzhang xu qin nushi bei zhuabu meigui 
tuandui yijing shi yu ren shilian huo beibu], 13 January 16; ``Missing 
for Days, China Human Rights Watch's Xu Qin Arrested for `Picking 
Quarrels and Provoking Trouble' '' [Shizong shu ri zhongguo renquan 
guancha xu qin she ``xunxin zishi'' bei bu], Radio Free Asia, 14 
January 16.
    \98\ ``Missing for Days, China Human Rights Watch's Xu Qin Arrested 
for `Picking Quarrels and Provoking Trouble' '' [Shizong shu ri 
zhongguo renquan guancha xu qin she ``xunxin zishi'' beibu], Radio Free 
Asia, 14 January 16; Yaqiu Wang, ``Members of Petitioners Group `Rose 
China' Detained,'' China Change, 18 January 16. For more information on 
Xu Qin, see the Commission's Political Prisoner Database record 2016-
00015.
    \99\ Rights Defense Network, ``China Human Rights Watch Acting 
Secretary General Xu Qin Released Today After 26 Days Missing'' 
[Zhongguo renquan guancha daili mishuzhang xu qin shilian 26 tian hou 
jinri huoshi], 2 February 16.
    \100\ Civil Rights & Livelihood Watch, ``Hunan's Yin Weihe 
Criminally Detained for Picking Quarrels and Provoking Trouble Due to 
`Internet Rumors' '' [Hunan yin weihe yin ``wangluo yaoyan'' bei yi 
xunxin zishi zui xingju], 27 September 13.
    \101\ Civil Rights & Livelihood Watch, ``After Four Years, 
Xiangxiang, Hunan, Rights Defender Yin Weihe Sentenced to Three Years 
for Picking Quarrels and Provoking Trouble'' [Lijing si nian hunan 
xiangxiang weiquan renshi yin weihe bei yi xun zi zui panxing san 
nian], 30 March 16.
    \102\ Civil Rights & Livelihood Watch, ``Breaking: Hunan Rights 
Defender Yin Weihe Released'' [Kuaixun: hunan weiquan renshi yin weihe 
huode shifang], 25 October 14.
    \103\ Civil Rights & Livelihood Watch, ``Xiangxiang, Hunan, Rights 
Defender Yin Weihe Detained Again'' [Hunan xiangxiang weiquan renshi 
yin weihe bei chongxin shoujian], 7 December 15.
    \104\ ``Hunan Rights Defender Yin Weihe Sentenced to Three Years' 
Imprisonment for Crimes of `Inciting Others To Petition' and 
`Distorting Facts Online' '' [Hunan weiquan renshi yin weihe bei panqiu 
san nian zuiming wei ``shandong shangfang'' ``zai wangshang waiqu 
shishi''], Radio Free Asia, 31 March 16.
    \105\ Rights Defense Network, ``Guangdong Labor Rights Defender Liu 
Shaoming Allowed To Meet Lawyer for First Time in `Inciting Subversion 
of State Power Case' '' [Guangdong laogong weiquan renshi liu shaoming 
``shandong dianfu guojia zhengquan zui an'' di yi ci huozhun huijian 
lushi], 7 November 15; Human Rights Campaign in China, ``Guangdong 
Authorities Indict Labor Rights Advocate Liu Shaoming for Inciting 
Subversion of State Power on the Basis of Articles Shared on WeChat and 
QQ'' [Yi zai weixin ji QQ qun fenxiang wenzhang wei you guangdong 
dangju yi shandong dianfu guojia zhengquan zui qisu laogong weiquan 
renshi liu shaoming], 12 April 16; Yaxue Cao, ``Chinese Authorities 
Orchestrate Surprise Raid of Labor NGOs in Guangdong, Arresting 
Leaders,'' China Change, 10 December 15; Human Rights in China, 
``Activist Tried for `Inciting Subversion' With Essays Disseminated 
Online,'' 15 April 16. For more information on Liu Shaoming, see the 
Commission's Political Prisoner Database record 2015-00216.
    \106\ Human Rights in China, ``Activist Tried for `Inciting 
Subversion' With Essays Disseminated Online,'' 15 April 16.
    \107\ Ibid.
    \108\ Rights Defense Network, ``Zhejiang Democracy Party Members Lu 
Gengsong, Chen Shuqing Today Sentenced by Hangzhou Intermediate 
People's Court to 11 Years and 10 Years, 6 Months'' [Zhejiang 
minzhudang ren lu gengsong, chen shuqing jin zao hangzhou zhongji 
fayuan panxing 11 nian he 10 nian 6 ge yue], 17 June 16. For more 
information, see the Commission's Political Prisoner Database records 
2007-00089 on Lu Gengsong and 2006-00509 on Chen Shuqing.
    \109\ Rights Defense Network, ``Situation Report on June Fourth 
Rights Defender Arrests, Detentions, Forced Disappearances, Soft 
Detentions, Forced Vacations, Chats, and Forced Relocations'' [Liusi 
min'gan ri zao jingfang zhuabu xingju, juliu, qiangpo shizong, ruanjin, 
bei luyou, yuetan, beipo banjia de renquan hanweizhe, weiquan gongmin 
de qingkuang tongbao], 4 June 16.
    \110\ Rights Defense Network, ``Because of June Fourth 
Commemoration and Support for Guo Feixiong and Yu Shiwen, Six `New 
Citizens' Movement' Members Criminally Detained, One Disappeared'' [Yin 
jinian liusi, shengyuan guo feixiong, yu shiwen, ``xin gongmin 
yundong'' 6 ren bei xingju, 1 ren shilian], 3 June 16; `` `Six 
Noblemen' Criminally Detained for Commemorating `June Fourth' Finally 
Meet With Lawyers, Xu Caihong Subjected to Prolonged Interrogation'' 
[Jinian ``liusi'' bei xingju ``liu junzi'' zhong jian lushi xu caihong 
zao pilao shenxun], Radio Free Asia, 7 June 16; Rights Defense Network, 
`` `Commemorating June Fourth Case' Bulletin: Zhang Baocheng, Zhao 
Changqing Released on Bail Today'' [``Jinian liusi an'' tongbao: zhang 
baocheng, zhao changqing jin qubao huoshi], 7 July 16. For more 
information, see the Commission's Political Prisoner Database records 
2004-05226 on Zhao Changqing, 2013-00132 on Zhang Baocheng, 2016-00156 
on Xu Caihong, 2013-00308 on Li Wei, 2013-00133 on Ma Xinli, and 2016-
00157 on Liang Taiping.
    \111\ `` `Six Noblemen' Criminally Detained for Commemorating `June 
Fourth' Finally Meet With Lawyers, Xu Caihong Subjected to Prolonged 
Interrogation'' [Jinian ``liusi'' bei xingju ``liu junzi'' zhong jian 
lushi xu caihong zao pilao shenxun], Radio Free Asia, 7 June 16.
    \112\ Rights Defense Network, `` `Commemorating June Fourth Case' 
Bulletin: Among Six Criminally Detained Citizens, Xu Caihong, Liang 
Taiping, Ma Xinli, and Li Wei Released on Bail, Zhao Changqing and 
Zhang Baocheng Still Detained'' [``Jinian liusi an'' tongbao: bei 
xingju liu gongmin zhong xu caihong, liang taiping, ma xinli, li wei si 
ren jin bei qubao huoshi, zhao changqing, zhang baocheng liang ren reng 
zaiya], 29 June 16; Rights Defense Network, `` `Commemorating June 
Fourth Case' Bulletin: Zhang Baocheng, Zhao Changqing Released on Bail 
Today'' [``Jinian liusi an'' tongbao: zhang baocheng, zhao changqing 
jin qubao huoshi], 7 July 16.
    \113\ Xin Yun, ``Fu Hailu and Ma Qing Detained for Commemorating 
`June Fourth,' Liu Shugui and Zhang Qi Disappeared'' [Fu hailu, ma qing 
yin jinian ``liusi'' bei juliu liu shugui, zhang qi bei shizong], China 
Free Press, 30 May 16; Chris Buckley, ``Chinese Worker Detained for 
Photos of Liquor Labels Marking Tiananmen Crackdown,'' New York Times, 
Sinosphere (blog), 30 May 16.
    \114\ `` `June Fourth Liquor Case' Arrests Approved for 4 
Individuals, Lawyer Meetings Not Approved'' [``Liusi jiu an'' 4 ren bei 
pibu lushi bu zhun huijian], Radio Free Asia, 6 July 16.
    \115\ Catherine Lai, ``China Charges Tiananmen Massacre Alcohol 
Label Activists With `Inciting Subversion of State Power,' '' Hong Kong 
Free Press, 7 July 16.
    \116\ Rights Defense Network, ``Chengdu `June Fourth Liquor Case' 
Report: Fu Hailu, Zhang Juanyong, Luo Yufu [sic], and Chen Bing 
Formally Arrested Today'' [Chengdu ``liusi jiu an'' tongbao: fu hailu, 
zhang juanyong, luo yufu, chen bing si ren jin zao zhengshi daibu], 6 
July 16. For more information, see the Commission's Political Prisoner 
Database records 2016-00240 on Fu Hailu, 2016-00241 on Chen Bing, 2016-
00242 on Luo Fuyu, and 2016-00243 on Zhang Juanyong.
    \117\ Human Rights in China, ``Verdicts for Tang Jingling, Yuan 
Chaoyang, and Wang Qingying--The `Three Gentleman [sic] of Guangzhou,' 
'' 26 January 16. For more information on Tang Jingling, see the 
Commission's Political Prisoner Database record 2011-00255.
    \118\ Ibid. For more information on Yuan Chaoyang, see the 
Commission's Political Prisoner Database record 2014-00221.
    \119\ Ibid. For more information on Wang Qingying, see the 
Commission's Political Prisoner Database record 2014-00180.
    \120\ Ibid.
    \121\ ``Beijing Municipal No. 2 Intermediate Court Publicly 
Announces Verdict in Pu Zhiqiang Case'' [Beijing shi er zhong yuan dui 
pu zhiqiang an yishen gongkai xuanpan], Xinhua, 22 December 15; Office 
of Press Relations, U.S. Department of State, ``Trial of Pu Zhiqiang,'' 
22 December 15.
    \122\ ``Charges Against Top Chinese Rights Lawyer Based on Seven 
Tweets,'' Radio Free Asia, 8 December 15; ``Beijing No. 2 Intermediate 
Court Publicly Announces Verdict in Pu Zhiqiang Case'' [Beijing shi er 
zhong yuan dui pu zhiqiang an yishen gongkai xuanpan], Xinhua, 22 
December 15. For more information on Pu Zhiqiang, see the Commission's 
Political Prisoner Database record 2014-00174.
    \123\ David Shambaugh, China's Future (Cambridge: Polity Press, 
2016), 117-22; Freedom House, ``Freedom in the World 2016--China,'' 
last visited 7 July 16.
    \124\ See, e.g., ``Xi Jinping's Remarks on Political Consultative 
Work Since the 18th Party Congress: Socialist Consultative Democracy Is 
Not an Act'' [Shibada yilai xi jinping tan zhengxie gongzuo: shehui 
zhuyi xieshang minzhu bu shi zuo yangzi], The Paper, 3 March 16.
    \125\ State Council Information Office, ``White Paper on China's 
Political Party System,'' reprinted in China Internet Information 
Center, 15 November 07, preface.
    \126\ David Shambaugh, ``Let a Thousand Democracies Bloom,'' New 
York Times, 6 July 07; Jean-Pierre Cabestan, Europe China Research and 
Advice Network, ``The Chinese People's Political Consultative 
Conference (CPPCC): Its Role and Its Future,'' Short Term Policy Brief 
25, October 2011, 2.
    \127\ Qi Weiping, ``The New Role of the CPPCC in Strengthening 
Socialist Consultative Democracy'' [Renmin zhengxie zai shehui zhuyi 
xieshang minzhu tixi zhong de xin dingwei], People's Political 
Consultative News, 2 March 16.
    \128\ See, e.g., ``Gansu: Many People Taken Away by Police Because 
of Support and Recommendation for Independent Candidate for People's 
Congress'' [Gansu: duoren yin zhichi tuijian duli canxuan renda daibiao 
bei jingfang daizou], BowenPress, 20 June 16; Rights Defense Network, 
``China Election Monitor No. 3: Illegal Election Organization Emerged 
in Lan County, Shanxi'' [Zhongguo xuanju guancha zhi san: shanxi 
lanxian chuxian feifa xuanju gongzuo jigou], 12 April 16; Rights 
Defense Network, ``China Election Monitor (2016) No. 4: Contents of the 
Wuxi Municipality Liangxi District Election Committee `Voter Notice' 
Suspected To Be Illegal (No. 1)'' [Zhongguo xuanju guancha (2016) zhi 
si: wuxi shi liangxi qu xuanju weiyuanhui sanfa de ``xuanmin xuzhi'' 
deng de neirong shexian weifa (zhi yi)], 18 April 16.
    \129\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) on 10 December 48, art. 
21. ``Everyone has the right to take part in the government of his 
country, directly or through freely chosen representatives . . .. The 
will of the people shall be the basis of the authority of government; 
this will shall be expressed in periodic and genuine elections which 
shall be by universal and equal suffrage and shall be held by secret 
vote or by equivalent free voting procedures.''
    \130\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 25.
    \131\ ``Yao Lifa and Others Send Joint Letter, Demand NPC Revise 
Election Law'' [Yao lifa deng ren fa lianming xin yaoqiu renda xiugai 
xuanju fa], Radio Free Asia, 16 March 16; PRC Organic Law of Village 
Committees [Zhonghua renmin gongheguo cunmin weiyuanhui zuzhi fa], 
passed 4 November 98, amended 28 October 10, art. 13.
    \132\ See, e.g., Rights Defense Network, ``China Election Monitor 
No. 3: Illegal Election Organization Emerged in Lan County, Shanxi'' 
[Zhongguo xuanju guancha zhi san: shanxi lanxian chuxian feifa xuanju 
gongzuo jigou], 12 April 16; ``Lan County Convenes Village Leading 
Group Elections Work Meeting'' [Lanxian zhaokai xiangzhen lingdao banzi 
huanjie gongzuo hui], Lan County Government, 24 March 16.
    \133\ See, e.g., Yao Lifa, Rights Defense Network, ``China Election 
Monitor (2016) No. 1: Shanxi Elections Near, Provincial NPC Standing 
Committee Vice Chair Said `Must Have Good Candidates Enter Race . . .' 
'' [Zhongguo xuanju guancha (2016) zhi yi: shanxi huanjie zaiji, sheng 
renda changweihui fu zhuren shuo ``yao ba hao daibiao houxuanren rukou 
guan . . .''], 31 March 16.
    \134\ See, e.g., Yao Lifa, Rights Defense Network, ``China Election 
Monitor (2016) No. 2: More Than a Thousand Farmers in Shan County, 
Shandong, Submit Joint Complaint Regarding Lack of Autonomy to the 
Ministry of Civil Affairs'' [Zhongguo xuanju guancha (2016) zhi er: 
shandong shan xian qianyu nongmin lianming xiang minzheng bu konggao wu 
zizhi quan], 4 April 16.
    \135\ Rights Defense Network, ``Rights Defense Commentary: Why 
Isn't Anyone Interested in Suspicions Behind `Qu Mingxue's Yongjing, 
Gansu, Election Case? ' '' [Weiquan pinglun: ``gansu yongjing qu 
mingxue xuanju an'' beihou yidian weihe wuren guowen?], 3 July 16.
    \136\ ``Gansu: Many People Taken Away by Police Because of Support 
and Recommendation for Independent Candidate for People's Congress'' 
[Gansu: duo ren yin zhichi tuijian duli canxuan renda daibiao bei 
jingfang daizou], BowenPress, 20 June 16.
    \137\ Rights Defense Network, ``Gansu Rights Defender Qu Mingxue 
Formally Arrested on Suspicion of Disrupting Election'' [Gansu weiquan 
renshi qu mingxue bei yi shexian pohuai xuanju zui zhengshi daibu], 2 
July 16.
    \138\ Xin Yun, ``Yongjing, Gansu's Qu Mingxue Released, `Yanhuang 
Chunqiu' Lawsuit Not Accepted for Case-Filing'' [Gansu yongjing qu 
mingxue bei shifang, yanhuang chunqiu qisu buyu shouli], China Free 
Press, 29 July 16. For more information on Qu Mingxue, see the 
Commission's Political Prisoner Database record 2016-00228.
    \139\ Rights Defense Network, ``Jiangxi People's Congress 
Independent Candidate Yang Wei (Yang Tingjian) Administratively 
Detained for Ten Days by Zixi County, Jiangxi Province, Public Security 
Bureau'' [Jiangxi renda daibiao duli houxuanren yang wei (yang 
tingjian) zao jiangxi sheng zixi xian gong'anju xingzheng juliu shi 
tian], 24 August 16.
    \140\ CECC, 2014 Annual Report, 9 October 14, 142-43.
    \141\ Lin is also known as Lin Zuluan. James Pomfret, ``China 
`Democracy' Village Chief Arrested for Graft, Riot Police Deployed,'' 
Reuters, 18 June 16; Austin Ramzy, ``Protests Return to Wukan, Chinese 
Village That Once Expelled Its Officials,'' New York Times, 20 June 16; 
``Solving Wukan Case Needs Authority of Law,'' Global Times, 20 June 
16. See also Zhan Yijia and Mao Yizhu, ``Lufeng City Government: Solve 
Wukan Village Land Problems According to Laws and Regulations'' [Lufeng 
shi zhengfu: yifa yigui jiejue wukan cun tudi wenti], Xinhua, 20 June 
16.
    \142\ Thomas Lum, Congressional Research Service, ``Human Rights in 
China and U.S. Policy: Issues for the 113th Congress,'' 19 June 13, 5; 
``Wukan: After the Uprising,'' Al Jazeera, 26 June 13.
    \143\ ``China's Wukan Village Elects Protest Leaders To Run 
Council,'' Bloomberg, 4 March 12; ``China's Wukan Continues To Elect 
Village Leaders,'' Xinhua, 4 March 12.
    \144\ Teddy Ng, ``Suspicion Clouds Wukan Leader's `Bribery' 
Arrest,'' South China Morning Post, 20 March 14; ``Chinese Village 
Official's Detention Sparks Fears of Poll Rigging,'' Radio Free Asia, 
17 March 14; ``Second Wukan Leader Held Ahead of Closed-Door 
Elections,'' Radio Free Asia, 20 March 14.
    \145\ Lufeng City Public Security Bureau, ``Lufeng City Public 
Security Bureau Open Letter to All of the Villagers of Wukan Village'' 
[Lufeng shi gong'anju zhi wukan cun guangda cunmin de gongkai xin], 17 
June 16, reprinted in Safe Lufeng (Ping'an lufeng), Weibo post, 18 June 
16, 5:12 a.m.
    \146\ ``Solving Wukan Case Needs Authority of Law,'' Global Times, 
20 June 16; James Pomfret, ``China `Democracy' Village Chief Arrested 
for Graft, Riot Police Deployed,'' Reuters, 18 June 16.
    \147\ Chun Han Wong, ``Skepticism in China After Wukan 
Confession,'' Wall Street Journal, China Real Time Report (blog), 22 
June 16.
    \148\ ``Former Wukan, Guangdong, Village Committee Chief Lin Zulian 
Arrested on Suspicion of Taking Bribes'' [Guangdong wukan yuan cun 
weihui zhuren lin zulian shexian shouhui zui bei daibu], China News 
Service, 22 July 16.
    \149\ ``Chinese Lawyers Say Judicial Officials Barred Them From 
Advising Wukan Protest Chief,'' South China Morning Post, 22 June 16.
    \150\ ``Unable To Stand Pressure, Lin Zulian's Grandson Rescued 
From Taking Drugs in Suicide Attempt, `I Can't Handle It Any More' 
Broadcast Live on Weixin Prior to Incident'' [Bukan yali lin zulian sun 
fuyao zisha huojiu chushi qian weixin zhibo ``wo kang buzhu le''], Ming 
Pao, 5 August 16. See also Gene Lin, ``Grandson of Arrested Leader in 
Wukan `Rebel' Village Survives Suicide Attempt,'' Hong Kong Free Press, 
5 August 16.
    \151\ Chinese Communist Party Central Committee General Office and 
State Council General Office, Opinion on Comprehensively Advancing Work 
on Open Government Affairs [Guanyu quanmian tuijin zhengwu gongkai 
gongzuo de yijian], reprinted in Xinhua, 17 February 16; ``Chinese 
Communist Party Central Committee General Office and State Council 
General Office Publish `Opinion on Comprehensively Advancing Work on 
Open Government Affairs' '' [Zhongban guoban yinfa ``guanyu quanmian 
tuijin zhengwu gongkai gongzuo de yijian''], Xinhua, 17 February 16; 
Jamie P. Horsley, ``China Promotes Open Government as It Seeks To 
Reinvent Its Governance Model,'' Freedominfo.org, 22 February 16. The 
February 2016 opinion stipulated the improvement of ``open government 
affairs'' (zhengwu gongkai), which one expert noted is broader in scope 
than ``open government information'' (zhengfu xinxi gongkai).
    \152\ Chinese Communist Party Central Committee, Decision on 
Several Major Issues in Comprehensively Advancing Governance of the 
Country According to Law [Zhonggong zhongyang guanyu quanmian tuijin 
yifa zhiguo ruogan zhongda wenti de jueding], issued 28 October 14, 
item 3(6). See also the following unofficial translation: Chinese 
Communist Party Central Committee, ``CCP Central Committee Decision 
Concerning Some Major Questions in Comprehensively Moving Governing the 
Country According to the Law Forward,'' translated in China Copyright 
and Media (blog), 30 October 14, item 3(6).
    \153\ State Council General Office, Opinion Regarding Strengthening 
Information Infrastructure of Government Websites [Guanyu jiaqiang 
zhengfu wangzhan xinxi neirong jianshe de yijian], issued 17 November 
14; Chinese Communist Party Central Committee General Office and State 
Council General Office, Guiding Opinion on Carrying Out the System of 
Listing the Powers of Local Government Work Departments at All Levels 
[Guanyu tuixing difang geji zhengfu gongzuo bumen quanli qingdan zhidu 
de zhidao yijian], reprinted in Xinhua, 24 March 15, preface, paras. 1, 
3, 4, 7.
    \154\ Chinese Communist Party Central Committee General Office and 
State Council General Office, Opinion on Comprehensively Advancing Work 
on Open Government Affairs [Guanyu quanmian tuijin zhengwu gongkai 
gongzuo de yijian], reprinted in Xinhua, 17 February 16; ``Chinese 
Communist Party Central Committee General Office and State Council 
General Office Publish `Opinion on Comprehensively Advancing Work on 
Open Government Affairs' '' [Zhongban guoban yinfa ``guanyu quanmian 
tuijin zhengwu gongkai gongzuo de yijian''], Xinhua, 17 February 16.
    \155\ Ibid.
    \156\ State Council, PRC Regulations on Open Government Information 
[Zhonghua renmin gongheguo zhengfu xinxi gongkai tiaoli], issued 5 
April 07, effective 1 May 08. See also ``China Commits to `Open 
Government Information' Effective May 1, 2008,'' CECC China Human 
Rights and Rule of Law Update, May 2008, 2.
    \157\ See, e.g., Rights Defense Network, ``Representative of 
Shanghai Petitioner Xie Jinhua in Open Government Information Suit 
Against Pudong New District Bureau of Planning and Land Management 
Driven Away by Judge'' [Shanghai fangmin xie jinhua su pudong xin qu 
guihua he tudi guanliju zhengfu xinxi gongkai an daili ren zao faguan 
qugan], 29 June 16; Rights Defense Network, ``Wuxi Government Refuses 
To Publish Government Information, Farmer Lu Guoyan Applies to 
Provincial Government for Reconsideration'' [Wuxi zhengfu ju bu gongkai 
zhengfu xinxi, nongmin lu guoyan xiang sheng zhengfu shenqing fuyi], 18 
October 15.
    \158\ See, e.g., Rights Defense Network, ``Finance Bureau Refuses 
To Disclose Three Pieces of Public Information, Changzhou's Wang Xiaoli 
Raises Administrative Lawsuit'' [Caizhengju jujue gongkai san gong 
xinxi, changzhou wang xiaoli tiqi xingzheng susong], 13 May 16.
    \159\ See, e.g., Rights Defense Network, ``Jiangsu's Nantong 
Municipality Public Security Bureau Refuses To Disclose Seven Details 
of Human Rights Defender Shan Lihua's Hunger Strike Incident'' [Jiangsu 
nantong shi gong'an jujue gongkai renquan hanweizhe shan lihua jueshi 
shijian de 7 fen xinxi], 19 May 16.
    \160\ Chinese Human Rights Defenders, ``[CHRB] Chinese Government 
Refuses To Disclose Data on Torture for UN Review, Citizens Face 
Reprisals for Seeking Information (10/22-29, 2015),'' 29 October 15; 
Lin Yunfei, ``Citizen Li Wei: Administrative Litigation Complaint'' 
[Gongmin li wei: xingzheng qisu zhuang], New Citizens' Movement (blog), 
19 August 15; Rights Defense Network, ``Shanghai Rights Defender Zheng 
Peipei Contests Reply Issued by Ministry of Foreign Affairs Regarding 
Torture Report and Files Administrative Lawsuit Against It'' [Shanghai 
renquan hanweizhe zheng peipei bufu waijiaobu jiu kuxing baogao de 
fuhan dui qi tiqi xingzheng susong], 19 October 15; Rights Defense 
Network, ``Shanghai Rights Defender Ding Juying Sues Ministry of 
Foreign Affairs Over Open Information Matters Relating to Torture 
Report'' [Shanghai renquan hanweizhe ding juying jiu kuxing baogao 
xinxi gongkai shiyi qisu waijiaobu], 26 October 15; Rights Defense 
Network, ``Shanghai Rights Defender Yin Huimin Receives `Reply 
Concerning an Open Government Information Application' From Ministry of 
Foreign Affairs Saying Information Sought Does Not Fall in Category of 
Open Government Information'' [Shanghai renquan hanweizhe yin huimin 
shoudao waijiaobu ``guanyu zhengfu xinxi gongkai shenqing de fuhan'' 
cheng shenqing gongkai neirong bu shuyu qi zhengfu xinxi gongkai 
fanchou], 21 September 15.
    \161\ See, e.g., Rights Defense Network, ``State Council Official 
Document Called State Secret, Nantong's Liu Xiyun Files for 
Administrative Reconsideration'' [Guowuyuan piwen bei cheng guojia 
mimi, nantong liu xiyun tiqi xingzheng fuyi], 29 May 16; Feng Zhenghu, 
``Leaving the Country (8): Feng Zhenghu Asks Ministry of Public 
Security for Written Decision Not Allowing Him To Leave the Country'' 
[Chujing (8): feng zhenghu xiang gong'anbu suoqu buzhun chujing de 
jueding shu], Feng Zhenghu's Blog, 8 December 15.
    \162\ Wang Mengyao, ``Implement a System of Negative Lists for Open 
Government Affairs by 2020'' [Dao 2020 nian shixing zhengwu gongkai 
fumian qingdan zhidu], Beijing News, 18 February 16.
    \163\ Office of the U.S. Trade Representative, ``2015 Report to 
Congress on China's WTO Compliance,'' December 2015, 19-20.
    \164\ Chao Deng and Shen Hong, ``Chinese Investors' Wish List: 
Policy Clarity, More Communication,'' Wall Street Journal, 10 January 
16.
    \165\ See, e.g., ``Inflated Statistics Wreak Havoc on Economies of 
Northeast China,'' Global Times, 14 December 15; Jeremy Wallace, 
``Here's Why It Matters That China Is Admitting That Its Statistics Are 
`Unreliable,' '' Washington Post, Monkey Cage (blog), 28 December 15.
    \166\ State Council, ``Social Credit System Construction Program 
Outline (2014-2020)'' [Shehui xinyong tixi jianshe guihua gangyao 
(2014-2020 nian)], 14 June 14; ``China Outlines Its First Social Credit 
System,'' Xinhua, 27 June 14. For an unofficial English translation, 
see ``Planning Outline for the Construction of a Social Credit System 
(2014-2020),'' translated in China Copyright and Media (blog), 25 April 
15.
    \167\ State Council, ``Social Credit System Construction Program 
Outline (2014-2020)'' [Shehui xinyong tixi jianshe guihua gangyao 
(2014-2020 nian)], 14 June 14, sec. 1(3). For an unofficial English 
translation, see ``Planning Outline for the Construction of a Social 
Credit System (2014-2020),'' translated in China Copyright and Media 
(blog), 25 April 15.
    \168\ Fokke Obbema et al., ``China Rates Its Own Citizens--
Including Online Behaviour,'' de Volkskrant, 25 April 15; Celia Hatton, 
``China `Social Credit': Beijing Sets Up Huge System,'' BBC, 26 October 
15.
    \169\ Ibid.
    \170\ State Council, ``Social Credit System Construction Program 
Outline (2014-2020)'' [Shehui xinyong tixi jianshe guihua gangyao 
(2014-2020 nian)], 14 June 14, sec. 2(1). For an unofficial English 
translation, see ``Planning Outline for the Construction of a Social 
Credit System (2014-2020),'' translated in China Copyright and Media 
(blog), 25 April 15.
    \171\ Julie Makinen, ``China Prepares To Rank Its Citizens on 
`Social Credit,' '' Los Angeles Times, 22 November 15; Fokke Obbema et 
al., ``China Rates Its Own Citizens--Including Online Behaviour,'' de 
Volkskrant, 25 April 15.
    \172\ Mirjam Meissner, Rogier Creemers, Pamela Kyle Crossley, Peter 
Mattis, and Samantha Hoffman, ``Is Big Data Increasing Beijing's 
Capacity for Control? '' Asia Society, ChinaFile (blog), 12 August 16. 
See also Fokke Obbema et al., ``China Rates Its Own Citizens--Including 
Online Behaviour,'' de Volkskrant, 25 April 15.
    \173\ ``State Council Publishes `Guiding Opinion on Establishing 
and Perfecting System of Uniform Encouragement for Integrity and 
Discipline for Dishonesty To Speed Up Advancing Construction of Social 
Trustworthiness' '' [Guowuyuan yinfa ``guanyu jianli wanshan shouxin 
lianhe jili he shixin lianhe chengjie zhidu jiakuai tuijin shehui 
chengxin jianshe de zhidao yijian''], Xinhua, 12 June 16.
    \174\ State Council, Guiding Opinion on Establishing and Perfecting 
System of Uniform Encouragement for Integrity and Discipline for 
Dishonesty To Speed Up Advancing Construction of Social Trustworthiness 
[Guanyu jianli wanshan shouxin lianhe jili he shixin lianhe chengjie 
zhidu jiakuai tuijin shehui chengxin jianshe de zhidao yijian], issued 
30 May 16, sec. 1.
    \175\ Ibid., sec. 9.
    \176\ Ibid., sec. 19.

                                                Commercial Rule 
                                                         of Law
                                                Commercial Rule 
                                                of Law

                         Commercial Rule of Law


                  World Trade Organization Commitments

    On December 11, 2016, China will have been a member of the 
World Trade Organization (WTO) for 15 years,\1\ yet the Chinese 
government and Communist Party continue to fail to honor many 
of China's fundamental WTO commitments.\2\ China's commitments 
when it joined the WTO included to ``apply and administer in a 
uniform, impartial and reasonable manner all its laws, 
regulations and other measures,'' \3\ to allow for ``impartial 
and independent'' tribunals for review of administrative 
actions,\4\ to allow ``prices for traded goods and services in 
every sector to be determined by market forces,'' \5\ and to 
ensure non-discrimination against foreign enterprises.\6\ 
President and Party General Secretary Xi Jinping and other 
high-level Chinese officials asserted during the Commission's 
2016 reporting year that China is fully adhering to its 
international trade obligations.\7\ U.S. businesses \8\ and the 
U.S. Government,\9\ however, expressed concerns regarding the 
Chinese government's continued failure to follow through on its 
WTO commitments, noting specific challenges such as restricted 
market access, discrimination against foreign companies, 
inadequate intellectual property protection, subsidies for 
state-owned enterprises, and the general absence of the rule of 
law.\10\

       World Trade Organization Disputes and Internet Censorship

    The U.S. Government has initiated a number of WTO disputes 
regarding the Chinese government's failure to comply with its 
WTO commitments, with the majority of disputes initiated since 
2009 remaining unresolved. In 2015, the U.S. Government 
initiated two new WTO disputes against the Chinese government 
while five earlier WTO disputes initiated against the Chinese 
government since 2009 remain active.\11\ In April 2016, China 
and the United States signed a memorandum of understanding 
that, if fully implemented by the Chinese government, will 
resolve a dispute on Chinese export subsidies that the U.S. 
Government initiated in February 2015.\12\ In July 2016, the 
U.S. Government initiated a WTO dispute against Chinese export 
duties on nine types of raw materials used in manufacturing; 
\13\ U.S. Trade Representative Michael Froman described the 
duties as ``China's attempt to game the system so that raw 
materials are cheaper for their manufacturers, and more 
expensive for ours.'' \14\ When China acceded to the WTO in 
2001, it committed to eliminating all export duties ``unless 
specifically provided for'' in an annex to its accession 
agreement or ``applied in conformity with'' WTO rules; \15\ in 
2009 and 2012, however, the United States initiated prior WTO 
disputes against Chinese export duties on other products.\16\
    Under WTO rules, the U.S. Government has requested detailed 
information about, but has not yet formally challenged, the 
Chinese government's Internet censorship regime. In October 
2011, the Office of the U.S. Trade Representative (USTR) 
requested information from the Chinese government on Internet 
restrictions that allow Chinese authorities to block websites 
of U.S. companies.\17\ In December 2015, USTR reported that it 
had continued its outreach to the Chinese government to discuss 
its ``arbitrary'' censorship (``blocking of websites'').\18\ In 
March 2016, USTR identified Internet censorship in China as a 
barrier to trade for the first time,\19\ reporting that the 
problem appears to ``have worsened over the past year, with 8 
of the top 25 most trafficked global sites now blocked in 
China.'' \20\

            Non-Market Economy Status and Trade Negotiations

    Under China's 2001 WTO accession protocol, other countries 
are permitted to treat China as a non-market economy; during 
the reporting year, the Chinese government sought a change to 
market economy status. In December 2016, a provision relating 
to China's designation as a non-market economy in its WTO 
accession protocol will expire.\21\ The Chinese government has 
reportedly pressed that, starting on December 11, 2016, the 
United States and other countries should no longer designate 
China a non-market economy.\22\ Some American manufacturers may 
be negatively affected if the U.S. Government designates China 
a market economy because American manufacturers may lose 
protection against subsidized Chinese imports.\23\ In 
determining whether a country is a market economy, the U.S. 
Commerce Department is required by law to consider factors 
including the extent to which the country's currency is 
convertible; foreign investment is limited; the government owns 
or controls the means of production; and the government 
controls price and output decisions of enterprises.\24\ As of 
May 2016, the U.S. Commerce Department reportedly had not made 
a decision on whether to grant China market economy status.\25\ 
In May 2016, the European Parliament adopted a resolution 
opposing a European Union designation of market economy status 
for China.\26\
    Negotiations for a Bilateral Investment Treaty (BIT) 
between China and the United States progressed in 2016, and 
China monitored Trans-Pacific Partnership (TPP) 
developments.\27\ In 2016, BIT negotiations were a ``top 
economic priority'' of the U.S. Government, with the objectives 
of ``non-discrimination, fairness and transparency.'' \28\ As 
of August 2016, ongoing U.S.-China BIT negotiations focused on 
a ``negative list''--a list of sectors in which U.S. investment 
in China would remain prohibited.\29\ The Chinese government 
was not part of the TPP negotiations \30\ due in part to 
challenges the Chinese government would face in meeting some 
TPP standards, including those related to the treatment of 
state-owned enterprises and Internet censorship.\31\ The 
Chinese government may seek to join the TPP in the future,\32\ 
and the U.S. Government has indicated that it would be open to 
the idea.\33\

                 Commercial Transparency and Censorship

    During the reporting year, Chinese authorities continued to 
control access to commercial information and impose 
restrictions on economic reporting, targeting negative reports 
on the Chinese economy. When China acceded to the WTO, the 
Chinese government committed to ``apply and administer in a 
uniform, impartial and reasonable manner all its laws, 
regulations and other measures of the central government as 
well as local regulations, rules and other measures issued or 
applied at the sub-national level . . ..'' \34\ Reports from 
this past year indicate, however, that the Chinese government 
does not uniformly apply laws and regulations, especially those 
that limit media censorship and promote transparency.\35\ The 
U.S.-based news-media-monitoring website China Digital Times 
identified seven different censorship directives issued between 
August 2015 and April 2016 related to economic reporting.\36\ 
In April 2016, Reporters Without Borders ranked China 176th out 
of 180 countries for press freedom.\37\ During the reporting 
year, the websites of the New York Times, Bloomberg News, the 
Wall Street Journal, and Reuters remained blocked in China.\38\
    Significant developments demonstrating Chinese authorities' 
continued disregard for transparency, impartiality, and freedom 
of the press included:

        <bullet> On August 25, 2015, Chinese authorities 
        detained Caijing reporter Wang Xiaolu, later placing 
        him under ``criminal compulsory measures'' on suspicion 
        of ``colluding with others and fabricating and 
        spreading fake information on [the] securities and 
        futures market.'' \39\ Wang had reported that the 
        Chinese government might reduce financial support for 
        stabilizing stock prices.\40\ In or around February 
        2016, authorities reportedly released Wang from 
        detention at an unknown location in Shanghai 
        municipality, although sources did not report on the 
        conditions of his release.\41\
        <bullet> Between January 2010 and November 2015, 
        Chinese companies raised US$36.7 billion from U.S. 
        investors in initial public offerings, according to 
        analysis by Bloomberg News.\42\ As of August 2016, 
        however, the Public Company Accounting Oversight Board 
        (PCAOB), a non-profit corporation established by the 
        U.S. Congress to oversee public company audits,\43\ 
        reportedly remained unable to obtain legal and 
        financial documents from China-based companies listed 
        on U.S. stock exchanges.\44\ Although U.S. and Chinese 
        regulators announced a pilot inspection program in June 
        2015,\45\ inspections have not taken place because 
        Chinese authorities only permit limited access to 
        documents.\46\
        <bullet> In December 2015, Chinese official media 
        reported that, in order to explain current ``dramatic 
        economic drops'' in local growth figures, several 
        officials in northeast China had admitted to ``faking'' 
        GDP and other statistical data in previous years, with 
        some local counties having reported GDP rivaling that 
        of Hong Kong.\47\ According to a Xinhua report, ``very 
        few'' officials have lost their jobs due to 
        manipulating data despite provisions in the PRC 
        Statistics Law that stipulate termination as punishment 
        for such violations.\48\
        <bullet> On January 26, 2016, Communist Party 
        authorities extralegally detained Wang Bao'an, the 
        Director of the National Bureau of Statistics of 
        China,\49\ hours after he defended China's economic 
        performance and GDP figures at a news conference.\50\ 
        According to international media reports, Wang's 
        detention increased concern about the reliability of 
        the Chinese government's GDP statistics.\51\
        <bullet> In April 2016, a consortium of journalists 
        published an expose on international tax avoidance 
        schemes, revealing that a Panamanian law firm had set 
        up 16,300 secret offshore companies through its offices 
        in China and Hong Kong,\52\ including companies owned 
        by family members of eight current or past members of 
        the Standing Committee of the Communist Party Central 
        Committee Political Bureau.\53\ Chinese authorities 
        censored reporting by Chinese media and postings on 
        social media about the disclosure of offshore 
        accounts.\54\
        <bullet> Chinese government and Communist Party 
        authorities reportedly investigated executives in the 
        banking and financial sectors in the aftermath of the 
        2015 Chinese stock market fluctuations.\55\ Some 
        executives were reportedly ``disappeared'' or 
        temporarily detained without transparent reporting on 
        their whereabouts.\56\ According to media reports, 
        these unexplained absences affected investor confidence 
        and stock prices.\57\

------------------------------------------------------------------------
   Disappearance and Arbitrary Detention of an  American Businesswoman
-------------------------------------------------------------------------
  In March 2015, American businesswoman Sandy Phan-Gillis disappeared as
 she was about to travel from Zhuhai municipality, Guangdong province,
 into Macau.\58\ According to the Ministry of Foreign Affairs, Chinese
 authorities placed Phan-Gillis ``under investigation `on suspicion of
 activities harmful to Chinese national security.' '' \59\ After holding
 Phan-Gillis under ``residential surveillance at a designated location''
 \60\ for six months at an undisclosed location in the Guangxi Zhuang
 Autonomous Region, authorities reportedly transferred her to the
 Nanning No. 2 PSB Detention Center in Nanning municipality, Guangxi in
 September.\61\ The Guangxi procuratorate reportedly approved her arrest
 on October 26, but officials did not provide her with any details of
 the charges.\62\ The U.S. State Department reported that she met with
 consular officials on a monthly basis, but Chinese authorities
 reportedly have prohibited her from speaking openly with consular
 officials or from meeting with her lawyer.\63\ The U.S.-China Consular
 Convention (Convention) provides that consular officials are entitled
 ``to converse and to exchange correspondence'' with detained
 individuals and ``may assist in arranging for legal representation.''
 \64\ According to the U.S. State Department, the Chinese government's
 restrictions on communication between U.S. consular officials and Phan-
 Gillis are ``inconsistent'' with China's obligations under the
 Convention.\65\ In June 2016, the United Nations Working Group on
 Arbitrary Detention rendered an opinion that Phan-Gillis had been
 arbitrarily detained.\66\ The opinion was based on a determination that
 Phan-Gillis had been deprived of her right to legal counsel, and that
 she had not promptly been brought before a judicial or other
 independent authority since her detention began.\67\ In July 2016,
 international media reported that Phan-Gillis had been, or was soon
 expected to be, indicted.\68\
------------------------------------------------------------------------

                        State-Owned Enterprises

    This past year, in spite of the Chinese government's 
continued promotion of structural reforms to state-owned 
enterprises (SOEs), American and European companies expressed 
concerns that SOEs continued to be run in a non-commercial 
manner. When China acceded to the World Trade Organization 
(WTO), the Chinese government committed that ``all state-owned 
and state-invested enterprises would make purchases and sales 
based solely on commercial considerations . . ..'' \69\ In 
September 2015, the State Council issued a guiding opinion on 
the reform of SOEs \70\ that would categorize SOEs as public-
class and commercial-class, and encourage market-based reforms 
and mixed ownership for commercial-class SOEs.\71\ Chinese 
media reported that this effort to promote mixed ownership will 
increase the efficiency of the 150,000 SOEs, which hold more 
than 100 trillion yuan (approximately US$16 trillion) in assets 
and employ more than 30 million people.\72\ A U.S. business 
association, however, reported that the impact of the reforms 
would likely be limited as it does not address ``core SOE 
issues.'' \73\ In the 2015 Fortune Global 500 list, 76 out of 
98 Chinese companies included were SOEs,\74\ and according to 
the World Trade Organization Trade Policy Review Body, the 
Chinese government is a majority shareholder in 99 of the 100 
largest publicly listed companies.\75\ As of May 2015, 1,012 
``state-owned holding'' enterprises reportedly accounted for 68 
percent of the total equity of the Shanghai and Shenzhen stock 
markets according to Chinese authorities.\76\ In July 2016, 
Chinese and international media reported on listed SOEs that 
had amended their articles of association to give internal 
Party committees greater control over corporate decisions 
following September 2015 demands by the Chinese Communist Party 
Central Committee.\77\ Xinhua noted that the Party constitution 
stipulates that foreign companies in China with more than three 
Party members ``should have'' Party branches and that the 
numbers of Party branches at foreign companies ``are growing.'' 
\78\ During the reporting year, Chinese authorities continued 
to exercise significant influence over all types of firms.\79\ 
According to Xinhua, although the number of SOEs may be 
decreasing, the ``influence and dominance'' of SOEs is growing 
in strength.\80\ The Chinese government's support for SOEs 
reportedly has resulted in ``severe overcapacity'' in 
industries, including steel, cement, aluminum, flat glass, and 
shipbuilding, which has resulted in low global prices and trade 
tensions with the United States and Europe.\81\ According to 
the U.S. International Trade Commission, as of August 15, 2016, 
the United States had 140 antidumping (102) and countervailing 
(38) duty orders in force that targeted Chinese imports, \82\ 
an increase from the 129 antidumping (98) and countervailing 
(31) duty orders in force as of September 1, 2015.\83\

               Chinese Government Support of Cyber Theft

    Cyber theft and the theft of intellectual property by, or 
with the support of, the Chinese government remained of 
significant concern. In August 2015, the Washington Post 
reported that the U.S. Government was considering imposing 
sanctions on Chinese companies that had benefited from Chinese-
government-supported theft of U.S. intellectual property.\84\ 
According to the Washington Post report, Chinese SOEs State 
Nuclear Power Technology, Baosteel Group, and the Aluminum 
Corporation of China likely would have been subject to 
sanctions, although the U.S. Government did not officially name 
them.\85\ In September 2015, U.S. President Barack Obama and 
Chinese President Xi Jinping agreed that ``[N]either country's 
government will conduct or knowingly support cyber-enabled 
theft of intellectual property, including trade secrets or 
other confidential business information, with the intent of 
providing competitive advantages to companies or commercial 
sectors.'' \86\ One analyst surmised the agreement was ``a 
tactical maneuver by China, an effort to prevent [the United 
States] from levying sanctions.'' \87\ In October, a 
cybersecurity firm reported that Chinese attacks had continued 
the day after as well as in the weeks following the 
agreement.\88\ During the reporting year, dialogue between the 
United States and China on cyber theft continued, and in 
December 2015, the U.S. Departments of Justice and Homeland 
Security and China's State Council agreed to guidelines for 
requesting information on cyber crimes.\89\ In April 2016, the 
United States Steel Corporation filed a complaint with the U.S. 
International Trade Commission, alleging that the Chinese steel 
industry had benefited from Chinese government-sponsored cyber 
theft in January 2011 of trade secrets related to advanced 
steels.\90\

     Intellectual Property Rights and Antimonopoly Law Enforcement

    During the reporting year, American companies continued to 
experience the negative consequences of the Chinese 
government's inadequate protection for intellectual property 
(IP), although Chinese officials made some positive judicial 
and regulatory developments. According to the Office of the 
U.S. Trade Representative's Special 301 Report, China continued 
to ``present a complex and contradictory environment for 
protection and enforcement of IPR [intellectual property 
rights],'' noting significant problems including ``rampant 
piracy and counterfeiting'' and ``unchecked trade secret 
theft.'' \91\ In February 2016, the U.S. Chamber of Commerce 
identified ``growing online counterfeiting'' as a key area of 
weakness for intellectual property protection in China.\92\ 
Despite these challenges, Chinese authorities continued to 
affirm the importance of intellectual property protection and 
of implementing legal reforms.\93\ In 2015, China's new 
specialized IP courts in Beijing and Shanghai municipalities, 
and Guangzhou municipality, Guangdong province, reportedly 
concluded 9,872 cases.\94\ According to the Supreme People's 
Court, as of February 2016, Chinese courts had publicly 
released more than 15 million case decisions, of which civil, 
commercial, and IP cases totaled approximately 10.5 million 
decisions.\95\ In December 2015, the State Council Legislative 
Affairs Office made available for public comment draft 
revisions to the PRC Patent Law.\96\ The draft revisions 
included changes such as extending protection for design 
patents from 10 to 15 years and increasing damages for 
intentional infringement.\97\
    Chinese authorities' discriminatory and non-transparent 
antimonopoly enforcement remained an area of concern for 
American companies. According to a US-China Business Council 
survey, 80 percent of surveyed American companies were 
concerned about antimonopoly law enforcement in China, 
including lack of transparency, target enforcement, and lack of 
due process.\98\ In August 2015, the State Administration for 
Industry and Commerce (SAIC) Provisions on the Prohibition of 
Conduct Eliminating or Restricting Competition by Abusing 
Intellectual Property Rights took effect.\99\ According to one 
USTR official, ``there is a concern that China's existing and 
draft antimonopoly law enforcement guidelines could be used to 
improperly value intellectual property rights, which calls into 
doubt the seriousness of China's avowed intentions to create a 
system that promotes and protects intellectual property 
rights,'' potentially resulting in artificially low 
prices.\100\ In February 2016, SAIC published for public 
comment its seventh draft Guidelines on Anti-Trust Enforcement 
Against IP Abuse,\101\ which contains provisions that place 
restrictions on licensing certain types of intellectual 
property.\102\ In February 2016, the State Council Legislative 
Affairs Office published a draft revision to the PRC Anti-
Unfair Competition Law, which contains provisions that, if 
implemented, could strengthen trade secret protection in China 
by increasing administrative fines and adopting other 
measures.\103\

    The International Monetary Fund and Chinese Outbound Investment

    During the reporting year, the Chinese government reached 
its goal of increased international use of the yuan, and 
foreign investment by Chinese companies continued to increase. 
In November 2015, the International Monetary Fund (IMF) decided 
to add the yuan to the Special Drawing Rights (SDR), effective 
October 1, 2016.\104\ Although the yuan is not fully 
convertible to other currencies, the IMF determined that the 
yuan satisfied a requirement that a SDR currency is ``freely 
usable.'' \105\ President Xi Jinping reportedly said that the 
yuan's new status ``will improve the international monetary 
system and safeguard global financial stability.'' \106\ 
According to a January 2016 Wall Street Journal report, ``the 
IMF stamp of approval puts the yuan in the same league as the 
dollar, yen and sterling,'' and Chinese officials have 
reportedly begun to weaken the value of the yuan to increase 
exports.\107\ In March 2016, another Wall Street Journal 
article reported that the IMF requested China to release more 
data related to the Chinese government's intervention in the 
yuan's exchange rate,\108\ although IMF officials later denied 
the report, according to the state-run news agency Xinhua.\109\
    Foreign investments by Chinese companies, with the support 
of the Chinese government and Chinese government-controlled 
financial institutions, continued to grow during the 2016 
reporting year. According to an analysis conducted by a 
research firm and non-profit organization, as of April 2016, 
Chinese companies had US$30 billion in pending investment deals 
and projects in the United States, indicating that total 
Chinese foreign investment likely will increase in 2016 from 
US$15 billion in 2015.\110\ In the first three months of 2016, 
Chinese companies announced the largest planned acquisition of 
a U.S. company to date--Anbang's US$14.3 billion purchase of 
Starwood Hotels--as well as what would be five of the six 
largest acquisitions, including Tianjin Tianhai's US$6.3 
billion purchase of Ingram Micro, Qingdao Haier's US$5.4 
billion purchase of General Electric Appliance Business, 
Zoomlion's US$5.4 billion purchase of Terex, and Dalian Wanda's 
US$3.5 billion purchase of Legendary Entertainment.\111\ In 
March 2016, Anbang withdrew its bid for Starwood Hotels,\112\ 
and in May 2016, Zoomlion announced it was no longer pursuing 
Terex.\113\ In January 2016, the Chinese-led multilateral 
development bank, the Asian Infrastructure Investment Bank 
(AIIB), officially opened.\114\ The AIIB may be a funding 
mechanism for Chinese foreign investment.\115\ One American 
expert said that the AIIB may adopt standards similar to the 
World Bank and other multilateral institutions, but cautioned 
that ``the key is if and how these standards will be 
enforced.'' \116\

                          Food and Drug Safety

    The Chinese government continued to take steps to address 
food and drug safety challenges this past year. In October 
2015, the amended PRC Food Safety Law took effect, which 
included stronger penalties for violations and additional 
monitoring requirements.\117\ In December 2015, the State Food 
and Drug Administration (SFDA), State Council, Ministry of 
Public Security, Supreme People's Court, and Supreme People's 
Procuratorate jointly issued a set of measures on facilitating 
inter-agency work on food- and drug-related crime.\118\
    Events surrounding a major drug safety scandal this past 
year highlighted the ongoing tension between authorities' 
efforts to enforce drug safety measures and to silence those 
who question government oversight. In March 2016, the SFDA 
reportedly stated that 29 companies and 16 clinics had 
illegally distributed more than 20,000 vaccines, leading 
authorities to detain 130 suspects.\119\ In April 2016, a media 
report indicated that 192 criminal cases had been filed, and 
357 government officials punished.\120\ Another media report, 
meanwhile, indicated that authorities detained as many as 1,000 
parents gathered to protest in front of a government agency in 
Beijing municipality, following a vaccine scandal that they 
claim caused a range of negative health consequences.\121\ An 
April report in the Economist described the vaccine scandal as 
China's biggest in years, involving ``tens of millions of 
dollars-worth of black-market, out-of-date and improperly 
stored vaccines.'' \122\ The total number of faulty vaccines 
was estimated at two million.\123\ In response to the illegal 
vaccine reports, Premier Li Keqiang reportedly said the case 
``exposed many regulatory loopholes.'' \124\ The Economist 
article quoted a statement President and Party General 
Secretary Xi Jinping reportedly had made in 2013 in which he 
linked the Party's legitimacy to its ability to oversee food 
safety, saying, ``If our party can't even handle food-safety 
issues properly, and keeps on mishandling them, then people 
will ask whether we are fit to keep ruling China.'' \125\ 
Subsequently, the Economist's website was blocked in China, 
allegedly in response to an image of Xi on the magazine's 
coverage accompanying the report.\126\
    The Chinese government's non-transparent food safety 
regulations and enforcement negatively affected at least one 
American company this reporting year, and may affect American 
consumers who purchase goods originating in or processed in 
China. According to one American attorney who focuses on food 
safety, ``China has a very complex uncodified body of hundreds 
of standards . . . along with a separate body of equally 
complex procedural regulations overlaying them.'' \127\ On 
February 1, 2016, the Jiading District People's Court in 
Shanghai municipality fined two Chinese subsidiaries of the 
American meat processor OSI Group 1.2 million yuan each 
(approximately US$190,000) and sentenced an Australian citizen 
and nine local employees to prison terms of up to three years 
and fines of up to 80,000 yuan (approximately US$12,000), for 
the production and sale of substandard food products.\128\ 
Although OSI Group had acknowledged problems in their 
production process \129\ and tried to cooperate with local 
authorities,\130\ OSI Group criticized the judgment as 
``inconsistent with the facts and evidence,'' claiming 
authorities had recognized that the case was ``never'' about 
food safety, but was influenced by accusations made in 
misleading media reports.\131\ The Wall Street Journal 
described OSI Group's press release as an ``unusual move'' that 
``vehemently disputed'' the ruling.\132\ OSI Group's subsidiary 
Shanghai Husi Food had reportedly won recognition from the 
Chinese government for safe food production and been 
successfully audited by the U.S. Department of Agriculture 
(USDA) in 2004 and 2010 to potentially allow Chinese poultry 
exports to the United States.\133\
    Food safety experts have expressed concern that imports of 
potentially unsafe Chinese food products may increase due to 
recent U.S. Government action. In March 2016, the USDA's Food 
Safety Inspection Service published an audit that found China's 
poultry slaughter inspection system equivalent to that of the 
United States, allowing the rulemaking process to proceed for 
raw poultry from China to be imported into the United 
States,\134\ despite concerns in the United States.\135\ 
According to Food & Water Watch, a U.S. non-profit organization 
that advocates for food safety, potentially unsafe poultry 
exports from China will ``seriously endanger'' American 
consumers.\136\

                                                Commercial Rule 
                                                         of Law
                                                Commercial Rule 
                                                of Law
    Notes to Section III--Commercial Rule of Law

    \1\ World Trade Organization, ``Protocols of Accession for New 
Members Since 1995, Including Commitments in Good and Services,'' last 
visited 15 June 16. China became a member of the World Trade 
Organization (WTO) on December 11, 2001. A list of members and their 
dates of membership is available on the WTO website.
    \2\ Stephen J. Ezell and Robert D. Atkinson, ``False Promises: The 
Yawning Gap Between China's WTO Commitments and Practices,'' 
Information Technology & Innovation Foundation, 17 September 15, 5; 
Office of the U.S. Trade Representative, ``2015 Report to Congress on 
China's WTO Compliance,'' December 2015, 23-28, 95. See also American 
Chamber of Commerce in the People's Republic of China, ``American 
Business in China 2016 White Paper,'' April 2016, II. According to the 
American Chamber of Commerce, ``serious and systematic challenges'' 
remain in China. ``10 Commitments China Made When It Joined the WTO and 
Has Not Respected,'' AEGIS Europe, last visited 15 June 16.
    \3\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 2(A)2.
    \4\ Ibid., Part I, 2(D)1.
    \5\ Ibid., Part I, 9(1).
    \6\ Ibid., Part I, 3.
    \7\ Ministry of Foreign Affairs, ``Foreign Ministry Spokesperson 
Hong Lei's Regular Press Conference on February 16, 2016,'' 16 February 
16. According to the Chinese Foreign Ministry spokesperson: ``China has 
been earnestly honoring each and every [sic] of its legal obligations 
since its accession . . ..'' ``Full Text of Xi Jinping's Speech on 
China-U.S. Relations in Seattle,'' Xinhua, 24 September 15. In 
September 2015, Chinese President and Communist Party General Secretary 
Xi Jinping said that China observes ``the [WTO] principle of national 
treatment,'' and treats ``all market players including foreign-invested 
companies fairly . . ..'' Michael Martina, ``China Internet Regulator 
Says Web Censorship Not a Trade Barrier,'' Reuters, 11 April 16. In 
April 2016, China's Internet regulator reportedly said that ``China 
scrupulously abides by World Trade Organization principles and its 
accession protocols . . ..''
    \8\ Stephen J. Ezell and Robert D. Atkinson, ``False Promises: The 
Yawning Gap Between China's WTO Commitments and Practices,'' 
Information Technology & Innovation Foundation, 17 September 15, 5.
    \9\ Office of the U.S. Trade Representative, ``2015 Report to 
Congress on China's WTO Compliance,'' December 2015, 23-28, 95. See 
also Ambassador Robert W. Holleyman II, Deputy U.S. Trade 
Representative, ``Remarks by Deputy USTR Robert Holleyman to the U.S. 
Chamber of Commerce Global Intellectual Property Center 2015 Global IP 
Summit,'' 6 November 15.
    \10\ Stephen J. Ezell and Robert D. Atkinson, ``False Promises: The 
Yawning Gap Between China's WTO Commitments and Practices,'' 
Information Technology & Innovation Foundation, 17 September 15, 5; 
Office of the U.S. Trade Representative, ``2015 Report to Congress on 
China's WTO Compliance,'' December 2015, 23-28, 95. See also Ling Li, 
``The Chinese Communist Party and People's Courts: Judicial Dependence 
in China,'' American Journal of Comparative Law, Vol. 64, No. 1 (2016).
    \11\ Office of the U.S. Trade Representative, ``2015 Report to 
Congress on China's WTO Compliance,'' December 2015, 34, 38. In 
addition to the active disputes initiated since 2009, a WTO dispute 
initiated by the United States in April 2007 against China concerning 
market access for books, movies, and music also remained active.
    \12\ Memorandum of Understanding Between the People's Republic of 
China and the United States of America Related to the Dispute: China--
Measures Related to Demonstration Bases and Common Service Platforms 
(DS489), 14 April 16; Office of the U.S. Trade Representative, ``Fact 
Sheet: Agreement To Terminate Export Subsidies Under China's 
Demonstration Bases--Common Service Platform Program,'' April 2016. As 
part of the Memorandum of Understanding (MOU), China agreed to 
``exchange further information related to future actions taken pursuant 
to [this] MOU.'' See also Timothy Webster, ``Paper Compliance: How 
China Implements WTO Decisions,'' Michigan Journal of International 
Law, Vol. 35, Issue 3 (2014), 574.
    \13\ World Trade Organization, DS508, China--Export Duties on 
Certain Raw Materials, Dispute Settlement, last visited 22 August 16.
    \14\ Office of the U.S. Trade Representative, ``United States 
Challenges China's Export Duties on Nine Key Raw Materials To Level 
Playing Field for American Manufacturers,'' July 2016.
    \15\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 11(3).
    \16\ Office of the U.S. Trade Representative, ``2015 Report to 
Congress on China's WTO Compliance,'' December 2015, 53-55. See also 
World Trade Organization, DS394, China--Measures Related to the 
Exportation of Various Raw Materials, Dispute Settlement, last visited 
22 August 16; World Trade Organization, DS431, China--Measures Related 
to the Exportation of Rare Earths, Tungsten and Molybdenum, Dispute 
Settlement, last visited 22 August 16.
    \17\ Office of the U.S. Trade Representative (USTR), ``United 
States Seeks Detailed Information on China's Internet Restrictions,'' 
19 October 11. USTR made the information request to China under 
paragraph 4 of Article III of the General Agreement on Trade in 
Services.
    \18\ Office of the U.S. Trade Representative, ``2015 Report to 
Congress on China's WTO Compliance,'' December 2015, 150.
    \19\ Office of the U.S. Trade Representative, ``2016 National Trade 
Estimate Report on Foreign Trade Barriers,'' March 2016, 91. See also 
James Zimmerman, ``Censorship in China Also Blocks Business Growth,'' 
Wall Street Journal,'' 17 May 16; Susan Shirk et al., ``It's Official: 
Washington Thinks Chinese Internet Censorship Is a `Trade Barrier,' '' 
Foreign Policy, China File, 14 April 16.
    \20\ Office of the U.S. Trade Representative, ``2016 National Trade 
Estimate Report on Foreign Trade Barriers,'' March 2016, 91.
    \21\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 15(d). 
The provision states ``Once China has established, under the national 
law of the importing WTO Member, that it is a market economy, the 
provisions of subparagraph (a) shall be terminated provided that the 
importing Member's national law contains market economy criteria as of 
the date of accession. In any event, the provisions of subparagraph 
(a)(ii) shall expire 15 years after the date of accession. In addition, 
should China establish, pursuant to the national law of the importing 
WTO Member, that market economy conditions prevail in a particular 
industry or sector, the non-market economy provisions of subparagraph 
(a) shall no longer apply to that industry or sector.''
    \22\ Tom Mitchell, ``China Revs Up Its Bid for WTO Market Economy 
Status,'' Financial Times, 20 September 15; Lucy Hornby and Shawn 
Donnan, ``China Fights for Market Economy Status,'' Financial Times, 9 
May 16.
    \23\ ``Coalition of U.S. Manufacturers Calls on Department of 
Commerce To Fairly Assess China's Economic Status,'' Manufacturers for 
Trade Enforcement (blog), 16 March 16; Wayne Morrison, ``China's Status 
as a Nonmarket Economy (NME),'' Congressional Research Service, 23 June 
16; Adam Behsudi, ``Manufacturers Form Coalition Against China `Market 
Economy' Status,'' Politico, Morning Trade (blog), 16 March 16. See 
also Robert E. Scott and Xiao Jiang, Economic Policy Institute (EPI), 
``Unilateral Grant of Market Economy Status to China Would Put Millions 
of EU Jobs at Risk,'' EPI Briefing Paper, No. 407, 18 September 15.
    \24\ U.S. Code, Title 19--Customs Duties, Chap. 4, Subtitle IV, 
Part IV, Sec. 1677(18)(B)(2016).
    \25\ U.S. Senate, China Market Economy Status Congressional Review 
Act, 114th Congress, 2nd session, S. 2906, introduced 9 May 16; U.S. 
House of Representatives, China Market Economy Status Congressional 
Review Act, 114th Congress, 2nd session, H. Res. 4927, introduced 13 
April 16. Members of U.S. Congress introduced legislation in the Senate 
and House to require congressional approval to change China's 
designation as a nonmarket economy. See also Wayne Morrison, ``China's 
Status as a Nonmarket Economy (NME),'' Congressional Research Service, 
23 June 16.
    \26\ European Parliament, European Parliament Resolution of 12 May 
2016 on China's Market Economy Status, 2016/2667(RSP), 12 May 16; 
European Parliament, ``China's Proposed Market Economy Status: Defend 
EU Industry and Jobs, Urge MEPS,'' European Parliament News, 12 May 16; 
Jonathan Stearns, ``Lowering of EU Tariffs on China Opposed by European 
Parliament,'' Bloomberg, 12 May 16.
    \27\ See, e.g., ``What You Need To Know About the TPP'' [Guanyu TPP 
ni xuyao zhidao de shi], Xinhua, 6 October 15; Wang Qingyun, ``No 
Single Country Can Determine Trade Rules, Ministry Says,'' China Daily, 
5 February 16.
    \28\ Office of the U.S. Trade Representative, ``2015 Report to 
Congress on China's WTO Compliance,'' December 2015, 6.
    \29\ ``U.S.-China BIT Offer Exchange Expected Before G20 as 
Engagement Ramps Up,'' China Trade Extra, 17 August 16. See also ``Lew: 
China's Commitment to Fair Investment Rules Key To Open Economy,'' 
China Trade Extra, 20 January 16.
    \30\ See, e.g., Liu Zhen and Wendy Wu, ``40 Per Cent of World's 
Economy Signs Up to TPP Trade Pact That Obama Says `Allows US, Not 
China To Write the Rules of the Road,'' South China Morning Post, 5 
February 16.
    \31\ Australia, Brunei, Canada, Chile, Japan, Malaysia, Mexico, New 
Zealand, Peru, Singapore, United States, and Vietnam, Trans-Pacific 
Partnership, signed 4 February 16, reprinted in Office of the U.S. 
Trade Representative, last visited 14 August 16, arts. 14.11, 17.4. 
Chapter 14, Article 14.11(2) states ``Each Party shall allow the cross-
border transfer of information by electronic means, including personal 
information, when this activity is for the conduct of the business of a 
covered person.'' See also Li Chunding and John Whalley, ``China and 
the Trans-Pacific Partnership Agreement,'' Center for International 
Governance Innovation (CIGI), CIGI Paper No. 102, May 2016, 9.
    \32\ Kai Ryssdal, ``President Obama Says China Open to Joining 
Trade Partnership,'' Marketplace, 3 June 15.
    \33\ Hillary Rodham Clinton, U.S. Department of State, ``Delivering 
on the Promise of Economic Statecraft,'' 17 November 12.
    \34\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 2(A)2.
    \35\ State Administration of Press, Publication, Radio, Film and 
Television and the Ministry of Industry and Information Technology, 
Provisions on the Administration of Online Publishing Services [Wangluo 
chuban fuwu guanli guiding], issued 2 February 16, effective 10 March 
16; Provisions on Network Publication Services Administration and 
Articles 291 and 253 of the PRC Criminal Law were of particular 
concern. For more information on the new Provisions, see Thomas M. 
Shoesmith and Julian Zou, ``China Imposes Broad New Restrictions on 
Publication of Internet Content,'' Pillsbury Winthrop Shaw Pittman LLP, 
Client Alert, 24 February 16, 1; Kou Jie, ``Analysts Downplay Impact of 
China's Online Publishing Rules on Foreign Investors,'' Global Times, 1 
March 16; Bien Perez and Nikki Sun, ``Apple iTunes and Disney Services 
Shut Down by New Mainland Chinese Rules,'' South China Morning Post, 23 
April 16; PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 
1 July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, arts. 253, 291. For more information on Article 291 of 
the PRC Criminal Law, see Yaqiu Wang, ``In China, Harsh Penalties for 
`False News' Make It Harder for Reporters To Work,'' Committee to 
Protect Journalists, China (blog), 30 October 15; ``This Article Is 
Guilty of Spreading Panic and Disorder,'' Economist, 5 December 15. For 
more information on Article 253 of the PRC Criminal Law, see Richard K. 
Wagner et al., ``Are You Ready for Visits From Chinese State 
Authorities? '' Steptoe & Johnson LLP, 26 October 15; Paul de Hert and 
Vagelis Papakonstantinou, European Parliament, Directorate-General for 
Internal Policies, Policy Department C: Citizens' Rights and 
Constitutional Affairs, ``The Data Protection Regime in China,'' 
October 2015, 17-18. See also Donald C. Clarke, George Washington 
University School of Law, ``The Peter Humphrey/Yu Yingzeng Case and 
Business Intelligence in China,'' Social Science Research Network, 5 
August 15, 3-5.
    \36\ China Digital Times, ``China Presses Economists To Brighten 
Their Outlooks,'' 6 May 16.
    \37\ Reporters Without Borders, ``World Press Freedom Index 2016,'' 
last visited 20 April 16.
    \38\ Freedom House, ``Freedom in the World 2016--China,'' last 
visited 20 June 16.
    \39\ ``Journalist, Securities Regulatory Official Held for Stock 
Market Violation,'' Xinhua, 31 August 15; Cao Guoxing, `` `Caijing' 
Reporter Wang Xiaolu Held in `Residential Surveillance at a Designated 
Location' Quietly Released After Half a Year'' [``Caijing'' jizhe wang 
xiaolu bei ``zhiding jusuo jianshi juzhu'' bannian hou didiao shifang], 
Radio France Internationale, 17 March 16. Amie Tsang, ``Caijing 
Journalist's Shaming Signals China's Growing Control Over News Media,'' 
New York Times, 6 September 15; China Digital Times, ``In Crackdown on 
Rumors, Journalist `Confesses,' '' 30 August 15. For more information 
on Wang Xiaolu, see the Commission's Political Prisoner Database record 
2015-00319.
    \40\ China Digital Times, ``In Crackdown on Rumors, Journalist 
`Confesses,' '' 30 August 15; Neigh Gough, ``As Markets Flail, China 
Investigates Large Brokerage Firms,'' New York Times, DealBook (blog), 
26 August 15.
    \41\ Cao Guoxing, `` `Caijing' Reporter Wang Xiaolu Held in 
`Residential Surveillance at a Designated Location' Quietly Released 
After Half a Year'' [``Caijing'' jizhe wang xiaolu bei ``zhiding jusuo 
jianshi juzhu'' bannian hou didiao shifang], Radio France 
Internationale, 17 March 16; Rights Defense Network, ``Detained 
`Caijing' Reporter Wang Xiaolu and Hong Kong's `Life News' Shi Yuqun 
Separately Released Before New Year'' [Bei zhua ``caijing'' jizhe wang 
xiaolu, xianggang ``minsheng bao'' shi yuqun yi fenbie yu chunjie qian 
huoshi], 18 March 16.
    \42\ Dave Michaels, ``U.S. Investors Have Another Reason To Fret 
Over China Firms,'' Bloomberg, 3 November 15.
    \43\ Sarbanes-Oxley Act of 2002, Public Law 107-204, 30 July 02, 
sec. 101. See also Public Company Accounting Oversight Board, ``About 
the PCAOB,'' last visited 1 July 16.
    \44\ Kathy Chu et al., ``U.S. May Finally Get a Peek at the Books 
of Alibaba, Baidu,'' Wall Street Journal, 18 August 16. The article 
reported that ``PCAOB is expected to gain access in coming months to 
audit firms' records of the work they did to review Alibaba's and 
Baidu's books'' but noted that the ``inspections might not proceed.'' 
The article also cautioned that even if inspections occur, the PCAOB 
may only be able to review ``heavily redacted'' documents and ``may 
face other restrictions . . ..'' See also ``Chinese Inspection Pact 
Remains Out of Reach,'' Thomson Reuters Tax & Accounting News, 
Checkpoint Daily Newsstand (blog), 10 June 16.
    \45\ Dena Aubin, ``U.S. Regulators Plan First-Ever Inspection of 
Audit Firm in China,'' Reuters, 29 June 15.
    \46\ ``Chinese Inspection Pact Remains Out of Reach,'' Thomson 
Reuters Tax & Accounting News, Checkpoint Daily Newsstand (blog), 10 
June 16; Dave Michaels, ``U.S. Investors Have Another Reason To Fret 
Over China Firms,'' Bloomberg, 3 November 15. See also ``After 
Inspection Impasse, Chinese Auditors May Face Disciplinary Actions,'' 
Thomson Reuters Tax & Accounting News, Checkpoint Daily Newsstand 
(blog), 24 December 15.
    \47\ ``Officials Admit to Faking Economic Figures,'' China Daily, 
14 December 15; Mark Magnier, ``Northern Exposure: China Names and 
Shames Provinces for Fudging GDP,'' Wall Street Journal, China Real 
Time (blog), 15 December 15; ``Many Northeastern Localities Fabricated 
GDP Statistics, Size of County Economies Exceeded Hong Kong'' [Dongbei 
duodi GDP zaojia xianyu jingji guimo chao xianggang], Beijing News, 11 
December 15.
    \48\ Liu Huang et al., `` `Over-Inflated Statistics' Cause 
Significant Harm, Require Serious `Deflation' '' [``Zhushui shuju'' 
yihai da ``ji chu shuifen'' xu jiaozhen], Xinhua, 10 December 15. See 
also PRC Statistics Law [Zhonghua renmin gongheguo tongji fa], passed 8 
December 83, amended 15 May 96, 27 June 09, effective 1 January 10, 
arts. 37-39.
    \49\ Central Commission for Discipline Inspection and Ministry of 
Supervision, ``National Bureau of Statistics Communist Party Secretary 
and Bureau Chief Wang Bao'an Under Investigation for Serious Violations 
of Discipline'' [Guojia tongjiju dangzu shuji, juzhang wang bao'an 
shexian yanzhong weiji jieshou zuzhi diaocha], 26 January 16.
    \50\ Keith Bradsher, ``Inquiry in China Adds to Doubt Over 
Reliability of Its Economic Data,'' New York Times, 26 January 16; 
Central Commission for Discipline Inspection and Ministry of 
Supervision, ``National Bureau of Statistics Communist Party Secretary 
and Bureau Chief Wang Bao'an Under Investigation for Serious Violations 
of Discipline'' [Guojia tongjiju dangzu shuji, juzhang wang bao'an 
shexian yanzhong weiji jieshou zuzhi diaocha], 26 January 16; Saibal 
Dasgupta, ``Probe Targeting China's Statistic Head Sparks Concern,'' 
Voice of America, 11 February 16; Jun Mai, ``China's Statistics Chief 
Wang Baoan Detained in Graft Investigation,'' South China Morning Post, 
26 January 16.
    \51\ Keith Bradsher, ``Inquiry in China Adds to Doubt Over 
Reliability of Its Economic Data,'' New York Times, 26 January 16; Bo 
Zhiyue, ``China's National Bureau of Statistics Chief Falls Under 
Corruption Probe,'' The Diplomat, 27 January 16; Ye Xie and Phil Kuntz, 
``China's GDP Data Shows a Very Predictable Pattern,'' Bloomberg, 12 
April 16.
    \52\ Alexa Olesen, ``Leaked Files Offer Many Clues to Offshore 
Dealings by Top Chinese,'' International Consortium of Investigative 
Journalists, 6 April 16; ``The Panama Papers Embarrass China's 
Leaders,'' Economist, 7 April 16.
    \53\ Ibid. The Panama Papers reportedly provided ``clear evidence 
of covert financial dealings by leaders' families.''
    \54\ China Digital Times, ``Minitrue: Panama Papers and Foreign 
Media Attacks,'' 16 April 16; Michael Forsythe and Austin Ramzy, 
``China Censors Mentions of `Panama Papers' Leaks,'' New York Times, 
Sinosphere (blog), 5 April 16; Tom Phillips, ``China Steps Up Panama 
Papers Censorship After Leaders' Relatives Named,'' Guardian, 7 April 
16.
    \55\ Zheping Huang, ``The Disappeared: China's Top Bankers Who 
`Disappeared,' Were Detained, or Died Unnaturally This Year,'' Quartz, 
11 December 15; Karishma Vaswani, ``The Mystery Behind China's Missing 
Bosses,'' BBC, 11 December 15; Zhou Xin, ``Dead, Detained, or Missing: 
China's Businessmen Are Disappearing,'' South China Morning Post, 13 
December 15.
    \56\ Patti Waldmeir, ``Another Chinese Billionaire Goes Missing,'' 
Financial Times, 7 January 16; L. Gordon Crovitz, ``China Disappears 
Information,'' Wall Street Journal, 10 January 16; Michael Posner, 
``China's Disappearing Billionaires--An Alarming Trend,'' CNBC, 1 
February 16.
    \57\ ``China's Opaque Investigations Into Corporate Corruption Only 
Dent Investor Confidence,'' South China Morning Post, 16 December 15; 
Sophia Yan, ``Shares Plunge After `China's Warren Buffett' Caught in 
Probe,'' CNN, 14 December 15. CNN reported that the share price of 
Fosun International and Fosun Pharmaceutical declined after Guo 
Guangchang's detention. ``China Disappearances Highlight Ruling Party 
Detention System,'' Bloomberg, 11 December 15; Kelvin Chan, ``Vanishing 
China Execs a Vexatious Mystery for HK Market,'' Associated Press, 
reprinted in Yahoo!, 25 November 15. The share price of Guotai Junan 
International Holdings reportedly declined after the detention of Yim 
Fung.
    \58\ Chris Buckley, ``China Formally Arrests U.S. Citizen Accused 
of Spying,'' New York Times, 22 September 15. See also UN Human Rights 
Council, Working Group on Arbitrary Detention, Opinions adopted by the 
Working Group on Arbitrary Detention at its Seventy-Fifth Session (18-
27 April 2016), Opinion No. 12/2016 Concerning Phan (Sandy) Phan-Gillis 
(People's Republic of), A/HRC/WGAD/2016, Advance Unedited Version, 3 
June 16, para. 5.
    \59\ Chris Buckley, ``China Formally Arrests U.S. Citizen Accused 
of Spying,'' New York Times, 22 September 15.
    \60\ Lomi Kriel, ``One Year Later, China Still Won't Release 
Houston Businesswoman,'' Houston Chronicle, 20 March 16. For a 
description of ``residential surveillance at a designated location,'' 
see The Rights Practice, ``Prevention of Torture: Concerns With the Use 
of `Residential Confinement in a Designated Residence,' '' October 
2015, 2.
    \61\ UN Human Rights Council, Working Group on Arbitrary Detention, 
Opinions adopted by the Working Group on Arbitrary Detention at its 
Seventy-Fifth Session (18-27 April 2016), Opinion No. 12/2016 
Concerning Phan (Sandy) Phan-Gillis (People's Republic of), A/HRC/WGAD/
2016, Advance Unedited Version, 3 June 16, para. 7. See also Chris 
Buckley, ``China Formally Arrests U.S. Citizen Accused of Spying,'' New 
York Times, 22 September 15.
    \62\ Lomi Kriel, ``One Year Later, China Still Won't Release 
Houston Businesswoman,'' Houston Chronicle, 20 March 16.
    \63\ Letter From Julia Frifield, Assistant Secretary, Legislative 
Affairs, U.S. Department of State, to Christopher Smith, Member, U.S. 
House of Representatives, 2 December 15.
    \64\ Consular Convention Between the United States of America and 
the People's Republic of China, signed 17 September 80, art. 35(4). See 
also Political Prisoners in China: Trends and Implications for U.S. 
Policy, Hearing of the Congressional-Executive Commission on China, 3 
August 10, Written Statement Submitted by Jerome A. Cohen, Professor of 
Law and Co-Director, US-Asia Law Institute, New York University. U.S. 
consular officials were previously restricted in communicating with an 
American geologist, Xue Feng, whom Chinese authorities detained and 
later sentenced in China for work done on behalf of a U.S. company.
    \65\ Letter From Julia Frifield, Assistant Secretary, Legislative 
Affairs, U.S. Department of State, to Christopher Smith, Member, U.S. 
House of Representatives, 2 December 15.
    \66\ UN Human Rights Council, Working Group on Arbitrary Detention, 
Opinions adopted by the Working Group on Arbitrary Detention at its 
Seventy-Fifth Session (18-27 April 2016), Opinion No. 12/2016 
Concerning Phan (Sandy) Phan-Gillis (People's Republic of), A/HRC/WGAD/
2016, Advance Unedited Version, 3 June 16, paras. 18, 19. See also 
Edward Wong, ``China Violated Rights of Detained American, U.N. Panel 
Says,'' New York Times, Sinosphere (blog), 7 July 16.
    \67\ UN Human Rights Council, Working Group on Arbitrary Detention, 
Opinions adopted by the Working Group on Arbitrary Detention at its 
Seventy-Fifth Session (18-27 April 2016), Opinion No. 12/2016 
Concerning Phan (Sandy) Phan-Gillis (People's Republic of), A/HRC/WGAD/
2016, Advance Unedited Version, 3 June 16, para. 23. See also Edward 
Wong, ``China Violated Rights of Detained American, U.N. Panel Says,'' 
New York Times, Sinosphere (blog), 7 July 16.
    \68\ Michael Hagerty, ``The Fate of Sandy Phan-Gillis, Houstonian 
Detained in China,'' Houston Matters, 19 July 16, 1:52; Jeff Stein, 
``China To Charge American Businesswoman Sandy Phan-Gillis With 
Spying,'' Newsweek, 14 July 16. See also Jeff Stein, ``Mark Swidan, 
American Jailed on `Flimsy' Charges in China, Holds Little Hope,'' 
Newsweek, 19 August 16. According to Newsweek, Mark Swidan is an 
American citizen who was tried on drug charges, but, as of August 2016, 
three years had reportedly passed since the trial without a verdict 
being issued.
    \69\ World Trade Organization, Report of the Working Party on the 
Accession of China, WT/ACC/CHN/49, 01 October 01, 46.
    \70\ State Council General Office, Guiding Opinion on Deepening the 
Reform of State-Owned Enterprises [Zhongguo zhongyang, guowuyuan guanyu 
shenhua guoyou qiye gaige de zhidao yijian], 13 September 15.
    \71\ Wendy Leutert, ``Challenges Ahead in China's Reform of State-
Owned Enterprises,'' National Bureau of Asian Research, Asia Policy, 
No. 21, January 2016, 85; State Council General Office, Guiding Opinion 
on Deepening the Reform of State-Owned Enterprises [Zhongguo zhongyang, 
guowuyuan guanyu shenhua guoyou qiye gaige de zhidao yijian], 13 
September 15, 4-5.
    \72\ ``Mixed Ownership Will Boost SOE Vitality: Experts,'' Global 
Times, 20 September 15.
    \73\ US-China Business Council, ``USCBC China Economic Reform 
Scorecard--Progress Remains Limited, Pace Remains Slow,'' February 
2016, 47. See also Donald Clarke, ``Central Committee and State Council 
Issue Document on State-Enterprise Reform,'' Chinese Law Prof Blog, 21 
September 15.
    \74\ Scott Cendrowski, ``China's Global 500 Companies Are Bigger 
Than Ever--And Mostly State Owned,'' Fortune, 22 July 15.
    \75\ World Trade Organization, Trade Policy Review Body, Trade 
Policy Review, China Report by the Secretariat, WT/TPR/S/342, 15 June 
16, 97.
    \76\ Ibid., 96.
    \77\ ``Corporate Articles Strengthen CPC Role in SOE Decision-
Making,'' Global Times, 2 July 16; Xu Hongwen, ``Listed Companies Amend 
Articles of Association To Add Party Building Clause: Party Committees 
To Participate in Major Corporate Decisionmaking'' [Shangshi guoqi 
zhangcheng fenfen zengshe dangjian tiaokuan: dangwei jiang canyu qiye 
zhongda wenti juece], The Paper, 1 July 16; ``Xi Boosts Party in 
China's $18 Trillion State Company Sector,'' Bloomberg, 7 July 16; 
Shirley Yam, ``Regulators' Silence on Communist Party Presence in 
Listed State Companies Is Deafening,'' South China Morning Post, 22 
July 16. See also ``Chinese Communist Party Central Committee General 
Office Issues Requirements on Upholding Party Leadership During the 
Deepening of Reform of State-Owned Enterprises'' [Zhongban fawen yaoqiu 
shenhua guoyou qiye gaige jianchi dang de lingdao], Xinhua, 20 
September 15.
    \78\ ``Xinhua Insight: Red Stars at Foreign Companies,'' Xinhua, 1 
July 16. Xinhua noted that ``CPC branches at foreign companies are not 
common, although the Party constitution stipulates that organizations 
of more than three [Party] members should have one. However, their 
numbers are growing.''
    \79\ Curtis J. Milhaupt and Wentong Zheng, ``Paulson Policy 
Memorandum: Why Mixed-Ownership Reforms Cannot Fix China's State 
Sector,'' Paulson Institute, 14 January 16.
    \80\ ``Big State-Owned Enterprises Pillar of Economy in China,'' 
Xinhua, 23 August 15.
    \81\ European Union Chamber of Commerce in China, ``Overcapacity in 
China: An Impediment to the Party's Reform Agenda,'' 22 February 16.
    \82\ U.S. International Trade Commission, Antidumping and 
Countervailing Duty Orders in Place as of August 15, 2016, 15 August 
16.
    \83\ U.S. International Trade Commission, Antidumping and 
Countervailing Duty Orders in Place as of September 1, 2016, 1 
September 15.
    \84\ Ellen Nakashima, ``U.S. Developing Sanctions Against China 
Over Cyber Thefts,'' Washington Post, 30 August 15.
    \85\ Ellen Nakashima and William Wan, ``U.S. Announces First 
Charges Against Foreign Country in Connection With Cyberspying,'' 
Washington Post, 19 May 14. See also U.S. House of Representatives, 
Chinese Communist Economic Espionage Sanctions Act, 113th Congress, 2nd 
Session, H.R. 5103, introduced 14 July 14.
    \86\ Office of the Press Secretary, The White House, ``Fact Sheet: 
President Xi Jinping's State Visit to the United States,'' 30 September 
15.
    \87\ Adam Segal, ``The Top Five Cyber Policy Developments of 2015: 
United States-China Cyber Agreement,'' Council on Foreign Relations, 
Net Politics (blog), 4 January 16.
    \88\ Paul Mozur, ``Cybersecurity Firm Says Chinese Hackers Keep 
Attacking U.S. Companies,'' New York Times, 19 October 15.
    \89\ Office of Public Affairs, U.S. Department of Justice, ``First 
U.S.-China High-Level Joint Dialogue on Cybercrime and Related Issues 
Summary of Outcomes,'' 2 December 15.
    \90\ United States Steel Corporation, Complainant, In the Matter of 
Certain Carbon and Alloy Steel Products: Complaint Under Section 337 of 
the Tariff Act of 1930, As Amended, U.S. International Trade 
Commission, reprinted in Crowell and Moring, 26 April 16, 31-33, paras. 
115-120. See also Sonja Elmquist, ``U.S. Steel Seeking China Import Ban 
After Alleged Hacking,'' Bloomberg, 26 April 16.
    \91\ Office of the U.S. Trade Representative, ``2016 Special 301 
Report,'' April 2016, 29.
    \92\ U.S. Chamber of Commerce, ``Infinite Possibilities,'' Fourth 
Edition, February 2016, 46.
    \93\ Office of the U.S. Trade Representative, ``2016 Special 301 
Report,'' April 2016, 29.
    \94\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 13 March 16, 11.
    \95\ Ibid., 14, 19; Mark Cohen, ``The `Supremes' Talk About Rule of 
Law and IP,'' China IPR (blog), 17 March 16.
    \96\ State Council Legislative Affairs Office, PRC Patent Law 
Amended Draft (Draft for Review) [Zhonghua renmin gongheguo zhuanli fa 
xiuding cao'an (songshen gao)], issued 2 December 15.
    \97\ Ibid., arts. 42, 68. See also Michael Lin, ``China Releases 
New Proposed Amendments to Patent Laws,'' IP Watchdog (blog), 18 
December 15.
    \98\ US-China Business Council, ``2015 USCBC Member Survey 
Report,''10 September 15, 29. See also Mark Cohen, ``Slouching Towards 
Innovation--A Survey of the Surveys on China's IP Environment,'' China 
IPR (blog), 25 January 16.
    \99\ State Administration for Industry and Commerce, Provisions on 
the Prohibition of Conduct Eliminating or Restricting Competition by 
Abusing Intellectual Property Rights [Guanyu jinzhi lanyong zhishi 
chanquan paichu, xianzhi jingzheng xingwei de guiding], issued 7 April 
15, effective 1 August 15. See also ``China Antitrust Review 2015,'' 
Davis Polk & Wardwell LLP, 19 January 16, 4-5.
    \100\ Ambassador Robert W. Holleyman II, Deputy U.S. Trade 
Representative, ``Remarks by Deputy USTR Robert Holleyman to the U.S. 
Chamber of Commerce Global Intellectual Property Center 2015 Global IP 
Summit,'' 6 November 15.
    \101\ State Administration for Industry and Commerce, ``Guide on 
Anti-Trust Enforcement Against Intellectual Property Abuse (State 
Administration for Industry and Commerce Seventh Draft) [Guanyu lanyong 
zhishi chanquan de fan longduan zhifa zhinan (guojia gongshang zongju 
di qi gao)], 4 February 16.
    \102\ Ibid., arts. 22, 24; U.S. Chamber of Commerce and the 
American Chamber of Commerce in China, ``U.S. Chamber of Commerce and 
the American Chamber of Commerce in China Joint Comments to the State 
Administration of Industry and Commerce on the Guideline on 
Intellectual Property Abuse (Draft for Comments 7th Version),'' 
February 2016, 1, 7-8, 10-11. Mark Cohen, ``IPR Abuse and Refusals To 
License,'' China IPR (blog), 13 March 16.
    \103\ State Council Legislative Affairs Office, PRC Anti-Unfair 
Competition Law (Amended Draft for Review) [Zhonghua renmin gongheguo 
fan bu zhengdang jingzheng fa (xiuding cao'an songshen gao)], issued 25 
February 16, art. 22; PRC Anti-Unfair Competition Law [Zhonghua renmin 
gongheguo fan bu zhengdang jingzheng fa], passed 2 September 93, 
effective 1 December 93, art. 25. See also ``China Proposes a Revamp to 
Its Anti-Unfair Competition Law,'' Hogan Lovells, 14 March 16.
    \104\ International Monetary Fund, ``IMF's Executive Board 
Completes Review of SDR Basket, Includes Chinese Renminbi,'' Press 
Release No. 15/540, 30 November 15; Keith Bradsher, ``China's Renminbi 
Is Approved by IMF as a Main World Currency,'' New York Times, 30 
November 15.
    \105\ International Monetary Fund, ``Q and A on 2015 SDR Review,'' 
30 November 15. See also ``China Knocks on the Reserve-Currency Door,'' 
Economist, Free Exchange (blog), 5 August 15; Ian Talley, ``Is the IMF 
Cutting Corners for China? '' Wall Street Journal, 29 March 16.
    \106\ Keith Bradsher, ``China's Renminbi Is Approved by I.M.F. as a 
Main World Currency,'' New York Times, 30 November 15.
    \107\ Lingling Wei and Anjani Trivedi, ``Why China Shifted Its 
Strategy for the Yuan, and How It Backfired,'' Wall Street Journal, 7 
January 16.
    \108\ Lingling Wei, ``IMF Pressing China To Disclose More Data on 
Currency Operations,'' Wall Street Journal, 21 March 16.
    \109\ ``IMF Denies Pressing China for More Currency Data,'' Xinhua, 
reprinted in China Daily, 22 March 16.
    \110\ National Committee on U.S.-China Relations and Rhodium Group, 
``New Neighbors 2016 Update--Chinese Investment in the United States by 
Congressional District,'' April 2016, Executive Summary, 1. See also 
William Mauldin, ``China Investment in U.S. Economy Set for Record, but 
Political Concerns Grow,'' Wall Street Journal, 12 April 16.
    \111\ Stephen Gandel, ``The Biggest American Companies Now Owned by 
the Chinese,'' Fortune, 18 March 16. See also Matt Krantz, ``The 11 Top 
U.S. Companies Targeted by China,'' USA Today, 18 March 16.
    \112\ Craig Karmin and Dana Mattioli, ``China's Anbang Drops Bid 
for Starwood Hotels,'' Wall Street Journal, 31 March 16.
    \113\ Bob Tita and Kane Wu, ``China's Zoomlion Abandons Pursuit of 
Crane Maker Terex,'' Wall Street Journal, 27 May 16.
    \114\ ``Full Text of Chinese President Xi Jinping's Address at AIIB 
Inauguration Ceremony,'' Xinhua, 16 January 16.
    \115\ ``China Outlook 2016,'' KPMG, Global China Practice, 2 March 
16, 27; Daniel C.K. Chow, ``Why China Established the Asia 
Infrastructure Investment Bank,'' The Ohio State University College of 
Law, Public Law and Legal Theory Working Paper Series, No. 333, 25 
February 16, 27.
    \116\ Wang Liwei, ``Closer Look: How AIIB, BRICS Bank Are Facing Up 
to Early Challenges,'' Caixin, 24 September 15.
    \117\ PRC Food Safety Law [Zhonghua renmin gongheguo shipin anquan 
fa], passed 28 February 09, amended 24 April 15, effective 1 October 
15; ``China's Legislature Passes Toughest Food Safety Law Amendment,'' 
Xinhua, 24 April 15.
    \118\ China Food and Drug Administration, Ministry of Public 
Security, Supreme People's Court, Supreme People's Procuratorate, and 
State Council Food Safety Office, Measures on Joint Administrative and 
Criminal Food Safety Enforcement Work [Shipin yaopin xingzheng zhifa yu 
xingshi sifa xianjie gongzuo banfa], issued and effective 22 December 
15.
    \119\ Fanfan Wang and Laurie Burkitt, ``China's Vaccine Scandal 
Reveals System's Flaws,'' Wall Street Journal, 25 March 16.
    \120\ ``China Punishes 357 Officials Over Vaccine Scandal,'' 
Xinhua, reprinted in China Daily, 13 April 16; ``Chinese Parents Sue 
Amid Protests Over Tainted Vaccines,'' Radio Free Asia, 19 April 16.
    \121\ Charlie Campbell, ``China Has Begun Cracking Down on Parents 
Protesting Substandard Vaccines,'' Time, 21 April 16.
    \122\ ``Beware the Cult of Xi,'' Economist, 2 April 16.
    \123\ Chris Buckley, ``China's Vaccine Scandal Threatens Public 
Faith in Immunizations,'' New York Times, 18 April l6.
    \124\ ``A Vaccine Scandal in China Causes an Outcry,'' Economist, 1 
April 16.
    \125\ ``Beware the Cult of Xi,'' Economist, 2 April 16.
    \126\ Josh Horwitz, ``Blocked in China,'' Quartz, 7 April 16.
    \127\ John Balzano, ``Lingering Food Safety Regulatory Issues for 
China in 2016,'' Forbes, 10 January 16.
    \128\ People's Court of Jiading District, Shanghai [Municipality] 
(Shanghai jiading fayuan), OSI Sentence in First Instance Trial of 
Producing and Selling False Products Case [Fuxi gongsi shengchan, 
xiaoshou weilie chanpin an yishen xuanpan], Weibo post, 1 February 16, 
3:41 p.m.
    \129\ ``Statement from the Chairman, Chief Executive Officer, and 
Owner of the OSI Group--Sheldon Lavin,'' OSI Group, 23 July 14.
    \130\ ``February 1, 2016,'' OSI Group, 1 February 16; ``OSI China 
Statement in Response to the Shanghai Municipal Food and Drug 
Administration's (Shanghai FDA) January 4 Disposal of Shanghai Husi 
Food Products,'' OSI Group, 5 January 15; Laurie Burkitt, ``U.S. Food 
Firm OSI Challenges Chinese Verdict in Meat Scandal,'' Wall Street 
Journal, 1 February 16.
    \131\ ``February 1, 2016,'' OSI Group, 1 February 16.
    \132\ Laurie Burkitt, ``U.S. Food Firm OSI Challenges Chinese 
Verdict in Meat Scandal,'' Wall Street Journal, 1 February 16.
    \133\ ``Food Safety: Not Yum!'' Economist, Analects China (blog), 
23 July 14; ``Shanghai Husi Rotten-Meat Scandal Blows the Lid on a Huge 
Problem for China's Food Processing Industry,'' Reuters, reprinted in 
South China Morning Post, 31 July 14.
    \134\ Food Safety and Inspection Service, U.S. Department of 
Agriculture, ``Final Report of an Audit Conducted in the People's 
Republic of China, May 8 to May 28, 2015--Evaluating the Food Safety 
Systems Governing Slaughtered Poultry for Export to the United States 
of America,'' 17 February 16.
    \135\ Letter From Wenonah Hauter, Executive Director, Food & Water 
Watch, to Tom Vilsack, Secretary, U.S. Department of Agriculture, 28 
January 16; Nancy Fink Huehnergarth, ``Chicken Raised in China Moves 
One Step Closer to Your Dinner Plate,'' Forbes, 7 March 16; Food & 
Water Watch, ``Food & Water Watch Denounces Move To Push Ahead With 
Food Imports From China,'' reprinted in CommonDreams.org, 4 March 16.
    \136\ Food & Water Watch, ``Food & Water Watch Denounces Move To 
Push Ahead With Food Imports From China,'' reprinted in 
CommonDreams.org, 4 March 16.

                                                     Access to 
                                                        Justice
                                                Access to 
                                                Justice

                           Access to Justice


                              Introduction

    While many Chinese citizens persist in seeking redress for 
violations of their rights,\1\ the Commission continued to 
observe a significant discrepancy between official statements 
that affirm the importance of laws \2\ or that promote recent 
legal developments \3\ and the actual ability of citizens to 
access justice.\4\ Developments during this reporting year also 
continued to demonstrate that individuals and groups who 
attempt to help citizens advocate for their rights do so at 
significant personal risk.

                        Judicial Reform Efforts

    During the 2016 reporting year, the Commission observed 
both progress and continued challenges as Chinese courts and 
local governments implemented certain key areas of the judicial 
reforms outlined in the Chinese Communist Party Central 
Committee Fourth Plenum Decision on Several Major Issues in 
Comprehensively Advancing Governance of the Country According 
to Law (Fourth Plenum Decision) from October 2014.\5\ Key 
developments included the following:

        <bullet> Judicial independence. Despite purported 
        efforts to promote judicial independence from local 
        officials acting to protect their interests, the 
        Chinese government and Party continued to exert 
        influence over the judiciary.\6\ In March 2015, the 
        State Council and Party Central Committee issued a set 
        of provisions prohibiting government and Party 
        officials from interfering with the judicial 
        process,\7\ and in September 2015, the Supreme People's 
        Court (SPC) issued an opinion directing judges to 
        record instances of such interference.\8\ In early 
        2015, the SPC, partly as a measure to counter 
        interference by local officials,\9\ established the 
        first and second circuit tribunals (xunhui fating) \10\ 
        that employ a system to randomly assign cases to 
        judges.\11\ Nevertheless, the SPC opinion requires 
        courts to follow the Party's leadership,\12\ and 
        government and Party officials reportedly continued to 
        instruct courts not to accept politically sensitive 
        cases.\13\ Sources reported that many judges resigned 
        from their posts in recent years, citing interference 
        with their work and heavy case loads.\14\
        <bullet> Judicial accountability. The September 2015 
        SPC opinion imposes lifetime accountability on judicial 
        officers, requiring them to sign and issue judgments in 
        cases that they handle.\15\ The opinion prohibits 
        various types of misconduct, including bribery, 
        evidence tampering, and errors in litigation documents 
        due to gross negligence.\16\ In April 2016, a court in 
        Haikou municipality, Hainan province, ordered a judge 
        to issue an amended civil judgment and apologize to the 
        parties after confirming that a civil judgment for 
        which he was responsible contained mistakes.\17\
        <bullet> Uniform application of the law. In November 
        2015, the SPC issued its 11th set of guiding cases, 
        bringing the total number of such cases to 56.\18\ The 
        SPC initiated the guiding case system in 2010 to 
        promote uniformity in the application of the law,\19\ a 
        goal that the Party Central Committee reiterated in the 
        Fourth Plenum Decision in October 2014.\20\ A leading 
        Chinese legal information website reported that as of 
        November 2015, courts had cited guiding cases 241 times 
        in total, noting their apparent low rate of application 
        by lower courts.\21\
        <bullet> Case filing. Although reports indicated that 
        more citizens had their cases accepted by courts this 
        past year, some courts continued to deny rights 
        advocates access to the court system. Based on the 
        Fourth Plenum Decision,\22\ the SPC issued a set of 
        provisions in April 2015 that requires courts to accept 
        all cases meeting certain procedural requirements,\23\ 
        instead of first subjecting them to substantive 
        review.\24\ The PRC Anti-Domestic Violence Law, which 
        took effect in March 2016, also requires courts to file 
        every case involving a protection order 
        application.\25\ The number of cases filed nationwide 
        reportedly increased by approximately 30 percent 
        between May and December 2015 compared to the same 
        period in 2014.\26\ While some reports from this past 
        year indicated that courts may be responding to the new 
        filing requirements by accepting some cases that they 
        may not have previously,\27\ other reports showed that 
        courts continued the practice of refusing to file or 
        failing to file cases considered ``politically 
        sensitive.'' \28\
        <bullet> Trial-centered litigation system. As specified 
        in the Fourth Plenum Decision, the Party Central 
        Committee promoted a shift toward a trial-centered 
        litigation system that includes improving the practice 
        of having witnesses and experts testify at trial; \29\ 
        the Commission, however, did not observe the Chinese 
        judiciary taking substantive steps toward this goal 
        this past year. Some scholars observed that under 
        existing trial practice, witnesses almost never appear 
        in court to testify, making cross-examination difficult 
        and raising concerns about the court's ability to 
        assess the facts.\30\ In the Supreme People's 
        Procuratorate (SPP) March 2016 work report, Procurator-
        General Cao Jianming reiterated the general direction 
        of the reform but did not detail any concrete steps 
        that the SPP had taken or planned to take to implement 
        the reform.\31\ A Chinese legal expert commented in 
        March that the rate of witnesses appearing in court 
        remained too low and that he had not observed any 
        instance of a court compelling a witness to appear in 
        court.\32\ A Chinese law professor, moreover, noted 
        that plans for reform of the litigation process 
        neglected the role of defense lawyers \33\ and 
        expressed concern that effective implementation could 
        be hampered by the low rate of legal representation in 
        criminal cases, which reportedly dropped from 30 
        percent to approximately 20 percent in the past two 
        years for cases heard by courts of the first 
        instance.\34\
        <bullet> Judicial transparency. During the reporting 
        year, the Chinese judiciary made an effort to improve 
        the availability of case judgments. In February 2016, 
        the SPC announced that the court system had published 
        more than 15 million judgments online,\35\ consistent 
        with the goal of increased judicial transparency set 
        forth in the Fourth Plenum Decision.\36\ One Chinese 
        legal scholar noted that such disclosure would force 
        judges to exercise more care in decisionmaking, and a 
        Chinese prosecutor reportedly used the database to 
        develop a method of detecting judicial corruption.\37\ 
        In addition to the nationwide database of judgments, 
        the SPC \38\ and local courts \39\ have created online 
        platforms through which parties may obtain litigation-
        related information or services.\40\ In a March 2016 
        report, researchers noted that many of these platforms 
        were outside the courts' official websites, making it 
        difficult to determine their authenticity and to obtain 
        information.\41\

                               Legal Aid

    This past year, official sources showed an overall increase 
of funding and access to the legal aid system since 2010, and 
media reports illustrated progress and challenges in efforts 
toward further expansion.\42\ According to Ministry of Justice 
statistics, the total national spending on legal aid services 
between 2010 and 2015 was 7.04 billion yuan (US$1.06 billion) 
\43\--an average annual increase of 15.2 percent--of which 
about 96.6 percent was from government appropriation.\44\ 
During the same period, a total of 5.58 million individuals 
received legal aid and 29 million received legal consultation, 
an average annual increase in legal consultation of 8.7 
percent.\45\ Some local governments reportedly tried to improve 
legal aid services by increasing access for the rural 
population,\46\ collaborating with law firms,\47\ extending 
services to prison inmates and detainees at drug detoxification 
centers,\48\ lowering financial hardship eligibility 
standards,\49\ and waiving eligibility review for applicants 
already determined to be from a disadvantaged group.\50\ Some 
local governments also planned to extend legal aid coverage to 
individuals seeking redress from the government if their cases 
could be resolved using the legal system.\51\ Nevertheless, 
legal aid funding and staffing reportedly were insufficient in 
some localities, including rural areas.\52\

                          Citizen Petitioning

    The petitioning system (xinfang), also known as the 
``letters and visits system,'' has been a popular mechanism 
outside of the formal judicial and administrative systems for 
citizens to present their grievances to authorities, either in 
writing or in person.\53\ The petitioning system reportedly has 
been ineffective in addressing citizens' grievances partly due 
to the large number of petitions and the limited authority of 
local xinfang offices.\54\ In an effort to improve the system, 
the Chinese government in early 2015 implemented a pilot 
program requiring 37 state agencies to list petition subject 
matter under their respective jurisdictions and limit the use 
of the petitioning system to handle issues that cannot be 
resolved through judicial and administrative systems.\55\ In 
another effort to relieve the burden on the petitioning system, 
the Supreme People's Court (SPC) established the first and 
second circuit tribunals in January 2015 in part to resolve 
local disputes,\56\ and the tribunals reportedly received more 
than 40,000 petitions in their first year.\57\ In January 2016, 
the State Bureau of Letters and Visits, the central-level 
government agency responsible for overseeing the petitioning 
system, reported a decrease in both the number of new petitions 
and backlogged cases.\58\ The Party Central Political and Legal 
Affairs Commission and the SPC further planned to work with 
lawyers to help divert some cases away from the petitioning 
system.\59\ Citizens expressed concerns about the shift of 
cases into judicial and administrative systems, however, citing 
the likelihood of high litigation costs and lengthened 
processes for time-sensitive cases.\60\
    During this reporting year, petitioners continued to face 
reprisals. A rights lawyer noted an increase in local 
government prosecutions of petitioners under extortion charges 
in the past year.\61\ In June 2015, government authorities in 
Heilongjiang province lodged extortion charges against Ge 
Limei, a petitioner who had sought information about her 
husband's suspected unnatural death in prison, even though the 
local officials involved reportedly made payments to Ge between 
2013 and 2014 of their own accord.\62\ Authorities in other 
localities across China reportedly also have detained 
petitioners or accused them of extortion \63\ and other 
charges.\64\

            Harassment of Human Rights Lawyers and Advocates


             DEVELOPMENTS FOLLOWING THE JULY 2015 CRACKDOWN

    This past year, the Chinese government continued to detain 
and, in some cases, prosecute rights lawyers and advocates whom 
it targeted during a nationwide, coordinated crackdown that 
began in and around July 2015 (July 2015 crackdown).\65\ As of 
May 2016, authorities had formally arrested at least 20 
individuals,\66\ 16 of them on ``endangering state security''-
related charges,\67\ which carry serious criminal penalties, 
including life imprisonment.\68\ Many of the detained lawyers 
previously had provided legal representation for individuals 
targeted by the Chinese government for peacefully exercising 
their rights and freedoms.\69\ A multinational group of 20 
lawyers, judges, and jurists issued a public joint letter in 
January 2016 addressed to Chinese President and Party General 
Secretary Xi Jinping, criticizing the unprecedented crackdown 
as a violation of China's domestic laws and of international 
standards.\70\ In February 2016, the UN High Commissioner for 
Human Rights urged the Chinese government to unconditionally 
release the rights lawyers.\71\
    Between July 2015 and January 2016, authorities held 21 
rights lawyers and advocates under ``residential surveillance 
at a designated location,'' \72\ a coercive measure that allows 
for detention at an undisclosed location for up to six 
months.\73\ The UN Committee against Torture concluded in 
December 2015 that this coercive measure ``may amount to 
incommunicado detention in secret places, putting detainees at 
a high risk of torture or ill-treatment.'' \74\ Initially, 
authorities reportedly did not admit their involvement in the 
disappearances of some of the individuals.\75\ When authorities 
did give notice confirming the enforcement of ``residential 
surveillance at a designated location,'' they did not disclose 
the detention location.\76\
    In some of the July 2015 crackdown cases, authorities 
interfered with detainees' legal representation by denying 
lawyer-client meeting requests \77\ or telling family-appointed 
lawyers that the detainees had voluntarily dismissed them and 
chosen other representation.\78\ Legal scholars in the United 
States observed that, in many of these cases, authorities did 
not provide reasons for their denial of lawyer-client meetings, 
in violation of Chinese regulations.\79\ Yu Wensheng, a lawyer 
for detained lawyer Wang Quanzhang, said in April 2016 that the 
authorities had appointed lawyers for all but one of the 
individuals detained in connection with the July 2015 
crackdown.\80\ Authorities generally did not provide formal 
notice to the families regarding the detainees' purported 
dismissal of the lawyers and refused to identify or provide the 
contact information of the alleged new lawyers.\81\
    On July 7, 2016, the Tianjin Municipal Public Security 
Bureau announced the decision to release on bail Zhao Wei,\82\ 
a legal assistant of detained rights lawyer Li Heping.\83\ 
Zhao's husband, however, said he could not confirm Zhao's 
whereabouts, expressing doubt that she was truly free.\84\ On 
July 8, police in Zhengzhou municipality, Henan province, 
reportedly detained Ren Quanniu, a lawyer hired by Zhao's 
family.\85\ Previously, Ren requested that the procuratorate in 
Tianjin investigate an alleged sexual assault against Zhao 
while she was in custody.\86\
    The Paper, a state-funded news outlet, reported that 
authorities had released rights lawyer Wang Yu on bail several 
days before August 1, 2016, when it posted online a recorded 
interview, believed to be coerced,\87\ showing Wang expressing 
remorse for her work.\88\ According to reports published 
shortly after the purported release, individuals close to Wang 
said they had not seen her,\89\ and Wang's mother reportedly 
was not aware of her release.\90\
    From August 2 to August 5, 2016, the Tianjin No. 2 
Intermediate People's Court tried four of the detained 
individuals, sentencing Zhai Yanmin to three years' 
imprisonment, suspended for four years; \91\ Hu Shigen to seven 
years and six months' imprisonment; \92\ Zhou Shifeng to seven 
years' imprisonment; \93\ and Gou Hongguo to three years' 
imprisonment, suspended for three years.\94\
    Chinese officials also violated the rights of the children 
\95\ and other family members \96\ of the individuals detained 
in the July 2015 crackdown. In October 2015, a group of 
individuals \97\ reportedly seized Bao Zhuoxuan,\98\ the 16-
year-old son of detained lawyers Wang Yu and Bao Longjun,\99\ 
in Burma (Myanmar) after he fled from China.\100\ Chinese 
authorities also prevented the children of at least four other 
lawyers and advocates from traveling,\101\ arbitrarily detained 
a rights lawyer's brother,\102\ and prosecuted a rights 
advocate's father for a reportedly unsubstantiated 
``embezzlement'' charge.\103\

                    HARASSMENT OF LEGAL AID WORKERS

    This past year, authorities appeared to target non-
governmental organizations (NGOs) and individuals whose legal 
aid work overlapped with rights advocacy. In January 2016, the 
Chinese government detained Swedish national Peter Dahlin, the 
cofounder of a legal advocacy organization based in Beijing 
municipality, and deported him from China.\104\ Also in 
January, Chinese authorities reportedly ordered the closure of 
the Beijing Zhongze Women's Legal Counseling and Service 
Center, an NGO that had provided legal aid services to women 
for more than 20 years.\105\ Authorities did not provide a 
public explanation for the closure, but observers noted that it 
likely was part of a wider government crackdown on civil 
society.\106\ In March, the organizers of a domestic foundation 
that provided travel funding for lawyers engaged in legal aid 
work announced that it would cease operation, citing 
restrictions under the new PRC Charity Law.\107\ In April, 
authorities in the Inner Mongolia Autonomous Region detained 
four lawyers and several scholars who planned to provide legal 
advice to a group of herdsmen regarding their pollution claim 
against aluminum factories operating in an industrial park 
built by the local government.\108\

                                                     Access to 
                                                        Justice
                                                Access to 
                                                Justice
    Notes to Section III--Access to Justice

    \1\ See, e.g., Dong Liu, ``End of the Year Approaching, Method To 
Claim Back Wages'' [Nian guan jiang zhi, zhuitao qian xin you fa men], 
Yangcheng Evening News, 14 January 16; ``Plaintiff Prevailed in the 
First Public Interest Environmental Litigation Under the New PRC 
Environmental Protection Law'' [Zhongguo xin huanbao fa hou de huanjing 
gongyi susong di yi an yuangao shengsu], Voice of America, 30 October 
15; ``Administrative Review Application Filed by Shenzhen Rights 
Defender Wang Long, Whose Household Registration Was Involuntarily 
Transferred, Was Denied'' [Shenzhen weiquan renshi wang long zao qiang 
qian hukou shenqing xingzheng fuyi bei bohui], Radio Free Asia, 22 
March 16.
    \2\ Shi Chang, ``Let Rule of Law Be the Convoy for the Chinese 
Dream'' [Rang fazhi wei zhongguo meng huhang], People's Daily, 11 April 
16; State Council, ``Government Work Report'' [Zhengfu gongzuo baogao], 
5 March 16; ``Supreme People's Court Work Report'' [Zuigao renmin 
fayuan gongzuo baogao], 13 March 16, 3.
    \3\ ``National People's Congress Standing Committee Work Report'' 
[Quanguo renmin daibiao dahui changwu weiyuanhui gongzuo baogao], 19 
March 16; State Council, ``Government Work Report'' [Zhengfu gongzuo 
baogao], 5 March 16.
    \4\ See, e.g., ``[Those Who] Traveled to Beijing for Petitioning 
and Rights Defense Were Beaten and Sustained Serious Injuries, Rights 
Defenders' Family Members Illegally Detained and Retaliated Against'' 
[Shang jing xinfang weiquan bei ouda zhongshang, feifa juliu ji daji 
baofu weiquan jiashu], People's Daily Forum, 28 June 16; ``200 Herders 
From Inner Mongolia Petitioned Higher Authorities, 6 of Them Were 
Detained on Their Way Back, Special Police From Heshigten Banner Fired 
Shots To Warn Herders'' [Neimeng 200 mumin shangfang 6 ren hui cheng 
tuzhong bei ju keshiteng qi tejing kaiqiang jinggao mumin], Radio Free 
Asia, 22 April 16; Rights Defense Network, ``Over Ten Petitioning 
Veterans From Hunan Were Detained in a Black Jail in Beijing'' [Hunan 
shi yu ming shangfang tuiwu junren bei guan zai beijing hei jianyu], 5 
March 16.
    \5\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], 28 October 14; ``Xi Stresses 
Boosting Public Confidence in Judicial System,'' Xinhua, 25 March 15; 
Luo Shuzhen, ``Have Strength To Reform and Innovate, Continue To 
Improve Judicial Credibility, Allow the People in Each Judicial Case To 
Have the Feeling of Fair Justice'' [Yongyu gaige chuangxin buduan tigao 
sifa gongxinli rang renmin qunzhong zai mei yi ge sifa anjian zhong dou 
ganshou dao gongping zhengyi], China Court Net, 8 May 15; State Council 
Information Office, ``Progress in China's Human Rights in 2014,'' 
reprinted in Xinhua, 8 June 15. For more information on the Fourth 
Plenum Decision, see CECC, 2015 Annual Report, 8 October 15, 267-69.
    \6\ Anthony H.F. Li, ``Centralisation of Power in the Pursuit of 
Law-Based Governance,'' China Perspectives, No. 2 (2016), 68.
    \7\ Chinese Communist Party Central Committee General Office and 
State Council General Office, Provisions for the Recording, 
Circulating, and Holding Leaders Accountable for Interference in 
Judicial Actions and Meddling in Cases [Lingdao ganbu ganyu sifa 
huodong, chashou juti anjian chuli de jilu, tongbao he zeren zhuijiu 
guiding], 30 March 15, art. 2. For the outline set forth in the Fourth 
Plenum Decision, see Chinese Communist Party Central Committee, 
Decision on Several Major Issues in Comprehensively Advancing 
Governance of the Country According to Law [Zhonggong zhongyang guanyu 
quanmian tuijin yifa zhiguo ruogan zhongda wenti de jueding], 28 
October 14, item 4.1.
    \8\ Supreme People's Court, Certain Opinions on Improving Judicial 
Accountability of the People's Courts [Zuigao renmin fayuan guanyu 
wanshan renmin fayuan sifa zerenzhi de ruogan yijian], 21 September 15, 
art. 39.
    \9\ Ren Zhongyuan, ``First Circuit Tribunal: `Court Is Where Reason 
Should Be Valued Most' '' [Di yi xunhui fating: fayuan yinggai shi zui 
jiangli de difang], Southern Daily, 3 February 16.
    \10\ Supreme People's Court, Provisions Concerning Certain Issues 
Relating to Circuit Tribunals' Case Adjudication [Zuigao renmin fayuan 
guanyu xunhui fating shenli anjian ruogan wenti de guiding], issued 5 
January 15, effective 1 February 15, art. 3; Li Jing, ``Chief Judge of 
the SPC's First Circuit Tribunal: There Have Not Been Any Cases [of 
Interference] by Leaders in the First Circuit'' [Zuigaofa di yi xunhui 
fating tingzhang: yixun wei chuxian lingdao dui anjian jinxing pizhuan 
de qingxing], People's Daily, 1 February 16.
    \11\ Li Jing, ``Chief Judge of the SPC's First Circuit Tribunal: 
There Have Not Been Any Cases [of Interference] by Leaders in the First 
Circuit'' [Zuigaofa di yi xunhui fating tingzhang: yixun wei chuxian 
lingdao dui anjian jinxing pizhuan de qingxing], People's Daily, 1 
February 16. People's Daily reported that the chief judge of the First 
Circuit Tribunal said that there had not been any reports of 
interference by local officials during the first year after the circuit 
court was established. See also PRC Civil Procedure Law [Zhonghua 
renmin gongheguo minshi susong fa], passed 9 April 91, amended 28 
October 07, 31 August 12, art. 39.
    \12\ Supreme People's Court, Certain Opinions on Improving Judicial 
Accountability of People's Courts [Zuigao renmin fayuan guanyu wanshan 
renmin fayuan sifa zerenzhi de ruogan yijian], 21 September 15, art. 
2(1). See also Jerome A. Cohen, ``A Looming Crisis for China's Legal 
System: Talented Judges and Lawyers Are Leaving the Profession, as 
Ideology Continues To Trump the Rule of Law,'' Foreign Policy, 22 
February 16; Polly Botsford, ``China's Judicial Reforms Are No 
Revolution,'' IBA Global Insight, 10 August 16.
    \13\ Jerome A. Cohen, ``A Looming Crisis for China's Legal System: 
Talented Judges and Lawyers Are Leaving the Profession, as Ideology 
Continues To Trump the Rule of Law,'' Foreign Policy, 22 February 16; 
``Lawyers and Citizens Question the SPC's Claim of Judicial Reform 
Success'' [Zhongguo zuigaofa cheng sifa gaige qude chengguo lushi 
gongmin qi zhiyi], Radio Free Asia, 1 March 16.
    \14\ Jerome A. Cohen, ``A Looming Crisis for China's Legal System: 
Talented Judges and Lawyers Are Leaving the Profession, as Ideology 
Continues To Trump the Rule of Law,'' Foreign Policy, 22 February 16; 
Zhou Dongxu, ``Xu Shenjian: The Reason Behind Why Judges' Resigning 
Became a Hot Topic of Discussion'' [Xu shenjian: faguan cizhi wei he 
hui ``bei kan renao''], Caixin, 25 February 16; Stanley Lubman, 
``China's Exodus of Judges,'' Wall Street Journal, China Real Time 
Report (blog), 4 May 15; Ian Johnson, ``China Grants Courts Greater 
Autonomy on Limited Matters,'' New York Times, 3 January 16. See also 
Ji Shi, ``A Hubei Judge Who Would Have Soon Become Court President 
Resigned To Be a Lawyer: I Am Not Suited to Networking at Official 
Events'' [Hubei yi faguan mashang yao dang yuanzhang cizhi zuo lushi: 
wo bu shiying guanchang yingchou], Southern Metropolitan Daily, 19 
November 16. Some judges reportedly resigned for other reasons such as 
low pay and lack of professional satisfaction. Ni Dandan, ``From Bench 
to Bar: Meet China's Ex-Judges,'' Sixth Tone, 5 May 16.
    \15\ Supreme People's Court, Certain Opinions on Improving Judicial 
Accountability of People's Courts [Zuigao renmin fayuan guanyu wanshan 
renmin fayuan sifa zerenzhi de ruogan yijian], 21 September 15, arts. 
15(2), 17, 25.
    \16\ Ibid., art. 26.
    \17\ Fu Yongtao, ``A Judgment Contains 12 Mistakes, Judge in Haikou 
Criticized in an Internal Bulletin'' [Yifen panjueshu 12 chu chacuo 
haikou yi faguan bei tongbao piping], Xinhua, 14 April 16.
    \18\ Supreme People's Court, Circular Regarding the Issuance of the 
11th Set of Guiding Cases [Zuigao renmin fayuan guanyu fabu di 11 pi 
zhidaoxing anli de tongzhi], 19 November 15.
    \19\ Supreme People's Court, Provisions on Guiding Cases [Zuigao 
renmin fayuan guanyu anli zhidao gongzuo de guiding], issued and 
effective 26 November 10, art. 1. See also Supreme People's Court, 
Implementation Details for the ``Provisions on Guiding Cases'' 
[``Zuigao renmin fayuan guanyu anli zhidao gongzuo de guiding'' shishi 
xize], issued 13 May 15.
    \20\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], 28 October 14, item 4(3).
    \21\ Chinalawinfo, ``Annual Report on the Use of Guiding Cases 
Issued by the SPC (2015)'' [Zuigao renmin fayuan zhidao xing anli sifa 
yingyong niandu baogao (2015)], 22 December 15.
    \22\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], 28 October 14, item 4(2).
    \23\ Supreme People's Court, Provisions on Certain Issues Related 
to Case-Filing Registration [Zuigaoyuan guanyu dengji li'an ruogan 
wenti de guiding], issued 13 April 15, effective 1 May 15, arts. 2, 4-
6; Supreme People's Court, Opinion on People's Courts' Implementation 
of the Case-Filing Registration System Reform [Guanyu renmin fayuan 
tuixing li'an dengji zhi gaige de yijian], issued 15 April 15, 
effective 1 May 15, items 2.1-2.5; Supreme People's Court, Judicial 
Reform of Chinese Courts [Zhongguo fayuan de sifa gaige], February 
2016, 30.
    \24\ Ren Rong et al., Beiguan District Court, Anyang Municipality, 
Henan Province, ``How To Develop the Functions and Operations of Case-
Filing Courts'' [Guanyu li'an ting de zhineng jiqi zhineng fahui], 
Minsheng Legal Weekly, 20 December 15; Fan Chunsheng, ``Findings of a 
Court That Pioneered the Case-Filing Review System: Litigation Is No 
Longer Difficult'' [Yi jia li'an dengji zhi gaige xianxing fayuan de 
tansuo: da guansi buzai nan], Xinhua, 26 January 16.
    \25\ PRC Anti-Domestic Violence Law [Zhonghua renmin gongheguo fan 
jiating baoli fa], passed 27 December 15, effective 1 March 16, art. 
23; Fan Li, ``A Woman in Lanzhou Suffered Domestic Violence, Applied 
for Protection Order'' [Zaoyu jiabao lanzhou yi nuzi shenqing renshen 
baohu ling], Gansu Daily, 12 May 16.
    \26\ Supreme People's Court, ``Judicial Reform of Chinese Courts'' 
[Zhongguo fayuan de sifa gaige], February 2016, 30; Li Hongpeng and 
Zhang Enjie, ``With the Number of Judges Decreasing, How Can Case 
Adjudication Be Expedited? '' [Faguan jianshao shen'an ruhe tisu?] 
Legal Evening Report, 8 March 16; Wang Qian, ``China's Case-Filing 
Registration System Solves the Problem of `Filing Difficulty' '' 
[Zhongguo li'an dengji zhi gaige pojie ``li'an nan''], Xinhua, 29 
February 16. Xinhua reported that the number of cases filed increased 
by 29.54 percent from May to December 2015 compared to the same period 
the year before. See also Li Lin and Wang Shujing, ``Good and Bad News 
After Six Months Into `Judicial Reform' in Beijing, Cases Flooded in 
Under the Case-Filing Registration System'' [Beijing ``si gai'' bannian 
youxi youyou li'an dengji zhi hou anjian jingpen], China Youth Daily, 9 
October 15.
    \27\ Zhou Xiaoyan, `` `Feature Story' on China's Illegal 
Residents'' [``Texie'' zhongguo heihu], Jiemian.com, 27 January 16; 
Edward Wong and Vanessa Piao, ``Judge in China Rules Gay Couple Cannot 
Marry,'' New York Times, 13 April 16; ``Filing Was Successful in a Case 
Where Dozens of Parents of Vaccine Victims Sued the National Health and 
Family Planning Commission'' [Shushi yimiao shouhai jiazhang qisu 
weijiwei huo li'an], Radio Free Asia, 19 April 16.
    \28\ See, e.g., China Human Rights Lawyers Concern Group, `` `In 
the Case of the Defense Lawyer Suing the PSB for Depriving Him of His 
Rights To Meet and Communicate With His Client,' Court Decided `[Case] 
Didn't Fall Within Scope of Administrative Litigation and Didn't Grant 
Case-Filing' '' [``Bianhu lushi qisu gong'an boduo huijian quan, 
tongxin quan an'' bei fayuan caiding ``bu shuyu xingzheng susong 
shou'an fanwei, buyu li'an''], 31 March 16; ``Guizhou Police Refused To 
Let Lawyer Meet With Detained Pastor in `The Pastor Yang Hua Case,' 
Church Sued the [Guizhou] Religious Affairs Bureau but Court Didn't 
Accept Lawsuit'' [Guizhou jingfang ju lushi huijian beibu ``yang hua 
mushi an'' mushi jiaohui gao zongjiaoju fayuan bu shouli], Radio Free 
Asia, 10 March 16; ``Zhu Jindi: Government Should Immediately Stop 
Extralegal Jail and Stop Persecuting Petitioners'' [Zhu jindi: zhengfu 
ying liji tingzhi fawai jianyu tingzhi pohai fangmin], Boxun, 29 
February 16; Didi Kirsten Tatlow, ``Chinese Woman's Mundane Query Turns 
Into Surreal Court Scuffle,'' New York Times, Sinosphere (blog), 4 May 
16; Rights Defense Network, ``Shenzhen Intermediate Court Rejects Chen 
Guiqiu's (Lawyer Xie Yang's Wife) Materials for Administrative Lawsuit 
Over Restriction on Leaving the Country, Trampling on the 
`Administrative Procedure Law' '' [Shenzhen shi zhongji fayuan ju shou 
chen guiqiu (xie yang lushi de qizi) yin bei zu chujing xingzheng 
susong cailiao jianta ``xingzheng susong fa''], 11 April 16; ``Suppress 
and Support,'' Economist, 13 August 16.
    \29\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], 28 October 14, item 4(3).
    \30\ Wang Minyuan, ``From `Investigation-Centered' to `Trial-
Centered' '' [Cong ``yi zhencha wei zhongxin'' dao ``yi shenpan wei 
zhongxin''], Procuratorial Daily, 31 March 16; Lu Leyun, ``People's 
Daily New Perceptions: Trial-Centered System Creates New Mode of 
Operation for the Procuratorate'' [Renmin ribao xinzhi xinjue: yi 
shenpan wei zhongxin chuangxin jiancha gongzuo moshi], People's Daily, 
18 May 16.
    \31\ ``Supreme People's Procuratorate Work Report'' [Zuigao renmin 
jianchayuan gongzuo baogao], 13 March 16, 19. See also Supreme People's 
Procuratorate, Opinion on Strengthening Public Prosecution Work in 
Court [Zuigao renmin jianchayuan guanyu jiaqiang chuting gongsu gongzuo 
de yijian], issued 23 June 15, reprinted in People's Procuratorate of 
Dengfeng City, 17 July 15, paras. 7-18.
    \32\ Wang Yu, ``Third Anniversary Since the Implementation of the 
New Criminal Procedure Law, Protection of Defense Rights Still Awaiting 
Improvement'' [Xin xingsufa shishi san zhounian bianhu quanli baozhang 
reng dai wanshan], 21st Century Business Herald, 24 March 16.
    \33\ Shan Yuxiao, ``New Reform in Litigation Process Aims To Expand 
Participation for Criminal Defense Lawyers'' [Xin yi lun susong zhidu 
gaige ni kuoda xing bian lushi canyu], Caixin, 19 October 15.
    \34\ Xing Bingyin, ``Expert: Representation in Criminal Defense 
Cases Is as Low as Twenty Percent, Scope of Appointed Defense Should Be 
Expanded'' [Zhuanjia: lushi canyu bianhu de xing an di zhi liang cheng, 
ying kuoda zhiding bianhu fanwei], The Paper, 18 October 15; 
``Conversation Between Professor Chen Weidong and Lawyer Wang Zhaofeng 
About Lawyer Ranking System Reform'' [Chen weidong jiaoshou, wang 
zhaofeng lushi duihua lushi fenji zhidu gaige], Sina, 24 November 15.
    \35\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 13 March 16, 14; Supreme People's Court, ``Judicial 
Reform of Chinese Courts'' [Zhongguo fayuan de sifa gaige], February 
2016, 23.
    \36\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], 28 October 14, item. 4(4).
    \37\ Wang Yong, ``How Far Can Technicality-Based Reforms Go'' 
[Jishu zhuyi de sifa gaige keyi zou duo yuan], Caixin, 25 March 16.
    \38\ Li Xiang, ``Comprehensive Judicial Transparency Takes a Big 
Step Forward'' [Quan fangwei sifa gongkai maichu yidabu], Legal Daily, 
21 January 16; Zhang Yanling, ``Map of China's Judicial Transparency 
Index Published: High in the East and Low in the West, Marked 
Improvement by the SPC'' [Zhongguo sifa touming zhishu ditu gongbu: 
dong gao xi di zuigaofa jinbu mingxian], China Internet Information 
Center, 18 March 16. See also China Judicial Process Information Online 
[Zhongguo shenpan liucheng xinxi gongkai wang], last visited 15 July 
16.
    \39\ Xu Jun, ``What Changes Have `Smart Courts' Brought About'' 
[``Zhihui fayuan'' dailai zenyang de biange], People's Daily, 6 April 
16; Li Xiang, ``Comprehensive Judicial Transparency Takes a Big Step 
Forward'' [Quan fangwei sifa gongkai maichu yidabu], Legal Daily, 21 
January 16.
    \40\ Supreme People's Court, Several Opinions on Promoting the 
Building of Three Major Platforms for Open Justice [Zuigao renmin 
fayuan guanyu tuijin sifa gongkai san da pingtai jianshe de ruogan 
yijian], issued 22 November 13, reprinted in China Court Net, 28 
November 13, art. 10; Supreme People's Court, Guiding Opinion on 
Comprehensively Promoting the Building of the People's Court Litigation 
Service Centers [Zuigao renmin fayuan guanyu quanmian tuijin renmin 
fayuan susong fuwu zhongxin jianshe de zhidao yijian], issued 15 
December 14, sec. 3(1).
    \41\ Annual Report on China's Rule of Law, No. 14 (2016) [Zhongguo 
fazhi fazhan baogao No. 14 (2016)], eds. Li Lin et al. (Beijing: Social 
Sciences Academic Press (China), 2016), 239. See also Zhang Yanling, 
``Map of China's Judicial Transparency Index Published: High in the 
East and Low in the West, Marked Improvement by the SPC'' [Zhongguo 
sifa touming zhishu ditu gongbu: dong gao xi di zuigaofa jinbu 
mingxian], China Internet Information Center, 18 March 16.
    \42\ Wu Aiying, ``Unswervingly Use General Secretary Xi Jinping's 
Important Instructions on Legal Aid Work To Steer Legal Aid Work'' 
[Jianchi yi xi jinping zongshuji guanyu falu yuanzhu gongzuo zhongyao 
zhishi zhidao falu yuanzhu gongzuo], Legal Daily, 11 October 15; 
Chinese Communist Party Central Committee General Office and State 
Council General Office, Opinion on the Improvement of the Legal Aid 
System [Zhongban guoban yinfa ``guanyu wanshan falu yuanzhu zhidu de 
yijian''], issued 30 June 15.
    \43\ Liu Ziyang, ``Sum of Nationwide Legal Aid Funding for the Past 
Five Years Reached 7.04 Billion Yuan'' [Wu nian quanguo falu yuanzhu 
jingfei zong'e dadao 70.4 yi yuan], Legal Daily, 17 September 15.
    \44\ Wu Aiying, ``Unswervingly Use General Secretary Xi Jinping's 
Important Instructions on Legal Aid Work To Steer Legal Aid Work'' 
[Jianchi yi xi jinping zongshuji guanyu falu yuanzhu gongzuo zhongyao 
zhishi zhidao falu yuanzhu gongzuo], Legal Daily, 11 October 15.
    \45\ Ibid.; ``Last Year, 1.32 Million Legal Aid Cases Handled 
Nationwide'' [Qunian quanguo banli falu yuanzhu an 132 wan jian], Legal 
Daily, 25 January 16.
    \46\ Zhou Bin, ``Justice Administration Agencies Established 
Improved Public Legal Services System; Every Citizen Enjoys Equal 
Access to Quality Legal Services'' [Sifa xingzheng jiguan jianli 
wanshan gonggong falu fuwu tixi meiwei gongmin ke xiang tongdeng youzhi 
falu fuwu], Legal Daily, 30 November 15.
    \47\ See, e.g., ``Legal Aid Opens a Blue Sky for Vulnerable 
Groups'' [Falu yuanzhu wei ruoshi qunti cheng qi yipian lantian], 
Sichuan Daily, 16 December 15; ``First Group of Aid Lawyers Enter Hall 
and Launch Legal Consultation Services Work'' [Shou pi yuanzhu lushi 
jinru dating kaizhan falu zixun fuwu gongzuo], Qinghai Judicial Affairs 
General Office, reprinted in Qinghai Chang'an Net, 6 July 16; Sichuan 
Zhongqia Law Firm, ``Legal Aid Center in Jiangyang District, Luzhou 
City, and Sichuan Zhongqia Law Firm Fully Cooperated and Recovered More 
Than 930,000 Yuan in Remuneration for 76 Migrant Workers'' [Luzhou shi 
jiangyang qu falu yuanzhu zhongxin he sichuan zhongqia lushi shiwusuo 
jingguo tong li hezuo wei 76 ming nongmingong zhui hui laodong baochou 
93 wan yu yuan], 30 June 16; Luan Weiqiang, ``Jilin Lawyers Participate 
in Legal Services, Bring Innovation to Workers' Rights Advocacy 
Mechanism'' [Jilin lushi canyu falu fuwu chuangxin zhigong weiquan 
jizhi], China Labor Union Net, reprinted in All China Lawyers 
Association, 12 June 16; Lin Miaomiao, ``Beijing: Government Purchases 
Services To Allow Lawyers To Help Elderly in Rights Advocacy'' 
[Beijing: zhengfu goumai fuwu rang lushi zhu laonianren weiquan], 
Xinhua, 8 July 16.
    \48\ See, e.g., Dafeng District Justice Bureau, ``Dafeng District 
Justice Bureau Launches Legal Aid Informational Services Activities in 
Prison'' [Dafeng qu sifaju kaizhan falu yuanzhu xuanchuan fuwu jin 
jianyu huodong], 25 March 16; Dafeng District Justice Bureau, ``Dafeng 
District Justice Bureau Launches Legal Aid Services Activity in Drug 
Detoxification Center'' [Dafeng qu sifaju kaizhan falu yuanzhu fuwu jin 
jiedusuo huodong], 15 April 16; Zhang Xin, ``Eight Prisons, Drug 
Detoxification Centers in Xi'an Establish Legal Aid Workstations'' 
[Xi'an shi 8 suo jianyu, jiedusuo chengli falu yuanzhu gongzuozhan], CN 
West, 30 March 16; Ma Fang, `` `Sending Law Into the High Walls': 
Prison Legal Aid Difficulties and Countermeasures'' [``Song fa jin 
gaoqiang'' jianyu falu yuanzhu de kunjing yu duice], Democracy and 
Legal Times, reprinted in China Legal Aid Net, 27 January 16; 
``Liupanshui Prison Legal Aid Workstations Established and Open'' 
[Liupanshui jianyu falu yuanzhu gongzuozhan guapai chengli], China 
Liupanshui Net, reprinted in China Legal Aid Net, 21 December 16; 
``Zhangzhou Prison Launches Legal Aid Activity for Inmates'' [Zhangzhou 
jianyu kaizhan fuxing renyuan falu yuanzhu huodong], reprinted in 
Fuzhou Province Prisons Administration Bureau, 8 December 15.
    \49\ Zhou Bin, ``Justice Administration Agencies Established 
Improved Public Legal Services System; Every Citizen Enjoys Equal 
Access to Quality Legal Services'' [Sifa xingzheng jiguan jianli 
wanshan gonggong falu fuwu tixi meiwei gongmin ke xiang tongdeng youzhi 
falu fuwu], Legal Daily, 30 November 15.
    \50\ Anhui Province People's Government General Office, 
Interpretation of ``Implementing Opinion on Improving the Legal Aid 
System'' [``Guanyu wanshan falu yuanzhu zhidu de shishi yijian'' 
jiedu], issued 9 March 16.
    \51\ See, e.g., Zhang Yujie and Fu Yongtao, ``Hainan Intermediate 
and Higher People's Courts To Establish Legal Aid Workstations'' 
[Hainan zhongji yishang renmin fayuan jiang sheli falu yuanzhu 
gongzuozhan], Xinhua, 13 November 15; Liu Jia, ``Exploring New Methods 
for Petitioning Work, Provincial People's Congress Plans To Establish 
Petitioning Matters in the Legal Aid System'' [Tansuo xinfang gongzuo 
xin fangfa sheng renda ni jian xinfang shixiang falu yuanzhu zhidu], 
Sichuan Daily, 31 March 16.
    \52\ Municipal People's Congress Standing Committee Fourth 
Evaluation and Investigation Group, ``Report on the Evaluation and 
Investigation Situation of the Municipal Justice Bureau's Work'' 
[Guanyu dui shi sifaju gongzuo pingyi diaocha qingkuang de baogao], 
Luoyang Municipality People's Congress Standing Committee, 28 June 16; 
Wang Yihong, ``Work Hard To Solve the Five Big Problems and To Upgrade 
the Level of Grassroots Legal Services--Reflections on and Exploration 
of Problems in Village Judicial Work'' [Zhuoli pojie wu da nanti 
tisheng jiceng falu fuwu shuiping--guanyu nongcun sifa gongzuo wenti de 
sikao he tansuo], Gansu Justice Net, 20 June 16; Dangchang County 
Justice Bureau and Zhe Pengliang, ``Investigative Report on Rural Legal 
Aid Work in Dangchang County'' [Guanyu dui dangchang xian nongcun falu 
yuanzhu gongzuo de diaoyan baogao], Legal Daily, 27 June 16; Wu Xinqi, 
``Ili Prefecture Justice Bureau Launches Justice Administration Reform 
To Help Push Forward Increased Quality and Speed in Legal Aid Work'' 
[Yili zhou sifaju kaizhan sifa xingzheng gaige zhu tui falu yuanzhu 
gongzuo zeng zhi tisu], Ili Kazakh Autonomous Prefecture Justice 
Bureau, 11 July 16; Chinese Communist Party Guangdong Province 
Committee General Office and Guangdong Province People's Government 
General Office, Implementing Opinion on Improving the Legal Aid System 
[Guanyu wanshan falu yuanzhu zhidu de shishi yijian], issued 16 
February 16.
    \53\ Benjamin L. Liebman, ``A Populist Threat to China's Courts? '' 
in Chinese Justice: Civil Dispute Resolution in Contemporary China, 
eds. Margaret Y.K. Woo and Mary E. Gallagher (Cambridge: Cambridge 
University Press, 2011); Liang Shibin, ``Resolutely Fight To Win the 
Battle on Clearing Backlog of Petitioning Cases'' [Jianjue da ying 
huajie xinfang ji'an gong jian zhan], Legal Daily, 27 April 16. Such 
grievances reportedly include cases concerning demolition or 
expropriation of property, social security, agriculture, land and 
resources, and environmental protection.
    \54\ See, e.g., Liu Yuguo, ``Chengdu Establishes a New Platform for 
`Transparent Petitioning' '' [Chengdu dazao ``yangguang xinfang'' xin 
pingtai], People's Daily, 4 May 16; Liu Guiying, ``Problems and 
Improvements of the Grassroots Petitioning System'' [Jiceng xinfang 
zhidu cunzai de wenti ji wanshan], People's Tribune, 23 March 16; Xu 
Dandan, ``Discussion of Shortcomings of China's Petitioning System and 
Their Solutions'' [Qiantan zhongguo xinfang zhidu de biduan ji qi 
jiejue tujing], Feiyang Net, 27 February 16.
    \55\ Zhang Wei, ``37 Ministries and Commissions Roll Out List for 
Handling Classification of Petitions'' [37 buwei chutai xinfang fenlei 
chuli qingdan], Legal Daily, 20 February 16. See also ``34 Provincial-
Level Agencies in Shanxi Province Test the Waters of the `Petitioning 
List' System'' [Shanxi sheng 34 ge shengji bumen shi shui ``xinfang 
qingdan'' zhidu], Shanxi Daily, reprinted in State Bureau of Letters 
and Visits, 5 January 16 (listing three broad categories of petitions: 
applications seeking a decision, complaining about or exposing 
misconduct, and requests for information disclosure); Shen Yin and Zhu 
Xuheng, ``How Does the Government Handle Classification of Problems 
Reported by the Masses? The Petition List Can Tell You'' [Qunzhong 
fanying wenti, zhengfu zenyang fenlei chuli? xinfang qingdan gaosu ni], 
Zhejiang Daily, 26 July 16; Chinese Communist Party Central Committee 
and the State Council, Implementing Outline on Establishing Law-Based 
Government (2015-2020) [Fazhi zhengfu jianshe shishi gangyao (2015-2020 
nian)], issued 28 December 15, para. 36; 2015 China Law Yearbook [2015 
zhongguo falu nianjian], (Beijing: China Law Yearbook Press, 2015), 
123; Xu Guanying, ``38 Provincial-Level Agencies and 10 Municipalities 
in Jiangsu Introduce Petition Classification Handling List'' [Jiangsu 
10 ge shi 38 ge shengji jiguan chutai xinfang fenlei chuli qingdan], 
Xinhua, reprinted in Xinhua Daily (Jiangsu), 25 July 16. Government 
agencies in Taizhou municipality, Jiangsu province, reported that they 
received a total of about 120,000 petitions from the public in the past 
year and that all but 2,000 were diverted to the judicial and 
administrative systems.
    \56\ Ma Xueling, ``Liu Guixiang of the Supreme People's Court: 
Circuit Tribunal Effectively Alleviated Pressure on the Petitioning 
System'' [Zuigao fayuan liu guixiang: xunhui fating youxiao huanjie 
xinfang yali], China News Service, 10 March 16. See also Supreme 
People's Court, Provisions Concerning Certain Issues Relating to 
Circuit Tribunals' Case Adjudication [Zuigao renmin fayuan guanyu 
xunhui fating shenli anjian ruogan wenti de guiding], issued 28 January 
15, effective 1 February 15, art. 3.
    \57\ Ye Zhusheng, ``Don't Be Pessimistic About Circuit Tribunals 
Because of Large Volume of Petitions'' [Buyao yinwei xinfang liang da, 
jiu beiguan kandai xunhui fating], Beijing News, 4 February 16.
    \58\ Li Honglei, ``State Bureau of Letters and Visits: Encourage 
the `Complete Clearance' of the Backlog in Petitioning Cases This 
Year'' [Guojia xinfangju: jinnian licu xinfang ji'an ``qingcang 
jiandi''], State Council, 25 January 16.
    \59\ Tang Wei, ``Participation by Lawyers Contributes to Solving 
[Problem of] Petitioning [Instead of] Trusting in Law'' [Lushi canyu 
youzhu yu huajie xinfang bu xin fa], China Youth Daily, 11 November 15; 
Li Jing, ``Chief Judge of the SPC's First Circuit Tribunal: There Have 
Not Been Any Cases of [Interference] by Leaders in the First Circuit'' 
[Zuigaofa di yi xunhui fating tingzhang: yixun wei chuxian lingdao dui 
anjian jinxing pizhuan de qingxing], People's Daily, 1 February 16.
    \60\ ``Government Gradually Promotes Lawyers as Intermediaries To 
Replace Petitioning, Lawyers Say This Is Suppression'' [Dangju zhubu 
tui lushi zhongjie qudai xinfang lushi zhi shi daya], Radio Free Asia, 
19 November 15.
    \61\ ``Crime of Extorting the Government Becomes New Method To 
Suppress Petitioners'' [Qiaozha zhengfu zuiming cheng daya fangmin xin 
zhaoshi], Radio Free Asia, 26 November 15.
    \62\ Ibid.
    \63\ See, e.g., Civil Rights & Livelihood Watch, ``Inner Mongolia 
Petitioner Song Yuefang Arrested for Extortion'' [Neimeng fangmin song 
yuefang bei yi qiaozha lesuo zui pibu], 5 February 16; Huang Qi, 64 
Tianwang, ``Tianwang Volunteer Wu Youming Faces Compulsory Expulsion 
From PSB Detention Center in Hubei'' [Tianwang yigong wu youming zao 
qiangzhi ganchu hubei kanshousuo], 14 December 15; Guo Tianli, ``The 
Reason for `Extortion Cases' Against Petitioners Is Defects in the 
Petitioning System Design; Courts Nationwide Currently Do Not Have 
Uniform Standards for Ruling in These Kinds of Cases'' [Fangmin 
``qiaozha an'' genyuan zaiyu shangfang zhidu sheji de bugou wanbei, 
muqian quanguo gedi fayuan dui ci lei anjian panli bing wu tongyi 
biaozhun], Phoenix Weekly, 25 February 16; ``Guo Hongwei Receives a 
Heavy Sentence of 13 Years, Family Is Enraged'' [Guo hongwei bei 
zhongpan 13 nian jiashu fennu], Radio Free Asia, 2 February 16.
    \64\ See, e.g., Civil Rights & Livelihood Watch, ``Petitioner He 
Chaozheng of Chongqing Detained for Ten Days'' [Chongqing fangmin he 
chaozheng bei juliu shi ri], 13 April 16; Civil Rights & Livelihood 
Watch, ``No Verdict in `Picking Quarrels' Case of Petitioner Cao 
Yongliang From Fenxi County, Shanxi, Several Months After Trial'' 
[Shanxi fenxi xian fangmin cao yongliang xunzi an kaiting shuyue wei 
pan], 8 April 16; ``Two Petitioners From Sichuan and Shandong Detained 
After Being Sent Back, Seventy-Year-Old Man Threw Flyers in Street at 
Motorcade During Two Sessions'' [Chuan lu liang fangmin bei qianfan hou 
juliu qi xun laoren dangjie xiang lianghui chedui pao chuandan], Radio 
Free Asia, 11 March 16; Civil Rights & Livelihood Watch, ``Zhou Zhiyin 
of Shaanxi Accused by Local Media of Being Criminally Detained for 
Seeking Inappropriate Benefits and Stubbornly Petitioning Higher Levels 
of Government'' [Shanxi zhou zhiyin zao dangdi meiti baoguang zhi qi 
mouqu budang liyi renxing shangfang bei xingju], 12 March 16; Huang Qi, 
64 Tianwang, ``Seeking Xi Jinping at Tiananmen, Li Zhaoxiu and Liu 
Zhizhong of Chengdu Are Seized'' [Tiananmen zhao xi jinping chengdu li 
zhaoxiu liu zhizhong bei qin], 7 March 16; Rights Defense Network, 
``Shanghai Rights Defender Ding Deyuan Still Under Surveillance After 
Release From Detention, Huang Yuehua's Whereabouts Unknown After 10 
Days' Administrative Detention'' [Shanghai renquan hanwei zhe ding 
deyuan juliu huoshi reng zao jianshi huang yuehua bei xingzheng juliu 
10 ri hou xialuo buming], 1 March 16; Civil Rights & Livelihood Watch, 
``Shanghai Authorities Carry Out Two Sessions Clearances, Gao Xuekun 
and Other Petitioners Detained or Put in Soft Detention'' [Shanghai 
dangju wei lianghui qingchang gao xuekun deng duo ming fangmin bei 
juliu huo ruanjin], 28 February 16.
    \65\ For information on the July 2015 crackdown, see, e.g., Josh 
Chin and Te-Ping Chen, ``China Targets Human-Rights Lawyers in 
Crackdown,'' Wall Street Journal, 12 July 15; Human Rights Watch, 
``China: Secretly Detained Lawyers at Risk of Torture,'' 20 July 15. 
For Chinese state media coverage of the crackdown, see, e.g., Huang 
Qingchang and Zou Wei, ``Revealing the Dark Secrets of `Rights Defense' 
Incidents'' [Jiekai ``weiquan'' shijian de heimu], Xinhua, 11 July 15.
    \66\ China Human Rights Lawyers Concern Group, ``[`709 Crackdown'] 
Latest Data and Development of Cases as of 1800 6 May 2016,'' 6 May 16. 
For more information on the individuals detained during the July 2015 
crackdown, see the following records in the Commission's Political 
Prisoner Database: 2004-02053 on Hu Shigen, 2010-00348 on Wu Gan (also 
known as Tufu), 2015-00252 on Wang Yu, 2015-00253 on Bao Longjun, 2015-
00272 on Zhou Shifeng, 2015-00278 on Wang Quanzhang, 2015-00276 on Liu 
Sixin, 2015-00277 on Zhao Wei, 2015-00284 on Li Heping, 2015-00295 on 
Xie Yang, 2015-00308 on Xie Yanyi, 2015-00310 on Wang Fang, 2015-00311 
on Li Chunfu, 2015-00331 on Gou Hongguo (also known as Ge Ping), 2015-
00333 on Liu Yongping (also known as Laomu), 2015-00335 on Yin Xu'an, 
2015-00344 on Lin Bin (also known as Monk Wang Yun), 2015-00451 on 
Zhang Chongzhu, 2016-00115 on Zhai Yanmin, 2016-00116 on Zhang Wanhe 
(also known as Zhang Weihong), 2016-00146 on Li Yanjun, 2016-00160 on 
Yao Jianqing, and 2016-00214 on Liu Xing (also known as Ren Jiancai).
    \67\ China Human Rights Lawyers Concern Group, ``[`709 Crackdown'] 
Latest Data and Development of Cases as of 1800 6 May 2016,'' 6 May 16. 
Ten were charged with ``subversion of state power,'' five with 
``inciting subversion of state power,'' and one with a charge involving 
the disclosure of state secrets.
    \68\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, arts. 105, 111.
    \69\ ``Writer Tie Liu Met With Lawyer for First Time After He Had 
Been Detained for Half a Month, Old Man in Worrisome Health but 
Insisted on His Innocence'' [Zuojia tie liu bei bu ban yue hou shou hui 
lushi maodie laoren jiankang kanyou jianxin ziji wuzui], Radio Free 
Asia, 26 September 14; Chris Buckley, ``Beijing Formally Charges Writer 
Who Published Memoirs of Victims of Mao Era,'' New York Times, 23 
October 14. For example, in 2014, Zhou Shifeng defended the government 
critic Huang Zerong, better known by his pen name Tie Liu, against 
``illegal business activities'' charges. Jonathan Kaiman, ``China 
Accused of Using Ilham Tohti Case To Halt Criticism of Ethnic 
Policies,'' Guardian, 18 September 14; Michael Martina et al., ``China 
Decries Foreign Interference in Detained Academic Case,'' Reuters, 17 
January 14. In 2014, Wang Yu represented Uyghur scholar Ilham Tohti, 
who had criticized the Chinese government's policies in the Xinjiang 
Uyghur Autonomous Region, in a case in which authorities charged him 
with ``separatism.'' Liu Xiaoyuan and Wang Quanzhang, ``Defense 
Statement for Qi Chonghuai, Accused of Extortion and Embezzlement'' [Qi 
chonghuai shexian qiaozha lesuo zui, zhiwu qinzhan zui bianhuci], 
reprinted in Human Rights in China, 6 June 11; Chinese Human Rights 
Defenders, ``Qi Chonghuai,'' last visited 20 May 16. In 2011, Wang 
Quanzhang defended Qi Chonghuai, a journalist known for exposing 
corruption and human rights violations, against embezzlement charges.
    \70\ Dominique Attias et al., ``Letter From Legal Experts on 
Detained Chinese Lawyers,'' reprinted in Human Rights Watch, 18 January 
16.
    \71\ ``China's Clampdown on Lawyers and Activists Draws Concern of 
UN Human Rights Chief,'' UN News Centre, 16 February 16.
    \72\ China Human Rights Lawyers Concern Group, ``[`709 Crackdown'] 
Latest Data and Development of Cases as of 1800 30 December,'' 30 
December 15.
    \73\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 64, 72-77.
    \74\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 14. See also The Rights Practice, ``Prevention of Torture: 
Concerns With the Use of `Residential Confinement in a Designated 
Residence,' '' October 2015.
    \75\ China Human Rights Lawyers Concern Group, ``Report on the 709 
Crackdown,'' 6 July 16, 15.
    \76\ See, e.g., China Human Rights Lawyers Concern Group, `` `709 
Crackdown' Lawyers and Activists' Case Update* (2015.10.16-
2015.10.23),'' 23 October 15; ``Request From Lawyer in Wang Quanzhang's 
Case To See Client Rejected by Police'' [Wang quanzhang an lushi yaoqiu 
jian dangshiren zao jing jujue], Radio Free Asia, 10 September 15.
    \77\ Jerome A. Cohen, ``Lawyer-Client Meeting in `National 
Security' Cases in China,'' Jerry's Blog, 8 February 16; Chinese Human 
Rights Defenders, ``Forced `Switch' to Police-Appointed Lawyers Further 
Erodes Protections for Detained Rights Defenders (3/15-3/21, 2016),'' 
21 March 16.
    \78\ Chinese Human Rights Defenders, ``Forced `Switch' to Police-
Appointed Lawyers Further Erodes Protections for Detained Rights 
Defenders (3/15-3/21, 2016),'' 21 March 16.
    \79\ Jerome A. Cohen, ``Lawyer-Client Meeting in `National 
Security' Cases in China,'' Jerry's Blog (blog), 8 February 16; Supreme 
People's Court, Supreme People's Procuratorate, Ministry of Public 
Security, Ministry of State Security, and Ministry of Justice, 
Provisions on the Protection of Lawyers' Rights To Practice According 
to Law [Guanyu yifa baozhang lushi zhiye quanli de guiding], issued and 
effective 16 September 15, art. 9. See also PRC Criminal Procedure Law 
[Zhonghua renmin gongheguo xingshi susong fa], passed 1 July 79, 
amended 17 March 96, 14 March 12, effective 1 January 13, art. 37(3).
    \80\ ``Fengrui Law Firm Apprentice Lawyer, Li Shuyun, Released on 
Bail'' [Fengrui shiwusuo shixi lushi li shuyun qubao huoshi], Radio 
Free Asia, 9 April 16.
    \81\ ``A Recommendation Letter Sincerely Urging All Participating 
Representatives, the Presidium, and Delegations of the Fourth Session 
of the Twelfth National People's Congress To Establish a Special 
Investigative Committee on the `709' Mass Detentions Incident'' [Dun 
qing di shi'er jie quanguo renda di si ci huiyi ge can hui daibiao, 
zhuxituan, daibiaotuan jiu ``709'' da zhuabu shijian chengli tebie 
diaocha weiyuanhui de jianyi shu], reprinted in Rights Defense Network, 
5 March 16; Rights Defense Network, `` `July 9 Detentions' Report: Zhao 
Wei (Kaola) Suspected of Having Been Forced To Dismiss Lawyer and Write 
Guilty Plea'' [``709 da zhuabu an'' tongbao: zhao wei (kaola) yi zao 
zhemo beipo jiechu lushi, bing xie renzui shu], 29 January 16; Chinese 
Human Rights Defenders, ``Forced `Switch' to Police-Appointed Lawyers 
Further Erodes Protections for Detained Rights Defenders (3/15-3/21, 
2016),'' 21 March 16. In the case of Zhao Wei, a legal assistant to 
detained rights lawyer Li Heping, two lawyers approached Zhao's mother 
and identified themselves as appointees of a Party-controlled committee 
and presented a confession letter that Zhao's mother believed was 
obtained under coercion. See also International Covenant on Civil and 
Political Rights, adopted by UN General Assembly resolution 2200A (XXI) 
of 16 December 66, entry into force 23 March 76, art. 14(1), (3)(d). 
Denial of access to legal counsel violates Article 14(1) of the 
International Covenant on Civil and Political Rights, which provides: 
``In the determination of any criminal charge against him, or of his 
rights and obligations in a suit at law, everyone shall be entitled to 
a fair and public hearing by a competent, independent and impartial 
tribunal established by law.'' It also violates Article 14(3)(d), which 
provides: ``In the determination of any criminal charge against him, 
everyone shall be entitled to the following minimum guarantees, in full 
equality: . . . To be tried in his presence, and to defend himself in 
person or through legal assistance of his own choosing . . ..'' PRC 
Criminal Procedure Law [Zhonghua renmin gongheguo xingshi susong fa], 
passed 1 July 79, amended 17 March 96, 14 March 12, effective 1 January 
13, art. 32. PRC Criminal Procedure Law confers on defendants the right 
to legal counsel.
    \82\ Tianjin Municipal Public Security Bureau (Ping'an tianjin), 
Weibo post, 7 July 16, 11:10 a.m.
    \83\ Su Zhimin, ``Zhao Wei's Whole Family Disappeared, You Minglei 
Firmly Believes Wife Not Yet Free'' [Zhao wei quanjia xiaoshi you 
minglei shenxin qizi wei ziyou], Botan Net, 14 July 16.
    \84\ Ibid.; ``Complaint Letter Signed by `Zhao Wei' Called Into 
Question, Husband You Minglei's Search for Wife Unsuccessful'' [``Zhao 
wei'' qianming jubao xin shou zhiyi zhangfu you minglei xun qi wei 
guo], Radio Free Asia, 13 July 16.
    \85\ Rights Defense Network, ``In July 9 Case, Zhao Wei's Defense 
Lawyer Ren Quanniu Criminally Detained Today by Zhengzhou, Henan, 
Police'' [709 an zhao wei bianhu lushi ren quanniu lushi jin zao henan 
zhengzhou jingfang xingshi juliu], 8 July 16; ``Lawyer Meets With Ren 
Quanniu, Revealing Police Lies, Ren's Wife Backs Husband's Innocence'' 
[Lushi huijian ren quanniu jie jingfang zaojia ren qi cheng zhangfu 
wuzui], Radio Free Asia, 12 July 16; Zhengzhou Public Security Bureau 
(Ping'an zhengzhou), ``Case Details Bulletin'' [Anqing tongbao], Weibo 
post, 8 July 16, 6:47 p.m.
    \86\ ``Zhao Wei, Assistant to Chinese Rights Lawyer, Is Granted 
Bail'' [Zhongguo weiquan lushi zhuli zhao wei huozhun qubao houshen], 
BBC, 7 July 16.
    \87\ ``Wang Yu's Friend Liang Bo: The Wang Yu Who Admitted Guilt 
and Expressed Remorse Is Not the Same Wang Yu, She Is the Wang Yu Who 
Has Been Destroyed by Torture'' [Wang yu de youren liang bo: renzui 
huiguo de wang yu bu shi yuanlai de wang yu, shi kuxing cuican hou de 
wang yu], Radio Free Asia, 3 August 16.
    \88\ Zhuang An, ``Beijing Fengrui Law Firm Lawyer Wang Yu 
Interviewed After Release on Bail: No Matter What Prize Is Awarded by 
Overseas Entities, I Will Not Accept [It]'' [Beijing fengrui lusuo 
lushi wang yu qubao hou shoufang: wulun jingwai ban shenme jiang dou bu 
jieshou], The Paper, 1 August 16; Zhuang An, ``Fengrui Law Firm Lawyer 
Wang Yu: If Overseas Organizations Confer `Human Rights Award' by 
Force, It Would Be Trampling on and Violating Human Rights'' [Fengrui 
suo lushi wang yu: ruo jingwai jigou qiang ban ``renquan jiang,'' shi 
jianta qinfan renquan], The Paper, 5 August 16.
    \89\ Gerry Shih, ``China Releases Prominent Human Rights Lawyer on 
Bail,'' Associated Press, reprinted in U.S. News & World Report, 1 
August 16; Philip Wen, ``A Confession Few Believe: Chinese Rights 
Lawyer Wang Yu Is `Freed,' '' Sydney Morning Herald, 2 August 16.
    \90\ Gerry Shih, ``China Releases Prominent Human Rights Lawyer on 
Bail,'' Associated Press, reprinted in U.S. News & World Report, 1 
August 16.
    \91\ ``Court of First Instance Publicly Announces Verdict in Court 
in the Subversion of State Power Case of Zhai Yanmin, Defendant Pleads 
Guilty, Submits to Law, and Will Not Appeal'' [Zhai yanmin dianfu 
guojia zhengquan an yishen dang ting gongkai xuanpan beigaoren biaoshi 
renzui fufa bu shangsu], Xinhua, 2 August 16.
    \92\ Wang Yeshe, ``Court of First Instance Announces Verdict in 
Court in Subversion of State Power Case of Hu Shigen, Defendant 
Sentenced to Seven Years and Six Months' Imprisonment'' [Hu shigen 
dianfu guojia zhengquan an yishen dang ting xuanpan beigaoren bei 
panxing qi nian ban], Xinhua, 3 August 16.
    \93\ ``Court of First Instance Announces Verdict in Court for Zhou 
Shifeng, Guilty of Subversion of State Power, Sentenced to Seven Years' 
Imprisonment'' [Zhou shifeng an yishen dang ting xuanpan dianfu guojia 
zhengquan zuiming chengli panchu youqi tuxing qi nian], Xinhua, 4 
August 16.
    \94\ ``Court of First Instance Announces Verdict in Subversion of 
State Power Case of Gou Hongguo; Defendant Says in Court He Will Not 
Appeal'' [Gou hongguo dianfu guojia zhengquan an yishen xuanpan 
beigaoren dang ting biaoshi bu shangsu], Xinhua, 5 August 16.
    \95\ The mistreatment of the children in this case violates at 
least two provisions under the Convention on the Rights of the Child. 
Convention on the Rights of the Child, adopted by UN General Assembly 
resolution 44/25 of 20 November 89, entry into force 2 September 90, 
arts. 2(2) (``States Parties shall take all appropriate measures to 
ensure that the child is protected against all forms of discrimination 
or punishment on the basis of the status, activities, expressed 
opinions, or beliefs of the child's parents, legal guardians, or family 
members.''), 19(1) (``States Parties shall take all appropriate 
legislative, administrative, social and educational measures to protect 
the child from all forms of physical or mental violence, injury or 
abuse, neglect or negligent treatment, maltreatment or exploitation, 
including sexual abuse, while in the care of parent(s), legal 
guardian(s) or any other person who has the care of the child.''), 
37(b) (``No child shall be deprived of his or her liberty unlawfully or 
arbitrarily . . ..''), 37(d) (``Every child deprived of his or her 
liberty shall have the right to prompt access to legal and other 
appropriate assistance, as well as the right to challenge the legality 
of the deprivation of his or her liberty before a court or other 
competent, independent and impartial authority, and to a prompt 
decision on any such action.'').
    \96\ China Human Rights Lawyers Concern Group, ``As of 18:00, March 
4, 2016, at Least 317 Lawyers, Law Firm Staff, Rights Defenders, and 
Family Members Have Been Invited To Talk, Summoned, Banned From Leaving 
the Country, Put in Soft Detention, Placed Under Residential 
Surveillance, Arrested, or Disappeared'' [Jiezhi 2016 nian 3 yue 4 ri 
18:00, zhishao 317 ming lushi, lusuo renyuan, renquan hanweizhe he 
jiashu bei yuetan, chuanhuan, xianzhi chujing, ruanjin, jianshi juzhu, 
daibu huo shizong], 4 March 16; Rights Defense Network, ``Liu Ermin, 
Wife of Rights Defense Citizen Zhai Yanmin, Was Violently Beaten by 
Beijing Police'' [Weiquan gongmin zhai yanmin zhi qi liu ermin bei 
beijing jingyuan baoli ouda], 7 June 16.
    \97\ Sources provided conflicting accounts about the identity of 
the individuals who seized Bao Zhuoxuan. He Shenquan et al., ``Anti-
China Forces' Transnational Network Forces 16-Year-Old Boy To Sneak 
Across Border, Chinese Police Quickly Solve Case'' [Fan hua shili 
kuaguo chuanlian guoxie 16 sui nanhai toudu zhongguo jingfang xunsu 
po'an], Global Times, 15 October 15. The Global Times, a Party-run news 
publication, reported that Bao Zhuoxuan was apprehended by Burmese 
police who then transferred Bao to Chinese authorities. Philip Wen, 
``Bao Zhuoxuan, Teenage Son of Chinese Rights Lawyer, Back Under 
Surveillance in China,'' Sydney Morning Herald, 12 October 15. The 
Sydney Morning Herald reported that the Burmese government denied any 
involvement. Xu Jing, ``Bao Zhuoxuan, a Youth Who Became the 
Government's Hostage'' [Bao zhuoxuan, yi ge chengwei zhengfu renzhi de 
shaonian], China in Perspective, 20 October 15. Another report 
indicated that Burmese authorities carried out the operation together 
with Chinese public security personnel.
    \98\ For more information on Bao Zhuoxuan, see the Commission's 
Political Prisoner Database record 2015-00345.
    \99\ China Human Rights Lawyers Concern Group, ``As of 18:00, March 
4, 2016, at Least 317 Lawyers, Law Firm Staff, Rights Defenders, and 
Family Members Have Been Invited To Talk, Summoned, Banned From Leaving 
the Country, Put in Soft Detention, Placed Under Residential 
Surveillance, Arrested, or Disappeared'' [Jiezhi 2016 nian 3 yue 4 ri 
18:00, zhishao 317 ming lushi, lusuo renyuan, renquan hanweizhe he 
jiashu bei yuetan, chuanhuan, xianzhi chujing, ruanjin, jianshi juzhu, 
daibu huo shizong], 4 March 16; China Human Rights Lawyers Concern 
Group, ``What Happened to the Children of Rights Lawyers? '' [``Weiquan 
lushi de zinu jiujing zaoyu le shenme? ''], 12 October 15.
    \100\ Xu Jing, ``Bao Zhuoxuan, a Youth Who Became the Government's 
Hostage'' [Bao zhuoxuan, yi ge chengwei zhengfu renzhi de shaonian], 
China in Perspective, 20 October 15; China Human Rights Lawyers Concern 
Group, ``What Happened to the Children of Rights Lawyers? '' [``Weiquan 
lushi de zinu jiujing zaoyu le shenme? ''], 12 October 15; ``Detained 
for Helping Wang Yu's Son Escape; Family Protest Overseas During 
Lantern Festival'' [Zhu wang yu erzi taowang bei kou jiashu yuanxiao 
jie yue yang kangyi], Radio Free Asia, 23 February 16; Ye Jingsi, 
``Chinese Rights Lawyer Wang Yu's Son Bao Zhuoxuan Escorted Back to 
Inner Mongolia From Myanmar'' [``Zhongguo weiquan lushi wang yu erzi 
bao zhuoxuan cong miandian ya fan neimenggu''], BBC, 13 October 15.
    \101\ China Human Rights Lawyers Concern Group, ``As of 18:00, 
March 4, 2016, at Least 317 Lawyers, Law Firm Staff, Rights Defenders, 
and Family Members Have Been Invited To Talk, Summoned, Banned From 
Leaving the Country, Put in Soft Detention, Placed Under Residential 
Surveillance, Arrested, or Disappeared'' [Jiezhi 2016 nian 3 yue 4 ri 
18:00, zhishao 317 ming lushi, lusuo renyuan, renquan hanweizhe he 
jiashu bei yuetan, chuanhuan, xianzhi chujing, ruanjin, jianshi juzhu, 
daibu huo shizong], 4 March 16.
    \102\ Chinese Human Rights Defenders, ``Individuals Affected by 
July 9 Crackdown on Rights Lawyers,'' 13 July 15, updated 18 July 16; 
Dominique Attias et al., ``Letter From Legal Experts on Detained 
Chinese Lawyers,'' reprinted in Human Rights Watch, 18 January 16.
    \103\ Rights Defense Network, ``Xu Xiaoshun Accused of 
`Embezzlement' by Association With His Son Wu Gan (Tufu), Fuqing City 
Court Holds Third Hearing'' [Xu xiaoshun zao erzi wu gan (tufu) zhulian 
bei kong ``zhiwu qinzhan'' yu fuqing shi fayuan di san ci kaiting 
shenli], 23 March 16.
    \104\ ``China Releases Swedish Rights Activist Peter Dahlin,'' BBC, 
26 January 16.
    \105\ Didi Kirsten Tatlow, ``China Is Said To Force Closing of 
Women's Legal Aid Center,'' New York Times, Sinosphere (blog), 29 
January 16.
    \106\ Ibid.; Verna Yu, ``Leading Woman's Rights Group To Shut Down 
as China Tightens Squeeze on Civil Society,'' South China Morning Post, 
30 January 16.
    \107\ ``First Non-Governmental Legal Fund Announces Cessation of 
Operations Following Passage of the PRC `Charity Law' '' [Zhongguo 
``cishan fa'' tongguo hou shou ge minjian falu jijin xuanbu tingzhi 
yunxing], Radio Free Asia, 18 March 16; PRC Charity Law [Zhonghua 
renmin gongheguo cishan fa], passed 16 March 16, effective 1 September 
16.
    \108\ ``Many Lawyers and Scholars Providing Legal Aid to Inner 
Mongolian Herders Placed Under Control by IMAR Police'' [Wei neimeng 
mumin tigong falu yuanzhu duo ming lushi ji xuezhe bei neimeng jingfang 
kongzhi], Radio Free Asia, 16 April 16; ``Herders From Zaruud Banner, 
Inner Mongolia, Detained for Uploading Videos About Pollution-Affected 
Livestock'' [Nei menggu zhalute qi mumin yin shangchuan shengchu shou 
wuran shipin bei zhua], Radio Free Asia, 12 April 16.

                                                       Xinjiang
                                                Xinjiang

                              IV. Xinjiang


                     Security Measures and Conflict

    During the Commission's 2016 reporting year, central and 
regional authorities continued to implement repressive security 
measures targeting Uyghur communities in the Xinjiang Uyghur 
Autonomous Region (XUAR). In October 2015, Yu Zhengsheng, a 
member of the Standing Committee of the Communist Party Central 
Committee Political Bureau, said authorities should focus on 
counterterrorism in order to achieve stability in the XUAR.\1\ 
Reports from international media and rights advocates 
documented arbitrary detentions,\2\ oppressive security 
checkpoints \3\ and patrols,\4\ the forcible return of Uyghurs 
to the XUAR from other provinces as part of heightened security 
measures,\5\ and forced labor as a means to ``ensure 
stability.'' \6\ Meng Jianzhu, head of the Party Central 
Committee Political and Legal Affairs Commission, repeatedly 
stressed the need for authorities to ``eradicate extremism,'' 
in particular ``religious extremism,'' in the XUAR in 
conjunction with security measures.\7\ The U.S. Government and 
international observers have asserted that XUAR officials have 
justified restrictions on Uyghurs' religious freedom by 
equating them with efforts to combat extremism.\8\
    The Commission observed fewer reports of violent incidents 
involving ethnic or political tensions in the XUAR in the 2016 
reporting year than in previous reporting years,\9\ though it 
was unclear whether less violence occurred, or Chinese 
authorities prevented public disclosure of the information. 
International media and rights advocates raised concerns about 
Chinese authorities' failure to report and attempts to suppress 
information regarding deadly clashes involving Uyghurs, 
including information about a September 2015 attack in Aksu 
prefecture.\10\ [See the Freedom of Expression sub-section 
below for more information on these concerns.]
    On September 18, 2015, in Bay (Baicheng) county, Aksu 
prefecture, more than 50 people died, and dozens more were 
injured, during an attack by assailants with knives at a coal 
mine complex.\11\ Chinese official media confirmed the attack 
in November 2015, but indicated that the attackers killed only 
16 people.\12\ The attackers were reportedly Uyghurs, and most 
of those they attacked were Han Chinese workers; five others 
killed were reportedly security personnel.\13\ According to 
official media and international reports, authorities conducted 
a 56-day operation to find the attackers, ending in a raid in 
which police killed 28 people.\14\ According to an 
international news report, 11 of those whom police killed were 
women and children traveling with the suspected attackers.\15\ 
A front-page People's Liberation Army Daily article reported 
that police had used a flamethrower in the November 2015 raid 
on the group that included the suspected attackers.\16\ State 
media later reported that a senior public security official 
died in the raid.\17\

                Legal and Counterterrorism Developments

    On December 27, 2015, the National People's Congress passed 
the PRC Counterterrorism Law.\18\ The legislation, which took 
effect on January 1, 2016, contains provisions that expanded 
police authority, including the authority to use weapons.\19\ 
In addition, the law seeks to define what constitutes terrorist 
activity, and lays out a framework for establishing 
counterterrorism institutions, enhancing security, and 
coordinating intelligence gathering and emergency response, 
among other areas.\20\ Human rights organizations and other 
observers criticized the law as excessively broad and 
repressive, and expressed fears that it expanded officials' 
authority to punish peaceful activities and target ethnic 
minorities, including Uyghurs.\21\ A U.S. State Department 
spokesperson stated that the ``broad, vaguely phrased 
provisions and definitions'' in the law ``could lead to greater 
restrictions on the exercise of freedoms of expression, 
association, peaceful assembly, and religion within China.'' 
\22\ In February 2016, XUAR officials launched region-wide 
activities to study and publicize the new legislation, and 
directed officials to make use of entertainment and media 
networks throughout the XUAR in order to bring about ``social 
stability.'' \23\
    On July 29, 2016, the XUAR People's Congress adopted 
regional measures to implement the PRC Counterterrorism 
Law,\24\ which contain more detailed definitions than the 
national legislation regarding terrorist activities and how to 
punish religious extremists.\25\ The implementing measures 
include the following provisions that were not contained in the 
national legislation:

        <bullet> Solitary confinement can be used for prisoners 
        or individuals held at police detention centers who 
        lead a terrorist or extremist organization, incite 
        other prisoners to commit crimes, or resist education 
        and reform programs as well as display ``violent 
        tendencies''; \26\
        <bullet> The use of cell phones, the Internet, or other 
        media devices to disseminate terrorism or extremism or 
        to teach terrorist methods is considered a terrorist 
        activity; \27\ and
        <bullet> Those organizing, forcing, instigating, 
        encouraging, or enticing minors to participate in 
        religious activities may be detained between 5 and 15 
        days and fined up to 10,000 yuan (approximately 
        US$1,500).\28\

    A human rights advocate, cited in an international news 
report, expressed concern that under the new regional measures, 
authorities could label Uyghurs' ordinary religious activities 
as extremism and terrorism.\29\
    In February 2016, state media reported authorities' pledge 
to offer up to 100,000 yuan (approximately US$15,000) for tip-
offs regarding online ``terrorist'' content, and said 
authorities had given out more than 2 million yuan 
(approximately US$300,000) in rewards in 2015.\30\ In April 
2016, Radio Free Asia reported that XUAR officials had begun 
offering rewards of up to 5 million yuan (approximately 
US$750,000) for information about terrorist activity, as well 
as cash rewards for reporting ``illegal religious activity.'' 
\31\
    XUAR officials used Party rules and regulations combating 
corruption in the Party to target ``terrorism'' and Party 
members' opposition to Party and government policy. In January 
2016, Xu Hairong, the Secretary of the XUAR Commission for 
Discipline Inspection, reported that some Party officials in 
the region had ``supported, participated in and organized 
terror acts'' in 2015, and that authorities would take measures 
against these officials.\32\ Xu had made similar comments in 
November 2015, when he stated that some Party officials in the 
XUAR had ``criticised high-level policies'' and openly 
expressed opinions that differed from those mandated by the 
Party.\33\ The November comments followed the Party's removal 
earlier that month of Xinjiang Daily editor-in-chief Zhao Xinyu 
from his post and expulsion of Zhao from the Party \34\ after 
he had opposed government policy in the XUAR \35\ and had 
disagreed with Party views on ``ethnic separatism, terrorism, 
and religious extremism.'' \36\ [See the Freedom of Expression 
sub-section for more information on Zhao Xinyu.] XUAR 
Commission for Discipline Inspection officials punished a 
number of senior Party officials for corruption during the 
reporting year, including Zhao's predecessor at the Xinjiang 
Daily, Alimjan Maimaitiming, who had served as secretary 
general of the XUAR government as well as in a Party leadership 
group.\37\

                  ``ENDANGERING STATE SECURITY'' CASES

    According to research the Dui Hua Foundation published in 
April 2016 \38\ and the XUAR annual work report on the region's 
courts for 2015,\39\ the number of ``endangering state 
security'' (ESS) trials the region's courts heard in 2015 
decreased by approximately two-thirds from the previous two 
years, from about 300 to about 100 trials. Dui Hua Foundation 
analysis indicated that a corresponding rise in trials in the 
region for crimes related to ``cults'' and ``terrorism'' in the 
latest XUAR annual work report showed that these trials were 
previously handled as ESS trials.\40\
    Uyghur scholar Ilham Tohti remained in prison, where he is 
serving a life sentence on the charge of ``separatism,'' \41\ 
which falls under the category of ESS.\42\ According to a U.S.-
based news and advocacy website, in February 2016, authorities 
did not give Tohti's brother permission to visit him.\43\ Some 
observers expressed concern that Tohti may have been in ill 
health, and that this caused authorities to deny a visit, since 
Tohti's brother had reportedly planned to visit him that 
month.\44\
    Other political prisoners who remained in detention during 
the reporting year include:

        <bullet> Tudaxun Hoshur.\45\ Tudaxun Hoshur, the 
        brother of Uyghur-American Radio Free Asia (RFA) 
        reporter Shohret Hoshur, is serving a five-year 
        sentence on a charge involving ``endangering state 
        security.'' \46\ In December 2015, authorities released 
        two other Hoshur brothers, Shawket and Rexim, from 
        detention, reportedly following international advocacy 
        on their behalf.\47\ In January 2015, international 
        reports cited a statement from RFA that Chinese 
        authorities had sentenced Tudaxun Hoshur to prison in 
        2014 on ``state security'' charges, likely in 
        retaliation for Shohret's coverage of news in the XUAR, 
        though RFA did not release Tudaxun's name at that 
        time.\48\
        <bullet> Huseyin Celil.\49\ Officials in Uzbekistan 
        detained Uyghur-Canadian imam Celil in March 2006 when 
        he was traveling there, and in June 2006 extradited him 
        to China.\50\ In April 2007, a court in Urumqi 
        municipality reportedly sentenced Celil to life in 
        prison \51\ for ``the crime of separating the country 
        and organizing and leading a terrorist organization.'' 
        \52\ In February 2016, judicial authorities reportedly 
        reduced Celil's sentence to between 19 years and 6 
        months, and 20 years.\53\

    In addition, authorities reportedly released Uyghur Patigul 
Ghulam \54\ from detention in May 2016.\55\ Authorities 
detained Ghulam in May 2014, and subjected her to a closed 
trial on April 7, 2016, for ``leaking state secrets'' in an 
interview she gave to RFA.\56\ Ghulam had unsuccessfully 
pressed officials in Urumqi for information about her son, 
Imammemet Eli, whom authorities detained in July 2009, 
following demonstrations and riots that took place in 
Urumqi.\57\ Fellow detainees reportedly said authorities had 
``severely tortured'' Eli.\58\
    According to a June 18, 2016, RFA report, authorities in 
Guangzhou municipality, Guangdong province, detained at least 
10 Uyghur students on June 9 on terrorism-related charges.\59\ 
A spokesperson for a Uyghur rights organization expressed 
concern that authorities had not provided any details regarding 
the students' whereabouts.\60\ The students, who were 
originally from the southern part of the XUAR, had reportedly 
finished taking their college entrance examinations the day 
before their detentions, and were studying in Guangzhou as part 
of ``Xinjiang classes,'' a government program to send Uyghur 
students to schools in the eastern part of China.\61\

                     UYGHURS DEPORTED FROM THAILAND

    An international media report supported rights groups' 
concerns that Chinese authorities would persecute Uyghurs whom 
authorities had forcibly deported from Thailand in July 
2015.\62\ In October 2015, RFA reported that authorities in 
Awat county, Aksu prefecture, had forced 2 of the 109 Uyghurs 
forcibly deported from Thailand to participate in a film ``as a 
deterrent to others in the area not to flee the country and 
seek asylum elsewhere.'' \63\ Although it is unclear how widely 
the film was distributed, it follows a pattern of authorities' 
use of filmed or televised confessions across China, a tactic 
many in the legal profession have criticized as being in 
violation of Chinese law.\64\ [For more information on the use 
of televised ``confessions'' in China, see Section II--Criminal 
Justice.] RFA cited a local Party official as saying that an 
Awat county court had tried the two Uyghurs, who he suggested 
had ``illegally cross[ed] borders to join the holy war,'' and 
who he said ``would likely receive long prison sentences.'' 
\65\ In November 2015, Human Rights Watch expressed concern 
over the Chinese government's failure to provide information 
about the location or health of the group of deported 
Uyghurs.\66\

                           Development Policy

    During this reporting year, central and regional officials 
continued to focus on the role of economic growth and 
development initiatives in promoting stability in the XUAR.\67\ 
Through the ``Silk Road'' and ``One Belt, One Road'' 
development strategies they introduced in recent years, 
government authorities sought to attract overseas investment 
and investment from other areas of China, and to develop the 
XUAR as a production and logistics hub.\68\ Critics of XUAR 
development strategies outlined authorities' failure to address 
persistent tensions involving socio-economic inequality, ethnic 
tension, and assimilation.\69\
    Criticism of regional development ventures also included 
concern over their ecological effects.\70\ An April 2016 
Greenpeace briefing on air quality in China for the first 
quarter of 2016 reported that the five cities with the highest 
average PM<INF>2.5</INF> concentration, an air quality 
indicator, were all located in the XUAR.\71\ According to 
Greenpeace's analysis, increasing pollution in western areas of 
China, including the XUAR, is due to the shift of industries, 
such as the coal-power industry, from eastern areas subject to 
pollution limits to western areas not yet subject to the same 
restrictions.\72\ Kashgar city, Kashgar prefecture, which 
Greenpeace ranked as having the highest average 
PM<INF>2.5</INF> concentration out of more than 360 cities 
analyzed,\73\ has been a focus of industrial and economic 
development for XUAR officials for the past several years.\74\ 
A July 2016 report issued by a U.S.-based Uyghur rights 
organization also raised concerns about air pollution and the 
coal industry in the XUAR, noting that the coal industry had 
also brought about soil degradation, desertification and 
sandstorms, and groundwater depletion in the region.\75\
    In early 2016, XUAR authorities announced plans for the 
creation of new cities in the region, with officials 
highlighting the role of urbanization in both development and 
the maintenance of stability.\76\ In January 2016, the Xinjiang 
Production and Construction Corps (XPCC), an entity under the 
administration of both the central government and the XUAR 
government \77\ that plays a key role in development and 
urbanization in the XUAR,\78\ announced the State Council had 
approved its plan to establish the city of Kunyu in Hotan 
prefecture, in order to ``fight separatism, stabilize the 
border and promote economic development.'' \79\ According to a 
February 2016 state media report, XPCC authorities planned to 
transform the headquarters of each of the XPCC's 14 divisions 
into cities ``so they can better contribute to local social 
stability and development.'' \80\

                          Freedom of Religion

    Following XUAR authorities' November 2014 amendment of 
regional regulations governing religious affairs,\81\ central 
and XUAR officials continued to use new legislation and other 
measures that narrowed the scope of Uyghur Muslims' ability to 
peacefully practice their religious faith and express their 
Muslim cultural identity. In January 2016, state media reported 
that the regional legislature would begin to draft, within the 
year, regulations specifically targeting ``religious 
extremism.'' \82\ An amendment to the PRC Criminal Law that 
took effect in November 2015 \83\ prohibits individuals from 
``forcing others to wear clothes or symbols associated with 
terrorism and extremism,'' and provides for a maximum sentence 
of three years' imprisonment.\84\ Officials also promoted other 
policies and regulations in the previous reporting year that 
restricted Uyghur Muslims' attire, appearance, and 
behavior.\85\
    Authorities in locations throughout the XUAR also enforced 
controls on Uyghur Muslims in mosques and in their homes, and 
sought to restrict Islamic teaching outside of state control 
and prevent minors from participating in religious 
activities.\86\ In January 2016, authorities in Awat (Awati) 
county, Aksu prefecture, reportedly checked the identification 
documents of Uyghurs entering mosques for Friday prayers, in 
order to ensure they were either a local resident or registered 
as a local resident's guest.\87\ On January 1, 2016, an 
overseas Uyghur rights advocate said authorities in Kashgar 
city had recently detained at least 16 Uyghurs for collecting 
religious publications for children in their homes.\88\ In 
March 2016, Party-run media cited an official with the Xinjiang 
Islamic Association as saying that religious leaders had shut 
down all ``underground preaching sites'' in the XUAR.\89\ The 
official stressed the importance of religious leaders learning 
about political affairs in addition to religion, noting that 
clerics in one location taught ``government policies on 
religion'' in addition to the Quran.\90\
    Some Uyghur Muslims continued to serve prison sentences for 
the peaceful observance of their religious beliefs. In March 
2016, residents and officials in Aksu prefecture reportedly 
told Radio Free Asia (RFA) that local authorities had sentenced 
an imam and eight farmers to prison in 2015 for ``illegally 
practicing religion.'' \91\ According to RFA, authorities 
sentenced the government-designated imam, Eziz Emet, to nine 
years in prison in September 2015 on charges related to 
``teaching religion illegally'' in a local village, after he 
had ``taught some teenagers how to read the Quran and some 
Quranic verses for praying.'' \92\ The report stated that 
officials sentenced each of the farmers to seven years' 
imprisonment in February 2015 on charges of ``religious 
extremism'' related to ``praying together in places that 
authorities had not designated for Muslim worship.'' \93\ In 
addition, RFA reported in March that security personnel in 
Ghulja (Yining) municipality, Ili Kazakh Autonomous Prefecture, 
detained 41 Uyghurs for being ``religious extremists'' after 
they failed to attend the funeral of a ``prominent'' local 
member of the Chinese Communist Party.\94\
    In June 2016, the State Council Information Office released 
a white paper on religious freedom in the XUAR stating that 
authorities ``fully respected . . . citizens' freedom of 
religious belief.'' \95\ According to the white paper, ``[n]o 
Xinjiang citizen has been punished because of his or her 
rightful religious belief.'' \96\ The white paper further 
stated that during Ramadan, the decision regarding whether or 
not restaurants serving halal food would remain open ``is 
completely determined by the owners themselves without 
interference.'' \97\
    As in previous reporting years, local government officials 
throughout the XUAR reportedly maintained restrictions on 
Uyghurs' observance of Ramadan, forbidding government 
employees,\98\ students,\99\ and teachers \100\ from fasting. 
According to international media reports, authorities in some 
locations in the XUAR ordered restaurants and other food 
establishments to stay open during fasting hours.\101\ An 
international media report, citing a Uyghur rights advocate, 
said authorities in Qaghiliq (Yecheng) county, Kashgar 
prefecture, detained 5 Uyghurs, and authorities in Kuqa (Kuche) 
county, Aksu prefecture, detained 12 Uyghurs for encouraging 
people to fast during this year's Ramadan period.\102\

                         Freedom of Expression

    During the reporting period, central and regional officials 
placed restrictions on journalists covering XUAR-related 
issues, detained Uyghurs who wrote for websites, enforced 
controls on online communications tools in the XUAR, and 
restricted public information on violent incidents in the XUAR.

        <bullet> In one example of officials restricting news 
        media from opposing the state's narrative on the XUAR 
        and counterterrorism, in December 2015, authorities 
        failed to renew the press credentials of Beijing-based 
        French reporter Ursula Gauthier, effectively expelling 
        her from China.\103\ Gauthier reportedly was the first 
        foreign journalist Chinese authorities expelled since 
        Al Jazeera reporter Melissa Chan in 2012.\104\ Gauthier 
        had refused Chinese officials' requests to apologize 
        for an article she wrote for French publication L'Obs 
        in November 2015,\105\ in which she criticized Chinese 
        counterterrorism policies and authorities' ``pitiless 
        repression'' of Uyghurs.\106\ In November \107\ and 
        December 2015,\108\ the Foreign Correspondents' Club of 
        China issued statements criticizing what it viewed as 
        Chinese officials' and official media's intimidation of 
        Gauthier.
        <bullet> In another example, an ABC News journalist 
        reported being a target of state surveillance for at 
        least a day and a half while investigating conditions 
        in the southern part of the XUAR for a March 2016 
        report.\109\ According to the Foreign Correspondents' 
        Club of China, foreign journalists may lawfully travel 
        in the XUAR without a special permit,\110\ but in the 
        past officials in Kashgar municipality reportedly have 
        enforced ``local regulations'' requiring ``interview 
        permits.'' \111\
        <bullet> In November 2015, official media reported that 
        Communist Party authorities had removed former Xinjiang 
        Daily editor-in-chief Zhao Xinyu from his post and 
        expelled him from the Party,\112\ after he had 
        ``improperly discuss[ed], and publicly oppos[ed], 
        government policy'' in the XUAR,\113\ and had differed 
        from the Party on ``issues including ethnic separatism, 
        terrorism, and religious extremism.'' \114\

    According to a June 2016 RFA report, authorities in various 
locations in the XUAR detained five Uyghur website 
administrators and writers between March and May 2016, in order 
to prevent them from criticizing official restrictions on 
Uyghurs' activities during the Ramadan period.\115\ Authorities 
from Aksu prefecture reportedly detained one of the five, 
Tursunjan Memet, on March 29 in Korla city, Bayingol Mongol 
Autonomous Prefecture, and later arrested him on the charges of 
``inciting ethnic hatred'' and ``separatism,'' saying he had 
``use[d] the Misranim website as his platform to publish 
illegal writings.'' \116\ Authorities in Aksu prefecture 
reportedly detained another Uyghur, Omerjan Hesen, prior to May 
31.\117\ Officials announced on May 31 that they had expelled 
Hesen, a forestry bureau official who had also written for the 
Misranim website, from the Communist Party, and said he had 
written essays ``attacking the party and government's ethnic or 
religious policies in Xinjiang,'' among other activities.\118\ 
Authorities in Urumqi municipality reportedly detained Ababekri 
Muhtar, another of the five Uyghurs and the founder of 
Misranim, a week after authorities detained Tursunjan Memet, 
and released him on June 10.\119\ Muhtar previously had visited 
the United States with the support of the U.S. Embassy in 
China.\120\
    XUAR officials also limited access to online forums during 
the reporting year, and punished those seeking to bypass 
official Internet restrictions. In November 2015, authorities 
suspended mobile phone services for individuals who had used 
software to circumvent the Great Firewall, which Chinese 
authorities use to filter the Internet.\121\ Security personnel 
required affected individuals to visit local police stations to 
request the restoration of their phone services.\122\ Security 
personnel in Hotan, Kashgar, and Aksu prefectures reportedly 
increased monitoring of Uyghurs' electronic devices, including 
smart phones, for ``extremist'' religious content, in order to 
``ensure stability.'' \123\ Police in some cases detained 
individuals if their phones contained such content.\124\ In 
addition, in January 2016, XUAR authorities shut down two 
websites that served a predominantly Uyghur audience, which 
officials accused of ``damaging ethnic unity'' and transmitting 
``illegal content.'' \125\
    Continuing the pattern of a lack of transparency in 
reporting violent incidents,\126\ Chinese officials and 
official media failed to report on a deadly attack on workers 
at a coal mine on September 18, 2015, in Bay (Baicheng) county, 
Aksu prefecture, until around two months after the attack 
occurred.\127\ Radio Free Asia was the first to report news of 
the attack, citing, among others, a security guard working for 
the local township government who said authorities were 
``strictly controlling information'' about the incident.\128\ 
Following a November 2015 raid on the alleged perpetrators of 
the Bay county attack, the Ministry of Public Security (MPS) 
reportedly published a statement on social media lauding the 
raid that authorities apparently later deleted without 
explanation.\129\ Authorities also reportedly deleted an image 
originating from the MPS, and published by several media 
outlets, of a journal entry written by an officer who 
participated in the raid, indicating that he knew women and 
children were among the group of people targeted in the 
raid.\130\

                          Freedom of Movement

    As in past reporting years,\131\ officials continued to 
limit Uyghurs' access to travel freely. In June 2016, 
authorities in Ili Kazakh Autonomous Prefecture, issued new 
rules requiring residents applying for passports and other 
documents to provide DNA samples, fingerprints, and voice 
prints.\132\ In Guma (Pishan) county, Hotan prefecture, police 
reportedly restricted the visits of non-local residents by 
confiscating their identification documents, and officials 
required local residents seeking to travel to visit relatives 
or obtain medical treatment within the XUAR to ``first obtain a 
letter from village police describing past political 
involvements.'' \133\ In addition to official restrictions, in 
August 2016, ahead of the G20 Summit in September, an 
international media organization reported that a notice posted 
by a local property management group in Hangzhou municipality, 
Zhejiang province, said residents must report any Uyghur they 
saw to police, and if the person was confirmed to be Uyghur, 
the individual reporting him or her would receive a 500-yuan 
(approximately US$75) reward.\134\
    In a potentially positive development, in March 2016, 
official media reports indicated that XUAR authorities would 
abolish the ``convenience contact cards'' system in May 
2016.\135\ An official media report said the system, which 
authorities initiated in May 2014, required XUAR residents aged 
16 and over to register with authorities before moving to 
another part of the XUAR.\136\ Some international media reports 
said officials used the cards specifically to monitor and 
control Uyghurs.\137\ In addition, official media reports 
stated that in 2016, officials plan to revise passport issuance 
procedures and facilitate travel for XUAR residents.\138\ The 
reports followed a similar announcement by XUAR authorities in 
August 2015.\139\

                         Other Social Policies

    During the reporting year, XUAR authorities linked social 
policies in the areas of education and employment to political 
goals such as the ``sinicization'' of ethnic minority 
populations. In November 2015, XUAR Party Secretary Zhang 
Chunxian noted the importance of ``bilingual education'' in the 
region alongside ``ethnic blending'' \140\ and students' 
acceptance of the ``five identifies,'' that is, identifying 
with the country, Chinese nationality, Chinese culture, the 
Chinese Communist Party, and ``socialism with Chinese 
characteristics.'' \141\ Under ``bilingual education,'' class 
instruction for the general curriculum takes place primarily in 
Mandarin Chinese, largely replacing instruction in languages 
spoken by ethnic minority groups, which are relegated to the 
status of a secondary course, if they are taught at all.\142\ 
According to Xinhua, 69 percent of ethnic minority children in 
elementary and secondary schools received ``bilingual 
education'' as of the end of 2014, compared to 34 percent in 
2010.\143\ During this reporting year, officials announced 
plans to further expand ``bilingual education'' in the region's 
schools.\144\ ``Bilingual education'' in the XUAR contravenes 
legal protections for non-Han groups to maintain and use their 
own languages, and is inconsistent with the model of education 
outlined in the PRC Regional Ethnic Autonomy Law.\145\
    Reports indicated the existence of ethnic tensions amid an 
influx of Han Chinese workers in the XUAR,\146\ and in spite of 
some official efforts to create jobs for Uyghur residents of 
the XUAR,\147\ some government and private employers within the 
XUAR discriminated against non-Han job applicants. As in past 
reporting years,\148\ the Commission observed employment 
advertisements that reserved positions exclusively for Han 
Chinese, including civil servant and private-sector positions, 
in contravention of Chinese labor law.\149\ Private and public 
employers also continued to reserve some positions exclusively 
for men, leaving non-Han women to face both ethnic and gender 
discrimination in the hiring process.\150\

                                                       Xinjiang
                                                Xinjiang
    Notes to Section IV--Xinjiang

    \1\ ``China Stresses Stability, Security on Xinjiang's Founding 
Anniversary,'' Xinhua, 1 October 15. According to Yu, 
``Counterterrorism is the focus of our current work.''
    \2\ See, e.g., ``Mother of Uyghur Who Disappeared in 2009 Faces 
Charges Over Interview,'' Radio Free Asia, 30 March 16; `` `Strike 
Hard' Hits Uyghur Family,'' Radio Free Asia, 29 March 16; ``China 
Detains 41 Uyghurs Who Skipped a Funeral of a Local Communist 
Functionary,'' Radio Free Asia, 24 March 16.
    \3\ See, e.g., Andrew Jacobs, ``Xinjiang Seethes Under Chinese 
Crackdown,'' New York Times, 2 January 16; ``Police Increase Checks of 
Uyghur Smartphone Users in Xinjiang,'' Radio Free Asia, 8 January 16; 
Alyssa Abkowitz, ``China Doubles Down on Terrorism `Double Standards' 
Accusation,'' Wall Street Journal, China Real Time Report (blog), 3 
December 15.
    \4\ ``On the Eve of the New Year, Uyghurs From Various Regions Have 
Been Sent Back, While Urumqi City Enhances Security Measures To Counter 
Terrorism'' [Xin nian qianxi gedi weizu ren bei qianfan wushi tisheng 
anbao cuoshi fankong], Radio Free Asia, 30 January 16; Tom Phillips, `` 
`A Brighter Future Beckons': China Tries To Get Xinjiang To Join the 
Party,'' Guardian, 9 October 15.
    \5\ ``On the Eve of the New Year, Uyghurs From Various Regions Have 
Been Sent Back, While Urumqi City Enhances Security Measures To Counter 
Terrorism'' [Xin nian qianxi gedi weizuren bei qianfan wushi tisheng 
anbao cuoshi fankong], Radio Free Asia, 30 January 16.
    \6\ ``Authorities `Ensure Stability' Through Forced Labor for 
Uyghurs in Xinjiang Township,'' Radio Free Asia, 3 November 15.
    \7\ ``Meng Jianzhu Stresses at Counterterrorism Work Meeting [the 
Need To] Comprehensively Raise the Capacity and Standards of the 
Counterterrorism Fight'' [Meng jianzhu zai fan kongbu gongzuo huiyi 
shang qiangdiao quanmian tisheng fankong douzheng nengli shuiping], 
People's Daily, 12 December 15. See also Ben Blanchard, ``China 
Security Chief Calls for Greater `De-Radicalization' Efforts,'' 
Reuters, 16 November 15.
    \8\ See, e.g., Bureau of Counterterrorism and Countering Violent 
Extremism, U.S. Department of State, ``Country Reports on Terrorism 
2015,'' 2 June 16, chap. 2, overview; Simon Denyer and Xu Yangjingjing, 
``China Jails a Muslim for Six Years--For Refusing To Shave His 
Beard,'' Washington Post, WorldViews (blog), 30 March 15; UN Human 
Rights Council, Written Statement Submitted by the Society for 
Threatened Peoples, a Non-Governmental Organization in Special 
Consultative Status, A/HRC/28/NGO/68, 20 February 15, 2, 3.
    \9\ See, e.g., CECC, 2015 Annual Report, 8 October 15, 281-83; 
CECC, 2014 Annual Report, 9 October 14, 162-65; CECC, 2013 Annual 
Report, 10 October 13, 163-65.
    \10\ See, e.g., Human Rights Watch, ``China: Allow Independent 
Investigations Into Xinjiang Violence,'' 23 November 15; Chang Ping, 
``China's Double Standard,'' University of Hong Kong, China Media 
Project, 20 November 15; Andrew Jacobs, ``In a Region Disturbed by 
Ethnic Tensions, China Keeps Tight Lid on a Massacre,'' New York Times, 
18 October 15.
    \11\ ``Death Toll in Xinjiang Coal Mine Attack Climbs to 50,'' 
Radio Free Asia, 30 September 15; Andrew Jacobs, ``In a Region 
Disturbed by Ethnic Tensions, China Keeps Tight Lid on a Massacre,'' 
New York Times, 18 October 15.
    \12\ See, e.g., Tian Shan, ``Xinjiang Destroys a Violent Terrorist 
Gang Under the Direct Command of Foreign Extremist Organizations, 
Wiping Out All Thugs'' [Xinjiang dadiao yi jingwai jiduan zuzhi zhijie 
zhihui de baokong tuanhuo jianmie quanbu baotu], Tianshan Net, 20 
November 15.
    \13\ ``Authorities Identify 17 Suspects in Deadly Attack at 
Xinjiang Mine,'' Radio Free Asia, 16 October 15. See also Jun Mai, 
``Photos of Lead Suspects in China's Xinjiang Coal Mine Attack 
Released,'' South China Morning Post, 17 December 15.
    \14\ See, e.g., Tian Shan, ``Xinjiang Destroys a Violent Terrorist 
Gang Under the Direct Command of Foreign Extremist Organizations, 
Wiping Out All Thugs'' [Xinjiang dadiao yi jingwai jiduan zuzhi zhijie 
zhihui de baokong tuanhuo jianmie quanbu baotu], Tianshan Net, 20 
November 15; ``China Says Kills 28 Suspects in Xinjiang Coal Mine 
Attack After 56-Day Manhunt,'' Radio Free Asia, 20 November 15.
    \15\ ``Eleven of 28 Suspects Killed in Xinjiang Manhunt Believed 
Women, Children,'' Radio Free Asia, 24 November 15.
    \16\ Shu Chunping et al., `` `Counterterrorism Dagger' Protects the 
People's Safety--Commemorating the Xinjiang People's Armed Police Corps 
Fourth Detachment Secret Squadron'' [``Fankong jiandao'' bao renmin 
ping'an--ji wujing xinjiang zongdui si zhidui teqin zhongdui], People's 
Liberation Army Daily, 23 November 15. See also ``Eleven of 28 Suspects 
Killed in Xinjiang Manhunt Believed Women, Children,'' Radio Free Asia, 
24 November 15; ``China Used Flamethrowers To Hunt Xinjiang 
Terrorists'' [Zhongguo wujing yi huoyan penshe qi yingdui ``baokong 
fenzi''], Voice of America, 23 November 15.
    \17\ Yao Tong and Sui Yunyan, ``Xinjiang Counterterrorism 
Commendation and Mobilization Meeting Held'' [Xinjiang fankong 
biaozhang ji dongyuan bushu huiyi zhaokai], Tianshan Net, 12 December 
15; ``China Says Senior Uygur Official Killed During Raid in 
Xinjiang,'' Reuters, reprinted in South China Morning Post, 14 December 
15.
    \18\ ``China Adopts First Counter-Terrorism Law,'' Xinhua, 27 
December 15. See also PRC Counterterrorism Law [Zhonghua renmin 
gongheguo fan kongbu zhuyi fa], passed 27 December 15, effective 1 
January 16, chap. 7.
    \19\ Peter Mattis, ``New Law Reshapes Chinese Counterterrorism 
Policy and Operations,'' Jamestown Foundation, China Brief, Vol. 16, 
Issue 2, 25 January 16, 3-6; PRC Counterterrorism Law [Zhonghua renmin 
gongheguo fan kongbu zhuyi fa], passed 27 December 15, effective 1 
January 16, arts. 53, 62. For the January 1, 2016 date that the law 
took effect, see Article 97 in Chapter 10 (supplementary provisions).
    \20\ PRC Counterterrorism Law [Zhonghua renmin gongheguo fan kongbu 
zhuyi fa], passed 27 December 15, effective 1 January 16, arts. 53, 62. 
See Chapter 1 for the definition of what constitutes terrorist 
activity, Chapters 1 and 3 for guidelines regarding establishing 
counterterrorism institutions and for enhancing security, Chapter 4 for 
the coordination of intelligence gathering, and Chapter 6 for the 
coordination of emergency response measures.
    \21\ See, e.g., Freedom House, ``China's `Anti-Terrorism' Law 
Further Restricts Rights,'' 28 December 15; Uyghur Human Rights 
Project, ``Briefing: China's New Counter-Terrorism Law and Its Human 
Rights Implications for the Uyghur People,'' 1 February 16; Euan 
McKirdy, ``China Approves Wide-Ranging Counter Terrorism Law,'' CNN, 28 
December 15; Cherie Chan, ``China Set To Pass Controversial Anti-
Terrorism Law,'' Deutsche Welle, 22 December 15.
    \22\ Office of Press Relations, U.S. Department of State, ``Daily 
Press Briefing--December 28, 2015,'' 28 December 15.
    \23\ ``All of Xinjiang Launches Activity To `Deeply Study 
Propaganda on the ``Counterterrorism Law'' To Fully Promote Social 
Stability' '' [Quan jiang qidong ``shenru xuexi xuanchuan `fan kongbu 
zhuyi fa' quanli cujin shehui wending'' huodong], Xinjiang Daily, 25 
February 16. See also Ben Blanchard, ``China's Xinjiang To Use 
Entertainment, Possibly Singing and Dancing, in Terror Fight,'' 
Reuters, 24 February 16.
    \24\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Uyghur Autonomous Region Implementing Measures for 
the ``PRC Counterterrorism Law'' [Xinjiang weiwu'er zizhiqu shishi 
``zhonghua renmin gongheguo fan kongbu zhuyi fa'' banfa], issued 29 
July 16, effective 1 August 16.
    \25\ Bai Tiantian, ``Xinjiang To Confine Radicals in Solitary in 
New Anti-Terror Rule,'' Global Times, 2 August 16. See also Xinjiang 
Uyghur Autonomous Region People's Congress Standing Committee, Xinjiang 
Uyghur Autonomous Region Implementing Measures for the ``PRC 
Counterterrorism Law'' [Xinjiang weiwu'er zizhiqu shishi ``zhonghua 
renmin gongheguo fan kongbu zhuyi fa'' banfa], issued 29 July 16, 
effective 1 August 16; PRC Counterterrorism Law [Zhonghua renmin 
gongheguo fan kongbu zhuyi fa], passed 27 December 15, effective 1 
January 16.
    \26\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Uyghur Autonomous Region Implementing Measures for 
the ``PRC Counterterrorism Law'' [Xinjiang weiwu'er zizhiqu shishi 
``zhonghua renmin gongheguo fan kongbu zhuyi fa'' banfa], issued 29 
July 16, effective 1 August 16, art. 40. See also Chong Koh Ping, 
``Xinjiang Gets Tough on Terrorism,'' Straits Times, 5 August 16.
    \27\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Uyghur Autonomous Region Implementing Measures for 
the ``PRC Counterterrorism Law'' [Xinjiang weiwu'er zizhiqu shishi 
``zhonghua renmin gongheguo fan kongbu zhuyi fa'' banfa], issued 29 
July 16, effective 1 August 16, art. 6(6). See also PRC 
Counterterrorism Law [Zhonghua renmin gongheguo fan kongbu zhuyi fa], 
passed 27 December 15, effective 1 January 16, art. 3; Bai Tiantian, 
``Xinjiang To Confine Radicals in Solitary in New Anti-Terror Rule,'' 
Global Times, 2 August 16.
    \28\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Uyghur Autonomous Region Implementing Measures for 
the ``PRC Counterterrorism Law'' [Xinjiang weiwu'er zizhiqu shishi 
``zhonghua renmin gongheguo fan kongbu zhuyi fa'' banfa], issued 29 
July 16, effective 1 August 16, art. 51(2); PRC Counterterrorism Law 
[Zhonghua renmin gongheguo fan kongbu zhuyi fa], passed 27 December 15, 
effective 1 January 16, chap. 9, art. 81.
    \29\ ``Xinjiang Regional Government Passes New Counterterrorism 
Law,'' Radio Free Asia, 5 August 16.
    \30\ Luo Yufan, ``China Internet Illegal and Harmful Information 
Reporting Center Calls on the Majority of Internet Users To Actively 
Report Online Harmful Terrorist Information'' [Zhongguo hulian wang 
weifa he buliang xinxi jubao zhongxin huyu guangda wangmin jiji jubao 
wangshang baokong youhai xinxi], Xinhua, 8 February 16; Brenda Goh, 
``China Offers Rewards for Online `Terrorist' Tip-Offs--Xinhua,'' 
Reuters, 8 February 16.
    \31\ ``Chinese Offer Reward for Information on Terrorism, Religion 
in Xinjiang,'' Radio Free Asia, 12 April 16.
    \32\ Xu Hairong, ``Secretary of the Xinjiang Commission for 
Discipline Inspection: Some Individual Officials Are Two-Faced on the 
Issue of Counterterrorism'' [Xinjiang jiwei shuji: gebie guanyuan zai 
fan kongbu wenti shang wan liangmian ren], Central Commission for 
Discipline Inspection News, reprinted in Caijing, 24 January 16; 
``Xinjiang Officials Backed and Took Part in Terror Acts but Security 
Crackdown To Go On: Discipline Official,'' South China Morning Post, 24 
January 16.
    \33\ Xu Hairong, ``Strict Political Discipline To Achieve Long-Term 
Stability'' [Yanming zhengzhi jilu shixian changzhi jiu'an], Central 
Commission for Discipline Inspection News, 24 November 15; ``Communist 
Party Official Accuses Some Xinjiang Cadres of Supporting `Terrorist 
Acts,' '' Reuters, reprinted in South China Morning Post, 25 November 
15.
    \34\ ``Communist Party Official Accuses Some Xinjiang Cadres of 
Supporting `Terrorist Acts,' '' Reuters, reprinted in South China 
Morning Post, 25 November 15; ``Xinjiang Daily Editor-in-Chief Is 
Doubly Expelled, Anti-Terror Rhetoric Inconsistent With Central 
Government'' [Xinjiang ribao yuan zong bianji bei shuangkai fan baokong 
yanlun yu zhongyang bu yizhi], China News Service, 2 November 15.
    \35\ Tom Phillips, ``Chinese Newspaper Editor Sacked for 
Criticising Beijing's `War on Terror,' '' Guardian, 2 November 15.
    \36\ Li Ruohan, ``Party Boots Out Xinjiang Editor,'' Global Times, 
3 November 15.
    \37\ Central Commission for Discipline Inspection, ``Former XUAR 
People's Government Secretary General Alimjan Maimaitiming Doubly 
Expelled'' [Xinjiang qu renmin zhengfu yuan mishuzhang alimujiang 
maimaitiming bei shuangkai], 28 February 16; ``China To Prosecute Two 
Senior Officials From Xinjiang Over Graft,'' Reuters, 29 February 16. 
For information on other senior regional Party officials punished, see, 
e.g., ``China To Prosecute Former Head of Xinjiang Border Guards,'' 
Associated Press, reprinted in New York Times, 3 November 15; ``China 
Jails Former Party Chief of Xinjiang's Capital for Graft,'' Reuters, 20 
January 16.
    \38\ Dui Hua Foundation, ``China State Security Trials Fell 50 
Percent in 2015, Official Data Suggest,'' Dui Hua Human Rights Journal, 
6 April 16.
    \39\ ``Annual Work Report of Xinjiang Courts (2015)'' [Xinjiang 
fayuan gongzuo niandu baogao (2015 nian)], Xinjiang Court Net, 13 
January 16.
    \40\ Dui Hua Foundation, ``China State Security Trials Fell 50 
Percent in 2015, Official Data Suggest,'' Dui Hua Human Rights Journal, 
6 April 16.
    \41\ ``Tohti Verdict Upheld,'' Global Times, 22 November 14.
    \42\ Josh Chin, ``China's New Strategy in Prosecuting Critics,'' 
Wall Street Journal, China Real Time Report (blog), 13 March 14.
    \43\ Yaxue Cao, ``Brother Denied Right To Visit Ilham Tohti, 
Moderate Uighur Scholar Sentenced to Life in Prison,'' China Change, 24 
February 16. For Commission analysis of Ilham Tohti's case, see, e.g., 
``Lawyers Cite Procedural Violations, Await Decision on Appeal in Ilham 
Tohti Case,'' Congressional-Executive Commission on China, 17 November 
14; ``Chinese Authorities Arrest Uyghur Scholar Ilham Tohti and 
Students,'' Congressional-Executive Commission on China, 4 March 14. 
For more information on Ilham Tohti, see the Commission's Political 
Prisoner Database record 2009-00315.
    \44\ Ibid.
    \45\ For more information on Tudaxun Hoshur, see the Commission's 
Political Prisoner Database record 2015-00471.
    \46\ Michael Forsythe, ``China Frees 2 Brothers of U.S. Reporter 
for Radio Free Asia,'' New York Times, 31 December 15; Simon Denyer, 
``Release of Reporter's Brothers Shows China Does Heed Foreign 
Pressure,'' Washington Post, 31 December 15.
    \47\ Simon Denyer, ``Release of Reporter's Brothers Shows China 
Does Heed Foreign Pressure,'' Washington Post, 31 December 15. For more 
information, see the Commission's Political Prisoner Database records 
2016-00002 on Shawket Hoshur and 2016-00003 on Rexim Hoshur.
    \48\ Bob Dietz, Committee to Protect Journalists, ``China's Long-
Distance Tactic To Suppress Uighur Coverage,'' Committee to Protect 
Journalists (blog), 7 January 15; Simon Denyer, ``China Uses Long-Range 
Intimidation of U.S. Reporter To Suppress Xinjiang Coverage,'' 
Washington Post, 8 January 15.
    \49\ For more information on Huseyin Celil, see the Commission's 
Political Prisoner Database record 2016-00284.
    \50\ Adam Miller and Francesca Fionda, ``10 Years Later, Family of 
Canadian in Chinese Prison Still Looking for Answers,'' Global News, 17 
March 16.
    \51\ ``Xinjiang Terrorist Sentenced to Life,'' Xinhua, reprinted in 
China Daily, 19 April 07.
    \52\ UN Committee against Torture, Written Replies by the 
Government of the People's Republic of China to the List of Issues 
(CAT/C/CHN/4) To Be Taken Up in Connection With the Consideration of 
the Fourth Periodic Report of CHINA (CAT/C/CHN/4), CAT/C/CHN/Q/4/Add.1 
(Future), 10 September 08, para 8. In the Chinese government's written 
reply, ``Yushan Jiang'' refers to Huseyin Celil.
    \53\ ``Xinjiang Commutes Sentences for 11 Offenders,'' Xinhua, 2 
February 16. ``Yushanjiang Jelili'' in the Xinhua article refers to 
Huseyin Celil.
    \54\ For more information on Patigul Ghulam, see the Commission's 
Political Prisoner Database record 2016-00149.
    \55\ ``Mother of Disappeared Uyghur Man Released After Two Years in 
Detention,'' Radio Free Asia, 31 May 16.
    \56\ ``Mother of Uyghur Who Disappeared in 2009 Faces Charges Over 
Interview,'' Radio Free Asia, 30 March 16. See also Sophie Richardson, 
Human Rights Watch, ``Dispatches: Mother's Search for Son Triggers 
Prosecution in China,'' 7 April 16; Uyghur Human Rights Project, ``The 
Uyghur Human Rights Project Urges Concerned Governments To Call for the 
Immediate and Unconditional Release of Patigul Ghulam,'' 4 April 16.
    \57\ ``Mother of Uyghur Who Disappeared in 2009 Faces Charges Over 
Interview,'' Radio Free Asia, 30 March 16. See also Uyghur Human Rights 
Project, ``The Uyghur Human Rights Project Urges Concerned Governments 
To Call for the Immediate and Unconditional Release of Patigul 
Ghulam,'' 4 April 16.
    \58\ Ibid.
    \59\ ``Ten Uyghur Students in a Guangzhou High School Xinjiang 
Class Are Detained for Involvement in Terrorism'' [Guangzhou yi 
zhongxue xinjiang ban 10 weizu xuesheng she kong bei bu], Radio Free 
Asia, 18 June 16.
    \60\ Ibid.
    \61\ Ibid. For more information on ``Xinjiang classes,'' see, e.g., 
``Don't Make Yourself at Home,'' Economist, 17 January 15.
    \62\ For information on rights groups' concerns regarding the 
deportation, see, e.g., ``Turkish NGOs Rally for Help to Uighurs in 
Thailand,'' Daily Sabah, 13 January 15; Uyghur American Association, 
``Uyghur American Association Urges UNHCR and the United States To Work 
Closely With Thai Government on Resettlement of Uyghur Refugees,'' 19 
November 14; Human Rights Watch, ``Thailand: Don't Forcibly Return 
Uighurs to China,'' 14 March 14.
    \63\ ``Repatriated Uyghurs Forced To Make Film About Fleeing China 
for Thailand,'' Radio Free Asia, 21 October 15.
    \64\ See, e.g., Josh Chin, ``Chinese Judge Criticizes Televised 
Confessions,'' Wall Street Journal, China Real Time Report (blog), 15 
March 16; Tom Phillips, ``Anger as Christian Lawyer Paraded on Chinese 
State TV for `Confession,' '' Guardian, 26 February 16; Mimi Lau, `` 
`Pull Plug on China's Televised Confessions' Urges Top Political 
Adviser Ahead of Meeting of Country's Legislature,'' South China 
Morning Post, 2 March 16.
    \65\ ``Repatriated Uyghurs Forced To Make Film About Fleeing China 
for Thailand,'' Radio Free Asia, 21 October 15.
    \66\ Human Rights Watch, ``China: Allow Independent Investigations 
Into Xinjiang Violence,'' 23 November 15. For more information on the 
109 Uyghurs forcibly deported from Thailand in July 2015, see CECC, 
2015 Annual Report, 8 October 15, 288.
    \67\ See, e.g., Clifford Coonan, ``Development Key To Stabilising 
Xinjiang, Says Li Keqiang,'' Irish Times, 11 March 16; Chu Xuejun et 
al., ``Promote Long-Term Stability, Rush Towards a Comprehensive Well-
Off Society'' [Tuidong changzhi jiu'an, ben xiang quanmian xiaokang], 
Xinhua, 17 December 15.
    \68\ See, e.g., ``Xinhua Insight: Xinjiang Pivotal in Silk Road 
Revival,'' Xinhua, 1 October 15; Dominique Patton, ``Xinjiang Cotton at 
Crossroads of China's New Silk Road,'' Reuters, 11 January 16; Wade 
Shepard, ``The Complex Impact of Urbanization in Xinjiang,'' The 
Diplomat, 16 December 15.
    \69\ See, e.g., Alice Su, ``A Muslim Minority Keeps Clashing With 
the `China Dream' in the Country's Increasingly Wild West,'' Vice News, 
8 December 15; James Estrin, ``Valuing Culture as Much as Money in an 
Ancient Chinese City,'' New York Times, Lens (blog), 10 August 16; 
Michael Clarke, ``Cracks in China's New Silk Road,'' University of 
Nottingham, China Policy Institute: Analysis (blog), 15 March 16; 
``Chinese Policy Leaves Uyghurs Impoverished in Xinjiang's Hotan 
Prefecture, Farmers Say,'' Radio Free Asia, 1 April 16; Wade Shepard, 
``The Complex Impact of Urbanization in Xinjiang,'' The Diplomat, 16 
December 15; Andrew Fischer, ``Comparing Tibet and Xinjiang Through the 
Structural Dimensions of Socio-Economic Change,'' University of 
Nottingham, China Policy Institute: Analysis (blog), 14 March 16.
    \70\ See, e.g., Dominique Patton, ``Xinjiang Cotton at Crossroads 
of China's New Silk Road,'' Reuters, 11 January 16; Rob Schmitz, ``A 
Trove of Coal Pushes China's Pollution Westward,'' Marketplace, 3 
December 15; Greenpeace, ``Media Briefing: Greenpeace City Rankings, 
First Quarter 2016 PM<INF>2.5</INF>: As Eastern China's Air Quality 
Improves Rapidly, 69 Cities in Central and Western China See Air 
Quality Deteriorating,'' 20 April 16; Li Jing, ``Where in China Can You 
Find the Worst Air Pollution? You Might Be Surprised . . .,'' South 
China Morning Post, 20 April 16.
    \71\ Greenpeace, ``Media Briefing: Greenpeace City Rankings, First 
Quarter 2016 PM<INF>2.5</INF>: As Eastern China's Air Quality Improves 
Rapidly, 69 Cities in Central and Western China See Air Quality 
Deteriorating,'' 20 April 16.
    \72\ Ibid.
    \73\ Ibid.
    \74\ See, e.g., ``Xinhua Insight: Xinjiang Pivotal in Silk Road 
Revival,'' Xinhua, 1 October 15; Benjamin Shook, ``Kashgar, Nanjiang,'' 
China in Central Asia (blog), 6 October 14; Sara Hsu, ``Economic Zones 
and Infrastructure on China's Silk Road,'' The Diplomat, 21 January 15.
    \75\ Uyghur Human Rights Project, ``Without Land, There Is No Life: 
Chinese State Suppression of Uyghur Environmental Activism,'' 20 July 
16, 42.
    \76\ See, e.g., Wang Ge, ``XPCC Fourteenth Division Receives 
Approval To Establish County-Level Kunyu City, at the `Forefront of the 
Struggle Against Separatism' '' [Xinjiang bingtuan shisi shi huo zhun 
she xianji kunyu shi, chuyu ``fan fenlie douzheng zui qianyan''], The 
Paper, 21 January 16; Liu Xin, ``New City To Rise in Southern Xinjiang 
Near the Separatist Hotbed,'' Global Times, 22 January 16; Cui Jia, 
``Newest City To Boost Xinjiang Stability,'' China Daily, 29 February 
16.
    \77\ State Council Information Office, ``The History and 
Development of the Xinjiang Production and Construction Corps,'' 5 
October 14, sec. II.
    \78\ See, e.g., Wade Shepard, ``The Complex Impact of Urbanization 
in Xinjiang,'' The Diplomat, 16 December 15.
    \79\ Liu Xin, ``New City To Rise in Southern Xinjiang Near the 
Separatist Hotbed,'' Global Times, 22 January 16. See also Wang Ge, 
``XPCC Fourteenth Division Receives Approval To Establish County-Level 
Kunyu City, at the `Forefront of the Struggle Against Separatism' '' 
[Xinjiang bingtuan shisi shi huo zhun she xianji kunyu shi, chuyu ``fan 
fenlie douzheng zui qianyan''], The Paper, 21 January 16; Wang Se, 
``China's Youngest City Is Established in Xinjiang, Named Kunyu City'' 
[Zhongguo zui nianqing chengshi zai xinjiang gua pai chengli qu ming 
kunyu shi], Guangming Daily, reprinted in Xinhua, 28 February 16; Cui 
Jia, ``Newest City To Boost Xinjiang Stability,'' China Daily, 29 
February 16.
    \80\ Cui Jia, ``Newest City To Boost Xinjiang Stability,'' China 
Daily, 29 February 16.
    \81\ Xinjiang Uyghur Autonomous Region, Regulations on Religious 
Affairs [Xinjiang weiwu'er zizhiqu zongjiao shiwu tiaoli], issued 28 
November 14, effective 1 January 15; Cui Jia, ``Curbs on Religious 
Extremism Beefed Up in Xinjiang,'' China Daily, 29 November 14; Li 
Ya'nan, ``Placing Religious Work Under Legal Management (Striding 
Toward a China Ruled by Law)'' [Jiang zongjiao gongzuo naru fazhihua 
guanli (maixiang fazhi zhongguo)], People's Daily, 30 November 14.
    \82\ Cui Jia, ``Xinjiang Drafting 1st Statute Against Religious 
Extremism,'' China Daily, 14 January 16.
    \83\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xing fa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, item 7(4).
    \84\ Li Ruohan, ``Court Names New Extremism-Related Crimes,'' 
Global Times, 2 November 15.
    \85\ See, e.g., Urumqi Municipal People's Congress Standing 
Committee, Provisions Banning the Wearing of Facial or Body Coverings 
in Public Places in Urumqi Municipality [Wulumuqi shi gonggong changsuo 
jinzhi chuandai mengmian zhaopao de guiding], issued 10 December 14, 
effective 1 February 15; XUAR People's Congress Standing Committee, 
Decision Regarding the Approval of the ``Provisions Banning the Wearing 
of Facial or Body Coverings in Public Places in Urumqi Municipality'' 
[Zizhiqu renda changweihui guanyu pizhun ``wulumuqi shi gonggong 
changsuo jinzhi chuandai mengmian zhaopao de guiding'' de jueding], 10 
January 15, reprinted in Tianshan Net; ``Xinjiang Legislature Approves 
Burqa Ban,'' Xinhua, 10 January 15; Liu Xia, ``Kashgar, Xinjiang Holds 
Conference in Recognition of `Visit the People, Care for the People's 
Livelihoods, Win People's Hearts' Workers'' [Xinjiang kashi zhaokai 
``fang minqing hui minsheng ju minxin'' huodong biaozhang dongyuan 
dahui], Tianshan Net, 27 January 15; Cao Siqi, ``Xinjiang Counties 
Identify 75 Forms of Religious Extremism,'' Global Times, 25 December 
14; ``Xinjiang Agency Organizes the Public To Identify 75 Types of 
Religious Extremist Activities'' [Xinjiang judi zuzhi minzhong shibie 
75 zhong zongjiao jiduan huodong], Observer, reprinted in Sina, 24 
December 14; ``Chinese Authorities Order Muslim Uyghur Shop Owners To 
Stock Alcohol, Cigarettes,'' Radio Free Asia, 4 May 15; CECC, 2015 
Annual Report, 8 October 15, 285-86.
    \86\ For information on how authorities prevent minors from 
participating in religious activities, see, e.g., Yili Vocational 
Secondary School (Yili Normal School), ``Yili Vocational Secondary 
(Normal) School Holds Work Meetings on Security and Stability During 
Ramadan'' [Yili zhiye zhongzhuan (shifan) xuexiao zhaokai zhaiyue 
qijian anquan wending gongzuo huiyi], 4 June 16; ``China Restricts 
Ramadan Fasting in Muslim Region,'' Agence France-Presse, reprinted in 
Hong Kong Free Press, 7 June 16.
    \87\ ``Controls on Uyghur Villages, Mosques Continue Into New 
Year,'' Radio Free Asia, 6 January 16.
    \88\ ``Police Conduct Counterterrorism Exercises in Various 
Locations on New Year's Day, 16 Uyghurs Are Arrested for Involvement in 
[Religious Activities] in Kashgar, Xinjiang'' [Yuandan ri gedi jingfang 
fankong yanxi xinjiang kasha 16 weizu ren she zongjiao bei bu], Radio 
Free Asia, 1 January 16.
    \89\ Jiang Jie, ``Xinjiang Underground Preaching Sites Shut Down: 
Islamic Leader,'' Global Times, 8 March 16.
    \90\ Ibid.
    \91\ ``Uyghur Imam, Farmers Sentenced for Illegally Practicing 
Religion in China's Xinjiang,'' Radio Free Asia, 16 March 16.
    \92\ Ibid.
    \93\ Ibid.
    \94\ ``China Detains 41 Uyghurs Who Skipped a Funeral of a Local 
Communist Functionary,'' Radio Free Asia, 24 March 16.
    \95\ State Council Information Office, ``Freedom of Religious 
Belief in Xinjiang,'' June 2016, translated and reprinted in Xinhua, 2 
June 16, sec. Conclusion.
    \96\ Ibid., sec. IV.
    \97\ Ibid., sec. II.
    \98\ ``In Xinjiang, Eating and Drinking During Ramadan Reveals the 
Nature of Communist Party Members'' [Zai xinjiang, zhaiyue chi he fang 
xian gongchandang yuan bense], Voice of America, 16 June 16.
    \99\ Department of Basic Education, Xinjiang Vocational and 
Technical College of Construction, ``Department of Basic Education 
Conducts In-Depth Security and Stability Inspections of Construction 
College Area Dormitories During Ramadan'' [Jichu jiaoxuebu shenru 
chengjian xiaoqu sushe lou jinxing fengzhai qijian anquan wending da 
jiancha], 8 June 16; Yili Vocational Secondary School (Yili Normal 
School), ``Yili Vocational Secondary (Normal) School Holds Work Meeting 
on Security and Stability During Ramadan'' [Yili zhiye zhongzhuan 
(shifan) xuexiao zhaokai zhaiyue qijian anquan wending gongzuo huiyi], 
4 June 16; Shufu County Vocational and Technical School, ``Work Meeting 
on School Security and Stability During Ramadan'' [Zhaiyue qijian 
xuexiao anquan wending gongzuo huiyi], 14 June 16.
    \100\ Yili Vocational Secondary School (Yili Normal School), ``Yili 
Vocational Secondary (Normal) School Holds Work Meeting on Security and 
Stability During Ramadan'' [Yili zhiye zhongzhuan (shifan) xuexiao 
zhaokai zhaiyue qijian anquan wending gongzuo huiyi], 4 June 16; Shufu 
County Vocational and Technical School, ``Work Meeting on School 
Security and Stability During Ramadan'' [Zhaiyue qijian xuexiao anquan 
wending gongzuo huiyi], 14 June 16.
    \101\ ``China Restricts Ramadan Fast for Muslim Uyghurs in 
Xinjiang,'' Radio Free Asia, 9 June 16; ``As World's Muslims Enter 
Ramadan, China Raises Its Guard'' [Shijie musilin jinru zhaiyue 
zhongguo tigao le jingti], BBC, 6 June 16; ``China Restricts Ramadan 
Fasting in Muslim Region,'' Agence France-Presse, reprinted in Hong 
Kong Free Press, 7 June 16.
    \102\ ``China Enters Ramadan With Round-the-Clock Surveillance of 
Mosques, Uyghurs,'' Radio Free Asia, 6 June 16.
    \103\ Ministry of Foreign Affairs, ``Foreign Ministry Spokesperson 
Lu Kang's Regular Press Conference on December 28, 2015,'' 28 December 
15; ``Interview: `You Cannot Call That Terrorist Simply Because Many 
People Died,' '' Radio Free Asia, 25 February 16. See also Tom 
Phillips, ``Ursula Gauthier: Foreign Media Must Fight China Censorship, 
Says Expelled Journalist,'' Guardian, 31 December 15.
    \104\ Michael Forsythe, ``Journalist Says China May Expel Her for 
Article on Uighurs,'' New York Times, 22 December 15.
    \105\ ``Opinion: Press Freedom No Excuse for Advocating 
Terrorism,'' Xinhua, 28 December 15; Ministry of Foreign Affairs, 
``Foreign Ministry Spokesperson Lu Kang's Regular Press Conference on 
December 28, 2015,'' 28 December 15.
    \106\ Tom Phillips, ``Ursula Gauthier: Foreign Media Must Fight 
China Censorship, Says Expelled Journalist,'' Guardian, 31 December 15.
    \107\ Foreign Correspondents' Club of China (@fccchina), ``FCCC 
Statement: Intimidation of Journalist,'' Twitter post, 28 November 15, 
10:09 p.m.
    \108\ Foreign Correspondents' Club of China (@fccchina), 
``Expulsion of Ursula Gauthier,'' Twitter post, 26 December 15, 6:39 
a.m.
    \109\ ``Xinjiang: Bob Woodruff's Journey Inside Alleged ISIS 
Breeding Ground'' [online video clip], ABC News, 29 March 16, 15:45 to 
17:20.
    \110\ Foreign Correspondents' Club of China, ``Sensitive Areas and 
Topics,'' last visited 20 May 16.
    \111\ See, e.g., Foreign Correspondents' Club of China, ``Sensitive 
Areas and Topics,'' last visited 20 May 16.
    \112\ ``Xinjiang Daily Former Editor-in-Chief Is Doubly Expelled, 
Anti-Terror Rhetoric Inconsistent With Central Government'' [Xinjiang 
ribao yuan zong bianji bei shuangkai fan baokong yanlun yu zhongyang bu 
yizhi], China News Service, 2 November 15.
    \113\ Tom Phillips, ``Chinese Newspaper Editor Sacked for 
Criticising Beijing's `War on Terror,' '' Guardian, 2 November 15.
    \114\ Li Ruohan, ``Party Boots Out Xinjiang Editor,'' Global Times, 
3 November 15.
    \115\ ``Authorities Detain Uyghur Web Masters and Writers in 
China's Xinjiang,'' Radio Free Asia, 13 June 16.
    \116\ Ibid.
    \117\ Ibid.
    \118\ Ibid.
    \119\ Ibid.
    \120\ Ibid.
    \121\ Paul Mozur, ``China Cuts Mobile Service of Xinjiang Residents 
Evading Internet Filters,'' New York Times, 23 November 15.
    \122\ Ibid.
    \123\ ``Police Increase Checks of Uyghur Smartphone Users in 
Xinjiang,'' Radio Free Asia, 8 January 16.
    \124\ Ibid.
    \125\ Tian Shan, ``XUAR Cyberspace Administration Office To 
Investigate According to Law Two Websites Which Spread Illegal 
Content'' [Xinjiang wangxinban yifa chachu liang jia chuanbo feifa 
neirong de wangzhan], Tianshan Net, 25 January 16; ``Two Uyghur 
Websites Accused of Harming Ethnic Unity Are Punished, Two Weixin 
Platforms in Xinjiang Closed for Headlines `Courting Disaster' '' 
[Liang weizu wangzhan bei zhi pohuai minzu tuanjie zao fa xinjiang 
liang weixin pingtai biaoti ``rehuo'' bei fenghao], Radio Free Asia, 27 
January 16. See also State Council, Measures for the Administration of 
Internet Information Services [Hulian wang xinxi fuwu guanli banfa], 
issued and effective 25 September 00, arts. 13, 15(4); National 
People's Congress Standing Committee, Decision on Safeguarding Internet 
Safety [Quanguo renmin daibiao dahui changwu weiyuanhui guanyu weihu 
hulian wang anquan de jueding], issued 28 December 00, art. 2(3).
    \126\ See, e.g., CECC, 2015 Annual Report, 8 October 15, 281-82, 
286-87; CECC, 2014 Annual Report, 9 October 14, 162-64.
    \127\ Michael Martina and Ben Blanchard, ``China Says 28 Foreign-
Led `Terrorists' Killed After Attack on Mine,'' Reuters, 20 November 
15; Andrew Jacobs, ``In a Region Disturbed by Ethnic Tensions, China 
Keeps Tight Lid on a Massacre,'' New York Times, 18 October 15; Tian 
Shan, ``Xinjiang Destroys a Violent Terrorist Gang Under the Direct 
Command of Foreign Extremist Organizations, Wiping Out All Thugs'' 
[Xinjiang dadiao yi jingwai jiduan zuzhi zhijie zhihui de baokong 
tuanhuo jianmie quanbu baotu], Tianshan Net, 20 November 15.
    \128\ ``Knife Attack at Xinjiang Coal Mine Leaves 40 Dead, 
Injured,'' Radio Free Asia, 22 September 15; Andrew Jacobs, ``In a 
Region Disturbed by Ethnic Tensions, China Keeps Tight Lid on a 
Massacre,'' New York Times, 18 October 15. See also Stuart Leavenworth, 
``China Slams a Lid on News of Violence From Its Western Frontier,'' 
McClatchy News, 1 October 15.
    \129\ James T. Areddy, ``China Ministry Links Antiterror Efforts to 
Paris Tragedy,'' Wall Street Journal, China Real Time Report (blog), 15 
November 15; Ben Blanchard, ``China Shows Unusual Pictures of Its Fight 
Against Terror,'' Reuters, 14 November 15.
    \130\ Javier C. Hernandez, ``China Acknowledges Killing 28 People; 
Accuses Them of Role in Mine Attack,'' New York Times, 20 November 15.
    \131\ See, e.g., CECC, 2015 Annual Report, 8 October 15, 287; CECC, 
2013 Annual Report, 10 October 13, 168.
    \132\ Li Tao, ``Beginning This Month, Entry and Exit Document 
Applications Require DNA Collection'' [Ben yue qi banli chu rujing 
zhengjian xu caiji DNA], Yili Daily, 3 June 16; Ben Blanchard, 
``Chinese Border Region Asks for DNA for Travel Documents,'' Reuters, 7 
June 16; ``Xinjiang Residents Must Give DNA, Voice-Print for 
Passports,'' Radio Free Asia, 8 June 16.
    \133\ ``Controls on Uyghur Villages, Mosques Continue Into New 
Year,'' Radio Free Asia, 6 January 16.
    \134\ ``China's Uyghurs Face Added Scrutiny Ahead of G20 Summit in 
Hangzhou,'' Radio Free Asia, 3 August 16.
    \135\ Yao Tong, ``Xinjiang Introduces a Series of Initiatives To 
Resolve Prominent Problems Among the Masses'' [Xinjiang chutai yi xilie 
jucuo jiejue qunzhong fanying tuchu wenti], Xinjiang Daily, reprinted 
in Tianshan Net, 30 March 16; Wang Na, ``Launch of `Year of Progress on 
Ethnic Unity' '' [Kaizhan ``minzu tuanjie jinbu nian'' huodong], 
Tianshan Net, 29 March 16; Bai Tiantian, ``Xinjiang To End `Convenience 
Contact Cards,' '' Global Times, 31 March 16.
    \136\ Bai Tiantian, ``Xinjiang To End `Convenience Contact Cards,' 
'' Global Times, 31 March 16.
    \137\ See, e.g., ``Xinjiang Will Cancel `Good Citizen Card' for 
Uyghurs on `May 1,' Officials Launch `Year of Ethnic Unity and 
Progress,' Inviting Speculation'' [Xinjiang ``wu yi'' quxiao weizu ren 
``liang min zheng'' guanfang kaiqi ``minzu tuanjie jinbu nian'' yin 
caice], Radio Free Asia, 1 April 16; Andrew Jacobs, ``Xinjiang Seethes 
Under Chinese Crackdown,'' New York Times, 2 January 16.
    \138\ Yao Tong, ``Xinjiang Introduces a Series of Initiatives To 
Resolve Prominent Problems Among the Masses'' [Xinjiang chutai yi xilie 
jucuo jiejue qunzhong fanying tuchu wenti], Xinjiang Daily, reprinted 
in Tianshan Net, 30 March 16; Wang Na, ``Launch of `Year of Progress on 
Ethnic Unity' '' [Kaizhan ``minzu tuanjie jinbu nian'' huodong], 
Tianshan Net, 29 March 16; Bai Tiantian, ``Xinjiang To End `Convenience 
Contact Cards,' '' Global Times, 31 March 16.
    \139\ Ma Kai and Wu Danni, ``Xinjiang Standardizes and Simplifies 
Regular Passport Application Requirements and Handling Procedures for 
Xinjiang Residents'' [Xinjiang guifan he jianhua jiangnei jumin putong 
huzhao shenqing tiaojian he banli chengxu], Xinhua, 6 August 15; 
``Xinjiang To Streamline the Application Process of Passport,'' China 
Radio International, 6 August 15.
    \140\ Yao Tong et al., ``Zhang Chunxian: Southern Xinjiang Is the 
Main Battlefield for Counterterrorism and Stability Maintenance in 
Xinjiang'' [Zhang chunxian: nanjiang shi xinjiang fankong weiwen zhu 
zhanchang], Xinjiang Daily, reprinted in Sina, 4 November 15. See also 
Megha Rajagopalan and Ben Blanchard, ``China To Push Cultural 
`Blending' in Xinjiang Stability Push,'' Reuters, 4 November 15.
    \141\ Bai Tiantian, ``Xinjiang's Aksu Expands Bilingual Schools,'' 
Global Times, 9 December 15. See also Yao Tong et al., ``Zhang 
Chunxian: Southern Xinjiang Is the Main Battlefield for 
Counterterrorism and Stability Maintenance in Xinjiang'' [Zhang 
chunxian: nanjiang shi xinjiang fankong weiwen zhu zhanchang], Xinjiang 
Daily, reprinted in Sina, 4 November 15.
    \142\ ``Tongue-Tied: Teaching Uighur Children in Mandarin Will Not 
Bring Stability to Xinjiang,'' Economist, 27 June 15; Uyghur Human 
Rights Project, ``Uyghur Voices on Education: China's Assimilative 
`Bilingual Education' Policy in East Turkestan,'' May 2015, 3-4, 10, 
12, 16, 18, 21, 26-28. For Commission analysis, see ``Xinjiang 
Authorities Accelerate Promotion of Mandarin-Focused Bilingual 
Education,'' Congressional-Executive Commission on China, 10 May 11.
    \143\ ``More Students in Xinjiang Receive Bilingual Education,'' 
Xinhua, 7 October 15.
    \144\ See, e.g., Ye Xiaomin, ``Xinjiang: Enhancing Bilingual 
Education, Plan To Recruit Ten Thousand Teachers'' [Xinjiang: buqi 
shuangyu jiaoyu duanban ni zhao wan ming jiaoshi], Xinjiang 
Metropolitan Daily, reprinted in Tianshan Net, 20 January 16; Bai 
Tiantian, ``Xinjiang's Aksu Expands Bilingual Schools,'' Global Times, 
9 December 15.
    \145\ In Chinese law, see, e.g., PRC Constitution, issued 4 
December 82, amended 12 April 88, 29 March 93, 15 March 99, 14 March 
04, arts. 4, 121; PRC Regional Ethnic Autonomy Law (REAL) [Zhonghua 
renmin gongheguo minzu quyu zizhi fa], passed 31 May 84, effective 1 
October 84, amended 28 February 01, arts. 10, 21, 37. The 2005 
Implementing Provisions for the REAL affirm the freedom to use and 
develop minority languages but also place emphasis on the use of 
Mandarin by promoting ``bilingual'' education and bilingual teaching 
staff. State Council, Certain Provisions on the Implementation of the 
``PRC Regional Ethnic Autonomy Law'' [Guowuyuan shishi ``zhonghua 
renmin gongheguo minzu quyu zizhi fa'' ruogan guiding], issued 19 May 
05, effective 31 May 05, art. 22. In international law, see, e.g., 
International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, arts. 26, 27.
    \146\ See, e.g., Alice Su, ``A Muslim Minority Keeps Clashing With 
the `China Dream' in the Country's Increasingly Wild West,'' Vice News, 
8 December 15; Wade Shepard, ``The Complex Impact of Urbanization in 
Xinjiang,'' The Diplomat, 16 December 15.
    \147\ Dominique Patton, ``Xinjiang Cotton at Crossroads of China's 
New Silk Road,'' Reuters, 11 January 16.
    \148\ See, e.g., CECC, 2015 Annual Report, 8 October 15, 289; CECC, 
2014 Annual Report, 9 October 14, 168; CECC, 2013 Annual Report, 10 
October 13, 167.
    \149\ ``Freight Drivers'' [Huo yun siji], Ganji.com, 29 March 16; 
``Sincerely Recruiting High Salary Career Car Accessory Sales Associate 
With a Base Salary of 2,500 Yuan'' [Gaoxin chengpin qiche zhuanghuang 
xiaoshou yuan dixin 2500 yuan], Ganji.com, 24 January 16; 
``Administrative and Human Resources Management'' [Xingzheng ji renli 
ziyuan guanli], Tianshanrc.com, 18 April 16; ``Xinjiang Aksu Prefecture 
Wensu County No. 5 Middle School Career Fair'' [Xinjiang akesu diqu 
wensu xian di wu zhongxue zhuanchang zhaopin hui], Mfsfs.com, 7 April 
16; ``2016 Xinjiang Ruoqiang County Teacher Recruitment Schedule'' 
[2016 nian xinjiang ruoqiang xian jiaoshi zhaopin jihua biao], 
Zhaojiao.net, 18 January 16; ``2015 Xinjiang Altay City Broadcasting 
Station Recruitment Notice'' [2015 nian xinjiang aletai shi guangbo 
diantai zhaopin qishi], Gjgwy.org, 23 December 15; ``[Xinjiang] 
Xinjiang Hotan Prefecture Xinhua Bookstore 2015 Recruitment of 5 Staff 
Members'' [(Xinjiang) xinjiang hetian diqu xinhua shudian 2015 zhaopin 
5 ming gongzuo renyuan], Yingjiesheng.com, 21 October 15; ``[Xinjiang] 
Aksu Vocational and Technical Institute 2016 Graduate Recruitment'' 
[(Xinjiang) akesu zhiye jishu xueyuan 2016 nian yingjie sheng zhaopin], 
Yingjiesheng.com, 13 January 16.
    \150\ ``[Xinjiang] Aksu Vocational and Technical Institute 2016 
Graduate Recruitment'' [(Xinjiang) akesu zhiye jishu xueyuan 2016 nian 
yingjie sheng zhaopin], Yingjiesheng.com, 13 January 16; ``Xinjiang 
Aksu Prefecture Wensu County No. 5 Middle School Career Fair'' 
[Xinjiang akesu diqu wensu xian di wu zhongxue zhuanchang zhaopin hui], 
Mfsfs.com, 7 April 16; Ruoqiang County Agriculture Bureau, ``Notice 
Regarding the Adjustment of the Ruoqiang County Agriculture Bureau's 
Recruitment for Supernumerary Positions'' [Guanyu dui ruoqiang xian 
nongye ju zhaopin bianwai renyuan gangwei jinxing tiaozheng de 
gongshi], 21 January 16; ``Recruiting 10 Regular Workers, Male, Han 
Ethnicity'' [Zhaopin pugong 10 ming, nan, hanzu], Jsj365.com, 8 April 
16.

                                                          Tibet
                                                Tibet

                                V. Tibet


  Status of Negotiations Between the Chinese Government and the Dalai 
                      Lama or His Representatives

    Formal dialogue between the Dalai Lama's representatives 
and Chinese Communist Party and government officials has 
remained stalled since the January 2010 ninth round,\1\ the 
longest interval since such contacts resumed in 2002.\2\ The 
Commission observed no indication during the 2016 reporting 
year of official Chinese interest in resuming a dialogue that 
takes into account the concerns of Tibetans who live in the 
Tibetan autonomous areas of China.\3\

                        Tibetan Self-Immolation

    The frequency of Tibetan self-immolation reportedly 
focusing on political and religious issues during the 2016 
reporting year declined substantially.\4\ The 138th and 139th 
such self-immolations \5\ were on:

        <bullet> February 29, 2016. Monk Kalsang Wangdu, age 
        18, of Retsokha Monastery, self-immolated in Xinlong 
        (Nyagrong) county, Ganzi (Kardze) Tibetan Autonomous 
        Prefecture, Sichuan province.\6\
        <bullet> March 23, 2016. Wife and mother Sonam Tso, 
        about 50 years old, self-immolated in Ruo'ergai 
        (Dzoege) county, Aba (Ngaba) Tibetan and Qiang 
        Autonomous Prefecture, Sichuan.\7\

    The approximately seven-month period between monk Sonam 
Tobyal's self-immolation in July 2015 \8\ and monk Kalsang 
Wangdu's self-immolation is the longest since the period 
between the first two such self-immolations in February 2009 
\9\ and March 2011.\10\ [See the Commission's 2012-2015 Annual 
Reports for information on self-immolations 1-137.\11\]
    Government provisions imposing collective punishment on 
self-immolators' family members or communities--instances of 
which local governments issued in 2012 \12\ and 2013 \13\--may 
have deterred potential self-immolators from putting persons 
close to them at risk.\14\ Human Rights Watch noted in November 
2012, for example, that ``. . . officials have in recent weeks 
employed forms of collective punishment to discourage 
immolations,'' \15\ and the Commission's 2014 Annual Report 
stated that the Commission had ``observed for the first time 
reports of county-level governments turning to collective 
punishment in apparent attempts to deter individuals from 
engaging in prohibited behavior.'' \16\


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                Religious Freedom for Tibetan Buddhists

    The Party and government rely on regulation of Tibetan 
Buddhism to compel its transformation into a state-managed 
institution.\17\ Party and government leaders \18\ and state-
run media \19\ refer to the subordination of Tibetan Buddhism 
to Chinese regulation as the ``normal order'' for the religion.

                        FOCUS ON THE DALAI LAMA

    Party and government objectives in managing Tibetan 
Buddhist affairs prioritize isolating Tibetan Buddhists living 
in China from the current Dalai Lama,\20\ Tenzin Gyatso, who 
reached the age of 81 in July 2016 \21\ and has lived in India 
since he fled into exile in 1959.\22\ Developments this past 
year continued to demonstrate Party and government 
prioritization of managing the selection and education of the 
next Dalai Lama--a power the government created by issuing the 
2007 Measures on the Management of the Reincarnation of Living 
Buddhas in Tibetan Buddhism \23\ (MMR) and that it exercises 
via the state-controlled Buddhist Association of China 
(BAC).\24\
        <bullet> The golden urn.\25\ A September 2015 State 
        Council white paper \26\ reiterated the government's 
        assertion that a 1793 Qing Dynasty imperial edict (the 
        Twenty-Nine Article Imperial Ordinance \27\) 
        ``established the system of lot-drawing from the golden 
        urn to confirm the reincarnated soul boy of a deceased 
        Living Buddha'' \28\--i.e., to choose what Tibetan 
        Buddhists believe are reincarnations (trulkus) of high-
        ranking teachers, including the Dalai Lama and Panchen 
        Lama.\29\ Language in the white paper showed that 
        selecting trulkus by lot-drawing was a convention 
        imposed on Tibetan Buddhists by the non-Tibetan Manchu 
        \30\ empire then ruling China.\31\ A 2014 University of 
        London doctoral dissertation noted that ``there is 
        consensus that the Golden Urn was introduced as a 
        consequence of the emperor Qianlong being drawn into a 
        costly and complex campaign against the Gurkhas on 
        behalf of Tibet,'' \32\ and that the Qing court 
        subsequently used it as ``a method of intervention in 
        Tibetan affairs.'' \33\
        <bullet> The Panchen Lama precedent.\34\ The September 
        2015 white paper focuses on an important example of 
        Party and government supervision of the selection of a 
        high-ranking trulku using the golden urn.\35\ In 
        November 1995, Luo Gan, a senior Party and government 
        official, ``presided'' at the selection of Gyaltsen 
        Norbu's name from the urn.\36\ Chinese authorities 
        previously had declared the Dalai Lama's May 14, 1995, 
        recognition of six-year-old Gedun Choekyi Nyima as the 
        11th Panchen Lama to be ``illegal and invalid'' \37\ 
        and have held him and his parents incommunicado in one 
        or more unknown locations since May 17, 1995.\38\ In 
        September 2015, a Tibet Autonomous Region (TAR) Party 
        official reiterated a claim that Gedun Choekyi Nyima 
        ``is being educated, living a normal life, growing up 
        healthily and does not wish to be disturbed.'' \39\
        <bullet> The Dalai Lama's position. The Dalai Lama 
        issued a signed ``declaration'' in September 2011 
        noting that Tibetans sought to avoid implementing the 
        Qing edict because ``[t]his system was imposed by the 
        Manchus'' and because ``Tibetans had no faith in it 
        because it lacked any spiritual quality.'' \40\ He 
        rejected the Party's ``brazen meddling'' and asserted 
        that ``it will be impossible for Tibetans . . . to 
        acknowledge or accept it.'' \41\ In his declaration, 
        the Dalai Lama emphasized that reincarnation cannot be 
        compelled:

                [T]he person who reincarnates has sole 
                legitimate authority over where and how he or 
                she takes rebirth and how that reincarnation is 
                to be recognized. It is a reality that no one 
                else can force the person concerned, or 
                manipulate him or her. It is particularly 
                inappropriate for Chinese communists, who 
                explicitly reject even the idea of past and 
                future lives, let alone the concept of 
                reincarnate Tulkus [trulkus], to meddle in the 
                system of reincarnation and especially the 
                reincarnations of the Dalai Lamas and Panchen 
                Lamas.\42\

        <bullet> The Party and government position. In November 
        2015, Zhu Weiqun, currently Chairperson of the Chinese 
        People's Political Consultative Conference Ethnic and 
        Religious Affairs Committee \43\ and formerly a senior 
        Party official \44\ and counterpart in dialogue with 
        the Dalai Lama's envoys,\45\ described reincarnation as 
        ``first and foremost an important political matter in 
        Tibet and an important manifestation of the Chinese 
        central government's sovereignty over Tibet.'' \46\ Zhu 
        said, ``[T]he central government has never given up, 
        and will never give up, the right to decide the 
        reincarnation affairs of the Dalai Lama.'' \47\
        <bullet> Implications for protest. The Commission's 
        Political Prisoner Database (PPD) contains records on 
        the disappeared Panchen Lama and his parents \48\ and, 
        as of August 1, 2016, more than 40 other Tibetans 
        \49\--detained as recently as September 2015 \50\--
        whose PPD record summaries included a reference to the 
        Panchen Lama.\51\ News media reports indicated that at 
        least four Tibetan self-immolators have carried out 
        some type of activity or expression focused on Gedun 
        Choekyi Nyima.\52\ In comparison, 643 PPD records of 
        Tibetans detained as recently as July 2016 \53\ 
        included a reference to the Dalai Lama.\54\ With 
        respect to self-immolation, CECC Annual Reports cited 
        sources identifying at least 56 Tibetan self-immolators 
        who reportedly expressed religious devotion to the 
        Dalai Lama or called for his return.\55\ Tibetan 
        protest history \56\ suggests that Party and government 
        intervention in the Dalai Lama's succession may result 
        in heightened levels of protest activity.\57\
        <bullet> Disappearing the Dalai Lama. The Party and 
        government continued this past year to attempt to 
        remove the Dalai Lama from Tibetans' lives by means 
        including denying his status as a religious leader,\58\ 
        cracking down on Party members,\59\ preventing or 
        punishing display of his image,\60\ and hindering 
        Tibetan travel to India.\61\ Representative examples 
        follow.

                <bullet> Denial. In March 2016, the Party-run 
                Global Times \62\ quoted Deputy Secretary of 
                the TAR Party Committee and Executive 
                Chairperson of the TAR People's Congress 
                Standing Committee Pema Choling \63\ stating 
                that the Dalai Lama was ``no longer a religious 
                leader after he defected [from] his country and 
                betrayed its people.'' \64\
                <bullet> Crackdown. In November 2015, TAR Party 
                Secretary Chen Quanguo reportedly launched a 
                campaign to identify and punish cadres who 
                ``pretend not to be religious'' but ``secretly 
                believe'' and ``follow the clique of the 14th 
                Dalai Lama.'' \65\ Chen called on the Party to 
                ``severely punish those party members and 
                cadres who don't have firm beliefs and 
                ideals.'' \66\
                <bullet> Ban. In March 2016, officials in 
                Tongren (Rebgong) county, the capital of 
                Huangnan (Malho) Tibetan Autonomous Prefecture 
                (TAP), Qinghai province, reportedly banned the 
                display of images of the Dalai Lama in 
                religious venues.\67\ In January 2016, 
                government offices in Luhuo (Draggo) county, 
                Ganzi (Kardze) TAP, reportedly ordered shops 
                that sold or displayed images of the Dalai Lama 
                to ``surrender'' them by February 2.\68\
                <bullet> Punishment. Religious institutions in 
                Tongren failing to adhere to the March 2016 ban 
                on images could face closure, and individual 
                monastic violators could face expulsion and 
                criminal prosecution.\69\ In early February, 
                officials detained Abbot Paga and Geshe \70\ 
                Orgyen of Chogri Monastery,\71\ located in 
                Luhuo, for organizing a ``mass prayer 
                ceremony'' \72\ where Tibetans prayed for the 
                Dalai Lama's health ``before a large image [of 
                him]'' \73\ as he received medical treatment in 
                the United States.\74\ In February 2016, the 
                Huangnan Intermediate People's Court sentenced 
                monk Choephel of Rongbo Monastery to two years' 
                imprisonment for possessing and sharing an 
                image of the Dalai Lama.\75\

                        ADDITIONAL DEVELOPMENTS

    Additional reports this past year demonstrated Party and 
government disregard of Tibetans' right to religious freedom, 
but one report detailed instances of tolerance to which 
Tibetans responded positively.

        <bullet> ``Authentic'' Buddhas. According to state- and 
        Party-run media reports, in April 2016, the BAC 
        announced that a database including 1,311 trulkus 
        (``living Buddhas'') it deemed to be ``authentic'' was 
        ``nearly complete.'' \76\ The Dalai Lama reportedly was 
        not included in the database,\77\ and reports implied 
        that few additions would be forthcoming.\78\ Zhu Weiqun 
        asserted in April that ``the system will strike a heavy 
        blow to the Dalai Lama.'' \79\
        <bullet> ``Purge and reform.'' The Tibetan Centre for 
        Human Rights and Democracy reported that in September 
        2015 \80\ the Biru (Driru) County People's 
        Government,\81\ in Naqu (Nagchu) prefecture, TAR, 
        issued a ``notice'' \82\ directing ``purge and reform'' 
        \83\ of monastic leadership \84\ and religious \85\ and 
        financial \86\ affairs, and specifying punishment for 
        non-compliance.\87\ Days later, authorities expelled at 
        least 100 nuns and demolished residences at a local 
        nunnery.\88\
        <bullet> ``Renovation.'' In July 2016, demolition 
        commenced at the renowned \89\ Larung Gar Buddhist 
        Institute, in Seda (Serthar) county, Ganzi TAP, Sichuan 
        province,\90\ to reduce Tibetan Buddhist lay and 
        monastic practitioners living there from ``more than 
        20,000'' \91\ to 5,000 by September 2017, according to 
        a Human Rights Watch translation of an official 
        document.\92\ Only 1,000 of the 5,000 persons could 
        come from outside Sichuan.\93\ ``Correction and 
        rectification obligations'' \94\ include demolition to 
        create a 30-meter (98.4 feet) ``gap'' between lay and 
        monastic areas by July 2016,\95\ installing 
        surveillance cameras and establishing ``entrance 
        screening'' by August 2016,\96\ and constructing a 
        barrier wall in the ``gap'' by September 2016.\97\ An 
        official reportedly described the ``goal'' as making 
        Larung Gar ``more orderly, beautiful, safe and 
        peaceful,'' and ``accelerating the urbanization and 
        construction of Larung town.'' \98\
        <bullet> ``Resilience.'' The International Campaign for 
        Tibet (ICT) published remarkable \99\ images of 
        Tibetans in their thousands gathered at principal 
        monasteries in Qinghai,\100\ Gansu,\101\ and Sichuan 
        \102\ provinces, and the TAR \103\ to observe an 
        important religious date in February 2016.\104\ 
        Security forces were present \105\ but less visible and 
        intrusive than in recent years.\106\ ICT described the 
        gathering as ``testimony to Tibetan resilience and the 
        determination to express their religious identity.'' 
        \107\

                       Status of Tibetan Culture

    Tibetans continued to face Chinese Communist Party and 
government pressure on Tibetan culture and language.\108\ 
Reports emerged showing that officials at times treated Tibetan 
efforts to sustain their culture and language as illegal \109\ 
or as a threat to social stability,\110\ leaving Tibetans with 
uncertain recourse. In a Foreign Policy article, a Columbia 
University professor observed:

        Although China's constitution and ethnic autonomy laws 
        create the appearance of progress, there are no 
        mechanisms for enforcing the vision of equality put 
        forward by those texts. Put simply, there is no Chinese 
        Department of Justice or Chinese Supreme Court to which 
        Tibetans can appeal to fight discriminatory 
        practices.\111\

    The Commission has not observed any recent Party or 
government statements supporting the legitimacy of maintaining 
the distinctiveness of the Tibetan culture and language. To the 
contrary, President and Party General Secretary Xi Jinping 
stressed in the August 2015 Sixth Tibet Work Forum the 
requisite promotion of a common culture and identity that would 
serve ``social stability'':

        Key efforts in the work for Tibet should be spent on 
        ensuring national unity and consolidating ethnic unity, 
        with realizing long-term and comprehensive social 
        stability as an obligatory task.\112\

    Tibetans continued either to attempt to arrange for Tibetan 
language training--sometimes successfully--or to protest the 
lack of it. Examples follow.

        <bullet> Daofu. During the winter school holiday, 
        ``around 200'' students reportedly attended an 
        intensive 20-day Tibetan language course, apparently 
        with government approval, in Daofu (Tawu) county, Ganzi 
        (Kardze) Tibetan Autonomous Prefecture (TAP), Sichuan 
        province.\113\ Students reportedly ``warmly embraced 
        this crash course and were very attentive.'' \114\
        <bullet> Hualong. In January 2016, Tibetan and Muslim 
        residents of Hualong (Bayan Khar) Hui Autonomous 
        County, Haidong municipality, Qinghai province, 
        reportedly gathered in Xining, the Qinghai capital, 
        ``to demand better funding for the education of 
        minority groups.'' \115\ Tibetan language skills 
        reportedly had declined under the county's current 
        administration.\116\
        <bullet> Banma. Statements by officials in Banma (Pema) 
        county, Guoluo (Golog) TAP, Qinghai, described as 
        ``recent'' in January 2016, reportedly led locals to 
        believe that Tibetan language study groups sponsored 
        over the past seven years could be deemed ``illegal 
        associations.'' \117\ Residents feared that attending 
        the study groups could result in ``detention or 
        arrest.'' \118\
        <bullet> Nangqian. A week-long Tibetan language 
        proficiency contest in January 2016 hosted by a 
        language-promotion association in Nangqian (Nangchen) 
        county, Yushu (Yulshul) TAP, Qinghai, proceeded with 
        ``apparent'' official approval.\119\ Participants 
        included school students as well as laypersons who had 
        not attended school.\120\

    Security officials continued to detain Tibetans who 
advocated on behalf of Tibetan culture and language, or who 
sought to publish their views. Representative examples follow.

        <bullet> Drukar Gyal. In February 2016, the Huangnan 
        Intermediate People's Court \121\ sentenced writer 
        Drukar Gyal (or Druglo, pen name Shogjang) to three 
        years in prison for what reports described as inciting 
        ethnic ``discord'' \122\ (or ``hatred'' \123\), harming 
        ``social stability,'' and having contact with 
        ``splittists'' outside China.\124\ Security officials 
        detained him in March 2015.\125\ High Peaks Pure Earth 
        previously reported other Tibetan writers' response to 
        his detention.\126\
        <bullet> Tashi Wangchug. In January 2016, security 
        officials reportedly detained Tashi Wangchug in Yushu 
        (Kyegudo) city, Yushu TAP,\127\ and in March charged 
        him with ``inciting separatism.'' \128\ Prosecutors 
        reportedly were reviewing the case as of late 
        August.\129\ He had posted a microblog message urging 
        ``the legislature and legislative advisory committee of 
        Qinghai Province . . . to enhance bilingual education 
        and hire more bilingual civil servants.'' \130\ In 2015 
        he travelled to Beijing to try ``to file a lawsuit to 
        compel the authorities to provide more Tibetan 
        education.'' \131\ He described his objective as ``to 
        change things a little bit, to push to preserve some of 
        our nation's culture.'' \132\
        <bullet> Konchog Gyatso. In late 2015, security 
        officials reportedly detained monk Konchog Gyatso of 
        Lhamo Dechen Monastery, located in Jianzha (Chentsa) 
        county, Huangnan (Malho) TAP, Qinghai,\133\ in 
        connection with a book he wrote and was ready to 
        publish.\134\ In it, he recounted the experiences of 
        travelling without documentation to India, studying at 
        a monastery, and returning home.\135\ Police released 
        him after a week, warning that he could face 
        imprisonment if he published the account.\136\

                 Economic Development and Urbanization

    The Commission observed no evidence during its 2002 to 2016 
period of reporting that the Party or government solicited 
systematic or representative input from the Tibetan population 
on economic development in the Tibetan autonomous areas of 
China.\137\ Instead, Commission Annual Reports have documented 
implementation of a development model--``Chinese 
characteristics with Tibetan traits'' \138\--that prioritizes 
economic growth \139\ and boosts household income.\140\ At the 
same time, officials deny Tibetans adequate rights to protect 
their culture,\141\ language,\142\ religion,\143\ and 
environment,\144\ and prosecute as criminals Tibetans who 
question or protest against official policies.\145\ Examples of 
developments related to economic initiatives that could 
increase pressure on Tibetan culture follow.

        <bullet> Railways.\146\ Tibet Autonomous Region (TAR) 
        officials speaking at the March 2016 National People's 
        Congress meeting \147\ asserted that the Sichuan-Tibet 
        railway, which the government approved in October 2014 
        \148\ and upon which construction began in December 
        2014,\149\ would bring ``even more prosperity'' \150\ 
        and denied that it would result in environmental 
        harm.\151\
        <bullet> Urbanization. On November 28, 2015, the State 
        Council reportedly approved changing the status of 
        Duilongdeqing (Toelung Dechen) from a county in Lhasa 
        municipality to an urban district of Lhasa.\152\ 
        Duilongdeqing--traversed by the Qinghai-Tibet railway 
        \153\--became the second urban district in the TAR 
        along with Lhasa's Chengguan district.\154\
        <bullet> Population. Commission access this past year 
        to Chinese 2010 ethnic census data showed a 50-percent 
        increase in the Han population of Lhasa municipality 
        from 2000 to 2010 \155\--a period that included the 
        2006 completion of the Qinghai-Tibet railway.\156\ 
        Lhasa's Chengguan district total population increased 
        by about 25 percent \157\ while its Han population 
        increased by 40 percent.\158\ Duilongdeqing's total 
        population increased by about 29 percent \159\ while 
        its relatively low Han population increased by about 
        269 percent.\160\ TAR total population increased by 
        about 15 percent \161\ while its Han population 
        increased by about 55 percent.\162\ During the same 
        period, Tibetan population in the TAR increased by 
        about 12 percent,\163\ in Lhasa municipality by about 
        11 percent,\164\ in Lhasa's Chengguan district by about 
        17 percent,\165\ and in Duilongdeqing by about 16 
        percent.\166\ Commission access to such information has 
        become more difficult as the Han population 
        increased.\167\

 
----------------------------------------------------------------------------------------------------------------
                 Location / Census Year                      Total Pop.       Total Tibetan        Total Han
----------------------------------------------------------------------------------------------------------------
Tibet Autonomous Region
  1990\168\                                                      2,196,010          2,096,718             80,837
  2000\169\                                                      2,616,329          2,427,168            158,570
  2010\170\                                                      3,002,165          2,716,388            245,263
----------------------------------------------------------------------------------------------------------------
Lhasa municipality
  1990\171\                                                        375,968            327,882             44,945
  2000\172\                                                        474,499            387,124             80,584
  2010\173\                                                        559,423            429,104            121,065
----------------------------------------------------------------------------------------------------------------
Chengguan district
  1990\174\                                                        139,816             96,431             40,387
  2000\175\                                                        223,001            140,387             76,581
  2010\176\                                                        279,074            163,725            107,607
----------------------------------------------------------------------------------------------------------------
Duilongdeqing county
  1990\177\                                                         41,210             38,337              2,794
  2000\178\                                                         40,543             38,455              1,868
  2010\179\                                                         52,249             44,768              6,886
----------------------------------------------------------------------------------------------------------------

        <bullet> Housing. According to an advocacy organization 
        report, officials in Biru (Driru) county, Naqu (Nagchu) 
        prefecture, TAR, appropriated Tibetan residential 
        property,\180\ enforced residential demolition,\181\ 
        and, in some cases, enforced specific renovation.\182\ 
        A news media report described enforced replacement of 
        Tibetan-style homes in Lhasa municipality with 
        ``Chinese-style'' replacements.\183\ According to a 
        series of Radio Free Asia reports, in October 2015, 
        authorities in Gonghe (Chabcha) county, Hainan (Tsolho) 
        TAP, Qinghai, reportedly demolished a total of more 
        than 500 homes and shops in two locations,\184\ leaving 
        more than 900 Tibetans homeless.\185\ Officials said 
        construction in one location caused crowding and 
        pollution; \186\ in the other location authorities 
        provided Tibetans no opportunity to challenge the 
        action and forbade them to approach or photograph 
        demolished homes.\187\ In early June 2016, authorities 
        in Heimahe (Tanagma) township,\188\ Gonghe, reportedly 
        characterized ``over 600 homes and shops'' built by 
        Tibetans, Muslims, and Han as ``illegal'' and had them 
        demolished.\189\ On June 23, security officials arrived 
        in villages in Shinaihai (Tralnag) township and 
        reportedly beat Tibetans protesting against official 
        threats to demolish shops and guesthouses.\190\ Police 
        reportedly detained five protesters the next day.\191\
        <bullet> Land. In September 2015, officials detained at 
        least 12 Tibetans \192\ who petitioned for the return 
        of land seized in 2010 \193\ in Ruo'ergai (Dzoege) 
        county, Aba (Ngaba) Tibetan and Qiang Autonomous 
        Prefecture (T&QAP), Sichuan province, for 
        ``development'' that did not eventuate.\194\ In April 
        2016, the Ruo'ergai County People's Court sentenced 
        four of them to suspended imprisonment.\195\ The rest 
        were released.\196\ In Biru county, officials 
        reportedly demolished homes and seized land for 
        ``development'' that Tibetans had used ``for 
        generations.'' \197\
        <bullet> Environment. Reports in 2015 and 2016 by a 
        scientific journal \198\ and two international advocacy 
        organizations \199\ focused on the declining 
        environmental state of the Tibetan plateau.\200\ The 
        reports examined issues including flawed grasslands 
        policies \201\ that adversely affect nomadic 
        pastoralists,\202\ mining,\203\ and the risks that 
        extensive dam-building may pose.\204\
        <bullet> Mining. In two unusual developments this past 
        year, after Tibetans protested against mining they 
        regarded as harmful to the environment in one instance 
        \205\ and as destructive to a mountain they viewed as 
        sacred in another instance,\206\ officials suspended 
        the mining operations.\207\ In one instance, lithium 
        mining that had been twice halted \208\ then restarted 
        in April 2016 \209\ reportedly caused a fish-kill in 
        Tagong (Lhagang) township, Kangding (Dartsedo) county, 
        Ganzi (Kardze) TAP, Sichuan.\210\ Following Tibetan 
        protests on May 4,\211\ the prefectural and county 
        governments suspended mining ``until the relevant 
        remaining issues have been resolved.'' \212\ In the 
        other instance, on May 20, officials warned Tibetan 
        protesters in Akeli (Akhorri) township, Jinchuan 
        (Chuchen) county, Aba T&QAP, of ``serious 
        consequences'' if they continued to block road 
        construction near the mountain.\213\ In June, 
        authorities halted the work ``temporarily.'' \214\ In a 
        third development, in June security officials beat 
        Tibetans in Amuqu (Amchog) township, Xiahe (Sangchu) 
        county, Gannan (Kanlho) TAP, Gansu province, who 
        protested against open-pit mining near another sacred 
        mountain.\215\ The township government issued a 
        document linking protesters to ``anti-China forces'' 
        and warned of ``severe consequences.'' \216\

         Summary: Tibetan Political Detention and Imprisonment

    As of August 1, 2016, the Commission's Political Prisoner 
Database (PPD) contained 1,894 records--a figure certain to be 
far from complete--of Tibetan political prisoners detained on 
or after March 10, 2008, the beginning of a period of mostly 
peaceful political protests that swept across the Tibetan 
plateau.
    Among the 1,894 PPD records of Tibetan political detentions 
reported since March 2008 are 27 Tibetans ordered to serve 
reeducation through labor (all believed released) and 461 
Tibetans whom courts sentenced to imprisonment (296 are 
believed released upon sentence completion).\217\ Of the 461 
Tibetan political prisoners sentenced to imprisonment since 
March 2008, sentencing information is available for 433 
prisoners, including 426 with fixed-term sentences averaging 
approximately 5 years and 1 month, based on PPD data as of 
August 1, 2016.

          CURRENT TIBETAN POLITICAL DETENTION AND IMPRISONMENT

    As of August 1, 2016, the PPD contained records of 650 
Tibetan political prisoners believed or presumed currently 
detained or imprisoned. Of those, 640 are records of Tibetans 
detained on or after March 10, 2008; \218\ 10 are records of 
Tibetans detained prior to March 10, 2008. PPD information for 
the period since March 10, 2008, is certain to be far from 
complete.
    Of the 640 Tibetan political prisoners who were detained on 
or after March 10, 2008, and who were believed or presumed to 
remain detained or imprisoned as of August 1, 2016, PPD data 
indicated that:

        <bullet> 277 (43 percent) are Tibetan Buddhist monks, 
        nuns, teachers, or trulkus.\219\
        <bullet> 560 (88 percent) are male, 53 (8 percent) are 
        female, and 27 are of unknown gender.
        <bullet> 276 (43 percent) are believed or presumed 
        detained or imprisoned in Sichuan province and 201 (31 
        percent) in the Tibet Autonomous Region. The rest are 
        believed or presumed detained or imprisoned in Qinghai 
        province (95), Gansu province (67), and the Xinjiang 
        Uyghur Autonomous Region (1).
        <bullet> Sentencing information is available for 156 
        prisoners: 148 reportedly were sentenced to fixed terms 
        ranging from 2 years to 19 years and 11 months,\220\ 
        and 7 were sentenced to life imprisonment or death with 
        a 2-year reprieve.\221\ The average fixed-term sentence 
        is approximately 8 years and 7 months. Sixty-nine (44 
        percent) of the prisoners with known sentences are 
        Tibetan Buddhist monks, nuns, teachers, or trulkus.

    Sentencing information for 7 of the 10 Tibetan political 
prisoners detained prior to March 10, 2008, and believed 
imprisoned as of August 1, 2016, indicates sentences from 9 
years to life imprisonment. The average fixed-term sentence is 
14 years and 5 months.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                TORTURE

    The UN Committee against Torture released its Concluding 
Observations on the Fifth Periodic Report of China in February 
2016.\222\ The observations stated:

        [T]he Committee has received numerous reports from 
        credible sources that document in detail cases of 
        torture, deaths in custody, arbitrary detention and 
        disappearances of Tibetans. . . . In view of this 
        information, the Committee remains seriously concerned 
        at the State party's failure to provide information on 
        24 out of the 26 Tibetan cases mentioned in the list of 
        issues (CAT/C/CHN/Q/5/Add.1, para. 27), despite the 
        questions posed by the Committee during the dialogue 
        (arts. 2, 11, 12 and 16).\223\

    With respect to torture, and specifically to death believed 
to have resulted from abuse while detained or imprisoned, as of 
August 1, 2016, the PPD contained records of 23 Tibetans taken 
into police custody on or after March 10, 2008, who reportedly 
died as a result of such circumstances. The following 
information is likely to be incomplete.

        <bullet> Eighteen of the 23 Tibetans reportedly died 
        while in police custody.\224\
        <bullet> Four of the 23 reportedly died while 
        imprisoned.\225\
        <bullet> One of the 23 Tibetans reportedly was tortured 
        in custody, escaped, and committed suicide rather than 
        be recaptured.\226\

    A former Tibetan political prisoner, monk Jigme 
Gyatso,\227\ testified at an April 2016 Commission hearing 
\228\ on the torture officials inflicted on him, including the 
use of a ``tiger chair'' \229\ during interrogation in 2008.

                                                          Tibet
                                                Tibet
    Notes to Section V--Tibet

    \1\ Office of His Holiness the Dalai Lama, ``Press Statement,'' 25 
January 10. According to the January 25 press statement, the Dalai 
Lama's envoys would arrive in China ``tomorrow'' (i.e., January 26, 
2010). For information in Commission Annual Reports in years with more 
recent examples of dialogue between the Dalai Lama's representatives 
and the Chinese Communist Party and government officials, see CECC, 
2010 Annual Report, 10 October 10, 219-20; CECC, 2009 Annual Report, 10 
October 09, 273-77; CECC, 2008 Annual Report, 31 October 08, 187-88.
    \2\ ``Press Conference on Central Govt's Contacts With Dalai Lama 
(Text),'' China Daily, 11 February 10. After the ninth round of 
dialogue, Zhu Weiqun referred to the gap between the eighth and ninth 
rounds as ``the longest interval after we resumed contact and talks in 
2002.''
    \3\ For more information on the Tibetan autonomous areas of China, 
see CECC, ``Special Topic Paper: Tibet 2008-2009,'' 22 October 09, 22-
24. In China, there are 1 provincial-level area of Tibetan autonomy, 10 
prefectural-level areas of Tibetan autonomy, and 2 county-level areas 
of Tibetan autonomy. The area of the Tibet Autonomous Region (TAR) 
(approximately 1.2 million square kilometers), the 10 Tibetan 
Autonomous Prefectures (TAPs) (approximately 1.02 million square 
kilometers), and the 2 Tibetan Autonomous Counties (TACs) 
(approximately 0.019 million square kilometers) totals approximately 
2.24 million square kilometers. The 10 TAPs make up approximately 46 
percent of the TAR/TAP/TAC total area. Steven Marshall and Susette 
Cooke, Tibet Outside the TAR: Control, Exploitation and Assimilation: 
Development With Chinese Characteristics (Washington, DC: Self-
published CD-ROM, 1997), Table 7, citing multiple Chinese sources. 
Table 7 provides the following information. Tibet Autonomous Region 
(1.2 million square kilometers, or 463,320 square miles). Qinghai 
province: Haibei (Tsojang) TAP (52,000 square kilometers, or 20,077 
square miles), Hainan (Tsolho) TAP (41,634 square kilometers, or 16,075 
square miles), Haixi (Tsonub) Mongol and Tibetan AP (325,787 square 
kilometers, or 125,786 square miles), Huangnan (Malho) TAP (17,901 
square kilometers, or 6,912 square miles), Guoluo (Golog) TAP (78,444 
square kilometers, or 30,287 square miles), and Yushu (Yushul) TAP 
(197,791 square kilometers, or 76,367 square miles). Gansu province: 
Gannan (Kanlho) TAP (45,000 square kilometers, or 17,374 square miles) 
and Tianzhu (Pari) TAC (7,150 square kilometers, or 2,761 square 
miles). Sichuan province: Ganzi (Kardze) TAP (153,870 square 
kilometers, or 59,409 square miles), Aba (Ngaba) Tibetan and Qiang AP 
(86,639 square kilometers, or 33,451 square miles), and Muli (Mili) TAC 
(11,413 square kilometers, or 4,407 square miles). Yunnan province: 
Diqing (Dechen) TAP (23,870 square kilometers, or 9,216 square miles). 
The table provides areas in square kilometers; conversion to square 
miles uses the formula provided on the website of the U.S. Geological 
Survey: 1 square kilometer = 0.3861 square mile. For population data, 
see Tabulation on Nationalities of 2000 Population Census of China 
[2000 nian renkou pucha zhongguo minzu renkou ziliao], Department of 
Population, Social, Science and Technology Statistics, National Bureau 
of Statistics of China, and Department of Economic Development, State 
Ethnic Affairs Commission (Beijing: Ethnic Publishing House, September 
2003), Tables 10-1, 10-4. According to China's 2010 ethnic census data, 
the total Tibetan population in China was 6,282,187. The Tibetan 
population of the TAR (approximately 2.72 million), the 10 TAPs 
(approximately 2.97 million), and the 2 TACs (approximately 0.096 
million) totaled approximately 5.78 million Tibetans living in areas of 
Tibetan autonomy. Approximately 0.498 million Tibetans lived outside of 
the areas of Tibetan autonomy. Tabulation on Nationalities of 2010 
Population Census of China, Volume 1 [Zhongguo 2010 nian renkou pucha 
fen minzu renkou ziliao shang], Department of Population and Employment 
Statistics, National Bureau of Statistics of China, and Department of 
Economic Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Tables 10-1, 10-2.
    \4\ As of August 1, 2016, two self-immolations focusing on 
political and religious issues had occurred during the Commission's 
2016 reporting period. The Commission has posted under Resources, 
Special Topics, on its website (www.cecc.gov) a series of lists of 
Tibetan self-immolations. See, e.g., ``CECC Update: Tibetan Self-
Immolations,'' Congressional-Executive Commission on China, 13 May 16. 
The summary contains a list showing that self-immolation numbers 138 
and 139 took place during the period September 2015-April 2016.
    \5\ This enumeration does not include the following six self-
immolation protests: Yushu TAP property protests by females Dekyi 
Choezom and Pasang Lhamo on June 27 and September 13, 2012, 
respectively; Yushu property protest by female self-immolator Konchog 
Tsomo in March 2013; Gannan TAP property protest by female Tashi Kyi on 
August 28, 2015; and the April 6, 2012, deaths of a Tibetan Buddhist 
abbot, Athub, and a nun, Atse, in a Ganzi TAP house fire initially 
reported as accidental and later as self-immolation. The Commission 
continues to monitor reports on their deaths. See, e.g., ``CECC Update: 
Tibetan Self-Immolations,'' Congressional-Executive Commission on 
China, 13 May 16.
    \6\ See, e.g., ``Tibetan Monk Burns to Death in Kardze Protest,'' 
Radio Free Asia, 1 March 16 (``called out for Tibet's complete 
independence''); Free Tibet, ``Monk Dies in First Self-immolation in 
Tibet Since 2015,'' 2 March 16; Tibetan Centre for Human Rights and 
Democracy, ``Two Tibetan Youths Stage Self-immolation Protests in Tibet 
and India,'' 3 March 16 (called for the Dalai Lama to ``live for 10,000 
years'').
    \7\ See, e.g., ``Tibetan Mother of Five Burns to Death To Protest 
Chinese Rule,'' Radio Free Asia, 6 May 16 (``call out for the return of 
the Dalai Lama and for freedom for Tibet''); Free Tibet, ``Mother of 
Five Dies in Self-Immolation Protest,'' 7 May 16 (``calling for the 
return of the Dalai Lama and freedom for Tibet'').
    \8\ See, e.g., International Campaign for Tibet, ``Tibetan Monk 
Self-immolates as Security Tightened for Dalai Lama's Birthday,'' 10 
July 15; Tibetan Centre for Human Rights and Democracy, ``Monk Stages 
Burning Protest in Remote Tibetan Town as China Imposes Internet 
Blockade,'' 10 July 15. See also ``CECC Update: Tibetan Self-
Immolations,'' Congressional-Executive Commission on China, 13 May 16.
    \9\ See, e.g., International Campaign for Tibet, ``Monk in Tibet 
Sets Himself on Fire; Shot by Police During Protest,'' 27 February 09; 
``Self-Immolating Tibet Monk Recovering--Xinhua,'' Reuters, 5 March 09.
    \10\ See, e.g., International Campaign for Tibet, ``Monk Immolates 
Himself; Major Protests at Tibetan Monastery Violently Suppressed,'' 16 
March 11; Kalsang Rinchen, ``Ngaba Monk Immolates Self To Mark 3 Years 
Since Bloody Crackdown,'' Phayul, 16 March 11.
    \11\ CECC, 2015 Annual Report, 8 October 15, 304; CECC, 2014 Annual 
Report, 9 October 14, 175; CECC, 2013 Annual Report, 10 October 13, 
174-78; CECC, 2012 Annual Report, 10 October 12, 157-60.
    \12\ Human Rights Watch, ``China: Tibetan Immolations, Security 
Measures Escalate,'' 29 November 12. The HRW report included a 
translation of a November 14, 2012, notice issued jointly by the 
Communist Party and the local government in Huangnan (Malho) Tibetan 
Autonomous Prefecture, Qinghai province, that included collective 
punishment.
    \13\ See, e.g., Ruo'ergai County People's Government, Notice of 
Interim Anti-Self-Immolation Provisions [Guanyu fan zifen gongzuo 
zanxing guiding de tongzhi], 8 April 13, reprinted and translated in 
China Digital Times, ``Community Punished for Self-Immolations,'' 18 
February 14.
    \14\ See, e.g., International Campaign for Tibet, ``New Solo 
Protest by Young Man in Ngaba Is Part of Emerging Trend,'' 21 December 
15. The ICT report observes, ``The desire to protect families and 
friends from repercussions may be a factor in the new wave of solo 
protests compared to self-immolation.''
    \15\ Human Rights Watch, ``Tibetan Immolations, Security Measures 
Escalate,'' 29 November 12.
    \16\ CECC, 2014 Annual Report, 9 October 14, 176.
    \17\ For Commission analysis of Chinese government regulatory 
intrusion upon Tibetan Buddhist affairs, see, e.g., ``Special Report: 
Tibetan Monastic Self-Immolations Appear To Correlate With Increasing 
Repression of Freedom of Religion,'' Congressional-Executive Commission 
on China, 23 December 11; ``Tibetan Buddhist Affairs Regulations Taking 
Effect in Tibetan Autonomous Prefectures,'' Congressional-Executive 
Commission on China, 10 March 11; ``New Legal Measures Assert 
Unprecedented Control Over Tibetan Buddhist Reincarnation,'' 
Congressional-Executive Commission on China, 22 August 07. For measures 
issued by China's central government, see, e.g., State Administration 
for Religious Affairs, Measures for Evaluating the Credentials of and 
Appointing Monastic Teachers in Tibetan Buddhism [Zangchuan fojiao 
simiao jingshi zige pingding he pinren banfa], issued 25 November 12, 
effective 3 December 12; State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], issued 29 September 10, effective 1 November 10; 
State Administration for Religious Affairs, Measures on the Management 
of the Reincarnation of Living Buddhas in Tibetan Buddhism [Zangchuan 
fojiao huofo zhuanshi guanli banfa], issued 13 July 07, effective 1 
September 07.
    \18\ See, e.g., ``Text of Yu Zhengsheng's Speech at the Meeting 
Marking the 50th Anniversary of the Establishment of the Tibet 
Autonomous Region'' [Yu zhengsheng: zai xizang zizhiqu chengli 50 
zhounian qingzhu dahui shang de jianghua], Xinhua, 8 September 15 
(translated in Open Source Center, 9 September 15) (``use rule of law 
mentality and rule of law methods to . . . help maintain the normal 
order of the Tibetan Buddhism''); Shi Lei and Xiao Tao, ``TAR Communist 
Party Standing Committee Listen to Situation Report on Cadre-Stationing 
in Villages, Model Harmonious Monasteries and Patriotic, Law-Abiding, 
and Progressive Monks and Nuns' Creative Selection Activities, and 
`Advancing Double-Link Households' Creative Selection Work Summary and 
Preparation for Commendations' Event; Firmly Deepen Successful Practice 
of Managing the Border and Stabilizing Tibet, Lay Solid Foundation for 
Economic and Social Development and Long-Term Peace and Stability; Chen 
Quanguo Presided Over Meeting'' [Zizhiqu dangwei changweihui tingqu 
ganbu zhucun--hexie mofan simiao ji aiguo shoufa xianjin sengni 
chuangjian pingxuan huodong, ``xianjin shuanglianhu'' chuangjian 
pingxuan gongzuo zongjie ji biaozhanghui choubei qingkuang huibao, 
jianding buyi ba zhibian wenzang de chenggong shijian yinxiang shenru 
wei jingji shehui fazhan he changzhi jiu'an daxia jichu, chen quanguo 
zhuchi huiyi], Tibet Daily, 13 November 15, reprinted in China Tibet 
News (summarized in Open Source Center, 13 November 15) (``safeguarding 
. . . the maintenance of normal Tibetan Buddhist order''). See also 
``Ensure Absolute Security in the Ideological Field--Fourth Discussion 
on Earnestly Implementing the Spirit of the Regional Propaganda and 
Ideological Work Conference'' [Quebao yishixingtai lingyu juedui 
anquan--si lun renzhen guanche quan qu xuanchuan sixiang gongzuo huiyi 
jingshen], Tibet Daily, 3 October 13 (translated in Open Source Center, 
6 October 13) (citing Chen Quangguo: ``the 14th Dalai . . . is the 
biggest obstacle to the establishment of normal order in Tibetan 
Buddhism'').
    \19\ See, e.g., ``Tibet Monks Hail Living Buddha Check System,'' 
Xinhua, reprinted in Global Times, 29 January 16 (``ensure the 
authority and rights of verified living Buddhas and the normal order of 
Tibetan Buddhism''); State Council Information Office, (White Paper) 
``Successful Practice of Regional Ethnic Autonomy in Tibet,'' reprinted 
in Xinhua, 6 September 15, sec. VII (``ensure normal religious 
activities and religious beliefs are protected according to law'').
    \20\ For Commission Annual Report information on Chinese Communist 
Party and government efforts to isolate Tibetan Buddhists from the 
Dalai Lama, see CECC, 2015 Annual Report, 8 October 15, 304-5; CECC, 
2014 Annual Report, 9 October 14, 177-79; CECC, 2013 Annual Report, 10 
October 13, 181-82; CECC, 2012 Annual Report, 10 October 12, 161-63; 
CECC, 2011 Annual Report, 10 October 11, 208-9; CECC, 2010 Annual 
Report, 10 October 10, 215, 218, 220-22; CECC, 2009 Annual Report, 10 
October 09, 277-82; CECC, 2008 Annual Report, 31 October 08, 185, 188-
90; CECC, 2007 Annual Report, 10 October 07, 191-92, 196-97; CECC, 2006 
Annual Report, 20 September 06, 83-85; CECC, 2005 Annual Report, 11 
October 05, 47-48, 111; CECC, 2004 Annual Report, 5 October 04, 38-39; 
CECC, 2003 Annual Report, 2 October 03, 30-31; CECC, 2002 Annual 
Report, 2 October 02, 38-39.
    \21\ Office of His Holiness the Dalai Lama, ``A Brief Biography,'' 
last visited 17 March 16. According to biographical information on the 
Dalai Lama's official website, he was born on July 6, 1935.
    \22\ Office of His Holiness the Dalai Lama, ``From Birth to 
Exile,'' last visited 2 June 16.
    \23\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa] [hereinafter MMR], 
issued 13 July 07, effective 1 September 07, arts. 5-11.
    \24\ Ibid., arts. 5-7, 10, 12. The Measures on the Management of 
the Reincarnation of Living Buddhas in Tibetan Buddhism name the 
Buddhist Association of China as the authority that interacts directly 
with Tibetan Buddhist entities in matters regarding reincarnation.
    \25\ See, e.g., Ministry of Foreign Affairs, ``The Reincarnation of 
the Living Buddhas,'' 15 November 00. The MFA article provided the 
following explanation for use of the golden urn: ``The Gelug Sect of 
Tibetan Buddhism came to power in Tibet in the 17th century and the 
Living Buddha reincarnation system became a bone of contention with the 
upper class in Tibet. In 1793, as part of an effort to turn the tide by 
overcoming drawbacks characteristic of soul boys nominated from the 
same tribes, the Qing government promulgated the 29-Article Ordinance 
for the More Efficient Governing of Tibet. Article one of the Ordinance 
stipulates: In order to ensure the Yellow Sect continues to flourish, 
the Grand Emperor bestows it with a golden urn and ivory slips for use 
in confirming the reincarnated soul boy of a deceased Living Buddha.''
    \26\ State Council Information Office, (White Paper) ``Successful 
Practice of Regional Ethnic Autonomy in Tibet,'' reprinted in Xinhua, 6 
September 15.
    \27\ Ministry of Foreign Affairs, ``Did Tibet Become an Independent 
Country After the Revolution of 1911? '' 15 November 00. ``In 1792 the 
twenty-nine-article Imperial Ordinance was issued. It stipulated in 
explicit terms for the reincarnation of the Living Buddhas in Tibet as 
well as the administrative, military and foreign affairs.'' (The edict 
sought to impose Qing control over religious, administrative, military, 
fiscal, commercial, and foreign affairs. The edict demanded that the 
Amban, ``Resident Official'' representing the imperial court, would 
have equal status to the Dalai and Panchen Lamas, and function as the 
supervisor of the Tibetan administration.)
    \28\ State Council Information Office, (White Paper) ``Successful 
Practice of Regional Ethnic Autonomy in Tibet,'' reprinted in Xinhua, 6 
September 15, sec. III.
    \29\ Office of His Holiness the Dalai Lama, ``Reincarnation,'' 24 
September 11. The statement was published initially with the title, 
``Statement of His Holiness the Fourteenth Dalai Lama, Tenzin Gyatso, 
on the Issue of His Reincarnation.'' The Dalai Lama stated: ``This 
proposal included the suggestion of picking lots from a Golden Urn to 
decide on the recognition of the reincarnations of the Dalai Lamas, 
Panchen Lamas and Hutuktus, a Mongolian title given to high Lamas.'' 
See also ``Dalai Lama Rejects Communist Party `Brazen Meddling' in 
Tibetan Buddhist Reincarnation,'' CECC China Human Rights and Rule of 
Law Update, No. 1, 24 January 12, 3. The CECC article describes this as 
``one of Tibetan Buddhism's most important features--lineages of 
teachers (trulkus), whom Tibetan Buddhists believe are reincarnations, 
that can span centuries.'' For information on the Panchen Lama, see 
CECC, 2008 Annual Report, 189 (Box titled ``The Panchen Lama and the 
Golden Urn: China's Model for Selecting the Next Dalai Lama'').
    \30\ Tabulation on Nationalities of 2000 Population Census of China 
[2000 nian renkou pucha zhongguo minzu renkou ziliao], Department of 
Population, Social, Science and Technology Statistics, National Bureau 
of Statistics of China, and Department of Economic Development, State 
Ethnic Affairs Commission (Beijing: Ethnic Publishing House, September 
2003), Table 1-1. Table 1-1 lists ``Manchu'' as one of China's 
``nationalities'' and provides the total Manchu population in 2000 as 
10,682,262.
    \31\ State Council Information Office, (White Paper) ``Successful 
Practice of Regional Ethnic Autonomy in Tibet,'' reprinted in Xinhua, 6 
September 15, sec. III (Qing Dynasty: 1644-1911).
    \32\ Amy Kellam, ``Foreign Devils: Law's Imperial Discourse and the 
Status of Tibet (PhD thesis submitted to the Department of Law, School 
of Oriental and African Studies, University of London, 2014), 249. In 
her dissertation, Kellam observes: ``Although the implications of the 
urn's existence remain controversial, there is consensus that the 
Golden Urn was introduced as a consequence of the emperor Qianlong 
being drawn into a costly and complex campaign against the Gurkhas on 
behalf of Tibet.''
    \33\ Ibid.
    \34\ See, e.g., ``Dalai Lama Rejects Communist Party `Brazen 
Meddling' in Tibetan Buddhist Reincarnation,'' CECC China Human Rights 
and Rule of Law Update, No. 1, 24 January 12, 3.
    \35\ State Council Information Office, (White Paper) ``Successful 
Practice of Regional Ethnic Autonomy in Tibet,'' reprinted in Xinhua, 6 
September 15, sec. VII. The White Paper notes: ``[I]n 1995 Tibet 
Autonomous Region sought out and identified the reincarnation of the 
10th Panchen Erdeni, and conferred and enthroned the 11th Panchen 
Erdeni, with the approval of the State Council.''
    \36\ ``Selection of 10th Panchen Lama Announced,'' Xinhua, 29 
November 95 (Open Source Center, 29 November 95) (``. . . presided over 
jointly by State Councilor Luo Gan, . . ..''); ``Luo Gan--Politburo 
Standing Committee Member of CPC Central Committee,'' Xinhua, 15 
November 02. The Xinhua biography on Luo Gan contained an entry that 
brackets 1995, when Luo Gan was present at the ceremony installing 
Gyaltsen Norbu as the Panchen Lama: ``1993-1997 State councilor, 
secretary-general of the State Council, secretary of the Leading Party 
Members' Group of the Government Offices of the State Council, 
secretary of the State Organs Work Committee of the CPC, and deputy 
secretary of the Political and Legislative Affairs Committee of the CPC 
Central Committee.''
    \37\ Guo Xin, ``It Is Both Illegal and Invalid for the Dalai Lama 
To Universally Identify the Reincarnated Soul Boy of the Panchen 
Lama,'' People's Daily, 1 December 95 (translated in Open Source 
Center, 1 December 95); ``Dalai Lama Rejects Communist Party `Brazen 
Meddling' in Tibetan Buddhist Reincarnation,'' CECC China Human Rights 
and Rule of Law Update, No. 1, 24 January 12, 3.
    \38\ ``Dalai Lama Rejects Communist Party `Brazen Meddling' in 
Tibetan Buddhist Reincarnation,'' CECC China Human Rights and Rule of 
Law Update, No. 1, 24 January 12, 3. See also UN Committee on the 
Rights of the Child, Concluding Observations: China (including Hong 
Kong and Macau Special Administrative Regions), adopted by the 
Committee at its 1080th Meeting (30 September 2005), CRC/C/CHN/col2, 24 
November 05, paras. 44-45. The report observed under paragraphs 44-45: 
``The Committee notes the information provided about the Gedhun Choekyi 
Nyima, but remains concerned that it has not yet been possible to have 
this information confirmed by an independent expert. . . . In 
particular, the Committee recommends that the State party: . . . e) 
allow an independent expert to visit and confirm the well-being of 
Gedhun Choekyi Nyima while respecting his right to privacy, and that of 
his parents.''
    \39\ Edward Wong, ``Communist Party Warns Secret Dalai Lama 
Followers in Its Ranks,'' New York Times, 11 November 15. The article 
identified the official as ``Norbu Dunzhub'' (Norbu Dondrub), with the 
TAR United Front Work Department. See also CECC, 2008 Annual Report, 31 
October 08, 189.
    \40\ Office of His Holiness the Dalai Lama, ``Reincarnation,'' 24 
September 11. The statement was published initially with the title, 
``Statement of His Holiness the Fourteenth Dalai Lama, Tenzin Gyatso, 
on the Issue of His Reincarnation.'' In it, the Dalai Lama states, 
``The Golden Urn system was actually used only in the cases of the 
Eleventh and Twelfth Dalai Lamas. However, the Twelfth Dalai Lama had 
already been recognized before the procedure was employed. Therefore, 
there has only been one occasion when a Dalai Lama was recognized by 
using this method. Likewise, among the reincarnations of the Panchen 
Lama, apart from the Eighth and the Ninth, there have been no instances 
of this method being employed. This system was imposed by the Manchus, 
but Tibetans had no faith in it because it lacked any spiritual 
quality.'' See also ``Dalai Lama Rejects Communist Party `Brazen 
Meddling' in Tibetan Buddhist Reincarnation,'' CECC China Human Rights 
and Rule of Law Update, No. 1, 24 January 12, 3; State Administration 
for Religious Affairs, Measures on the Management of the Reincarnation 
of Living Buddhas in Tibetan Buddhism [Zangchuan fojiao huofo zhuanshi 
guanli banfa], issued 18 July 07, effective 1 September 07.
    \41\ Office of His Holiness the Dalai Lama, ``Reincarnation,'' 24 
September 11. The statement was published initially with the title, 
``Statement of His Holiness the Fourteenth Dalai Lama, Tenzin Gyatso, 
on the Issue of His Reincarnation.'' See also ``Dalai Lama Rejects 
Communist Party `Brazen Meddling' in Tibetan Buddhist Reincarnation,'' 
CECC China Human Rights and Rule of Law Update, No. 1, 24 January 12, 
3. The Commission article stated, ``[The Dalai Lama] summed up his 
basis for rejecting Party interference in identifying trulkus and 
outlined measures he intends to take to protect the legitimacy of a 
possible 15th Dalai Lama.''
    \42\ Ibid.
    \43\ China Directory 2014 (Tokyo: Radiopress, December 2013), 154.
    \44\ China Directory 2012 (Tokyo: Radiopress, December 2011), 7, 
17, 27. Prior to Zhu Weiqun's current Chinese People's Political 
Consultative Conference post, he held senior Party positions including 
membership on the Communist Party Central Committee, Executive Deputy 
Head of the Party's United Front Work Department, and Director of the 
Party's General Office of the Central Coordinating Group for Tibet 
Affairs.
    \45\ ``United Front Work Department Executive Deputy Head Reveals 
Inside Story of Communist Party-Dalai Talks'' [Tongzhanbu changwu 
fubuzhang jiemi zhonggong yu dalai tanpan neimu], Phoenix Net, 23 
December 08 (translated in Open Source Center, 25 December 08) (``Since 
2003, Zhu Weiqun has participated in all the subsequent engage-and-talk 
interactions with the Dalai side.''); ``Press Conference on Central 
Govt's Contacts With Dalai Lama (Text),'' China Daily, 11 February 10 
(demonstrates participation in 2010 round of dialogue). For information 
in previous Commission annual reports on Zhu Weiqun's involvement in 
the dialogue between the Dalai Lama's representatives and Party and 
government officials, see, e.g., CECC, 2010 Annual Report, 10 October 
10, 219-20; CECC, 2009 Annual Report, 10 October 09, 274-75; CECC, 2008 
Annual Report, 31 October 08, 187.
    \46\ Sui-Lee Wee, ``China Sticks to Right To Decide Reincarnation 
of Dalai Lama,'' Reuters, 30 November 15. Reuters attributed Zhu's 
remarks to an article published in the Party-run Global Times. See also 
CECC, 2008 Annual Report, 31 October 08, 189.
    \47\ Ibid.
    \48\ For more information, see the Commission's Political Prisoner 
Database records 2004-00835 on Gedun Choekyi Nyima, 2004-01336 on 
Konchog Phuntsog (Gedun Choekyi Nyima's father), and 2004-01274 on 
Dechen Choedron (Gedun Choekyi Nyima's mother).
    \49\ The statement is based on an August 1, 2016, query for the 
term ``Panchen Lama'' in the ``short summary'' field of the 
Commission's Political Prisoner Database (PPD). The PPD is available to 
the public at ppdcecc.gov.
    \50\ See the Commission's Political Prisoner Database record 2010-
00156 on Samdrub Gyatso. See ``Recently Freed Tibetan Detained for 
Carrying Leaflets Calling for Dalai Lama's Return,'' Radio Free Asia, 
12 October 15. According to the RFA report, officials previously 
detained Samdrub Gyatso in May 2010 for protest activity that included 
calling for the Panchen Lama's release; he served five years' 
imprisonment.
    \51\ The statement is based on an August 1, 2016, query for the 
term ``Panchen Lama'' in the ``short summary'' field of the 
Commission's Political Prisoner Database (PPD). Of 43 records 
identified, 41 referred to Gedun Choekyi Nyima, the 11th Panchen Lama, 
and 2 referred to his predecessor, the 10th Panchen Lama. The PPD is 
available to the public online at ppdcecc.gov and is available for 
query. Information on the number of Tibetan political and religious 
protesters and the details of their protests are certain to be far from 
complete. Tibetans who attempt to share such information may face 
detention, criminal charges, and imprisonment.
    \52\ See, e.g., ``Tibetan Man Dies in Second Self-Immolation 
Protest This Month,'' Radio Free Asia, 16 April 15; ``Respected Tibetan 
Monk Burns Himself to Death in Gansu,'' Radio Free Asia, 19 December 
13; ``Tibetan Self-Immolations Continue, 25-Year-Old Dies in Protest,'' 
Voice of America, 19 November 12; ``Another Tibetan Self-Immolates in 
Rebkong,'' Voice of America, 17 November 12. Information on the number 
of Tibetan political and religious protesters and the details of their 
protests are certain to be far from complete. Tibetans who attempt to 
share such information may face criminal charges, imprisonment, or 
other forms of abuse.
    \53\ For information on more recent detentions, see the 
Commission's Political Prisoner Database records 2016-00210 on Konchog 
Drolma, 2016-00167 on Lobsang Tsering, 2016-00110 on Lobsang Thubten, 
2016-00080 on Mangga, 2016-00065 on Jamyang Dorje, 2016-00039 on 
Orgyen, and 2016-00040 on Paga.
    \54\ The statement is based on an August 1, 2016, query for the 
term ``Dalai Lama'' in the ``short summary'' field of the Commission's 
Political Prisoner Database (PPD). Commission staff did not analyze 
each record individually to determine the nature of the reference to 
the Dalai Lama. The PPD is available to the public online at 
ppdcecc.gov and is available for query. Information on the number of 
Tibetan political and religious protesters and the details of their 
protests are certain to be far from complete. Tibetans who attempt to 
share such information may face criminal charges, imprisonment, or 
other forms of abuse.
    \55\ For information on Tibetan self-immolations, see tables in 
CECC, 2012 Annual Report, 10 October 12, 157-60 (on self-immolations 1-
50); CECC, 2013 Annual Report, 10 October 13, 174-78 (on self-
immolations 51-116); CECC, 2014 Annual Report, 9 October 14, 175 (on 
self-immolations 117-26); CECC, 2015 Annual Report, 8 October 15, 303-4 
(on self-immolations 127-37). Previous Annual Report lists included the 
following self-immolators who reportedly expressed religious devotion 
to the Dalai Lama or called for his return: 2012 Annual Report (6-12, 
14-17, 23, 30, 41, 45); 2013 Annual Report (51-55, 62-66, 68, 69, 72, 
74-76, 79-81, 84, 86, 87, 92-95, 98); 2014 Annual Report (117-20); and 
2015 Annual Report (131, 133, 134, 136, 137).
    \56\ As of August 1, 2016, the PPD contained 1,894 records of 
Tibetans detained on or after March 10, 2008. Information on the number 
of Tibetan political and religious protesters and the details of their 
protests are certain to be far from complete. Tibetans who attempt to 
share such information may face criminal charges, imprisonment, or 
other forms of abuse. See also International Campaign for Tibet, 
``Tibet at a Turning Point,'' 6 August 08; Tibetan Centre for Human 
Rights and Democracy, ``Human Rights Situation in Tibet: Annual Report 
2008,'' last visited 20 April 16, 126-63.
    \57\ The statement is based on Commission staff analysis of Tibetan 
political protest and imprisonment during the period from 1987 onward. 
For the period 2008 onward, see, e.g., CECC, 2014 Annual Report, 9 
October 14, 180-82; CECC, 2013 Annual Report, 10 October 13, 179-81; 
CECC, 2011 Annual Report, 10 October 11, 212-13, 216-17, 219-20; CECC, 
2010 Annual Report, 10 October 10, 224-29; CECC, 2009 Annual Report, 10 
October 09, 290-99; CECC, 2008 Annual Report, 31 October 08, 183-85, 
194-99; CECC, ``Special Topic Paper: Tibet 2008-2009,'' 22 October 09, 
56-86; The Crisis in Tibet: Finding a Path to Peace, Hearing of the 
Subcommittee on East Asian and Pacific Affairs of the Committee on 
Foreign Relations, U.S. Senate, 23 April 08, Testimony of Steven 
Marshall, Congressional-Executive Commission on China, Senior Advisor 
and Prisoner Database Program Director. For analysis on Tibetan 
political detention from 1987-2001, see, e.g., Steven D. Marshall, In 
the Interests of the State: Hostile Elements III--Political 
Imprisonment in Tibet, 1987-2001 (London: Tibet Information Network, 
2002); Steven D. Marshall, Rukhag 3: The Nuns of Drapchi Prison 
(London: Tibet Information Network, 2000); Steven D. Marshall, Hostile 
Elements--A Study of Political Imprisonment in Tibet: 1987-1998 
(London: Tibet Information Network, 1999). See also U.S. Policy 
Considerations on the 40th Anniversary of the Tibetan Uprising and the 
Dalai Lama's Flight Into Exile, Hearing of the Committee on 
International Relations, U.S. House of Representatives, 11 March 99, 
Testimony of Steven Marshall, Tibet Information Network.
    \58\ See, e.g., Jiang Jie and Li Ruohan, ``Dalai Lama Not Religious 
Leader: Official,'' Global Times, 8 March 16; ``China Official Says 
Dalai Lama `Making a Fool' of Buddhism,'' Reuters, 28 March 16. For 
additional information on Zhu Weiqun, see China Directory 2012 (Tokyo: 
Radiopress, December 2011), 7, 17, 27. Prior to Zhu Weiqun's current 
Chinese People's Political Consultative Conference post, he held senior 
Party positions including membership on the Communist Party Central 
Committee, Executive Deputy Head of the Party's United Front Work 
Department, and Director of the Party's General Office of the Central 
Coordinating Group for Tibet Affairs.
    \59\ See, e.g., Edward Wong, ``Communist Party Warns Secret Dalai 
Lama Followers in Its Ranks,'' New York Times, 11 November 15; Simon 
Denyer, ``China Accuses Party Members of Support for Dalai Lama and 
Even Terrorism,'' Washington Post, 4 December 15.
    \60\ See, e.g., ``Deadline Nears in County in China's Sichuan for 
Surrender of Dalai Lama Photos,'' Radio Free Asia, 2 February 16; Emily 
Rauhala, ``China's Plan To `Liberate' a Cradle of Tibetan Culture,'' 
Washington Post, 14 December 15.
    \61\ See, e.g., Edward Wong, ``Communist Party Warns Secret Dalai 
Lama Followers in Its Ranks,'' New York Times, 11 November 15; ``China 
Says Graft Fight in Tibet Also Aimed at Religion,'' Reuters, 9 November 
15.
    \62\ ``English Edition of Global Times Launched,'' People's Daily, 
20 April 09. The People's Daily article describes the Global Times as 
``[o]perating under the People's Daily.'' China Directory 2014 (Tokyo: 
Radiopress, December 2013), 3, 21. China Directory shows the People's 
Daily as directly subordinate to the Communist Party Central Committee.
    \63\ China Directory 2014 (Tokyo: Radiopress, December 2013), 6, 
432-33. China Directory provides the name ``Padma Choling,'' rather 
than Pema Choling.
    \64\ Jiang Jie and Li Ruohan, ``Dalai Lama Not Religious Leader: 
Official,'' Global Times, 8 March 16.
    \65\ Edward Wong, ``Communist Party Warns Secret Dalai Lama 
Followers in Its Ranks,'' New York Times, 11 November 15 (``pretend not 
to be religious''; ``follow the clique''); Simon Denyer, ``China 
Accuses Party Members of Support for Dalai Lama and Even Terrorism,'' 
Washington Post, 4 December 15 (``secretly believe''). See also ``China 
Says Graft Fight in Tibet Also Aimed at Religion,'' Reuters, 9 November 
15.
    \66\ Edward Wong, ``Communist Party Warns Secret Dalai Lama 
Followers in Its Ranks,'' New York Times, 11 November 15. See also 
Simon Denyer, ``China Accuses Party Members of Support for Dalai Lama 
and Even Terrorism,'' Washington Post, 4 December 15; ``China Says 
Graft Fight in Tibet Also Aimed at Religion,'' Reuters, 9 November 15.
    \67\ ``Chinese Authorities Slap New Constraints on Tibetan Buddhist 
Monasteries,'' Radio Free Asia, 29 March 16.
    \68\ ``Deadline Nears in County in China's Sichuan for Surrender of 
Dalai Lama Photos,'' Radio Free Asia, 2 February 16;
    \69\ ``Chinese Authorities Slap New Constraints on Tibetan Buddhist 
Monasteries,'' Radio Free Asia, 29 March 16. According to the report, 
one of the restrictions required that ``all statues and photos of the 
Dalai Lama be removed from shrines and temples'' and warned that 
violators ``could be handed over to authorities for prosecution.''
    \70\ Mandala, ``What Is a Geshe? '' April-May 2007. According to 
the article, a Geshe degree is ``a scholastic degree in large monastic 
universities that can take two decades or more to complete.''
    \71\ Tibetan Centre for Human Rights and Democracy, ``Abbot and 
Senior Monk Detained for Holding Prayer for Dalai Lama's Health,'' 8 
February 16. For more information, see the Commission's Political 
Prisoner Database records 2016-00039 on Orgyen and 2016-00040 on Paga.
    \72\ Ibid. See also Richard Finney, ``Two Monks Detained in Sichuan 
Over Dalai Lama Prayers,'' Radio Free Asia, 11 February 16. For more 
information, see the Commission's Political Prisoner Database records 
2016-00039 on Orgyen and 2016-00040 on Paga.
    \73\ `` `Over a Thousand' Tibetans Gather in Kardze To Pray for 
Dalai Lama's Health,'' Radio Free Asia, 27 January 16.
    \74\ Tibetan Centre for Human Rights and Democracy, ``Abbot and 
Senior Monk Detained for Holding Prayer for Dalai Lama's Health,'' 8 
February 16. See also `` `Over a Thousand' Tibetans Gather in Kardze To 
Pray for Dalai Lama's Health,'' Radio Free Asia, 27 January 16. RFA 
reported ``hundreds of Tibetan men, women, and children seated before a 
large shrine at the monastery and praying before a large image of the 
Dalai Lama,'' and noted that as of the report date there had been no 
``crackdown'' as a result of the gathering.
    \75\ ``Tibetan Monk Jailed for Two Years Over Dalai Lama Photo,'' 
Radio Free Asia, 22 February 16. RFA reported that security officials 
detained Choephel (``Gomar Choephel'') on July 10, 2015, for having an 
image of the Dalai Lama in his personal possession and sharing one via 
social media. See also Tibetan Centre for Human Rights and Democracy, 
``Monk Sentenced to Two Years for Keeping and Sharing Dalai Lama's 
Photos,'' 24 February 16. TCHRD reported that prosecutors charged him 
with having ``threatened social stability'' and ``engaged in separatist 
activities.'' For more information on Choephel, see the Commission's 
Political Prisoner Database record 2015-00340.
    \76\ ``China Publishes Living Buddhas' Bios for Authentication,'' 
Xinhua, 28 April 16; ``China Living Buddha Database Nearly Complete,'' 
Global Times, 29 April 16. For a detailed discussion of the ``living 
Buddha'' database, see International Campaign for Tibet, ``The 
`Poisonous Fruit' of Tibet's Religious Policy as China Publishes 
`Living Buddha' Database,'' 2 May 16.
    \77\ Olivia Geng and Josh Chin, ``China Launches Living-Buddha 
Authentication Site, Dalai Lama Not Included,'' Wall Street Journal, 
China Real Time Report (blog), 19 January 16. As of August 1, 2016, 
Commission staff observed no subsequent reports indicating that the 
Buddhist Association of China subsequently added the Dalai Lama to the 
database.
    \78\ ``China Living Buddha Database Nearly Complete,'' Global 
Times, 29 April 16. According to the Global Times report, ``The [BAC] 
said that there will not be major changes to the database's inquiry 
system in the near future, . . . .'' For a detailed discussion of the 
database, see International Campaign for Tibet, ``The `Poisonous Fruit' 
of Tibet's Religious Policy as China Publishes `Living Buddha' 
Database,'' 2 May 16.
    \79\ ``China Living Buddha Database Nearly Complete,'' Global 
Times, 29 April 16.
    \80\ Tibetan Centre for Human Rights and Democracy, ``Document 
Exposes Intensification of State-Sanctioned Religious Repression in 
Troubled Tibetan County,'' 9 November 15. An image of an official stamp 
on the document displays the date September 9, 2015.
    \81\ Ibid. An image of the first page of the notice displays 
Tibetan and Chinese text for Biru (Driru) County People's Government.
    \82\ Ibid. A TCHRD caption for an image on the first page of the 
Tibetan-language ``Document No. 224'' refers to the document as ``the 
Notice.''
    \83\ Ibid. According to the TCHRD report, the document ``identifies 
and targets 24 activities'' to be ``purged and reformed'' at county 
monastic institutions.
    \84\ Ibid. According to the TCHRD report, the notice asserted the 
local government's ``sole right to recognize and appoint reincarnate or 
other prominent religious personalities.''
    \85\ Ibid. According to the TCHRD report, the measures would: 
``[intensify] attempts to replace religious vows of monks and nuns with 
state ideology by making political education mandatory''; provide 
``easier'' admission for monastic applicants demonstrating ``support 
and loyalty'' toward the Communist Party and government; mandate 
``political education'' for monks and nuns every Thursday; and apply 
``restrictions'' on monastic travel for religious study beyond a 
``hometown.''
    \86\ Ibid. According to the TCHRD report: ``Chinese authorities 
will control all financial activities of religious institutions''; and 
``restrictions'' will apply to donations or loans that monastic 
institutions and senior monastic figures could give to ``victims of 
natural disasters'' or ``poor Tibetans.''
    \87\ Ibid. According to the TCHRD report, possible punitive 
measures resulting from noncompliance or inadequate compliance with the 
measures could include the following: shutdown of a monastic 
institution; decreasing the number of monks and nuns permitted at a 
monastic institution and a four-year ban on new enrollment; salary 
reductions for reincarnated teachers (trulkus), abbots, and senior 
teachers; salary cuts for six months and political education for two 
months for members of Monastery Management Committees; warning, 
blacklisting, firing, and a ban for two years on harvesting cordyceps 
sinensis for heads of village committees or village Party committees if 
lay residents of villages are ``lenient'' in implementing the measures; 
and six months' political education, a ban for two to three years on 
harvesting cordyceps sinensis, and loss of government subsidies and 
welfare benefits for parents or families of monks or nuns who ``break 
the regulation.'' For additional information on banning harvesting 
cordyceps sinensis see CECC, 2015 Annual Report, 8 October 15, 305; 
CECC, 2014 Annual Report, 9 October 14, 178.
    \88\ Tibetan Centre for Human Rights and Democracy, ``Mass 
Expulsion of Nuns and Land Grabbing in Tibet's Diru County,'' 13 
October 15. According to the TCHRD report, officials expelled 100 nuns 
from Jada Gaden Khachoeling during a three-day period beginning on 
September 27, 2015. TCHRD did not explicitly state that the nuns were 
unregistered. ``Chinese Authorities Expel Nuns From Jada Convent in 
Tibet,'' Radio Free Asia, 10 November 15. According to RFA, officials 
expelled 106 nuns from ``Jada Garden Khacheoling'' during the period 
September 30-October 5 ``on the pretexts of not possessing the proper 
documents and exceeding the number of nuns that authorities permitted 
to live in the nunnery.''
    \89\ Edward Wong, ``Tibetan Groups Upset Over China's Demolition 
Work at Buddhist Institute,'' New York Times, 27 July 16. According to 
the NYT report, ``In the Tibetan regions ruled by China, one religious 
institute stands out--Larung Gar . . . . It has been described as the 
largest Buddhist institute on the planet.'' Tibetan Centre for Human 
Rights and Democracy, ``China Issues Demolition Order on World's 
Largest Religious Town in Tibet,'' 15 June 16. TCHRD described the 
``Serthar Larung Gar Buddhist Institute'' as a ``famed Tibetan Buddhist 
encampment.'' International Campaign for Tibet, ``Demolitions Begin at 
Larung Gar, `Monastery for the World,' as Religious Teachers Urge 
Calm,'' 25 July 16. ICT described Larung Gar as ``one of the most 
important centers of Tibetan Buddhism worldwide.''
    \90\ Tibetan Centre for Human Rights and Democracy, ``China Issues 
Demolition Order on World's Largest Religious Town in Tibet,'' 15 June 
16; ``Massive Cuts Planned for Tibetan Buddhist Center in Sichuan,'' 
Radio Free Asia, 7 June 16. See also International Campaign for Tibet, 
``Demolitions Begin at Larung Gar, `Monastery for the World,' as 
Religious Teachers Urge Calm,'' 25 July 16.
    \91\ Tibetan Centre for Human Rights and Democracy, ``China Issues 
Demolition Order on World's Largest Religious Town in Tibet,'' 15 June 
16. According to the TCHRD report, ``More than 20,000 monastic and lay 
practitioners live permanently at Larung Gar.'' Multiple Radio Free 
Asia reports described the scale of the reduction as ``about half to a 
maximum of 5,000.'' See, e.g., ``Larung Gar Monks, Nuns Forced To 
Return to Their Family Homes,'' Radio Free Asia, 11 August 16; 
``Tibetan Nun Commits Suicide at Buddhist Complex in China's Sichuan 
Province,'' Radio Free Asia, 8 August 16; ``Destruction Proceeds at 
Larung Gar, With at Least 600 Structures Torn Down So Far, Radio Free 
Asia, 29 July 16.
    \92\ Human Rights Watch, ``Serta County Order on Larung Gar 
Monastery,'' 9 June 16. The HRW report provides what it entitles as a 
``Provisional translation of extracts from `Correction and 
rectification obligations for the Larung monastery Buddhist Institute 
in Serta county.' '' According to the HRW translation, the document 
states: ``The limit of 5,000 total members of the camp must be 
maintained . . . .'' and that the limit must be attained by September 
30, 2017. Tibetan Centre for Human Rights and Democracy, ``China Issues 
Demolition Order on World's Largest Religious Town in Tibet,'' 15 June 
16.
    \93\ Human Rights Watch, ``Serta County Order on Larung Gar 
Monastery,'' 9 June 16. The HRW report provides what it entitles as a 
``Provisional translation of extracts from `Correction and 
rectification obligations for the Larung monastery Buddhist Institute 
in Serta county.' '' According to the HRW translation, the document 
states: ``The limit of 5,000 total members of the camp must be 
maintained, of whom not more than 1,000 can come from other 
provinces,'' and that the limit must be attained by September 30, 2017. 
For information on the Tibetan autonomous areas that are not in Sichuan 
province, see CECC, ``Special Topic Paper: Tibet 2008-2009,'' 22 
October 09, 22, 24. The areas include the Tibet Autonomous Region; 
Haibei (Tsojang) Tibetan Autonomous Prefecture (TAP), Hainan (Tsolho) 
TAP, Haixi (Tsonub) Mongol and Tibetan AP, Huangnan (Malho) TAP, Guoluo 
(Golog) TAP, and Yushu (Yushul) TAP in Qinghai province; Gannan 
(Kanlho) TAP and Tianzhu (Pari) Tibetan Autonomous County in Gansu 
province; and Diqing (Dechen) TAP in Yunnan province.
    \94\ Human Rights Watch, ``Serta County Order on Larung Gar 
Monastery,'' 9 June 16. The HRW report provides what it entitles as a 
``Provisional translation of extracts from `Correction and 
rectification obligations for the Larung monastery Buddhist Institute 
in Serta county.' '' The incomplete document lists several tasks with 
completion dates that are characterized in the title as ``Correction 
and Rectification Obligations.''
    \95\ Ibid. The HRW report provides what it entitles as a 
``Provisional translation of extracts from `Correction and 
rectification obligations for the Larung monastery Buddhist Institute 
in Serta county.' '' According to the HRW translation of 
``Responsibility Six,'' a ``main duty'' is to ``divide the [monastic] 
camp from the lay practitioners and demolish any construction within 30 
[meters], to make a gap,'' and to complete the task by July 31, 2016. 
Tibetan Centre for Human Rights and Democracy, ``China Issues 
Demolition Order on World's Largest Religious Town in Tibet,'' 15 June 
16.
    \96\ Human Rights Watch, ``Serta County Order on Larung Gar 
Monastery,'' 9 June 16. The HRW report provides what it entitles as a 
``Provisional translation of extracts from `Correction and 
rectification obligations for the Larung monastery Buddhist Institute 
in Serta county.' '' The HRW translation of ``Responsibility Five'' 
stipulates as a ``main duty'' to establish ``camera surveillance and 
entry screening procedures and putting them to use,'' and to complete 
the task by August 31, 2016. Tibetan Centre for Human Rights and 
Democracy, ``China Issues Demolition Order on World's Largest Religious 
Town in Tibet,'' 15 June 16.
    \97\ Human Rights Watch, ``Serta County Order on Larung Gar 
Monastery,'' 9 June 16. The HRW report provides what it entitles as a 
``Provisional translation of extracts from `Correction and 
rectification obligations for the Larung monastery Buddhist Institute 
in Serta county.' '' The HRW translation of ``Responsibility Six,'' 
item 2, refers to the 30-meter ``gap'' and stipulates: ``The gap must 
be sealed with ladders of notched logs [?],'' and to complete the task 
by September 30, 2016. (Commission staff familiar with traditional 
Tibetan construction interprets ``ladders of notched logs [?]'' as a 
possible reference to very steep, narrow wooden steps; such steps could 
be used to cross over a barrier wall.) For a description that refers to 
constructing a ``wall'' within the ``gap,'' see Tibetan Centre for 
Human Rights and Democracy, ``China Issues Demolition Order on World's 
Largest Religious Town in Tibet,'' 15 June 16. ``The sixth point in the 
demolition order calls for the separation of lay practitioners from the 
monastics . . .. Before 31 July 2016, the houses built between the 
monastics and lay practitioners, an area of 30 meters, will be 
demolished. Before 30 September 2016, walls will be constructed between 
them.''
    \98\ Edward Wong, ``Tibetan Groups Upset Over China's Demolition 
Work at Buddhist Institute,'' New York Times, 27 July 16.
    \99\ Commission staff analysis. A Commission staffer who traveled 
widely in the Tibetan autonomous areas of China from the mid-1980s to 
mid-1990s and visited several of the monasteries featured in the ICT 
report regarded the images of gatherings depicted in the ICT report as 
remarkable in the context of current Communist Party policy and 
government regulations. For information on Tibetan autonomous areas 
outside the Tibet Autonomous Region in the mid-1990s, see Steven 
Marshall and Susette Cooke, Tibet Outside the TAR: Control, 
Exploitation and Assimilation: Development With Chinese Characteristics 
(Washington, DC: Self-published CD-ROM, 1997).
    \100\ International Campaign for Tibet, ``Thousands of Tibetans 
Gather Across Tibet To Mark Prayer Festival; Lockdown of TAR to Foreign 
Tourists,'' 25 February 16. The ICT report provided images of Qinghai 
province monasteries including Kubum Monastery (``Kumbum''), located in 
Huangzhong (Rushar) county, Xining municipality; Rongbo Monastery, 
located in Tongren (Rebgong) county, Huangnan (Malho) Tibetan 
Autonomous Prefecture (TAP); Ragya Monastery, located in Maqin (Machen) 
county, Guoluo (Golog) TAP; Dragkar Traldzong Monastery (``Drakar 
Tredzong''), located in Xinghai (Tsigorthang) county, Hainan (Tsolho) 
TAP; and Tashi Choekorling Monastery, located in Xunhua (Yadzi) Salar 
Autonomous County, Haidong prefecture.
    \101\ Ibid. The ICT report provided images of Gansu province 
monasteries including Labrang Tashikhyil Monastery, located in Xiahe 
(Sangchu) county, Gannan (Kanlho) Tibetan Autonomous Prefecture (TAP) 
and ``Chone Monastery'' (or Tingdzing Dargyeling), located in Zhuoni 
(Chone) county, Gannan TAP.
    \102\ Ibid. The ICT report provided an image of Kirti Monastery, 
located in Aba (Ngaba) county, Aba Tibetan and Qiang Autonomous 
Prefecture, Sichuan province.
    \103\ Ibid. The ICT report provided images of Drepung Monastery, 
located in Lhasa municipality, Tibet Autonomous Region.
    \104\ Ibid. The ICT report identifies the day as Monlam Chenmo. For 
a Tibetan calendar identifying the date as the 15th day (full moon) of 
the 1st Tibetan month, see Men-Tsee-Khang, ``Calendar,'' last visited 6 
May 16.
    \105\ International Campaign for Tibet, ``Thousands of Tibetans 
Gather Across Tibet To Mark Prayer Festival; Lockdown of TAR to Foreign 
Tourists,'' 25 February 16. The ICT report noted: ``Police in 
camouflage uniforms were visible amidst the gathering of pilgrims at 
ceremonies . . ..''
    \106\ Ibid. According to the ICT report, ``Massed ranks of armed 
troops in riot gear with shields and helmets, and guns strapped against 
their chests, have been visible at the forefront of images of Monlam 
Chenmo in the last few years, but did not appear in the pictures 
received by ICT this week.''
    \107\ Ibid.
    \108\ For an example involving an official who formerly was a 
senior Communist Party official and currently is the Chairperson of the 
Chinese People's Political Consultative Conference Ethnic and Religious 
Affairs Committee, see Zhu Weiqun, ``Some Thoughts on Existing Problems 
in the Field of Nationalities'' [Dui dangqian minzu lingyu wenti de 
jidian sikao], Study Times, 13 February 12 (translated in Open Source 
Center, 20 February 12). In the article, Zhu stated: ``Touching on the 
issue of ethnic development trend, we must talk about the issue of 
ethnic mingling and amalgamation. . . . Whether from the perspective of 
benefiting the development and progress of minority nationalities, or 
from the perspective of benefiting the Chinese Nation's unanimity, it 
is imperative to popularize the state's common spoken and written 
languages without fail.'' See also China Directory 2014 (Tokyo: 
Radiopress, December 2013), 154.
    \109\ See, e.g., Edward Wong, ``Tibetan Entrepreneur Has Been 
Illegally Detained, Family Says,'' New York Times, 10 March 16 (``Mr. 
Tashi said that he was not advocating Tibetan independence and that he 
was mainly concerned about cultural preservation.''); Emily Rauhala, 
``China's Plan To `Liberate' a Cradle of Tibetan Culture,'' Washington 
Post, 14 December 15 (``. . . Tibetan calls for `protecting the mother 
tongue,' . . . are merely a `pretext' for separatism . . ..''); ``New 
Controls on Tibetan Language Study in Qinghai's Pema County,'' Radio 
Free Asia, 20 January 16 (``taking classes in secret due to fear of 
arrest'').
    \110\ See, e.g., ``Xi Stresses Unity for Tibet, Vows Fight Against 
Separatism,'' Xinhua, 25 August 15.
    \111\ Gray Tuttle, ``China's Race Problem--How Beijing Represses 
Minorities,'' Foreign Affairs, May-June 2015; Columbia University, 
Department of East Asian Languages and Cultures, ``Gray Tuttle,'' last 
visited 22 March 16. According to the Columbia University bio, Gray 
Tuttle is the Leila Hadley Luce Associate Professor of Modern Tibetan 
Studies.
    \112\ ``Xi Stresses Unity for Tibet, Vows Fight Against 
Separatism,'' Xinhua, 25 August 15.
    \113\ ``State-Approved Tibetan Language Classes Held Unhindered in 
Tawu,'' Radio Free Asia, 27 January 16 (``series of classes promoting 
the study of the Tibetan language . . . has gone ahead with apparent 
state approval'').
    \114\ Ibid.
    \115\ ``Tibetan, Muslim Students Join in Protest for Equal 
Education,'' Radio Free Asia, 28 January 16.
    \116\ Ibid.
    \117\ ``New Controls on Tibetan Language Study in Qinghai's Pema 
County,'' Radio Free Asia, 20 January 16.
    \118\ Ibid.
    \119\ ``Top Competitors in Tibetan Language Contest in Qinghai Win 
Car, Cash Awards,'' Radio Free Asia, 1 February 16 (``week-long 
competition testing Tibetan language skills has gone ahead with 
apparent approval from authorities'').
    \120\ Ibid. The RFA report identified the association as the 
``Dzanyin Mother Tongue Promotion Association.''
    \121\ ``Tibetan Writer Sentenced to Three Years in Prison in 
China's Qinghai Province,'' Radio Free Asia, 19 February 16 (``People's 
Intermediate Court in Rebgong (in Chinese, Tongren) of Malho (Huangnan) 
prefecture''). For more information on Druglo (Shogjang 
(``Shokjang'')), see the Commission's Political Prisoner Database 
record 2010-00153.
    \122\ ``Tibetan Writer Sentenced to Three Years in Prison in 
China's Qinghai Province,'' Radio Free Asia, 19 February 16 (citing 
``material the government said could incite discord among 
nationalities''). For more information on Druglo (Shogjang 
(``Shokjang'')), see the Commission's Political Prisoner Database 
record 2010-00153.
    \123\ Tibetan Centre for Human Rights and Democracy, ``Tibetan 
Writer Sentenced to Three Years Maintains His Innocence,'' 22 February 
16 (``inciting ethnic hatred during the 2008 uprising''). For more 
information on Druglo (Shogjang (``Shokjang'')), see the Commission's 
Political Prisoner Database record 2010-00153.
    \124\ ``Tibetan Writer Sentenced to Three Years in Prison in 
China's Qinghai Province,'' Radio Free Asia, 19 February 16; Tibetan 
Centre for Human Rights and Democracy, ``Tibetan Writer Sentenced to 
Three Years Maintains His Innocence,'' 22 February 16. For more 
information on Druglo (Shogjang (``Shokjang'')), see the Commission's 
Political Prisoner Database record 2010-00153.
    \125\ ``Tibetan Writer Believed To Be Jailed in Northwest China 
Province,'' Radio Free Asia, 8 April 15; ``Tibetan Writer Shokjung 
Arrested in Rebkong,'' Voice of America, 8 April 15. For more 
information on Druglo (Shogjang (``Shokjang'')), see the Commission's 
Political Prisoner Database record 2010-00153.
    \126\ For information on the reaction from other Tibetan writers, 
see, e.g., High Peaks Pure Earth, ``Tashi Rabten Remembers Detained 
Writer Shokjang,'' 9 April 15; High Peaks Pure Earth, `` `My Friend Is 
Innocent. Return Him!' More From Netizens on Detained Writer 
Shokjang,'' 9 April 15. For more information on Druglo (Shogjang 
(``Shokjang'')), see the Commission's Political Prisoner Database 
record 2010-00153.
    \127\ Edward Wong, ``Tibetan Entrepreneur Has Been Illegally 
Detained, Family Says,'' New York Times, 10 March 16. See also Edward 
Wong, ``Tibetans Fight To Salvage Fading Culture in China,'' New York 
Times, 28 November 15; Edward Wong, ``A Showcase of Tibetan Culture 
Serves Chinese Political Goals,'' New York Times, 19 December 15.
    \128\ Edward Wong, ``China Charges Tibetan Education Advocate With 
Inciting Separatism,'' New York Times, 30 March 16. According to the 
New York Times report, a ``police document'' specified the charge of 
``inciting separatism.'' See PRC Criminal Law [Zhonghua renmin 
gongheguo xing fa], issued 1 July 79, amended 14 March 97, effective 1 
October 97, amended 25 December 99, 31 August 01, 29 December 01, 28 
December 02, 28 February 05, 29 June 06, 28 February 09, 25 February 
11, 29 August 15, effective 1 November 15, art. 103. According to 
Article 103(2), ``Whoever incites others to split the State or 
undermine unity of the country shall be sentenced to fixed-term 
imprisonment of not more than five years, . . ..''
    \129\ Edward Wong, ``Police in China Push for Trial of Tibetan 
Education Advocate,'' New York Times, 30 August 16. According to the 
report, ``Mr. Tashi's case entered a new phase on Thursday, when the 
police concluded an additional investigation at the prosecutors' 
request and handed over those results.''
    \130\ Edward Wong, ``Tibetan Entrepreneur Has Been Illegally 
Detained, Family Says,'' New York Times, 10 March 16. See also Edward 
Wong, ``Tibetans Fight To Salvage Fading Culture in China,'' New York 
Times,'' 28 November 15; Edward Wong, ``A Showcase of Tibetan Culture 
Serves Chinese Political Goals,'' New York Times, 19 December 15.
    \131\ Edward Wong, ``Tibetans Fight To Salvage Fading Culture in 
China,'' New York Times, 28 November 15. See also Edward Wong, 
``Tibetan Entrepreneur Has Been Illegally Detained, Family Says,'' New 
York Times, 10 March 16; Edward Wong, ``A Showcase of Tibetan Culture 
Serves Chinese Political Goals,'' New York Times, 19 December 15.
    \132\ Edward Wong, ``Tibetan Entrepreneur Has Been Illegally 
Detained, Family Says,'' New York Times, 10 March 16.
    \133\ ``Tibetan Monk Detained, Warned Over Plans To Publish Book,'' 
Radio Free Asia, 6 January 16 (``taken into custody on Nov. 7''); 
``Tibetan Monk Arrested, Warned Against Publication of Book,'' Phayul, 
6 January 16 (``arrested on the morning of Dec 18'').
    \134\ Ibid.
    \135\ ``Tibetan Monk Detained, Warned Over Plans To Publish Book,'' 
Radio Free Asia, 6 January 16; ``Tibetan Monk Arrested, Warned Against 
Publication of Book,'' Phayul, 6 January 16 (book ``documents his 
experience of his escape to India in 1994 over 54 days'').
    \136\ Ibid.
    \137\ For information in recent Commission Annual Reports on the 
Chinese Communist Party and government approach to economic development 
in autonomous Tibetan areas of China, see CECC, 2015 Annual Report, 8 
October 15, 298-300; CECC, 2014 Annual Report, 9 October 14, 182-83; 
CECC, 2013 Annual Report, 10 October 13, 184; CECC, 2012 Annual Report, 
10 October 12, 165-66; and CECC, 2011 Annual Report, 10 October 11, 
214-19.
    \138\ See, e.g., ``Chinese Communist Party Central Committee 
Political Bureau Convenes Meeting To Study, Promote Work on Tibet's 
Development by Leaps and Bounds and Long-Term Order and Stability--
Chinese Communist Party Central Committee General Secretary Hu Jintao 
Presides Over the Meeting'' [Zhonggong zhongyang zhengzhiju zhaokai 
huiyi--yanjiu tuijin xizang kuayueshi fazhan he changzhi jiu'an 
gongzuo--zhonggong zhongyang zongshuji hu jintao zhuchi huiyi], Xinhua, 
8 January 10 (translated in Open Source Center, 8 January 10); Qin 
Jiaofeng, Gama Duoji, and Quan Xiaoshu, ``Make Every Effort To Promote 
Leapfrog Development in Tibet Through Adherence to `Chinese 
Characteristics and Tibetan Traits'--Interview With National People's 
Congress Deputy and Tibet Autonomous Region Chairman Baima Chilin'' 
[Jianchi ``zhongguo tese, xizang tedian'' licu xizang kuayueshi 
fazhan--fang quanguo renda daibiao, xizang zizhiqu zhuxi baima chilin], 
Xinhua, 10 March 10 (translated in Open Source Center, 10 March 10). 
For information on developments at the January 2010 Fifth Tibet Work 
Forum, see ``Communist Party Leadership Outlines 2010-2020 `Tibet Work' 
Priorities at `Fifth Forum,' '' CECC China Human Rights and Rule of Law 
Update, No. 3, 16 March 10.
    \139\ ``China Focus: Tibet Targets Double-Digit Growth in 2016,'' 
Xinhua, 27 January 16. According to the report, the Tibet Autonomous 
Region GDP (gross domestic product) grew 11 percent in 2015 and 
maintained ``double-digit growth over the past 22 years.''
    \140\ Ibid. According to the report, the [average] ``per capita 
disposable income'' of ``farmers and herdsmen'' in the Tibet Autonomous 
Region was 7,359 yuan, an increase of 10.9 percent over the previous 
year; the [average] ``per capita disposable income'' of urban residents 
was 22,016 yuan. The report did not provide a percent increase over 
2014 for the rise in urban residents' income.
    \141\ See, e.g., Edward Wong, ``China Charges Tibetan Education 
Advocate With Inciting Separatism,'' New York Times, 30 March 16 (Tashi 
Wangchug (``Tashi Wangchuk''): ``Tibetans need to protect their 
culture''); International Campaign for Tibet, ``New Solo Protest by 
Young Man in Ngaba Is Part of Emerging Trend,'' 21 December 15 
(religious leaders ``urged Tibetans to protect their lives so that they 
can protect their culture and religion''); Gray Tuttle, ``China's Race 
Problem--How Beijing Represses Minorities,'' Foreign Affairs, May-June 
2015 (referring to protection of ``cultural traditions'': ``such 
protections . . . are rarely honored'').
    \142\ See, e.g., Edward Wong, ``China Charges Tibetan Education 
Advocate With Inciting Separatism,'' New York Times, 30 March 16 (Tashi 
Wangchug (``Tashi Wangchuk''): ``Mr. Tashi has been most vocal about 
language education, . . ..''); International Campaign for Tibet, 
``Hotel Restaurant Closed Down by Authorities After Staff Threatened 
With Fine for Speaking Tibetan,'' 14 January 16 (``netizens . . . were 
making a broader point on concern for their language''); Gray Tuttle, 
``China's Race Problem--How Beijing Represses Minorities,'' Foreign 
Affairs, May-June 2015 (``although the government putatively seeks to 
preserve and respect the Tibetan language, in practice Beijing has 
sought to marginalize it'').
    \143\ Tibetan Centre for Human Rights and Democracy, ``Document 
Exposes Intensification of State-Sanctioned Religious Repression in 
Troubled Tibetan County,'' 9 November 15 (Biru (Driru) county 
regulation: ``identifies and targets 24 activities through which 
religious institutions . . . will be `purged and reformed' '' ); Li 
Ruohan, ``Fake Buddhas Back Separatists: Official,'' Global Times, 7 
December 15 (Some [trulkus] ``bypass the official approach . . . 
without applying for permission from the country's department of 
religious affairs''); Shi Lei and Xiao Tao, ``Tibet CPC Standing 
Committee Listen to Report on Cadre Stationing in Village, Campaign for 
Model Harmonious Monastery, Patriotic, Law-Abiding, Advanced Monks and 
Nuns, `Advanced Double-Link Household' and Preparation for Recognition 
Conference; Firmly Deepen Successful Practice of Managing Border and 
Stabilizing Tibet, Lay Solid Foundation for Economic and Social 
Development and Long-Term Peace and Stability; Chen Quanguo Presides 
Over Meeting'' [Zizhiqu dangwei changweihui tingqu ganbu zhu cun--hexie 
mofan simiao ji aiguo shoufa xianjin sengni chuangjian pingxuan 
huodong--``xianjin shuang lian hu'' chuang jian pingxuan gongzuo 
zongjie ji biaozhang hui choubei qingkuang huibao--jianding buyi ba zhi 
bian wen zang de chenggong shijian yinxiang shenru--wei jingji shehui 
fazhan he changzhi jiu'an daxia jianshi jichu], Tibet Daily, 13 
November 15 (summarized in Open Source Center, 13 November 15) 
(describes status of ``campaign of striving to become a model 
harmonious monastery and law-abiding monks and nuns'').
    \144\ Jane Qiu, ``Trouble in Tibet,'' Nature, Vol. 529, No. 7585, 
13 January 16, 143 (``policies are harming the environment and the 
herders''); International Campaign for Tibet, ``New Report Reveals 
Global Significance of Tibet, Earth's Third Pole, and Challenges 
China's Policies,'' 8 December 15 (``China's policies are re-shaping 
the landscape of the earth's highest and largest plateau with 
devastating consequences.''); International Campaign for Tibet, ``Blue 
Gold From the Highest Plateau: Tibet's Water and Global Climate 
Change,'' last visited 26 February 16, 10 (``Large-scale mining . . ., 
signaling the remote region's integration into the Chinese industrial 
economy, is having a devastating impact, . . .''). The ICT report does 
not provide a publication date but the ICT press release does so.
    \145\ For examples of Tibetans reportedly detained or imprisoned as 
a result of questioning Chinese government and Party policies during 
the Commission's 2016 reporting year, see, e.g., the Commission's 
Political Prisoner Database records 2010-00153 on Drukar Gyal (or 
Druglo, Shogjang (``Shokjang''), sentenced to three years' imprisonment 
in February 2016 for his writing); 2016-00077 on Tashi Wangchug 
(``Tashi Wangchuk''; detained in January 2016 for criticizing 
government language and education policy); and 2015-00340 on Choephel 
(reportedly sentenced in February 2016 to two years' imprisonment for 
keeping and sharing images of the Dalai Lama via his cell phone). For 
examples of Tibetans who reportedly staged solitary political protests 
during the Commission's 2016 reporting year, see, e.g., records 2016-
00080 on Mangga (detained in March 2016); 2016-00065 on Jamyang Dorje 
(detained in February 2016); 2015-00480 on Tashi Dondrub (detained in 
December 2015); 2015-00153 on Gedun Phuntsog (sentenced in December 
2015 to four years' imprisonment for protesting in March 2015); 2015-
00159 on Lobsang Kalsang (sentenced in November 2015 to three years and 
six months' imprisonment for protesting in March 2015); 2015-00411 on 
Jampa Sengge (detained in November 2015); and 2015-00376 on Tashi 
(detained in October 2015).
    \146\ For additional information on the Sichuan-Tibet railway and 
other railway construction in Tibetan autonomous areas, see ``Sichuan-
Tibet Railway Work To Start, Impact May Far Surpass Qinghai-Tibet 
Railway,'' CECC China Human Rights and Rule of Law Update, No. 5, 2009, 
1; CECC, ``Special Topic Paper: Tibet 2008-2009,'' 22 October 09, 46-
53; CECC, 2015 Annual Report, 8 October 15, 299; CECC, 2012 Annual 
Report, 10 October 12, 165-66; CECC, 2011 Annual Report, 10 October 11, 
217-18; CECC, 2010 Annual Report, 10 October 10, 223; CECC, 2008 Annual 
Report, 31 October 08, 193.
    \147\ Christopher Bodeen, ``Tibet's Governor Praises Plans for 2nd 
Railway Line to Lhasa,'' Associated Press, 7 March 16, reprinted in 
Washington Post.
    \148\ ``China Approves New Railway in Tibet,'' Xinhua, 31 October 
14.
    \149\ ``Construction Begins on Chengdu-Ya'an Section of Sichuan-
Tibet Railway,'' Xinhua, 6 December 14. According to the report, work 
on the Sichuan province portion of the railway began on the report's 
publication date: Saturday, December 6, 2014. ``Construction of Lhasa-
Nyingchi Railway Begins,'' Xinhua, 19 December 14. According to the 
report, work on the Tibet Autonomous Region portion of the railway 
began on the report's publication date: Friday, December 19, 2014.
    \150\ Christopher Bodeen, ``Tibet's Governor Praises Plans for 2nd 
Railway Line to Lhasa,'' Associated Press, 7 March 16, reprinted in 
Washington Post. According to the report, Lobsang Gyaltsen (``Losang 
Jamcan''), Chairman of the Tibet Autonomous Region People's Government, 
stated that completion of the railway will bring ``even more economic 
benefits, even more prosperity.'' China Directory 2014 (Tokyo: 
Radiopress, December 2013), 9, 432-33. According to the China 
Directory, Lobsang Gyaltsen (Losang Gyaltsen, Luosang Jiangcun) was an 
alternate member of the Central Committee of the Chinese Communist 
Party, a Deputy Secretary of the TAR Communist Party Committee, and the 
Chairperson of the TAR People's Government.
    \151\ Ibid. According to the report, Pema Choling (``Padma 
Choling''), Chairman of the Tibet Autonomous Region People's Congress, 
dismissed ``worries about the environment'' and said the Tibetan 
environment was ``well protected.'' China Directory 2014 (Tokyo: 
Radiopress, December 2013), 6, 37, 432-33. According to the China 
Directory, Pema Choling (Padma Choling, Baima Chilin) was a member of 
the Central Committee of the Chinese Communist Party, a Vice-
Chairperson of the Nationalities Committee of the National People's 
Congress, a Deputy Secretary of the TAR Communist Party Committee, and 
the Chairperson of the Standing Committee of the TAR People's Congress.
    \152\ Huang Xing, ``State Council Approves and Agrees to Removal of 
Duilongdeqing's County Status and Confers District Status'' [Guowuyuan 
pifu tongyi lasa shi duilongdeqing xian che xian she qu], Xinhua, 28 
November 15.
    \153\ International Campaign for Tibet, ``Crossing the Line: 
China's Railway to Lhasa, Tibet,'' last visited 29 March 16, 60. The 
map shows that the railway would enter Duilongdeqing (Toelung Dechen) 
county through its northwest corner and exit from the southeast corner. 
The ICT website indicates that the report's publication date was 
September 1, 2003, but the report does not contain a publication date. 
For a dated press release, see International Campaign for Tibet, ``New 
ICT Report Finds Tibet Railway Built for Political, Not Economic 
Reasons,'' 2 September 03.
    \154\ Huang Xing, ``State Council Approves and Agrees to Removal of 
Duilongdeqing's County Status and Confers District Status'' [Guowuyuan 
pifu tongyi lasa shi duilongdeqing xian che xian she qu], Xinhua, 28 
November 15. The Commission has not observed any report of a third 
urban district established in the Tibet Autonomous Region (TAR) and, 
specifically, has not observed any report of an urban district 
established in Changdu (Chamdo), Rikaze (Shigatse), or Linzhi 
(Nyingtri), the other three municipalities in the TAR. See CECC, 2015 
Annual Report, 8 October 15, 299; Wang Shoubao and Zhang Jingpin, 
``Tibet Qamdo Prefecture Revocation and Establishment of Municipality 
Obtains State Council Approval'' [Xizang changdu diqu che di she shi 
huo guowuyuan pifu], Xinhua, 3 November 14; ``New City Inaugurated in 
China's Tibet,'' Xinhua, 19 December 14 (``Xigaze . . . the third 
prefecture-level city in the region''); ``New City To Be Established in 
China's Tibet,'' Xinhua, 3 April 15 (``Nyingchi . . . the fourth 
prefecture-level city in the region'').
    \155\ Based on 2000 and 2010 ethnic census data, the Han population 
in Lhasa municipality increased 50.2 percent. Tabulation on 
Nationalities of 2000 Population Census of China [2000 nian renkou 
pucha zhongguo minzu renkou ziliao], Department of Population, Social, 
Science and Technology Statistics, National Bureau of Statistics of 
China, and Department of Economic Development, State Ethnic Affairs 
Commission (Beijing: Ethnic Publishing House, September 2003), Table 
10-1, 632 (Han population of Lhasa municipality in 2000: 80,584); 
Tabulation on Nationalities of 2010 Population Census of China, Volume 
1 [Zhongguo 2010 nian renkou pucha fen minzu renkou ziliao shang], 
Department of Population and Employment Statistics, National Bureau of 
Statistics of China, and Department of Economic Development, State 
Ethnic Affairs Commission (Beijing: Ethnic Publishing House, July 
2013), Table 10-1, 975 (Han population of Lhasa municipality in 2010: 
121,065).
    \156\ See, e.g., CECC, 2006 Annual Report, 20 September 06, 166-69; 
``Qinghai-Tibet Railway Statistics Add to Confusion, Mask Impact on 
Local Population,'' Congressional-Executive Commission on China, 4 
March 10; ``First Passenger Trains to Lhasa Sold Out,'' CECC China 
Human Rights and Rule of Law Update, June 2006, 15-18.
    \157\ Based on 2000 and 2010 ethnic census data, the total 
population in the Chengguan district of Lhasa municipality increased 
25.1 percent. Tabulation on Nationalities of 2000 Population Census of 
China [2000 nian renkou pucha zhongguo minzu renkou ziliao], Department 
of Population, Social, Science and Technology Statistics, National 
Bureau of Statistics of China, and Department of Economic Development, 
State Ethnic Affairs Commission (Beijing: Ethnic Publishing House, 
September 2003), Table 10-1, 632 (total population of Chengguan 
district in 2000: 223,001); Tabulation on Nationalities of 2010 
Population Census of China, Volume 1 [Zhongguo 2010 nian renkou pucha 
fen minzu renkou ziliao shang], Department of Population and Employment 
Statistics, National Bureau of Statistics of China, and Department of 
Economic Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Table 10-1, 975 (total population of 
Chengguan district in 2010: 279,074).
    \158\ Based on 2000 and 2010 ethnic census data, the Han population 
in the Chengguan district of Lhasa municipality increased 40.5 percent. 
Tabulation on Nationalities of 2000 Population Census of China [2000 
nian renkou pucha zhongguo minzu renkou ziliao], Department of 
Population, Social, Science and Technology Statistics, National Bureau 
of Statistics of China, and Department of Economic Development, State 
Ethnic Affairs Commission (Beijing: Ethnic Publishing House, September 
2003), Table 10-1, 632 (Han population of Chengguan district in 2000: 
76,581); Tabulation on Nationalities of 2010 Population Census of 
China, Volume 1 [Zhongguo 2010 nian renkou pucha fen minzu renkou 
ziliao shang], Department of Population and Employment Statistics, 
National Bureau of Statistics of China, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Table 10-1, 975 (Han population of 
Chengguan district in 2010: 107,607).
    \159\ Based on 2000 and 2010 ethnic census data, the total 
population in Duilongdeqing (Toelung Dechen) county increased 28.9 
percent. Tabulation on Nationalities of 2000 Population Census of China 
[2000 nian renkou pucha zhongguo minzu renkou ziliao], Department of 
Population, Social, Science and Technology Statistics, National Bureau 
of Statistics of China, and Department of Economic Development, State 
Ethnic Affairs Commission (Beijing: Ethnic Publishing House, September 
2003), Table 10-1, 632 (total population of Duilongdeqing in 2000: 
40,543); Tabulation on Nationalities of 2010 Population Census of 
China, Volume 1 [Zhongguo 2010 nian renkou pucha fen minzu renkou 
ziliao shang], Department of Population and Employment Statistics, 
National Bureau of Statistics of China, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Table 10-1, 975 (total population of 
Duilongdeqing in 2010: 52,249).
    \160\ Based on 2000 and 2010 ethnic census data, the Han population 
in Duilongdeqing (Toelung Dechen) county increased 268.6 percent. 
Tabulation on Nationalities of 2000 Population Census of China [2000 
nian renkou pucha zhongguo minzu renkou ziliao], Department of 
Population, Social, Science and Technology Statistics, National Bureau 
of Statistics of China, and Department of Economic Development, State 
Ethnic Affairs Commission (Beijing: Ethnic Publishing House, September 
2003), Table 10-1, 632 (Han population of Duilongdeqing in 2000: 
1,868); Tabulation on Nationalities of 2010 Population Census of China, 
Volume 1 [Zhongguo 2010 nian renkou pucha fen minzu renkou ziliao 
shang], Department of Population and Employment Statistics, National 
Bureau of Statistics of China, and Department of Economic Development, 
State Ethnic Affairs Commission (Beijing: Ethnic Publishing House, July 
2013), Table 10-1, 975 (Han population of Chengguan district in 2010: 
6,886).
    \161\ Based on 2000 and 2010 ethnic census data, the TAR total 
population increased 14.7 percent. Tabulation on Nationalities of 2000 
Population Census of China [2000 nian renkou pucha zhongguo minzu 
renkou ziliao], Department of Population, Social, Science and 
Technology Statistics, National Bureau of Statistics of China, and 
Department of Economic Development, State Ethnic Affairs Commission 
(Beijing: Ethnic Publishing House, September 2003), Table 10-1, 632 
(total population of TAR in 2000: 2,616,329); Tabulation on 
Nationalities of 2010 Population Census of China, Volume 1 [Zhongguo 
2010 nian renkou pucha fen minzu renkou ziliao shang], Department of 
Population and Employment Statistics, National Bureau of Statistics of 
China, and Department of Economic Development, State Ethnic Affairs 
Commission (Beijing: Ethnic Publishing House, July 2013), Table 10-1, 
975 (total population of TAR in 2010: 3,002,165).
    \162\ Based on 2000 and 2010 ethnic census data, the Han population 
in the Tibet Autonomous Region (TAR) increased 54.7 percent. Tabulation 
on Nationalities of 2000 Population Census of China [2000 nian renkou 
pucha zhongguo minzu renkou ziliao], Department of Population, Social, 
Science and Technology Statistics, National Bureau of Statistics of 
China, and Department of Economic Development, State Ethnic Affairs 
Commission (Beijing: Ethnic Publishing House, September 2003), Table 
10-1, 632 (Han population of the TAR in 2000: 158,570); Tabulation on 
Nationalities of 2010 Population Census of China, Volume 1 [Zhongguo 
2010 nian renkou pucha fen minzu renkou ziliao shang], Department of 
Population and Employment Statistics, National Bureau of Statistics of 
China, and Department of Economic Development, State Ethnic Affairs 
Commission (Beijing: Ethnic Publishing House, July 2013), Table 10-1, 
975 (Han population of the TAR in 2010: 245,263).
    \163\ Based on 2000 and 2010 ethnic census data, the Tibetan 
population in the Tibet Autonomous Region (TAR) increased 11.9 percent. 
Tabulation on Nationalities of 2000 Population Census of China [2000 
nian renkou pucha zhongguo minzu renkou ziliao], Department of 
Population, Social, Science and Technology Statistics, National Bureau 
of Statistics of China, and Department of Economic Development, State 
Ethnic Affairs Commission (Beijing: Ethnic Publishing House, September 
2003), Table 10-2, 682 (Tibetan population of the TAR in 2000: 
2,427,168); Tabulation on Nationalities of 2010 Population Census of 
China, Volume 1 [Zhongguo 2010 nian renkou pucha fen minzu renkou 
ziliao shang], Department of Population and Employment Statistics, 
National Bureau of Statistics of China, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Table 10-2, 1035 (Tibetan population of 
the TAR in 2010: 2,716,388).
    \164\ Based on 2000 and 2010 ethnic census data, the Tibetan 
population in Lhasa municipality increased about 10.8 percent. 
Tabulation on Nationalities of 2000 Population Census of China [2000 
nian renkou pucha zhongguo minzu renkou ziliao], Department of 
Population, Social, Science and Technology Statistics, National Bureau 
of Statistics of China, and Department of Economic Development, State 
Ethnic Affairs Commission (Beijing: Ethnic Publishing House, September 
2003), Table 10-2, 682 (Tibetan population of Lhasa municipality in 
2000: 387,124); Tabulation on Nationalities of 2010 Population Census 
of China, Volume 1 [Zhongguo 2010 nian renkou pucha fen minzu renkou 
ziliao shang], Department of Population and Employment Statistics, 
National Bureau of Statistics of China, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Table 10-2, 1035 (Tibetan population of 
Lhasa municipality in 2010: 429,104).
    \165\ Based on 2000 and 2010 ethnic census data, the Tibetan 
population in Lhasa's Chengguan district increased about 16.6 percent. 
Tabulation on Nationalities of 2000 Population Census of China [2000 
nian renkou pucha zhongguo minzu renkou ziliao], Department of 
Population, Social, Science and Technology Statistics, National Bureau 
of Statistics of China, and Department of Economic Development, State 
Ethnic Affairs Commission (Beijing: Ethnic Publishing House, September 
2003), Table 10-2, 682 (Tibetan population of the Chengguan district in 
2000: 140,387); Tabulation on Nationalities of 2010 Population Census 
of China, Volume 1 [Zhongguo 2010 nian renkou pucha fen minzu renkou 
ziliao shang], Department of Population and Employment Statistics, 
National Bureau of Statistics of China, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Table 10-2, 1035 (Tibetan population of 
the Chengguan district in 2010: 163,725).
    \166\ Based on 2000 and 2010 ethnic census data, the Tibetan 
population in Duilongdeqing (Toelung Dechen) county increased about 
16.4 percent. Tabulation on Nationalities of 2000 Population Census of 
China [2000 nian renkou pucha zhongguo minzu renkou ziliao], Department 
of Population, Social, Science and Technology Statistics, National 
Bureau of Statistics of China, and Department of Economic Development, 
State Ethnic Affairs Commission (Beijing: Ethnic Publishing House, 
September 2003), Table 10-2, 682 (Tibetan population of Duilongdeqing 
in 2000: 38,455); Tabulation on Nationalities of 2010 Population Census 
of China, Volume 1 [Zhongguo 2010 nian renkou pucha fen minzu renkou 
ziliao shang], Department of Population and Employment Statistics, 
National Bureau of Statistics of China, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Table 10-2, 1035 (Tibetan population of 
Duilongdeqing in 2010: 44,768).
    \167\ Two factors have made accessing ethnic census data more 
difficult. One is that Tibet Autonomous Region (TAR) statistical 
yearbooks after 2009 ceased reporting population data at prefectural or 
county levels. The other is that the Tabulation on Nationalities of 
2010 Population Census of China, as accessed by the Commission, 
provided data tables only in Chinese. The Tabulation on Nationalities 
of 2000 Population Census of China provided a bilingual Chinese and 
English edition. As of April 2016, the Commission had not located a 
bilingual edition of the 2010 ethnic census. See also box on ``TAR 
Statistics Show Little Increase in Non-Tibetan Population After 
Qinghai-Tibet Railway Startup'' in CECC, Special Topic Paper: Tibet 
2008-2009, 22 October 09, 45-46.
    \168\ China Population Statistics Yearbook 1991 [Zhongguo renkou 
tongji nianjian], National Bureau of Statistics of China, Division of 
Population Statistics (Beijing: China Statistics Publishing House, 
April 1992), Table 1-77, 223. Total national population data are 
available in Table 1-77. Tabulation on China's Nationality (Data of 
1990 Population Census) [Zhongguo minzu renkou ziliao (1990 nian renkou 
pucha shuju)], Department of Population Statistics, State Statistical 
Bureau, and Department of Economics, State Nationalities Affairs 
Commission (Beijing: China Statistics House, May 1994), Tables 2-1, 2-
4, 241, 359. Ethnic census data for Han population are available in 
Table 2-1; data for Tibetan population are available in Table 2-4.
    \169\ Tabulation on Nationalities of 2000 Population Census of 
China [2000 nian renkou pucha zhongguo minzu renkou ziliao], Department 
of Population, Social, Science and Technology Statistics, National 
Bureau of Statistics of China, and Department of Economic Development, 
State Ethnic Affairs Commission (Beijing: Ethnic Publishing House, 
September 2003), Tables 10-1, 10-2, 632, 682. Ethnic census data for 
the national total population and Han population are available in Table 
10-1; data for the Tibetan population are available in Table 10-2.
    \170\ Tabulation on Nationalities of 2010 Population Census of 
China, Volume 1 [Zhongguo 2010 nian renkou pucha fen minzu renkou 
ziliao shang], Department of Population and Employment Statistics, 
National Bureau of Statistics of China, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Tables 10-1, 10-2, 975, 1035. Ethnic 
census data for the national total population and Han population are 
available in Table 10-1; data for Tibetan population are available in 
Table 10-2.
    \171\ China Population Statistics Yearbook 1991 [Zhongguo renkou 
tongji nianjian], National Bureau of Statistics of China, Division of 
Population Statistics (Beijing: China Statistics Publishing House, 
April 1992), Table 1-77, 223. Total national population data are 
available in Table 1-77. Tabulation on China's Nationality (Data of 
1990 Population Census) [Zhongguo minzu renkou ziliao (1990 nian renkou 
pucha shuju)], Department of Population Statistics, State Statistical 
Bureau, and Department of Economics, State Nationalities Affairs 
Commission (Beijing: China Statistics House, May 1994), Tables 2-1, 2-
4, 241, 359. Ethnic census data for Han population are available in 
Table 2-1; data for Tibetan population are available in Table 2-4.
    \172\ Tabulation on Nationalities of 2000 Population Census of 
China [2000 nian renkou pucha zhongguo minzu renkou ziliao], Department 
of Population, Social, Science and Technology Statistics, National 
Bureau of Statistics of China, and Department of Economic Development, 
State Ethnic Affairs Commission (Beijing: Ethnic Publishing House, 
September 2003), Tables 10-1, 10-2, 632, 682. Ethnic census data for 
the national total population and Han population are available in Table 
10-1; data for the Tibetan population are available in Table 10-2.
    \173\ Tabulation on Nationalities of 2010 Population Census of 
China, Volume 1 [Zhongguo 2010 nian renkou pucha fen minzu renkou 
ziliao shang], Department of Population and Employment Statistics, 
National Bureau of Statistics of China, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Tables 10-1, 10-2, 975, 1035. Ethnic 
census data for the national total population and Han population are 
available in Table 10-1; data for Tibetan population are available in 
Table 10-2.
    \174\ China Population Statistics Yearbook 1991 [Zhongguo renkou 
tongji nianjian], National Bureau of Statistics of China, Division of 
Population Statistics (Beijing: China Statistics Publishing House, 
April 1992), Table 1-77, 223. Total national population data are 
available in Table 1-77. Tabulation on China's Nationality (Data of 
1990 Population Census) [Zhongguo minzu renkou ziliao (1990 nian renkou 
pucha shuju)], Department of Population Statistics, State Statistical 
Bureau, and Department of Economics, State Nationalities Affairs 
Commission (Beijing: China Statistics House, May 1994), Tables 2-1, 2-
4, 241, 359. Ethnic census data for Han population are available in 
Table 2-1; data for Tibetan population are available in Table 2-4.
    \175\ Tabulation on Nationalities of 2000 Population Census of 
China [2000 nian renkou pucha zhongguo minzu renkou ziliao], Department 
of Population, Social, Science and Technology Statistics, National 
Bureau of Statistics of China, and Department of Economic Development, 
State Ethnic Affairs Commission (Beijing: Ethnic Publishing House, 
September 2003), Tables 10-1, 10-2, 632, 682. Ethnic census data for 
the national total population and Han population are available in Table 
10-1; data for the Tibetan population are available in Table 10-2.
    \176\ Tabulation on Nationalities of 2010 Population Census of 
China, Volume 1 [Zhongguo 2010 nian renkou pucha fen minzu renkou 
ziliao shang], Department of Population and Employment Statistics, 
National Bureau of Statistics of China, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Tables 10-1, 10-2, 975, 1035. Ethnic 
census data for the national total population and Han population are 
available in Table 10-1; data for Tibetan population are available in 
Table 10-2.
    \177\ China Population Statistics Yearbook 1991 [Zhongguo renkou 
tongji nianjian], National Bureau of Statistics of China, Division of 
Population Statistics (Beijing: China Statistics Publishing House, 
April 1992), Table 1-77, 223. Total national population data are 
available in Table 1-77. Tabulation on China's Nationality (Data of 
1990 Population Census) [Zhongguo minzu renkou ziliao (1990 nian renkou 
pucha shuju)], Department of Population Statistics, State Statistical 
Bureau, and Department of Economics, State Nationalities Affairs 
Commission (Beijing: China Statistics House, May 1994), Tables 2-1, 2-
4, 241, 359. Ethnic census data for Han population are available in 
Table 2-1; data for Tibetan population are available in Table 2-4.
    \178\ Tabulation on Nationalities of 2000 Population Census of 
China [2000 nian renkou pucha zhongguo minzu renkou ziliao], Department 
of Population, Social, Science and Technology Statistics, National 
Bureau of Statistics of China, and Department of Economic Development, 
State Ethnic Affairs Commission (Beijing: Ethnic Publishing House, 
September 2003), Tables 10-1, 10-2, 632, 682. Ethnic census data for 
the national total population and Han population are available in Table 
10-1; data for the Tibetan population are available in Table 10-2.
    \179\ Tabulation on Nationalities of 2010 Population Census of 
China, Volume 1 [Zhongguo 2010 nian renkou pucha fen minzu renkou 
ziliao shang], Department of Population and Employment Statistics, 
National Bureau of Statistics of China, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Tables 10-1, 10-2, 975, 1035. Ethnic 
census data for the national total population and Han population are 
available in Table 10-1; data for Tibetan population are available in 
Table 10-2.
    \180\ Tibetan Centre for Human Rights and Democracy, ``Mass 
Expulsion of Nuns and Land Grabbing in Tibet's Diru County,'' 13 
October 15. The TCHRD report did not provide information about the 
purpose of the appropriation or the date when it took place.
    \181\ Ibid. According to the TCHRD report, in Biru (Driru) county, 
Naqu (Nagchu) prefecture, Tibet Autonomous Region, ``Tibetan families 
who own big houses are subjected to severe criticisms, following which 
their houses are destroyed . . .. Moreover, Tibetans are ordered to pay 
for the demolition of their houses and courtyards.'' See also ``Tibetan 
Homes Near Lhasa To Be Replaced by Chinese-Style Dwellings,'' Radio 
Free Asia, 4 December 15.
    \182\ Tibetan Centre for Human Rights and Democracy, ``Mass 
Expulsion of Nuns and Land Grabbing in Tibet's Diru County,'' 13 
October 15. According to the TCHRD report, in Biru (Driru) county, Naqu 
(Nagchu) prefecture, Tibet Autonomous Region, ``Tibetan families who 
own big houses are subjected to severe criticisms, following which 
their houses are destroyed. They are then told to rebuild their houses 
in accordance to the standards set by the local government.''
    \183\ ``Tibetan Homes Near Lhasa To Be Replaced by Chinese-Style 
Dwellings,'' Radio Free Asia, 4 December 15. According to the RFA 
report, officials in three counties located in Lhasa municipality--Dazi 
(Tagtse), Linzhou (Lhundrub), and Mozhugongka (Maldro Gongkar)--ordered 
the mandatory demolition of ``traditional'' (i.e., Tibetan style) homes 
and their replacement with ``Chinese-style'' homes during a five-year 
period starting in 2016. Based on the report, in at least one county 
(Mozhugongka), the government would pay part of the cost and residents 
would pay the rest.
    \184\ ``Chinese Authorities Destroy `Over 300' Tibetan Houses and 
Shops Near Qinghai Lake,'' Radio Free Asia, 21 October 15. According to 
the October 21 RFA report, between October 16 and the report's October 
21 publication date, authorities demolished ``about 300'' homes, 
dwellings, and shops in Trelnag (``Trelnak'') township, Gonghe 
(Chabcha) county, Hainan (Tsolho) Tibetan Autonomous Prefecture, 
Qinghai province. The RFA report did not provide information on whether 
officials characterized the structures as ``illegal.'' ``Destruction of 
Tibetan Homes Near Qinghai Lake Leaves Over 900 Homeless,'' Radio Free 
Asia, 27 October 15. According to the October 27 RFA report, beginning 
on October 22, authorities allegedly demolished ``over 240'' homes in 
Trelnag township.
    \185\ ``Destruction of Tibetan Homes Near Qinghai Lake Leaves Over 
900 Homeless,'' Radio Free Asia, 27 October 15.
    \186\ ``Chinese Authorities Destroy `Over 300' Tibetan Houses and 
Shops Near Qinghai Lake,'' Radio Free Asia, 21 October 15.
    \187\ ``Destruction of Tibetan Homes Near Qinghai Lake Leaves Over 
900 Homeless,'' Radio Free Asia, 27 October 15.
    \188\ ``Chinese Police Tear Down More Than 600 `Illegal Structures' 
at Qinghai Lake,'' Radio Free Asia, 3 June 16. The RFA report 
identified the township as Tanagma (``Tanakma''). Commission map 
research indicates that the township's Chinese name is Heimahe.
    \189\ Ibid. See also ``Tibetan Homes, Shops Are Torn Down by Police 
Near Qinghai Lake,'' Radio Free Asia, 1 June 16.
    \190\ ``Police Attack, Beat Tibetan Protesters at Qinghai Lake,'' 
Radio Free Asia, 23 June 16.
    \191\ ``Five Tibetan Protesters Are Detained in Chinese `Show of 
Force' at Qinghai Lake,'' Radio Free Asia, 24 June 16. The RFA report 
named four of the five detainees. For more information, see the 
Commission's Political Prisoner Database records 2016-00179 on Lhachen 
Kyab, 2016-00180 on Jigje Deleg Gyatso (Jigje Delek Gyatso), 2016-00181 
on Rinchen Bum, and 2016-00182 on Tashi Drolma.
    \192\ The Commission's Political Prisoner Database (PPD) contains 
12 records of Tibetans detained in connection with petitioning for the 
return of land: records 2010-00233 on Jigje Kyab, 2015-00112 on Tsepag, 
2015-00359 on Rinchen Dorje, 2015-00360 on Yeshe (or Magyug), 2015-
00361 on Phurkho (or Phurgur), 2015-00362 on Sonam Gyatso, 2015-00363 
on Shetrug, 2015-00364 on Tsering Kyab, 2015-00365 on Tsering Tashi, 
2015-00366 on Patra (or Phagtag), 2015-00367 on Dobe, and 2015-00368 on 
Tabe.
    \193\ The September and October 2015 Radio Free Asia reports do not 
refer to the year ``2010'' but state that the detentions were ``five 
years ago.'' See, e.g., ``Two Tibetans Detained in Sichuan After 
Petition Over Land Grab,'' Radio Free Asia, 14 October 15; ``A Dozen 
Tibetans Detained in Sichuan After Reoccupying Grabbed Land,'' Radio 
Free Asia, 24 September 15. According to the September 24 and October 
14, 2015, RFA reports, security officials in Ruo'ergai (Dzoege) county, 
Aba (Ngaba) Tibetan and Qiang Autonomous Prefecture, Sichuan province, 
took ``at least 12 residents of Dzoege's Thangkor town into custody.'' 
See also ``Five Tibetan Land Protesters Are Freed in Sichuan, With Five 
Others Held Back,'' Radio Free Asia, 6 October 15.
    \194\ See, e.g., ``Tibetans Sentenced for Attempt To Retake 
Community Land,'' Radio Free Asia, 11 April 16; ``Two Tibetans Detained 
in Sichuan After Petition Over Land Grab,'' Radio Free Asia, 14 October 
15.
    \195\ Tibetan Centre for Human Rights and Democracy, ``Four Tibetan 
Land Rights Petitioners Given Suspended Sentence,'' 14 April 16. The 
TCHRD report states, ``In accordance with the law on suspended jail 
sentence, the court added six months each to their sentence terms.'' 
The Commission interprets the statement as possibly indicating that the 
period of suspension is six months longer than the sentence period. See 
also ``Tibetans Sentenced for Attempt To Retake Community Land,'' Radio 
Free Asia, 11 April 16. For more information, see the Commission's 
Political Prisoner Database records 2010-00233 on Jigje Kyab (or Jigme 
Kyab), 2015-00359 on Rinchen Dorje, 2015-00360 on Yeshe (or Magyug), 
and 2015-00361 on Phurkho (or Phurgur).
    \196\ Tibetan Centre for Human Rights and Democracy, ``Four Tibetan 
Land Rights Petitioners Given Suspended Sentence,'' 14 April 16; ``Two 
Tibetans Detained in Sichuan After Petition Over Land Grab,'' Radio 
Free Asia, 14 October 15; ``Five Tibetan Land Protesters Are Freed in 
Sichuan, With Five Others Held Back,'' Radio Free Asia, 6 October 15; 
``A Dozen Tibetans Detained in Sichuan After Reoccupying Grabbed 
Land,'' Radio Free Asia, 24 September 15.
    \197\ Tibetan Centre for Human Rights and Democracy, ``Mass 
Expulsion of Nuns and Land Grabbing in Tibet's Diru County,'' 13 
October 15.
    \198\ Jane Qiu, ``Trouble in Tibet,'' Nature, Vol. 529, No. 7585, 
13 January 16.
    \199\ International Campaign for Tibet, ``New Report Reveals Global 
Significance of Tibet, Earth's Third Pole, and Challenges China's 
Policies,'' 8 December 15; International Campaign for Tibet, ``Blue 
Gold From the Highest Plateau: Tibet's Water and Global Climate 
Change,'' last visited 26 February 16. The ICT press release (``New 
Report Reveals Global Significance . . .'') provides a publication date 
but the ICT report does not. Tibetan Centre for Human Rights and 
Democracy, ``Wasted Lives: A Critical Analysis of China's Campaign To 
End Tibetan Pastoral Lifeways,'' May 2015.
    \200\ International Campaign for Tibet, ``Blue Gold From the 
Highest Plateau: Tibet's Water and Global Climate Change,'' last 
visited 26 February 16, 10. The ICT report observed: ``A combination of 
urbanization, intensified militarization linked to China's strategic 
aims, infrastructure construction and warming temperatures are creating 
an `ecosystem shift' in Tibet. This involves irreversible environmental 
damage, including the predicted disappearance of large areas of 
grasslands, alpine meadows, wetlands and permafrost on the Tibetan 
plateau by 2050, with serious implications for environmental security 
in China and South Asia.'' Tibetan Centre for Human Rights and 
Democracy, ``Wasted Lives: A Critical Analysis of China's Campaign To 
End Tibetan Pastoral Lifeways,'' May 2015, 2, 27. The TCHRD report 
described itself as ``an extended analytical essay, on the perverse 
outcomes of statist interventions into customary land management 
practices over a huge area that has been managed sustainably and 
productively by Tibetan pastoralists for 9000 years,'' and offered a 
``primary recommendation'' that ``China listen to its pastoralists, and 
discern their customary strategies for living off uncertainty, in an 
extreme climate, where 9000 years of human use persisted sustainably 
until very recently.''
    \201\ See, e.g., Jane Qiu, ``Trouble in Tibet,'' Nature, Vol. 529, 
No. 7585, 13 January 16. The Nature report cited Tsechoe Dorje 
(``Tsechoe Dorji''), a Tibetan researcher based in Lhasa asserting, 
``Having a sweeping grazing policy regardless of geographical 
variations is a recipe for disasters,'' and Wang Shiping, a researcher 
in Beijing municipality at the Chinese Academy of Sciences (CAS) 
Institute of Tibetan Plateau Research observing, ``A big part of the 
problem is that the policies are not guided by science, and fail to 
take account of climate change and regional variations.''
    \202\ International Campaign for Tibet, ``Blue Gold From the 
Highest Plateau: Tibet's Water and Global Climate Change,'' last 
visited 26 February 16, 10. The ICT report observed: ``The Chinese 
government has accelerated implementation of policies to displace 
nomadic pastoralists from the vast Tibetan grasslands, a massive social 
engineering campaign that threatens to eviscerate a sustainable way of 
life uniquely adapted to the harsh landscape of the high plateau.'' See 
also Tibetan Centre for Human Rights and Democracy, ``Wasted Lives: A 
Critical Analysis of China's Campaign To End Tibetan Pastoral 
Lifeways,'' May 2015.
    \203\ International Campaign for Tibet, ``Blue Gold From the 
Highest Plateau: Tibet's Water and Global Climate Change,'' last 
visited 26 February 16, 10. The ICT report asserts: ``Large-scale 
mining in copper, gold, silver, chromium and lithium, signaling the 
remote region's integration into the Chinese industrial economy, is 
having a devastating impact, leading to record levels of water 
pollution in Tibet. Tibetans who express even moderate concern about 
the impact of toxic wastes, deforestation, and large-scale erosion risk 
being imprisoned, tortured, or killed.''
    \204\ Ibid., 32. The ICT report cites Wang Weiluo, an engineer and 
geographer at the University of Dortmund stating, ``Dam-building raises 
the water level of the river which increases the pressure of the water 
on the ground. This raises the number of geological catastrophes 
especially since the valleys [of the Himalayas] are so young; 
landslides or rockslides will already increase as has happened in the 
Three Gorges dam region.''
    \205\ ``Chinese Police Clamp Down Tibetan Mining Protesters,'' 
Voice of America, 7 May 16 (``investigation linked pollution from the 
operation with a mass die-off of aquatic life''); ``Tibetans Protest 
Restart of Operations by Chinese Mining Company,'' Radio Free Asia, 9 
May 16 (``credible evidence of damage to the fish population'').
    \206\ ``Tibetan Protests in Ngaba Bring Mining to a Halt `For Now,' 
'' Radio Free Asia, 22 June 16 (``Authorities . . . have called a 
temporary halt to mining activities near a sacred moun-
tain . . ..''). See also ``Tibetans in Ngaba Warned Over Anti-Mine 
Protests,'' Radio Free Asia, 27 May 16 (``finished road may be used to 
support Chinese mining operations on nearby sacred mountains'').
    \207\ International Campaign for Tibet, ``Temporary Halt to Mining 
After Protest in Eastern Tibet: The Rush To Invest in Tibet's 
Lithium,'' 9 May 16; ``Tibetan Protests in Ngaba Bring Mining to a Halt 
`For Now,' '' Radio Free Asia, 22 June 16.
    \208\ For information on a halt to mining in 2005, see ``Temporary 
Respite as Mining Halted in Minyak County,'' Phayul, 10 May 16 (``In 
2005, after wide-spread protests in the same region, mining activities 
were halted.''). For information on a halt to mining in 2013, see 
``Chinese Police Clamp Down Tibetan Mining Protesters,'' Voice of 
America, 7 May 16 (``Mining at the location had been postponed since 
2013 . . . .''); ``Tibetans Protest Restart of Operations by Chinese 
Mining Company,'' Radio Free Asia, 9 May 16 (``Activities at the mine 
were suspended again in 
2013 . . ..'').
    \209\ ``Tibetans Protest Restart of Operations by Chinese Mining 
Company,'' Radio Free Asia, 9 May 16 (``Protesters . . . demanded on 
May 4 that [the company] cease mining activities which it began in the 
area last month,'' . . ..).
    \210\ International Campaign for Tibet, ``Temporary Halt to Mining 
After Protest in Eastern Tibet: The Rush To Invest in Tibet's 
Lithium,'' 9 May 16 (``the death of the fish occurred after a Chinese 
company re-started lithium mining'').
    \211\ ``Tibetans Protest Restart of Operations by Chinese Mining 
Company,'' Radio Free Asia, 9 May 16 (``Protesters . . . demanded on 
May 4 that [the company] cease mining activities which it began in the 
area last month,'' . . ..).
    \212\ International Campaign for Tibet, ``Temporary Halt to Mining 
After Protest in Eastern Tibet: The Rush To Invest in Tibet's 
Lithium,'' 9 May 16 (``An official document dated May 6 . . . stated 
that the local authorities were calling a halt to the mining because of 
`environmental problems' '' . . ..).
    \213\ ``Tibetans in Ngaba Warned Over Anti-Mine Protests,'' Radio 
Free Asia, 27 May 16 (``On May 20, . . . police officers arrived . . . 
and warned residents over loudspeakers of `serious consequences' '' . . 
..).
    \214\ ``Tibetan Protests in Ngaba Bring Mining to a Halt `For Now,' 
'' Radio Free Asia, 22 June 16 (``all work related to the project has 
been `temporarily halted' '').
    \215\ Tibetan Centre for Human Rights and Democracy, ``TCHRD Calls 
on Chinese Government To Stop Mining at Sacred Mountain,'' 7 June 16 
(``Rampant open-pit mining activities conducted for more than a decade 
. . . have faced renewed and sustained protests . . . .''); 
International Campaign for Tibet, ``Tibetan Protest Leaders 
Hospitalized as Chinese Police Suppress Demonstrations in Amchok,'' 8 
June 16 (``Chinese police beat and detained a number of Tibetan 
demonstrators . . . .''); ``Tibetan Anti-Mine Protesters Assaulted, 
Beaten in Gansu,'' Radio Free Asia, 6 June 16 (``protest . . . followed 
15 years of frustrated appeals to authorities to halt the mining'').
    \216\ Tibetan Centre for Human Rights and Democracy, ``TCHRD Calls 
on Chinese Government To Stop Mining at Sacred Mountain,'' 7 June 16. 
According to TCHRD's translation of the June 3, 2016, Amuqu (Amchog) 
Township People's Government circular, it stated in part: ``Recently 
under the instigation of a few evil and corrupt people, a group of 
masses have illegally gathered to ostensibly protest against what they 
refer to as destruction of environment. Their protests have hindered 
gold mining at Nag Deu mine. They have also, in collusion with anti-
China forces, indulged in lies and propaganda. These incidents have 
caused negative influence and serious consequences.''
    \217\ In addition to the 461 Tibetans detained on or after March 
10, 2008, whom courts sentenced to imprisonment are 2 Tibetans believed 
charged with a crime and tried with an unknown result and 9 Tibetans 
believed charged (and who may have faced trial).
    \218\ In addition to the 640 Tibetan political prisoners believed 
or presumed to be currently detained or imprisoned and who were 
detained on or after March 10, 2008, the Commission's Political 
Prisoner Database recorded, as of August 1, 2016, another 1,244 Tibetan 
political prisoners detained or imprisoned on or after March 10, 2008, 
who are believed or presumed to have been released, or who reportedly 
escaped or died.
    \219\ Tibetan Buddhists believe that a trulku is a teacher who is a 
part of a lineage of teachers that are reincarnations.
    \220\ All of the 148 sentences to fixed-term imprisonment were 
judicial.
    \221\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], issued 
1 July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 50. A sentence of death with a two-year reprieve 
may be commuted to life imprisonment upon expiration of the two-year 
reprieve if a prisoner ``commits no intentional crime'' during the 
reprieve. If a prisoner ``has truly performed major meritorious 
service,'' then the sentence may be commuted to a fixed-term sentence 
of 25 years upon expiration of the two-year reprieve. If the prisoner 
``has committed an intentional crime'' during the period of suspension, 
the death penalty ``shall be executed upon verification and approval of 
the Supreme People's Court.''
    \222\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16. 
See also International Campaign for Tibet, ``Civil Society Submission 
for the 5th Cycle of the United Nations Committee against Torture, 
Review of the People's Republic of China,'' 26 October 15.
    \223\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
11.
    \224\ As of August 1, 2016, the Commission's Political Prisoner 
Database (PPD) contained the following 18 records on Tibetans detained 
on or after March 10, 2008, and who reportedly died in police custody 
as a result of police abuse (arranged in reverse chronological order by 
the date of detention provided): records 2016-00194 on Yudrug Nyima 
(June 20, 2016); 2015-00035 on Karme (December 7, 2014); 2015-00048 on 
Bachen Gyalwa (November 2014); 2014-00273 on Jinpa Tharchin (August 12, 
2014); 2014-00275 on Lodroe Pasang (August 12, 2014); 2014-00271 on 
Tsewang Gonpo (August 12, 2014); 2014-00272 on Yeshe (August 12, 2014); 
2014-00164 on Tashi Paljor (February 28, 2014); 2014-00068 on Konchog 
Dragpa (December 2013); 2008-00570 on Ngawang Jamyang (November 23, 
2013); 2013-00205 on Kaldo (April 21, 2013); 2014-00261 on Karwang (May 
25, 2012); 2013-00200 on Gyarig Thar (March 2012); 2014-00232 on 
Tsering Gyaltsen (February 9, 2012); 2011-00749 on Tsultrim Gyatso 
(July 2011); 2009-00240 on Phuntsog Rabten (March 25, 2009); 2009-00037 
on Pema Tsepag (January 20, 2009); and 2010-00519 on Kalden (March 10, 
2008).
    \225\ As of August 1, 2016, the Commission's Political Prisoner 
Database (PPD) contained the following four records on Tibetans 
detained on or after March 10, 2008, who courts sentenced to 
imprisonment, and who reportedly died either in prison or soon after 
release as a result of torture (arranged in reverse chronological order 
by the date of detention provided): records 2015-00273 on Lobsang Yeshe 
(May 12, 2014); 2016-00081 on Trigyal (November 24, 2013); 2016-00059 
on Goshul Lobsang (June 2010); and 2010-00354 on Tenzin Choedrag (April 
2008).
    \226\ As of August 1, 2016, the Commission's Political Prisoner 
Database (PPD) contained record 2009-00156 on monk Tashi Zangpo, who 
police reportedly detained on March 10, 2009, and tortured in custody. 
He reportedly escaped on March 21, 2009, leaped into a river, and 
drowned.
    \227\ For more information on Jigme Gyatso (``Golog Jigme''), see 
the Commission's Political Prisoner Database record 2008-00587.
    \228\ China's Pervasive Use of Torture, Hearing of the 
Congressional-Executive Commission on China, 14 April 16, Written 
Statement Submitted by Golog Jigme [Jigme Gyatso], Tibetan Buddhist 
monk, 2-3. In submitted testimony, Jigme Gyatso stated: ``Unbelievably, 
when asked by the Committee about the `tiger chair' used during police 
interrogations, a Chinese government official said the chair was for 
the protection and safety of the detainees. I spent days and nights in 
such a chair; it was horrific torture.'' Describing in his testimony 
how security officials used the device, Jigme Gyatso stated: ``I was 
forced to sit in the `tiger chair' (also known as the `iron chair') day 
and night. This was the worst form of torture I experienced during my 
three detentions. My arms were handcuffed in front of me on a small 
metal table, and my legs were bent beneath the seat and strapped to the 
chair with iron cuffs. My joints suffered horribly and at one point my 
feet became so swollen that all my toenails fell off. I still have 
scars on my wrists and ankles from when I was turned backwards in the 
chair and suspended from the ceiling, for hours at a time.''
    \229\ China's Pervasive Use of Torture, Hearing of the 
Congressional-Executive Commission on China, 14 April 16, Written 
Statement Submitted by Sophie Richardson, China Director, Human Rights 
Watch, ``Tiger Chairs and Cell Bosses: Police Torture of Criminal 
Suspects in China,'' May 2015, 56.

                                                Developments in 
                                                 Hong Kong and 
                                                          Macau
                                                Developments in 
                                                Hong Kong and 
                                                Macau

                VI. Developments in Hong Kong and Macau


                               Hong Kong

    During the Commission's 2016 reporting year, the growing 
influence of the Chinese central government and Communist Party 
and suspected activity by Chinese authorities in Hong Kong--
notably the disappearance, alleged abduction, and detention in 
mainland China of five Hong Kong booksellers--raised fears 
regarding Hong Kong's autonomy within China as guaranteed under 
the ``one country, two systems'' policy enshrined in the Basic 
Law, which prohibits mainland Chinese authorities from 
interfering in Hong Kong's internal affairs.\1\ Tensions over 
the Chinese government's role in Hong Kong and the future of 
Hong Kong's political system contributed to the growth of 
``localist'' \2\ political sentiment, with candidates seen as 
localist or supportive of self-determination for Hong Kong 
winning seats in Hong Kong's September 2016 Legislative Council 
elections.

                UNIVERSAL SUFFRAGE AND DEMOCRATIC REFORM

    Hong Kong's Basic Law guarantees freedom of speech, 
religion, and assembly; promises Hong Kong a ``high degree of 
autonomy''; prohibits Chinese authorities from interfering in 
Hong Kong's internal affairs; and affirms that the 
International Covenant on Civil and Political Rights (ICCPR) 
applies to Hong Kong.\3\ The Basic Law also states that its 
``ultimate aim'' is the election of Hong Kong's Chief Executive 
and Legislative Council (LegCo) ``by universal suffrage.'' \4\ 
Forty out of 70 LegCo members are elected directly by voters 
and 30 by functional constituencies,\5\ which are composed of 
trade and business interest groups, corporations, 
professionals, and religious and social organizations.\6\ The 
electors of many functional constituencies reportedly have 
close ties to or are supportive of the Chinese government.\7\
    After the fall 2014 pro-democracy demonstrations and the 
June 2015 defeat of the Hong Kong government's proposed 
electoral reforms,\8\ some political groups and activists in 
Hong Kong called for greater self-determination or independence 
for Hong Kong, due in part to fears regarding Chinese 
government control over Hong Kong \9\ and mainland Chinese 
economic and cultural influence in Hong Kong.\10\ Pro-democracy 
activists,\11\ students,\12\ and veterans of the 2014 pro-
democracy demonstrations \13\ founded new political 
organizations that contested the November 2015 District Council 
elections,\14\ a February 2016 LegCo by-election,\15\ and the 
September 2016 LegCo elections. Some of these groups advocated 
for a referendum on Hong Kong's political system after 
2047,\16\ or expressed outright support for independence.\17\
    In response to calls for independence and self-
determination, in March and April 2016 Chinese government 
officials declared Hong Kong independence unacceptable,\18\ 
asserted that discussing the idea violated Hong Kong's 
laws,\19\ and said that founding pro-independence groups 
``severely contravened the national constitution and Hong 
Kong's Basic Law and relevant enacted laws.'' \20\ Hong Kong 
government officials also said that advocating independence 
``is contrary to the Basic Law.'' \21\ Chinese officials blamed 
``separatist forces'' for a February 2016 riot in the Mong Kok 
area of Hong Kong \22\ in which protesters--including members 
of a localist organization \23\--allegedly attacked police 
after government officials tried to close down unlicensed 
street food vendors.\24\
    In July 2016, the Electoral Affairs Commission issued a new 
``confirmation form'' \25\ for LegCo candidates to sign, 
confirming that they will uphold the Basic Law and explicitly 
listing three Basic Law provisions \26\ emphasizing Hong Kong's 
inalienability from China. The Hong Kong government appeared to 
say those not signing the form would be ineligible for 
nomination, and those lying on the form are ``liable to 
criminal sanction.'' \27\ At least 12 candidates refused to 
sign,\28\ and at least 21 political groups wrote a joint 
statement demanding the government withdraw the form, 
denouncing its use as ``political censorship'' and 
``interference in fair and just elections.'' \29\ Elections 
officials disqualified six pro-independence candidates,\30\ 
drawing heavy criticism, including from lawyers,\31\ political 
organizations,\32\ and students.\33\ Several localist or pro-
democracy candidates reported government obstruction in mailing 
campaign materials,\34\ saying officials in several government 
departments questioned the legality of their use of phrases 
such as ``self-determination'' and ``independence.'' \35\
    In Hong Kong's September 4 LegCo general election, the 
first since the 2014 pro-democracy protests, opposition parties 
gained seats, including candidates seen as ``localist'' or 
supportive of self-determination for Hong Kong. Pro-democratic 
and localist candidates, both opposed to the Chinese government 
and pro-establishment parties in Hong Kong,\36\ together won a 
total of 30 out of 70 seats \37\--22 directly elected seats, 
including 3 at-large seats, and 8 indirectly elected functional 
constituency seats \38\--an increase of 3 from the 2012 LegCo 
elections.\39\ Localist candidates reportedly received 19 
percent of all geographical constituency votes, winning six 
seats.\40\ Afterward, the Chinese central government reiterated 
its opposition ``to any form of `Hong Kong independence' 
activities inside or outside the Legislative Council,'' 
declaring that ``Hong Kong independence . . . endangers state 
sovereignty and security.'' \41\

------------------------------------------------------------------------
              Disappearances of Mighty Current Booksellers
-------------------------------------------------------------------------
  The disappearances of five owners and employees of Hong Kong bookstore
 Causeway Bay Books and its parent company, Mighty Current Media,\42\ in
 October and December 2015 \43\ compromised the ``one country, two
 systems'' policy and raised concerns that Chinese authorities had
 violated Hong Kong's rule of law and autonomy.
  In October 2015, publisher Gui Minhai \44\ disappeared from his
 vacation home in Pattaya, Thailand, and Thai authorities reportedly
 said \45\ there was no record of him exiting the country. Gui, a
 naturalized Swedish citizen, is a co-owner of Mighty Current,\46\ which
 specializes in political gossip books critical of the Chinese Communist
 Party.\47\ In January 2016, Gui appeared on state-run China Central
 Television, saying he ``voluntarily'' returned to China after fleeing a
 2003 suspended sentence for a fatal drunk driving incident.\48\ Chinese
 police reportedly accused Gui of ``illegal business activity'' for
 shipping over 4,000 banned books to mainland China since October
 2014.\49\
------------------------------------------------------------------------


------------------------------------------------------------------------
         Disappearances of Mighty Current Booksellers--Continued
-------------------------------------------------------------------------
  Mighty Current co-owner and British citizen Lee Bo \50\ disappeared
 from Hong Kong on December 30, 2015.\51\ Lee called his wife the same
 day from Shenzhen municipality, Guangdong province, and told her he
 would not return ``anytime soon.'' \52\ In January 2016, Hong Kong
 police received a letter from the Guangdong public security bureau
 confirming Lee was in mainland China.\53\ In a February 29 interview
 with state-funded news media under apparent coercion,\54\ Lee said he
 had not been abducted, but did not explain specifically how he entered
 China without his travel document,\55\ and said he had decided to
 renounce his British citizenship.\56\ On March 24, Lee briefly \57\
 appeared in Hong Kong and requested that Hong Kong authorities cancel
 his missing-person case before returning to mainland China.\58\ Lee
 maintained he went to mainland China to assist Chinese authorities in
 the investigation into Gui's case.\59\ Before his disappearance, Lee
 told Gui's daughter he feared ``special agents from China'' had
 abducted Gui ``for political reasons.'' \60\ In an October 2015
 interview, Lee said he had avoided traveling to mainland China ever
 since Chinese authorities imprisoned another Hong Kong publisher, and
 that Chinese security officials had hacked his email and were
 surveilling him.\61\
  Three other Hong Kong residents and employees of Mighty Current and
 Causeway Bay Books--Lui Bo,\62\ Cheung Chi-ping,\63\ and Lam Wing-kei
 \64\--disappeared in October 2015 while in or traveling to Shenzhen and
 Dongguan municipalities in Guangdong.\65\ On February 16, Guangdong
 security officials told Hong Kong police that Lui, Cheung, and Lam were
 under ``criminal compulsory measures'' on suspicion of ``illegal
 activities in the Mainland,'' \66\ reportedly including ``illegal
 business activity.'' \67\ Guangdong authorities later released all
 three on bail.\68\ In early March 2016, Lui \69\ and Cheung \70\
 arrived separately in Hong Kong, requested that Hong Kong police cancel
 their missing-persons cases, and then returned to mainland China.\71\
  Lam returned to Hong Kong on June 14 and requested the same,\72\ but
 on June 16, he held a press conference revealing the details of his
 detention.\73\ Lam said that after Chinese officials detained him on
 October 24 while crossing from Hong Kong into Shenzhen, authorities
 sent him to Ningbo municipality, Zhejiang province, where he was held
 incommunicado for five months before being transferred to Shaoguan
 municipality, Guangdong.\74\ Lam alleged that the agency that detained
 him and the other four booksellers reported directly to the Chinese
 central government.\75\ Lam said that Chinese authorities allowed him
 to return to Hong Kong on bail on the condition that he hand over a
 hard drive containing information on Causeway Bay Books' mainland
 Chinese customers.\76\ Lam expressed fear for his safety after
 returning to Hong Kong, requesting police protection after he reported
 being followed repeatedly by unidentified individuals.\77\
------------------------------------------------------------------------


------------------------------------------------------------------------
         Disappearances of Mighty Current Booksellers--Continued
-------------------------------------------------------------------------
  International human rights groups and non-governmental
 organizations,\78\ Hong Kong activists and lawyers,\79\ and foreign
 governments \80\ denounced the disappearances of Lee and the others as
 damaging to the ``one country, two systems'' policy and threatening to
 Hong Kong's autonomy, and criticized the February 2016 televised
 ``confessions'' of Gui, Lui, Cheung, and Lam as violations of their
 right to a fair trial.\81\ The British government said Lee's
 involuntary removal to mainland China ``constitutes a serious breach of
 the Sino-British Joint Declaration . . ..'' \82\ Hong Kong political
 parties and elected officials expressed support for Lam and condemned
 his detention; \83\ the Civic Party called it ``the most serious case
 of political abduction'' since Hong Kong's 1997 return to Chinese
 sovereignty.\84\
------------------------------------------------------------------------

                             PRESS FREEDOM

    During the 2016 reporting year, press freedom in Hong Kong 
reportedly continued to worsen due to government restrictions, 
violence against journalists, and pressure on reporters and 
editors from media ownership, including owners with financial 
ties to mainland China.\85\ A Hong Kong Journalists Association 
(HKJA) survey on press freedom found that 85 percent of 
journalists believed press freedom had deteriorated in 
2015.\86\ In February 2016, several media organizations accused 
the Hong Kong government of ``obstructing press freedom'' after 
officials at the vote-counting location for a Legislative 
Council by-election refused to admit reporters from online news 
websites.\87\ The HKJA filed a complaint against the government 
with the Ombudsman in June.\88\ On March 8, at least four 
journalists were injured while covering unrest between police 
and protesters in Mong Kok.\89\ One of the four accused police 
of using unnecessary force after several officers reportedly 
beat and kicked him.\90\
    Concerns over editorial independence, journalistic 
integrity, and management decisions continued to grow during 
the past year, including at media companies with financial 
connections to mainland China.\91\ The purchase of the South 
China Morning Post (SCMP) by the Chinese company Alibaba Group, 
in particular, raised concerns that SCMP could face increased 
pressure to self-censor or avoid reporting on ``sensitive'' 
topics.\92\ One journalists' group expressed worries that 
SCMP's new ownership could restrict coverage of mainland 
China.\93\ Media observers and SCMP staff noted suspicions 
about an interview \94\ published in July 2016 with Zhao 
Wei,\95\ a legal assistant detained in mainland China as part 
of a crackdown on lawyers and rights advocates begun in and 
around July 2015.\96\ SCMP management refused to explain, 
reportedly even to SCMP reporters, how the paper was able to 
interview Zhao.\97\ Zhao's husband and lawyer said they could 
not contact her and doubted she had spoken freely with 
SCMP.\98\ This past year, other Hong Kong media outlets 
published alleged interviews with individuals detained in 
mainland China or televised their ``confessions.'' \99\ 
Reporters from the newspaper Ming Pao \100\ and Hong Kong and 
international journalists' organizations \101\ criticized the 
abrupt April 2016 dismissal of a Ming Pao editor the day after 
the paper published a report on Hong Kong business and 
government figures' offshore bank accounts.\102\ Critics 
questioned Ming Pao's explanation that the dismissal was due to 
budget cuts.\103\ Journalists' organizations and current and 
former staff of the Hong Kong Economic Journal expressed 
concern that the July 2016 dismissal of a long-time pro-
democratic columnist, Joseph Lian Yi-zheng,\104\ constituted 
political censorship.\105\ Lian had previously explored the 
possibility of Hong Kong independence in his columns.\106\

                                 Macau


                      POLITICAL AND PRESS FREEDOMS

    Macau's Basic Law does not provide for ``universal 
suffrage,'' \107\ though its provisions ensure the 
applicability of the International Covenant on Civil and 
Political Rights (ICCPR) in Macau \108\ and guarantee Macau a 
``high degree of autonomy'' within China.\109\ During the 2016 
reporting year, the Commission observed no progress in Macau 
toward ``an electoral system based on universal and equal 
suffrage . . .'' in line with the ICCPR,\110\ as recommended by 
the UN Human Rights Committee.\111\ In August 2016, Macau's 
Legislative Assembly passed revisions to the Legislative 
Assembly Electoral Law.\112\ As the Macau government previously 
announced, the revisions to the Electoral Law did not change 
the composition of the Legislative Assembly or the methods for 
Chief Executive elections provided for in the Basic Law.\113\ 
Several political organizations accused the Macau government of 
restricting their rights to assembly after authorities broke up 
or blocked demonstrations near government buildings.\114\ In 
June 2016, police reportedly investigated a pro-democracy 
activist for ``aggravated disobedience'' after he helped 
organize one such demonstration in May.\115\
    Following a controversial donation in May 2016 of Macau 
government funds to a mainland Chinese university connected to 
Macau's Chief Executive,\116\ the Macau Journalists' 
Association (AJM) alleged that media organizations reporting on 
the donation scandal engaged in self-censorship under pressure 
from Macau authorities.\117\ AJM noted that this was the latest 
in a series of ``organized, large-scale incidents of press 
censorship, political manipulation of public opinion, and 
interference in internal media operations'' since Macau's 2012 
political reforms.\118\

              CONCERNS REGARDING INTERREGIONAL EXTRADITION

    During the past year, Macau officials continued 
negotiations with Chinese authorities on an agreement governing 
extraditions to and from mainland China.\119\ The Macau and 
Hong Kong governments also pursued an interregional extradition 
agreement.\120\ In December 2015, the Macau government 
introduced a bill in the Legislative Assembly (AL) that would 
be the basis for extradition agreements between Macau, mainland 
China, and Hong Kong.\121\ In May 2016, the AL rejected the 
extradition bill; the president of the AL declined to give a 
reason, only saying that the bill ``has technical problems.'' 
\122\ The Macau government withdrew the bill in June 2016, 
saying it needed more time to negotiate with the Hong Kong and 
Chinese governments due to differences in the legal systems of 
the three jurisdictions.\123\
    A United Nations committee, lawyers, and activists raised 
concerns over the proposed extradition agreements. The UN 
Committee against Torture, in its November 2015 review of Hong 
Kong's and Macau's compliance with the Convention against 
Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment, urged both regions to ensure that any extradition 
agreement--between the two regions or with mainland China--
protect offenders or fugitives from torture or abuse.\124\ In 
light of concerns over the Macau government's previous handover 
of fugitives to Chinese authorities \125\ and the 2015 
disappearances of five Hong Kong booksellers,\126\ activists in 
Macau questioned the potential Macau-China agreement, in 
particular a reported provision allowing one side to request 
extradition for military crimes or ``crimes . . . against the 
interests of national defense committed in mainland China,'' 
even if such an act were not a crime in Macau.\127\ Some Macau 
lawyers expressed concern over the possibility that a Macau-
Hong Kong agreement might allow for retroactive extradition 
requests.\128\

                            FINANCIAL CRIME

    The Monetary Authority of Macau continued \129\ 
coordinating with international and mainland Chinese financial 
agencies and the Chinese Ministry of Public Security \130\ to 
fight the use of mainland China-registered bank cards for money 
laundering and evading Chinese currency-export 
restrictions.\131\ In 2015, 1.22 billion Macau patacas 
(approximately US$153 million) in reportedly illegal UnionPay 
bank card transactions were run through unregistered point-of-
sale devices in Macau.\132\ Macau police reported that illegal 
transactions using portable UnionPay devices in the first half 
of 2016 amounted to nearly 2.10 billion patacas (approximately 
US$262 million).\133\ In December 2015, Macau officials 
announced plans to launch a ``real-time monitoring system'' of 
bank card use for ``high-risk'' businesses located near 
casinos.\134\

                                                Developments in 
                                                 Hong Kong and 
                                                          Macau
                                                Developments in 
                                                Hong Kong and 
                                                Macau
    Notes to Section VI--Developments in Hong Kong and Macau

    \1\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China [Zhonghua renmin gongheguo xianggang tebie 
xingzheng qu jiben fa], passed 4 April 90, effective 1 July 97, arts. 
12, 16, 22. Article 22: ``No department of the Central People's 
Government and no province, autonomous region, or municipality directly 
under the Central Government may interfere in the affairs which the 
Hong Kong Special Administrative Region administers on its own in 
accordance with this Law.''
    \2\ Chris Lau, ``Beyond the By-Election: Hong Kong Young People 
Fuel Rise of Localism at City's Universities,'' South China Morning 
Post, 3 March 16; Simon Lewis, ``Students at Hong Kong's Oldest 
University Are Calling for the City's Independence,'' Time, 16 March 
16.
    \3\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed 4 April 90, effective 1 July 97, 
arts. 2 (``high degree of autonomy''), 22 (prohibits Chinese 
interference), 27 (freedoms of speech and assembly), 32 (freedom of 
religion), 39 (applicability of ICCPR). See also Joint Declaration of 
the Government of the United Kingdom of Great Britain and Northern 
Ireland and the Government of the People's Republic of China on the 
Question of Hong Kong, adopted 19 December 84, item 3(2, 3, 5, 11).
    \4\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed 4 April 90, effective 1 July 97, 
arts. 45 (Chief Executive), 68 (Legislative Council).
    \5\ Ibid., art. 68, annex II, instrument 4; Legislative Council of 
the Hong Kong Special Administrative Region, Legislative Council 
Ordinance (Cap. 542) [Di 542 zhang lifa hui tiaoli], 1 October 12, 
secs. 20ZC, 21(c); Tanna Chong, ``Legco Election 2016: How a Handful of 
Voters Elect 30 Hong Kong Lawmakers,'' South China Morning Post, 6 
February 14.
    \6\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed 4 April 90, effective 1 July 97, 
art. 45, annex I, instrument 2; Legislative Council of the Hong Kong 
Special Administrative Region, Legislative Council Ordinance (Cap. 542) 
[Di 542 zhang lifa hui tiaoli], amended 17 July 15, sec. 20; Tanna 
Chong, ``Legco Election 2016: How a Handful of Voters Elect 30 Hong 
Kong Lawmakers,'' South China Morning Post, 6 February 14.
    \7\ Freedom House, ``Freedom in the World 2016--Hong Kong,'' last 
visited 7 July 16.
    \8\ ``Political Reform Rejected by Large 28:8 Margin'' [28:8 zheng 
gai da bi shu foujue], Ming Pao, 18 June 15; ``Hong Kong Reform Package 
Rejected as Pro-Beijing Camp Walk Out in `Miscommunication,' '' South 
China Morning Post, 19 June 15; CECC, 2015 Annual Report, 8 October 15, 
325-26.
    \9\ Michael Davis, ``The Rule of Law Needs More Than Lip Service To 
Survive in Hong Kong,'' South China Morning Post, 16 March 16; Didi 
Kirsten Tatlow, ``Q. and A.: Jason Y. Ng on Aftermath of Hong Kong's 
Umbrella Revolution,'' New York Times, Sinosphere (blog), 24 March 16; 
Benny Tai Yiu-ting, ``One Country, Two Systems, Self-Determination, and 
Hong Kong Independence'' [Yi guo liang zhi, zijue yu gang du], Hong 
Kong Economic Journal, 16 April 16.
    \10\ Alan Wong, ``China Labels Protesters `Radical Separatists,' 
and They Agree,'' New York Times, 20 February 16; Didi Kirsten Tatlow, 
``Q. and A.: Jason Y. Ng on Aftermath of Hong Kong's Umbrella 
Revolution,'' New York Times, Sinosphere (blog), 24 March 16.
    \11\ ``Scholarism's Regular Players Prepare To Form New Party, Plan 
To Contest Two Districts, Oscar Lai To Run in Kowloon East'' [Xuemin 
sichao bandi chou zu xin zhengdang ni chu zhan liang qu li wenluo xuan 
jiu dong], Stand News, 16 February 16; Stuart Lau, ``Hong Kong's New 
Generation: `Umbrella Soldiers' and NeoDemocrats Big Winners in 
District Elections,'' South China Morning Post, 25 November 15.
    \12\ Alan Wong, ``Hong Kong Students Who Protested Government Now 
Seek To Take Part in It,'' New York Times, 16 February 16; Chris Lau, 
``Beyond the By-Election: Hong Kong Young People Fuel Rise of Localism 
at City's Universities,'' South China Morning Post, 3 March 16.
    \13\ KC Ng and Owen Fung, ``Hong Kong National Party Is Born: Will 
Push for Independence, Will Not Recognize the Basic Law,'' South China 
Morning Post, 29 March 16; KC Ng, ``Hong Kong Localists Groups To Join 
Forces for Legislative Council Elections in September,'' South China 
Morning Post, 9 April 16.
    \14\ Karen Cheung, ``Pan-Democrats Win 112 Out of 431 Seats but 
Fail To Take Control of Any District,'' Hong Kong Free Press, 23 
November 15.
    \15\ Gary Cheung et al., ``Hong Kong `Riot' Candidate Causes a 
Storm at By-Election,'' South China Morning Post, 1 March 16; Jeffie 
Lam and Gary Cheung, ``Civic Party Wins New Territories East By-
Election, but Edward Leung Comes a Respectable Third,'' South China 
Morning Post, 1 March 16.
    \16\ Youngspiration et al., ``Hong Kong People, Future Self-
Determination--Electoral Alliance Declaration'' [Xianggang minzu qiantu 
zijue--xuanju lianmeng shengming], reprinted in InMediaHK, 10 April 16; 
Jeffie Lam, ``They're Young, Vocal and Very, Very Determined . . . But 
How Do Hong Kong's Newest Political Parties Differ? '' South China 
Morning Post, 11 April 16. See also Hong Kong University Student Union, 
``Finale'' [Zuizhong hui], Undergrad, 2015, 51.
    \17\ ``Hong Kong National Party Promotes `Founding Country,' Is 
Denied Registration'' [Xianggang minzu dang chang ``jianguo'' bei ju 
zhuce], Hong Kong Economic Journal, 29 March 16; Hermina Wong, ``Newly 
Formed Pro-Independence Hong Kong National Party `Denied Registration' 
by Companies Registry,'' Hong Kong Free Press, 29 March 16; Ng Kang-
chung and Owen Feng, ``Hong Kong National Party Is Born: Will Push for 
Independence, Will Not Recognize the Basic Law,'' South China Morning 
Post, 29 March 16.
    \18\ ``Phoenix Interview With LOCPG Director: On `HK Independence' 
Absolutely Cannot Let Evil Go Unchecked'' [Zhonglianban zhuren jieshou 
fenghuang zhuanfang: dui ``gang du'' jue buneng yangyongweihuan], 
Phoenix Net, 31 March 16.
    \19\ Stuart Lau, ``Calls for Hong Kong Independence Break the Law, 
Says Legal Chief of Beijing Liaison Office,'' South China Morning Post, 
8 April 16.
    \20\ Zha Wenye, ``Hong Kong and Macao Affairs Office of the State 
Council: Resolutely Opposed to Any Talk or Action of `HK Independence' 
'' [Guowuyuan gang'aoban: jianjue fandui renhe ``gang du'' yanxing], 
Xinhua, 30 March 16, reprinted in Hong Kong and Macao Affairs Office of 
the State Council, 31 March 16.
    \21\ Hong Kong Information Services Department, ``SAR Government 
Response'' [Tequ zhengfu huiying], 30 March 16; Hong Kong Information 
Services Department, ``Secretary for Justice on Advocating 
`Independence of Hong Kong,' '' 1 April 16.
    \22\ Ministry of Foreign Affairs, ``Foreign Ministry Spokesperson 
Hong Lei Answers Reporter's Question on Violent Incident in Hong Kong'' 
[Waijiaobu fayanren hong lei jiu xianggang fasheng baoluan shijian da 
jizhe wen], 11 February 16; Liaison Office of the Central People's 
Government in the Hong Kong Special Administrative Region, ``Zhang 
Xiaoming Answers Reporter's Question on Riot Incident in Mong Kok, Hong 
Kong'' [Zhang xiaoming jiu xianggang wangjiao baoluan shijian huida 
jizhe tiwen], 14 February 16.
    \23\ Alan Wong, ``China Labels Protesters `Radical Separatists,' 
and They Agree,'' New York Times, 20 February 16.
    \24\ Hong Kong Information Services Department, ``Police Strongly 
Condemn Lawbreaking Behaviour'' [Jingfang qianglie qianze pohuai faji 
xingwei], 9 February 16; Hong Kong Information Services Department, 
``Opening Remarks by Commissioner of Police at Press Conference,'' 9 
February 16.
    \25\ Electoral Affairs Commission, ``Confirmation Form; 2016 
Legislative Council General Election'' [Queren shu 2016 lifa hui 
huanjie xuanju], July 2016; Electoral Affairs Commission, ``Press 
Statement by EAC on 2016 Legislative Council Election'' [Xuanju guanli 
weiyuanhui jiu 2016 nian lifa hui xuanju de shengming], 14 July 16, 
reprinted in Hong Kong Information Services Department.
    \26\ Electoral Affairs Commission, ``Confirmation Form; 2016 
Legislative Council General Election'' [Queren shu 2016 lifa hui 
huanjie xuanju], July 2016, paras. 1-2. The three provisions are 
Article 1 (``The Hong Kong Special Administrative Region is an 
inalienable part of the People's Republic of China.''), Article 12 
(``The Hong Kong Special Administrative Region shall be a local 
administrative region of the People's Republic of China, which shall 
enjoy a high degree of autonomy and come directly under the Central 
People's Government.''), and Article 159(4) (``No amendment to this Law 
shall contravene the established basic policies of the People's 
Republic of China regarding Hong Kong.'').
    \27\ Electoral Affairs Commission, ``Press Statement by EAC on 2016 
Legislative Council Election'' [Xuanju guanli weiyuanhui jiu 2016 nian 
lifa hui xuanju de shengming], 14 July 16, reprinted in Hong Kong 
Information Services Department.
    \28\ Tony Cheung, ``Refusing To Sign: Demosisto Joins Ranks of Hong 
Kong Politicians Resisting Controversial Change in Legco Election 
Rules,'' South China Morning Post, 18 July 16; Jeffie Lam, ``Civic 
Party Candidates Refuse To Sign New Form Despite Head of Electoral 
Watchdog Saying Rule Change Is Legal,'' South China Morning Post, 20 
July 16.
    \29\ Labour Party, Civic Party, Democratic Party, Professional 
Commons, Neighbourhood and Workers Services Centre, Association for 
Democracy and People's Livelihood, Hong Kong Professional Teachers' 
Union, Joseph Lee Kok-long, League of Social Democrats, People Power, 
Keyboard Frontline, Progressive Lawyers Group, Act Voice, Progressive 
Teachers' Alliance, Hong Kong Psychologists Concern, Frontline Tech 
Workers, Nurses Political Reform Concern Group, Artists Action, Physio 
Action, Radiation Therapist and Radiographer Conscience, Financier 
Conscience, Reclaiming Social Work Movement, ``Condemning the Leung 
Chun-ying Government's Ideological Censorship and Interference in Fair 
and Just Elections'' [Qianze liang zhenying zhengfu zhengzhi sixiang 
shencha ganyu gongping gongzheng xuanju], Progressive Lawyers Group, 
Facebook, 30 July 16.
    \30\ Hong Kong National Party, ``Hong Kong National Party's Solemn 
Announcement on Being Disqualified From Running in LegCo Polls'' 
[Xianggang minzu dang jiu xuanguanhui quxiao canxuan zige zhi yanzheng 
shengming], Facebook, 30 July 16; Kris Cheng, ``Edward Leung of Hong 
Kong Indigenous Barred From LegCo Election,'' Hong Kong Free Press, 2 
August 16; Chris Lau, ``Cheung Chau Resident Seeks Judicial Review Over 
Hong Kong Election Disqualification Powers,'' South China Morning Post, 
6 August 16.
    \31\ Edward Chan et al., ``Joint Legal EC Statement Against the 
Political Censorship of the Legislative Council Election'' [Xuanju 
weiyuanhui falu jie weiyuan fandui lifa hui xuanju zhengzhi shencha 
lianhe shengming], Dennis Kwok, Facebook, 3 August 16.
    \32\ Labour Party, Civic Party, Democratic Party, Professional 
Commons, Neighbourhood and Workers Services Centre, Association for 
Democracy and People's Livelihood, Hong Kong Professional Teachers' 
Union, Joseph Lee Kok-long, League of Social Democrats, People Power, 
Keyboard Frontline, Progressive Lawyers Group, Act Voice, Progressive 
Teachers' Alliance, Hong Kong Psychologists Concern, Frontline Tech 
Workers, Nurses Political Reform Concern Group, Artists Action, Physio 
Action, Radiation Therapist and Radiographer Conscience, Financier 
Conscience, Reclaiming Social Work Movement, ``Condemning the Leung 
Chun-ying Government's Ideological Censorship and Interference in Fair 
and Just Elections'' [Qianze liang zhenying zhengfu zhengzhi sixiang 
shencha ganyu gongping gongzheng xuanju], Progressive Lawyers Group, 
Facebook, 30 July 16.
    \33\ Chinese University of Hong Kong Student Union, ``Hong Kong 
Communists' Naked Interference in Elections Set a Fire That Must Be 
Extinguished'' [Gang gong chiluo ganyu xuanju yinhuo zifen bi zao 
qingsuan], Facebook, 2 August 16.
    \34\ Nathan Law Kwun-chung, ``Hongkongers, You Don't Even Have the 
Right To Say `The Emperor Has No Clothes!' '' [Gangren, lian zhisu 
``guowang xinyi'' ge quanli dou wu!], Facebook, 1 August 16; Joyce Ng, 
``Hongkong Post's Deadline Forcing Candidates To Censor Campaign 
Material,'' South China Morning Post, 10 August 16; Kris Cheng, 
``Candidate Claims Election Pamphlets Blocked From Public Estates for 
Discussing Independence,'' Hong Kong Free Press, 12 August 16.
    \35\ ``Using `Democratic Self-Determination' and Other Wording, 
Nathan Law and Eddie Chu's Election Mailers Not Yet Approved, EAC Says 
Asking Justice Department for Opinion'' [Ti ``minzhu zijue'' deng ziyan 
luo guancong, zhu kaidi xuanju youjian wei huo pi xuanguanhui cheng xun 
luzhengsi yijian], Stand News, 1 August 16; Tony Cheung, ``Undue 
Caution? Joshua Wong Blasts Hong Kong Officials Over Hold-Ups in 
Demosisto Party Registration and Mailings,'' South China Morning Post, 
4 August 16; Kris Cheng, ``Pro-Independence Candidate To Send `Blank' 
Election Mailouts in Protest of Censorship,'' Hong Kong Free Press, 5 
August 16; Kris Cheng, ``Candidate Claims Election Pamphlets Blocked 
From Public Estates for Discussing Independence,'' Hong Kong Free 
Press, 12 August 16.
    \36\ Michael Forsythe and Alan Wong, ``In Hong Kong, Young Protest 
Leaders Win Seats in Local Elections,'' New York Times, 4 September 16.
    \37\ Stuart Lau and Gary Cheung, ``Hong Kong Legislative Council 
Polls: Voters Change the City's Political Landscape,'' South China 
Morning Post, 6 September 16.
    \38\ Elson Tong, ``Final Hong Kong Election Results in--Opposition 
Parties Gain 3 More Seats in Legislature,'' Hong Kong Free Press, 5 
September 16.
    \39\ Stuart Lau and Gary Cheung, ``Hong Kong Legislative Council 
Polls: Voters Change the City's Political Landscape,'' South China 
Morning Post, 6 September 16.
    \40\ Gary Cheung and Jeffie Lam, ``Rise of Localists in Hong Kong 
Polls Set To Bring Headaches for Beijing, Analysts Say,'' South China 
Morning Post, 6 September 16.
    \41\ Zhao Bo, ``Hong Kong and Macao Affairs Office of the State 
Council Spokesperson Gives Remarks on Hong Kong SAR Sixth Legislative 
Council Elections'' [Guowuyuan gang'aoban fayanren jiu xianggang tequ 
di liu jie lifa hui xuanju fabiao tanhua], Xinhua, 5 September 16.
    \42\ Tom Grundy, ``Questions Raised After Missing HK Bookseller 
`Confesses' to Drink-Driving Death on State TV,'' Hong Kong Free Press, 
17 January 16.
    \43\ ``Missing Hong Kong Bookseller `Assisting in Investigation': 
Wife,'' Agence France-Presse, 2 January 16.
    \44\ For more information on Gui Minhai, see the Commission's 
Political Prisoner Database record 2016-00090.
    \45\ James Griffiths, ``Daughter of Hong Kong Bookseller: Don't Let 
China Get Away With Illegal Abductions,'' CNN, 25 May 16.
    \46\ Human Rights Watch, ``Free `Disappeared' Booksellers,'' 10 
February 16.
    \47\ ``Hong Kong Publisher Mysteriously Disappears in Thailand, 
Whereabouts of 3 Hong Kong Staff Unknown'' [Xianggang chuban ren taiguo 
liqi shizong xianggang 3 zhiyuan buzhi suo zong], Radio Free Asia, 6 
November 15; Oliver Holmes and Tom Phillips, ``Gui Minhai: The Strange 
Disappearance of a Publisher Who Riled China's Elite,'' Guardian, 8 
December 15; Michael Forsythe and Andrew Jacobs, ``In China, Books That 
Make Money, and Enemies,'' New York Times, 4 February 16; Phila Siu et 
al., ``Hong Kong Delivery Companies Scared About Sending `Banned Books' 
to Mainland China in Wake of Booksellers Case,'' South China Morning 
Post, 3 March 16.
    \48\ Isabella Steger, ``Missing Hong Kong Bookseller Employee Shows 
Up in China,'' Wall Street Journal, China Real Time Report (blog), 18 
January 16; ``Investigation Into the `Disappearance' Incident of Hong 
Kong's Causeway Bay Bookstore Boss Gui Minhai'' [Xianggang tongluo wan 
shudian laoban gui minhai ``shizong'' shijian diaocha], Xinhua, 17 
January 16. Gui's wife said she had no knowledge of the 2003 incident, 
while Hong Kong media noted discrepancies in the official account. 
``Official Media: Causeway Bay Books Boss Gui Minhai Surrenders in 
Fatal Drunk-Driving Case From 12 Years Ago, Gui's Wife: Who Can Tell Me 
Precise Information? '' [Guan mei: tongluo wan shudian laoban gui 
minhai she 12 nian qian zui jia ming'an yi zishou, gui tai: shei neng 
gaosu wo queqie xiaoxi?], Initium Media, 17 January 16; Tom Grundy, 
``Questions Raised After Missing HK Bookseller `Confesses' to Drink-
Driving Death on State TV,'' Hong Kong Free Press, 17 January 16.
    \49\ ``Hong Kong Bookseller Gui Minhai Suspected of Illegal 
Business Activity, Changing Cover To Evade Inspection'' [Xianggang shu 
shang gui minhai shexian feifa jingying huan fengmian guibi jiancha], 
Phoenix Net, 28 February 16.
    \50\ Lee is also known as Lee Po and Paul Lee. Hong Kong 
Information Services Department, ``Police Receive Reply Letter From the 
Mainland on Lee Po's Case,'' 18 January 16; Hermina Wong, ``Bookseller 
Lee Bo Feared `Political Reasons' Behind Colleague's Disappearance, 
Before Vanishing Himself,'' Hong Kong Free Press, 8 March 16. For more 
information on Lee Bo, see the Commission's Political Prisoner Database 
record 2016-00168.
    \51\ Phila Siu et al., ``Hong Kong Bookseller Disappears: Police 
Say No Record of Him Leaving--Wife Says He Called From Shenzhen and 
`Will Not Be Coming Back Anytime Soon,' '' South China Morning Post, 4 
January 16.
    \52\ Ibid.
    \53\ Hong Kong Information Services Department, ``LCQ2: Police Co-
Operation Mechanism Between Hong Kong and Mainland,'' 27 January 16.
    \54\ Ng Kang-chung and Owen Fung, ``Bookseller Lam Wing-kee Reveals 
Explosive Details of His Mainland Detention, Claims Lee Po Told Him He 
Was `Taken Away From Hong Kong,' '' South China Morning Post, 16 June 
16; Anne Marie Roantree, ``Hong Kong Bookseller Voiced Fears About 
China Agents Before He Disappeared,'' Reuters, 9 March 16.
    \55\ Zhuang An, `` `Disappeared' Hong Kong Bookstore Shareholder 
Lee Bo in First Interview: I Voluntarily Came to Mainland To Cooperate 
With Investigation'' [Xianggang ``bei shizong'' shudian gudong li bo 
shouci shoufang: ziyuan hui neidi peihe diaocha], The Paper, 29 
February 16.
    \56\ Ibid. When asked about Lee's case in January 2016, Chinese 
Foreign Minister Wang Yi said that Lee ``is first and foremost a 
Chinese citizen.'' Tom Phillips and Ilaria Maria Sala, ``Philip Hammond 
Presses China Over UK Citizen Among Missing Booksellers,'' Guardian, 5 
January 16.
    \57\ ``Doubts Remain After Missing Hong Kong Bookseller Briefly 
Reappears,'' Radio Free Asia, 25 March 16; ``Hong Kong's Causeway Bay 
Books Owner Lee Bo Returns to HK, Accepts Interview With Phoenix TV'' 
[Xianggang tongluo wan shudian laoban li bo fan gang jieshou fenghuang 
weishi zhuanfang], Phoenix Net, 24 March 16.
    \58\ Hong Kong Information Services Department, ``Police and ImmD 
Meet With Lee Po in Hong Kong,'' 24 March 16.
    \59\ Ibid.; Hong Kong Information Services Department, ``Police 
Receive Latest Letter From Lee Bo'' [Jingfang jiehuo li bo zuixin 
xinjian], 24 January 16.
    \60\ Anne Marie Roantree, ``Hong Kong Bookseller Voiced Fears About 
China Agents Before He Disappeared,'' Reuters, 9 March 16; Hermina 
Wong, ``Bookseller Lee Bo Feared `Political Reasons' Behind Colleague's 
Disappearance, Before Vanishing Himself,'' Hong Kong Free Press, 8 
March 16.
    \61\ ``Lee Bo: Gui Minhai Wrote About Senior Officials' Mistresses, 
Was Repeatedly Warned'' [Li bo: gui minhai xie gaoguan qingfu lu shou 
jinggao], Next Magazine, reprinted in Apple Daily, 7 January 16.
    \62\ For more information on Lui Bo, see the Commission's Political 
Prisoner Database record 2016-00164. Lai Ying-kit, ``Missing, Presumed 
Detained: Hong Kong Publisher of Books Critical of China Go Missing,'' 
South China Morning Post, 13 November 15.
    \63\ For more information on Cheung Chi-ping, see the Commission's 
Political Prisoner Database record 2016-00165.
    \64\ For more information on Lam Wing-kei, see the Commission's 
Political Prisoner Database record 2016-00166.
    \65\ Lai Ying-kit, ``Missing, Presumed Detained: Hong Kong 
Publisher of Books Critical of China Go Missing,'' South China Morning 
Post, 13 November 15; ``Hong Kong Bookseller Gui Minhai Suspected of 
Illegal Business Activity, Changing Cover To Evade Inspection'' 
[Xianggang shu shang gui minhai shexian feifa jingying huan fengmian 
guibi jiancha], Phoenix Net, 28 February 16; Clifford Lo et al., ``The 
First Missing Bookseller Returns: Lui Por in Hong Kong,'' South China 
Morning Post, 4 March 16; Ng Kang-chung and Owen Fung, ``Bookseller Lam 
Wing-kee Reveals Explosive Details of His Mainland Detention, Claims 
Lee Po Told Him He Was `Taken Away From Hong Kong,' '' South China 
Morning Post, 16 June 16.
    \66\ Hong Kong Information Services Department, ``Police Receive 
Reply Letter From the Mainland on the Four Missing Persons'' [Jingfang 
jiu si ming shizong renshi shijian jiehuo neidi fuhan], 4 February 16.
    \67\ ``Hong Kong Bookseller Gui Minhai Suspected of Illegal 
Business Activity, Changing Cover To Evade Inspection'' [Xianggang shu 
shang gui minhai shexian feifa jingying huan fengmian guibi jiancha], 
Phoenix Net, 28 February 16.
    \68\ ``Two Detained Booksellers Return to China After Brief Hong 
Kong Visits,'' Radio Free Asia, 11 March 16; ``Ningbo PSB: If Lam Wing-
kei Does Not Return to Mainland, We Will Alter Criminal Compulsory 
Measures'' [Ningbo gong'an: lin rongji ruo bu fan neidi jiang biangeng 
xingshi qiangzhi cuoshi], Sing Tao Daily, 5 July 16.
    \69\ Hong Kong Information Services Department, ``Police Meet With 
Lui Bo in Hong Kong'' [Jingfang yu lu bo zai xianggang huimian], 4 
March 16; Clifford Lo et al., ``The First Missing Bookseller Returns: 
Lui Por in Hong Kong,'' South China Morning Post, 4 March 16.
    \70\ Hong Kong Information Services Department, ``Police Meet With 
Cheung Chi Ping in Hong Kong'' [Jingfang yu zhang zhiping zai xianggang 
huimian], 6 March 16; Clifford Lo et al., ``Booksellers Slipped Back to 
Mainland China After Requesting Hong Kong Police Drop Missing Persons 
Cases,'' South China Morning Post, 10 March 16.
    \71\ Clifford Lo et al., ``Booksellers Slipped Back to Mainland 
China After Requesting Hong Kong Police Drop Missing Persons Cases,'' 
South China Morning Post, 10 March 16.
    \72\ Hong Kong Information Services Department, ``Police Meet With 
Lam Wing-kei in Hong Kong'' [Jingfang yu lin rongji zai xianggang 
huimian], 14 June 16.
    \73\ ``Full Transcript of Lam Wing-kee's Opening Statement at His 
Hong Kong Press Conference,'' South China Morning Post, 17 June 16.
    \74\ Ibid.
    \75\ ``Special Task Force Identified by HK Bookseller Usually 
Targets Only Top Officials, Analysts Say,'' South China Morning Post, 
18 June 16; Stuart Leavenworth, ``Chinese Crackdown Aimed at Rooting 
Out Xi Opponents, Says Bookseller,'' Guardian, 20 June 16.
    \76\ ``Full Transcript of Lam Wing-kee's Opening Statement at His 
Hong Kong Press Conference,'' South China Morning Post, 17 June 16; 
Michael Forsythe and Alan Wong, ``Bookseller's Account of Abduction 
Rekindles Fear of Lost Rights in Hong Kong,'' New York Times, 17 June 
16.
    \77\ Jennifer Ngo and Jeffie Lam, ``Followed by Strangers, 
Bookseller Lam Wing-kee Pulls Out of July 1 March Fearing `Serious 
Threat' to Personal Safety,'' South China Morning Post, 1 July 16; 
``Lam Wing-kei: Four Men Followed Me Home, `Like They Wanted To Grab 
Me,' Police Refuse To Assign Protection'' [Lin rongji: si dahan genzong 
fanjia ``haosi xiang yu wo gan'' jing ju pai yuan baohu], Ming Pao, 5 
July 16; Jeffie Lam and Joyce Ng, `` `I Think I'm Half Dead': Hong Kong 
Police To Protect Lam Wing-kee in Wake of Claims He Was Tailed,'' South 
China Morning Post, 6 July 16.
    \78\ PEN American Center et al., ``Free Expression, Publishing, and 
Bookselling Organizations Urge Hong Kong To Take Action on Missing 
Booksellers,'' 17 February 16; ``Lee Bo Case a Worry, Says Bar 
Association Head,'' Radio Television Hong Kong, 27 March 16. See also 
Human Rights Watch, ``China/Hong Kong: Free `Disappeared' 
Booksellers,'' 10 February 16; ``China's Clampdown on Lawyers and 
Activists Draws Concern of UN Human Rights Chief,'' UN News Centre, 16 
February 16; Press Freedom Committee, Foreign Correspondents' Club, 
Hong Kong, ``Failure To Explain Missing Booksellers Undermines Hong 
Kong Freedoms,'' 24 February 16.
    \79\ Tom Phillips, ``Hong Kong Activist Hits Out at Beijing in 
Video Over Missing Booksellers,'' Guardian, 4 January 16; Niall Fraser, 
``Lee Po Scandal Threatens Deal on Fugitives Between Hong Kong and 
Macau, Casts Shadow on Legal System,'' South China Morning Post, 31 
January 16.
    \80\ ``Item 2: Joint Statement--Human Rights Situation in China,'' 
Mission of the United States in Geneva, Switzerland, 10 March 16; 
Stuart Lau, ``Bookseller Disappearances Raise Concerns About `Safety 
and Security' of Foreigners in Hong Kong, Says German Consul,'' South 
China Morning Post, 11 April 16; European Commission, ``Joint Report to 
the European Parliament and the Council, Hong Kong Special 
Administrative Region: Annual Report 2015,'' 25 April 16; UK Foreign & 
Commonwealth Office, ``The Six-Monthly Report on Hong Kong: 1 July to 
31 December 2015,'' 11 February 16, 3.
    \81\ ``Item 2: Joint Statement--Human Rights Situation in China,'' 
Mission of the United States in Geneva, Switzerland, 10 March 16; 
Chinese Human Rights Defenders, ``China: Forced TV Confessions Violate 
Principle of Presumed Innocence Before Trial, Constitute Cruel & 
Degrading Punishment,'' 12 March 16. See also ``China's Clampdown on 
Lawyers and Activists Draws Concern of UN Human Rights Chief,'' UN News 
Centre, 16 February 16.
    \82\ UK Foreign & Commonwealth Office, ``The Six-Monthly Report on 
Hong Kong: 1 July to 31 December 2015,'' 11 February 16, 3. See also 
Kris Cheng, ``UK Foreign Sec. Says Bookseller Lee Bo Was Taken to 
Mainland `Under Duress', Still a UK Citizen,'' Hong Kong Free Press, 8 
April 16; ``UK Challenges China Over Missing Hong Kong Bookseller Lee 
Bo,'' BBC, 12 February 16.
    \83\ Demosisto, ``Denounce False Imprisonment by the Chinese 
Government, Stand Up for Hong Kong's Freedom'' [Qianze zhonggong jingu 
gangfu wuneng zong quan], 16 June 16; Democratic Party, ``Democratic 
Party Chair Emily Lau Wai-hing Sends Letter to President Xi Jinping, 
Requesting Public Explanation of the Lam Wing-kei Incident'' [Minzhu 
dang zhuxi liu huiqing qu xin guojia zhuxi xi jinping, yaoqiu gongkai 
jiaodai lin rongji shijian], Facebook, 17 June 16; Simon Denyer, ``The 
Saga of Hong Kong's Abducted Booksellers Takes a Darker Turn,'' 
Washington Post, 17 June 16; Michael Forsythe and Alan Wong, 
``Bookseller's Account of Abduction Rekindles Fear of Lost Rights in 
Hong Kong,'' New York Times, 17 June 16.
    \84\ Civic Party, ``Civic Party Statement on the Causeway Bay 
Bookstore Incident'' [Gongmin dang jiu ``tongluo wan shudian shijian'' 
gongkai shengming], 16 June 16.
    \85\ Aaron Tam, ``Jack Ma's South China Morning Post Takeover a 
Double-Edged Sword,'' Agence France-Presse, 29 November 15.
    \86\ Hong Kong Journalists Association, ``Survey Reveals Worrying 
Trend of Confidence Decline in Press Freedom,'' 22 March 16.
    \87\ InMediaHK, Initium Media, MemeHK, and Stand News, ``Online 
Hong Kong Media Sign Joint Letter, Requesting Government Extend Right 
To Report to Online Media and Citizen Journalists'' [Xianggang wangmei 
lianshu, yaoqiu zhengfu kaifang wangmei ji gongmin jizhe caifang quan], 
reprinted in Initium Media, 11 March 16; Hong Kong Journalists 
Association, ``HKJA Unhappy With ISD Not Allowing Several Online Media 
To Enter NT East By-Election Voting Place To Report, Urges [ISD] To Get 
With the Times'' [Ji xie buman xinwen chu ju duo jia wangmei jin xin 
dong buxuan huichang caifang yu yushibingjin], 29 February 16; Hermina 
Wong, ``Online Media Barred From Covering Vote Counting for Sunday's 
By-Election,'' Hong Kong Free Press, 29 February 16.
    \88\ Hong Kong Journalists Association, ``Government Refuses To 
Approve Online News Media, HKJA Files Complaint With Ombudsman'' 
[Zhengfu ju renke wangshang xinwen meiti ji xie qu han shensu zhuanyuan 
tousu], 13 June 16.
    \89\ `` `Ming Pao' Journalist Beaten by Police for 15 Seconds, All 
Caught on Film!'' [``Ming bao'' jizhe bei jing ou 15 miao quancheng 
yingshai!], Apple Daily, 9 February 16; Hong Kong Journalists 
Association, ``Several Reporters Attacked While Covering Disturbance, 
HKJA Strongly Condemns Violent Behavior'' [Duo ming jizhe caifang 
saodong yuxi ji xie qianglie qianze baoli xingwei], 9 February 16; 
Allen Au-yeung, ``Hong Kong Media Groups Unite To Condemn Violence 
Against Journalists,'' South China Morning Post, 9 February 16.
    \90\ Ibid.; Kris Cheng, ``Local Newspaper Journalist To File 
Complaint After Being `Beaten Up' by Police,'' Hong Kong Free Press, 10 
February 16.
    \91\ Aaron Tam, ``Jack Ma's South China Morning Post Takeover a 
Double-Edged Sword,'' Agence France-Presse, 29 November 15.
    \92\ David Barboza, ``Alibaba Buying South China Morning Post, 
Aiming To Influence Media,'' New York Times, 11 December 15; Bethany 
Allen-Ebrahimian and David Wertime, ``With New Ownership, Can an 
Influential Hong Kong Daily Keep Its Soul? '' Foreign Policy, Tea Leaf 
Nation (blog), 11 December 15; Chris Buckley and Jane Perlez, ``By 
Buying Hong Kong Paper, Alibaba Seeks To Polish China's Image,'' New 
York Times, 13 December 15. See also Chow Chung-yan, ``Alibaba Buys the 
South China Morning Post: Full Q&A With Executive Vice Chairman Joseph 
Tsai,'' South China Morning Post, 11 December 15.
    \93\ Hong Kong Journalists Association, ``HKJA's Response to the 
Control of South China Morning Post by Alibaba Group,'' 11 December 15.
    \94\ ``Young Chinese Legal Activist `Regrets' Civil Rights 
Activism,'' South China Morning Post, 11 July 16.
    \95\ For more information on Zhao Wei, see the Commission's 
Political Prisoner Database record 2015-00277.
    \96\ Tom Phillips, ``Mysterious Confession Fuels Fears of Beijing's 
Influence on Hong Kong's Top Newspaper,'' Guardian, 25 July 16; CECC, 
2015 Annual Report, 8 October 15, 50-51, 272.
    \97\ David Bandurski, ``The Mea Culpa Machine,'' University of Hong 
Kong, China Media Project, reprinted in Medium, 15 July 16; Yaqiu Wang, 
``As Beijing Tightens Grip on Hong Kong Media, Mainland Journalists 
Suffer,'' Committee to Project Journalists (blog), 15 August 16.
    \98\ Tom Phillips, ``Mysterious Confession Fuels Fears of Beijing's 
Influence on Hong Kong's Top Newspaper,'' Guardian, 25 July 16; David 
Bandurski, ``The Mea Culpa Machine,'' University of Hong Kong, China 
Media Project, reprinted in Medium, 15 July 16.
    \99\ Zheping Huang, ``China Is Using Hong Kong's Media To Broadcast 
Its Smear Campaigns,'' Quartz, 1 August 16; David Bandurski, ``The Mea 
Culpa Machine,'' University of Hong Kong, China Media Project, 
reprinted in Medium, 15 July 16.
    \100\ Jeffie Lam et al., ``Top Editor at Major Hong Kong Newspaper 
Abruptly Sacks Deputy,'' South China Morning Post, 20 April 16; 
``Firing of Top Hong Kong Editor After Panama Report Rattles City's 
Media,'' Radio Free Asia, 20 April 16.
    \101\ Hong Kong Journalists Association, Independent Commentators 
Association, Hong Kong Press Photographers Association, Journalism 
Educators for Press Freedom, RTHK Programme Staff Union, Next Media 
Trade Union, and International Federation of Journalists, ``Ming Pao 
Suddenly Fires Executive Chief Editor Keung Kwok-yuen, Seven 
Associations Express Deep Shock'' [Ming bao tu jiegu zhi zong jiang 
guoyuan qi hui shen biao zhenjing], 20 April 16; Ming Pao Staff 
Association, ``With Executive Editors Replaced One After Another, Staff 
Association Worried Reducing Expenses Is Really Payback'' 
[Jie'erliansan chehuan bianji bu guanli ceng xiehui you jieliu zhi ming 
shi qiuhou suanzhang], reprinted in InMediaHK, 20 April 16.
    \102\ Michael Forsythe and Alan Wong, ``Timing of Editor's Firing 
Has Hong Kong Worried About Press Freedom,'' New York Times, 20 April 
16; ``Firing of Top Hong Kong Editor After Panama Report Rattles City's 
Media,'' Radio Free Asia, 20 April 16.
    \103\ Jeffie Lam et al., ``Top Editor at Major Hong Kong Newspaper 
Abruptly Sacks Deputy,'' South China Morning Post, 20 April 16; 
``Firing of Top Hong Kong Editor After Panama Report Rattles City's 
Media,'' Radio Free Asia, 20 April 16; Ming Pao Staff Association, 
``With Executive Editors Replaced One After Another, Staff Association 
Worried Reducing Expenses Is Really Payback'' [Jie'erliansan chehuan 
bianji bu guanli ceng xiehui you jieliu zhi ming shi qiuhou suanzhang], 
reprinted in InMediaHK, 20 April 16.
    \104\ Joseph Lian Yizheng, ``Farewell HKEJ,'' Hong Kong Economic 
Journal, 1 August 16, translated in EJInsight, 2 August 16.
    \105\ Independent Commentators Association and Hong Kong 
Journalists Association, ``ICA and HKJA Express Shock at HKEJ Ending 
Joseph Lian Yi-zheng's Column'' [Pingxie jixie dui ``xinbao'' ting lian 
yizheng zhuanlan biao zhenjing], 29 July 16; ``Open Letter to HKEJ 
Editor-in-Chief Alice Kwok Yim-ming'' [Zhi ``xinbao'' zongbianji guo 
yanming de gongkai xin], reprinted in Facebook, 31 July 16. See also 
Reporters Without Borders, ``The Invisible Hand on Hong Kong's Media,'' 
29 April 16, 9-10.
    \106\ Joseph Lian Yizheng, ``How Hong Kong Independence Can Be 
Legal,'' Hong Kong Economic Journal, 11 April 16, translated in 
EJInsight, 13 April 16; Joseph Lian Yizheng, ``What Beijing Needs To 
Understand About Separatists,'' Hong Kong Economic Journal, 25 July 16, 
translated in EJInsight, 26 July 16.
    \107\ Basic Law of the Macao Special Administrative Region of the 
People's Republic of China [Zhonghua renmin gongheguo aomen tebie 
xingzhengqu jiben fa], passed 31 March 93, effective 20 December 99, 
arts. 47, 68; annexes I, II.
    \108\ Ibid., art. 40.
    \109\ Ibid., arts. 12 (``The Macao Special Administrative Region . 
. . shall enjoy a high degree of autonomy . . ..''), 16 (``The Macao 
Special Administrative Region . . . shall, on its own, conduct the 
administrative affairs of the Region . . ..''), 22 (``No department of 
the Central People's Government and no province, autonomous region, or 
municipality directly under the Central Government may interfere in the 
affairs which the Macao Special Administrative Region administers, on 
its own, in accordance with this Law.'').
    \110\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 25(b). Article 25(b) of the ICCPR 
guarantees the right ``to vote and to be elected at genuine periodic 
elections which shall be by universal and equal suffrage . . ..''
    \111\ UN Human Rights Committee, Concluding Observations on the 
Initial Report of Macao, China, adopted by the Committee at its 107th 
session (11-28 March 2013), CCPR/C/CHN-MAC/CO/1, 29 April 13, para. 7; 
UN Human Rights Committee, Report on Follow-up to the Concluding 
Observations of the Human Rights Committee, CCPR/C/112/2, 8 December 
14, 23.
    \112\ ``Electoral Law Revision Approved With Critics From Pro-
Democracy Wing,'' Macau Daily Times, 10 August 16.
    \113\ Andreia Sofia Silva, ``Secretary Sets Aside Increase in 
Deputies and Political Reform'' [Secretaria afasta aumento de deputados 
e reforma politica], Hoje Macau, 24 November 15; ``Electoral Law 
Revision Approved With Critics From Pro-Democracy Wing,'' Macau Daily 
Times, 10 August 16.
    \114\ New Macau Association, ``Association Won't Stand for the 
Charge of Disobedience Being Imposed on Peaceful Petitioners'' [Xueshe 
juebu jieshou xiang heping dixinzhe qiangjia weiling zuiming], 
reprinted in Facebook, 1 August 16; Angela Ka and Joana Freitas, 
``Another Accusation of Civil Disobedience'' [Mais uma acusacao de 
desobediencia civil], Hoje Macau, 10 August 16. See also Daniel 
Beitler, ``New Macau Head Deemed Suspect in Public Disorder Case,'' 
Macau Daily Times, 17 June 16.
    \115\ Daniel Beitler, ``New Macau Head Deemed Suspect in Public 
Disorder Case,'' Macau Daily Times, 17 June 16.
    \116\ ``3,000 March in Macau Calling on CE Chui Sai On To Step 
Down'' [Aomen 3000 ren youxing cu teshou cui shi'an xiatai], Radio Free 
Asia, 16 May 16; Daniel Beitler, ``Government Losing `Credibility' and 
`Trust' With Macau Youth,'' Macau Daily Times, 17 May 16.
    \117\ Macau Journalists' Association, ``On the Pressure on 
Reporters, AJM Condemns Black Hands' Interference in Jinan University 
Report'' [Xiang jizhe shiya chuanxie qianze heishou ganyu jida baodao], 
Facebook, 13 May 16.
    \118\ Ibid. See also CECC, 2012 Annual Report, 10 October 12, 171; 
CECC, 2013 Annual Report, 10 October 13, 189-90; CECC, 2014 Annual 
Report, 9 October 14, 188-89; CECC, 2015 Annual Report, 8 October 15, 
328.
    \119\ ``Law Proposal `Facilitates' Handover of Convicts and 
Suspects to China'' [Proposta de lei ``facilita'' entrega de condenados 
e suspeitos a china], Jornal Tribuna de Macau, 16 December 15; Macau 
Government Information Bureau, ``Sonia Chan Hoi Fan: HK-Macau Talks on 
Criminal and Judicial Assistance Agreement Progressing Smoothly'' [Chen 
haifan: gang'ao shangtao xingshi sifa huzhu xieyi jinzhan shunli], 10 
March 16.
    \120\ Macau Government Information Bureau, ``Sonia Chan Hoi Fan: 
HK-Macau Talks on Criminal and Judicial Assistance Agreement 
Progressing Smoothly'' [Chen haifan: gang'ao shangtao xingshi sifa 
huzhu xieyi jinzhan shunli], 10 March 16.
    \121\ ``Law Proposal `Facilitates' Handover of Convicts and 
Suspects to China'' [Proposta de lei ``facilita'' entrega de condenados 
e suspeitos a china], Jornal Tribuna de Macau, 16 December 15; ``New 
Macau Fears `Abuses of Power' in Handover of Convicts or Fugitives'' 
[Novo macau teme ``abusos de poder'' na entrega de condenados ou 
fugitivos], Jornal Tribuna de Macau, 4 February 16.
    \122\ ``AL Rejects Extradition Treaty in Surprise Move,'' Macau 
Daily Times, 9 May 16; ``Macau Legislative Assembly Sends Extradition 
Bill Back to Government'' [Aomen lifa hui tuihui zhengfu yindu fa'an], 
Macau News, 9 May 16.
    \123\ Macau Government Information Bureau, ``Sonia Chan Hoi Fan: 
Withdrawal of `Law on Interregional Legal Assistance in Criminal 
Matters' Is Strategic Readjustment'' [Chen haifan: chehui ``quji 
xingshi sifa xiezhu fa'' shu celue tiaozheng], 18 June 16.
    \124\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of Macao, China, adopted by the Committee at its 
1393rd Meeting (3 December 2015), CAT/C/CHN-MAC/CO/5, 3 January 16, 
paras. 22, 23; UN Committee against Torture, Concluding Observations on 
the Fifth Periodic Report of China With Respect to Hong Kong, China, 
adopted by the Committee at its 1392nd and 1393rd Meetings (3 December 
2015), CAT/C/CHN-HKG/CO/5, 3 February 16, paras. 22, 23.
    \125\ Raquel Carvalho, ``Macau Handed Hong Kong Residents to 
Mainland Authorities, Despite Court Declaring It Illegal,'' South China 
Morning Post, 21 February 16; ``Ng Kuok Cheong Wants To See Handover of 
HKSAR Residents to China Clarified'' [Ng kuok cheong quer ver 
clarificada entrega a china de residentes da RAEHK], Jornal Ponto 
Final, 23 February 16. See also Court of Final Appeal of the Macau 
Special Administrative Region, Case No. 12/2007 [Di 12/2007 hao an], 
issued 20 March 07, Summary; Court of Final Appeal of the Macau Special 
Administrative Region, Case No. 3/2008 [Di 3/2008 hao an], issued 12 
February 08, Summary, 3; CECC, 2015 Annual Report, 8 October 15, 329.
    \126\ New Macau Association, ``Urging Wong Sio Chak To Make Public 
the So-Called `Consensus' Reached by Hong Kong and Macau Governments on 
Extradition Agreement'' [Cuqing huang shaoze gongbu gang'ao zhengfu jiu 
yijiao taofan xieyi dacheng suowei ``gongshi''], 3 February 16; ``Hong 
Kong Disappearances Could `Easily' Happen in Macau, Argues Activist'' 
[Desaparecimentos de hong kong poderiam ocorrer ``facilmente'' em 
macau, defende activista], Jornal Ponto Final, 5 January 16; Niall 
Fraser, ``Lee Po Scandal Threatens Deal on Fugitives Between Hong Kong 
and Macau, Casts Shadow on Legal System,'' South China Morning Post, 31 
January 16.
    \127\ ``New Macau Fears `Abuses of Power' in Handover of Convicts 
or Fugitives'' [Novo macau teme ``abusos de poder'' na entrega de 
condenados ou fugitivos], Jornal Tribuna de Macau, 4 February 16; ``Law 
Proposal `Facilitates' Handover of Convicts and Suspects to China'' 
[Proposta de lei ``facilita'' entrega de condenados e suspeitos a 
china], Jornal Tribuna de Macau, 16 December 15.
    \128\ Raquel Carvalho, ``Fugitive Hong Kong Billionaire Joseph Lau 
Could Face Jail Time in Macau if Legal Deal Is Retroactive,'' South 
China Morning Post, 5 February 16.
    \129\ Niall Fraser, ``Chinese Officials To Meet Macau Regulators as 
Mainland Tightens Screws on Gambling Hub,'' South China Morning Post, 
18 January 15. See also CECC, 2015 Annual Report, 8 October 15, 328-
329.
    \130\ Niall Fraser, ``Macau Could Face Crackdown as Beijing Gets 
Tough on Abuse of China UnionPay System,'' South China Morning Post, 11 
December 15; Monetary Authority of Macau, ``Real-Time Monitoring System 
of Mainland Bank Cards'' [Guonei yinhang ka zai xian jiankong xitong], 
11 December 15.
    \131\ Monetary Authority of Macau, ``Real-Time Monitoring System of 
Mainland Bank Cards'' [Guonei yinhang ka zai xian jiankong xitong], 11 
December 15.
    \132\ ``Illegal Transactions With UnionPay Cards in Macau Rise to 
140 Million Euros'' [Transacoes ilegais com cartoes union pay em macau 
ascenderam a 140 ME], Lusa, reprinted in SAPO24, 5 January 16.
    \133\ ``Illegal Transactions With UnionPay Cards in Macau Rise to 
238 Million Euros Through June'' [Transacoes ilegais com cartoes union 
pay em macau ascenderam a 238 ME ate junho], Lusa, reprinted in SAPO 
News, 24 July 16.
    \134\ Monetary Authority of Macau, ``Real-Time Monitoring System of 
Mainland Bank Cards'' [Guonei yinhang ka zai xian jiankong xitong], 11 
December 15.

                                 <all>
</pre></body></html>
